<html>
<title> - DEPARTMENT OF DEFENSE AUTHORIZATION OF APPROPRIATIONS FOR FISCAL YEAR 2015 AND THE FUTURE YEARS DEFENSE PROGRAM</title>
<body><pre>[Senate Hearing 113-465, Part 6]
[From the U.S. Government Publishing Office]




                                                 S. Hrg. 113-465, Pt. 6

DEPARTMENT OF DEFENSE AUTHORIZATION FOR APPROPRIATIONS FOR FISCAL YEAR 
               2015 AND THE FUTURE YEARS DEFENSE PROGRAM

=======================================================================

                                HEARINGS

                               before the

                      COMMITTEE ON ARMED SERVICES
                          UNITED STATES SENATE

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                                   ON

                                S. 2410

     TO AUTHORIZE APPROPRIATIONS FOR FISCAL YEAR 2015 FOR MILITARY 
ACTIVITIES OF THE DEPARTMENT OF DEFENSE, FOR MILITARY CONSTRUCTION, AND 
   FOR DEFENSE ACTIVITIES OF THE DEPARTMENT OF ENERGY, TO PRESCRIBE 
   MILITARY PERSONNEL STRENGTHS FOR SUCH FISCAL YEAR, AND FOR OTHER 
                                PURPOSES

                               ----------                              

                                 PART 6

                               PERSONNEL

                               ----------                              

                       MARCH 26 AND APRIL 9, 2014

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



         Printed for the use of the Committee on Armed Services










                                                  S. Hrg. 113-465 Pt. 6

DEPARTMENT OF DEFENSE AUTHORIZATION FOR APPROPRIATIONS FOR FISCAL YEAR 
               2015 AND THE FUTURE YEARS DEFENSE PROGRAM

=======================================================================

                                HEARINGS

                               before the

                      COMMITTEE ON ARMED SERVICES
                          UNITED STATES SENATE

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                                   ON

                                S. 2410

     TO AUTHORIZE APPROPRIATIONS FOR FISCAL YEAR 2015 FOR MILITARY 
ACTIVITIES OF THE DEPARTMENT OF DEFENSE, FOR MILITARY CONSTRUCTION, AND 
   FOR DEFENSE ACTIVITIES OF THE DEPARTMENT OF ENERGY, TO PRESCRIBE 
   MILITARY PERSONNEL STRENGTHS FOR SUCH FISCAL YEAR, AND FOR OTHER 
                                PURPOSES

                               __________

                                 PART 6

                               PERSONNEL

                               __________

                       MARCH 26 AND APRIL 9, 2014

                               

         Printed for the use of the Committee on Armed Services

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


        Available via the World Wide Web: http://www.fdsys.gov/
                                   ______

                     U.S. GOVERNMENT PUBLISHING OFFICE 

91-191 PDF                     WASHINGTON : 2015 
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing 
 Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
        DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                         Washington, DC 20402-0001
  















                      COMMITTEE ON ARMED SERVICES

                     CARL LEVIN, Michigan, Chairman

JACK REED, Rhode Island              JAMES M. INHOFE, Oklahoma
BILL NELSON, Florida                 JOHN McCAIN, Arizona
CLAIRE McCASKILL, Missouri           JEFF SESSIONS, Alabama
MARK UDALL, Colorado                 SAXBY CHAMBLISS, Georgia
KAY R. HAGAN, North Carolina         ROGER F. WICKER, Mississippi
JOE MANCHIN III, West Virginia       KELLY AYOTTE, New Hampshire
JEANNE SHAHEEN, New Hampshire        DEB FISCHER, Nebraska
KIRSTEN E. GILLIBRAND, New York      LINDSEY GRAHAM, South Carolina
RICHARD BLUMENTHAL, Connecticut      DAVID VITTER, Louisiana
JOE DONNELLY, Indiana                ROY BLUNT, Missouri
MAZIE K. HIRONO, Hawaii              MIKE LEE, Utah
TIM KAINE, Virginia                  TED CRUZ, Texas
ANGUS KING, Maine

                    Peter K. Levine, Staff Director

                John A. Bonsell, Minority Staff Director

                                 ______

                       Subcommittee on Personnel

              KIRSTEN E. GILLIBRAND, New York, Chairwoman

KAY R. HAGAN, North Carolina         LINDSEY GRAHAM, South Carolina
RICHARD BLUMENTHAL, Connecticut      SAXBY CHAMBLISS, Georgia
MAZIE K. HIRONO, Hawaii              KELLY AYOTTE, New Hampshire
TIM KAINE, Virginia                  ROY BLUNT, Missouri
ANGUS KING, Maine                    MIKE LEE, Utah

                                  (ii)




















                            C O N T E N T S

                              ----------                              

                             march 26, 2014

                                                                   Page

The Active, Guard, Reserve, and Civilian Personnel Programs......     1

Wright, Hon. Jessica L., Acting Under Secretary of Defense for 
  Personnel and Readiness; Accompanied by Hon. Jonathan A. 
  Woodson, Assistant Secretary of Defense for Health Affairs; 
  Hon. Frederick E. Vollrath, Assistant Secretary of Defense for 
  Readiness and Force Management; and Richard O. Wightman, Acting 
  Assistant Secretary of Defense for Reserve Affairs.............     3
Davis, John R., Director, Legislative Programs, Fleet Reserve 
  Association....................................................    46
Hayden, Col. Michael F., USAF (Ret.), Director, Government 
  Relations, Military Officers Association of America............    54
Hanson, CAPT Marshall, USNR (Ret.), Director, Legislative and 
  Military Policy, Reserve Officers Association..................    60
Moakler, Kathleen B., Government Relations Director, National 
  Military Family Association....................................    69
Questions for the Record.........................................   100

                             april 9, 2014

To Continue to Receive Testimony on the Active, Guard, Reserve, 
  and Civilian Personnel Programs................................   151

Bromberg, LTG Howard B., USA, Deputy Chief of Staff, G-1.........   155
Moran, VADM William F., USN, Chief of Naval Personnel/Deputy 
  Chief of Naval Operations for Manpower, Personnel, Training, 
  and Education, N-1, U.S. Navy..................................   164
Cox, Lt. Gen. Samuel D., USAF, Deputy Chief of Staff for 
  Manpower, Personnel, and Services, A-1.........................   173
Milstead, Lt. Gen. Robert E., Jr., USMC, Deputy Commandant, 
  Manpower and Reserve Affairs...................................   184
Chandler, SMA Raymond F., III, U.S. Army.........................   205
Stevens, MCPON Michael D., U.S. Navy.............................   212
Cody, CMSAF James A., U.S. Air Force.............................   218
Barrett, SGTMAJMC Michael P., U.S. Marine Corps..................   227
Questions for the Record.........................................   257

                                 (iii)

 
 DEPARTMENT OF DEFENSE AUTHORIZATION OF APPROPRIATIONS FOR FISCAL YEAR 
               2015 AND THE FUTURE YEARS DEFENSE PROGRAM

                              ----------                              


                       WEDNESDAY, MARCH 26, 2014

                               U.S. Senate,
                         Subcommittee on Personnel,
                               Committee on Armed Services,
                                                    Washington, DC.

        ACTIVE, GUARD, RESERVE, AND CIVILIAN PERSONNEL PROGRAMS

    The subcommittee met, pursuant to notice, at 10:03 a.m. in 
room SR-222, Russell Senate Office Building, Senator Kirsten 
Gillibrand (chairwoman of the subcommittee) presiding.
    Committee members present: Senators Gillibrand, Hirono, 
Kaine, King, Ayotte, Graham, and Lee.

 OPENING STATEMENT OF SENATOR KIRSTEN E. GILLIBRAND, CHAIRWOMAN

    Senator Gillibrand. The subcommittee meets today to receive 
testimony from the Department of Defense (DOD) on the Active, 
Guard, Reserve, and civilian personnel programs in review of 
the Defense Authorization Request for Fiscal Year 2015 and the 
Future Years Defense Program.
    Today, we will have two panels. The first one consists of 
our senior DOD leaders, with whom we will discuss not only DOD 
personnel policy issues but specific budget proposals in 
furtherance of our subcommittee's oversight responsibilities.
    The Honorable Robert F. Hale, Under Secretary of Defense, 
Comptroller; the Honorable Jessica L. Wright, Acting Under 
Secretary of Defense for Personnel and Readiness; the Honorable 
Jonathan A. Woodson, Assistant Secretary of Defense for Health 
Affairs; the Honorable Frederick E. Vollrath, Assistant 
Secretary of Defense for Readiness and Force Management; and 
Mr. Richard O. Wightman, Acting Assistant Secretary of Defense 
for Reserve Affairs.
    Our second panel will consist of representatives from 
beneficiary groups who represent the interests of Active Duty 
and Reserve servicemembers, retirees, and their families. I 
will introduce them after the first panel concludes.
    DOD submits its budget for fiscal year 2015 at a time of 
tremendous challenge and uncertainty for the Nation, the 
military, and our servicemembers, retirees, and their families. 
DOD will not be under sequestration in the coming fiscal year 
but nevertheless faces a constrained fiscal environment. The 
$496 billion top line for DOD is unchanged from the funding 
levels in fiscal years 2013 and 2014 and remains more than $30 
billion below the funding provided to DOD in fiscal years 2010, 
2011, and 2012.
    Military personnel funding, including funding for health 
care for servicemembers, their families, and retirees, totals 
$176.6 billion in the fiscal year 2015 request. This represents 
a slight decline over last year's total, although the portion 
of the total budget devoted to personnel has risen slightly.
    The proposal before us includes numerous reductions in pay 
and benefits about which many, including myself, have serious 
concerns. The budget put forward by DOD proposes significantly 
lower end strengths for the ground forces through 2019, 
including a reduction of 50,000 more than had previously been 
planned in Active Duty Army end strength, with smaller 
reductions in the Guard and Reserve. The budget sets a pay 
raise for servicemembers below the rate of inflation, freezes 
pay for general and flag officers, begins a phased reduction in 
the growth of the housing allowance that will result in 
servicemembers paying 5 percent out-of-pocket for housing 
costs, reduces support to commissaries that will result in 
higher prices, and makes significant and structural changes to 
the TRICARE benefit.
    In all, DOD's personnel and compensation proposal seeks to 
save over $2 billion in fiscal year 2015 and shifts those 
savings to the Operation and Maintenance account. Each of these 
reductions is significant in and of itself, but I am extremely 
concerned about the cumulative effect of all of these cuts, 
especially on the junior members of the force and their 
families.
    These benefit proposals are being made, I would note, while 
the Military Compensation and Retirement Modernization 
Commission (MCRMC), established in the 2013 defense bill, has 
yet to finish its work. The MCRMC was established to review all 
aspects of the military compensation and retirement systems, 
including health care, and how these systems might be reformed 
to modernize and enhance the viability of the All-Volunteer 
Force. It will report its findings and recommendations next 
February.
    The Services continued the process of removing barriers to 
service by women, an effort I strongly endorse. This past 
January, the Army notified Congress of its intent to open 
33,000 positions to women that were previously closed due to 
their proximity to combat. These positions are in military 
occupational specialties (MOS) already open to women. The real 
challenge moving forward will be opening occupations such as 
infantry that are currently closed.
    A little more than a year ago, Secretary Panetta and 
General Dempsey rescinded the Ground Combat Exclusion Policy 
and gave the Services and the Special Operations Command until 
January 2016 to open all positions to service by women or to 
request an exception to keep certain positions closed. I 
believe in the value of a deliberative and scientific approach 
in evaluating occupational standards for all military jobs, 
which I hope will be the Services' approach. I do expect that 
once these standards are properly validated, be they physical, 
mental or technical, that all servicemembers, men and women, 
will be able to serve and compete for any military job for 
which they meet the requirements necessary for the position.
    I remain concerned about sexual assault in the military. I 
was disappointed that despite the support of the majority of my 
colleagues, we were not given an opportunity to vote on passage 
of my proposal to make sure that decisions to prosecute serious 
offenses are made by trained, professional, and independent 
lawyers rather than commanders who don't necessarily have the 
training or perspective to make these decisions objectively. 
But I have not given up on making this change that so many 
survivors have told us will make a difference when it comes to 
reporting the crime.
    I will also continue my efforts to make sure that the 
changes that have been legislated are implemented in an 
effective manner and will continue to work toward initiatives 
to better address this scourge in our military.
    I am also interested to hear more about the standard of 
care you are providing to our servicemembers and their 
families, something which must not be sacrificed in an era of 
belt-tightening. I believe that ensuring that servicemembers, 
retirees, and their families get the best care is fundamental 
to readiness. As you are aware, I am particularly concerned 
about your work in support of the developmentally disabled 
dependents of servicemembers.
    I look forward to hearing your testimony about other 
important personnel programs and the overall morale and health 
of our military. As always, I encourage you to express your 
views candidly and to tell us what is working well and to raise 
any concerns and issues you may want to bring to the 
subcommittee's attention. Let us know how best we can assist 
our servicemembers and their families to ensure that our 
military remains steadfast and strong.
    So now I would like to turn it over. When Senator Graham 
joins us, he can use his opening statement at his discretion.
    Secretary Hale, if you would like to start with your 
statement.
    Secretary Hale. Madam Chairwoman, I'm going to defer to 
Secretary Wright to open up. Then I'll have a brief statement.
    Senator Gillibrand. That's fine.
    Secretary Wright.

STATEMENT OF HON. JESSICA L. WRIGHT, ACTING UNDER SECRETARY OF 
   DEFENSE FOR PERSONNEL AND READINESS; ACCOMPANIED BY HON. 
JONATHAN A. WOODSON, ASSISTANT SECRETARY OF DEFENSE FOR HEALTH 
  AFFAIRS; HON. FREDERICK E. VOLLRATH, ASSISTANT SECRETARY OF 
  DEFENSE FOR READINESS AND FORCE MANAGEMENT; AND RICHARD O. 
  WIGHTMAN, ACTING ASSISTANT SECRETARY OF DEFENSE FOR RESERVE 
                            AFFAIRS

    Ms. Wright. Chairwoman Gillibrand, Senator Graham, 
distinguished members of the subcommittee, I appreciate the 
opportunity to appear before you to discuss personnel and 
readiness programs in support of the President's fiscal year 
2015 budget request.
    More than a third of the DOD's base budget supports our 
military personnel pay and benefits package. As Secretary Hagel 
testified, DOD's priority for this budget is to balance pay and 
benefit compensation with force readiness.
    We have planned for a capability favoring a smaller force 
that is trained properly and modernized to accomplish the 
mission. This budget reflects long and careful deliberations, 
and it came with some very sobering choices that we had to 
make.
    This budget reflects a 1 percent pay raise in base pay for 
military personnel, with the exception of general and flag 
officers, whose pay will be frozen for a year. DOD is proposing 
to gradually slow the growth of the tax-free basic allowance 
for housing (BAH) until BAH ultimately covers approximately 95 
percent of the average servicemember's housing expense. We will 
also eliminate renter's insurance costs from the allowance. 
These changes will be phased in over several years to allow 
members to plan accordingly.
    We propose a $1 billion decrease over 3 years to the annual 
budget to operate the commissaries. Our plan does not direct 
the closure of any commissaries. Overseas commissaries and 
those commissaries in remote locations will continue to receive 
subsidies.
    We will simplify and modernize our TRICARE health program 
by consolidating all of the plans and by adjusting deductibles 
and co-pays. These changes will encourage members to use the 
most affordable means of care, such as the Military Treatment 
Facilities (MTF), preferred providers, and generic 
prescriptions. The proposed single TRICARE system consolidates 
the various TRICARE options into one plan.
    We know that compensation and benefits are only part of 
what attracts and retains people in our military, and this is 
especially true when we talk directly to our servicemembers. 
Our members join our Services to learn and exercise their 
skills. We believe that readiness and training are clearly the 
ultimate care we can give our servicemembers. If we cannot 
afford to train, exercise, and operate, if the quality of their 
service is diminished, we will precisely lose those 
servicemembers we want to retain.
    We have an obligation to ensure servicemembers and their 
families are fairly and appropriately compensated and that 
caring for them during their time and after their time in 
uniform is also on our radar scope. We also have the solemn 
responsibility to give our troops the finest training and the 
finest equipment possible. When America calls upon our 
servicemembers, they must be prepared with every advantage we 
can give them so they return home safely to their family and 
friends. The President's budget fulfills both of these promises 
to our servicemembers and their families.
    Ma'am, thank you, and I look forward to your questions.
    Ma'am, we were asked for only one statement, and Mr. Hale 
will follow.
    Secretary Hale. Madam Chairwoman, Senator Graham, thank you 
for the chance to appear today. Secretary Wright has outlined 
the key personnel issues with DOD's 2015 budget. I would like 
to expand on a couple of them, with a focus on the budget.
    Balance is the key goal in the 2015 DOD budget. We have 
made hard choices designed to create a force that can carry out 
the overall defense strategy, though with higher risk in some 
missions.
    To minimize risk, we sought a balanced combination of 
military readiness, size, and technical capability, and we did 
this while meeting some pretty stringent budget limits. 
Achieving this balance required a lot of difficult decisions. I 
will focus on just two that are particularly related to 
personnel.
    Even under the budget proposed by the President, we had to 
reduce the size of our military forces. Compared to levels 
expected at the end of this year, total Active Duty military 
personnel will decline by about 6 percent by fiscal year 2019. 
Guard and Reserve personnel decline by a lesser amount, 4 
percent. Civilian personnel decline about 5 percent.
    These planned cutbacks in personnel would be even larger if 
sequester-level budgets return. The President has proposed 
budgeting at levels above the Budget Control Act caps, the 
sequester levels, by a total of $115 billion in the years 2016 
through 2019. If Congress does not increase the caps to 
accommodate the President's proposed budget levels, then 
military forces would have to decline by larger amounts. For 
example, instead of a 6 percent decline in Active Duty, it 
would go to 9 percent under sequester-level budgets.
    These personnel cutbacks mean that we will have fewer 
forces available. Under the President's proposed budget, the 
Air Force will retire more than 300 aircraft, including all of 
its A-10 and U-2 fleets. The Navy will put 11 ships into phased 
modernization and eliminate crews while the ships are in this 
status. The Army will reduce the number of brigade combat teams 
and combat air patrols, and force reductions would be even 
larger under sequester-level budgets.
    We believe that a smaller military force, even though it 
means accepting more risk in some missions, is necessary so 
that we can comply with the budget limits while still having 
enough funds to modernize and provide a high level of 
readiness. Smaller forces are one key to maintaining the 
balance that is the theme of this budget.
    Balance also requires some reductions and rebalancing in 
the Guard and Reserve. The Reserve components have performed 
superbly over the past 10 years. I have watched this for 40 
years. If you had told me we could have seen the Guard and 
Reserve in 13 years of war and still maintain recruiting and 
retention, I think I would have been very skeptical, but they 
did it. We intend to maintain the Reserve components as full 
war-time partners in addition to their homeland defense mission 
and the other important things they do.
    However, there are some missions that are simply best 
suited for the Active Forces--for example, the ``Fight 
Tonight'' kinds of missions. Therefore, as we work toward 
balanced reductions in the size of the military, we plan some 
cutbacks in Reserve component forces, though by a smaller 
percent than the cuts imposed on the Active-Duty Forces.
    Another key to balance is the difficult decisions we have 
made regarding military compensation. As Secretary Wright has 
reviewed those, I won't go through them again. We made them in 
order to comply with budgetary limits while preserving enough 
funds for training and maintenance. We need that to return to a 
high state of military readiness.
    Our compensation proposals follow some clear principles. No 
one's pay and allowances will be cut. We will slow the growth, 
but we will not cut pay and allowances. We will ensure that 
compensation is sufficiently generous to attract and retain the 
people we need to man the military in a very demanding 
profession. We will make sure that we support the All-Volunteer 
Force. The funds saved by slowing the growth in military 
compensation will all be reinvested in training and 
maintenance. That is a commitment we made to the Joint Chiefs 
when they developed these proposals, and we have kept it.
    Secretary Wright, as I said, already reviewed the 
proposals. They have an important effect on the balance in this 
budget. Madam Chairwoman, you referred to this. If Congress 
turns down all of these proposals, most of which require 
legislation, then in order to live within the budgetary limits, 
Congress will have to find $2.1 billion in other cutbacks in 
fiscal year 2015, and together we will have to identify $31 
billion of additional cutbacks over the next 5 years. These 
cuts are going to have to come out of readiness and 
modernization. There is nowhere else to go. This will harm the 
balance that we believe is needed to minimize risk to national 
security.
    Senator King. Excuse me. What was the figure for the 5 
years?
    Secretary Hale. $31 billion.
    We know that this budget features difficult choices. They 
were difficult for us--I sat through I don't know how many 
meetings on the budget as we went through this with the Chiefs 
and the Secretary--and they are also very difficult for you. 
But we believe we have created a balanced package of changes 
that meet budgetary limits while permitting us to carry out the 
current defense strategy, though with some added risks in 
certain missions. We ask for your support for these budgetary 
proposals.
    With that I'll stop, and I believe we are now ready for 
questions.
    [The joint prepared statement of Secretary Wright, 
Secretary Vollrath, Secretary Woodson, and Secretary Wightman 
follows:]
  Joint Prepared Statement by Hon. Jessica L. Wright, Hon. Frederick 
   Vollrath, Hon. Jonathan Woodson, and Mr. Richard O. Wightman, Jr.
    Chairwoman Gillibrand, Senator Graham, and distinguished members of 
the subcommittee, I appreciate the opportunity to appear before you to 
discuss key personnel and manpower matters in support of the 
President's fiscal year 2015 budget request. The fiscal year 2015 
Defense budget request of $495.6 billion includes $176.6 billion for 
our military personnel pay and benefits, such as retirement benefits 
and medical care, which make up more than a third of the Department's 
base budget request.
    As Secretary Hagel testified before you, the Department's priority 
was to balance readiness, capability and capacity, favoring a smaller 
force that is properly trained, capable and modernized to accomplish 
its mission. The Secretary of Defense has been very clear that 
sequestration funding limits imposed by the Budget Control Act (BCA) of 
2011 will yield a force that is too small, and not ready enough to meet 
the Nation's security objectives. That said, the President's budget 
allows us to begin responsibly adapting and reshaping our defense 
enterprise in an era of unprecedented uncertainty and change.
    The President's plan reflects the imperative to ensure that our 
military forces are ready and capable of responding to a rapidly 
evolving and complex security environment both now and in the future. 
It also reflects the difficult choices brought about by severely 
constrained resources and extreme fiscal uncertainty. These choices 
include:

        <bullet> Reductions in troop strength and force structure in 
        every Military Service--Active and Reserve--in order to sustain 
        our readiness and technological superiority, and to protect 
        critical capabilities like Special Operations Forces and cyber 
        resources.
        <bullet> Terminations or delays in some modernization/
        procurement programs to protect our most acute readiness 
        challenges in training and maintenance.
        <bullet> Slowed growth of military compensation costs in ways 
        that will preserve the quality of the All-Volunteer Force, but 
        also free up critical funds needed for sustaining training, 
        readiness, and modernization.
                  balancing a ready and capable force
    Thirteen years of demanding operations in support of Operation 
Iraqi Freedom and Operation Enduring Freedom required the Services to 
generate forces suited to those missions at the expense of maintaining 
the full spectrum of capabilities demanded by the 2012 Defense 
Strategic Guidance (DSG). As those operations began to wind down, the 
Services faced a series of challenges of simultaneously broadening 
their operational focus and reducing force capacity in an era of 
diminishing resources. The President's budget request for fiscal year 
2014 reflected the Services' plans for recovering these full-spectrum 
capabilities over the next 5 years. Sequestration in fiscal year 2013, 
operating under a 6 month continuing resolution, and unanticipated war 
costs all contributed to degraded readiness and hindered those initial 
readiness recovery plans. As a result, readiness was alarmingly low by 
the end of fiscal year 2013.
    The Bipartisan Budget Act (BBA) of 2013 unquestionably stemmed this 
readiness decline. The fiscal year 2014 enacted appropriations targeted 
the most pronounced shortfalls, especially in the areas of training and 
maintenance. However, fiscal year 2015 funding levels do not sustain 
that level of investment. The budget does not provide adequate funding 
for modernization, increased training and facility sustainment needed 
to resolve the Department's readiness challenges. However, under the 
very tight constraints of the fiscal year 2015 funding caps and the 
uncertainty of funding levels in future years, the breadth and scope of 
our existing readiness challenges guarantee that they will take years 
of sustained investment to fix. It took years to produce our readiness 
challenges and it will take years to resolve them.
    Over the last decade, counterinsurgency training and operations 
have crowded out the ability to train for higher-end, doctrinal 
missions. This not only reduced the full-spectrum capability of units, 
it limited the leadership development of the junior and mid-grade 
members who will lead future operations. The Army estimates that over 
5,500 company commanders did not receive the necessary professional 
development in combined arms maneuver as part of unit decisive action 
training. The Air Force, Marine Corps and Special Operations Forces saw 
similar patterns and while their units have performed extraordinarily 
well for the missions they are currently assigned, they are not 
prepared for the full spectrum of conflict. Fiscal year 2014 and 2015 
funding allowed some training recovery, but not enough to relieve this 
backlog.
    Much of the funding requested in the Opportunity, Growth and 
Security Initiative is designed to further close readiness gaps in 
training. For example, while the Army already programmed for 17 full-
spectrum training rotations for fiscal year 2015, it would apply its 
investment funds to additional ground and aviation training, allowing 
them to make greater progress in regaining full-spectrum capability. 
The Marine Corps would direct additional funds towards training its 
operational forces, maximizing its opportunity to create expeditionary, 
highly capable forces to provide forward presence and crisis response. 
The Air Force would increase flying hours with extra funds to give 
pilots more flying time to further restore capabilities across the full 
range of required missions. U.S. Special Operations Command will 
provide additional funding to help recover maritime skills for SEALs 
and full-spectrum aviation readiness for special operations aviators.
    The Opportunity, Growth and Security Initiative would also help 
resolve some of the Service's maintenance challenges, especially 
aviation maintenance. However, probably the most important use of this 
investment fund is to address mounting degradations in the facilities, 
ranges, logistics support, and procurement. The Services have been 
driven to underfund these accounts in order to protect higher-priority 
training and maintenance concerns. While defendable, this strategy is 
not sustainable. For example, the Navy needs additional funding to 
reinstate a large portion of their facility sustainment, 
recapitalization and modernization accounts. This funding will help 
protect the industrial base and allow for fluid throughput at the 
maintenance centers and shipyards. Similarly the Marine Corps and Air 
Force both seek additional funding to cover range upkeep and 
modernization.
    The President's plan to create a smaller but capable force did not 
come without sobering choices. The most difficult involve drawing down 
end strength and slowing the growth military and civilian personnel 
costs. We know that the single most critical readiness determinant is 
the quality of our people. Our military personnel and their families 
have shouldered the worst costs of the longest war in our Nation's 
history and deserve the most compensation a grateful nation can afford. 
We have also vowed to never again send our people into harm's way 
unprepared for the missions they will face. Today's fiscal climate 
creates huge challenges in balancing these two imperatives. This budget 
reflects long and careful deliberation about how to strike this 
balance. Below are specific force structure and compensation proposals 
that would allow the Department to achieve that end.
Reduction in End Strength
    Since the Department of Defense (DOD) strategy will no longer size 
the force for prolonged stability operations, the Army will accelerate 
the pace of its drawdown, attaining an end strength of 490,000 by the 
end of fiscal year 2015 from the current 520,000 and will continue to 
drawdown to a range of 440,000 to 450,000 Active Duty soldiers in 
subsequent years. To maintain a balanced force, the Army National Guard 
and Reserves will also draw down in fiscal year 2015 to 350,200 and 
202,000, respectively and continue to 335,000 and 195,000 in subsequent 
years. We will help ensure this force remains well trained and 
equipped.
    However, if sequestration returns in 2016, both the Army Active and 
Reserve components would be forced to be smaller, with an uncertain 
level of readiness, resulting in a drawdown to 420,000 Active, 315,000 
National Guard, and 185,000 Reserves.
    The Marine Corps Active Force numbers about 190,000 today and will 
draw down to 182,000 in the next several years. This figure provides 
for about 900 additional marines for embassy security. Unfortunately, 
like the Army, they will have to reduce further, to about 175,000, if 
sequestration is not avoided. The Marine Corps Reserve is also planning 
for a slight decrease.
    Air Force end strength reflects force structure choices, decreasing 
to 310,900 in fiscal year 2015, while the Reserve and Guard decrease 
slightly to 67,100 and 105,000, respectively. Like the Air Force's, 
Navy end strength complements force structure choices. Navy strength 
remains steady in fiscal year 2015 at 323,600, while the Reserve 
declines slightly to 57,300.
Pay Increase (except GO/FO for 1 year)
    The fiscal year 2015 President's budget requests a 1 percent raise 
in basic pay for military personnel, with the exception of general and 
flag officers, whose pay will be frozen for a year. Basic pay raises in 
future years will be similarly restrained, though modest increases will 
continue.
    Finding the appropriate balance between providing the men and women 
who serve our great nation a competitive package of pay and benefits 
and, while providing them the best possible training and equipment is a 
monumental challenge in the current fiscal environment. Making 
appropriate adjustments to control the growth in compensation costs now 
will aid the Department in achieving this balance.
Basic Allowance for Housing (BAH)
    DOD is proposing to gradually slow the growth rate of the tax-free 
basic allowance for housing, until the BAH ultimately covers 
approximately 95 percent of the average servicemember's housing 
expenses, and eliminate renter's insurance costs from the allowance. 
This will allow the Department to effectively operate under constrained 
budgets, while still being able to recruit and retain an All-Volunteer 
Force. These changes will be phased in over several years to allow 
members to plan accordingly. Additionally, the rate protection feature 
already in place for BAH will remain in effect. A member's BAH will not 
be reduced so long as that member retains eligibility for BAH at the 
same location and does not change dependency status or lose rank. 
Servicemembers in the same pay grade but living in different areas 
would have their BAH rates adjusted by the same dollar amount to ensure 
members retain the same purchasing power regardless of the cost of 
housing in their local area. Adjusted rates will be publicly available 
(as they are today) to allow members to make informed decisions when 
making housing choices. Depending on a member's actual housing choices, 
they may or may not have to pay any out of pocket costs. Savings 
generated from this proposal will be reinvested back into the force for 
training and readiness.
                commissaries--reducing direct subsidies
    Commissaries currently receive an appropriation of $1.4 billion per 
year. We propose a $1.0 billion decrease to the annual budget to 
operate commissaries, with the decrease taking place gradually over the 
next 3 years. Our plan does not direct the closure of any commissary. 
Under this plan overseas commissaries and those in remote locations 
will continue receiving direct subsidies. The Defense Commissary Agency 
(DeCA) will continue to receive approximately $400 million to support 
overseas commissaries and those commissaries designated by the 
Department as remote/isolated. Prices at all commissaries will rise, 
however, and the mix of products may change. Commissaries will also 
need to find additional operating efficiencies. This plan requires 
changes to U.S. law. The Department is drafting a proposal for the 
National Defense Authorization Act (NDAA) for Fiscal Year 2015 to 
implement the adjustments.
    DOD recognizes the value of commissaries to our people, especially 
younger military families and retirees. Stateside commissaries, 
however, have many private-sector competitors and it is reasonable to 
operate more like a business. Commissaries will continue to provide 
good deals to servicemembers, military families and retirees and will 
remain a dependable benefit for families, particularly those serving 
overseas and in remote and isolated areas.
                     tricare--system modernization
    We will simplify and modernize our TRICARE health insurance program 
by consolidating plans and adjusting deductibles and co-pays in ways 
that encourage members to use the most affordable means of care--such 
as military treatment facilities, preferred providers, and generic 
prescriptions, while also increasing their freedom of choice. The 
proposed TRICARE Consolidated Health Plan consolidates the various 
TRICARE plans, while also increasing their freedom of choice. Prime, 
Extra, and Standard, into one plan. The proposal also includes modest 
changes in beneficiary out-of-pockets costs for Active Duty families, 
retirees and their families, and Reserve Component members and their 
families.
    Servicemembers on Active Duty would have no out-of-pocket expenses 
regardless of the point of care delivery (Military Treatment Facilities 
[MTF], network, or out-of-network) and the highest priority for MTF 
care. The cumulative effect of the proposed TRICARE fee increases still 
ensures beneficiary out-of-pocket costs: (a) remain far below costs 
experienced by military beneficiaries in 1994; and (b) remain far 
better than virtually every comparable employer in the United States 
today. The TRICARE benefit remains one of the most comprehensive 
benefits in the country, as it should be.
The Quality of Service
    The quality of our men and women in uniform directly contributes to 
our role as the world's pre-eminent fighting force. We know that 
pecuniary compensation is only part of what attracts and retains 
people, and this is especially true for military members. Our members 
join the Service to learn and exercise new skills. The opportunity for 
overseas travel is often an explicit benefit cited by recruits. 
However, if we cannot afford to train, exercise, or operate--in other 
words, if the quality of our Service diminished, we will lose precisely 
those members who we want to retain the most.
    We have experienced just these problems before. In the late 1990s, 
when budgets were under significant pressure, the Navy and Air Force 
were not able to keep aircraft up and flying. Problems were so acute, 
that the Navy even experimented with ``bagging'' aircraft as a means of 
storing aircraft that they could not afford to fly. At the same time, 
the airlines were actively recruiting and, as a result, we suffered 
significant losses in second-tour, experienced pilots. It took years 
and a variety of bonuses to recover from the degradation.
    We are very concerned about repeating these mistakes. Today, we are 
struggling to maintain the same promise of a valuable military career 
to our members and must protect our training and exercise dollars to 
keep our best and brightest.
    America has an obligation to make sure servicemembers and their 
families are fairly and appropriately compensated and cared for during 
and after their time in uniform. We also have a responsibility to give 
our troops the finest training and equipment possible--so that whenever 
America calls upon them, they are prepared with every advantage we can 
give them so that they will return home safely to their families. The 
President's budget fulfills both of these promises to our 
servicemembers and their families by making several specific proposals.
                    total force and force management
    A fundamental key to future readiness is the well-reasoned 
management of the Total Force of Active and Reserve military, 
government civilians and contracts for services. DOD must balance force 
readiness with fiscal reality in the face of uncertain, evolving 
operational challenges.
    We do not believe this is simply an issue of the ``least costly 
force.'' Moreover, the Nation's uniformed All-Volunteer Force is the 
implicit assumption upon which all our commanders' plans are 
predicated. If we fail to sustain it, little else will matter. However, 
even the All-Volunteer Force must conform to today's fiscal challenges. 
The proposed Active and Reserve Force structure in the fiscal year 2015 
budget reflects this reality while ensuring that we meet our defense 
strategy.
    The Services continue to reduce their forces to meet their 
prescribed end strengths. With the assistance of Congress, DOD has the 
force shaping tools necessary to meet the drawdown in its current plan. 
However, continued budget reductions make it necessary to revisit the 
composition of all components of the Total Force--Active Duty, Reserve 
component, DOD civilians and contractors. Future assessment may require 
requesting additional congressional authorization for force shaping 
tools to meet reduced end strengths.
Active and Reserve Component Recruiting and Retention
    The All-Volunteer Force has performed remarkably well for more than 
40 years. This success does not come easily and is the result of 
teamwork and countless hours by a dedicated force of professional 
recruiters. Even after 13 years of protracted conflict our recruiters 
continue to attract the best and the brightest of America's youth from 
around the country. These diverse young men and women represent the 
United States proudly around the world as members of the strongest and 
most respected military in the world.
    Fiscal year 2013 was a successful recruiting year. All but two of 
the components achieved fiscal year 2013 missions, with only the Army 
Guard (99 percent) and the Army Reserve (88 percent) recruiting less 
than their goal. Competition for high quality Reserve recruits will 
increase as the economy improves and the Services draw down. Reserve 
recruiting missions may be more difficult to achieve. As such, the 
recruiting forces have already begun to adopt a more aggressive 
proactive canvassing approach to their efforts. However, as the Active 
component continues to reduce end strength, some Active Duty members 
may choose to continue Service in the Reserve component.
    Collectively, DOD recruited 276,210 new enlisted members for the 
Total Military force in fiscal year 2013. The Department also met or 
exceeded both of the established benchmarks for new recruits in fiscal 
year 2013. DOD-wide, 99.6 percent of new Active Duty recruits, and 96.6 
percent of Reserve recruits, were high school diploma graduates against 
our benchmark of 90 percent. Further, 75 and 67 percent respectively 
scored above average on the AFQT, versus our benchmark of 60 percent. 
Through the first quarter of fiscal year 2014, all Services except Army 
Reserve have met or exceed recruiting quantity and quality objectives 
year-to-date.
    The recruiting market is changing and DOD's continued recruiting 
success may become more difficult and we must remain focused and 
vigilant. Today, nearly 75 percent of our youth are not qualified for 
military Service with medical conditions and weight accounting for most 
of the disqualifications. Data from the Joint Advertising and Market 
Research and Studies (JAMRS) program also show that only 14 percent of 
youth are inclined to serve in the Military. Current economic 
conditions have highlighted the value of serving in the military to 
some people who in the past may not have given it serious 
consideration. However, the downward trend in youth unemployment 
indicates we are entering a more competitive employment environment, 
which can make Military Service less attractive.
    In these times of constrained resources each Service has reviewed 
and made adjustments to its recruiting programs. However, we must be 
prudent in considering further cuts to these programs. In order to man 
the All-Volunteer Force, sustained resources must be available for the 
Services to continue to meet the recruiting missions which are vital to 
our Nation's security.
    Fiscal year 2013 was also a successful year for retention, as each 
of the Services successfully met their overall retention goals. Reserve 
component attrition has also remained consistent in both fiscal year 
2012 and 2013. The aggregate fiscal-year-to-date departmental attrition 
rate was 5.97 percent in fiscal year 2013 and is currently at 5.99 
percent. However, as we reduce the budget and the economy continues to 
improve, it will become increasingly challenging to retain the best and 
most qualified servicemembers. Reduced discretionary funds will limit 
our ability to offer selective reenlistment bonuses in high demand-low 
density skills that are equally valued in the private sector.
Special Pays and Bonuses
    While retention has been strong over the past several years, 
certain career fields and specialties continue to see manning shortages 
and experience difficulty in filling billets in certain critical 
skills. As a result, DOD continues to rely on the use of special and 
incentive pays. At less than $4 billion, these pays are a small, but 
critical, part of the total budget. They provide a cost effective and 
efficient tool by selectively and precisely targeting pay to 
incentivize specific behaviors in order to address our specific force 
manning challenges.
    DOD is currently in the midst of a 10-year plan to transition the 
legacy special and incentive pays to the new, flexible special and 
incentive pay authorities provided by Congress. To date, the Department 
has implemented seven of the ten consolidated authorities in 
subchapters II and III, chapter 5, title 37 U.S. Code. For example, the 
general bonus authority for enlisted members (section 331) consolidates 
nine separate authorities, allowing the Department to offer enlisted 
bonuses to members in the Active and Reserve components. We are 
currently on schedule in the transition process and expect the entire 
transition process to be complete on time.
The ``Right'' Mix of the Active and Reserve Forces
    The Reserve component offers the opportunity to preserve military 
capability and capacity at reduced cost. Keeping the Reserve component 
prepared through periodic deployments adds value to the military by 
maintaining Guard and Reserve readiness, augmenting the Active 
component, and providing force structure options in our resource 
constrained environment.
    Recently passed legislation has enabled the Services to program the 
operational use of the Reserve component by providing access for 
National Guard and Reserve utilization. I appreciate the authorities 
and support this committee has provided in this matter.
    The Reserve components are more integrated, and are better manned, 
equipped and trained than ever before in history. Reserve component 
units and servicemembers have answered the call globally and in 
significant domestic crises. The systems for producing ready Active 
component and Reserve component forces have improved dramatically in 
the last 13 years of war. Those systems that are working now must be 
sustained to retain the best of what has been gained. As we shift to a 
smaller military, more modern and capable of global actions, the 
Department will continue to leverage the Reserve component.
    As overall deployments decrease, military integration and 
initiatives to enhance integration will sustain readiness. The Air 
Force, by example, has pioneered a culture of utilization of the 
Reserve component, specifically, where associate units share equipment 
and facilities and maintain readiness to identical standards. Across 
the Services, there are opportunities to further integrate Reserve 
component into Active component and vice versa, leading to greater 
efficiency and effectiveness. The fiscal challenges we face call for 
innovative solutions to readiness problems, and we will continue to 
foster greater utilization and integration of the Reserve component.
Civilian Hiring Freeze and Furloughs
    One of the highest profile effects of sequestration was the 
furlough of the majority of DOD's civilian workforce. We applied 
furlough actions in a consistent and equitable manner, with exceptions 
based on specific mission requirements. We also implemented, with 
limited exceptions, a civilian hiring freeze during this tough budget 
period.
    The disruptions of the furlough had an immediate negative impact on 
our civilian workforce, potentially damaging our ability to carry out 
the Department's mission. Declines in morale and productivity, as well 
as recruiting were all exacerbated by the challenging fiscal 
environment. The hiring freeze also put the Department further at risk 
of competency gaps and critical skill shortages in key mission critical 
areas.
    Going forward, DOD is working to reshape our civilian workforce to 
increase efficiencies and meet targeted reductions, while ensuring that 
the workforce has the skills needed for the future. As we do so, our 
goal is to do everything possible to avoid more hardship. Where 
necessary, we will continue hiring freezes, and encourage the liberal 
use of Voluntary Separation Incentive Pay (VSIP) and Voluntary Early 
Retirement Authority (VERA), both of which have been valuable in 
reducing involuntary separations and associated costs.
Achieving Better Governance of Contract Services
    We are giving this element of the Total Force more scrutiny. The 
$29.9 billion in contracting efficiencies DOD has budgeted is a good 
start. Moreover, we have gained efficiencies by improving requirements 
definition, negotiating lower labor and overhead rates, increasing 
competition, improving our purchasing processes, and by aggressively 
reviewing Services contracts. In many cases, Components have 
reprioritized services and divested contracted workload of lower or 
marginal value. Further savings are possible as we reduce the military 
force structure and continue to implement process and system 
improvements to actively manage contracted services.
     sustaining superior and cost-effective military health system
    American medicine has changed since the TRICARE plans were put into 
place 18 years ago, and it is time to update and modernize TRICARE 
based on what we learned. Currently, elements of our TRICARE health 
plan design are costly and administratively complex--differentiation 
for beneficiaries in selecting sources of care, resulting in patients 
using less optimal and more costly care options. For example, no cost-
sharing for emergency room (ER) care has contributed to almost double 
the ER utilization rate seen in civilian health plans. In addition, we 
have not increased out-of-pocket costs since the TRICARE program was 
first introduced.
    We are taking a number of steps to ensure the long-term viability 
of the TRICARE Program. First, we are taking an aggressive approach to 
health promotion and prevention. Operation Live Well is the overarching 
framework for a set of programs and Services we are offering to our 
military communities. We are also focusing our efforts on the Healthy 
Base Initiative. For this Initiative, 14 military installations and 
Defense agency offices around the world are participating in highly 
customized local efforts to improve health and well-being.
    Second, over the last 4 years, DOD has identified a number of 
efforts focused on reducing purchased care costs--to include the 
implementation of outpatient prospective payment, reimbursement changes 
for Sole Community Hospitals, and changes in how we reimburse the 
Uniformed Services Family Health Plan providers for our dual-eligible 
Medicare/TRICARE beneficiaries.
    Third, we are taking steps to improve the execution of the TRICARE 
Health Plan by better integrating the Services provided in our direct 
care and purchased care systems. As this generation of TRICARE 
contracts nears the end of its contract term, DOD is looking to reshape 
our contracts in ways that can improve integration with military 
medical facilities, reduce unnecessary overhead and achieve greater 
simplicity for the beneficiary and the government.
    Fourth, our fiscal year 2015 budget proposal includes efforts to 
modernize TRICARE, which has not changed since its inception in 1995. 
In this proposal, we plan to simplify and modernize the existing 
TRICARE program in ways that provide incentives for wellness, decrease 
health services overutilization, and allow beneficiaries to choose 
their providers. Preventive Services would be covered at no cost to 
beneficiaries, regardless of where they receive their care--MTF, 
network or out-of-network.
    Finally, we are focused on ensuring that our servicemember, 
families, and retirees continue to receive the best medical care 
possible. Regardless of the budget realities, that commitment and 
priority does not change. They deserve no less.
Autism and Applied Behavior Analysis (ABA)
    The Military Health System provides one of the most comprehensive 
sets of specialized services for children with an Autism Spectrum 
Disorder (ASD) diagnosis, to include the provision of ABA, in the 
United States. The TRICARE Basic Program is a comprehensive health 
benefit plan offering a full array of medically necessary services to 
address the needs of all beneficiaries with ASD. TRICARE's Basic 
Program provides occupational therapy to promote the development of 
self-care skills, physical therapy to promote coordination/motor 
skills, speech and language therapy to promote communication skills, 
child psychiatry and child psychology to address psychopharmacological 
needs, and psychological testing. The full range of medical specialties 
to address the additional medical conditions common to this population 
are covered.
    All TRICARE family members with a diagnosis of an ASD, established 
by a TRICARE authorized provider, are eligible for ABA by a Board 
Certified Behavior Analyst (BCBA) or Board Certified Behavior Analyst-
Doctorate-level provider (BCBA-D). Further, the Department is 
processing claims for additional ABA Services authorized under the 
Extended Care Health Option (ECHO) Autism Demonstration, extended to 
March 15, 2015. The central aspect of the ECHO Autism Demonstration is 
to provide reimbursement for one-on-one ABA services delivered by 
individuals who are not TRICARE-authorized providers. These non-
certified individuals are referred to in the ECHO Autism Demonstration 
as ``ABA Tutors'' by TRICARE, or ``ABA Behavioral Technicians'' by the 
Behavior Analyst Certification Board (BACB). Also, under the added 
authority of the 1-year ABA Pilot Program established by section 705 of 
the 2013 NDAA (the ABA Pilot), a new interim TRICARE ABA reinforcement 
benefit for retired family members was implemented on July 25, 2013, 
modeled after the ECHO Autism Demonstration.
Mental Health Support
    DOD considers the behavioral health of its servicemembers and their 
families a top priority. The TRICARE plan provides a generous and 
comprehensive mental health benefit for Active Duty, Reserve, and Guard 
servicemembers, retirees, and their families, including psychiatric 
outpatient, inpatient, partial hospitalization, and residential 
treatment services. To ensure access to this care, DOD has hired more 
behavioral health specialists, brought on Public Health Service medical 
professionals, expanded the TRICARE network, issued regulations to 
recognize the independent practice of certified mental health 
counselors, worked to further de-stigmatize mental health treatment and 
expanded the ways by which our beneficiaries can access mental health 
services.
    The requirements of the Mental Health Parity Act of 1996 and the 
Mental Health Parity Addiction Equity Act of 2008, as well as the plan 
benefit provisions contained in the Patient Protection and Affordable 
Care Act, do not apply to the TRICARE program. However, DOD fully 
supports the principle of mental health parity and has undertaken a 
complete review in order to assess and address any perceived gaps in 
parity. Should gaps be identified, DOD will request legislation and 
modify regulations to eliminate any barriers to medically necessary and 
appropriate mental health services.
Traumatic Brain Injuries (TBI) and Post Traumatic Stress Disorder 
        (PTSD)
    Since most Traumatic Brain Injuries (TBIs) incurred by 
servicemembers are mild (mTBI), the Department has focused on early 
identification to ensure effective mitigation and treatment of the 
physical, emotional, and cognitive effects of the injury. DOD is also 
investing heavily in TBI research with an emphasis on the development 
of diagnostic tools, evidence-based care protocols, and studies that 
follow TBI patients over time to better understand the course of the 
condition. This research has already led to advances in understanding 
what happens to the brain after a concussive event, including 
advancements in neuroimaging, biomarkers, and rehabilitation efforts.
    The long-term effects of TBI, including conditions that can occur 
after mTBI is another area of focus for the DOD. We know that a person 
will experience more symptoms and longer recovery times with higher 
numbers of concussions. Some of these symptoms may complicate recovery 
and are often associated with other conditions such as PTSD, 
depression, chronic pain, sleep problems, or substance use disorders. 
DOD has several programs in place to better understand the long-term 
effects of TBI and the effects that occur with it.
    A recent ``game changer'' in the field of TBI is the Defense and 
Veterans Brain Injury Center (DVBIC) developed guidance, a ``how to'' 
manual on Progressive Return to Activity following mild TBI, which 
defines what ``rest'' should be after concussion, as well as outlines 
the steps to take and what to avoid in order for an individual to 
successfully return to pre-concussion activities. This tool is the 
first of its kind in the world.
    Following implementation of theater-wide policies, including the 
September 2012 DOD Instruction 6490.11 ``DOD Policy Guidance for 
Management of Mild Traumatic Brain Injury/Concussion in the Deployed 
Setting,'' approximately 16,300 servicemembers were screened for mild 
TBI/concussion following potentially concussive events in theater 
(August 2010 to December 2013). Of those screened, approximately 16.1 
percent (2,629) were diagnosed with mild TBI/concussion, which has been 
a consistent trend over the last 3 years.
    DOD continues to place great emphasis on policies and procedures 
related to Post-Traumatic Stress Disorder (PTSD). Refinements to 
policies and procedures for review of post-September PTSD cases have 
provided unprecedented levels of protections for our affected 
servicemembers. The Department remains committed to maintaining and 
improving policies and procedures to ensure fairness and equity in the 
review of all PTSD claims with a view toward appropriate disposition 
based upon the facts and circumstances of each individual case.
Substance Abuse Program Policies
    DOD is taking steps to improve and sustain Substance Use Disorder 
(SUD) Services. These efforts include removing the ban on substitution 
therapies for the treatment of SUDs, revision of policy and changes to 
TRICARE coverage of SUD care, and formation of an Addictive Substance 
Misuse Advisory Committee in March 2011 to standardize SUD prevention 
and treatment efforts.
    In addition, DOD Instruction 1010.01, ``Military Personnel Drug 
Abuse Testing Program,'' was published on September 13, 2012, to 
establish standards for specimen and data collection on drug use and 
misuse and to direct the Services to issue guidance regarding 
participation in national anti-drug awareness, community outreach, and 
education campaigns. Finally, a new DOD Instruction 1010.04, entitled 
``Problematic Substance Use by Department of Defense Personnel,'' was 
published on February 20, 2014. It establishes requirements for 
prevention, screening, and intervention for SUDs.
Laboratory Developed Tests
    DOD is aware of industry and beneficiary concern with our policies 
regarding the reimbursement for select Laboratory Developed Tests 
(LDTs)--medical tests created and owned by individual laboratories for 
purposes of determining a diagnosis or providing information to guide 
potential treatment. We are in the process of proposing an expanded 
demonstration program to provide a pathway for the Department to 
reimburse laboratories for LDTs that are medically appropriate and meet 
the standard of care. We are committed to identifying and implementing 
administrative solutions that will be more responsive to rapidly 
evolving medical technologies.
Care of Our Wounded, Ill, and Injured Servicemembers
    We have made great strides towards improving the disability 
evaluation of our wounded, ill, and injured servicemembers. In 2007, 
DOD and Department of Veterans Affairs (VA) created the Integrated 
Disability Evaluation System (IDES) to provide servicemembers a fairer, 
faster, and more transparent process to receive both their DOD and VA 
disability benefits. As of January 2014, the IDES has reduced the 
``benefits cliff'' between military Service pay and disability 
compensation from 240 to 77 days. In our most recent IDES customer 
survey, 83 percent of servicemembers indicated satisfaction with the 
IDES process.
    The departments continue to improve the IDES process. We have 
increased our IDES staff and improved our timeliness, which has 
decreased DOD process times (106 days against a 105-day goal). We have 
created an electronic case file transfer capability to eliminate 
mailing paper records and are collaborating with VA on completion of 
its interface to the Veterans Benefits Management System that will 
enable both departments to process IDES cases electronically.
    We are not stopping there. We are implementing an IDES Quality 
Assurance Program to measure accuracy and consistency of Medical and 
Physical Evaluation Board decisions. Additionally, we are studying 
options to reform DOD's disability evaluation and temporary disability 
retirement programs. We will not have the recommendations and results 
of those studies until later this year at which time we will decide 
whether legislative relief is required for implementation.
Electronic Health Records
    A critical force multiplier for our system of care and important 
element of our modernization priorities is to implement a new 
Electronic Health Record (EHR) in the coming years. Over the last 10 
months, we have made tactical changes in how we will work with the VA 
on this effort, but our strategic objectives remains the same: (1) 
Provide seamless, integrated sharing of standardized health data among 
DOD, VA, and private sector providers; and (2) Modernize the electronic 
software and systems supporting DOD and VA clinicians. The Department 
is now moving forward with our plan to procure a new EHR through full 
and open competition.
Suicide Prevention
    Deaths from suicide in the U.S. Armed Forces increased between 2001 
and 2012, peaking in 2012. Preliminary 2013 data indicates this trend 
is reversing, with Active component deaths from suicide declining (18 
percent), and Reserve component deaths from suicides showing a slight 
increase (5 percent). Several more years of data will be needed to 
substantiate a trend. Reducing suicide in the military will always be a 
difficult task, one that broader society also struggles to accomplish; 
as suicide is the 10th leading cause of death in the general 
population.
    The DOD Suicide Event Report indicates that those who have died by 
suicide have predominately been younger, Caucasian males, in junior 
ranks who used a firearm. About half had deployed and a small 
percentage had seen combat. Less than half had a known mental health 
diagnosis.
    Regardless of the associated factors with suicides, the lives of 
our service men and women are too important for me to not make suicide 
prevention a priority. DOD has responded by focusing on resilience 
training, outreach campaigns that reduce stigma, conducting program 
evaluation and research, and increasing access to behavioral health 
care by increasing the size of its mental health system and embedding 
providers in primary care and line units, at home and abroad. 
Additionally, confidential peer support and resilience case management 
are key components in expanding venues for addressing this complex 
problem.
                 sexual assault prevention and response
    Preventing and responding to sexual assault is a top priority, and 
considerable efforts are underway to combat this crime. Our program is 
proactive, victim-focused, and multi-disciplinary, with leaders at all 
levels taking steps to establish a culture of dignity, respect, and 
professional values. We employ and must sustain a multi-pronged 
approach, which requires persistence and innovation in victim 
assistance, prevention, investigation, accountability, and assessment. 
A critical element to our approach is increasing victim confidence, so 
that more victims are willing to report. We know that our response to a 
report of sexual assault will impact future victims' decisions to 
report--and reporting is essential to delivering care and to holding 
offenders appropriately accountable.
    Our preliminary data for fiscal year 2013 shows a dramatic increase 
in reports when compared to all previous years. Historically, reports 
of sexual assault have increased about 5 percent per year since 2007. 
In fiscal year 2013, reports are up an unprecedented 50 percent with 
commanders at the center of our military justice system making 
disposition decisions. We assess this increase as consistent with a 
growing level of confidence in our response systems. This provides an 
indication that the wide range of sexual assault prevention and 
response initiatives fielded over the past year and a half are having a 
positive impact throughout the force, as more victims are reporting and 
accessing critical support.
Status of 2013 and 2014 NDAA Progress
    In cooperation with congressional leadership, the Services are 
implementing a number of significant reforms put forward in recent 
Defense Authorization bills. In fact, the 2014 NDAA provided the most 
sweeping reform to the Uniform Code of Military Justice (UCMJ) since 
1968 with 16 different military justice provisions that enhance 
victims' rights and constrain convening authorities' power. 
Specifically, the 2014 NDAA included 33 different sections of law 
containing multiple provisions in each section. We have already taken 
action to put into effect three provisions: the prohibitions on 
accessions for those who have sexual assault convictions; the ability 
to conduct an expedited transfer of the suspect; and the mandatory 
referral of sexual assault incidents to independent Military Criminal 
Investigative Organizations.
    The 2013 NDAA contains 18 substantive provisions and requires five 
congressional reports. With the issuance of an updated DOD Instruction 
earlier this year, the vast majority of these provisions have been 
fully implemented. Four are still in progress. Two involve the 
independent Response Systems Panel review of the UCMJ and a separate 
Judicial Proceedings Panel review, both of which are continuing their 
work. The Panels' reports will be filed by their suspense dates, the 
first of which is June of this year. The two remaining policy 
provisions will be completed when our instructions on Reserve Component 
Line of Duty Findings for Health Care and the Military Equal 
Opportunity Program are issued. Of the five congressional reports, 
three have been completed with the submission of the Special Victims 
Capability report, the fiscal year 2013 Sexual Assault Prevention and 
Response Annual Report, and the report on General Officer reviews of 
separation of members who were sexual assault victims.
Status and Progress of Secretary of Defense Initiatives
    In addition to the work of Congress, DOD continues to be proactive 
in fielding solutions that will make a difference in preventing and 
responding to sexual assault, particularly when the Secretary has the 
authority to do so. Secretary Hagel has directed the implementation of 
21 specific initiatives since May 2013. These actions are designed to 
empower victims, improve care, and enhance the administration of 
military justice. I wanted to highlight a few for you here today:

        <bullet> Implementation of the Special Victims Counsel program, 
        which offers sexual assault victims legal consultation and 
        representation throughout the justice process. More than 185 
        attorneys are now fielded across the Armed Forces.
        <bullet> The Services have fielded evaluation methods to assess 
        the performance of military commanders and enlisted leaders in 
        establishing command climates of dignity and respect and 
        adhering to SAPR principles.
        <bullet> Another critical element of establishing the culture 
        we desire is the Secretary's direction to elevate command 
        climate surveys to the next commander in the chain of command 
        to increase the level of accountability for maintaining a 
        climate of dignity and respect.
        <bullet> We have also now taken a best practice from one of the 
        Services--the Marine Corps 8-day oversight report--and intend 
        to make it a common practice across all of the Services. That 
        policy is in final coordination and will ensure that general 
        officers have oversight of the immediate response to a sexual 
        assault report.

    Additionally, in coordination with the release of the Military 
Service Academy Report in January, Secretary Hagel directed five 
additional measures to enhance program effectiveness, advance the 
culture we desire, and expand alcohol policies at the Academies.
Surveys
    DOD utilizes the Workplace and Gender Relations Survey of Active 
Duty Members, conducted by the Defense Manpower Data Center, to assess 
the prevalence rate of sexual assault and sexual harassment in the 
Active-Duty Force. DOD has comparable unwanted sexual contact rates for 
2006, 2010, and 2012. In fiscal year 2014, DOD survey will be conducted 
by an outside organization. RAND will design, analyze, and report the 
survey results in our Progress Report to the President in December 2014 
and the DOD Annual Report on Sexual Assault in the Military in April 
2015.
Way Ahead
    Sexual assault is one of the most serious challenges facing our 
personnel and compromising our military readiness. We will continue our 
prevention efforts on all fronts and at all levels by educating all 
servicemembers, commanders, and leaders, and holding them appropriately 
accountable. We must preserve the system of justice and response 
systems that we have fielded and continue to improve upon; they are 
making a difference and motivating more victims to come forward. We 
will sustain our current intense level of attention, focus, and 
emphasis throughout the entire DOD.
          military personnel policy and family support issues
    While we remain attentive to all military personnel policies and 
family support programs, I want to highlight several recent areas of 
interest. We are working to address congressional concerns and I am 
committed to keeping open communications and working closely with you 
to address these important issues to our servicemembers and their 
families.
Military Retirement System
    While not part of DOD's fiscal year 2015 proposals, DOD completed 
its 2-year review of military retirement. Earlier this month, Acting 
Deputy Secretary of Defense Fox sent a letter to the Military 
Compensation and Retirement Modernization Commission and Congress that 
offered four military retirement design options for consideration: the 
current retirement system, the ``cost-of-living adjustment (COLA) minus 
one,'' and a white paper that outlines two retirement design concepts 
developed by the Department.
    DOD does not specifically endorse any of the four design options 
submitted to the commission, but we offered these four options for 
consideration and further deliberation. DOD, however, continues to 
firmly support the position that any new retirement system must be 
``grandfathered'' to protect servicemembers currently serving and 
current retirees.
Women in the Services
    DOD is proceeding in a measured, deliberate, and responsible manner 
to implement changes that will enable servicemembers to serve in any 
capacity based on their abilities and qualifications and not their 
gender. Using the Joint Chiefs' guiding principles to ensure successful 
implementation, the Services and the U.S. Special Operations Command 
(SOCOM) are conducting thorough doctrine, training, education, 
facilities, and policy analyses to ensure deliberate and responsible 
implementation. DOD is committed to opening positions and occupations 
when and where it makes sense while preserving unit readiness, 
cohesion, and the quality of the All-Volunteer Force.
    Implementation through 2016 will be an evolutionary process. Since 
start of the Women in Service Review effort in 2012, DOD has notified 
Congress of our intent to open approximately 57,000 positions that were 
previously closed to women, and we look forward to expanding 
opportunities for women into all newly opened positions and occupations 
within the Armed Forces, to the fullest extent, over the next 2 years.
Religious Accommodation
    DOD has the responsibility to safeguard the First Amendment rights 
and the free exercise of religion for all military personnel. DOD 
places a high value on the rights of personnel and their families to 
observe the tenets of their religions and recognize that the free 
exercise of religion is an important element of the operational 
readiness and well-being of our force.
    DOD, as well as its respective Services, has, through policy and 
practice, consistently sought to strike the proper balance in 
respecting members' religious practices and maintaining military 
operational readiness.
    To maintain this balance, DOD revised and published policy in DOD 
Instruction 1300.17, Accommodation of Religious Practices within the 
Military Services, to ensure the protection of rights of conscience of 
members of the Armed Forces in accordance with the 2013 and 2014 NDAA. 
Specifically, this policy balances and protects individual expression 
of sincerely held beliefs with military readiness and indicates to 
servicemembers and their commanders that requests for religious 
accommodation will be considered on a case-by-case basis.
    To ensure more specific protections for the chaplains, DOD also 
revised policy in DOD Instruction 1304.28, Guidance for the Appointment 
of Chaplains to the Military Departments. Chaplains are protected from 
being required to perform any rite, ritual, or ceremony that is 
contrary to the conscience, moral principles, or religious beliefs of 
the chaplains, or to discriminate or take any adverse personnel action 
against a chaplain, including denial of promotion, schooling, training, 
or assignment, on the basis of the refusal by the chaplain to perform 
such duties. Because chaplains are servicemembers, their rights are 
also protected in DOD Instruction 1300.17.
    In summary, DOD policies more clearly provide for individual 
expressions of religious beliefs and strive to accommodate requests for 
religious accommodation. If concerns arise, commanders of the unit 
involved handle these issues on a case-by-case basis with advisement 
from chaplains to find the best avenue in balancing religious freedoms 
with mission accomplishment.
Diversity Management and Equal Opportunity
    The purpose of the Defense Equal Opportunity Management Institute 
(DEOMI), under my oversight, is to enhance mission readiness by 
promoting human dignity through education and research in equity, 
diversity and cultural competence. DEOMI's primary mission is to 
enhance unit combat and operational readiness and organizational 
leadership and cohesion by training DOD military personnel assigned to 
units as equal opportunity advisors (EOAs) to military commanders. 
DEOMI has trained thousands of EOAs in its 43 years of existence and 
recently celebrated 30 years of accreditation with the National Council 
on Occupational Education.
    Recent congressional and media interest have focused on DEOMI after 
military members in the field identified in their equal opportunity 
training certain organizations as extremists or hate groups. 
Maintaining or relating lists that identify organizations as extremists 
or hate groups is inconsistent with DOD policy and DEOMI training. 
DEOMI does not support or endorse any entities list of extremist 
organizations or hate groups.
The Military Tuition Assistance (TA) Program
    DOD supports servicemembers in the pursuit of their educational 
goals via the military TA program, which helps to defray the rising 
cost of tuition. Given the current and projected fiscal environment, we 
must continually evaluate programs across DOD and provide guidance to 
the Services to ensure consistency. Each year, a third of our 
servicemembers enroll in post-secondary education courses leading to 
associates, bachelors and advanced degrees. During fiscal year 2013 we 
saw over 827,000 course enrollments, and more than 55,000 
servicemembers earn degrees and certifications. This statistic has held 
steady over the previous few years.
    Ensuring the quality of education provided our servicemembers is 
essential to DOD. Underpinning this effort is DOD's requirement that 
all post-secondary institutions that participate in the TA program must 
be accredited by an accrediting body recognized by the Department of 
Education. The implementation of the requirements in Executive Order 
13607 makes it easier for servicemembers and veterans to make informed 
decisions regarding their educational choices and helps counter 
deceptive practices by some educational institutions.
    Starting in summer of 2013, the DOD, VA, Department of Education, 
and agency partners, including: the Department of Justice, the Consumer 
Financial Protection Bureau. and Federal Trade Commission, began 
implementing pieces of the legislation. These efforts included 
launching a student complaint system. This system provides a 
centralized, online tool for students to provide feedback on schools. 
The Postsecondary Education Complaint System went on line on January 
30, 2014. The system ensures judicious stewardship of taxpayer dollars 
by increasing and improving oversight of the educational programs 
offered to our servicemembers by the 3,245 educational institutions 
that signed an MOU with DOD agreeing to provide special protections for 
military students.
    DOD is committed to offering high quality, comprehensive, lifelong 
learning opportunities for servicemembers and effectively delivering 
voluntary education programs that meet the changing needs of the 
military.
            support for military families with special needs
    DOD continues to make progress addressing gaps in Services 
supporting military families with special needs. At the forefront of 
this effort is a multi-year functional analysis of the current 
Exceptional Family Member Program (EFMP), which will standardize the 
EFMP to be completed across the military Services. The goal is to 
provide families with the same level of access to the program 
regardless of location or Service affiliation, to include uniform 
procedures to support timely identification and enrollment and to 
centralize management of cross-service data. A working group within DOD 
is being formed to further address challenges for families with special 
needs. Training has already been conducted on the new Quick Reference 
Guide and Family Needs Assessment form.
Future of Servicemember and Family Support--Efficiencies and 
        Transformation
    The Task Force on Common Services for Servicemember and Family 
Support Programs conducted a joint 1-year senior-level review of total 
cost and methods of providing common Services for military and family 
programs DOD-wide. It explored 15 different support areas in detail 
(such as child care, youth, family programs; lodging; Exceptional 
Family Member Program; personal financial management programs) and 
documented more than 200 actionable recommendations to improve 
effectiveness, increase economies of program delivery, and reduce 
related overhead expenses. The results suggest that there is 
significant room for improvement in cooperation and collaboration, with 
the potential for consolidating certain kinds of support to all, with 
no impact to the end user.
                           transition support
    Our commitment continues as we assist our servicemembers transition 
successfully to civilian careers and veteran status. Transition 
assistance is a vital to aiding our servicemembers, spouses, and family 
members. We will continue to work closely with the VA, Department of 
Labor (DOL), and other Federal, State, and local entities to coordinate 
our efforts to better meet the needs of those who have served our 
Nation in uniform.
DOD-VA Backlog
    An increasingly important element of support that we give to all 
servicemembers is the careful regard shown when they transition out of 
the U.S. military, especially those who require care. To that end, we 
maintain a close collaborative relationship with our counterparts in VA 
through executive committees for benefits, health and information 
sharing.
    The backlog of Service-related disability benefit claims is a major 
concern. DOD has refined our processes whereby we respond to VA 
requests for personnel and medical information required to finalize 
veterans' claims. These include Service central cells and single points 
of contact to manage individual Service Treatment Records. 
Additionally, we have provided military liaison officers to assist VA 
with a more efficient and accurate transfer of necessary information. 
In fact, as of January 1, 2014, we now provide Service Treatment 
Records in an electronic format, and we are on track to develop 
interoperable electronic health records. These initiatives will help VA 
to focus on the current backlog and preclude future disability benefit 
claims from becoming a part of the backlog.
Transition Assistance Program
    DOD, along with its interagency partners (VA and DOL), has made 
significant improvements to the content, delivery, and availability of 
the Transition Assistance Program (TAP). We have implemented Career 
Readiness Standards that servicemembers meet prior to separation. We 
launched a comprehensive new curriculum--Transition GPS (Goals Plans 
Success), with a robust set of core training modules (pre-separation 
counseling, VA benefits briefing, DOL employment workshop, including 
resume preparation) and specialized optional tracks (assessing higher 
education track, career technical track and entrepreneurship track) 
tailored to a servicemember's goals and interests.
    Transition GPS is now also accessible virtually to all 
servicemembers and spouses even after separation. Also, in January, we 
completed a Memorandum of Understanding that was signed by all 
interagency partners to include VA, DOL, Small Business Administration, 
the Office of Personnel Management, and the Department of Education. 
This MOU codifies our shared commitment to transitioning servicemembers 
and establishes formal roles and responsibilities for all partners 
contributing to Transition Assistance.
    As part of our 2015 Agency Priority Goals, our next major step is 
to embed the Transition Assistance Program throughout the military 
lifecycle, beginning as early as accession. Rather than confining 
career readiness preparation to a servicemember's final months of 
service, this model will provide our servicemembers with knowledge and 
support to conduct proactive career planning early and often in their 
military careers. Implementation of the Military Lifecycle Transition 
Assistance Program model will be completed by the end of 2014.
The Yellow Ribbon Reintegration Program
    The Yellow Ribbon Reintegration Program (YRRP) continues to evolve 
to meet the unique resilience and transition challenges facing the 
Reserve component community. Through fiscal year 2013, YRRP has served 
1,326,758 servicemembers and families through 10,382 events hosted by 
the Reserve components. In response to high RC unemployment rates, as 
well as the accompanying unemployment compensation (UCX) costs, YRRP 
partnered with Employer Support of the Guard and Reserve (ESGR) to 
launch Hero2Hired (H2H), a comprehensive career Services program 
containing tools that help connect job seekers with military-friendly 
employers. H2H tools include a military skills translator; resume 
builder; military-friendly job listings; career exploration tools; and 
education and training resources. Since its launch, H2H has registered 
more than 173,878 job seekers and 21,530 employers through https://
h2h.jobs and supported 13,068 direct hires through 56 Employment 
Transition Coordinators.
                               conclusion
    During the past 13 years, the men and women who comprise the All-
Volunteer Force have shown versatility, adaptability, and commitment, 
enduring the constant stress and strain of fighting two overlapping 
conflicts. Throughout it all, we were able to build, support and 
transition the finest military ever known. We understand that in order 
for us to continue on this path, we must be vigilant in our efforts and 
resources to ensure that we provide all the necessary recruiting, 
training, support and transition tools for success. DOD is committed to 
our servicemembers' success. Now we need your help in the most ready 
and capable force that will apply the lessons-learned from the past and 
prepare to address the challenges of the future.
    Thank you for your continued support for our Total Force.

    Senator Gillibrand. Thank you very much for your testimony.
    Senator Graham is going to submit his opening statement for 
the record at this time.
    [The prepared statement of Senator Graham follows:]
              Prepared Statement by Senator Lindsey Graham
    Thank you, Madam Chairwoman. I look forward to hearing from our 
witnesses this morning concerning the administration's proposed cuts to 
pay and benefits to servicemembers in the 2015 budget request; 
specifically, why these changes cannot be made, if necessary, after the 
Military Compensation and Retirement Modernization Commission reports 
it finding in early 2015. I also want to thank the witnesses for 
appearing today and for their willingness to serve our Nation.

    Senator Gillibrand. I will start with Secretary Wright.
    With the MCRMC set to report out about a comprehensive 
approach next February, what is the rationale for the timing of 
these proposals? Why not wait until the commission reports?
    Ms. Wright. Thank you, ma'am. Frankly, with the proposals 
that we are submitting in this budget, we know DOD has gone 
through enough rigor and enough analysis to submit them. We are 
looking to the commission. We have submitted four retirement 
proposals to them. As you see, there is nothing in the budget 
that looks at retirement. We are waiting until they come back. 
We have submitted four different proposals to them. We are 
waiting for them to do the rigor and the analysis on those 
retirement proposals for us to look at moving forward on them.
    But on the BAH, the commissary, and the pay, we really 
believe that we have looked at enough information, that we have 
gathered all of the data in order to make some of these very 
difficult choices to balance between both compensation and 
benefits, and readiness and modernization.
    Secretary Hale. May I just add to that briefly? As 
Secretary Wright said, we think we have the information. But 
the budget caps are in effect right now. If we wait 2 years 
until we have the commission results, and it will take that 
long, then we are going to have to take all this money out of 
readiness and modernization, and we think that will destroy a 
balance and damage national security. So that is why we are 
doing this.
    We would rather wait. We would rather not do it. But the 
limits are in effect, and we don't see them changing.
    Senator Gillibrand. But there is no requirement that you 
have a certain amount of savings out of every aspect of 
spending within the military. You don't have to silo every 
budget and find savings in every budget. You in your opening 
statement said that it was important that you offer pay 
packages that are sufficient that we keep an All-Volunteer 
Force.
    But if you're looking at the enlisted rates E-2 through E-
9, you're talking about salaries from $20,000 to roughly 
$70,000, and so much of what you're cutting is considered 
compensation to men and women who serve. For example, having a 
pay raise that is equivalent at least to the cost-of-living 
adjustment (COLA). So, yes, we can cut the rate by which their 
pay increases, but if you cut it less than the COLA, it just 
means their paycheck doesn't go as far. If you cut their 
housing allowance and have them have some kind of co-pay or a 
percentage, you're basically just undercutting how much is 
defrayed from the housing allowance. If you cut TRICARE through 
your modernization efforts, again that is out-of-pocket money 
for retirees or for families. If you limit what places they can 
go to get services, what it means is you have much longer drive 
times. If you are no longer Active Duty or your family doesn't 
live near a base, you may have to drive 90 miles or 100 miles 
to get basic services.
    Commissaries, which, I can understand they filled a need 
before that isn't necessarily true today. But again, average 
personnel, they see about a 30 percent savings for their weekly 
grocery bills.
    So we offer a set of benefits and pay to incentivize our 
forces to take on these very tough jobs and make the sacrifices 
of having to relocate your family every 2 years, every 3 years, 
have to sacrifice that your spouse may not be able to work 
because of that relocation. So we really are changing the deal.
    My concern is, if we have this commission and they are 
going to do a more balanced approach, it seems to be a missed 
opportunity to not wait to see what they can come up with as 
well, because these are, as you've said in your testimony, very 
tough cuts to figure out. This was not an easy process. But 
these are real cuts.
    So if you're a family that's making $20,000 a year, or 
$30,000 a year, that 30 percent of groceries that you were just 
taking away, that savings, matters. So I would like to push 
back a bit that this is easy. I just don't think $2 billion in 
1 year is easy.
    Secretary Hale. Let me start, and then I would ask 
Secretary Wright if she wants to add.
    I agree with what you said. These are tough choices. The 
Chiefs had meeting after meeting debating these very points. 
But if we choose or if you choose to go back on these 
proposals, you're going to have to take it out of somewhere. I 
don't think you want to take it out of modernization. We could 
have the same debate about whether we are buying enough 
aircraft and ships. I know, or I hope you don't want to take it 
out of readiness. But those are the choices you have.
    So we feel we have provided you a balanced proposal. 
Incidentally, you used the word ``cuts.'' I respectfully 
disagree. They are slowing the growth. We are not cutting 
anybody's pay and allowances. We are slowing the growth to free 
up money so that we can keep them ready in case they have to 
put themselves in harm's way, and that is what the Chiefs have 
repeatedly said.
    We feel strongly that we need to provide the training and 
maintenance and the equipment to give them the best opportunity 
if they have to be in harm's way, and we think our proposal 
does it. But these are difficult choices, and I'd fully agree 
with you in that regard.
    Senator Gillibrand. Thank you, Mr. Secretary.
    My time has expired. I have questions that I will submit 
for the record and if we have a second round, specifically 
about the TRICARE changes, the Defense Finance and Accounting 
Service cuts, also concerns about benefits for families that 
have children with special needs, educational challenges, 
autism and other developmental disabilities. That is still an 
issue that Secretary Wright and I have worked on in the past 
that is a very important issue for me. So in the second round, 
if we have one, or for the record, I will submit those 
questions.
    Senator Graham?
    Senator Graham. Thank you, Madam Chairwoman.
    I want to associate myself with the chairwoman's comments. 
I understand where you're coming from. You have a budget cap, 
and this is the world we've created in a bipartisan fashion, 
which seems to me every day becoming more and more a bizarre 
world. I hope we'll reevaluate what we've done to the military 
and to some other vital programs and see if we can come up with 
a more sensible way to make budget cuts.
    Secretary Wright, the commissaries, $1.4 billion basically 
is salaries and transportation; is that right?
    Ms. Wright. Yes, sir.
    Senator Graham. The base exchange (BX), post exchange (PX), 
most of that is non-appropriated fund activity; is that true?
    Ms. Wright. Yes, sir.
    Senator Graham. If you get people going off base in terms 
of shopping, what effect would a change in commissaries have on 
the PX or the BX?
    Ms. Wright. So, right now, as I have indicated, we are not 
looking to close any commissaries, and we are looking for our 
commissary population to remain. I understand that our budget 
does bring it down from a 30 percent savings to somewhere 
around a 10 percent savings, but it is still a savings.
    However, to your point, if people do not use the 
commissary, we suspect that they also won't come into the PX. 
We understand that, and so the PX savings and/or what they 
contribute to the Morale, Welfare, and Recreation (MWR) fund 
may go down. But at this point in time, with our research and 
what we're looking at, we believe that we are on firm ground.
    Senator Graham. For the benefit of the committee here, in a 
prior life I dealt with appropriated fund and non-appropriated 
fund activities and spent a lot of legal time figuring out what 
account was the right one to be looking at and how you could 
move money around.
    The PX and the BX, whatever money they make, about 40 
percent of the people that work at these places are family 
members of Active Duty or retired veterans; is that correct?
    Ms. Wright. In the commissaries? Yes, sir.
    Senator Graham. What about the BX or the PX?
    Ms. Wright. I'm going to defer to Mr. Vollrath for that, 
please, sir.
    Secretary Vollrath. Sir, I don't have a specific number for 
you, but it's about the same.
    Senator Graham. Yes. So, basically, you've moving your 
families around a lot, and if you have a teenage son or 
daughter, it's a place you can go be a bag person. Your spouse 
can work maybe part-time at the BX, and that's some money for 
the family, and I think that's what Chairwoman Gillibrand is 
trying to say. The structural changes do have a ripple effect, 
and if the shopping becomes less at the commissary, eventually 
people are less likely to shop at the BX and PX.
    I know you're shaking your head.
    The MWR account, the quality-of-life issues that are pretty 
much funded by the servicemembers themselves take a hit. Could 
you maybe--what's your name, sir?
    Secretary Vollrath. Vollrath.
    Senator Graham. Do you generally agree with what I'm saying 
as a concern?
    Secretary Vollrath. Fundamentally, yes, because in the 
deliberations, in taking a look at the commissary reduction, we 
did have discussions about potential impacts on the exchange 
system.
    Senator Graham. Yes.
    Secretary Vollrath. The leaders of the exchange system told 
us that if the patronage in the commissaries goes down, that 
they would expect the patronage in the exchanges to go down 
because of the habits of the patrons now.
    Senator Graham. The auto hobby shop, and you can just name 
whatever MWR activities you might have on base, eventually get 
hit, right?
    Secretary Vollrath. That depends on where the commanders 
and the local commanders want to spend the MWR dividend.
    Senator Graham. They'll just have less choices because 
they'll have less money.
    Secretary Vollrath. Correct. The money won't go as far.
    Senator Graham. It's not just one thing but they will have 
an inventory of MWR activities and they'll have to delete some 
of them.
    I just bring that up to show that one thing is connected to 
the other.
    Mr. Hale, we've had great discussions over the last several 
years about budgets. Would it be fair to say if Congress could 
find $2 billion outside of DOD to interject into this budget 
process this year, a lot of these choices that we're talking 
about, structural changes, could be delayed until the 
commission reports back?
    Secretary Hale. If you find another way to offset it, yes. 
I'm not going to go to where you do that. I'll leave that up to 
you to do that. But if you find a way to offset it, I guess 
that's true. But given the budget caps and the seeming no 
chance of changing them, it's going to come out of defense.
    Senator Graham. I got you.
    Here's the challenge for the subcommittee, for all the 
bright minds at this table, excluding myself. [Laughter.]
    Could we find $2 billion outside DOD, or even inside DOD, 
that would avoid us having to make structural decisions about 
commissaries, about TRICARE and other things, about 
compensation, which I will eventually probably support? I'd 
just like the commission to do it. It's not that I don't trust 
your work product. We have ourselves in a bind here. You have a 
commission studying the same subject matter. You have an 
administration that has to come up with money in the budget 
caps. You're doing what we required you to do.
    So if we could find a $2 billion safety valve here, I think 
it would prevent them from having to just ignore the personnel 
account and raid other accounts and allow the commission to do 
its work. To me, that would be a great exercise, because the 
structural changes that are going to come--and they will come--
have to be better thought out, I think. If you're going to ask 
people to give up housing allowances, pay 5 percent or 
whatever, I'd just like to make it a more thoughtful process 
and be able to go to these folks and say we've had people, the 
best minds in the country outside of the administration, 
outside of Congress, to look at this. I just think it would 
make sense and be easier for us to sell.
    So that's my challenge to the subcommittee, not to you 
guys, to see if we can find $2 billion.
    Secretary Hale. Can I add two thoughts? First, I think 
these are well thought out. There were more than a dozen 
meetings the Joint Chiefs participated in fully. In the end, 
with all due respect to the commission, I think the Chiefs have 
a great deal of expertise and they are the ones that you want 
to make recommendations to you.
    Second, it's just not the $2.1 billion in fiscal year 2015. 
If you delay all these, the whole budget slips. So we're going 
to have to take another $10 billion or so out of the--I don't 
know the exact number, but if you delay it a year or probably 
2----
    Senator Graham. I don't want to--you said just a few 
minutes ago that if you could find $2 billion----
    Secretary Hale. In fiscal year 2015. But then we will have 
to turn around in 2016 through 2020 and, because you've delayed 
it probably 2 years to wait for the commission, probably 
another $15 billion or so in that period. I don't know the 
exact number. I will supply it for the record. But what you're 
doing is forcing further cuts in perhaps numbers of personnel 
or modernization in the out-years.
    [The information referred to follows:]

    By delaying the proposed pay and compensation changes included in 
the fiscal year 2015 President's budget by 2 years in order to wait for 
the results of the Military Compensation and Retirement Modernization 
Commission, the Department of Defense would lose approximately $18 
billion of the savings assumed within the current Future Years Defense 
Program (fiscal year 2015 to fiscal year 2019). With the topline fixed, 
these added costs will lead to cuts in needed funds for readiness or 
modernization.

    Senator Graham. I look at it the other way. I'm looking at 
trying to make structural changes that will affect quality-of-
life in a more reasoned way. That's what I'm looking at, and I 
think $2 billion would help. Everything does affect the other. 
That's why I'm going with this thing. I will be your strongest 
advocate for structural changes because you're going to have 
to, but not this way.
    Thank you.
    Senator Gillibrand. Senator King?
    Senator King. Thank you, Madam Chairwoman.
    Mr. Hale, it would help me to understand the context of 
this if, for the record, you guys could produce a graph, an 
historic graph of compensation costs per capita, not 
compensation costs as a percentage of the defense budget, 
because that relates to the number of soldiers. I'm looking for 
what has been the growth over, say, a 10-year, 15-year period 
of compensation costs; and then secondarily, compensation costs 
per capita as a percentage of the DOD budget. Because I get 50 
percent, 30 percent, 65 percent, and I'm trying to separate 
that from numbers of people to the package.
    If you want to respond, that's fine. But I assume----
    Secretary Hale. We can do that for the record. If it helps, 
I'll say that since 2001 the pay and benefits for military 
personnel have gone up about 40 percent more than the growth in 
the private sector. So we've seen--we created a new healthcare 
system, we had higher pay raises than the Employment Cost Index 
(ECI), we phased out all the out-of-pocket costs in the 
Department of Veterans Affairs (VA). So we've seen sharp 
growth.
    Now, some of that was needed to make up for problems in the 
1990s, but we do believe our analysis says we can recruit and 
retain the people we need even with these modest slow-downs in 
compensation that we're proposing now. But we will supply the 
details for you.
    Senator King. You understand what I'm looking for.
    Secretary Hale. I do.
    [The information referred to follows:]

    The attached graphs provide the historical military personnel 
compensation costs per capita requested for the record. The first graph 
shows the Department of Defense's (DOD) base budget military pay and 
benefit costs for fiscal year 2001, fiscal year 2012, and the fiscal 
year 2015 President's budget request along with the total Active and 
Reserve component end strength levels. For fiscal year 2001, these 
costs totaled $99.5 billion and supported a total end strength of 
2,253,650, which equates to an average cost per end strength of 
approximately $44,200. By fiscal year 2012, pay and benefit costs 
increased to $183.8 billion while the total end strength actually 
decreased to 2,239,942--equating to an average cost per end strength of 
roughly $82,000. Therefore, over the 11-year period from fiscal year 
2001 to fiscal year 2012 the average pay and benefit cost per end 
strength increased by 86 percent.
    The second graph attempts to provide per capita figures for Active 
component personnel only by excluding the Reserve component Military 
Personnel Appropriations and Medicare-Eligible Retiree Health Care 
Accrual costs from the numerator and the Reserve component end strength 
from the denominator. However, it should be noted that DOD's military 
pay and benefit costs include many programs and in-kind benefits (e.g., 
commissaries, family programs, et cetera) that are utilized or 
available to all military and their families (Active component and 
Reserve component), and in some cases retirees and their families, but 
are not specifically funded or easily allocated by component. 
Therefore, these costs are fully allocated to the Active component in 
the per end strength figures shown.
    As shown in the second graph for fiscal year 2001, Active component 
pay and benefit costs totaled $88.3 billion and supported an Active 
component end strength of 1,385,116, which equates to an average cost 
per Active component end strength of approximately $63,700. By fiscal 
year 2012, pay and benefit costs increased to $161.4 billion while 
Active component end strength increased by about 1 percent to 
1,399,622--equating to an average cost per end strength of roughly 
$115,300. Therefore, over the 11-year period from fiscal year 2001 to 
fiscal year 2012, the average pay and benefit cost per Active component 
end strength increased by 81 percent.
      
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
      
    Senator King. Of course, the other question is, this is a 
business, a business that's very dangerous, but the real 
question is recruiting and are you able to recruit and retain 
the people you need based upon whatever the compensation 
schedule is.
    Secretary Hale. We believe we can.
    Senator King. I'd appreciate doing that, and I think it 
should be noted for the record that you didn't ask to be thrown 
into this situation, that this is a zero-sum game that you're 
in, in terms of the way the budget caps work, and that every 
dollar that stays in compensation is a dollar that comes out of 
readiness or modernization, and Congress has certainly had a 
major role in creating that situation, and I think we have to 
own up to that.
    The other important thing, it seems to me, is to be 
thinking about prospective changes, because even though some 
changes--for example, on retirement--should only affect new 
people, and they may not take effect for 20 years. They may not 
save us money, but 20 years has a way of coming. We learned in 
the budget deal that changes in current retirees' structure 
isn't going to fly, at least not for more than about 42 days, I 
think.
    But we really do need to think about prospective changes 
that will provide savings to future presidents and future 
Congresses.
    Secretary Wright?
    Ms. Wright. Sir, I fully agree, and DOD agrees. The four 
proposals that we sent to the commission went with the 
understanding that those individuals that are presently in the 
Services under the retirement system that they're in need to be 
grandfathered, because that's the retirement system that they 
signed up for. So we understand that the savings won't come 
immediately, or maybe there won't even be savings, but the 
retirement system can be different.
    But the issue is that grandfathering, to use that term, is 
extremely important when we talk about the retirement system.
    Senator King. The other piece, and you alluded to this, is 
what people sign up for. In other words, what are the 
expectations, and what is in writing when you sign that paper. 
Now, I realize 18-year-olds probably don't study the fine print 
of the enlistment form, but it seems to me that that's an area 
that deserves some thought in terms of bold print, this is what 
you're committing to, and this is what the likely compensation 
is, this is the retirement plan, so that we can have some clear 
understandings going forward for people, what it is they're 
committing to.
    Ms. Wright. Sir, if I can add, I'm a retired officer, and I 
was an enlisted soldier, and when I signed up, you sign an oath 
of office. It doesn't, to my knowledge--and, of course, I was 
young when I did it, but it doesn't have on there what the 
retirement system is, what the healthcare system is, what the 
pay system is. It has that you will support and defend the 
Constitution of the United States against all enemies, foreign 
and domestic.
    I will turn it over to Mr. Vollrath, who is also retired, 
to add if there is more to that than I remember.
    Secretary Vollrath. You have a very good memory, but so do 
many other Americans.
    Senator, I would agree with your point. The young recruit, 
in most cases, does not start out saying ``I think I'm going to 
go for 20 years because it's just a knockout retirement.'' They 
primarily join for various other reasons. But in the back of 
their mind, we know that is also there.
    Equally important, what we know is that the influencers of 
those young men and women understand what the long term means. 
I don't know what anybody's experience on the committee has 
been, but in my experience, I can't tell you how many people I 
have bumped into in my lifetime that said: ``If I'd only stayed 
in the military,'' and they are referring to the retirement and 
the benefits, et cetera.
    So what we do know when it comes to recruiting is that the 
influencers understand the system, and that also drives that 
new recruit and the decision of that young man or woman. So it 
is an art, unfortunately. It's not a science.
    Second, I would agree with your point. I think if and when 
we do change the retirement system, we need to be very clear, 
right up front with the new cohorts coming in, as to what that 
retirement system is, because those that are grandfathered will 
have one set of experiences and beliefs, and that will have an 
effect on the new cohort coming in.
    Senator King. Is there a potential issue or problem of 
recruiters making promises or assertions that may not turn out 
to be, or could--in other words, the paper doesn't say it, but 
the recruiter says ``sign here and you have 20 years and 
lifetime''?
    Secretary Vollrath. That is certainly a possibility, and we 
know that from time to time it does occur. But, frankly, we 
work overtime to make sure that the recruiters have the facts 
and only the facts and put forth that in their recruiting 
efforts.
    Senator King. Thank you.
    Thank you, Madam Chairwoman.
    Senator Gillibrand. Senator Lee?
    Senator Lee. Thank you, Madam Chairwoman.
    Thanks to each of you for being here. It's an honor to have 
you here with us.
    Secretary Wright, I have a few questions for you. I was 
alerted to a situation a few weeks ago that occurred at the Air 
Force Academy involving the removal of a Bible verse from a 
whiteboard outside of a cadet's dormitory room. Are you 
familiar with that incident?
    Ms. Wright. Yes, sir, I am.
    Senator Lee. Okay. Let me just restate the basic facts as 
I'm aware of them and then tell me what I'm missing.
    Based on the information that I and my staff have been able 
to obtain from the Air Force, the cadets at the Air Force 
Academy use these whiteboards, according to the Air Force, in 
order to display ``items, quotes, or other things that reflect 
their personality or from which they draw inspiration.''
    The cadet in question made this display, wrote this Bible 
verse up on his whiteboard, found himself being reported 
through his chain of command within the cadet structure, and 
also apparently the commanding officer became involved in the 
situation and used it as what someone described as a teachable 
moment, and the cadet apparently took it down.
    Now, those who have provided this account said that he took 
it down voluntarily, although I do find the use of the word 
``voluntarily'' to be curious given that it occurred after 
intervention from those in his chain of command.
    The Bible verse in question that he was quoting was not one 
that I would regard as offensive. It was from Galatians, 
chapter 2, verse 20, which is fairly innocuous, as I read it. 
It says simply, ``I am crucified with Christ, nevertheless I 
live, yet not I but Christ liveth in me, and in the life which 
I now live, in the flesh, I live by the faith of the Son of God 
who loved me and gave himself for me.''
    Now, last year, the Senate Armed Services Committee passed 
an amendment that I introduced in connection with the National 
Defense Authorization Act (NDAA) for Fiscal Year 2014. The 
amendment I introduced passed in this committee, survived the 
various iterations of the NDAA for Fiscal Year 2014, and it now 
appears in section 532(a). It says, ``Unless it could have an 
adverse impact on military readiness, unit cohesion, and good 
order and discipline, the Armed Forces shall accommodate 
individual expressions of belief.''
    Now, I regard this as an individual expression of belief. 
It's also an expression of something from which this cadet 
apparently draws inspiration. So my question for you is how can 
this particular Bible verse quoted by this cadet from the Book 
of Galatians simply declaring his faith from which he draws 
inspiration, placed on a board that traditionally is used for 
that purpose, to reflect that cadet's personality and sources 
from which the cadet draws inspiration, how can that be deemed 
inappropriate?
    Ms. Wright. First, sir, I am not as familiar with the case 
as it appears you are, and what I have heard from the members 
of the Air Force, I have a little conflicting information. So 
to address the case right now I think would be inappropriate, 
but I would like to come over or bring someone over 
specifically to address this case myself and/or somebody from 
the Air Force.
    But globally, for DOD, we do support freedom of speech, and 
we totally support the freedom to exercise your religion. I 
will be honest with you. I'm of the Catholic faith. I have a 
mass card of St. Theresa on my desk which I use as my faith. I 
don't start out my meetings that way because as a leader of 
32,000 people, that would be inappropriate. But I use that.
    So I think that common sense needs to clearly be applied 
when we talk about whether or not they can have an article of 
faith or something like that on their desk or on their wall. 
But when you're a leader, you have to understand that you have 
all faiths that you command, and you must respect everybody's 
faith.
    So again, I don't know the very specific facts of the Air 
Force case. I don't want to get into that in public.
    Senator Lee. You said a moment ago that your understanding 
of it is a little bit different than mine. Can you enlighten me 
as to how it was different?
    Ms. Wright. Sir, I heard that it wasn't he that wrote the 
verse. I heard it was his roommate. But I need to make sure 
that I am getting the correct information if it conflicts with 
your information. I think the bottom line is we both need to 
know exactly the end state.
    Senator Lee. Right, right.
    Ms. Wright. So, if you don't mind, sir, if I can come over 
and bring the Air Force A1, the person in charge of personnel, 
that would be great.
    Also, Mr. Vollrath, do you have anything to add on the 
religious----
    Secretary Vollrath. No, I don't, Secretary Wright, except 
just to reinforce what she said. We certainly are trying to 
comply with the law, and intend to. It is fundamental to free 
speech and the exercise of religion. It is part of what makes 
America America.
    Senator Lee. Certainly, and I definitely agree with that. 
My time is winding down, and so I appreciate the offer to come 
by and inform me as to what the facts were.
    Ms. Wright. Yes, sir.
    Senator Lee. As to whether it was this cadet or whether it 
was the cadet's roommate, somebody wrote it----
    Ms. Wright. Yes, sir.
    Senator Lee.--as an expression of their faith, and somebody 
took it down. The fact that it was taken down is itself 
alarming, much as it would be alarming, I would think, if 
someone came to you and removed something from your desk that 
is a source of faith and inspiration for you. This is exactly 
the kind of scenario we had in mind when we adopted this 
amendment, certainly when I introduced this amendment.
    I would also note that on the Army's Web site can be found 
a very inspiring statement from General Eisenhower sent just 
prior to the invasion at D-Day in which he concluded his 
remarks by saying to the soldiers, sailors, airmen, and marines 
who were about to embark on this very dangerous mission, ``Let 
us all beseech the blessings of almighty God upon this great 
and noble undertaking.'' If that's not offensive, then I find 
it difficult to understand how the decision by this cadet at 
the Air Force Academy, placed on a whiteboard outside his 
dormitory for the purpose of expressing something about his 
personality and about sources from which he draws inspiration, 
how that could possibly be deemed offensive, how that could 
require a teachable moment, and how that could require those in 
his chain of command to give him encouragement that would 
result in him taking it down.
    Thank you very much.
    I see my time has expired. Thank you, Madam Chairwoman.
    Senator Gillibrand. Secretary Wright, did you want to 
respond?
    Ms. Wright. I was only going to say that I totally 
understand and would be more than happy to come over with the 
Air Force and clear up the facts as they are.
    Senator Lee. Thank you. That would be wonderful.
    Senator Gillibrand. I would be grateful for a report on it, 
as well.
    Ms. Wright. Yes, ma'am.
    Senator Gillibrand. Thank you.
    Senator Hirono.
    Senator Hirono. Thank you, Madam Chairwoman.
    I have a follow-up question regarding the commissary 
changes. The testimony indicates that prices in the 
commissaries will go up. So my question is, would these 
increase in prices to servicemembers, retirees, and families be 
the same across all locations? Would there be some 
differentiation that would occur in these price increases?
    Ms. Wright. Ma'am, if I could, I'm going to turn to Mr. 
Vollrath. The commissary comes under his direct supervision.
    Secretary Vollrath. Thank you, Senator, a very good 
question. The intent in this change is to have common pricing 
throughout all commissaries, be they overseas, remote sites, or 
in metropolitan areas such as Fort Bragg or here in Washington, 
DC, common pricing, not differentiated based on rank or Active 
Duty or Reserve or retired status. It would be the same.
    Senator Hirono. Right now, the difference between the 
prices at commissaries and what the prices would be outside, 
although we have a lot of competition for lower prices through 
Costco and other places, is about 30 percent right now, isn't 
it?
    Ms. Wright. The savings in the commissary?
    Senator Hirono. The savings in the commissary.
    Ms. Wright. Yes, ma'am.
    Senator Hirono. So if the savings becomes only about 10 
percent, would you expect to lose a lot of commissary customers 
to these other places? What would that do to the entire 
commissary system?
    Secretary Vollrath. It is a possibility that that would 
occur. The probability we don't know yet until we embark on it. 
But in working with some of the other retail organizations, 
when your price goes up, the patronage tends to go down. So we 
would expect a reduction in patronage.
    Senator Hirono. Yes.
    Secretary Vollrath. Again, that's not just based on working 
with other retail organizations. We know that some of the 
patrons, particularly retirees, will drive a long distance 
because of the current savings, and they may not if the savings 
drop. They may not drive 2 hours from where they are retired to 
come in to get those savings. So there is a probability that 
the patronage will go down, yes.
    Senator Hirono. If it goes down very significantly to the 
point where we may be having to close some commissaries, that 
might happen, that could happen?
    Secretary Vollrath. It's a possibility. I don't know what 
the probability is. Our hope in working this, which is an art, 
that we will still offer enough benefit that the servicemembers 
and their families will value that.
    Senator Hirono. Well, I hope so.
    Regarding recruitment and retention, on page 12 of your 
testimony I note that there's a reference that only 14 percent 
of youth are inclined to serve in the military. So there is 
already just a small percentage of the young people who want to 
serve in our military, and that even for those who want to 
join, a huge percentage of them are not able to join. Maybe 75 
percent--that's a number that I came across in some other 
setting--are not qualified, a lot of them due to the fact that 
they may not have high school degrees.
    While this may not be in your wheelhouse, we're talking 
about a very small number of people who would even be able to 
qualify. So what are your thoughts on what we can do to enhance 
graduation from high school as a start?
    Secretary Vollrath. You have your facts right. About 75 
percent of the youth 18 to 24 in America do not meet the basic 
qualifications for enlistment because of weight or lack of 
schooling or some other run-in with the law, for example. So 
that leaves us with about 25 percent of the youth that can 
qualify to our standards.
    The 14 percent propensity is within that, and of course the 
key to recruiting is to increase that propensity and get as 
many as we can out of the 25 percent that are eligible. So 
that's the challenge in recruiting, is to expand from the 14 
percent up.
    We have been very successful with our recruiting incentives 
and with our quality-of-life and with the challenging lifestyle 
to attract sufficient people from that small population in 
America over the last 10 years. All of the Services last year 
met their recruiting numbers except for the Army Reserve, which 
went down slightly for the first time in years, and the quality 
standards that we have have been far exceeded, to the degree 
that 95.9 percent of all of the recruits last year had a high 
school diploma and were graduates, or the equivalent of that. 
So we're taking the best of the best given the current 
conditions that we have.
    We are, however, cognizant of the fact that as the economy 
improves--and thank goodness for America, it is improving--as 
the economy improves, it may present us with greater challenges 
in recruiting. Therefore, we are vigilant now to make sure that 
we have enough recruiters and we're not going down that road, 
and we have enough recruiting incentives and we're not taking 
any great shots at that, because we have learned our lesson 
from the 1990s, the last time DOD had a significant drawdown. 
We're concurrent with the drawdown. We cut recruiters, we cut 
advertising budgets, we cut incentives and, of course, hit the 
wall at the end of the 1990s in trying to recruit.
    So we are cognizant of the fact that we don't need to make 
those mistakes twice.
    Senator Hirono. I think, as a general proposition, that it 
behooves all of us to care about the graduation rates 
throughout our country, and clearly whatever the military can 
do, what you all can do to support the education efforts 
across-the-board, that would be a good thing.
    My time is running out, but I do have a question also about 
the GI bill. There have been some concerns about certain, 
basically, for-profit colleges that recruit heavily among 
veterans, and the outcomes may not be all that terrific. They 
rely a lot on loans and all that.
    Do you have any concerns about the recruitment tactics used 
by some of these schools? What are you doing about it, if you 
have such concerns?
    Ms. Wright. First, yes, we do. We're working with a lady 
named Holly Petraeus, who also has a huge concern over this 
particular issue. We're also working with the education centers 
that we have throughout DOD that are on the post, camps, and 
stations that people come into to apply for college to let them 
understand that there are for-profit colleges that you can get 
a degree, but the degree is very expensive and not marketable 
once you get it. So you've spent all this time, energy, and 
money for a degree that's not marketable if you choose to not 
stay in the military and potentially use that degree.
    So we're working to make sure our servicemembers understand 
that there are great institutions throughout this Nation that 
will not only take your money but also give you a great 
education and a very marketable degree.
    Mr. Vollrath?
    Secretary Vollrath. We have also instituted a document that 
all institutions of higher learning have to sign, which has in 
the document principles of excellence, how they will conduct 
the education and how they will treat the students, and we have 
more than 3,200 already signed up. So they have to meet 
standards going in and coming out.
    We have set up a system with other agencies in the Federal 
Government for students to report, both by phone or 
electronically, any problems they have with the school, and 
then we will take them on in DOD; or if they appear to be 
criminal in some way, we do pass them over to the Department of 
Justice, because we understand that there may be people who are 
not that well-intentioned.
    Senator Hirono. Thank you.
    I do thank the chairwoman for her indulgence. I went over 
my time.
    Senator Gillibrand. Your questions were so good, I didn't 
want to interrupt you.
    Senator Hirono. Thank you.
    Senator Gillibrand. Senator Ayotte?
    Senator Ayotte. Thank you, Madam Chairwoman.
    I wanted to, first of all, thank you all for being here and 
for the work that you're doing.
    I was just in Afghanistan last week, and I met a New 
Hampshire soldier who has been in the Army for 8 years, and 
he's done five deployments in those 8 years, and I can tell you 
some of the personal experiences he's had with his personal 
life have been very difficult as a result of being deployed so 
many times.
    I think it's also a very difficult challenge for our Guard 
and Reserve because they're being deployed multiple times, and 
then they come back to a civilian setting where they're not on 
a base where other people have had the similar experiences that 
they've had, and that presents unique challenges for us as the 
Guard and Reserve have been operational.
    We have a program in New Hampshire that I've mentioned 
before that I'm very proud of. It's called the Deployment Cycle 
Support Program. It's really a public-private partnership where 
we've partnered State resources with Easter Seals in the non-
profit sector that has raised money for it, and then taken some 
of the Yellow Ribbon money from DOD and really leveraged it.
    In our State, we just last year served 523 servicemembers. 
We intervened in 10 suicides where there was a suicide risk; 
102 participants previously unidentified for mental health 
issues were diagnosed and received treatment. We got 77 people 
to work, 55 people prevented from homelessness, 62 people were 
going to lose their homes and we stopped them. We referred over 
1,000 participants overall to other care providers, and raised 
a lot of money on the local level from the private sector to 
really maximize the Federal dollars.
    So although I'm supportive of the Yellow Ribbon program, 
the way we've done it, frankly, I'm quite proud of being able 
to really leverage those dollars.
    So I wanted to ask you, all of you who--certainly Secretary 
Wright, Secretary Woodson, Secretary Wightman, what you think 
of this program, and if you haven't had a chance to see how 
it's working, we would love to have you in New Hampshire 
because I think it's a model to leverage scarce Federal dollars 
in a way that brings the entire community in.
    Ms. Wright. Yes, ma'am. First, your panel members up here 
are comprised of a guardsman and two reservists. So we do 
understand what the National Guard and Reserve have done, 
particularly in the last years, and I am very familiar with 
your program from the standpoint of hearing about it. I have 
not had the pleasure of going up and seeing exactly what they 
do.
    Senator Ayotte. We'd love to welcome you if you'd like to 
come up.
    Ms. Wright. I will take you up on that.
    But to your point, the program funded with Beyond the 
Yellow Ribbon money is excellent, and it does do exactly what 
you have said, and potentially more, because those individuals 
who either get housing or get jobs or are taken care of then 
affect tons of people that are their immediate and also 
extended family. So it does support many more than just the 
guardsman and the reservist.
    I'd like Mr. Wightman also to add information. He is 
responsible for the Reserve components.
    Mr. Wightman. Thank you. Senator, this is a great program. 
I have not been there as well, and I would love to come out 
there and see the program in action.
    It appears that Beyond the Yellow Ribbon is an extension of 
the Yellow Ribbon program, and what you've done out there is 
fantastic. The Yellow Ribbon program goes up to a point through 
the entire deployment cycle, and then this program gets down 
with a care coordinator, with the family in the community, and 
that seems to be the full spectrum from one end to the other.
    So I would commend the program. I know you have $1.2 
million coming your way as a result of the work that's been 
done in the past.
    Senator Ayotte. Thank you. I appreciate it. I think it also 
gets the community more involved, which is really important, I 
think, to provide that support structure back in the community.
    Let me just ask about the proposed benefit changes. I want 
to associate myself with the comments of the chairwoman, as 
well as the ranking member, about really looking at this in a 
holistic manner with the commission. I'm concerned about moving 
on this now.
    Here is one of my big concerns. It's usually the junior 
military personnel who are going to spend a higher percentage 
of their total income on housing, food, and health care. As I 
see these changes, they're going to be hit the biggest because, 
frankly, they're the junior enlisted soldiers that make the 
least. As I understand it, unfortunately, some of our soldiers 
are even having to be on food stamps.
    When I think about those soldiers having to pay whether 
it's more at the commissary or, if they have to live off base, 
a reduction in housing allowance, I'm very concerned for our 
enlisted soldiers, not that I'm not concerned for all of our 
soldiers because I am, but it seems that we're also hitting our 
enlisted disproportionately here as we look at the economic 
challenges that these families face.
    Can you help me understand what is going to be the impact 
on the junior enlisted, and do you agree with me that they're 
likely to get hit, looking at how much they make and how much 
they just logically have to spend on housing and food, that 
they're going to get hit the biggest on this? They already have 
a lot of challenges, so I'm worried about this.
    Secretary Hale. Perhaps I can start. First off, I think we 
did look holistically. The Joint Chiefs designed this program 
personally, and I have great respect for the commission and I 
understand why you set it up, and I would hope you would listen 
to them.
    In terms of the overall design, I haven't done the numbers 
by grade, but I can tell you that we have benchmarks that 
suggest that we can recruit and retain the people that we need. 
The enlisted now are around the 90th percentile or in the 90s 
in terms of their pay and allowances, and the officers in the 
80s. So our benchmarks suggest we can do it.
    If we're wrong and we find that we have created retention 
and recruiting problems with these really fairly modest changes 
overall, then we'll reverse them. We're going to support the 
All-Volunteer Force. We have a strong commitment to do that. 
But we don't think we'll have to do that. We think we can do 
this and free up the money to help their training. I keep 
asking you to come back to that because that's why we're doing 
this. If you don't mind cutting readiness, then I suppose that 
we can do away with these proposals. But none of us want to do 
that.
    Senator Ayotte. Let me just be straight. I voted against 
sequestration, and I think that we should work together to 
address sequestration, especially since the world is in a very 
challenging time, not only with Ukraine, Syria, every other 
risk we face in the world. I understand the challenges you're 
under.
    What I would like to hear from the panel, I would very much 
like to know what will be the financial impact and what 
analysis you did, particularly looking at the junior enlisted 
and how much your average junior enlisted, and I assume before 
you proposed this, you all ran these numbers and really looked 
at rank versus how much that person will pay more.
    I think that that's really important for us to see the 
numbers that you relied on and the underlying data, because 
this, to me, is, again, I think of deep concern to the greatest 
asset we have in our military, our people. We can have all the 
greatest equipment and everything else, but without the people, 
as I know you all agree, we can't do anything.
    I'm just going to submit that for the record, just to get 
the numbers, and I'm sure that all of us would like to see what 
was the analysis done, and also by rank and what your average 
person makes and how this would impact them.
    Thank you.
    [The information referred to follows:]
        
      
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
          
    Senator Gillibrand. I'd like to associate myself with 
Senator Ayotte's comments. I would like that report as well. I 
think she's exactly right.
    Senator Ayotte. Thank you.
    Senator Gillibrand. Senator Kaine?
    Senator Kaine. Thank you, Madam Chairwoman. I know we have 
a vote call, so I'll try to move quickly.
    Senator Lee asked some important questions, I think, about 
accommodations of religious expression. I know that it is a 
very challenging and subjective issue, often, for a leader to 
determine what is expression and what is proselytization or 
pressure that makes others feel uncomfortable, and that's 
something you can't write a rule for.
    But here's something that is pure expression, and it's a 
particular passion of mine, and I know of the chairwoman's as 
well, and that's the treatment of Sikhs who serve in the 
military. Sikhs could serve in the military and wear their 
traditional hair, beard, garb, up through the late 1980s, but 
then there's been a change to make that more difficult.
    The chairwoman and I have written a couple of letters about 
this and we want to continue our focus on this issue. For me, 
this is not just an issue of the protection of an individual's 
religious rights, which is extremely important, but in a world 
now where so many of the conflicts we are seeing are conflicts 
driven by sectarian religious intolerance, one of the best 
things we can do as a Nation is demonstrate that we are 
welcoming and open and we tolerate different religious 
practices that don't go over the line into proselytization.
    I think actually a change in accommodation for Sikhs would 
serve an important purpose of showing how we as a society can 
model this. I am just really putting that on the radar screen. 
It's something I'm going to continue to focus on with others 
here.
    Secretary Wright, I want to ask you a question. Part of the 
testimony deals with a brief report about the success of the 
military in eliminating gender exclusions in MOSs in the last 
year. Could you just talk about progress there?
    Ms. Wright. Yes, sir. Secretary Panetta and Chairman 
Dempsey are the ones that eliminated the 1994 Ground Combat 
Exclusion Rule. The Services have until 1 January 2016 to 
thoughtfully and deliberately integrate women into those closed 
positions. The Services are continuing the review to come up 
with gender-neutral standards which will allow women to then 
come into these otherwise closed occupations.
    The Army and the other Services have opened up and, 
frankly, I will have to turn to Mr. Vollrath for the specific 
number, but many different jobs for women, and they have also 
opened up--the Army, in particular, I can use as an example. If 
you are, say, for example, a medic, which women can go into, 
they have opened up units that were previously closed, an 
infantry battalion if you will, so that female medics can be in 
those units.
    Senator Kaine. Can I just say, something that I would ask 
you to pay attention to, and we will, and I hope this isn't a 
concern but just history being a guide. In Virginia and in many 
States, when the Federal Government changed via Constitution 
the ability of a State to exclude voters on the grounds of 
race, my State said, okay, we can't exclude voters on the 
grounds of race, but we can come up with new requirements that 
have never been imposed before to basically exclude those 
voters, and that might trip up some others as well.
    I would just hope in this effort, and I assume good faith, 
and I was so excited with this announcement last year, in the 
effort to come up with the neutral criteria to use to determine 
suitability for MOSs other than gender, I hope that there is 
some scrutiny to what those criteria are in an effort to make 
sure that they really are fair and objective and they're not an 
attempt to exclude women from MOSs without having a specific 
gender exclusion.
    Ms. Wright. Yes, sir, they are. In fact, we have hired 
scientists to do this. We are not doing this on our own as an 
organization. We need to pay attention to the occupational 
standards that are required to perform these jobs, and that's 
why I used the term ``thoughtful and deliberate,'' because we 
have to continue to do the mission in the fashion that the 
mission needs to be done, and we can't negate that mission or 
lower that mission or lower standards to perform that mission.
    We need to also have the standards be scientifically 
reviewed and established for anyone to perform those particular 
jobs.
    Mr. Vollrath?
    Secretary Vollrath. The only thing that I would add, 
Senator, is that in addition to the scientific approach to make 
sure that any bias isn't there, if perchance there is, and we 
don't think there is honestly, we also know that implementation 
has to be done in good fashion. You can't just dictate this. 
Given the military assignment-reassignment system, that process 
has already begun, and we are very cognizant of the fact that 
there will always be the first in some of these units. So we 
are cautioning commanders and senior noncommissioned officers 
that they need to understand and make sure that they are 
prepared for this, because it needs to be successful for the 
proper defense of this country.
    Senator Kaine. I'm extremely supportive of this effort, and 
I recognize that human beings are human beings, so there are 
going to be some glitches along the way. Our best wishes in 
this effort, and we'll continue to dialogue on it.
    One last question, briefly, for Secretary Wright. My first 
legislation got wrapped up and included in the NDAA last year, 
which is the Troop Talent Act, largely about the credentialing 
of military members during Active Duty service with the skill 
sets they obtain, when they obtain them, and I know that 
there's been a pilot project on this, and the DOD evaluation of 
the pilot was very positive. It found in the pilot that the 
cost of credentialing, about $285 a person, was significantly 
less than trying to go in and deal with people's employment 
needs once they were veterans or much later as they're getting 
ready to transition out. The cost of Department of Labor 
programs, the cost of unemployment insurance that the military 
pays, these are significant costs, and much better to give 
somebody a civilian translatable skill set for $285 than have 
to pay costs down the road.
    What more can we be doing to facilitate DOD and Service 
branch-wide acceleration of credentialing initiatives?
    Ms. Wright. Sir, we have someone that is clearly working 
that aspect, credentialing and licensing, from the DOD job, 
from the military job to a civilian job. Frankly, yesterday I 
met with financial people to see what their standards were to 
see if we can move forward on that. So we are doing it all the 
time.
    The individual's name is Mr. D--we call him D9. I 
apologize.
    Secretary Vollrath. DiGiovanni.
    Ms. Wright. DiGiovanni, yes. He works for Mr. Vollrath, so 
if you want to add a little bit?
    Secretary Vollrath. Senator, we're right in line with your 
philosophy and direction, and it's a two-way street. It is not 
just focused on the individual and trying to get the individual 
credentialed for life after Service. What we've learned in the 
process is we, DOD, get benefit from this, too. So, for 
example, if a medic can be credentialed as an emergency medical 
technician, we in DOD gain, as does that individual, and they 
can take it with them through life. So it increases our 
professionalism in those particular skills.
    What we've also learned is that members who drive vehicles 
can begin to move toward the commercial driver's license, that 
they become more professional and more turned on, if you will, 
about their job.
    We've also discovered that we can take this into some other 
areas that people generally don't think about--for example, 
human resources. There is a professional body that licenses 
civilian human resource professionals. So we're going to move 
in that area and improve professionalism there.
    So it is a win-win proposition from our perspective.
    Senator Kaine. Thank you.
    Thank you, Madam Chairwoman.
    Senator Gillibrand. Thank you for your testimony.
    Because we will vote, and Senator Kaine and I only have 
about 5 minutes to get there before the close, we need to close 
this panel. I do have additional questions that I will submit 
for the record.
    I am very grateful for your service and your testimony. I 
know how hard you've worked on this issue. I know it's not 
easy. As you can see, there's a lot of concern among the 
subcommittee about doing this because we somehow have to pay 
for all our cuts within personnel, and I think there's a push-
back on that within the subcommittee, and we may be waiting for 
the larger-scale, longer-term structural reforms that come with 
the commission's recommendations.
    Thank you for your work. Thank you for your service.
    We will reconvene this hearing at 12:10 p.m., which will 
accommodate the votes--we have four votes--for the next panel. 
You are dismissed. Thank you very much. [Recess.]
    Welcome, everyone. Our second panel has convened. We have 
members of The Military Coalition (TMC), a consortium of 
nationally prominent uniformed service and veteran 
organizations. Retired Colonel Michael F. Hayden is the 
Director of Government Relations, Military Officers Association 
of America (MOAA); Mrs. Kathleen B. Moakler is the Government 
Relations Director of the National Military Family Association 
(NMFA); Mr. John R. Davis is the Director of Legislative 
Programs, Fleet Reserve Association (FRA); and retired Captain 
Marshall Hanson is the Director of Legislative and Military 
Policy, Reserve Officers Association (ROA).
    I invite you all to give an opening statement, to keep your 
oral statement to under 5 minutes. I invite John Davis to speak 
first.

  STATEMENT OF JOHN R. DAVIS, DIRECTOR, LEGISLATIVE PROGRAMS, 
                   FLEET RESERVE ASSOCIATION

    Mr. Davis. My name is John Davis and I'm Director of 
Legislative Programs with the FRA. I want to thank you for 
allowing me to speak with you today.
    At the heart of the budget challenges facing DOD is the 
devastating effect of sequestration. FRA and our coalition 
partners insist Congress should exclude defense from 
sequestration. We agree with Secretary of Defense Hagel, who 
stated at his February 24th press conference that continued 
sequestration cuts will create a hollow force.
    While debt reduction is a national priority, we believe 
that such a disproportionate share of this burden must not 
continue to be foisted on DOD, especially on the backs of 
military members and families who sacrifice so much for their 
country.
    Adequate pay increases are needed to at least in part 
offset the extraordinary demands and sacrifices expected in a 
military career. We want to thank the chairwoman for her 
mentioning junior enlisted families regarding pay cuts and 
benefit cuts. FRA advocates that to sustain a first-class 
career military force requires a strong bond of mutual 
commitment between the servicemember and his or her employer. 
Pay and allowances remain the top retention choice for Active 
Duty military personnel since the beginning of the All-
Volunteer Force. The highest rated benefit for Active Duty in 
FRA's online survey done in February and March 2014 was base 
pay, 93 percent of Active Duty believe base pay is very 
important, the highest rating.
    The Active Duty community is disappointed that Congress 
capped the 2014 Active Duty pay raise at 1 percent, which is 
0.8 percent less than the growth of the private sector pay 
measured by the ECI, and is the smallest pay increase in recent 
memory.
    In 1999, it was determined that there was a 13.5 percent 
pay gap between military and private sector pay, and Congress 
made a commitment then to gradually close that gap. FRA 
believes that Congress should hold fast to that commitment. The 
gap was reduced to 2.4 percent, but it is now headed in the 
other direction with the 2014 pay increase.
    BAH is an allowance paid to Active Duty servicemembers 
based on pay grade, dependency status, and geographic location 
within the United States. The fiscal year 2015 budget 
eliminates compensation for renter's insurance and cuts the 
average payment by 5 percent.
    BAH is the third highest priority for Active Duty members 
in FRA's online survey, indicating that 83 percent of Active 
Duty see BAH as very important. In 2000, BAH payments provided 
80 percent of housing costs. Congress at that time made a 
commitment to increase the benefit to 100 percent as part of 
the overall effort to enhance pay and other benefits to improve 
retention and recruitment. FRA is concerned that Congress has 
not learned from past mistakes that pay caps and other benefit 
cuts eventually impact negatively on retention and recruitment.
    Also, adequate military end strength is vital in sustaining 
our national security. The strain and inadequate dwell time of 
repeated deployments are significant and related to end 
strength levels. This is reflected in troubling stress-related 
statistics that include alarming rates of suicide, prescription 
drug abuse, alcohol use, and military divorce rates.
    For the last 13 years, servicemembers and their families 
have endured unprecedented sacrifices, often having less than a 
year at home before returning again for another year in combat. 
Roughly 1 percent of the population has volunteered to shoulder 
100 percent of the responsibility of our national security. 
Now, with these even greater end strength reductions, many 
servicemembers worry if they will be able to continue serving 
their Nation.
    I'll be glad to answer any questions. Thank you.
    [The prepared statement of Mr. Davis follows:]
          Prepared Statement by The Fleet Reserve Association
                              introduction
    Chairwoman Gillibrand and Ranking Member Graham, the Fleet Reserve 
Association (FRA) salutes you, other members of the subcommittee, and 
your staff for the strong and unwavering support of programs essential 
to Active Duty, Reserve component, and retired members of the armed 
services, their families, and survivors. This support is critical in 
maintaining readiness and is invaluable to military personnel engaged 
in operational commitments throughout the world and in fulfilling 
commitments to those who've served in the past.
    The current All-Volunteer Force (AVF) has been through a dozen 
years of wartime sacrifices never envisioned by those who designed a 
voluntary military force. The U.S. military is a stressed force with 
many serving in multiple deployments in Iraq and Afghanistan. The 
current benefit package is the glue that holds the AVF together, and 
any budget-driven cuts in pay and benefits could have adverse impact on 
recruitment and retention and ultimately threaten the very foundation 
of the AVF. Military service is unlike any other occupation. Roughly 1 
percent of the population has volunteered to shoulder 100 percent of 
the responsibility for our national security. The benefits associated 
with this service have been earned through 20 or more years of arduous 
military service.
    The whole purpose of a unique military retirement pay and health 
care benefit is to offset the extraordinary demands and sacrifices 
expected in a military career. FRA advocates that to sustain a first-
class, career military force requires a strong bond of mutual 
commitment between the servicemember and his/her employer.
                                synopsis
    The FRA is an active participant and leading organization in The 
Military Coalition (TMC) and strongly supports the recommendations 
addressed in the more extensive TMC testimony prepared for this 
hearing. The intent of this statement is to address other issues of 
particular importance to FRA's membership and the Sea Services enlisted 
communities.
                      dod budget and sequestration
    FRA notes with concern the decrease in the Department of Defense 
(DOD) personnel programs from $144 billion in the current fiscal year 
2014 budget to $135 billion proposed in the administration's fiscal 
year 2015 request. Secretary of Defense Chuck Hagel stated that this is 
the first budget to reflect the end of American involvement in 
Afghanistan, and will significantly reduce end strength for all 
branches of the military including the Reserve component. Hagel warned 
that future sequestration budget cuts mandated by the 2011 Budget 
Control Act (BCA) will create a ``hollow force.'' FRA shares the 
Secretary of Defense's concerns about a ``hollow force'' military and 
supports adequate end strengths for our military's operational 
commitments. The Association believes that Defense should be excluded 
from sequestration cuts mandated by the BCA. FRA opposes new TRICARE 
fee increases, cuts to commissary benefits and cuts to Basic Allowance 
for Housing (BAH). FRA also believes that active-duty pay increases 
should at least keep pace with comparable civilian pay increases as 
measured by the Employment Cost Index (ECI).
    Pentagon officials have repeated expressed concern that personnel 
cost are ``eating us alive.'' The facts do not support that assertion. 
Other data indicates that personnel costs have remained at 
approximately one-third of the Defense budget for many years.
    The BCA of 2011 established automatic budget cuts known as 
sequestration that mandates that 50 percent of the cuts come from 
Defense even though Defense only makes up 17 percent of the budget. 
These cuts put America's national defense capabilities at greater risk. 
Unless current law is changed, the DOD will have to cut an additional 
$54 billion in fiscal year 2016 and some $269 billion over the 
following 5 fiscal years.
    The DOD budget was already scheduled to be cut by $487 Billion over 
a 10-year period BEFORE the enactment of sequestration, that if fully 
implemented will cut an additional $500 billion in the defense 
spending. The Bipartisan Budget Act of 2013 mitigated the spending cuts 
for fiscal year 2014 and 2015. However, the original sequestration cuts 
fiscal year 2016 thru 2021 remain in effect continuing to place 
national security at risk.
    Sequestration has already forced the Services have already canceled 
deployment of ships, slashed flying hours, renegotiated critical 
procurement contracts, temporarily furloughed civilian employees, and 
are in the process of reducing force structure by some 124,000 
personnel. Additionally, the Defense Authorization Bill for Fiscal Year 
2014 capped military pay raises at 1 percent, the lowest pay raise in 
50 years.
    The proposed fiscal year 2015 defense budget assumes some 
additional monies will be forthcoming to mitigate sequestration 
impacts. However, the budget proposes additional force reductions of 
some 78,000 personnel in the Army, Army Reserves, Army National Guard, 
and the Marines Corps (6,000) giving America the smallest military 
force since before World War II. If sequestration relief is not ended, 
additional force reductions will likely go deeper and training and 
modernization will be further impacted.
    The fiscal year 2015 budget submission proposes several 
compensation measures to free monies for force structure and 
modernization by capping the fiscal year 2015 pay raise at 1 percent, a 
figure below the mandated ECI, slowing the growth in base housing 
allowances and increasing out-of-pocket expenses for personnel, 
reducing commissary savings and increasing TRICARE fees for both 
retirees and active duty personnel.
    While debt reduction is a national priority, such a disproportional 
share of this burden must not be imposed on military families who 
already have sacrificed for their country.
                     cost-of-living adjustment cuts
    FRA welcomed the repeal of the 1-percent cost-of-living adjustment 
(COLA) cut for those joining the military before January 1, 2014 but 
was disappointed the COLA cut applies to future retirees that joined 
the military on or after January 1, 2014. The Association is delighted 
that all current retirees and almost all of those currently serving are 
excluded from the 1-percent COLA cut. FRA remains concerned, however, 
that the 1-percent COLA cut provision for those enlisting after January 
1, 2014, could have a negative impact on recruitment. Further, these 
changes should go through the ``regular order'' of subcommittee and 
committee hearings in the House and Senate to thoroughly review the 
impact on the future of the All-Volunteer Force (AVF). Additionally, 
FRA argues that any changes to retirement benefits and military 
compensation should be put on hold until the Military Compensation and 
Retirement Modernization Commission (MCRMC) makes its final report in 
February 2015. FRA will continue to advocate for repealing COLA cuts 
for all future retirees.
                  retirement reform and the commission
    Secretary of Defense Hagel clarified at his February press 
conference that he will await the final report from the MCRMC, which is 
due February 2015, before proposing any changes to military retirement 
benefits. FRA is thankful for the Secretary's restraint but wonders why 
DOD has proposed other changes in TRICARE, and military compensation 
that is also be reviewed by the Commission. The nine-member MCRMC, 
created by the NDAA for Fiscal Year 2013, has held a series of hearings 
and has continued to seek input from various interested parties. The 
commission has been charged to review ``the full breadth of the 
systems,'' including healthcare, military family support, and any 
Federal programs that could influence the decision of current or future 
servicemembers to stay in uniform or leave the Service. Before making 
their final recommendations to Congress and the President, the 
commission must examine the impacts of proposed recommendations on 
currently serving members, retirees, spouses, children, and survivors.
                   tricare benefits and fee increases
    FRA's membership appreciates the following Sense of Congress 
provisions in the National Defense Authorization Act (NDAA) for Fiscal 
Year 2013: (1) DOD and the Nation have a committed health benefit 
obligation to retired military personnel that exceeds the obligation of 
corporate employers to civilian employees; (2) DOD has many additional 
options to constrain the growth of health care spending in ways that do 
not disadvantage beneficiaries; and (3) DOD should first pursue all 
options rather than seeking large fee increases or marginalize the 
benefit for beneficiaries.
    The fiscal year 2015 DOD budget will shift costs to military 
beneficiaries by:

          Consolidating the TRICARE Health Plans into one--results in 
        much higher costs while reducing access
          Raising annual fees for retired and active duty families of 
        all ages and categories
          Dramatically increasing pharmacy copays
          Imposing means-testing of military retiree health benefits--
        which no other Federal retirees endure

    FRA advocates that DOD must sufficiently investigate and implement 
other options to make TRICARE more cost-efficient as alternatives to 
shifting costs to TRICARE beneficiaries, and the Association opposes 
any indexing of future TRICARE Fee increases beyond CPI indexed COLA 
increases.
    The administration's fiscal year 2015 budget request includes a 
complex plan to merge TRICARE Prime, Standard and Extra into one 
program for all retirees under age 65; Raising annual fees for retirees 
under age 65 and active duty family members; Dramatically increasing 
pharmacy co-pays for retirees under age 65; and new annual fee for new 
TIRICARE-for-Life (TFL) beneficiaries. FRA opposes the new proposed fee 
increases included in the fiscal year 2015 administration's budget and 
opposes the merger of programs that will result in TRICARE Standard and 
Extra beneficiaries paying a new annual ``participation'' fee, and 
TRICARE Prime beneficiaries paying higher co-pays and deductibles.
Background
    TRICARE Prime enrollment fees for military retirees increased by 13 
percent in 2012 with future increases tied to the annual COLA increase. 
In addition Congress increased pharmacy co-pays and mandated future 
increases tied to the annual percentage increase in the retiree COLA 
starting in 2014 through 2022. A 5-year pilot program also requires TFL 
beneficiaries to obtain refills of maintenance drugs through the 
TRICARE home delivery program for at least 1 year.
    FRA will vigorously oppose Pentagon efforts to shift the cost of 
health care to beneficiaries. DOD has proposed merging TRICARE Prime, 
Standard, and Extra into one program. The Association believes under 
the pretext of this merge that retirees under age 65 will be forced to 
accept TRICARE Standard benefits with TRICARE Prime enrollment fees and 
more fees.
    Military retirees under age 65 and are enrolled in TRICARE Prime 
experienced a 13-percent increase in their annual enrollment fees 2 
years ago, and these fees are increased annually based on inflation. 
TRICARE Standard, Extra, and Prime beneficiaries have their pharmacy 
co-pays increased every year with the rate of inflation.
    FRA will vigorously oppose Pentagon efforts to shift the cost of 
health care to beneficiaries. DOD has proposed merging TRICARE Prime, 
Standard, and Extra into one program. The Association believes under 
the pretext of this merge that retirees under age 65 will be forced to 
accept TRICARE Standard benefits with TRICARE Prime enrollment fees and 
more fees.
    The Association believes that DOD should fix inefficiencies first 
before shifting health care costs to retirees. There have been many GAO 
reports that indicate that the DOD cost accounting system is 
dysfunctional and cannot be audited. Also consolidating the DOD health 
care system into a unified medical command would create a more 
efficient organization that could obtain substantial savings.
                            active duty pay
    FRA strongly supports a full Employment Cost Index (ECI) military 
pay increase for fiscal year 2015. Pay and allowances remain the top 
retention choice for active duty military personnel since the beginning 
of the All-Volunteer Force and that is reflected in the FRA online 
survey (February/March 2014) indicates that 93 percent of active duty 
see base pay as ``Very Important''--the highest rating. So I'm sure the 
active duty community is disappointed that Congress capped the 2014 
active duty pay raise at 1 percent, which is 0.8 percent less than the 
growth of private sector pay (ECI), and the smallest pay increase in 
recent memory.
    In the 1970s several annual pay caps contributed to a serious 
retention problem that was fixed by large salary increases in 1981 and 
1982. Throughout the 1980s and 1990s budget limitations lead to several 
salary caps providing salary increases below the annual ECI. In 1999 it 
was determined that there was a 13.5 percent gap between military and 
private sector pay, and Congress made a commitment then to gradually 
close that gap, and FRA believes that Congress should hold fast to that 
commitment. The gap was reduced to 2.4 but now is headed in the other 
direction with the 1 percent increase in 2014 the smallest increase in 
many years. Adequate pay increases are needed to at least in part 
offset the extraordinary demands and sacrifices expected in a military 
career.
                    basic allowance for housing cuts
    Basic Allowance for Housing (BAH) is an allowance paid to active 
duty servicemembers based on pay grade, dependency status, and 
geographic location within the United States. The fiscal year 2015 
budget eliminates compensation for renter's insurance and cuts the 
average payment by 5 percent. The fiscal year 2015 budget eliminates 
compensation for renter's insurance and cuts the average payment by 5 
percent. BAH is the third highest priority for active duty in FRA's 
online survey indicating that 83 percent of active duty sees BAH as 
``very important.''
            uniformed services former spouses protection act
    FRA urges Congress to review the Uniformed Services Former Spouses 
Protection Act (USFSPA) with the intent to amend the language so that 
the Federal Government is required to protect its servicemembers 
against State courts that ignore the act. The USFSPA was enacted 30 
years ago; the result of congressional maneuvering that denied the 
opposition an opportunity to express its position in open public 
hearings. The last hearing, in 1999, was conducted by the House 
Veterans' Affairs Committee rather than the House Armed Services 
Committee which has oversight authority for USFSPA.
    Few provisions of the USFSPA protect the rights of the 
servicemember, and none are enforce-able by the Department of Justice 
(DoJ) or DOD. If a State court violates the right of the servicemember 
under the provisions of USFSPA, the Solicitor General will make no move 
to reverse the error. Why? Because the act fails to have the 
enforceable language required for DoJ or DOD to react. The only 
recourse is for the servicemember to appeal to the court, which in many 
cases gives that court jurisdiction over the member. Another infraction 
is com-mitted by some State courts awarding a percentage of veterans' 
compensation to ex-spouses, a clear violation of U.S. law; yet, the 
Federal Government does nothing to stop this transgression.
    There are other provisions that weigh heavily in favor of former 
spouses. For example, when a divorce is granted and the former spouse 
is awarded a percentage of the servicemember's retired pay, the amount 
should be based on the member's pay grade at the time of the divorce 
and not at a higher grade that may be held upon retirement. FRA 
believes that the Pentagon's USFSPA study recommendations are a good 
starting point for reform. This study includes improvements for both 
former spouse and the servicemember.
                        reserve component issues
    FRA stands foursquare in support of the Nation's reservists and to 
improved compensation and benefits packages to attract recruits and 
retain currently serving personnel. These changes should include 
eliminating the fiscal year early retirement limitation which is 
addressed in the ``Reserve Retirement Deployment Credit Correction 
Act'' (S. 240) sponsored by Senator Jon Tester (MT) and its House 
companion bill (H.R. 690), sponsored by Representative Tom Latham (IA). 
The Association also wants to make the early retirement credit 
retroactive to September 11, 2001, after which the Reserve component 
changed from a strategic reserve to an operational reserve.
    The Association supports the ``Healthcare for Early Retirement 
Eligible reservists Act'' (H.R. 738), sponsored by HASC Personnel 
Subcommittee Chairman Representative Joe Wilson (SC), that would allow 
retirees of the Reserve component to receive medical and dental care at 
military treatment facilities (MTF) or VA facilities prior to reaching 
age 60. The NDAA for Fiscal Year 2009 granted qualifying reservists 
early retirement, but did not authorize healthcare benefits. In 
addition reservists in the Individual Ready Reserve have no access to 
health care.
    FRA also supports restoring the Reserve Montgomery GI Bill benefits 
to at least 47 percent of active duty MGIB benefits. Further FRA 
recommends funding of a tailored Transition Assistance Program (TAP) to 
meet the unique needs of reservists, including academic protections for 
mobilized reservists students such as refund guarantees, exemption from 
repayment of Federal student loans during activation, and maintaining 
academic standing.
                           concurrent receipt
    FRA continues its advocacy for legislation authorizing the 
immediate payment of concurrent receipt of full military retired pay 
and veterans' disability compensation for all disabled retirees. The 
Association appreciates the progress that has been made on this issue 
that includes a recently enacted provision fixing the Combat Related 
Special Compensation (CRSC) glitch that caused some beneficiaries to 
lose compensation when their disability rating was increased. There 
still remain Chapter 61 retirees receiving Concurrent Retirement and 
Disability Pay (CRDP) and CRDP retirees with 20 or more years of 
service with less than 50 percent disability rating that should receive 
full military retired pay and VA disability compensation without any 
offset.
    The Association strongly supports pending legislation to authorize 
additional improvements that include Senate Majority Leader Harry 
Reid's legislation (S.234), Representative Sanford Bishop's ``Disabled 
Veterans Tax Termination Act'' (H.R. 333) and Representative Gus 
Bilirakis' ``Retired Pay Restoration Act'' (H.R. 303).
  survivor benefit plan/dependency and indemnity compensation offset 
                                 repeal
    FRA supports the ``Military Surviving Equity Act'' (H.R. 32) 
sponsored by Representative Joe Wilson (SC) and its Senate companion 
bill (S. 734) sponsored by Senator Bill Nelson (FL), to eliminate the 
Survivor Benefit Plan (SBP)/Dependency and Indemnity Compensation (DIC) 
offset for widows and widowers of servicemembers. These bills would 
eliminate the offset, also known as the ``widow's tax,'' on 
approximately 60,000 widows and widowers of our Armed Forces.
    SBP and DIC payments are paid for different reasons. SBP is 
purchased by the retiree and is intended to provide a portion of 
retired pay to the survivor. DIC is a special indemnity compensation 
paid to the survivor when a member's service causes his or her 
premature death. In such cases, the VA indemnity compensation should be 
added to the SBP the retiree paid for, not substituted for it. It 
should be noted as a matter of equity that surviving spouses of Federal 
civilian retirees who are disabled veterans and die of military-
service-connected causes can receive DIC without losing any of their 
Federal civilian SBP benefits. Further FRA believes Congress should 
reduce the age for paid-up SBP to age 67 for those who joined the 
military at age 17, 18 or 19. Congress should also authorize SBP 
annuities to be placed into a Special Needs Trust for permanently 
disabled survivors who otherwise lose eligibility for state programs 
because of means testing.
              retention of final full month's retired pay
    FRA urges the subcommittee to authorize the retention of the full 
final month's retired pay by the surviving spouse (or other designated 
survivor) of a military retiree for the month in which the member was 
alive for at least 24 hours. FRA strongly supports ``The Military 
Retiree Survivor Comfort Act'' (H.R. 1360), introduced by 
Representative Walter Jones (NC) that achieves this goal.
    Current regulations require survivors of deceased military retirees 
to return any retirement payment received in the month the retiree 
passes away or any subsequent month thereafter. Upon the demise of a 
retired servicemember in receipt of military retired pay, the surviving 
spouse is to notify DOD of the death. The Department's financial arm 
(DFAS) then stops payment on the retirement account, recalculates the 
final payment to cover only the days in the month the retiree was 
alive, forwards a check for those days to the surviving spouse 
(beneficiary) and, if not reported in a timely manner, recoups any 
payment(s) made covering periods subsequent to the retiree's death. The 
recouping is made without consideration of the survivor's financial 
status.
    The measure is related to a similar pay policy enacted by the VA. 
Congress passed a law in 1996 that allows a surviving spouse to retain 
the veteran's disability and VA pension payments issued for the month 
of the veteran's death. FRA believes military retired pay should be no 
different.
                         dislocation allowance
    Moving households on government orders can be costly. Throughout a 
military career, servicemembers endure a number of permanent changes of 
station (PCS). Often each move requires additional expense for 
relocating to a new area far away from the servicemember's current 
location. To help servicemembers defray these additional expenses 
Congress in 1955 authorized the payment of a special allowance referred 
to as ``dislocation allowance.'' Unfortunately servicemembers preparing 
to retire from the military are not eligible for this allowance, yet 
are subject to the same additional expenses they experience a PCS. In 
either case, moving on orders to another duty station or retiring are 
both reflective of a management decision. Therefore FRA supports 
authorizing payment of a dislocation allowances to servicemembers 
retiring or transferring to an inactive status such as the Fleet 
Reserve or Fleet Marine Reserve who execute a ``final change of 
station'' move.
                wounded warriors and seamless transition
    FRA strongly supports the administration's efforts to create an 
integrated Electronic Health Record (iEHR) for every servicemember 
which would be a major step towards the Association's longstanding goal 
of a truly seamless transition from military to veteran status for all 
servicemembers and permit DOD, the Department of Veterans Affairs (VA), 
and private health care providers immediate access to a health data.
    The importance of fully implemented interoperability of electronic 
medical records cannot be overstated. The Association was grateful that 
the National Defense Authorization Act (NDAA) for Fiscal Year 2014 has 
a provision that requires DOD and VA to implement a seamless electronic 
sharing of medical health care data by October 1, 2016. This provision 
was in response to the VA and DOD shelving plans to jointly develop an 
iHER system due to cost and schedule challenges, and instead the two 
agencies decided to pursue separate efforts to modernize or replace 
their existing systems. However, according to a new Government 
Accountability Office (GAO) report (GAO-14-302) the VA and DOD ``have 
not substantiated their claims that the current approach will be less 
expensive and more timely than the single-system approach.'' The GAO 
report also notes that neither department has provided a joint 
strategic plan that explains lines of responsibility, time schedule, 
how to eliminate management barriers, and how much the project will 
cost. FRA has long supported efforts to ensure adequate funding for DOD 
and VA health care resource sharing in delivering seamless, cost 
effective, quality services to personnel wounded in combat and other 
veterans, and their families.
    There is some sharing now between DOD, VA, and the private sector, 
but more needs to be done. Wider expansion of data sharing and exchange 
agreements between VA, DOD, and the private sector is needed. VA's 
``Blue Button'' initiative permits veteran's online access to some 
medical history, appointments, wellness reminders and military service 
information, but most is only accessible only after in-person 
authentication. VA is also moving forward on its paperless disability 
processes that is Health Insurance Portability and Protection Act 
compliant.
    Jurisdictional challenges notwithstanding this subcommittee must 
remain vigilant regarding its' oversight responsibilities associated 
with ensuring a ``seamless transition'' for our Nation's wounded 
warriors.
                         mental health/suicide
    FRA believes post-traumatic stress (PTS) should not be referred to 
as a ``disorder.'' This terminology adds to the stigma of this 
condition, and the Association believes it is critical that the 
military and VA work to reduce the stigma associated with PTS and TBI. 
Access to quality mental health service is a vital priority, along with 
a better understanding of these conditions and improved care. ``Roughly 
20 percent of the 2.5 million men and women who served in Afghanistan 
and Iraq have PTSD or other mental ill. About 200,000 incarcerated 
veterans in the United States, about 14 percent of the Nation's 
prisoners. Contrary to public perception, Afghanistan and Iraq vets are 
only half as likely to be incarcerated as those who fought in earlier 
wars, but . . . suffer from PTSD at three times the rate of older 
veterans.'' \1\ PTS diagnosis and treatment remain a major challenge 
for the VA. ``The number of veterans who received VA treatment for PTSD 
and other mental health issues reached 1.3 million last year, up 
400,000 since 2006.'' \2\
---------------------------------------------------------------------------
    \1\ Time Magazine, Feb. 10, 2014, ``A Troubled Marine's Final 
Fight'' page 38-39, Mark Thompson
    \2\ The Washington Post, Nov. 11, 2013 ``VA Shinseki is determined 
to Leave no Vet Behind'' Steve Vogel
---------------------------------------------------------------------------
    An average of 22 veterans a day commit suicide and because of that 
fact suicide prevention is a priority issue for FRA. More specifically 
the Association is deeply concerned that ``suicides among young 
veterans climbed sharply in a recent 3-year period, according to a new 
government analysis focused on Veterans Health Administration clients. 
The number of suicides among 18- to 29-year-old men increased from 88 
in 2009 to 152 in 2011. That translates into a 44 percent rise in the 
suicide rate, which jumped to 57.9 suicides per 100,000 veterans.'' \3\ 
In 2005 the VA's 13,000 mental health professionals were providing care 
for veterans. Today there are more than 20,000 mental health 
professionals at the VA and that number should continue to increase. 
The VA/DOD crisis hot line has assisted more than 640,000 people and 
rescued over 23,000 from potential suicide, and there must be readily 
available counseling support and expanded awareness of help that's 
available to veterans in crisis.
---------------------------------------------------------------------------
    \3\ Los Angeles Times, Jan. 12, 2014, ``More Young Veterans 
Committing Suicide, Data Show'' Alan Zarembo
---------------------------------------------------------------------------
    A member posted this on FRA facebook page January 14, 2014: 
``Suicide prevention and the FAILURE of the VA. 22 Veterans committed 
suicide every day in 2010. This past Sunday (January 12, 2014) at 2008 
hours I chose to call the VA's suicide/crisis hotline on behalf of a 
veteran I felt was in distress and prone to taking his life. My call 
was answered by a machine, was immediately placed on hold with elevator 
music and my call was DROPPED after 4:15 min/sec . . . having never 
spoken to a human. Suicide/crisis line . . . never answered after 4+ 
minutes . . . REALLY?!?!?!'' FRA passed on this information to VA 
staff.
    Expanding VA counseling to veteran's family members, strengthening 
oversight of IDES, and requiring VA to establish accurate measures for 
mental health were included in the NDAA for Fiscal Year 2013 are also 
important in addressing this issue. ``The number of military suicides 
declined significantly in 2013, a relief to the Services after record 
and near record levels in 2012.'' \4\
---------------------------------------------------------------------------
    \4\ Marine Corps Times, Feb. 17, 2014, ``Military Suicides Decline 
but Data Incomplete,'' Patricia Kime
---------------------------------------------------------------------------
                         adequate end strengths
    Adequate military end strength is vital in sustaining our national 
security, and FRA is concerned about budget-driven calls for reducing 
end strength. The strain and inadequate dwell time of repeated 
deployments are significant and related to end strength levels. This is 
reflected in troubling stress-related statistics that include alarming 
suicide rates, prescription drug abuse, alcohol use and military 
divorce rates. For the last 13 years, servicemembers and their families 
have endured unprecedented sacrifices often having less than a year at 
home before returning for another year in combat.
    Now with these even greater end strength reductions, many 
servicemembers worry if they will be able to continue serving their 
nation.
    FRA believes that the Nation needs to maintain an adequate force to 
respond to unexpected contingencies and retaining combat experience by 
encouraging departing veterans to join the Guard and Reserve. On 
September 10, 2011 no one expected the following 12 years decade would 
find us engaged in a protracted war.
    Cutting Guard/Reserve Forces as well as Active Forces will make 
achieving these goals even more difficult to obtain. The Association is 
thankful that Congress has provided the Services with various voluntary 
tools to draw down the forces, but in the sequester-driven budget 
times, the Services are reverting to use of involuntary methods.
                     military predatory lending law
    FRA thanks this subcommittee for improvements in the Military 
Lending Act (MLA) specified in the fiscal year 2013 Defense 
Authorization bill. This provision provides an explicit private right 
of action and civil penalties for predatory lenders, and expands 
oversight and enforcement authority to the Consumer Financial 
Protection Bureau (CFPB) and the Federal Trade Commission (FTC). 
Unfortunately, other related amendments to close loopholes in the 
definitions of payday and car title loans in the Senate version of the 
NDAA were not included in the final bill.
    The CFPB in January 2013 took its first enforcement action against 
a payday lender by ordering Cash America International, Inc. to refund 
consumers for robo-signing court documents in debt collection lawsuits. 
The CFPB also found that Cash America--one of the largest short-term, 
small-dollar lenders in the country--violated the Military Lending Act 
(MLA) by illegally overcharging servicemembers and their families. Cash 
America will pay up to $14 million in refunds to consumers and it will 
pay a $5 million fine for these violations and for destroying records 
in advance of the Bureau's examination.
    After a routine CFPB examination of Cash America's operations, the 
CFPB found multiple violations of consumer financial protection laws. 
This is the Bureau's first public enforcement action against a payday 
lender, its first public action under the Military Lending Act (MLA) 
and the first public action for a company's failure to comply fully 
with the CFPB's supervisory examination authority.
    FRA applauds CFPB efforts to regulate predatory lenders through 
enforcement of the MLA. The Association was in the forefront of 
supporting the enactment of the MLA in 2006 and supported the creation 
of the Office of Military Liaison within the CFPB when the Bureau's 
enabling legislation was enacted in 2010. FRA continues its work to 
ensure active duty personnel are protected from predatory lenders, and 
urges this subcommittee to ensure that the MLA is effectively 
administered.
    The NDAA also called on DOD to conduct a study to identify harmful 
credit products and practices and recommend protections to close 
loopholes. DOD is also required to promulgate a regulation to implement 
changes in the law. FRA, CFPB, and consumer groups have asked DOD to 
include payday and car title loan definitions in the regulation and 
also clarify that nonresident military borrowers are protected by all 
State credit laws. FRA urges continued oversight by this subcommittee 
to ensure that the report is timely and accurate.
              protect the commissary and exchange systems
    FRA opposes the proposed reduced funding for military commissaries. 
Military commissaries and exchanges are essential parts of the military 
benefit package and FRA's on-line survey completed in February/March 
2014 indicates that 61 percent of active duty respondents and more than 
63 percent of retirees rated Commissary/Exchange privileges as ``very 
important.''
    A 2013 study by the Resale and MWR Center for Research entitled 
``Costs and Benefits of the DOD Resale System'' indicates that these 
programs provide military members, retirees and their families with 
shopping discounts worth $4.5 billion annually. These stores are the 
biggest employers of military family members with 50,000 spouses, 
dependent children, retirees and veterans on the payrolls, adding $884 
million a year to military household incomes. Exchange profits also 
fund important base morale, welfare and recreation programs (MWR) that 
contribute to an enhanced quality of life for military beneficiaries.
                               conclusion
    FRA is grateful for the opportunity to provide these 
recommendations to this distinguished subcommittee.

    Senator Gillibrand. Thank you.
    Colonel Hayden?

  STATEMENT OF COL. MICHAEL F. HAYDEN, USAF (RET.), DIRECTOR, 
 GOVERNMENT RELATIONS, MILITARY OFFICERS ASSOCIATION OF AMERICA

    Colonel Hayden. Madam Chairwoman, the MOAA, along with our 
coalition partners, disagree strongly with the budget proposal 
to shift billions more in health care costs to military 
beneficiaries. Fortunately, Congress rejected last year's 
TRICARE fee proposals, and we thank you for that.
    Yet this year, TRICARE fee proposal is much more than a 
regurgitation of last year's. It includes similar 
disproportionate pharmacy fee increases and means-tested 
TRICARE for Life enrollment fees, both rejected by Congress. It 
also includes a plan to consolidate the three major elements of 
TRICARE--Prime, Standard, and Extra--to what is being 
characterized as streamlining or modernization, which you heard 
this morning. Actually, this proposal will have families and 
retirees paying more and getting less. It retains the TRICARE 
Prime enrollment fee by relabeling it as a participation fee, 
yet eliminates the one major element that the enrollment fee 
assured, and that was guaranteed access standards.
    But even more concerning is that this includes fees where 
fees never existed before and provides no additional 
discernible value. For the first time, this proposal would have 
working-age retirees paying to be seen in the MTFs. DOD's 
proposal would also have military families paying more for 
their health care when they have limited or no access to 
military facilities.
    A main argument of this year's budget submission is to slow 
the growth of personnel costs to include health care. Critics 
continue to make claims of unsustainable health care cost 
growth since 2000, as if that was some type of reasonable 
starting point. But it's not. Congress enacted TRICARE for Life 
in 2001 to correct the ejection of older retirees from military 
health care in the 6 years before that. There was a spike as 
they returned to coverage in 2002 and 2003, but cost growth has 
been declining ever since, and since 2010 the combination of 
military personnel and health care cost growth has been slowed 
to less than 2 percent per year.
    I do want to make one thing clear. The military TRICARE 
benefit is, by and large, an excellent one, but it has to be to 
help induce large numbers of top-quality people to accept the 
extraordinary demands and sacrifices inherent in a multi-decade 
military career. That's why assertions that military retirees 
pay far less for health care than civilians are so aggravating 
to those who wear the uniform or who have worn the uniform. 
Military people already pay far steeper premiums for health 
care coverage than any civilian ever has or ever will.
    We realize DOD is in a very difficult situation with 
sequestration's arbitrary and disproportionate cuts, cuts that 
need to be eliminated. However, we also believe that DOD can 
look at making the system much more efficient instead of simply 
shifting costs onto the beneficiaries. For example, there is no 
single point of responsibility for budgeting or delivery of DOD 
health care. The Defense Health Agency is a small step in the 
right direction, and the jury is still out on the projected 
savings. However, this fiscal year 2015 proposal does nothing 
to improve the benefit. It simply shifts DOD's cost onto the 
families and retirees because it's easier to do.
    We have worked with this subcommittee and the House of 
Representatives counterparts for the past several years to put 
what we think are reasonable fee standards in law, including 
annual adjustments tied to the retiree pay COLA percentage. We 
have accepted mail order requirements in lieu of higher 
pharmacy co-pays. All of these changes we accepted will save 
DOD billions in the coming years and have slowed the growth of 
health care costs. Now we think it's time to develop management 
efficiencies that won't impact beneficiaries, access to care, 
or delivery of quality of care.
    In closing, Secretary Hagel stated before the fiscal year 
2015 budget release that ``continuous piecemeal changes will 
only magnify uncertainty and doubt among our servicemembers 
about whether promised benefits will be there in the future.'' 
We couldn't agree more. Any changes to pay, compensation, and 
benefits to include health care should be looked at 
comprehensively, not piecemeal. Since the congressionally-
directed MCRMC has been tasked to take a holistic and 
comprehensive look at the entire compensation package and 
propose even broader reforms next year, these piecemeal budget-
driven changes are even more inappropriate.
    Finally, we believe the budget will require balance, but we 
are concerned that DOD is heading down a previous path, 
repeating some of the very same mistakes that led to 
significant retention problems the Nation experienced by the 
late 1990s. History shows comparability can't work unless it is 
sustained through both good times and bad budget times. We are 
still a Nation at war. Capping pay and forcing troops and their 
families to pay more for their housing, health care, and 
groceries sends the wrong message.
    Thank you. I look forward to your questions.
    [The prepared statement of Colonel Hayden follows:]
   Prepared Statement by The Military Officers Association of America
    Madam Chairwoman and Ranking Member Graham, on behalf of over 
380,000 members of the Military Officers Association of America (MOAA), 
we are grateful for this opportunity to express our views and 
appreciate the subcommittee for hosting this hearing on the fiscal year 
2015 defense budget submission and the related personnel program 
proposals.
    MOAA does not receive any grants or contracts from the Federal 
Government.
    We are truly grateful for your unwavering commitment to men and 
women who defend our fine Nation.
    We appreciate that Congress have given personnel issues top 
priority in the past decade. You have had difficult choices to make 
while bolstering a weak economy and addressing budget deficits. The 
past few years have been arduous, with our military winding down 
operations in Afghanistan and the Nation dealing with the effects of 
sequestration.
                             sequestration
    Sequestration was thought to be so harmful that it would have never 
come to pass. But it is a reality with DOD still taking a 
disproportionate share of the fix.
    The Bipartisan Budget Act of 2013 mitigated the sequestration 
spending cuts for fiscal years 2014 and 2015. However, the original 
sequestration cuts of fiscal year 2016 thru 2021 remain in effect, 
continuing to place national security at risk.
    This concern for readiness and national security was reinforced 
during Secretary Hagel's February 24, 2014, press conference outlining 
the fiscal year 2015 budget submission when he stated `` . . . the only 
way to implement sequestration is to sharply reduce spending on 
readiness and modernization, which would almost certainly result in a 
hollow force . . . the resulting force would be too small to fully 
execute the President's defense strategy.''
    The Services have been forced to slash flying hours, cancel the 
deployment of ships, renegotiate critical procurement contracts, 
temporarily furlough civilian employees, and are in the process of 
reducing force structure by some 124,000 personnel.
    As a result, sequestration caused the Pentagon to submit proposals 
in fiscal year 2014 that have started to reverse some of the needed pay 
and benefits fixes Congress put in place over the past decade--
specifically, the military pay raise cap below the Employment Cost 
Index (ECI) of 1 percent, the lowest pay raise in 50 years and cutting 
the housing allowance.
    The proposed fiscal year 2015 defense budget assumes some 
additional monies will be forthcoming to mitigate sequestration 
impacts. However, the budget proposes additional force reductions of 
over 78,000 personnel. If sequestration is not ended, additional force 
reductions will likely go deeper and training and modernization will be 
further impacted--to include putting our national security strategy at 
risk.
    But what greatly concerns MOAA and should concern the subcommittee 
are the fiscal year 2015 budget submission proposals to ``slow the 
growth'' of personnel costs--a second year of capping the military pay 
raise below ECI with the possibility of four additional years, 
increasing out-of-pocket housing expenses for military families, 
significantly reducing commissary savings, and a consolidation of 
TRICARE plans which will have all beneficiaries except those in uniform 
paying more for their health care while eliminating access standards.
    While debt reduction is a national priority, such a disproportional 
share of this burden must not be foisted on the backs of military 
families who already have sacrificed more for their country than any 
other segment of Americans.
    Congress needs to end the harmful effects of sequestration by 
supporting a bipartisan debt reduction package that avoids 
disproportional penalties on the Pentagon and on servicemembers and 
their families.
               military personnel and healthcare overview
    The most important element to a strong national defense is 
sustaining a top-quality, All-Volunteer Force. This requires a pay and 
benefits package that is fundamentally different from those of the 
private sector in order to induce young men and women to wear the 
uniform for not only one term of enlistment, but also for two decades 
or more.
    But military pay and benefits continue to come under attack. For 
many years, critics have claimed military personnel costs are ``rising 
out of control'' and, if left un-checked would ``consume future defense 
budgets.''
    They've attacked pay, retirement, health care, and other military 
benefits in hopes of diverting funds to hardware or non-defense 
programs.
    But time and some hard experiences have proven such claims wrong in 
the past--and they are still wrong today.
    But with this year's budget rollout, defense leaders were 
suggesting cuts to pay, the housing allowance, the commissary, and 
health care stating spending on pay and benefits for service members 
has ``risen about 40 percent more than growth in the private sector'' 
since 2001.
    In addition, late last year there have been other alarming 
statements on the glide path that personnel costs are on, such as: ``by 
2025 or so 98 cents of every dollar [will be] going for benefits.''
    The truth is the same one-third of the defense budget has gone to 
military personnel and health care costs for the last 33 years. That's 
no more unaffordable now than in the past.
      
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
      
                      the fiscal year 2015 budget
    The fiscal year 2015 budget submission proposes several significant 
pay and benefit cuts which are inconsistent with the sacrifices 
exemplified by the last 12 years of war.

        <bullet> Capping pay below the Employment Cost Index (ECI) for 
        a second straight year (with more planned);
        <bullet> Reducing Basic Allowance for Housing (BAH) by 5 
        percent, reversing DOD's own initiative to eliminate out-of-
        pocket housing cost completed in 2005;
        <bullet> Reducing commissary savings for uniformed service 
        families; and
        <bullet> Restructuring the TRICARE benefit where active duty 
        families and retiree beneficiaries will pay more for their 
        health care.

    The Pentagon is suggesting these cuts, in order to ``slow the 
growth'' of personnel costs stating personnel costs have ``risen about 
40 percent more than growth in the private sector'' since the turn of 
the century.
    But this is statement needs to be put in the proper context. 
Personnel cost growth has gone up at a rate greater than the private 
sector since 2000 . . . that's true. Since 2000, personnel and health 
care costs experience an average rate of growth of nearly 7.6 percent 
annually.
    But using ``2000'' as the baseline without reflecting on the 
historical context is misleading--it implies that 2000 was an 
appropriate benchmark for estimating what reasonable personnel and 
healthcare spending should be--it's not.
    Years of budget cutbacks led to a 13.5 percent pay gap, a 25 
percent reduced retirement value for post-1986 entrants, a point where 
service members were paying nearly 20 percent out-of-pocket for their 
housing costs, and beneficiaries over 65 were completely thrown out of 
the military health care system.
    In the late 1990s, retention was on the ropes, and Congress was 
being asked to correct these problems to prevent a readiness crisis.
    Congress did so over the next decade restoring military pay 
comparability (slide to the left), repealing the retirement cuts, 
zeroing-out member out-of-pocket housing costs, and restoring promised 
health coverage for older retirees.
    Cost growth since 2000-2001 was essential to keep the previous 
compensation cutbacks from breaking the career force.
      
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
      
    Since 2011, personnel cost growth has already slowed to less than 2 
percent per year.
    The rate of military personnel and health cost change will only 
decline further in the out-years due to:

        <bullet> Significant pharmacy copay increases which started 
        last year (fiscal year 2013);
        <bullet> Significant savings from requiring mandatory mail-
        order/military pharmacy refills of maintenance medications for 
        Medicare-eligible beneficiaries starting this year;
        <bullet> Savings associated with shrinking TRICARE Prime 
        service areas;
        <bullet> Significant reductions to end strength;
        <bullet> Recent changes to the retirement system for new 
        entrants; and
        <bullet> Savings from sustaining pay with private sector pay 
        growth (ECI) since 2011.

    However, the proposals in this year's defense budget are a huge 
step backwards repeating many of the same bad habits during past 
drawdowns--cutting end strength, capping pay, and attacking benefits--
that led to the difficult retention times of the late 1990s.
    Past experience of capping military raises below private sector pay 
growth has proven that once pay raise caps begin, they continue until 
they undermine retention and readiness--and this is the second year of 
proposed pay caps with a possibility of four more.
    One pay cap is a data point, two is a line, and three is a trend. 
Six years of planned caps is definitely a bad trend and does not bode 
well for the currently serving.
    This proposal is not limited to pay. This ``quadruple whammy'' of 
capping pay, increasing out-of-pocket expenses for housing, slashing 
commissary savings, and having military families pay more for their 
health care, would be major steps backward on the road towards 
repeating the insidious measures which led to retention and readiness 
problems in the past.
    Each may seem small by themselves . . . a pay cap of .8 percent. A 
5 percent out-of-pocket housing cost. Copays for family off-post doctor 
visits. Reduced savings at the commissary.
    However, the elimination of the $1 billion subsidy for the 
commissary benefit itself will reduce the purchasing power of a 
military family of four by nearly $3,000 annually.
    When you add up the fiscal year 2014 and fiscal year 2015 pay caps, 
the proposed BAH reductions, the reductions in commissary savings, and 
the new TRICARE fee structure, an E-5's family of four would experience 
a loss of nearly $5,000 in purchasing power annually; and an O-3's 
family of four would experience a loss of nearly $6,000.
    These are very conservative projections seeing that it only 
includes 2 years of pay caps and the new TRICARE consolidation/fees 
will be very dependent on a military family's access to an MTF and 
special needs.
TRICARE Consolidation
    DOD again is proposing similar disproportionate pharmacy fee 
increases and a means-tested TFL enrollment fee as they did last year 
and in the past that thankfully Congress has rejected.
    But it also includes a plan to consolidate the three major elements 
of TRICARE--Prime, standard, and extra--into what is being 
characterized as ``streamlining'' or ``modernizing''.
    In this proposal currently serving families and retirees will pay 
more and get less. It retains the TRICARE prime enrollment fee by re-
labeling it as a ``participation'' fee yet eliminates the one element 
that the enrollment fee assured . . . guaranteed access standards.
    But even more disconcerting is that the proposed change includes 
fees where fees never existed before and provides no discernable value. 
For the first time, this proposal would have working-age retirees 
paying to be seen in the military treatment facilities.
    The Pentagon proposal will have military families paying more for 
their health care when they have limited or no access to military 
facilities.
    MOAA wants to make one thing clear. The military TRICARE benefit is 
by and large an excellent one.
    But it has to be, in order to induce large numbers of top-quality 
people to accept the extraordinary demands and sacrifices inherent in a 
multi-decade military career.
    Military people already pay much steeper premiums for health 
coverage than any civilian ever has or ever will.
    Defense leaders say they'll keep faith with the currently serving 
on retirement reform, and would apply changes only to new entrants.
    But if it's breaking faith to change the rules for someone with 10 
years--or 1 year--of service, it's doubly so to impose new fees on 
military families who don't have access to the MTFs as well as imposing 
fees for use of the MTF on those who already completed 20 or 30, 
whether they'll retire next year or are already retired.
    We believe DOD must look at making the system much more efficient 
instead of simply shifting costs. For example, there's still no single 
point of responsibility for budgeting or delivery of DOD health care.
    DHA is a small step in the right direction and the jury is still 
out on projected savings; however, this fiscal year 2015 proposal does 
nothing to improve the benefit . . . it simply shifts DOD's costs onto 
the families and retirees, because it's easier.
    We've worked with this subcommittee and the House counterpart for 
the past several years to put what we think are reasonable fee 
standards in law . . . including annual adjustments tied to the retired 
pay COLA percentage.
    We've accepted mail-order requirements in lieu of higher pharmacy 
copays.
    All of these changes we accepted will save DOD billions in the 
coming years and has slowed the growth of health care costs.
    Now we think it's time to develop management efficiencies that 
won't impact beneficiary fees, access to care, or delivery of quality 
care and simply shift more of DOD's costs onto them.
                                summary
    In closing, Secretary Hagel stated before the fiscal year 2015 
budget release that, ``Continuous piecemeal changes will only magnify 
uncertainty and doubts among our service members about whether promised 
benefits will be there in the future.''
    We couldn't agree more. Any changes to pay, compensation, and 
benefits, to include health care, should be looked at comprehensively--
not in a piecemeal manner.
    Since the congressionally-directed Military Compensation and 
Retirement Reform Commission has been tasked to take a holistic and 
comprehensive look at the entire compensation package, and propose 
broader reform proposals next year, these piecemeal, budget-driven 
changes are even more inappropriate.
    What's needed is to sustain pay and benefits for the men and women 
in uniform and their families as well as those that have faithfully 
served two decades or more.
    MOAA remains concerned that the Pentagon is heading down a 
previously taken path, repeating some of the very same mistakes that 
led to significant retention problems the Nation experienced by the 
late 90s and undoing the needed compensation improvements Congress has 
made since 2000 to match the extraordinary demands and sacrifices of 
military service and a military career.
    History shows comparability can't work unless it's sustained 
through both good and bad budget times. We are still a nation at war - 
capping pay and forcing troops and their families to pay more for their 
housing, health care, and groceries sends the wrong message.
    The most important element of a strong national security is the 
sustainment of a dedicated, top-quality mid-level noncommissioned 
officer and office force. These changes will significantly devalue the 
compensation and benefits needed to sustain those seasoned, trained, 
and talented troops and ultimately have a negative impact on 
recruiting, retention, and overall readiness.

    Senator Gillibrand. Thank you.
    Captain Hanson?

   STATEMENT OF CAPT MARSHALL HANSON, USNR (RET.), DIRECTOR, 
 LEGISLATIVE AND MILITARY POLICY, RESERVE OFFICERS ASSOCIATION

    Captain Hanson. Thank you, Madam Chairwoman. I am Marshall 
Hanson. In addition to my legislative job at the ROA, I am also 
a co-chair for TMC's Guard and Reserve Committee. We appreciate 
the opportunity to testify this afternoon.
    All of us have heard how the Army expects to reduce its 
numbers to below the manning levels prior to World War II. What 
is missing from this explanation is a back-up plan if DOD's 
strategy is wrong. Between 1924 and 1939, while the Active Army 
was small in size, the plan was to mobilize 1.3 million men 
within 4 months of any crisis. No such fallback plan exists 
today, placing the full onus onto the Reserve and National 
Guard to provide any surge.
    While there is an increasing number of studies supporting 
the Reserve and Guard cost efficiencies, the Army is pushing 
back against the role of the Reserve Force. Using the 
Quadrennial Defense Review as a reference, the Army is now 
challenging how quickly the Reserve or Guard can be mobilized 
to respond to a crisis. Over the last 13 years, nearly 900,000 
Reserve and Guard members have been mobilized.
    TMC believes that the Nation needs to continue to use the 
Reserve components as an operational force and sustain this 
number as a surge capacity for unexpected contingencies. As DOD 
is willing to accept risks, as we heard this morning, the 
Reserve and Guard are the only insurance policy. It is 
important to retain the combat experience of veterans in the 
Reserve component during a reduction in the total force. 
Cutting the Reserve and Guard, as well as the Active-Duty 
Forces, will make achieving readiness goals even more 
difficult.
    This is why there needs to be caution before making 
compensation cuts to the Reserve Force. Compensation needs to 
keep pace with the Nation's ever-increasing reliance on the 
Reserve and the Guard. Yet DOD wants to reduce monthly 
reimbursement, has suggested changes to retirement, and cost 
increases for benefits.
    If you calculate the number of days worked against current 
pay, the ratio for both Active and Reserve components are the 
same. Reducing monthly pay will drive away the best, as they 
can reap higher rewards elsewhere. Suggested changes to 
retirement will actually pay Reserve Force retirees less over 
their lifetime.
    A fiscal year barrier exists, denying reservists a 90-day 
credit if their service crosses between 2 fiscal years. TMC 
supports S. 240 by Senators Tester, Chambliss, and Blumenthal 
to retroactively fix this problem in U.S. Code. TMC also 
advocates expanding the early retirement to the warriors who 
served since September 11, 2001. As many senior officers and 
enlisted are performing duty without pay, TMC also endorses 
crediting all inactive duty toward Reserve retirement.
    Several years ago, DOD reassured beneficiary associations 
that TRICARE Reserve Select (TRS) would not be included in fee 
increases that DOD had requested. This year, however, if fees 
are increased, DOD leaders say they will be the same for TRS as 
it will be for TRICARE Standard beneficiaries. DOD views TRS 
not as a health program for Reserve and Guard, but as a health 
insurance option. Reserve Force members have proven themselves 
over the last 13 years and should have a health care program 
fit for warriors.
    Undesirably, transitions between different military health 
care programs are not seamless. Serving members need to re-
enroll at various points as they transition on and off Active 
Duty. This has caused many Reserve members to be uncertain 
about TRS. TMC supports an option to pay a stipend to employers 
during mobilization periods, permitting family members to 
continue on their civilian medical insurance.
    For those reservists who are wounded or injured, many are 
not receiving the same disability rating as their Active Duty 
counterparts. If any warrior is asked to take a risk, their 
benefits should not be discounted, because no one is part-time 
in a war zone. Similarly, if they make the final sacrifice in 
the line of duty, Reserve and Guard surviving family members 
should receive the same level of survivor benefits as their 
Active Duty counterparts.
    TMC looks forward to working with this subcommittee on 
these and other issues highlighted in the written testimony. I 
thank you. I await your questions.
    [The prepared statement of Captain Hanson follows:]
 Prepared Statement by the Reserve Officers Association of the United 
                States and Reserve Enlisted Association
                              introduction
    On behalf of our members, the Reserve Officers Association and the 
Reserve Enlisted Association thank the committee for the opportunity to 
submit testimony on personnel issues affecting serving Active and 
Reserve members, retirees, their families, and survivors.
    With less than 7 percent of the U.S. population ever having served 
and less than 1 percent of the population currently in uniform, the 
Reserve Forces provide a necessary link between the military and the 
civilian communities. The utilization of America's Reserve and National 
Guard during all phases of military operations is a fundamental enabler 
to properly gaining and sustaining the support of our citizens.
    Both the Title 10 Reserve and the National Guard provide support to 
States during natural and man-made disasters, as well as provide 
homeland defense against foreign threats.
    The Federal Reserve and the National Guard are integral 
contributors to our Nation's operational ability to defend itself, 
assist other countries in maintaining global peace, and fight against 
overseas threats. They are an integrated part of the Total Force, yet 
remain a surge capability as well.
                      eliminating the reserve gap
    After 13 years of war, Reserve Force members feel they have done 
their share as equal partners in the total force. Bolstered by comments 
such as ``when you go into the combat theater, you can't tell the 
difference between Guard, Reserve, or Active-Duty member--which have 
been made by both congressional and Pentagon leadership--members of the 
Reserve Force feel they have contributed to the total All-Volunteer 
Force.
    Congress and the American people in many cases do not recognize the 
incredible value of the Reserve Forces, overlooking the contributions 
that have been made, and the readiness factor that the Reserve Force 
provides. Sadly, the Reserve Force is often overlooked when legislation 
is written, leaving gaps in protections, benefits, and funding.
    At 1.1 million serving members, the military's Reserve Force makes 
up 48 percent of the Armed Forces. During the last 13 years of war, the 
Pentagon has ordered nearly 900,000 call-ups from the Reserve and 
National Guard in support of the Total Force. The war couldn't have 
been fought without the Reserve Force.
    Yet, a perception gap exists between the Active and Reserve 
components that has lead to the current clash between the Army and the 
National Guard. Recent comments by Army leadership suggested that the 
Army Reserve Force was assigned missions that required less 
sophisticated tactical planning, coordination, and execution that has 
been interpreted as casting the Army Reserve Component, in particular 
the Guard, as a second-rate fighting force. This is insulting and 
shocking to a generation of Guard and Reserve warriors who thought Army 
leaders valued their service.
    Starting from the top with Army Chief of Staff Ray Odierno, Army 
active duty leadership have argued that Reserve Force troops who train 
part-time are ill-prepared to quickly mobilize for missions that are 
reactive to crises and rapidly emergent threats.
    The Reserve component leadership, on the other hand, wants their 
components to be considered equally vital and used more operationally. 
Active Duty leadership sees vulnerability in an availability cycle that 
is ``mobilize, train, and deploy.'' Reserve leadership supports a cycle 
of ``train, mobilize, and deploy'' to improve mobilization readiness. 
These differences in view are based on available resources and 
willingness to invest in advance on the training.
    DOD directive 1235.10 states that ``Predictability of the Reserve 
component forces is maximized through the use of defined operational 
cycles and utilizing force generation plans to provide advanced 
notification that allows the implementation of the train-mobilize-
deploy model.''
    Advance notification is becoming a stumbling block. Last year's 
National Defense Authorization Act (NDAA) requires a minimum 120-day 
notification prior to deployment and a minimum 180-day notification 
prior to cancellation of deployment for the operational Reserves. This 
causes the active duty leadership to prefer Active-Duty Forces over 
Reserve Forces for deployment because of greater flexibility.
    The Active Navy views their Reserve as an augmentation force. The 
Navy Reserve has declined in size by nearly 63 percent since the end of 
the Cold War. Today, there are fewer units with specific fleet missions 
or operational responsibilities. Expeditionary missions that were 
developed within the Navy Reserve were taken over by the Active Force. 
With the end of the Iraq War and the draw down in Afghanistan, the U.S. 
Navy is reducing the size of the supporting Navy Reserve Expeditionary 
Force. Thirteen years of war merely delayed the active duty plans to 
reduce the Reserve Seabee battalions with the Navy announcing a 45 
percent reduction in Navy Reserve construction forces.
    The Air Force is perhaps the most integrated service. It 
acknowledges that traditional guardsmen and reservists in the Air Force 
dedicate themselves fully to their service's core principles and 
ideals, and the Reserve components cannot be a traditional strategic 
Reserve Force, but there is still a separate but ``equal'' status 
between the components. Unlike other Services, the Air Force components 
don't have to necessarily train together. Associate units exist but not 
necessarily with integrated crews. Parallel commands, missions and 
administration continue despite common use of equipment.
    The National Commission on the Restructuring of the Air Force found 
that barriers remain between the Active and Reserve components in the 
Air Force. ``Some of those barriers are contained in law, but others 
reside solely in service policy, tradition, and culture.''
    The report points out that ``the Air Force must embrace the idea 
that service in the Reserve components does not constitute `separation' 
or `getting out of the Air Force,' but rather is a way for airmen to 
continue to serve and for the Nation to maintain capability and 
preserve its investment in highly trained and dedicated people.''
    The Coast Guard Reserve has been embedded into the active Coast 
Guard since the mid-1990s. During the war it was undermanned at 8,100, 
but met mission requirements both in war overseas and domestically 
during natural and manmade disasters. Budget constraints have required 
the active duty leadership to transfer about 1,000 of the authorized 
end strength into the non-paid Individual Ready Reserve.
    Also, at issue for all Reserve components is training to service 
standards. Reserve and Guard members need to be trained and equipped to 
the standards expected of the Active Force, to do otherwise, will leave 
the United States a military that is ill-prepared to meet future 
challenges.
    However, the risk continues to exist where Defense planners may be 
tempted to put the Federal Reserve and the National Guard back on the 
shelf, by providing them ``hand me down'' outmoded equipment and by 
underfunding training.
    This committee need not be reminded about the 2010 study ``The 
Independent Panel Review of Reserve Component Employment in an Era of 
Persistent Conflict,'' written by Gen. Dennis J. Reimer, LTG Roger C. 
Schultz, and LTG James R. Helmly, all retired. Also known as the Reimer 
report, it says that Reserve Forces must be ``consistent and sustained 
over time instead of the past paradigm of fight-win-demobilize-return 
to garrison and subsequently mobilize for another conflict--at huge 
cost in people and money.''
Requested Action:

        <bullet> Include the Reserve Force in legislation protecting 
        serving members.
        <bullet> Recognize the Title 10 Reserves as well as the 
        National Guard in bills and press releases.
        <bullet> Provide funding for family, health care and veteran 
        support for Reserve Force members:

                <bullet> Family Support Programs for families of 
                serving Reserve and Guard members.
                <bullet> Mental and behavioral health care for pre- and 
                post-activation periods.
                <bullet> Military and Veteran Health coverage in remote 
                locations.

        <bullet> Restore Reserve Force education parity to Active Duty:

                <bullet> Begin eligibility when the service member 
                elects to use the program the first time.

                        <bullet> Extend eligibility to 10 years 
                        following enrollment.

                <bullet> Increase MGIB-Selected Reserve to 47 percent 
                of MGIB-Active of $1,564 per month.
                <bullet> Include 4 year as well as 6-year reenlistment 
                contracts to qualify for MGIB-SR.
                <bullet> Allow use of the MGIB benefit to pay off 
                student loans.
                <bullet> Continue eligibility for up to 10 years after 
                separation from the Selected Reserves.

    Recent studies by both the Reserve Forces Policy Board and by DOD 
has found that a Reserve component member costs the Department of 
Defense (DOD) 31 percent of the cost of his or her Active duty 
counterpart over the life cycle of the warrior.
                           economic argument
    The Reimer report included many common-sense ideas for maintaining 
what is arguably the most cost-effective part of the military.
    The National Commission on the structure of the Air Force report 
echoes the Reserve as the cost saving component: The ``Part-time'' 
force structure--that capability delivered by traditional reservists 
and guardsmen who do not serve continuously on active duty--costs less 
than the force structure provided by ``full-time personnel . . . Based 
on the record before the Commission, and subject to all the caveats set 
out [in the report], the Commission determined that the cost of a 
traditional reservist, who is not performing active duty missions 
during a year, is approximately 1/6th the cost of a full-time Active 
component airman.''
    While the Reserve Force Policy Board (RFBP) calculated different 
savings, it came to the same conclusion: ``The cost of a Reserve 
component servicemember, when not activated, is less than one third 
that of their Active component counterpart,'' reported the RFPB to the 
Secretary of Defense in January 2013. ``According to RFPB analysis of 
the fiscal year 2013 budget request, the Reserve component per capita 
cost ranges from 22 percent to 32 percent of their Active component 
counterparts' per capita costs, depending on which cost elements are 
included. While Reserve component forces account for 39 percent of 
military end strength, they consume only about 16 percent of the 
Defense budget.''
    Even DOD's internal Cape Report concludes that Reserve and Guard 
troops are not only cheaper when in drilling status but also when fully 
mobilized, in part because their overall compensation is lower when 
taking into account noncash benefits such as retirement accrual and 
health care. Additionally, the overhead cost overall for reservists are 
lower because part-time troops do not tap into many military perks such 
as family housing, DOD schools, military base family support and 
permanent change of station moving allowances while active-duty troops 
move every few years when they are reassigned.
    With so many studies supporting the life-cycle saving if DOD better 
utilized the Reserve component, the Active component leadership is now 
pushing back, using the Quadrennial Defense Review (QDR) as their 
reference. DOD is challenging how quickly the Reserve Force can be 
mobilized during a crisis, and emphasizing that conducting operations 
with Reserve component forces is not always less expensive than doing 
so with Active component forces.
    An example of the latter is Gen. G. Michael Hostage, III, Commander 
Air Combat Command, who while acknowledging the need to operationalize 
reservists in order to maintain dwell cycles for the active duty, 
stressed that in order to activate a reservists, he would have to have 
a 270-day call-up in order to gain 180 days of operational support.
    General Martin E. Dempsey noted in the 2014 QDR that ``since time 
is a defining factor in the commitment of land forces, I strongly 
recommend a comprehensive review of the Nation's ability to mobilize 
its existing Reserves as well as its preparedness for the potential of 
national mobilization.''
    The Active component wants to return to the days of round-out units 
(strategic reserve). No one argues that Active Duty units will not 
always be the first responders, but Reserve Force units if properly 
trained and equipped are perfectly capable for follow-on operations or 
during a long conflict.
    Rather than be limited by historical thinking, and parochial 
protections, creative approaches should be explored. The Reserve 
component needs to continue in an operational capacity because of cost 
efficiency and added value. Civilian skill sets add to the value of the 
individual Reserve component serving member.
    A common sense balance between Active and Reserve components is 
needed; as the American people are unwilling to pay for an Active Army 
large enough to meet all of Nations defense responsibilities by itself. 
If we don't take care of the Guard and Reserve, we'll have no ``safety 
net'' for the next fight.
    At a time when the Pentagon and Congress are examining our Nation's 
security, it would be incorrect to discount the Reserve components' 
abilities and cost efficiencies. Instead, these part-time warriors 
provide a cost savings solution and an area to retain competencies for 
missions not directly embodied in the administration's strategic 
guidance policy.
    ROA and REA support changes to U.S. Code to require DOD to use a 
costing methodology based on a true fully-burdened and life-cycle 
costing.''
    In the Hamilton Project report--``National Defense in a Time of 
Change'', authors ADM Gary Roughhead, U.S. Navy (Ret.) and Kori Schake 
recommend that ``we must redesign our forces and budget to our 
strategy, and not to equal service share between branches . . . . 
Putting more of the responsibilities for ground combat into the combat-
proven Reserve component is both consistent with the new demands of the 
evolving international order and justified by the superb performance of 
National Guard and Reserve units in our recent wars.'' The study 
authors suggested that while Congress should reduce the Army, ``the 
[R]eserve and National Guard units would be increased by 100,000 and 
would have the principal mission of arriving in a mature theater for 
sustained combat.''
           provide and execute an adequate national security
    The Reserve Officers Association is chartered by Congress ``to 
support and promote the development and execution of a military policy 
for the United States that will provide adequate national security.'' 
The Nation must have adequate military force structure, training, and 
equipment to defeat any known or emerging military force that could be 
used against us.
Requested Action
        <bullet> Hold congressional hearings on the budget implications 
        of the policy ``Sustaining U.S. Global Leadership: Priorities 
        for the 21st Century Defense.''
        <bullet> Reconcile the budget in order to end the Defense 
        Sequestration budget cuts.
        <bullet> Study the impact of manpower cuts to Army and Marine 
        Corps on National Security.
        <bullet> Avoid parity cuts of both Active and Reserve 
        components without analyzing rebalance.
        <bullet> Maintain a robust and versatile All-Volunteer Armed 
        Forces that can accomplish its mission to defend the homeland 
        and U.S. national security interests overseas.

    ROA and REA question the current spending priorities that place 
more importance on the immediate future, rather than first doing a 
short- and long-term threat analysis. The result of such a budget-
centric policy could again lead to a hollow force whose readiness and 
effectiveness is degraded, because of suggested changes to compensation 
and benefits.
    ROA and REA are concerned that as the Pentagon strives to achieve 
the administration's goals for this new strategic policy, it is not 
seriously considering the available assets and cost efficiencies of the 
Reserve component, and that it instead views the Reserve and National 
Guard as a bill payer. Congress, starting with the leadership of this 
subcommittee, should insist on a methodical analysis of suggested 
reductions in missions and bases before authorizing such changes.
    This lack of understanding about the contributions of the Reserve 
component can handicap strategy planning and the budget process, as 
discussions occur in both Congress and the Pentagon on how to reduce 
the budget and the deficit.
    The Reserve and National Guard should also be viewed as a 
repository for missions and equipment that aren't addressed in the 
administration's new Strategic Policy. They can sustain special 
capabilities not normally needed in peacetime.
    To maintain a strong, relevant, and responsive Reserve Force, the 
Nation must commit the resources necessary to do so. Reserve strength 
is predicated on assuring the necessary resources-- funding for 
personnel and training, equipment reconstitution, and horizontal 
fielding of new technology to the Reserve component, coupled with 
defining roles and missions to achieve a strategic/operational reserve 
balance.
National Guard and Reserve Equipment Allowance (NGREA)
    The Reserve and National Guard are faced with ongoing challenges on 
how to replace worn out equipment, equipment lost due to combat 
operations and legacy equipment that is becoming irrelevant or 
obsolete. The National Guard and Reserve Equipment Allowance provide 
critical funds to the Reserve Chiefs and National Guard Directors to 
improve readiness throughout procurement of new and modernized 
equipment. Continued receipt of NGREA and congressionally added funding 
will allow the Reserve components to continue to close the Active/
Reserve component modernization and interoperability gap.
       additional funding for reserve component support programs
    While Reserve components have worked closely with their parent 
services to develop seamless, integrated family readiness and support 
programs to provide information and services to all members, support 
differs between the Active and Reserve components.
    Family Support
    Family readiness centers are located on military bases, but 
unfortunately few Reserve units are located near such bases. It is more 
likely for spouse and dependents to move to families for support rather 
than onto active military locations. Additionally, active units have 
developed internal family support networks. These are not as easy to 
maintain in the Reserve and Guard as member families are scattered 
throughout the civilian community. The most common support for Reserve 
Force families is online at such websites as Military OneSource.
    Reserve Force members face unique challenges balancing military 
service with civilian life. Unlike active duty members of the Armed 
Forces, they juggle the demands of both military and civilian jobs. 
Their families often live where there is less community support 
available to them than active duty military families who can share 
issues and concerns with people dealing with the same challenges.
    Many in Congress and in the Pentagon overlook the challenges faced 
by Reserve families. The 2004 Quadrennial Quality of Life Review noted, 
from a spouse survey, that more than 60 percent of Reserve component 
spouses had 2 weeks or less notification before activation. The spouses 
indicated they needed time during pre-activation to resolve dependent 
care, legal, health coverage, and financial issues. Due to limited 
support, marital problems for the Reserve components have increased 
from 37 percent in 2006 to 44 percent in 2008.
    A child of an active duty military family whose parent is deployed 
often has several friends with military parents, whereas a reservist's 
child may be the only one in his or her school with a parent who is 
deployed. ROA is working up a school kit to explain to teachers about 
the stresses faced by children of Reserve or Guard members who are 
deployed.
    Mental Health
    A team of Medill students found significant gaps between the health 
care and support for the Reserve and National Guards members who have 
fought in Iraq and Afghanistan and their active-duty counterparts. Many 
Reserve Force members have been hastily channeled through a post-
deployment process that has been plagued with difficulties, including 
reliance on self-reporting to identify health problems. They report 
higher rates of some mental health problems and related ills than 
active-duty troops. The students' 2011 research suggest that attempts 
by Congress, the military and private contractors to address the 
problems have been uncoordinated and often ineffective.
    A study by Marian E. Lane, Ph.D. found rates of post-traumatic 
stress disorder (PTSD) and suicidal ideation were significantly higher 
in the deployed reservists compared to deployed active-duty personnel. 
Lane believes that reservists may react more extremely to the anxiety 
of potential deployment than active-duty personnel because they are 
somewhat removed from the daily stresses of military action. One size 
treatment doesn't fit all; providing services and interventions 
tailored to reservists will better facilitate the successful return and 
reintegration of servicemembers experiencing post-deployment mental 
health issues.
    Reservists lack access to the system or networks that are needed to 
assess and treat their injuries. After brief demobilization 
assessments, Reserve troops return home and must navigate disparate 
health-care and support providers. This is further complicated by 
distances between Reserve Force members and the military health and 
behavior provider networks.
    Education
    The Reserve Force education allowance is woefully inadequate, at 
less that 23 percent of the Active Duty MGIB (Chapter 30) and 11.5 
percent of the new Post-9/11 GI Bill tuition and allowances. Most 
selected reservists (which include National Guard as well as Reserve 
members) don't apply, because they are unable to take advantage of the 
education benefit while performing their Reserve duties. Based on their 
service in the global war on terrorism at home and abroad, today's 
military reservists deserve enhancements to their eligibility under the 
MGIB for Selected Reserves.
    In 2008, amendments to U.S. Code, chapter 1606 made the Montgomery 
GI Bill for Selected reservists in a drill status even more 
restrictive. The only education program is offered to traditional 
reservists after their initial active duty obligation, when they 
reenlist is for a period of 6 years. Eligibility ends when the 
individual is separated from the Selected Reserve, either upon 
completion of their reenlistment, upon retirement, or when transferred 
out of a pay status.
    Where servicemembers once had up to 14 years to use their MGIB-SR 
benefits from the time they became eligible, such language has been 
stricken. Eligibility for these benefits now only lasts until the 
reservist or guardsman stops drilling. An exception is if a reservist 
stops drilling after being activated, he or she may switch back to 
Chapter 1606 for a period equaling the length of deployment plus 4 
months. Active Duty recipients have 10 years after separation to use 
their benefits.
                              reserve life
    Reserve and Guard members have provided unprecedented service and 
sacrifice for the past decade. Congress should make a commitment to 
them to provide lifelong support for them through career growth, 
civilian employment, seamless health care, family support and deferred 
compensation that has been promised to them upon retirement. This will 
be an incentive to continue to serve.
    This will require a seamless continuity of military healthcare, 
supported by TRICARE; and an accumulative documentation of both Active 
and Reserve active duty service, published on a single DOD form, rather 
than a series of Certificate(s) of Release or Discharge from Active 
Duty (DD Form 214), whenever someone leaves active duty.
Reserve Life Issues supported by the Reserve Officers and Reserve 
        Enlisted Associations include:
    Changes to retention policies:

        <bullet> Permit service beyond current mandatory retirement 
        limitations.
        <bullet> Eliminate the fiscal year barrier, permitting the 
        accumulation of active service between 2 years.
        <bullet> Retain serving members for skill sets, even when 
        passed over for promotion.
        <bullet> Support incentives for affiliation, reenlistment, 
        retention, and continuation in the Reserve component.
        <bullet> Advocate against cuts in Reserve component; support 
        Reserve commissioning programs
        <bullet> Reauthorize yellow ribbon program to support 
        demobilized Guard and Reserve members.

    Pay and Compensation:

        <bullet> Reject recommendations by The 11th Quadrennial Review 
        of Military Compensation to reduce Reserve component pay for 
        monthly inactive duty training in half.
        <bullet> Reimburse a Reserve component member for expenses 
        incurred in connection with round-trip travel in excess of 50 
        miles to an inactive training location, including mileage 
        traveled, lodging, and subsistence.
        <bullet> Eliminate the 1/30th rule for Aviation Career 
        Incentive Pay, Career Enlisted Flyers Incentive Pay, and Diving 
        Special Duty Pay.
        <bullet> Simplify the Reserve duty order system without 
        compromising drill compensation.

    Spouse Support:

        <bullet> Expand eligibility of surviving spouses to receive 
        Survivor Benefit Plan (SBP)-Dependency Indemnity Clause (DIC) 
        payments with no offset.
        <bullet> Provide family leave for spouses and family care-
        givers of mobilized Guard and Reserve for a period of time 
        prior to or following the deployment of the military member.

    Deferred Benefits and Retirement:

        <bullet> Extend current early retirement legislation 
        retroactively to September 11, 2001.
        <bullet> Change U.S. Code to eliminate the fiscal year barrier 
        toward full credit toward early retirement.
        <bullet> Promote improved legislation on reducing the Reserve 
        component retirement age.
        <bullet> Permit mobilized retirees to earn additional 
        retirement points with less than 2 years of activated service, 
        and codify retirement credit for serving members over age 60.
        <bullet> Modify U.S. Code that requires repayment of separation 
        bonuses if an individual receives a Uniformed Service 
        retirement annuity.
        <bullet> Continue to protect and sustain existing retirement 
        benefits for currently retired.

Continuity of Health Care
    REA and ROA support improving health care continuity to all 
drilling reservists and their families. While Transitional Assistance 
Management Program (TAMP) TRICARE and TRICARE Reserve Select (TRS) are 
good first steps, TRICARE is neither universally accepted nor 
accessible to everyone entitled.
    Recent DOD policies on mobilization frequency of the Reserve and 
National Guard members set a goal of 1 year out of 5. This will make 
continuity of health care even more important to Reserve component 
members.
Requested Actions:
        <bullet> Make Tricare Reserve Select a standalone health care 
        program by:

                <bullet> Decoupling it from any changes made to Tricare 
                Standard; and
                <bullet> Requiring members to opt out rather than 
                enroll in.

        <bullet> Continue to improve health care continuity to all 
        drilling reservists and their families by:

                <bullet> providing individuals an option of DOD paying 
                a stipend toward employer's health care,
                <bullet> extending TRS coverage to mobilization ready 
                IRR members; levels of subsidy would vary for different 
                levels of readiness,
                <bullet> allowing demobilized retirees, and reservists 
                involuntarily returning to IRR to qualify for 
                subsidized TRS coverage,
                <bullet> allowing demobilized Federal employees the 
                option of TRS coverage.
                <bullet> Fund restorative dental care prior to 
                mobilization.
                <bullet> Request a GAO Review of TRR premiums which 
                currently do not support a continuity of healthcare.

    Reserve and Guard members experience problems when moving from 
their civilian health care to TRICARE while being deployed. They 
frequently must change physicians, which is extremely stressful for 
family members who require continuing care, such as a pregnant spouse 
or a family member who requires special care. Members and their 
families can also experience problems when returning to private 
healthcare insurance from TRICARE if there is a condition which began 
while in the TRICARE system.
    Additionally, REA and ROA view the military health care provided to 
retirees as an earned benefit. This is also a deferred incentive that 
encourages both Active and Reserve members to be retained. REA and REA 
cannot support recommended fee increases and the relabeling of the 
military health program. DOD health care inefficiencies and wartime 
expenses should not be a financial burden placed on these retirees. ROA 
and REA are grateful to Congress for the passage of TRICARE Standard 
coverage for gray-area reservists but hope that the Armed Services 
Committees can request a review of premium levels.
             a second look at base realignment and closure
    Reports have surfaced that the Pentagon has authority (10 U.S.C. 
Section 2687) to close bases domestically, as archaic laws remain on 
the books providing DOD with authority to close facilities without 
congressional approval. This authority only requires notification. Both 
the Army and the Air Force say that without further infrastructure that 
budget reduction would require deeper end strength cut, reduced 
readiness, and reductions in weapons procurement.
    To oversee the process, Congress must maintain control; the most 
effective tool is Base REalignment and Closure (BRAC). The BRAC process 
reduces political influences with the establishment of an independent 
panel, and an up or down approval of the commission's recommendations 
by Congress.
Requested Action:
        <bullet> Limit any BRAC to base closures where expenses will be 
        covered by savings within the first 5 years.
        <bullet> Set a goal to maintain a Title 10 military presence in 
        every State.
        <bullet> Study overseas basing and relocation within the United 
        States before determining excess domestic infrastructure.
        <bullet> Do not use Reserve and Guard installations to be the 
        bill payers to keep active facilities open.
        <bullet> Update bonuses and travel allowances for Reserve Force 
        personnel displaced by future BRAC decisions.
        <bullet> Provide Reserve Transition Incentives to offset the 
        penalty of earlier retirement. Include the cost of allowances 
        and incentives in calculation of overall BRAC expenses.

    Any future round of BRAC must include force realignment analysis to 
take into account future integration of Reserve and Active duty units, 
as the elimination of parallel unit structures may give reason for 
consolidation of infrastructure.
                               conclusion
    ROA and REA restate our profound gratitude for the bipartisan 
success achieved by this committee by improving parity on pay, 
compensation and benefits between the Active and Reserve components. 
The challenges being faced with proposed budget cuts and sequestration 
are going to make this committee's job that much harder.
    ROA and REA look forward to working with the personnel sub-
committee where we can present solutions to these challenges and other 
issues, and offers our support in anyway.

    Senator Gillibrand. Thank you.
    Mrs. Moakler?

    STATEMENT OF KATHLEEN B. MOAKLER, GOVERNMENT RELATIONS 
         DIRECTOR, NATIONAL MILITARY FAMILY ASSOCIATION

    Ms. Moakler. Good afternoon, Madam Chairwoman. I am 
Kathleen Moakler, Government Relations Director of the NMFA and 
a proud military family member. I also co-chair two committees 
for TMC.
    Thank you for allowing me to speak to you on behalf of 
military families this afternoon, and thank you for your 
eloquent words about military families in your comments before 
the first panel this morning. My statement will reinforce your 
words.
    While some families still have loved ones deployed, many 
families felt the hardships were over for a while. For 13 
years, they have experienced repeated deployments, worried 
about a loved one in harm's way, parented on their own, and put 
their lives on hold year after year. They know this is what 
their servicemember had signed up for, but they also felt their 
government was there to support them, to have their backs, and 
had provided them the tools they needed to get through it, many 
provided by this subcommittee.
    Servicemembers and their families have kept trust with 
America through over 13 years of war. Unfortunately, that trust 
is being tested. Recent national fiscal challenges have left 
military families confused and concerned about whether the 
resources contributing to their strength, resilience, and 
readiness will remain available to support them. We know that 
looming cuts mandated by sequestration threaten these programs 
and services they rely on.
    The administration's proposals to cut pay increases, reduce 
housing allowances, eliminate commissary savings, and increase 
health care costs, all at the same time, pose significant risk 
to the financial well-being of military families.
    We ask Congress to oppose shifting health care costs to 
Active Duty family members. The proposed consolidated TRICARE 
health plan would create a barrier to accessing care by making 
military families pay more when they need to see a doctor 
outside the military hospital or clinic.
    We have been successful over the past few years in reducing 
the stigma associated with military families seeking behavioral 
health counseling. Because of the shortage of military 
behavioral health providers and the appropriate focus on first 
providing care to the servicemember in the MTF, our families 
often have no choice but to seek counseling outside the 
military hospital. Special needs families face the same limited 
choices for most of their specialty care. Let's not prevent 
military families from seeking the help they need because they 
have to pay out-of-pocket.
    Military families tell us they rely heavily on the 
commissary savings and appreciate the good deal they get. We 
believe that the 30 percent savings available to military 
families who regularly shop at the commissary is an important 
part of compensation. In 2013, for every dollar spent from 
appropriations, military families realized $2 in savings. Why 
are we messing with a successful system?
    We repeat and reiterate what we told this subcommittee last 
year. We need Congress to end sequestration once and for all, 
which places a disproportionate burden on our Nation's military 
to reduce the deficit.
    We also want to speak for those who have been affected the 
most by these past years of war. We ask you to correct 
inequities in survivor benefits by eliminating the Dependency 
Indemnity Corporation (DIC) offset to the survivor benefit 
plan. We agree with the recommendations of the 11th Quadrennial 
Review to ensure Survivor Benefits Plan (SBP) annuities for the 
family of a reservist who dies while performing Active Duty 
training are calculated using the same criteria as for a member 
who dies while on Active Duty.
    Servicemembers and their families must be assured that our 
Nation will provide continued, unwavering support to the 
wounded, ill, and injured. This support must also include 
programs and services that help military caregivers, typically 
spouses or parents, successfully navigate their new role. 
Please continue to support these important resources and ensure 
that the resources adapt as the needs of these families change.
    In order to keep the trust of military families, the Nation 
must keep its promises. Reject budget proposals that threaten 
military family financial stability as a way to save money for 
the government. Military families continue to do their part to 
ensure the readiness of our fighting force. We ask the Nation 
to do their part in providing for the readiness of military 
families. Our highest priority, as is yours, is a ready force.
    Thank you. I await your questions.
    [The prepared statement of Ms. Moakler follows:]
     Prepared Statement by the National Military Family Association
    Chairwoman Gillibrand, Ranking Member Graham, and distinguished 
members of the subcommittee, the National Military Family Association 
thanks you for the opportunity to present testimony concerning the 
quality of life of military families--the Nation's families. After more 
than 13 years of war, we continue to see the impact of repeated 
deployments and separations on our servicemembers and their families. 
We appreciate the Personnel Subcommittee's recognition of the service 
and sacrifice of these families. Your response through legislation to 
the ever-changing need for support has resulted in programs and 
policies that have helped sustain our families through these difficult 
times.
    We also appreciate the creation by Congress of the Military 
Compensation and Retirement Modernization Commission. We feel it is 
imperative that its charter be honored. It was formed to examine the 
entirety of the military compensation system. We have provided input to 
the Commission on issues important to military families and suggested 
alternatives that could enable the Department of Defense (DOD) to 
provide benefits and family support services more effectively. We are 
not opposed to changes in the compensation system if they are made 
after thoughtful research and consultation and careful study about how 
the changes in individual elements of the system affect the whole. A 
piecemeal approach will not work. We expect the commission process to 
be respected and the recommendations thoughtfully considered in 
consultation with all the stakeholders.
    We endorse the recommendations contained in the statement submitted 
by The Military Coalition on personnel issues and health care. We have 
chosen to focus our statement on issues affecting current 
servicemembers and their families.
                           executive summary
    The U.S. military is the most capable fighting force in the world. 
Over more than a decade of war, servicemembers and their families never 
failed to answer the call, gladly sacrificing in order to protect our 
Nation. They made these sacrifices trusting that our government would 
provide them with resources to keep them ready. Recent national fiscal 
challenges have left military families confused and concerned about 
whether the programs, resources, and benefits contributing to their 
strength, resilience, and readiness will remain available to support 
them and be flexible enough to address emerging needs. DOD must provide 
the level of programs and resources to meet this standard. 
Sequestration weakens its ability to do so. Servicemembers and their 
families have kept trust with America, through over 13 years of war, 
with multiple deployments and separations. Unfortunately, that trust is 
being tested. The fiscal year 2015 budget proposal put forward by the 
administration will undermine military family readiness in fundamental 
ways, by cutting families' purchasing power and forcing them to bear 
more of their health care costs. At the same time, looming cuts 
mandated by sequestration threaten the programs and services they rely 
on for support. Our Association makes the recommendations in this 
statement in the name of supporting the readiness of military families 
and maintaining the effectiveness of the All-Volunteer Force. We ask 
the Nation to keep the trust with military families and not try to 
balance budget shortfalls from the pockets of those who serve.
    We ask Congress to:
    Let the Military Compensation and Retirement Modernization 
Commission (MCRMC) do its job in evaluating compensation, including 
health care, Basic Allowance for Housing (BAH), and commissaries, 
holistically.
    As you evaluate the proposals submitted by DOD, we ask you to 
consider the cumulative impact on military families' purchasing power 
and financial well-being, as well as their effects on the morale and 
readiness of the All-Volunteer Force now and in the future. We ask you 
to:

        <bullet> reject budget proposals that threaten military family 
        financial well-being as a way to save money for the government.
        <bullet> keep military pay commensurate with service and 
        aligned with private sector wages.
        <bullet> oppose shifting health care costs to active duty 
        family members. We especially ask you to oppose any TRICARE 
        change that will create a barrier to military families' access 
        to behavioral health care.
        <bullet> protect the 30 percent savings military families 
        receive when shopping at the commissary by continuing the 
        annual appropriation to support the system at its current 
        level. Commissaries are part of compensation and provide 
        important savings for military families.
        <bullet> ask DOD how the reduction in BAH payments will impact 
        the contracts that have been negotiated with the privatized 
        housing contractors. Will this result in fewer services, 
        reduced maintenance or families paying over and above their BAH 
        for their privatized housing?

    We especially ask Congress to end sequestration, which places a 
disproportionate burden on our Nation's military to reduce the deficit.
    We have addressed the immediate and long-term impacts of the 
proposed fiscal year 2015 budget on military families. Our Association 
also asks Congress to make improving and sustaining the programs and 
resources necessary to keep military families ready a national 
priority. We ask Congress to:

        <bullet> Provide oversight to ensure DOD and the individual 
        Services are supporting families of all components by meeting 
        the standards for deployment support, reintegration, financial 
        readiness, and family health in Department of Defense 
        Instruction (DODI) 1342.22. Fund appropriately at all levels. 
        Special attention needs to be paid to the flexibility for surge 
        capabilities.
        <bullet> Join with DOD to help civilian communities realize 
        their role in supporting servicemembers and families is 
        ongoing, even as servicemembers transition to veteran status.
        <bullet> Continue funding the Yellow Ribbon program and stress 
        the need for greater coordination of resources supporting 
        Reserve component families.
        <bullet> Ensure families of all seven Uniformed Services have 
        timely access to high quality, affordable health care and a 
        robust TRICARE benefit including preventive health care 
        services.
        <bullet> Instruct DOD to ensure future TRICARE policy changes 
        are thoroughly analyzed before being implemented with the 
        impact on beneficiary access to the medical standard of care as 
        a top consideration.
        <bullet> Ensure military families' access to the medical and 
        non-medical counseling they need to recover from the stress of 
        long years of war.
        <bullet> Ensure TRICARE makes the process for accessing 
        specialty care more flexible and streamlined to address the 
        unique aspects of military life without having families pay 
        more out-of-pocket.
        <bullet> Instruct TRICARE to enhance the Extended Care Health 
        Option (ECHO) program's utility to military families by 
        ensuring it covers the products and services families need. 
        Extend ECHO eligibility for 1 year following separation to 
        provide more time for families to obtain services in their 
        communities or through employer-sponsored insurance.
        <bullet> Continue funding DOD's Spouse Education & Career 
        Opportunities (SECO) programs. Make military spouse preferences 
        and hiring authorities non-discretionary. Expand outreach and 
        eligibility for the My Career Advancement Account (MyCAA) to 
        spouses of all of the Uniformed Services to facilitate better 
        utilization and access.
        <bullet> Ensure adequate funding for military child care 
        programs, including child care fee assistance programs.
        <bullet> Ensure appropriate and timely funding of Impact Aid 
        through the Department of Education (DoEd) and restore funds to 
        the Impact Aid Federal properties program.
        <bullet> Continue to authorize DOD Impact Aid for schools 
        educating large numbers of military children and restore full 
        funding to Department of Defense Education Activity (DODEA) 
        schools and the DODEA Grant Program.
        <bullet> Help families in crisis by funding ongoing tracking of 
        military family suicides. Ensure Family Advocacy programs are 
        funded and resourced appropriately to help families heal and 
        aid in the prevention of child and domestic abuse.
        <bullet> Correct inequities in Survivor benefits by eliminating 
        the Dependency and Indemnity Compensation (DIC) offset to the 
        Survivor Benefit Plan (SBP); allowing payment of the SBP 
        annuity into a Special Needs Trust to preserve disabled 
        beneficiaries' eligibility for income based support programs; 
        and ensuring SBP annuities for a reservist who dies while 
        performing active duty training are calculated using the same 
        criteria as for a member who dies while on active duty.
        <bullet> Ensure better cooperation and accountability between 
        DOD and the Department of Veterans Affairs (VA) at the highest 
        levels in the support of transitioning wounded, ill, and 
        injured servicemembers and caregivers. The lack of a seamless 
        transition between agencies still exists and must be corrected.
        <bullet> Exempt the Special Compensation for Assistance with 
        Activities of Daily Living (SCAADL) from income taxes, enhance 
        marketing of SCAADL to the eligible population, and add an 
        electronic application process to reduce the burden of 
        completing SCAADL paperwork.
        <bullet> Encourage DOD and the VA to develop a solution to 
        continue in-vitro fertilization (IVF) coverage for veterans and 
        military retirees facing service connected infertility.
        <bullet> Require DOD and VA to regularly assess the unmet needs 
        of caregivers and develop programs to address their evolving 
        requirements.
                 keeping the trust of military families
    America's All-Volunteer Force is the most capable fighting force in 
the world. Over more than a decade of war, servicemembers and their 
families have heroically answered our Nation's call to serve. Their 
sacrifice--of life, limb, and family--is offered selflessly, trusting 
in the steadfastness of our government to provide for their readiness 
and the needs of their families.
    Many military families feel their sacrifices go unnoticed by 
civilian society, which is consumed with domestic concerns such as the 
economy and unemployment. Military families share those concerns. But 
they also feel the Nation is forgetting the price they alone have paid 
in 13 long years of war.
    Trust in government is essential to the long term viability of the 
All-Volunteer Force. That trust is reinforced through the 
predictability, efficiency and fairness of compensation and benefits. 
Since 2006, throughout the wars in Iraq and Afghanistan, the 
administration has proposed various benefit ``reforms,'' mostly in 
health care, which would have increased the financial burden of those 
who have served. The changes proposed in the fiscal year 2015 budget, 
coupled with the arbitrary reductions forced by sequestration, 
undermine the trust military families have in the government's 
commitment to support the All-Volunteer Force over the long term. This 
is a price the Nation cannot afford to pay.
    Moreover, the administration's proposals to cut pay increases, 
reduce housing allowances, eliminate commissary savings, and increase 
health care costs pose significant risk to the financial well-being of 
military families. Congress must resist these changes.
    The forthcoming report of the Military Compensation and Retirement 
Modernization Commission (MCRMC) should become a catalyst for a broad 
discussion of military compensation and benefits for future 
generations. Taxing those currently serving, and those who have served, 
in order to finance other priorities, is wrong headed and unacceptable 
to military families. We ask Congress to honor its commitment to 
military families and not to balance budget shortfalls on the backs of 
those who serve.

          ``The All-Volunteer Force is comprised of people who trust--
        they trust that we will treat them with dignity, respect, and 
        due regard for their overall well-being. This trust is 
        priceless. This trust puts in place the greatest weapons system 
        we can provide the sailors of the U.S. Navy. That weapons 
        system is called unit morale.''--Master Chief Petty Officer of 
        the Navy (MCPON) Mike Stevens
  the administration budget proposal: a disaster for military family 
                              pocketbooks
    The administration's budget proposal has only added to the growing 
sense of frustration in the military community. Military families are 
financially savvy. They are doing the math and feel they are 
shouldering the burden for balancing the budget when they've shouldered 
the entire burden of the last 13 years of war.
      
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
      
Pay Raise
    For the second year in a row, the administration is proposing a pay 
increase of only 1 percent, below the level of private sector wage 
increases. The Employment Cost Index (ECI) was chosen as the standard 
for active duty pay raises in order to recruit and retain the quality 
of servicemembers needed to sustain the All-Volunteer Force. What's 
changed?
    We ask Congress to keep military pay commensurate with service and 
aligned with private sector wage increases.
Basic Allowance for Housing
    Under the administration proposal, servicemembers will receive 95 
percent of the Basic Allowance for Housing (BAH) for their rank and 
location resulting in greater out of pocket housing costs. This 
``slowed growth'' of the BAH will affect families whether they rent or 
own their own home. We appreciate the lower BAH will not affect a 
military family until their next duty assignment, but are concerned 
about the long-term impact on families' ability to find and pay for 
appropriate housing.
    BAH is paid at a with-dependent or without-dependent rate and 
varies based on the servicemember's rank and the rental and utility 
costs for housing within a reasonable commuting distance of where the 
servicemember is assigned.
    What will be the effects of lower BAH rates on privatized housing? 
Right now, the rent for privatized housing is tied to the BAH rate for 
each rank. Privatized housing has been a good deal for the government 
and for military families. If the amount paid to the contractors is 
reduced, what will that mean in terms of maintenance and renovation 
down the road? Would military families be responsible to pay the 
difference between rent and BAH?

          Please ask DOD how the reduction in Basic Allowance for 
        Housing (BAH) payments will impact the contracts that have been 
        negotiated with the privatized housing contractors. Will this 
        result in fewer services, reduced maintenance, or families 
        paying over and above their BAH for their privatized housing?
Commissaries
    Our Association believes that the 30 percent savings available to 
military families who regularly shop at the commissary is an important 
part of compensation. Re-engineering the way the commissary does 
business by reducing the appropriation and thus raising prices wreaks 
havoc with a system that has been recognized as a model of efficiency. 
In 2011, the commissary saved customers more than $2.79 billion,\1\ 
with a cost to DOD of only $1.34 billion. In 2013, the commissary 
continued to provide $2.08 billion in savings to patrons for every $1 
of appropriations.\2\ Why would the government want to cut a program 
that returns twice the value to customers that it costs DOD to provide?
---------------------------------------------------------------------------
    \1\ http://www.commissaries.com/press--room/press--release/2012/
DeCA--28--12.cfm
    \2\ http://www.commissaries.com/press--room/press--release/2014/
DeCA--01--14.cfm
---------------------------------------------------------------------------
    Military families appreciate that efficiencies must be found, 
especially to preserve readiness. However, the commissary is not just a 
quality of life program that can be downsized. It, too, is intended 
``to support military readiness, recruitment, and retention'' (10 
U.S.C. Sec. 2481). While other readiness programs have had to grow in 
cost to support growing numbers of servicemembers and patrons, the 
government contribution for the commissary has stayed relatively level.
    DOD proposes commissaries take on a business model closer to that 
used by the exchanges. The exchanges operate on a for-profit model that 
allows them to set prices above cost, currently prohibited by law to 
the commissary. Furthermore, the exchanges and commissaries carry few 
of the same products and serve entirely different purposes. Profits 
from the exchange are used for operations and help fund Morale, Welfare 
and Recreation (MWR) programs. We wonder if military installations 
would be able to support two for-profit entities in their environs, 
especially if they carry duplicate products. We wonder what the effect 
will be on contributions to MWR when the commissary starts selling more 
of the same products as the exchange. If the purpose of the commissary 
system is to support servicemembers and families by selling groceries 
at cost plus a surcharge for construction and renovation, why is 
raising prices acceptable?
    Out of all of the cuts in the fiscal year 2015 budget proposal, 
many families tell us the reduction in commissary savings is what will 
prove most detrimental to their financial well-being. Even with the 10 
percent savings proposed by DOD, a family of four that shops regularly 
at the commissary would lose at least $200 per month.\3\
---------------------------------------------------------------------------
    \3\ Current estimations show that a military family of four 
shopping regularly/exclusively at the commissary saves $3,600/$4,500 
annually (http://www.commissaries.com/press--room/fast--facts.cfm).

          I think it's personally ridiculous that we're going to go 
        after something that saves some . . . young lance corporal, . . 
        . $4,500 a year for every time he walks in there--he has two 
        kids and every time he . . . shops it's $240. Well, . . . he 
        just put $80 worth of gas into his car and he doesn't even know 
---------------------------------------------------------------------------
        it.--Sergeant Major of the Marine Corps Micheal Barrett

    Military families tell us they rely heavily on the commissary 
savings and appreciate the good deal they get. Some tell us they don't 
use the commissary often due to distance, unfamiliarity, or 
inconvenience and they may not realize the overall savings they can 
achieve. For servicemembers who qualify for the Supplemental Nutrition 
Assistance Program (SNAP) or the Women, Infants and Children (WIC) 
nutrition program, using the commissary allows families to stretch 
their benefit and provides a buffer to the many others who may be 
teetering on the financial edge. The many who use the commissary tell 
us they not only value this benefit, they do not know how they would 
provide for their families without it. Recently, a family member told 
us:
    Anyone who says the commissary is unnecessary has never tried 
raising a family on $1,400/month and has never been on recruiting duty. 
The commissary is a budget lifesaver.
    Senior leaders tell us they will not close commissary stores as 
part of this proposal. But when military families lose their savings at 
the commissary, they will stop shopping there. Fewer patrons will 
reduce the ability of the commissary system to leverage economies of 
scale--the revenues generated at the larger commissaries such as Fort 
Belvoir allow the family shopping in a smaller commissary in Guam or 
Dugway, UT, to realize the same savings. This will have tragic 
consequences for a system that currently works. Military families need 
savings; they don't need just another grocery store that is convenient 
to where they live!
    Protect commissary savings by continuing the annual appropriation 
to support the system at its current level. Commissaries are part of 
compensation and provide important savings for military families.
Consolidated TRICARE Health Plan
    Our Association opposes shifting health care costs to active duty 
family members. We are particularly troubled the Consolidated TRICARE 
Health Plan proposal does not spread these costs evenly among all 
beneficiaries. Rather, the additional out of pocket expenses will be 
concentrated among those who cannot receive care at a Military 
Treatment Facility (MTF) and special needs families who require 
extensive specialty care. Even though the Consolidated TRICARE Health 
Plan proposal suggests the impact on families will be modest, we 
believe the proposed plan will have a significant negative impact on 
those populations mentioned above. We also firmly oppose any policy 
that will create a barrier to military families' access to behavioral 
health care. The Consolidated TRICARE Health Plan raises many 
unanswered questions and significant concerns that it will ultimately 
result in diminished access to care for military families.
    The Consolidated TRICARE Health Plan proposed in the fiscal year 
2015 budget would eliminate the current TRICARE managed care and fee-
for-service options (Prime, Standard, and Extra) and replace them with 
a cost sharing structure for everyone including active duty family 
members.
      
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 
    
    
      
    Currently, the 79 percent of active duty family members enrolled in 
Prime \4\ pay no cost shares for treatment received at an MTF or from 
civilian providers in the TRICARE network, assuming the beneficiary 
follows TRICARE referral and authorization policies. Previous reform 
proposals have focused on retirees. The fiscal year 2015 proposed 
Consolidated TRICARE Health Plan reform will create unavoidable out of 
pocket health care costs for many active duty families, driven largely 
by their geographic location, health care condition, and ability to 
access care in an MTF.
---------------------------------------------------------------------------
    \4\ Evaluation of the TRICARE Program: Access, Cost, and Quality, 
Fiscal Year 2013 Report to Congress, Office of the Office of the 
Assistant Secretary of Defense (Health Affairs)
---------------------------------------------------------------------------
    The current TRICARE Prime referral and authorization process can be 
cumbersome and sometimes prevents timely access to specialty care. 
While we appreciate that the Consolidated TRICARE Health Plan proposal 
provides beneficiaries with open access to providers of specialty care, 
we are concerned cost will become the new barrier to accessing health 
care. Proposed cost shares are the lowest in MTFs, higher in the 
network, and highest out of network. While we understand this cost 
structure is designed to encourage use of military clinics and 
hospitals, thereby improving efficiency of the Defense Health Agency's 
(DHA) fixed facility cost structure, we believe it is important to 
understand that not every active duty family has access to a military 
hospital or clinic.
    Some servicemembers, for instance those in recruiting positions, 
are stationed far from the nearest MTF. Others are at installations 
where the MTF is at capacity and family members are routinely referred 
to the network for most or all of their care. Still other military 
families are at installations with limited direct care resources. For 
instance, when the Army reactivated the 10th Mountain Division at Fort 
Drum, Army leaders decided to take advantage of excess capacity in 
local hospitals rather than building an inpatient facility on post to 
serve 10th Mountain military personnel and their families. As a result, 
nearly 20,000 Fort Drum family members receive most of their specialty 
care from civilian providers because the post clinic only offers basic 
services. Because there is no hospital on post, Samaritan Hospital of 
nearby Watertown, NY, provides 90 percent of the post's inpatient care 
needs.\5\ With the Consolidated TRICARE proposal, Fort Drum families 
will face cost shares for much of their health care, not because they 
have chosen civilian providers, but because they do not have the option 
of seeking care at an MTF.
---------------------------------------------------------------------------
    \5\ Defense Communities 360: Community Network Provides Inpatient, 
Specialty Care for Fort Drum Personnel, January 29, 2014 http://
www.defensecommunities.org/headlines/community-network-provides-
inpatient-specialty-care-for-ft-drum-personnel/#
---------------------------------------------------------------------------
    DHA has characterized the proposed cost shares as modest. However, 
the relatively low ``per family'' dollar impact the DHA presents \6\ is 
an average assuming cost shares are spread evenly across the 
beneficiary population. In reality, costs shares will be borne 
disproportionately by families without MTF access, those who need 
specialty care, and those with special needs family members. We fear 
that, for these families, co-pays will become a barrier to accessing 
necessary medical care.
---------------------------------------------------------------------------
    \6\ U.S. Department of Defense fiscal year 2015 Budget Request 
Overview, March 2014, Office of the Under Secretary of Defense.
---------------------------------------------------------------------------
    While cost shares will disproportionately impact all families 
without MTF access, junior enlisted families will be particularly 
vulnerable. With their relatively lower incomes, cost shares ranging 
from $10 to $50 per visit (see chart above) will necessarily have a 
greater impact on their family budgets. Junior enlisted families 
without access to an MTF may not be able to absorb co-pays for every 
medical appointment. We are concerned they may elect to forego medical 
care to avoid the out of pocket costs.
    We are pleased DOD has listened to requests for protections of 
benefits for those who have been medically retired and surviving 
spouses. Keeping their health care fees at the same level as active 
duty family members reflects their extraordinary sacrifice and service.
    Due to their greater requirements for specialty care, the 
Consolidated TRICARE Health Plan will also have a pronounced effect on 
special needs families. Many special needs families require medical 
care that is not typically delivered at MTFs. While special needs 
families enrolled in TRICARE Prime can now seek specialty care in the 
network at no cost, the new proposal will result in cost shares for 
each network appointment. Given the number of specialty appointments 
many of these families require, we fully expect their expenses to reach 
the catastrophic cap: $1,500 for network care, $2,500 for combined 
network/out-of-network care. The $1,500 cap for network care is $500 
above the current cap for active duty military families, thus they will 
have to spend more for health care before DOD will pick up additional 
costs. This will have a significant impact on the purchasing power of 
special needs families.
    Our Association finds the behavioral health care co-pays in the 
Consolidated TRICARE Health Plan absolutely unacceptable. Network 
behavioral health appointments are treated the same as any other 
specialty care with co-pays of $20-$25 per visit. Because of the heavy 
demand by servicemembers in the MTF, more families have no choice but 
to seek care in the network. With co-pays of $20-$25 per appointment, 
we fear this will have a devastating effect on military families' 
ability and willingness to seek behavioral health care.
    Recognizing that 13 years of war has taken a toll on our community, 
TRICARE has made improvements in facilitating access to behavioral 
health care for military family members. Currently, TRICARE 
beneficiaries do not need referral or prior authorization for the first 
eight outpatient behavioral health care visits per fiscal year.\7\ This 
has allowed military family members to more easily access critical 
mental health resources. TRICARE Prime family members currently incur 
no costs for behavioral health care whether they access it at an MTF or 
in the network.
---------------------------------------------------------------------------
    \7\ TRICARE Behavioral Health Care Resources Fact Sheet
---------------------------------------------------------------------------
    Our Association believes it is imperative that behavioral health 
care, whether it is delivered in the Military Treatment Facility (MTF) 
or in the network, continues with no out of pocket costs for active 
duty military families.
    The Consolidated TRICARE Health Plan is designed to increase demand 
for MTF health care. We are concerned about how this increased demand 
will be managed. How will active duty families be prioritized within 
the MTF? Will they face longer waits for appointments? Will acute care 
be available when needed? We fear military families' access to care 
will be hampered by the increased demands placed on the MTFs.
    In addition to the concerns outlined above, our Association has 
many unanswered questions about the proposed TRICARE Consolidated 
Health Plan and its potential impact on military families, including:

          What modifications will be needed to the current TRICARE 
        Managed Care Support Contracts to implement these changes? Will 
        there be changes in requirements for the contractors to build 
        and maintain networks and to keep accurate listings of which 
        providers are in the network?
          What resources will remain in place for the management of 
        complex illnesses or conditions where coordinated care is 
        needed? Where will that responsibility reside, with the MTF or 
        the TRICARE contractor?
          Will military retirees and their family members with Other 
        Health Insurance (OHI) who wish to use TRICARE as a second 
        payer be required to pay the same participation fee as those 
        who want to keep TRICARE as their primary insurance?
          Will there be changes in how network maternity care will be 
        reimbursed? Maternity is generally a bundled benefit with 
        different cost sharing. For example, instead of paying a co-pay 
        for each doctor's visit, the doctor accepts a flat amount, 
        regardless of the number of visits and the mom pays a 
        percentage of the fee. Also, maternity hospitalization has a 
        different rate for mom and then for baby, generally less than 
        traditional hospitalization. How will this be handled?
          What will be the cost to the Services/MTFs to create systems 
        to process co-payments by retirees and their families?
          How much savings will the Consolidated TRICARE Health Plan 
        provide to DOD?
Transition Challenges During Downsizing
    Downsizing of the force has already begun as a result of 
sequestration. The fiscal year 2015 budget calls for a greater decrease 
especially in the Army. The effects of this downsizing are many. The 
servicemember and their family may feel the many years they spent 
facing multiple deployments are not appreciated. Morale will be low. 
Families are still dealing with the after-effects of war, problems with 
reintegration, with coming together again as a family, and the impact 
of the invisible signature wounds of these conflicts--post-traumatic 
stress and traumatic brain injury. We don't know what the long term 
implications are and what services will be needed by the servicemember 
and by the family as well.
    A national debate is needed now on how veterans' families will be 
supported once they leave the safety net of support they had while the 
servicemember was on active duty. What can the VA do to help families 
as well as veterans ease into civilian life and recover from multiple 
wartime deployments? What help will communities need to support these 
families?
A Holistic Approach Is Needed
    We firmly believe the administration's fiscal year 2015 budget 
proposal did not consider the cumulative effects of a reduced pay raise 
combined with lower BAH payments, loss of commissary savings, and 
possible out-of-pocket health care costs on the purchasing power of 
servicemembers and their families. This budget proposal would reduce 
cash in a servicemember's pocket!
    We ask Congress to reject budget proposals that threaten military 
family financial well-being as a way to save.
    Let the Military Compensation and Retirement Modernization 
Commission (MCRMC) do its job in evaluating compensation, including 
health care, holistically.
          sequestration: an ongoing threat to family readiness
    The effects of sequestration have already resulted in cuts to 
benefits and programs that military families have come to rely on. Much 
of the funding for these programs is embedded in the Service Operations 
and Maintenance Accounts, which have been the hardest-hit by 
sequestration. Understanding what is affected by sequestration has been 
confusing for families. Our Association used social media to help 
military families tell truth from fiction and to keep them up to date 
on how sequestration would affect them. Our families used social media 
to voice their frustration about sequestration's effects on their 
servicemembers' ability to do their jobs and on the damage caused to 
the military community.\8\ Military families were impacted by 
sequestration with cuts to services and the threat of closure of DOD 
schools when civilian workers were furloughed and hiring was frozen. 
Sequestration limited the availability of health care appointments 
because furloughs of civilian medical staff resulted in reduced hours 
of operation at military hospitals and clinics. Military families 
reported longer wait times for appointments and delays in obtaining 
treatment. Some were told to go to the emergency room for acute care 
that would normally be handled at the MTF.
---------------------------------------------------------------------------
    \8\ http://www.militaryfamily.org/assets/pdf/Sequestration-Photo-
Book--final--web.pdf
---------------------------------------------------------------------------
    When we speak to military families about sequestration, one of 
their major areas of concern is child care. Servicemembers who rely on 
installation child care centers worry centers will reduce their 
operating hours or turn more families away. Families who use the fee 
assistance program wonder if those funds will still be available. We 
have already heard from families that child care respite programs for 
families of deployed servicemembers are being phased out. Other 
locations have curtailed or eliminated hourly or drop-in care. Losing 
these services is a particular hardship to families overseas or in 
remote locations, who may have few child care alternatives.
    Impact Aid was one of the first casualties of sequestration cuts, 
because unlike other education programs, Impact Aid is current-year 
funded. Over the course of the past year, we heard reports from school 
districts facing significant funding cuts due to sequestration. For 
example, the Killeen Independent School District, which serves 18,000 
military children, faced the loss of more than $2.6 million in 2013. 
Our Association thanks Congress for restoring $65 million to the 
Department of Education Impact Aid program in the fiscal year 2014 
Consolidated Appropriations Act. This funding is critical to public 
school districts educating large numbers of military children. However, 
we continue to be concerned about the long-term consequences the 
spending caps imposed by the Budget Control Act (BCA) will have on 
school districts reliant on Impact Aid.
    While the Bipartisan Budget Act of 2013 provided some relief, we 
know that with future cuts required down the road, military families 
will continue to see cuts and threats to the programs and resources 
they require for readiness.
    We ask Congress to end sequestration and end the threat to the 
resources military families depend on for their readiness.
  keeping military families ready: what do military families require?
    We have addressed the immediate and long-term impacts of the 
proposed fiscal year 2015 budget on military families. But we ask you 
not to forget that military families depend on a variety of programs 
and resources that must be sustained and, in some cases, improved.
    The National Military Family Association believes our Nation's 
leaders should guarantee the readiness of our force by taking care of 
servicemembers and their families, serving in both Active and Reserve 
components, no matter where they live. We ask you to sustain support by 
providing: quality, accessible health care; behavioral health support; 
spouse career opportunities; good schools for military children; 
quality, affordable child care; a secure retirement; and unwavering 
support for those wounded, widowed, or orphaned. We challenge Congress 
and the administration to join us in seeking greater collaboration 
between government and community agencies to enhance support and enable 
military families to thrive and be ready to answer any call to duty, 
now and in the future.
    DOD created a blueprint for the framework of family readiness in 
DODI 1342.22, ``Military Family Readiness''. \9\ The DODI integrates 
policy for core family readiness services into a single source, 
including requirements for financial education and counseling, 
relocation assistance, emergency family assistance, spouse employment 
and requirements for delivery of services to the Reserve Components. It 
spells out the expectation that families be empowered to enhance their 
own readiness, but have the ability to access a trusted network of 
services regardless of branch of Service, active or Reserve status, or 
geographic location. It changes the traditional mindset of military 
family support, which focused on installation-based services and 
created the expectation that families should come to the support rather 
than having the support service connect with families where they are. 
The DODI emphasizes the importance of creating a family readiness 
system in which servicemembers, families, other government agencies, 
and private organizations collaborate to support troops and families. 
It focuses on three areas of readiness: mobilization and deployment 
readiness, mobility and financial readiness, and personal and family 
life readiness.
---------------------------------------------------------------------------
    \9\ http://www.dtic.mil/whs/directives/corres/pdf/134222p.pdf
---------------------------------------------------------------------------
    Our Association believes full implementation of DODI 1342.22 across 
all Services and components is essential for the readiness of both the 
current and future force. It sets the structure and expectations for 
family readiness and must be resourced appropriately.
Deployment and Reintegration Support
    Military families have been living a revolving door existence since 
the beginning of the wars in Afghanistan and Iraq. They experienced 
repeated deployments, each the same with the strains of separation, but 
unique with the dynamic of their family at that moment in time. They 
had repeated reunions, honeymoons followed by the hard work of 
rebuilding their family. As they rebuild, they still worry about the 
future, the nagging thought that soon their family will be doing this 
again.
    Despite the drawdown in the Middle East, the mission of the U.S. 
military continues. Deployment patterns will change, but deployments 
will continue. A downsized force will still be busy doing more missions 
with fewer troops. A structure should be maintained to meet families' 
deployment related needs. DODI 1342.22 requires that programs be 
flexible enough to respond swiftly to the changes in needs of 
servicemembers and families. If deployment support programs are 
dissolved completely they will not easily be regenerated when needed 
again. We cannot lose the structure for proven programs such as pre-
mobilization briefs that prepare families for deployment. During 
deployment, families rely on the programs and staff that support them, 
including respite care and the Army family readiness support assistants 
(FRSAs), Marine Corps family readiness officers (FROs), ombudsmen, and 
Military OneSource. This support network is essential for the families 
of many servicemembers who are sent apart from their units as 
individual augmentees. Readiness does not stop when a unit comes back 
from an operation or start up when a new operation is identified. 
Readiness is the underpinning that must be maintained and sustained at 
an appropriate level for the unit and their families.

          ``With guys doing multiple deployments, they're getting a 
        tough 9 to 10 deployments over a 12-year period, the impact on 
        families is going to be noticeable. Anything that can cut down 
        and make the deployments less vigorous in terms of operation 
        tempo is going to be a better thing''.--Rear Admiral George 
        Worthington, USN (retired), retired Navy seal \10\
---------------------------------------------------------------------------
    \10\ Read more: http://www.washingtontimes.com/news/2014/mar/11/
special-ops-forces-wearing-thin-from-high-demand/?utm--source=RSS--
Feed&utm--medium=RSS

    Reintegration programs, along with deployment support, are key 
ingredients in the family's success. Our Association believes we need 
to focus on treating the whole family with programs offering 
readjustment information; education on identifying stress, substance 
abuse, suicide, and traumatic brain injury; and encouragement to seek 
assistance when having financial, relationship, legal, and occupational 
difficulties. DODI 1342.22 calls for this support to promote positive 
adjustment to deployment, family separation, and family reunion.
    Successful reintegration programs will require attention over the 
long term, as well as a strong partnership at all levels between the 
various mental health arms of DOD, VA, and State agencies. DOD and VA 
need to provide family and individual counseling to address these 
unique issues. Opportunities for the entire family and for the couple 
to reconnect and bond must also be provided. Our Association has 
recognized this need and established family retreats in national parks 
under our Operation Purple program, promoting family reintegration 
following deployment.
    During the past 13 years of war, our Nation has relied on the 
services of the National Guard and Reserve more than ever before. Our 
Association appreciates the great strides made by both Congress and the 
Services to help support our Reserve component families. We believe 
sustaining effective support programs for our ``Citizen Soldiers'' and 
their families is essential at every stage of deployment. DOD agrees by 
integrating family readiness for the Reserve component into DODI 
1342.22. We ask Congress to provide funding for preventive and follow-
up counseling and behavioral health services for mobilized Reserve 
component members and their families.
    We have been in touch with the staff of the Yellow Ribbon 
Reintegration Program (YRRP) and are pleased they have developed a way 
ahead for the Yellow Ribbon program as a best practice for continued 
Reserve Component family readiness. The Reserve components will 
continue, for the foreseeable future, to execute operational missions 
globally in response to our Nation's security needs. As the operating 
environment evolves, YRRP will be there to provide vital information 
and resources to servicemembers and families throughout and beyond 
deployment periods. It will remain an enduring component of unit and 
individual readiness and reintegration challenges. More about the 
program and the resources can be found at www.yellowribbon.mil. 
Additionally, the YRRP has been working with Office of Military 
Community and Family Policy (MC&FP) on accreditation standards as MC&FP 
works to accredit Family Programs in the Army Reserve and National 
Guard.
    Provide oversight to ensure the Defense Department and the 
individual Services are supporting families of all components by 
meeting the standards for deployment support, reintegration, financial 
readiness, and family health in DODI 1342.22. Fund appropriately at all 
levels. Special attention needs to be paid to the flexibility for surge 
capabilities.
    Continue funding the Yellow Ribbon Reintegration Program (YRRP) and 
stress the need for greater coordination of resources supporting 
Reserve Component families.
Support for Transitioning Families
    Transitioning due to downsizing affects the whole family. In 
addition to the transition assistance program available to 
servicemembers, resources need to be identified that is pertinent to 
the family members that would also be transitioning. Training on issues 
like health care coverage for dependents including information on the 
Affordable Care Act, how to find community resources to replace DOD 
programs and general inclusion of the military spouses role in the long 
term care of the family as a whole aren't really covered in the 
transition classes.
    We are developing a transition program specific to spouses. We will 
highlight the programs available through the DOD and develop a 
framework of best practices for family transition. Military spouses are 
a critical component in familial stability, often leading issues in 
health care and finances in the home. Their role in transition is 
equally critical to the success of the entire family in the move to 
civilian life.
    Expand the opportunity for spouses to attend transition classes 
with servicemembers. Through other military information portals tailor 
other information to address family transition issues.
    We encourage Congress to join with DOD to help civilian communities 
realize their role in supporting servicemembers and families is 
ongoing, even as servicemembers transition to veteran status.
Military Health Care
    Affordable and timely access to health care is important to all 
families, but it is vital for military families. Repeated deployments, 
caring for the wounded, ill, and injured, the stress and uncertainty of 
military life, and the ability to maintain family readiness, demand 
quality, and readily available health care. A robust and reliable 
health care benefit allows families to focus on managing the many 
challenges associated with military life versus worrying about how they 
are going to access and pay for essential health care. Any changes to 
the military health care benefit must recognize the unique conditions 
of service and the extraordinary sacrifices demanded of servicemembers 
and their families.
    The National Military Family Association strongly asserts that any 
discussion of military health care, especially its costs, must make a 
distinction between the health care readiness needs of servicemembers 
versus the earned health care benefit provided to family members, 
retirees, and survivors. Ensuring the physical and mental health of 
servicemembers so they can perform their mission is a readiness cost 
and not part of the compensation package.
    Likewise, the health care costs associated with wartime operations 
or the care of wounded, ill, and injured servicemembers should not be 
included as part of the cost of providing a health care benefit to the 
children, spouses, and surviving family members of servicemembers and 
retirees. Our Association believes DOD, in its statements about the 
rising costs of the military health care benefit, has not effectively 
differentiated health care readiness costs from the costs of providing 
the earned health care benefit. This failure, we believe, puts both the 
readiness function and access to care for family members and retirees 
at risk.
    The military health care system--because of its dual readiness and 
benefit provision missions--does not function like civilian plans. The 
TRICARE benefit includes both direct care provided by MTFs as well as 
coverage that enables military families to access health care within 
the civilian community.
    Access to care is also impacted by TRICARE's reimbursement 
policies. We believe TRICARE's reimbursement policies should be 
comparable to commercial and other government plans. They should align 
with current standards of medical care. Furthermore, they should be 
flexible enough to accommodate changes in medical technologies and 
treatment protocols.
    Ensure families of all seven Uniformed Services have timely access 
to high quality, affordable health care and a robust TRICARE benefit 
including preventive health care services.
    In the past year, military families have faced several 
reimbursement policy decisions that made TRICARE coverage inferior to 
commercial and other government plans, ignored medical standards of 
care, and created hardship for beneficiaries. These policy decisions 
include:

        <bullet> Changes to the referral and authorization requirements 
        for Applied Behavior Analysis (ABA) created significant 
        barriers to military families accessing this therapy. These 
        changes were later reversed for the TRICARE Basic and ECHO 
        Demonstration programs and were applied only to the ABA Pilot.
        <bullet> Compound prescription coverage changes. In June, 
        TRICARE announced it would cease coverage of all compound 
        pharmaceuticals containing non-Federal Drug Administration 
        (FDA) approved bulk chemicals or ingredients. This policy 
        change would have created difficulties for many beneficiaries, 
        such as children, who rely on compounding for safe and 
        effective prescriptions. TRICARE eventually reversed this 
        decision.
        <bullet> Laboratory Developed Tests coverage denials. In 
        January 2013, TRICARE ceased coverage of over 100 diagnostic 
        genetic tests without notice to health care providers or 
        beneficiaries. These tests are covered by Medicare and Medicaid 
        as well as commercial health plans. They represent the standard 
        of care and include a common prenatal screening for cystic 
        fibrosis that the American Congress of Obstetricians and 
        Gynecologists has recommended for over 10 years. Denying access 
        to these tests could lead to substandard health care for 
        military families. We have been working with DHA and 
        congressional offices for over a year to get this policy 
        reversed. In the meantime, we have heard from numerous families 
        faced with paying for lab tests out of pocket or foregoing 
        tests ordered by their physicians.

    Reimbursement denials for diagnostic genetic tests have significant 
implications for military families. An active duty Army family 
contacted our Association regarding their daughter whose eye was 
removed due to retinoblastoma, a cancer that can spread to the brain. 
Her physician recommended genetic testing to determine the likelihood 
that the cancer would appear in her other eye. Without the genetic 
test, the child would require close monitoring until age 6 including 
eye exams under anesthesia as well as sedated magnetic resonance 
imaging (MRIs) every 4-6 weeks. After getting the genetic test results, 
her treatment plan was modified to greatly reduce the number of eye 
exams and MRIs. Because TRICARE refused to cover the diagnostic genetic 
test, this Army family had to find a third party to pay for it. Without 
the test results, this family would have faced greater uncertainty 
about their daughter's condition, while the child would have been 
subjected to many more sedated eye exams and MRIs--at a significant 
cost to the government. We appreciate the understanding of the 
egregiousness of this policy expressed by members of the Senate in 
their recent letter to Assistant Secretary of Defense for Health 
Affairs Dr. Jonathan Woodson.
    Arbitrary reimbursement policy changes create confusion and 
uncertainty among military families. We request that DOD ensure future 
policy changes are thoroughly analyzed before being implemented. The 
impact on beneficiary access to the medical standard of care should be 
a top consideration. Should reimbursement policy changes be made, we 
request that TRICARE inform providers and beneficiaries with sufficient 
lead time to allow alternative treatment plans to be developed.
    TRICARE's reimbursement policies should be comparable to commercial 
and other government plans.
    DOD should ensure future TRICARE policy changes are thoroughly 
analyzed before being implemented with the impact on beneficiary access 
to the medical standard of care as a top consideration.
    We remain especially concerned about access to care for National 
Guard and Reserve families. We continue to believe that paying a 
stipend to a mobilized National Guard or Reserve member for their 
family's coverage under their employer-sponsored insurance plan may 
work out better for many families in areas where the TRICARE network 
may not be robust. This option will remain viable as the current 
pattern of mobilizations declines with the end of conflicts. DOD 
leaders say our military will continue to rely on National Guard and 
Reserve members to perform the changing missions of the future. A 
different set of health care options may be needed to accommodate the 
needs of these mission-critical servicemembers, their families, and the 
military.

          Pay a stipend to a mobilized National Guard or Reserve member 
        for their family's coverage under their employer-sponsored 
        insurance plan.

    TRICARE's policies often present challenges in accessing the 
appropriate pediatric care. Children's health care needs differ from 
those of adults. Because TRICARE is modeled on Medicare, its policies 
are sometimes ill-suited for pediatric care. TRICARE's policies should 
address the unique needs of children when defining medical necessity to 
ensure military children receive comprehensive and quality health care 
consistent with pediatric best practices. It is imperative the quality 
of health care provided to our military children is commensurate with 
the sacrifices made by our servicemembers and their families.
    We appreciate the inclusion in the National Defense Authorization 
Act (NDAA) for Fiscal Year 2013 for a report to comprehensively review 
TRICARE health care policies and practices to make recommendations that 
specifically account for children's health care and pediatric care 
settings. Encourage DOD to release the results of the review as soon as 
possible.
    TRICARE's policies should address the unique needs of children when 
defining medical necessity to ensure military children receive 
comprehensive and quality health care consistent with pediatric best 
practices.
Behavioral Health
    Research validates the high level of stress and mental strain 
military families are experiencing.

        <bullet> A recent study published by the Journal of Adolescent 
        Health indicates children with a parent or sibling deployed in 
        the military during the last decade of war are more likely than 
        their peers to experience depression and suicidal thoughts, 
        particularly if the servicemember deployed more than once.\11\ 
        The same study also found multiple deployments by a parent or 
        sibling were associated with an increased likelihood of drug 
        and alcohol use.\12\
---------------------------------------------------------------------------
    \11\ Tamika D. Gilreath, et al., ``Well-Being and Suicidal Ideation 
of Secondary School Students From Military Families'', Journal of 
Adolescent Health, November 18, 2013
    \12\ Tamika D. Gilreath, et al., ``Substance Use Among Military-
Connected Youth'', American Journal of Preventative Medicine, January 
8, 2013
---------------------------------------------------------------------------
        <bullet> Another study, Wartime Military Deployment and 
        Increased Pediatric Mental and Behavioral Health Complaints, 
        found an 11 percent increase in outpatient behavioral health 
        visits for military children from the ages of 3-8 during 2006-
        2007. Researchers found an 18 percent increase in pediatric 
        behavioral health visits and a 19 percent increase in stress 
        disorders when a parent was deployed.\13\
---------------------------------------------------------------------------
    \13\ Gregory H. Gorman, Matilda Eide, and Elizabeth Hisle-
Gorman,``Wartime Military Deployment and Increased Pediatric Mental and 
Behavioral Health Complaints'', Pediatrics: The Official Journal of the 
American Academy of Pediatrics, November 8, 2010.
---------------------------------------------------------------------------
        <bullet> Additional research found an increase in mental health 
        care use by spouses during their servicemembers' deployments. A 
        study of TRICARE claims data from 2003-2006 published by the 
        New England Journal of Medicine showed an increase in mental 
        health diagnoses among Army spouses, especially for those whose 
        servicemembers had deployed for more than 1 year.\14\
---------------------------------------------------------------------------
    \14\ Alyssa J. Mansfield, et al., ``Deployment and the Use of 
Mental Health Services among U.S. Army Wives,'' The New England Journal 
of Medicine, January 14, 2010.
---------------------------------------------------------------------------
        <bullet> In the research they conducted for our Association, 
        RAND found military children reported higher anxiety signs and 
        symptoms than their civilian counterparts. Our research also 
        found the mental health of the caregiver directly affects the 
        overall well-being of the children.\15\ Therefore, we need to 
        treat family members as a unit as well as individuals.
---------------------------------------------------------------------------
    \15\ Anita Chandra, et al., RAND Center for Military Health Policy 
Research, Views from the Homefront: The Experiences of Youth and 
Spouses from Military Families, 2011

    The body of research focusing on the increased levels of anxiety 
and utilization of mental health services causes our Association 
concern about the overall shortage of mental health providers in 
TRICARE's direct and purchased care network. While TRICARE contractors 
have expanded their behavioral health provider networks to help meet 
demand, military families in some areas continue to report provider 
shortages, especially for psychiatric care for children and teens. We 
believe one of the consequences of almost 13 years of war is demand for 
mental health services that continues to outstrip supply. More must be 
done to persuade mental health care providers to participate and remain 
in the TRICARE network, even if that means raising reimbursement rates.
    It is also critical that TRICARE keeps provider lists up-to-date. 
We hear from families about the number of times they contact network 
providers using the TRICARE provider list only to find the providers 
cannot meet access standards, are no longer taking TRICARE, or are not 
taking new TRICARE patients. Behavioral health provider lists must be 
up-to-date and robust enough to handle real time demands by military 
families. Inaccurate provider lists present a barrier to accessing 
behavioral health care for military families.
    Families tell us they appreciate the access to non-medical 
counseling through Military OneSource and the Military Family Life 
Counselors (MFLC). DOD implemented these resources to help 
servicemembers and their families access counselors where they work and 
where they live with a certain degree of anonymity. MFLCs have also 
been used effectively in training local educators on techniques to help 
their military students cope with deployment and in supporting National 
Guard and Reserve Yellow Ribbon events. We believe the need for 
behavioral health care will continue to grow over the next several 
years and we encourage DOD to continue to seek innovative solutions to 
providing care for military families.
    It is a moral imperative to provide military servicemembers and 
their families with the help they need after years of enduring repeated 
combat deployments and to meet the challenges of the future.
    Ensure military families' access to the medical and non-medical 
counseling they need to recover from the stress of long years of war.
Access to Health Care for Military Special Needs Families
    Caring for a special needs family member can be difficult and 
draining for any family. However, the impact for military families is 
magnified by the unique challenges associated with military service. 
Frequent geographic relocations are a fact of life for military 
families. A geographic relocation will, by definition, disrupt the 
continuity of care that is so important in managing complex medical 
conditions. After every move, special needs military families must 
begin a lengthy cycle of referrals, authorizations and waitlists at 
each new duty station, resulting in repeated gaps in care. A nationwide 
shortage in pediatric specialists means even when families have 
successfully navigated the authorization and referral process at their 
new location, they may face a delay of weeks or even months before 
treatment can restart. Military families fear these repeated treatment 
delays have a cumulative and permanent negative effect on their special 
needs family members.
    It is frustrating for military parents to know these treatment 
delays could be mitigated if the process for accessing specialty care 
were more flexible and streamlined to address the unique aspects of 
military life. Unfortunately, TRICARE's rigid referral and 
authorization process too often hinders the transition process for 
military families rather than facilitating it. In addition, providers 
often tell us working with TRICARE is overly complex. Many choose not 
to participate in the TRICARE network because it is too difficult to 
navigate and administer. The resulting shortage of TRICARE network 
providers further impedes families' access to specialty care. While the 
fiscal year 2015 budget proposal appears to fix this problem by getting 
rid of referrals and authorizations, it will force these families to 
pay more out of pocket.
    TRICARE should make the process for accessing specialty care more 
flexible and streamlined to address the unique aspects of military life 
without forcing active duty families to pay more out of pocket.
    For special needs military families, frequent relocation presents 
another obstacle: the inability to qualify for services through 
Medicaid waivers. Caring for children with complex medical needs can be 
incredibly expensive. Most families in this situation ultimately 
receive some form of public assistance, typically through State 
Medicaid waivers. State Medicaid programs provide assistance not 
covered by TRICARE: incontinence supplies, respite care, employment 
support, housing, and more flexible medical coverage. Because the 
demand for these services far outstrips the supply, there is a lengthy 
waiting list to receive assistance in most states. For that reason, 
these services are often out of reach for a military family who must 
relocate every 2 to 3 years. Even if a military family places their 
special needs child on a Medicaid waiver waiting list, they must start 
again at the bottom of the waiting list when they move to a new state. 
The Defense State Liaison Office (DSLO) has recognized military 
families' inability to access care through Medicaid waivers as one of 
its high priority issues and is working with State legislatures to 
address this problem. However, little progress has been made in 
resolving this disparity.
    TRICARE's ECHO program was designed in part to address this 
imbalance, by allowing families to access non-medical services not 
covered under TRICARE. According to TRICARE's website, benefits covered 
under ECHO include ``training, rehabilitation, special education, 
assistive technology devices, institutional care in private nonprofit, 
public and State institutions/facilities and, if appropriate, 
transportation to and from such institutions/facilities, home health 
care and respite care for the primary caregiver of the ECHO-registered 
beneficiary.'' However, in practice military families find it difficult 
to obtain services through the program.
    This reality was reflected in TRICARE's May 30, 2013 report, The 
Department of Defense Report to Congress on Participation in the ECHO, 
detailing military families' usage of the ECHO benefit. They reported 
that, in 2012, 99 percent of funds expended through the ECHO program 
were spent on Applied Behavioral Analysis (ABA) therapy and ECHO Home 
Health Care (EHHC). Although these services are important and popular 
with special needs families, it is impossible to see this statistic and 
not wonder why families are not accessing the long list of other 
services ostensibly available to them under ECHO.
    When families do manage to navigate the process of applying for 
benefits through ECHO, they often find that it does not pay for the 
products and services they actually need. For example, many families 
need larger than normal diapers for their disabled children. ECHO deems 
this a convenience item and will not pay for it, although incontinence 
supplies are regularly paid for by state Medicaid programs.
    Another service much in demand by families is respite care. For 
families with special needs children, the time away afforded by respite 
care is vital. Access to quality respite care allows families to run 
errands, spend time with other children, and simply recharge. Studies 
even show that parents of special needs children have healthier 
marriages when they are able to access regular respite care. Thus, 
access to respite care can be seen as an important element in military 
family readiness. Respite care is ostensibly available through the ECHO 
program, but TRICARE policies limit its utility. ECHO sets strict 
requirements for respite care providers, making it difficult for 
families to identify eligible providers. In addition, TRICARE requires 
that families use another service through ECHO in any month that 
respite care is also provided. In its May, 2013 report to Congress, 
TRICARE describes this rule as a ``reasonable demand management tool.''
    Congress has given DOD much more discretion in its coverage of ECHO 
benefits than it has concerning medical benefits provided under the 
Basic Program. Thus, TRICARE has the authority to make changes that 
would enhance the ECHO program's utility to military families. Easing 
the restrictions on respite care, for example, would do much to enhance 
special needs military families' readiness and quality of life.
    Our Association has suggested a DOD pilot study to identify what 
products and services special needs families need to enhance their 
quality of life. We recommend that families in the pilot receive $3,000 
annually above what is provided under ECHO to purchase self-selected 
items not currently covered, such as cooling vests, cranial helmets, 
diapers and nutritional supplements. DOD would be required to authorize 
each type of purchase to verify that it was appropriate. The program 
would be similar to the ``money follows the patient'' model already 
adopted by several state Medicaid programs and would identify gaps in 
coverage while providing a better picture of what military special 
needs families really need.
    TRICARE should enhance the ECHO program's utility to military 
families by ensuring it covers the products and services families need.
    The transition out of the military and into civilian life is 
difficult for many families but especially so for special needs 
families, who immediately lose access to ECHO benefits. Families may 
still face long waits before being eligible for care through Medicaid, 
which leads either to gaps in treatment or financial hardship for a 
family trying to pay for needed care. As more servicemembers and 
families transition out of the military, this problem will become more 
widespread. To ease the hardship for families in this situation, we 
recommend ECHO eligibility be extended for 1 year following separation 
to provide more time for families to obtain services in their 
communities or through employer-sponsored insurance.
    We ask Congress to extend eligibility for the ECHO for 1 year 
following separation to provide more time for families to obtain 
services in their communities or through employer-sponsored insurance.
Additional Support for Special Needs Families
    The main vehicle through which DOD provides support to special 
needs military families is the Exceptional Family Member Program 
(EFMP). The EFMP is intended to perform three interrelated functions: 
identify and enroll eligible family members; coordinate the assignment 
process to ensure special needs families are not sent to locations that 
lack adequate resources; and provide families with information about 
and referral to local resources.
    To be successful, the EFMP requires smooth communication and 
coordination. The offices responsible for assigning families to new 
duty locations must work with installation medical personnel and 
service providers to ensure that families are assigned appropriately. 
EFMP personnel at sending and receiving installations must coordinate 
to make sure that families receive information about programs available 
at the new installation to avoid interruption in services and ensure a 
smooth transition. Too often, however, this communication does not 
occur. In the worst case scenario, families may find themselves 
assigned to locations without appropriate medical or educational 
services for their special needs family member. Other families tell us 
about delays in receiving services at their new installations because 
of a lack of communication between EFMP Coordinators at the old and new 
locations.
    This problem is exacerbated when families move to an installation 
operated by a different Service. Currently communication and 
coordination among the different Services' medical, personnel, and 
family support components is extremely limited. This lack of 
coordination adds to the stress of families who are already coping with 
the difficulty of moving with a special needs family member. Families 
need the reassurance that they will have continuity of care and a warm 
hand-off as they move from installation to installation.
    The Office of Community Support for Military Families with Special 
Needs (OSN) was created in the NDAA for Fiscal Year 2010 to enhance and 
improve DOD support for military families with special needs, whether 
medical or educational. A 2012 GAO report, Better Oversight Needed to 
Improve Services for Children with Special Needs, (GAO-12-680, 
September 10, 2012) noted there are no Department-wide benchmarks to 
set standards for the Services' EFM programs. As a result, DOD has been 
unable to assess the effectiveness of the branches' EFM programs and 
ensure that improvements are made when needed. In addition, although 
OSN was created to enhance and monitor the military branches' support 
for families with special needs, it has no authority to compel the 
branches to comply with DOD or Service-level program requirements and 
it has no direct means by which to hold them accountable if they fail 
to do so. We appreciate that OSN has been working closely with the 
Services' EFMP programs to standardize services and improve 
communications. However, much work remains to be done in this area.
    We ask DOD to improve coordination and communication within and 
among Services' EFMP and to set consistent standards for support of 
special needs military families.
                          financial readiness
    While military families are shown to have better financial literacy 
rates than their civilian counterparts, their military commitments 
often make it difficult to grow their investments over the long 
term.\16\ Frequent moves and deployments can be a barrier to home 
ownership or force families in and out of lease agreements. Spouses 
have reduced earning power, yet many military families are paying on 
one or more student loans. Frequent moves make spouses ineligible for 
public service loan forgiveness programs.
---------------------------------------------------------------------------
    \16\ http://www.usfinancialcapability.org/downloads/NFCS--2012--
Report--Military--Findings.pdf
---------------------------------------------------------------------------
    Some elements of the military compensation package are meant to 
take the sting out of those losses. However, as sequestration continues 
and budgets are cut, military families will face more and more 
disadvantages compared to their civilian counterparts. We ask Congress 
keep in mind the fiscal restraints imposed on military families when 
evaluating changes to the military compensation package.
Support for Spouse Education and Employment
    Every time a permanent change of station (PCS) occurs, a working 
military spouse, or one who would like to be employed, has to start 
from scratch. Lack of longevity in any one location or job position 
negatively affects career trajectory and earning power. Frequent moves 
disrupt educational goals. State licensing requirements and industry 
tenure restrict employment opportunities for military spouses. Military 
spouse unemployment or underemployment affects the total earning power 
of the military family. The First Lady and Dr. Biden initiated Joining 
Forces in 2011 to help address these issues, and we have seen progress, 
but military spouses continue to face significantly lower earnings, 
higher unemployment and underemployment than their civilian 
counterparts.\17\ Syracuse University Institute for Veterans and 
Military Families released a Military Spouse Employment Survey with 
Military Officers Association of America that showed 90 percent of 
active duty spouses responding are underemployed meaning they possess 
more formal education/experience than needed at their current or most 
recent position.\18\ The results are evidence of ongoing career 
barriers that military spouses face during their servicemembers 
commitment.
---------------------------------------------------------------------------
    \17\ Http://vets.syr.edu//reserach-highlights/milspouse-survey
    \18\ Http://vets.syr.edu//reserach-highlights/milspouse-survey
---------------------------------------------------------------------------
    DOD has realized spouse education and employment opportunities are 
linked. DOD provides the Spouse Education & Career Opportunities (SECO) 
program, which oversees the Military Spouse Employment Partnership 
(MSEP) and the My Career Advancement Account (MyCAA) Scholarship. 
Recently, SECO launched the My Individualized Career Plan (MyICP) tool 
to help military spouses build a roadmap specific to their goals and 
plans, educational and professional. These programs are vital to 
bridging the unemployment and wage gap (26 percent and 25 percent, 
respectively) military spouses face as a result of the requirements and 
pressures of military family life. These programs provide financial 
assistance in education and training for portable careers, career 
planning and job search assistance, networking assistance and advocacy 
at no cost to the military spouse.

          We ask Congress to continue funding DOD's Spouse Education & 
        Career Opportunities programs.

    Military spouse preferences and non-competitive hiring authority 
for military spouses have been expanded over the years, but 
implementation is onerous and complex. The process for using these 
options must be simplified for the job seeker and non-discretionary for 
the hiring agency in order to serve the purpose intended; aiding 
military spouses seeking Federal employment. The Office of Personnel 
Management (OPM) is considering revising its rules to make it easier to 
achieve career tenure in the Federal Government by allowing employees 
to earn time toward tenure in aggregate rather than in continuity. We 
are pleased frequent moves are recognized as a barrier to this career 
goal for military spouses, but are concerned more bureaucratic barriers 
will exist that make Federal career employment an impossibility for 
most spouses.
    We ask Congress to make military spouse preferences and hiring 
authorities non-discretionary.
    Since 2004, our Association has been fortunate to sponsor our 
Joanne Holbrook Patton Military Spouse Scholarship Program. Of 
particular interest, of nearly 7,000 applicants from our 2013 
scholarship applicant pool, more than 50 percent were not eligible for 
the MyCAA program because of rank or service ineligibility. We ask 
Congress to better address the educational needs of spouses of all 
servicemembers, including those in the Coast Guard and the Commissioned 
Corps of NOAA and the U.S. Public Health Service.
    We ask Congress to expand outreach and eligibility for MyCAA to 
spouses of all of the Uniformed Services to facilitate better 
utilization and access.
Quality, Affordable Child Care
    Media reports about military compensation often refer to subsidized 
child care as one of many ``benefits'' provided to military families. 
To our Association, this view is a mischaracterization of the role and 
importance of child care to the military and military families. Access 
to quality, affordable child care is not just a ``nice-to-have'' part 
of a benefit package. Rather, it is central to servicemember and family 
readiness.
    More than 40 percent of servicemembers have children, and the 
largest cohort of military children is under age 5.\19\ Servicemembers 
face the same challenges as all working parents. If child care 
arrangements fall through or the babysitter gets sick, a parent may 
find himself forced to miss work. When the parent who must miss work is 
in the military, his or her absence may threaten the readiness of an 
entire unit.
---------------------------------------------------------------------------
    \19\ 2012 Demographics: Profile of the Military Community
---------------------------------------------------------------------------
    Quality child care is also essential to military family financial 
stability. Like most families, many military families rely on having 
two paychecks in order to make ends meet. However, military spouses 
face many barriers to employment, including distance from extended 
family who might otherwise be available to assist with child care. 
Quality, accessible child care is inextricably linked to spouse 
employment and thus to military family financial readiness.
    We appreciate that Congress and DOD have recognized the importance 
of child care to military families and have taken steps to make quality 
child care both more available and more affordable. Thanks to those 
efforts, military families have access to a wide range of child care 
options to meet their needs, from on-installation Child Development 
Centers (CDCs) to in-home care providers.
    While installation CDCs are the preferred option for many families, 
they are not always a viable choice, either because of long waiting 
lists or because the family lives far from the installation. However, 
particularly in high cost areas, quality child care is often 
unaffordable for military families. Recognizing this need, DOD 
established a program to provide fee assistance to families without 
access to on installation child care centers. This program, operated 
through a partnership with Child Care Aware, has proven to be popular 
with families and an effective means of ensuring that families can 
afford quality care. Because this partnership has been so successful, 
we are concerned about the Army's plan to begin managing its fee 
assistance program itself in 2014. We intend to watch closely to ensure 
the transition is seamless and Army families can continue to benefit 
from the fee assistance program.
    Ensure adequate funding for military child care programs, including 
child care fee assistance programs.
                     support for military children
    The military lifestyle includes inevitable challenges for children, 
who must cope with repeated moves and frequent separation from their 
servicemember parent. Parents worry about the effect of these 
disruptions on their children's emotional well-being and academic 
achievement. Ensuring that military children receive a quality 
education as well as emotional support is both a moral imperative for 
our Nation and essential to military family retention and readiness.
Education of Military Children
    The task of educating military-connected children falls largely to 
the Nation's local public schools, where more than three-quarters of 
school-aged military children are enrolled.
    Although most communities welcome military children and families, 
the fact remains that an influx of children connected to a military 
installation presents increased costs to a school district. At the same 
time, the presence of a military installation or other Federal property 
in a school district reduces its tax base and thus its available 
funding level. Most school districts receive the majority of their 
operating funds through local property taxes. Since Federal land--
including military installations--is not subject to local property tax, 
school districts with large numbers of military connected children 
often have few sources of revenue.
    Department of Education (DoEd) Impact Aid was established in 1950 
to address this imbalance and reduce the burden on local communities 
and taxpayers. It recognizes the Federal Government has a 
responsibility to help communities educate children who are only there 
because of their connection to a military installation or other Federal 
activity. federally-impacted school districts rely on these funds to 
meet payroll, operate school buses, and purchase textbooks. All 
children and families in a district--not just military families--
benefit from Impact Aid funding.
    We also note for the third year in a row the administration has 
proposed the elimination of the Impact Aid category covering Federal 
properties. Eliminating this funding would affect more than 50 
military-impacted school districts in 19 States. We thank Congress for 
acting to restore these section 8002 funds last year and ask that you 
do the same this year.
    While we understand this committee does not have jurisdiction over 
this program, we ask you to work with your colleagues to ensure 
appropriate and timely funding of Impact Aid through DoEd and restore 
funds to the Impact Aid Federal properties program as essential to 
meeting the needs of military families.
    We strongly urge Congress to ensure appropriate and timely funding 
of Impact Aid through the Department of Education and restore funds to 
the Impact Aid Federal properties program.
    We appreciate the inclusion of $40 million for DOD Impact Aid in 
the NDAA for Fiscal Year 2014 to support public schools with large 
numbers of military children, as well as $5 million for districts 
educating military children with disabilities. This funding is vitally 
important to help districts provide the military children they serve 
with a high quality education. We also thank Congress for appropriating 
funds to renovate and expand public schools on military installations, 
many of which are overcrowded and in disrepair.
    Continue to authorize Department of Defense Impact Aid for schools 
educating large numbers of military children.
    In 2007, the John Warner National Defense Authorization Act 
established a grant program to directly support public schools 
educating large numbers of military-connected children. These grants, 
which are managed by the Department of Defense Education Activity 
(DODEA), support programs that enhance student achievement in science, 
technology, engineering, and mathematics. Funds have also been directed 
toward programs that support military children as they transition to 
new schools or cope with the stress of a parent's deployment. Grant 
funds have given military children in more than 50 public schools 
greater access to and success in Advanced Placement (AP) courses in 
math, science, and English. Since 2009, this innovative partnership 
program has directly supported 320,000 military students at 1,500 
public schools. We were disappointed funding for this valuable program 
was not included in the NDAA for Fiscal Year 2014 and encourage 
Congress to restore this program in fiscal year 2015.

          Restore funding for the DODEA Grant Program.
Department of Defense Schools
    More than 80,000 military children in grades pre-K through 12 are 
enrolled in schools operated by the DODEA. The agency operates schools 
both at overseas locations and at 15 installations in the United 
States. DODEA is vital in helping to ensure military children can 
receive a quality education regardless of where their parents are 
stationed. Thus, our Association was concerned to see the 
administration's budget proposal included a cut to funding for DODEA. 
How can DODEA absorb these cuts without affecting the classroom 
experience of the military children they serve? We believe strongly the 
education of military children should not be compromised due to budget 
constraints. We ask Congress to restore DODEA funding to ensure 
military children receive the best possible education.
    In late 2013, DOD announced the launch of the CONUS Education 
Options Assessment (CEOA), which will analyze the operations of the 
Domestic Dependent Elementary and Secondary Schools (DDESS) at 
installations in the United States. The purpose of this study is to 
assess education options that effectively balance cost and quality 
considerations. Possible recommendations include maintaining the status 
quo, turning the schools over to local school districts, and 
establishing charter schools, among other options. We welcome the 
opportunity to learn more about DDESS schools and are pleased DOD is 
including the views of parents, students, administrators and local 
public school officials in its study. However, we urge DOD to move 
cautiously before making any changes to its education program. These 
schools have become tightly woven into the fabric of the communities 
they serve. Eliminating them would be complicated and expensive for 
DOD, costly for local communities, and painful for military children 
and their families. Most importantly, closing DDESS schools would 
jeopardize the education of thousands of military children, at least in 
the short term. In some cases, the existing school buildings are not up 
to state standards and would have to be extensively renovated. States 
and localities would have to be compensated for the additional expense 
of educating military children over and above what they receive from 
Impact Aid.

          Restore full funding to Department of Defense Education 
        Activity schools.

                      military families in crisis
    Even though the war in Afghanistan is coming to an end, military 
families continue to live extraordinarily challenging lives. 
Reintegration continues to pose challenges for some. Others are 
concerned they will be impacted by the military drawdown and are 
anxious about their financial futures. Most military families are 
resilient and will successfully address whatever challenges come their 
way. However, some will need help. It is critical that military 
families trust DOD services and programs and feel comfortable turning 
to them in times of need. These programs and services must be staffed 
and resourced adequately so when families reach out for help, they can 
trust it is available. Military families must be assured our Nation 
will support them in times of family or personal crisis.
Suicide
    Earlier this year, the Defense Suicide Prevention Office (DSPO) 
released a report outlining an approach for tracking military family 
member suicides. The report, Suicide and Military Families: A Report on 
the Feasibility of Tracking Deaths by Suicide among Military Family 
Members, was requested by the Senate and House Armed Services 
Committees.
    The National Military Family Association appreciates that DSPO in 
its report has identified a methodology for tracking military family 
member suicides. Anecdotal reports indicate the number of military 
family suicides is growing. We cannot address the problem until we know 
its extent. Identifying a methodology is an important first step in 
accomplishing this goal.
    The National Military Family Association strongly urges Congress to 
fund ongoing tracking of military family member suicides.
Preventing Child Abuse and Neglect, and Domestic Violence
    Research commissioned by our Association \20\ and others during the 
past decade documents the toll of multiple deployments on children and 
families, the difficulties many families face on the servicemember's 
return, and the added strain a servicemember's physical and invisible 
wounds can place on a family. These stressors put military families at 
risk for marital/relationship problems and compromised parenting that 
must be addressed with preventative programs.
---------------------------------------------------------------------------
    \20\ Anita Chandra, et al., RAND Center for Military Health Policy 
Research, Views from the Homefront: The Experiences of Youth and 
Spouses from Military Families, 2011
---------------------------------------------------------------------------
    Current research validates families will experience the effects of 
war long after deployments end. A recent study highlighted parenting 
challenges fathers face following deployment. The study found that 
while deployment is a time of great stress for families, the need for 
support and a strong community continues during the extended period of 
reintegration after the servicemember returns. This need is 
particularly pronounced when the returning servicemember is father to a 
young child, and he faces the core challenge of reconnecting with a 
child who has undergone significant developmental changes while he was 
away.\21\ A 2013 research brief issued by Child Trends, Home Front 
Alert: The Risks Facing Young Children in Military Families,\22\ 
concluded many children negatively impacted by a parent's repeated 
combat deployments will continue to have exceptional needs as they grow 
older.
---------------------------------------------------------------------------
    \21\ Tova B. Walsh, et al., ``Fathering after Military Deployment: 
Parenting Challenges and Goals of Fathers of Young Children,'' Health & 
Social Work: A Journal of the National Association of Social Workers, 
February 2014.
    \22\ ``Home Front Alert: The Risks Facing Young Children in 
Military Families'', Child Trends, July 22, 2013.
---------------------------------------------------------------------------
    As the war winds down in Afghanistan, those looking for budget cuts 
may find it tempting to slash family support, family advocacy, and 
reintegration programs. However, bringing the troops home does not end 
our military's mission or the necessity to support military families. 
Recent media coverage indicates the incidence of child abuse and 
neglect among Army families has increased. We are concerned the 
extraordinary stress military families have faced could lead to 
increased domestic violence as well. Preventative programs focused on 
effective parenting and rebuilding adult relationships are essential. 
The government should ensure military families have the tools to remain 
ready and to support the readiness of their servicemembers.
    We are encouraged that the Family Advocacy Program, a 
congressionally-mandated DOD program designed to prevent and respond to 
child abuse/neglect and domestic abuse in military families, has 
redoubled its focus on prevention programs. Their efforts to repair 
relationships and strengthen family function will be essential.
    We thank Congress for the study included in the National Defense 
Authorization Act for Fiscal Year 2014 that will look at the needs of 
the families of those servicemembers convicted of a crime.
    We encourage Congress and DOD to ensure that Family Advocacy 
programs are funded and resourced appropriately to help families heal 
and aid in the prevention of child and domestic abuse.
Military Sexual Trauma
    Our Association appreciates the legislation included in the NDAA 
for Fiscal Year 2013 concerning Military Sexual Trauma (MST) and the 
further legislation that was passed this year. We believe these changes 
will enhance trust in the system among both victims and their loved 
ones. However, we feel the impact of MST on both the families of 
victims and perpetrators has been overlooked.
    Our research indicates civilian organizations supporting sexual 
assault survivors recognize both the importance of family support for 
the victim and the difficulties family members face following their 
loved one's assault. Some of these civilian resources offer guidance on 
how to help the sexual assault survivor through the recovery process. 
They also provide tips to help family members cope with their own 
emotions, including shock, anger, sadness, anxiety and fear, so they 
are better equipped to help the sexual assault victim. Perpetrators' 
families are not addressed by these resources or any others we could 
find. They could also be invisible victims.
    It appears there are limited resources specific to MST victims' 
families. Although the DOD Safe Helpline website (operated by RAINN - 
Rape, Abuse & Incest National Network), has a section called What to Do 
if You or Someone You Know has been Sexually Assaulted, we feel more 
needs to be done to support family members of MST victims and 
perpetrators.
    We request DOD conduct a needs assessment among family members of 
MST victims to determine the ways in which they are struggling to 
support their servicemembers and deal with their own emotions. Together 
with an environmental scan to determine currently available resources, 
this will provide a foundation for developing a family support 
strategy. Directing MST victims' families to existing civilian 
resources may be part of the solution.
    We encourage those supporting victims of sexual assault to remember 
to share resources and support with the families of the victims and the 
families of the perpetrators.
Survivors
    The Services continue to improve their outreach to surviving 
families. We appreciate the special consideration, sensitivity, and 
outreach to the families whose servicemembers have committed suicide. 
We do have some concerns about the effect Federal civilian employee 
downsizing or hiring freezes will have on programs when certain 
expectations for survivors have been established. DOD and the VA must 
work together to ensure surviving spouses and their children can 
receive the mental health services they need.
    Our Association still believes the benefit change that will provide 
the most significant long-term advantage to the financial security of 
all surviving families would be to end the Dependency and Indemnity 
Compensation (DIC) offset to the Survivor Benefit Plan (SBP). Although 
we know there is a significant price tag associated with this change, 
ending this offset would correct an inequity that has existed for many 
years.
    Eliminate the Dependency and Indemnity Compensation (DIC) offset to 
the Survivor Benefit Plan (SBP) to recognize the length of commitment 
and service of the career servicemember and spouse. We support H.R. 32, 
which provides for that elimination.
    We believe several other adjustments could be made to the Survivor 
Benefit Plan. Allowing payment of the SBP benefits into a Special Needs 
Trust in cases of disabled beneficiaries will preserve their 
eligibility for income based support programs. This cost of this 
adjustment cannot compare to the peace of mind this affords the parents 
of these special needs children.
    Allow payment of the Survivor Benefit Plan annuity into a Special 
Needs Trust to preserve disabled beneficiaries' eligibility for income 
based support programs.
    The 11th Quadrennial Review of Military Compensation released in 
June 2012 recognized the Survivor Benefit Plan (SBP) annuity for 
Reserve component personnel who die while performing inactive duty is 
significantly less than the benefit available to survivors of active 
duty members and Reserve members who die on active duty. Despite their 
inactive status, these reservists are still performing military duties 
at the time of their death. The review report recommends calculating 
SBP benefits for a reservist who dies while performing active duty 
training using the same criteria as for a member who dies while on 
active duty.
    Calculate Survivor Benefit Program annuities for a reservist who 
dies while performing active duty training using the same criteria as 
for a member who dies while on active duty.
Wounded Servicemembers Have Wounded Families
    Our Association asserts that behind every wounded servicemember and 
veteran is a wounded family. It is our belief the government, 
especially DOD and the VA, must take a more inclusive view of military 
and veterans' families. Those who have the responsibility to care for 
the wounded, ill, and injured servicemember must also consider the 
needs of the spouse, children, parents of single servicemembers and 
their siblings, and the caregivers. DOD and VA need to think 
proactively as a team and one system, rather than separately, and 
address problems and implement initiatives upstream while the 
servicemember is still on active duty status.
    Reintegration programs become a key ingredient in the family's 
success. For the past 5 years, we have held our Operation Purple 
Healing Adventures camp to help wounded, ill, and injured 
servicemembers and their families learn to play again as a family. We 
hear from the families who participate that many issues still create 
difficulties for them well into the recovery period. Our Association 
believes everyone must focus on treating the whole family, with DOD and 
VA programs offering skill based training for coping, intervention, 
resiliency, and overcoming adversities. DOD, the VA, and non-
governmental organizations must provide opportunities for the entire 
family and for the couple to reconnect and bond, especially during the 
rehabilitation and recovery phases.
    Ensure better cooperation and accountability between the 
Departments of Defense (DOD) and Veterans Affairs (VA) at the highest 
levels in the support of transitioning wounded, ill, and injured 
servicemembers and caregivers. The lack of a seamless transition 
between agencies still exists and must be corrected.
Caregiver Support
    Servicemembers and their families must be assured that our Nation 
will provide unwavering support to the wounded, ill and injured. This 
support must extend beyond the recovering warrior's medical and 
vocational rehabilitation. It must also include programs and services 
that help military caregivers, typically spouses or parents, 
successfully navigate their new role. The VA acknowledges that: 
``Caregivers provide crucial support in caring for veterans.'' However, 
providing this support often has an enormous personal impact on 
caregivers. The time required can result in lost jobs or lost 
wages.\23\
---------------------------------------------------------------------------
    \23\ U.S. Department of Veterans Affairs web page: http://
www.caregiver.va.gov/support--benefits.asp
---------------------------------------------------------------------------
    Our Association appreciates the strides DOD has made in providing 
monetary compensation to caregivers of catastrophically wounded, ill, 
and injured servicemembers. The Special Compensation for Assistance 
with Activities of Daily Living (SCAADL) helps offset the loss of 
income by a primary caregiver who provides non-medical care, support, 
and assistance to the servicemember. We believe, however, more can be 
done to optimize the program. SCAADL is considered taxable income, 
which diminishes its value to wounded warrior families. Awareness of 
SCAADL is low and families report difficulties in applying for the 
benefit. Consistent with recommendations from the Recovering Warrior 
Task Force, we request a legislative change to exempt SCAADL from 
income taxes, enhance marketing to the eligible population, and add an 
electronic application process to reduce the burden of completing 
SCAADL paperwork.
    Exempt SCAADL from income taxes, enhance marketing to the eligible 
population, and add an electronic application process to reduce the 
burden of completing SCAADL paperwork.
    One of our legislative priorities is to help wounded warrior 
families become whole again, including addressing service-connected 
infertility. Combat injuries involving pelvic, abdominal, or urogenital 
wounds have led to an increase in the number of servicemembers and 
veterans facing infertility. DOD has authorized assisted reproductive 
services, including in-vitro fertilization (IVF), for severely or 
seriously injured active duty servicemembers. Unfortunately, once 
wounded warriors leave active duty, they are no longer covered for IVF 
by TRICARE or the VA, greatly limiting their ability to start or grow 
their families. Considering the sacrifices these wounded warriors and 
their families have made, we believe it is incumbent on our Nation to 
make every effort to restore their reproductive capabilities. We urge 
DOD and the VA to develop a solution to continue IVF coverage for 
veterans and military retirees facing service connected infertility.
    We urge the Departments of Defense (DOD) and Veterans Affairs (VA) 
develop a solution to continue in vitro fertilization (IVF) coverage 
for veterans and military retirees facing service connected 
infertility.
    Thanks to a grant from the Elizabeth Dole Foundation, our 
Association conducted a study with caregivers last year. This resulted 
in a tool developed by military caregivers for military caregivers to 
help them navigate their new role.\24\
---------------------------------------------------------------------------
    \24\ http://www.militaryfamily.org/get-info/caregiver/care-for-the-
caregiver/tips-from-caregivers.html
---------------------------------------------------------------------------
    We believe that DOD and VA must regularly assess the unmet needs of 
caregivers and develop programs to address their evolving requirements. 
These programs not only enable our military caregivers to provide 
essential support to recovering warriors, they also signal a commitment 
to all servicemembers and their families. These assurances allow 
military families to more willingly accept the risks inherent in 
military service resulting in enhanced family readiness.
    Require DOD and the Department of Veterans Affairs (VA) to 
regularly assess the unmet needs of caregivers and develop programs to 
address their evolving requirements.
             military families--maintaining their readiness
    We have made many recommendations in our statement today all in the 
name of supporting the readiness of military families. Recent national 
fiscal challenges have left military families confused and concerned 
about whether the programs, resources, and benefits contributing to 
their strength, resilience, and readiness will remain available to 
support them and be flexible enough to address emerging needs. Our 
Association believes the DODI 1342.22 must be the baseline for military 
family readiness. DOD must provide the level of programs and resources 
to meet this standard. Sequestration weakens its ability to do so.
    Servicemembers and their families have kept trust with America, 
through over 13 years of war, with multiple deployments and 
separations. We ask the Nation to keep the trust with military families 
and not try to balance budget shortfalls from the pockets of those who 
serve.
    Bringing the troops home does not end our military's mission or the 
necessity to support military families, dealing with the long-term 
effects of more than a decade at war. The government should ensure 
military families have the tools to remain ready and to provide for the 
readiness of their servicemembers. Effective support for military 
families must involve a broad network of government agencies, community 
groups, businesses, and concerned citizens.

    Senator Gillibrand. Thank you for your testimony. I think 
it is vital that each of your testimonies is part of this 
debate because you are the voice for so many who have served 
our country, who are still serving our country, and those who 
rely on the support that benefits and wages actually provide 
for these families.
    So I have three questions for all of you to answer in 
whatever measure you prefer.
    The first is, do you support any of the proposals that the 
administration has offered?
    Second, if you don't, do you have any proposals that could 
yield savings that could be used to restore readiness and 
modernization?
    Third, do you believe that we should wait for the MCRMC to 
report next February so we can consider these proposals more 
holistically? Some of you said that in your testimony.
    But those are the three questions.
    Mr. Davis, you can start if you like.
    Mr. Davis. I'm not sure where you'd want me to start with 
as far as what the proposals are for the--
    Senator Gillibrand. Wherever you like.
    Mr. Davis. Okay. We certainly don't have any problem with 
them looking at the merger of the TRICARE as long as it's done 
in an adequate way. We do oppose them shifting the cost of 
TRICARE to the beneficiaries, as Colonel Hayden mentioned in 
his statement.
    Senator Gillibrand. Do you have concern about the fact that 
you have to travel to a hospital or medical services on a base 
for those who are retired? I thought that might be an issue for 
a lot of people.
    Mr. Davis. It is. We have a considerable number that are 
near MTFs, but it is for a lot of our members as well the 
travel that they want to save money. We have come forward with 
some proposals with that. For example, the direct mail, which I 
know is being implemented for the TRICARE for Life, and I know 
it's been talked about for extending that to other beneficiary 
groups as well, and I think that's important.
    I think the main thing is we've painted ourselves into a 
corner with sequestration, and we need to look at how we can 
get around that, not only just with the benefits for enlisted 
people and for the retirees but also just for our national 
security. I think when you see the cuts coming down the road in 
the coming years, we could cut all kinds of benefit programs 
and we still wouldn't have enough, and we'd end up cutting 
significant end strength and weapons programs and other parts 
of the military that would really jeopardize our national 
security.
    Senator Gillibrand. Thank you.
    Colonel Hayden. Senator, if I could, it's an interesting 
question, line of questioning when you take a look at it. I'm 
going to actually try to answer the last question first, 
because it really comes down to piecemeal approaches.
    It appears that the budget proposal this year, especially 
when you're talking about the overall impact on what it would 
be for military members and their families, as well as the 
retiree population, this is like Jello on a wall. We just threw 
as many things as we could, and we've had to do some things, 
we've had to assume some risk, and DOD is basically saying here 
are the areas where we can assume some risk, and we may or may 
not impact recruiting and retention.
    From our perspective, those piecemeal approaches should be 
the last thing that we should be looking at. If you're going to 
look at broader reforms and you have a commission that Congress 
directed to do just that, that's what we should be looking for, 
much broader reforms.
    I'm encouraged that TMC has had an opportunity to meet with 
the members of the commission, as well as with their staffs, 
and we're encouraged that they're looking at it from more of a 
perspective of how do we provide the same level of benefits, or 
even much better benefits, which potentially could be at a 
lower cost. The idea there is that this is the way this should 
be approached. Unfortunately, what we see, and at least from 
MOAA's perspective, that these are really budget-driven 
decisions.
    This overall impact of the E-5, as we have on the chart 
there, it shows it's about $5,000 annually. When you start 
looking at our pay caps of just 2 years, and the proposal is 
actually for pay caps of what would be 6 years, and all of 
those just repeat the same bad behaviors that we did in the 
1990s. When I was in the Service, I was a recruiter in the 
1990s, turn it around, was the chief of personnel policy in the 
Air Force in 2003 to the 2005 time period, with all of the 
drawdown aspects we were doing at the time, these are starting 
to be some of the same repeat bad behavior that I was involved 
with in the 1990s. So we're capping pay, we're cutting back on 
a commissary benefit, and all of this has a direct impact.
    So the first question that you asked, I'd say no. I'd say 
that we have to take a look at this. How can we do this much 
more efficiently? That's what the commission is supposed to be 
doing and provide those holistics, as well as much more 
streamlined.
    We even offered that a single budget authority could be one 
of the ways we look at it just in the health care delivery. 
There are other things that can be done as you look forward and 
going on to provide the benefit structure.
    But these that they've proposed right now is just Jello on 
the wall.
    Senator Gillibrand. Thank you.
    Captain Hanson. Thank you. I'm going to be the one who says 
it. The proposals for TRICARE that DOD is coming up with is 
just slapping a label onto a bottle of wine that already 
exists. There aren't really new proposals. They just want to 
re-identify things, and one of the best examples is the fact 
that they're changing what used to be called ``enrollment 
fees'' to ``participation fees.''
    When a group of the beneficiaries were on a teleconference 
call with DOD leadership, they got confused on what term to 
use. When it was pointed out that they were confusing 
enrollment fees with participation fees with premiums, they 
said, oh, it's all the same.
    Senator Gillibrand. It's about how much money are you going 
to pay, how much money can we get from you.
    Captain Hanson. Right. So the whole purpose of this 
repackaging is to find ways to shift the cost burden from DOD 
onto the backs of the beneficiaries.
    On to the question of travel to hospitals and MTFs, it 
should be remembered that the Guard and the Reserve for the 
most part are outside of the normal TRICARE network. Because of 
this, they have long distances to travel, and they also have 
challenges to get doctors to accept their TRICARE. So, one, 
they have longer distances to probably find someone, a provider 
who accepts it. Two, with a relabeling, you're going to see the 
same confusion occur in the civilian area that occurred when 
CHAMPUS changed to TRICARE, and those two terms are still being 
used interchangeably today. So we may actually drive providers 
out of the system because things get relabeled.
    As to the question on alternatives, I can share with you 
that when the COLA minus 1 percent issue came up, and we thank 
Congress for having fixed that so quickly, the associations got 
together and started considering certain options to find 
offsets to help correct that problem. You managed to do that on 
your own, and I can share with you that we do have some in our 
pocket to discuss with the subcommittee if we have to find 
these offsets in the near future.
    Now, one example that I can share with you that we tend to 
agree with, a big area that can be improved upon within DOD is 
their acquisition programs. Purchasing of weapons systems is 
not the most efficient, and a lot of dollars are being lost in 
how things are occurring, and that money could be used to save 
some of the benefits.
    We are working, as was mentioned, with the MCRMC, and what 
concerns the ROA the most is DOD's white paper that they 
submitted to the MCRMC already. What we found is this white 
paper is a patchwork of utilizing previous studies and throwing 
out a lot of different choices to the MCRMC. Again, these 
aren't well thought through. I describe it as Jello on the 
wall, but it's definitely a patchwork, and this is a concern 
that we have to go through and analyze these things thoroughly.
    If people are going to submit things to the MCRMC, they 
should do the full staff work in advance rather than relying on 
the MCRMC to do the work for them.
    Thank you.
    Senator Gillibrand. Ms. Moakler?
    Ms. Moakler. First off, I agree with the previous panelist 
that we cannot stress how important it is for the MCRMC to 
finish their work. We agree that they have been most open in 
speaking with us. We have had chances to submit testimony, to 
speak with the different commissioners. So they are really 
doing due diligence to try to look at the entire compensation 
picture.
    Military families know that there are budget cuts coming 
down the pike, and they have already experienced them, and 
they've seen the agencies that provide programs and resources 
for them trying to do more with less, with the people in the 
brick and mortar buildings wearing multiple hats. They kind of 
expect that.
    But what they didn't expect was the volley of hits to their 
pocketbook that were the budget proposals, the less-than-ECI 
pay raise, the slowing of the growth of the BAH, the attack on 
the savings from the commissary. The commissary is such an 
important part of life and the source of such savings to really 
help the financial stability of our military families, it is 
something that they rely on.
    Was it 8 years ago that we finally opened it to the Guard 
and Reserve so they could shop there as often as they wanted 
to? So that is a great resource for them, as well.
    I think the most egregious is forcing Active Duty families 
to assume some of their costs for health care. When we were on 
that same phone call with the leadership, it was implied that 
families have a choice whether they want to go to a provider in 
the network or out of the network, as opposed to going to the 
MTF, the military hospital or clinic. As I spoke to in my 
statement, sometimes they don't have a choice.
    Senator Gillibrand. Is that because the military provider 
doesn't exist, or because----
    Ms. Moakler. No, because you may be the family of a 
recruiter. You may be a family of someone doing Reserve 
Officers' Training Corps duty. You may be attached to a Reserve 
unit. We were reminiscing earlier. When my husband was in 
graduate school, that was the first time I had to use treatment 
for my children that was outside the MTF back in the days of 
CHAMPUS, and that was quite a hit to our pocketbook then.
    Senator Gillibrand. That's because your kids weren't 
covered under your husband's----
    Ms. Moakler. No, because we weren't near a military 
hospital.
    Senator Gillibrand. Oh, logistically.
    Ms. Moakler. Logistically, and that's what is going to be 
tough for our families.
    Senator Gillibrand. That's what I'm worried about. If your 
kid is sick, you can't drive 90 minutes to get him antibiotics. 
That is not going to work with your schedule. There is not 
going to be time in the day to do that. I think it's crazy.
    Ms. Moakler. It's not good health care.
    Senator Gillibrand. It's terrible health care.
    Ms. Moakler. It's not good practice, even for our retirees. 
To think that they're going to drive 2 hours just because 
they're going to be able to access the MTF is a fallacy. They 
should have health care close to where they live.
    Senator Gillibrand. Right.
    Ms. Moakler. Plus, we are wondering how they are going to 
address capacity issues, because they're talking about giving 
preference to those folks who are already enrolled in TRICARE 
Prime so that they would be able to stay in the military 
hospital. But one of the beauties of the TRICARE system was 
that it allowed the military hospitals to ebb and flow, for 
them to make sure that there was room in the hospital or in the 
network, before they had to pay, that they would be able to be 
seen.
    Now we don't know what capacity there will be for military 
families as they move from place to place because we have a 
mobile society with our military families, and how are they 
going to know when they move from one station to another 
whether there is going to be room in the military hospital for 
them? So that's a big concern that we have.
    It's just an awful lot for families to take considering the 
sacrifices that they've made over the past few years. I think 
there is some other way that DOD could come up with to make 
these cuts. We don't have any suggestions on our part, but 
we're hoping that they would be able to come up with those.
    Senator Gillibrand. Let me ask you specifically, for all of 
you who have an answer on this. I am very worried. Our last 
hearing we had was on suicide rates, and there has been a 
horrible increase in the number of both Active Duty and veteran 
status personnel who have committed suicide, and family 
members, because of the strains with multiple deployments, 
because of the nature of the deployments, and because of a lot 
of untreated issues like sexual assault in the military.
    My concern is, under these new proposals for health care, 
that we won't have the access that we need for specialists, 
particularly mental health specialists, for family members, or 
for veterans, or for retired, or for Active Duty, and I'd like 
you to speak to that to the extent you know how these proposals 
could impact that access.
    Mr. Davis. One of the things that I could tell you is, and 
this is from not only hearings of the Senate Armed Services 
Committee but also the Senate Veterans Affairs Committee, there 
is a shortage of mental health professionals.
    Senator Gillibrand. Yes.
    Mr. Davis. So we can mandate that we can hire more mental 
health professionals, but literally there may not be enough out 
there to take care of everyone. So that's a major concern that 
we're very concerned about.
    We are concerned about, like I said, with the reduction in 
end strengths, that that can cause a lot of stress on the 
families. That includes the kids and the spouse and the 
servicemember, and this can cause a lot of problems with regard 
to suicide, but also alcoholism and other bad behavior that 
just exacerbates that situation.
    So we're very concerned about it, but we're very concerned 
that there may not be enough mental health counselors out there 
to fill that void.
    Senator Gillibrand. I think you have to be very aware, and 
we heard that from the statements by Senators today, that the 
recommendations of this panel will be taken very seriously, and 
you have to recognize that it could include every single one of 
the administration's recommendations. I think, in order to 
prepare and to actually give them access to the information 
that they need, you must document what the impact of these 
administration proposals are for the MCRMC, because these are 
minor compared to, I think, what the MCRMC will come up with.
    I think while we're resting on this, the MCRMC is going to 
look at everything, it's going to be more holistic, we're very 
hopeful. If we see what the MCRMC's recommendations are and 
it's all of these cuts plus 10 more, we are going to be in a 
very concerned place.
    I think this is an opportunity for you to heighten your 
advocacy, to get more specifics, and I think even begin to 
document not only the suicide rate but the increase in domestic 
violence rate, and the increase in divorce rate. You can show 
the trauma that is going on amongst these retirees, veterans, 
and family members that is not being addressed. When you change 
the access to mental health services and other health care 
services, you're going to continue to degrade the force, 
because ultimately this is about military readiness, and you 
will not have the force you have today if you can't meet their 
medical needs, and that includes their family members. If you 
have increases in divorce rates and domestic violence rates, 
you're not going to have a ready force.
    I really think you need to look into this issue. We've 
never seen suicide rates as high as we've seen in the military 
today. We've never seen family members committing suicide at 
the rate we've seen today. It's because of the pressure we're 
putting on the force.
    I really think, to the extent you can spend a lot of time 
and effort investigating and actually coming up with this is 
the impact of these cuts on every single constituency that you 
represent, it will be very meaningful, because people are 
thinking these are just numbers.
    I can tell you how Washington works. When they look at 
budgets, they think it's just a number, and we know from the 
administration's proposal how much every single one of these 
budget proposals add up to. This one is $400 million, that one 
is $600 million. We know it's a number, and it adds up to $2.1 
billion, and they're going to just see it as a number, and we 
have to change that reality and see it as a consequence to real 
people, real families, men and women that we ask everything 
from and who deserve better from this country. I will request 
your help.
    Does anybody else want to speak to mental health while 
we're still on that topic?
    Captain Hanson. Mental health is a challenge for those that 
are in the Guard and Reserve because, as I mentioned before, 
they're further away from the network, and some of the tele-
counseling programs have been cut back on that were 
experimented with a couple of years ago under demonstration 
projects.
    The suicide rate for the Guard and Reserve is a challenge. 
Oddly enough, what brings it about is employment, or I should 
perhaps say unemployment, relationships because of the stresses 
that you pointed out, and in some ways deployment. Ironically, 
it's not so much having been deployed but not having been 
deployed to where we have young reservists and Guard members 
who are now left out of the cadre of the people who went over 
and fought overseas.
    One thing that I know we support is a mental evaluation 
program done upfront when an individual affiliates. One, it can 
filter out personality disorders, which has been a challenge 
for the Services; and two, create a benchmark so that if 
someone is indeed deployed, you know what their mental state 
was before they went, and then you can measure it again when 
they come back. I think that would help on the mental health 
side to see these changes so you can target those people who 
need to be counseled the most.
    Senator Gillibrand. Certainly, that would be helpful in 
benefits, because for a lot of those who have been sexually 
assaulted or raped in the military, one of the ways some of 
these personnel were retaliated against was giving them a 
mental disability, literally saying we're kicking you out of 
the military because you have now displayed emotional problems, 
which these members of the military did not have coming in, 
that they were created because they were subjected to the worst 
kind of treatment, not only by the assailants but then by their 
command structure that should have protected them but allowed 
retaliation and didn't allow proper reporting and justice to be 
done.
    It's a dual betrayal which is undermining so much of their 
ability to be able to continue to thrive in the military, and 
many have been forced out with, now, emotional or personality 
disorders. I think that would be a very useful thing to be able 
to have a baseline, because it's been a tool, unfortunately, 
used to get rid of members of the military who have been so 
bold to report a sexual assault or a rape.
    Ms. Moakler. Madam Chairwoman, I just want to highlight the 
recent study that DOD provided to Congress that was 
congressionally mandated on the feasibility of tracking 
suicides of family members, and to encourage you to encourage 
DOD to take the next step and start tracking the suicides of 
family members so we can help analyze what's causing it and 
what tools are needed to help stop it.
    Senator Gillibrand. We will try to get that in the next 
NDAA, because it would be very useful.
    The last question I want to talk about is, particularly for 
military families, what are the most useful programs we have 
now for our military families? What are the things that support 
them the most? Do the reintegration programs after military 
deployments meet the needs of our military families? Is there 
sufficient transition assistance? What should be done to 
improve on these programs?
    Ms. Moakler. I think one of the most helpful programs that 
has far-reaching effect on all military families, no matter 
where they live, is Military OneSource. That was an innovative 
program at the beginning of the war to address the needs of 
Guard and Reserve families, geographically dispersed families. 
The website is available for those non-ID-card-holding 
families.
    The counseling session of it was amazing and really helped 
a lot of folks cope with the challenges that they met during 
deployments. So we really appreciate Military OneSource and 
feel that it was money well spent.
    In our testimony we highlighted the fact that the Yellow 
Ribbon program, the folks at the headquarters are working on a 
plan for the future, and they've come up with a plan for the 
future on how to adapt the Yellow Ribbon program to the ebb and 
flow of how we're using the Guard and Reserve and how to adapt 
it. They offer three different ways to reach everyone, whether 
they're drilling, whether they're being deployed, however 
they're being used.
    Senator Gillibrand. I would like to work with you on that 
because I think that's very important.
    Ms. Moakler. Yes, it really is. We are very concerned with 
downsizing and how we are going to help our families 
transition, because they have been used to a very robust set of 
support services, and the challenges that they have aren't 
going to go away just because their servicemember is out of 
uniform.
    Senator Gillibrand. Correct.
    Ms. Moakler. How we can educate them on the services that 
are available in their community, and educate communities on 
meeting the challenges that these families are going to have.
    Senator Gillibrand. I want to thank all of you for your 
testimony.
    Yes, Mr. Hanson?
    Captain Hanson. Thank you, ma'am. One of the things that 
was covered in the ROA written testimony is the fact that 
support for families is one of the Reserve gaps that we found. 
I think Kathy has given a good summary of efforts that are 
occurring to help the Guard and Reserve in family support. But 
the big challenge you have, of course, is the geographic 
dispersement, unlike military Active Duty organizations where 
families are close together.
    I think it's going to take a public-private partnership to 
accomplish building additional programs to help the Guard and 
Reserve in this area because there is still a void there.
    One area I know that the ROA is working on is School Kits, 
as we call it, because when you have Active Duty children going 
on-base to school or just off a base to school, the teachers 
are very familiar with deployments and things like this, but 
you could very much have a Reserve child as an individual 
within a school with the teachers not realizing the type of 
stresses that they face.
    We've been working with the NMFA on developing this kit, 
and we've been trying to get partnership in the private sector 
so that we can beta test this.
    Senator Gillibrand. I'd be delighted to work with you on 
that. I think we should also try to engage the Governors 
Association because, obviously, the Governors are supposed to 
have a responsibility towards National Guard and Reserve. So 
maybe a collaborative effort between Federal Government and 
State government could be beneficial in that.
    Again, thank you all for your testimony. You can submit any 
additional testimony for up to a week. I think it's been very 
important that you're here to be part of this debate. As I 
mentioned, this is going to be a very long debate, and so I 
urge constant advocacy in every State because I think people 
have to see the face and understand the family impacts of these 
types of decisions. If it's just a number, it's very easy to 
cut. If it's families and people and real lives, it is less 
easy to cut.
    Thank you. We are adjourned.
    [Whereupon, at 1:09 p.m., the subcommittee adjourned.]

    [Questions for the record with answers supplied follow:]
          Questions Submitted by Senator Kirsten E. Gillibrand
                            tricare changes
    1. Senator Gillibrand. Dr. Woodson, every year since at least 2006, 
the Department of Defense (DOD) has proposed changes to the TRICARE 
program to shift more of the cost to beneficiaries. Congress has not 
supported these efforts. While we have not yet seen the DOD legislative 
proposal for this year, we understand that it is an effort to 
fundamentally restructure TRICARE. How does this year's proposal differ 
from prior DOD proposals?
    Dr. Woodson. Previous years' proposals were largely proposed 
changes (increases) to the costs borne by participants. The fiscal year 
2015 President's budget proposal is a wholesale renovation of the 
TRICARE program that offers real improvements to participants. This 
proposal would simplify and modernize the existing TRICARE program in 
ways that provide incentives for wellness, decrease overutilization of 
health services, and allow beneficiaries to choose their providers 
whenever they need care. This proposal includes modest increases in 
beneficiary out-of-pocket costs for Active Duty families, retirees and 
their families, and Reserve component members and their families, 
although some families may actually see a decrease. The TRICARE benefit 
would remain one of the most comprehensive benefits in the country, as 
it should be. Servicemembers on Active Duty would have no out-of-pocket 
expense regardless of where care is delivered (Military Treatment 
Facility (MTF), network, or out-of-network) and the highest priority 
for access to MTF care.

    2. Senator Gillibrand. Dr. Woodson, how would this year's proposal 
increase the out-of-pocket cost of healthcare for Active Duty family 
members, military retirees under the age of 65, and military retirees 
using TRICARE for Life (TFL)?
    Dr. Woodson. In the fiscal year 2015 President's budget submission, 
DOD seeks to leverage proven utilization management controls by 
building a shared commitment to health care while offering 
beneficiaries more flexibility and choices. DOD is proposing a 
consolidated TRICARE health plan to replace the TRICARE Prime, 
Standard, and Extra health insurance-like plans. Following are key 
financial elements of the consolidated health plan:

        <bullet> No change for Active Duty--who would maintain priority 
        access to health care without any cost sharing and would still 
        require authorization for civilian care.
        <bullet> Cost shares--will depend on beneficiary category 
        (excluding Active Duty) and care venue and are designed to 
        minimize overutilization of costly care venues, such as 
        emergency departments. Cost shares would be the lowest in MTFs, 
        higher in the network, and highest out of network, which will 
        facilitate the effective use of military clinics and hospitals 
        and thereby improve the efficiency of our fixed facility cost 
        structure.
        <bullet> Participation Fee--for retirees (not medically 
        retired), their families, and survivors of retirees (except 
        survivors of those who died on Active Duty). They would pay an 
        annual participation fee or forfeit coverage for the plan year.
        <bullet> Catastrophic caps--which have not gone up in 10 years 
        would increase slightly but still remain sufficiently low to 
        protect beneficiaries from financial hardship. The 
        participation fee would no longer count towards the cap.
        <bullet> Medically retired members and their families and 
        survivors of those who died on Active Duty would be treated the 
        same as Active Duty family members with no participation and 
        lower cost shares.

    In addition to consolidating TRICARE Prime, Standard, and Extra, 
DOD proposes to:

        <bullet> Increase co-pays for pharmaceuticals (excludes Active 
        Duty servicemembers). While the National Defense Authorization 
        Act (NDAA) for Fiscal Year 2013 included some adjustments to 
        the TRICARE pharmacy co-pay structure and initiated a pilot 
        program requiring the use of mail order to refill maintenance 
        medications for TFL beneficiaries, DOD determined that 
        additional adjustments are necessary to fully incentivize the 
        use of mail order and generic drugs. The proposed pharmacy 
        changes in the fiscal year 2015 budget are phased-in over a 10-
        year period, and prescriptions will continue to be filled at no 
        cost to beneficiaries at MTFs. In addition, the proposal 
        requires that all prescriptions for long-term maintenance 
        medications (e.g., blood pressure, cholesterol) must be filled 
        through the MTFs or the TRICARE mail order pharmacy.
        <bullet> Implement modest annual fees for TFL coverage, but the 
        proposal will grandfather TFL beneficiaries in the program 
        prior to enactment. The TFL enrollment fees will be phased in 
        over a 4-year period and will be based on a percentage of the 
        beneficiary's military gross retired pay up to an annual fee 
        ceiling, with indexing to retiree cost-of-living adjustment 
        after fiscal year 2018. There will be a separate fee ceiling 
        specifically for general/flag officers.

                           record integration
    3. Senator Gillibrand. Secretary Wright, in your written testimony 
you discuss the work being done to integrate DOD and Department of 
Veterans Affairs (VA) Electronic Health Records (EHR) systems. DOD and 
VA previously worked to integrate their two existing systems, and after 
many years and millions of dollars the plans were scrapped and DOD 
announced it would find a way to build its own system. In fact, a 
recent Government Accountability Office (GAO) report stated ``VA and 
DOD have not substantiated their claims that the current approach will 
be less expensive and more timely than the single-system approach.'' 
Every day that we wait for an integrated Electronic Health Record 
(iEHR) system is a day that veterans are held up while trying to 
process their claims. It is unacceptable. Please explain why work to 
establish a joint system fell apart last year and why DOD thinks trying 
to establish and integrate separate systems will work better than 
finding a way to create a single system?
    Ms. Wright. In December 2012, Secretaries Panetta and Shinseki 
directed a joint review of the iEHR program with the goal of 
simplifying and accelerating the achievement of data interoperability 
while reducing the cost and technical risk of what had proven to be a 
complex and expensive joint IT development program.
    In January 2013, the Secretaries of both Departments directed the 
DOD/VA Interagency Program Office (IPO) to execute several near-term 
data interoperability initiatives on an accelerated timeline. The 
accelerators included the creation of a data management service that 
retrieves electronic data from across DOD and VA EHR system data 
repositories for any given patient and shares it between DOD and VA in 
a standardized format. This enables data that was previously shared 
between the two Departments as ``viewable'' only, to be more clinically 
useful to providers in the delivery of care. This has been accomplished 
for seven critical clinical areas--medications, problem lists, 
allergies, laboratory results, vital signs, immunizations, and note 
titles--which represent the vast majority of most patients' clinical 
information. This level of interoperability was achieved without 
replacing the healthcare management software system for either 
Department. The standardized health data is easily exchanged regardless 
of the EHR system used, similar to how two different email systems are 
able to exchange email messages.
    It is important to note that, for the DOD, achieving data 
interoperability is also the path forward to exchanging health 
information with private healthcare providers. Today, 65 percent of all 
servicemember, dependent, and beneficiary healthcare is provided 
outside the military health network through private providers. 
Capturing this health information from patient encounters that are 
performed outside the military health system (MHS) can only be 
accomplished through interoperability standards championed by the 
Department of Health and Human Services (HHS) and being adopted by 
commercial health care providers. The use of open national standards to 
express the content and format of the information, not a single 
healthcare management software system, is the cornerstone of seamless 
exchange of health information.
    Today, DOD and VA are pursuing complimentary but different paths to 
modernize the EHR. On May 21, 2013, Defense Secretary Hagel announced 
the DOD decision to pursue a full and open competition to modernize its 
EHR systems while continuing to ensure interoperability with VA. VA 
will be modernizing their VistA-based platform over the coming years. 
DOD under the DOD Healthcare Management System Modernization (DHMSM) 
Program will be acquiring an industry-based EHR platform with the goal 
to have initial operating capability by the end of calendar year 2016. 
DOD will build upon many of the iEHR and legacy interoperability 
efforts so that when the DHMSM EHR system comes on line it will have 
developed interoperability capabilities to interact with the modernized 
VA EHR system and private healthcare providers. Further, DOD will work 
with IPO and the HHS Office of the National Coordinator to drive the 
adoption of national data standards required for seamless exchange of 
health information through the DHMSM acquisition.

                 defense finance and accounting service
    4. Senator Gillibrand. Mr. Hale, it has come to my attention that 
the Army is considering a proposal to restructure its financial 
enterprise in a way that would impact how the Army uses the Defense 
Finance and Accounting Service (DFAS). This plan could severely impact 
the civilian employees currently working at DFAS sites like the one in 
Rome, NY, who ensure the centralization, professionalism, and 
efficiency of DOD's accounting. I believe DFAS is a logical focal point 
to ensure that DOD has independent accountants developing standardized, 
auditable records. What can you tell me about this plan?
    Mr. Hale. The Army Financial Management Optimization initiative is 
intended to adopt best practices, increased effectiveness and 
efficiencies, reduce redundant capacity, and produce auditable 
financial statements.
    As part of this initiative, the Army will conduct a pilot program 
that will consolidate internal Army Finance Corp activities into a 
single location to gain efficiencies. This pilot will begin October 1st 
of this year. We cannot forecast the results of this pilot program; 
however, the pilot itself will not have an effect on the workload of 
any DFAS location.

    5. Senator Gillibrand. Mr. Hale, what is your vision for DFAS's 
role and functions?
    Mr. Hale. As a service provider, DFAS supports DOD's finance and 
accounting needs. DFAS will meet these needs in the most cost effective 
and efficient means possible while maintaining high standards and 
supporting DOD's audit readiness goals.

    6. Senator Gillibrand. Mr. Hale, I am concerned that I had to hear 
about the impact to my State through back channels. Do I have your 
assurances that you will highlight this with your successor as a 
priority and ask that my office be kept apprised of all future action 
relating to changes in the DFAS mission and force structure?
    Mr. Hale. I will ask my successor to keep you and Congress informed 
of any changes to the DFAS mission or force structure.

                                 autism
    7. Senator Gillibrand. Dr. Woodson, I would like to update you on 
changes to applied behavioral analysis (ABA) coverage since the last 
time you addressed this subcommittee: in 2013 Federal Employees Health 
Benefits Program plans began offering coverage of ABA as a medical 
treatment; there are now 34 States that require insurers to cover ABA 
as medical care; since the roll out of the Affordable Care Act (ACA), 
half of the State exchanges picked up coverage of ABA as a medical 
benefit; dozens of large self-insured companies like Home Depot, United 
Technologies, Capital One, Qualcomm, and American Express provide ABA 
coverage, including services delivered by ABA technicians and assistant 
behavior analysts, for their employees as medical care, yet TRICARE 
does not. I understand that TRICARE offers three different programs 
through Basic, Extended Care health Option (ECHO), and the pilot 
program, yet each program comes with its own set of restrictions on 
coverage. And during last year's hearing you even stated that you would 
prefer ABA to be an educational benefit instead of a medical benefit 
despite a broad recognition of it as a medical benefit. We are now less 
than 4 months away from the end of the pilot program that was 
authorized during the NDAA for Fiscal Year 2013. Please update me on 
the ABA therapy pilot program that was authorized as part of the NDAA 
for Fiscal Year 2013. How many families have made use of the program?
    Dr. Woodson. The ECHO Autism Demonstration ABA tiered service 
delivery model was extended to non-Active Duty family members (NADFM) 
under a 1 year pilot project (these NADFMs include retiree dependents 
and participants in TRICARE Reserve Select (TRS), TRICARE Retired 
Reserve, TRICARE Young Adult, TFL, and the Continued Health Care 
Benefit Program). Any NADFMs who choose not to participate in the ABA 
pilot may still receive ABA under the TRICARE Basic Program. Based on 
contractor feedback (TRICARE purchased-care claims can be submitted up 
to 1 year after the service is provided and, therefore, claims data is 
incomplete and not a reliable indicator of current ABA pilot 
participation), as of March 2014, there were 124 beneficiaries approved 
to receive ABA for Autism Spectrum Disorder (ASD) under the ABA pilot 
and another 177 pending approval.

    8. Senator Gillibrand. Dr. Woodson, do you have data you can share 
on the success of the program?
    Dr. Woodson. Based on contractor feedback (TRICARE purchased-care 
claims can be submitted up to 1 year after the service is provided and, 
therefore, claims data is incomplete and not a reliable indicator of 
current ABA pilot participation), as of March 2014, there were 124 
beneficiaries approved to receive ABA for ASD under the ABA pilot and 
another 177 pending approval.

    9. Senator Gillibrand. Dr. Woodson, I understand that several 
primary barriers to service have been identified as a result of the 
requirements to participate in the pilot program. I have heard from 
families that these barriers were so restrictive that many families 
decided it was not worth it to participate in the program, which has 
contributed to low enrollment. What are those barriers and what are you 
doing to eliminate them?
    Dr. Woodson. Completion of psychometric testing and assessment 
requirements is the biggest barrier. Specifically, obtaining the 
required psychometric testing--Autism Diagnostic Observation Schedule, 
Second Edition (ADOS-2) and/or Vineland Adaptive Behavior Scale II 
(Vineland-II), is primary reason for reported treatment delays.
    TRICARE has been engaging in focus groups with various stakeholders 
regarding the ABA pilot and TRICARE's coverage of ABA for ASD. Included 
in these focus groups have been participants from various 
organizations, families of children with ASD, military providers who 
treat ASD, and ASD advocacy groups. Feedback was provided regarding the 
ABA pilot, to include concerns about the availability of psychometric 
testing.
    Adjustments have already been made to policy regarding the ABA 
pilot in response to feedback from focus groups. For example, 
administration of the ADOS-2 is required only at the beginning of 
enrollment in the ABA pilot, and waiver requests for continued ABA 
beyond 2 years will not require a repeat ADOS-2. Another example of 
feedback from the focus groups was a concern regarding continuity of 
care during transition periods. Subsequently, Active Duty family 
members enrolled in the ECHO Autism Demonstration who transition to 
retiree status will be allowed direct entry into the ABA pilot, and a 
1-year grace period will be granted to meet the ABA pilot's diagnosis, 
referral, and assessment requirements. TRICARE continues to integrate 
feedback from the focus groups to make improvement in the delivery of 
ABA services.

    10. Senator Gillibrand. Dr. Woodson, families report that the 
limited number of available board certified behavior analysts makes 
access to ABA services under the TRICARE basic program difficult. To 
meet the demand for care in the civilian marketplace, ABA services are 
often delivered through a tiered service delivery model that uses 
assistant behavior analysts and ABA technicians who work under the 
supervision of a board certified behavior analyst. This delivery model 
is allowed by insurance carriers under State insurance laws and State 
exchanges, helps deliver treatment economically, and allows for the 
expertise and oversight needed to reach treatment goals. As we have 
seen through the Autism Demonstration, the tiered service delivery 
model has the ability to greatly expand the number of providers that 
deliver ABA services, thereby improving access to care for TRICARE 
beneficiaries. Are there any statutory or regulatory barriers that 
prevent the TRICARE basic program from covering ABA services delivered 
under the tiered service delivery model? Are there any emergency 
regulations that allow you to address this need immediately?
    Dr. Woodson. Yes, ABA has not been shown by reliable evidence to 
meet the requirements of 10 U.S.C. 1079 (a)(13) and 32 C.F.R. section 
199.4(g)(15) to be proven medically or psychologically necessary 
appropriate medical care for ASD. The reliable evidence standard for 
cost-sharing required by 32 C.F.R. section 199.4(g)(15) has not been 
met. An interim coverage determination of June 28, 2013, reaffirmed 
that reliable evidence does not support coverage under the basic 
program, but deferred any change during the 1-year NDAA-2013 ABA pilot, 
which has a statutory end date of July 24, 2014.
    In response to the second question, yes, using DOD's demonstration 
authority in section 1092 of title 10, U.S. Code, DOD will address this 
need by consolidating TRICARE coverage of ABA into a new Autism Care 
Demonstration to improve the quality, efficiency, convenience, and cost 
effectiveness of those autism-related services that do not constitute 
the proven medical care provided under the medical benefit coverage 
requirements that govern the TRICARE basic program. The Autism Care 
Demonstration will offer comprehensive ABA, including the tiered model, 
for all TRICARE eligible beneficiaries with an ASD when diagnosed by an 
appropriate provider.

    11. Senator Gillibrand. Dr. Woodson, the pilot program is set to 
expire on July 24, 2014. Do you have a plan in place to allow for 
continued coverage of ABA therapy for families accessing the pilot?
    Dr. Woodson. Yes, DOD seeks to consolidate TRICARE coverage of ABA 
based on DOD's demonstration authority in section 1092 of title 10, 
U.S. Code.

    12. Senator Gillibrand. Dr. Woodson, have you addressed this with 
the impacted families so that they may plan for coverage after the 
pilot expires?
    Dr. Woodson. Yes, the Defense Health Agency (DHA) has been engaging 
in focus groups with various stakeholders regarding the ABA pilot and 
TRICARE's coverage of ABA for ASD. Included in these focus groups have 
been participants from various organizations, families of children with 
ASD, military providers who treat ASD, and ASD advocacy groups. The DHA 
will proactively educate beneficiaries, providers, and other 
stakeholders about the new Autism Care Demonstration (ACD). To ensure 
continuity of ABA care for all beneficiaries, the ACD will be 
implemented in a phased approach to transition from those coverage 
rules that currently exist under the patchwork of programs to the new 
consolidated ACD, and all contracting actions necessary to start 
services under the ACD are completed. DOD will commence ABA coverage 
under the ACD model by July 25, 2014, the statutory end date of the 
current ABA pilot, with all beneficiaries transitioned from their 
current ABA coverage model to the new consolidated ACD not later than 
December 31, 2014.

    13. Senator Gillibrand. Dr. Woodson, what have you included in your 
budget submission for fiscal year 2015 to improve upon TRICARE's 
coverage of ABA therapy for military dependents?
    Dr. Woodson. Using DOD's demonstration authority in section 1092 of 
title 10, U.S. Code, DOD will consolidate TRICARE coverage of ABA into 
a new ACD to improve the quality, efficiency, convenience, and cost 
effectiveness of those autism-related services that do not constitute 
the medical care provided under the medical benefit coverage 
requirements that govern the TRICARE basic program. An independent 
government cost estimate for this initiative is pending. However, 
reflecting the growth in the number of program users, total government 
costs for Active Duty family member ECHO and Basic ABA program 
participants with ASD diagnoses nearly quadrupled between fiscal year 
2009 and fiscal year 2013 (from $31.0 to $122.8 million) increasing at 
an average annual rate of 41 percent over the period. In addition, non-
Active Duty family members incurred a total of $6.4 million in 
expenditures using the TRICARE basic and ABA pilot programs.

    14. Senator Gillibrand. Dr. Woodson, I would like specifics on how 
many TRICARE beneficiaries have been diagnosed with ASD and other 
disorders requiring ABA treatment. How many are dependents of Active 
Duty service members; how many are dependents of non-Active Duty 
servicemembers, including National Guard, Reserve, and retirees; how 
many are dependents of members of the Coast Guard, National Oceanic and 
Atmospheric Administration, the Public Health Service, and their 
retirees?
    Dr. Woodson. In fiscal year 2013, there were a total of 7,808 
Active Duty family member beneficiaries with an ASD requiring and 
receiving ABA services. Of those beneficiaries, 3,397 were dependents 
of Active Duty Army, 1,733 Navy, 1,656 Air Force, 775 Marine Corps, 192 
Coast Guard, and 55 other. In addition, 634 non-Active Duty family 
members required and received ABA services.

                      basic allowance for housing
    15. Senator Gillibrand. Secretary Wright, DOD has proposed 
increasing out-of-pocket housing costs by approximately 5 percent and 
also the same dollar amount for everyone in a certain rank regardless 
of location over the next several years. The current housing allowance 
is based on rental data and is intended to cover 100 percent of housing 
costs. Can you please explain how you plan to implement this?
    Ms. Wright. The out-of-pocket percentage will be phased in 
beginning in fiscal year 2015; because members will be rate protected 
at their current location, the exact percentage to be taken each year 
during the phase-in is dependent on the actual change in housing costs 
from 1 year to the next. Renter's insurance accounts for about 1 
percent of BAH rates and will be removed in 2015. The proposal allows 
for a growth in BAH rates of 1.5 percent per year, with the difference 
between this and otherwise unconstrained BAH rates to be made up 
through increasing out of pocket. Using a planning factor of 4.2 
percent growth in housing costs per year and removing renter's 
insurance in the first year, we expect to see out-of-pocket housing 
costs growing as follows: 1.6 percent in 2015, 4.1 percent in 2016, and 
5 percent for 2017 and beyond (when also considering the removal of 
renter's insurance, the average impact to the member is expected to be 
2.6 percent/5.1 percent/6 percent). However, the actual out-of-pocket 
percentage could then be modified each year based on other factors such 
as retention.
    In order to ensure members are treated equally regardless of 
whether they are stationed in high-cost or low-cost areas, the out-of-
pocket percentage will be taken from the national average BAH rate for 
each grade. This will determine the dollar amount of reduction to be 
applied to each BAH rate for that grade.

                     sexual assault and harassment
    16. Senator Gillibrand. Secretary Wright, although you discussed an 
increase in reports of sexual assault last year, you did not do a 
prevalence survey, making it impossible to know if reporting rates 
actually went up or down. Why did you not do a prevalence study last 
year and do you plan to do one this year?
    Ms. Wright. Section 481 of title 10, U.S.C. requires DOD to conduct 
a Workplace and Gender Relations Survey (WGRS) so as to solicit 
information on issues relating to gender-based harassment, assault and 
discrimination, and the climate in the Armed Forces for forming 
professional relationships between men and women. The WGRS is conducted 
biennially and is to be conducted for 2014. The WGRS includes 
prevalence rate and fulfills this requirement. DOD understands that 
servicemembers are asked to respond to numerous surveys from internal 
DOD agencies and external organizations on a variety of topics and 
interests, including sensitive topics such as sexual assault. As the 
number of surveys rises, we have seen decreasing response rates across 
all military survey efforts. We feel maintaining a biennial cycle for 
the WGRSs is the best way to protect our members from survey fatigue 
and produce the most accurate data on this topic to DOD, Congress, and 
the public.

    17. Senator Gillibrand. Secretary Wright, are you making any 
changes to how the study will be implemented?
    Ms. Wright. Yes, we are. The fiscal year 2014 WGRS was contracted 
with RAND Corporation, a federally-funded research and development 
center (FFRDC) to independently design, administer, and analyze.
    In addition to reporting prevalence of sexual assault and 
associated risk factors (e.g., sexual harassment, alcohol use, etc.), 
RAND will also conduct a critical review of the DOD's survey 
methodology, implement improvements for the 2014 WGRS to increase 
response rates and reduce non-response bias, and recommend additional 
improvements for future WGRS administrations by DOD.
    With respect to development of the survey questions and 
definitions, RAND intends to consult with an advisory panel of 
nationally-recognized experts in survey methodology, assessment of 
sexual assault and harassment, military law, and related topics. The 
panel will review and modify, as necessary, the sexual assault and 
harassment survey questions to ensure consistency with the offense 
definitions in Articles 120, 125, and 80 of the Uniform Code of 
Military Justice (UCMJ).
    RAND's methodological design will include:

        <bullet> A Larger Sample. RAND will invite 100 percent of 
        Active Duty female servicemembers and 25 percent of Active Duty 
        male servicemembers to take the survey. This approach will 
        produce a sample of about 500,000 Active Duty servicemembers--
        or one-third of the Active Force. In order to support the 
        requirements of the report to the President due later on this 
        year, a sample of Reserve component members will also be 
        included. This approach will maximize our ability to examine 
        the impact of these behaviors on subgroups in the military 
        sample. Given the census of women and the large sample of men, 
        weighting of results is not planned.
        <bullet> Comparability of Results to Prior Survey 
        Administrations. RAND will administer the unwanted sexual 
        contact and sexual harassment survey questions from the 2012 
        WGRS to a subsample of survey respondents. This will allow them 
        to assess the effects of survey question wording on assessed 
        prevalence rates, and will clarify how the new survey relates 
        to earlier time trend data.
        <bullet> Methods to increase response rates. Finally, RAND will 
        make recommendations to improve response rates to this and 
        other DOD surveys.

    DOD considers the comparability of previous Defense Manpower Data 
Center surveys with the results of the 2014 WGRS of utmost importance. 
RAND has also been asked to evaluate and validate DOD's current survey 
methodology to identify areas of improvement, if any, for future DOD-
administered surveys.

    18. Senator Gillibrand. Secretary Wright, you also mentioned in 
your testimony that the increase in the number of reports suggests an 
increase in confidence in response systems. Last year the DOD Inspector 
General (IG) evaluated the handling of 501 sexual assault cases by 
Military Criminal Investigative Organizations (MCIO) and found that 56 
had significant deficiencies. Of the 56 cases, the MCIOs reopened 31 
cases for additional investigative work but determined that for the 
remaining 25 cases additional investigative activity was not 
practicable due to the amount of time elapsed or based on their 
judgment that additional efforts would be useless. What measures has 
DOD put in place to ensure the accuracy of these investigations and the 
proper investigation of all sexual assault cases by MCIOs?
    Ms. Wright. In July 2011, the OIG DOD established the Violent Crime 
Division (VCD) as a means of anticipating and meeting DOD's current and 
future needs for oversight of sexual assaults and other crimes of 
violence. The VCD completed the evaluation you mentioned and they 
continue to provide oversight for these reopened investigations as they 
are completed to ensure the deficiencies have been resolved to the 
maximum extent possible.
    The VCD continues to work closely with the MCIOs to oversee their 
closed sexual assault investigations by providing a program of regular 
and recurring oversight in order to monitor and evaluate investigative 
quality and conformance with policy guidance.
    In response to Secretary Hagel's August 2013 request to ensure 
investigative quality, the OIG DOD will evaluate the adequacy of 
``closed sexual assault investigations on a recurring basis.'' As such, 
the OIG DOD recently announced the second recurring review of MCIO 
sexual assault investigations with adult victims. The case reviews 
began in April 2014 and the project will consider a statistically valid 
sample of over 500 investigations closed in 2013, for cases opened 
since January 1, 2012. The objective of this project is to determine 
whether MCIOs completed each investigation as required by guiding DOD, 
Military Service, and MCIO policies and procedures.
    It is the responsibility of the OIG DOD to issue criminal 
investigative oversight policy. As such, in January 2013, the OIG DOD 
published DOD Instruction 5505.18, ``Investigation of Adult Sexual 
Assault in the Department of Defense,'' which establishes policy, 
assigns responsibilities, and provides procedures for the investigation 
of adult sexual assault within the DOD. This policy made the MCIOs 
solely responsible for thoroughly investigating all sexual assault 
allegations of which they become aware, irrespective of severity or 
credibility. It also established minimum training requirements for all 
MCIO personnel engaged in the conduct of sexual assault investigations.
    In February 2014, the OIG DOD published a Directive-Type Memorandum 
setting forth department-level policy for the establishment of the 
investigative portion of the Special Victim Capability (SVC) required 
in the NDAA for Fiscal Year 2013, which mandates a distinct, 
recognizable group of appropriately trained investigators to 
investigate allegations of all designated SVC covered offenses. SVC 
covered offenses include: allegations of adult sexual assault offenses, 
domestic violence involving sexual assault and/or aggravated assault 
with grievous bodily harm, and child abuse involving sexual assault 
and/or grievous bodily harm.

    19. Senator Gillibrand. Secretary Wright, the evaluation also found 
that there were differences between the MCIOs' policies and gaps in all 
of their work. What is DOD doing to ensure that the MCIOs use best 
practices in investigating cases of sexual assault?
    Ms. Wright. The OIG DOD is conducting a comprehensive review of 
current MCIO sexual assault investigation policies, including their 
alignment with DOD and Service requirements relative to sexual assault 
investigations. The evaluation compares the MCIOs' policies against:

    (1)  DOD and Military Service level guidance,
    (2)  each set of MCIO policies to identify gaps between them and to 
identify MCIO best practices not yet shared,
    (3)  industry best practices, and
    (4)  the Council of Inspectors General on Integrity and Efficiency 
(CIGIE) Quality Standards for Investigation (QSI).

    While CIGIE QSI and law enforcement best practices are not mandated 
by DOD, OIG DOD's research identified some of them as useful for 
consideration in DOD's sexual assault investigations. The OIG DOD is 
also evaluating whether the MCIOs' sexual assault investigation 
policies include procedures equivalent to the relevant CIGIE QSIs and 
law enforcement industry sexual assault investigative best practices. 
The results of this review will not only inform the MCIOs, but be used 
by OIG DOD to assess the need for additional DOD level, overarching 
sexual assault investigative policy.

    20. Senator Gillibrand. Secretary Wright, I understand that there 
is good research being done on how to identify predators. Is DOD 
looking at ways to identify predators before they enter the military?
    Ms. Wright. DOD has been consulting with researchers on this topic 
for a number of years. Research in the civilian sector has consistently 
shown that there is no psychological test or psychometrically sound 
screening tool that reliably and accurately differentiates individuals 
who have committed sexual crimes from those that have never committed 
sexual crimes. In addition, there is no scientifically sound research 
that can predict to a quantifiable degree of certainty whether someone 
will commit a sexual crime, if there is no prior, documented sex crime 
conviction. Prototype screening instruments developed in the civilian 
sector demonstrate unacceptably high rates of false positives 
(identifying people as potential offenders when they're not) and false 
negatives (identifying people as non-offenders when they actually are). 
Nevertheless, given the data we've collected since the inception of the 
Sexual Assault Prevention and Response (SAPR) Program, we will continue 
to investigate whether military sexual offenders have behavioral and/or 
history factors that might be used to improve screening efforts.

    21. Senator Gillibrand. Secretary Wright, I understand that you are 
working on a congressionally-mandated report on a comprehensive 
approach to dealing with sexual harassment that was due earlier this 
year, but it is part of a broader program of implementing equal 
opportunity efforts that is not yet complete. When can we expect to see 
the report?
    Ms. Wright. NDAA for Fiscal Year 2013 required a plan to collect 
data and information from the Military Services on substantiated 
incidents of sexual harassment. We submitted the plan in August 2013. 
This month, we will submit to Congress the DOD Report on Substantiated 
Incidents of Sexual Harassment in the Armed Forces, resulting from the 
data collection plan. This initial report will serve as a baseline for 
future sexual harassment data and information collection and reporting, 
as we continually work toward zero incidents of sexual harassment in 
the DOD workplace.
    NDAA for Fiscal Year 2013 also required a comprehensive policy on 
reporting, preventing, and responding to incidents of sexual 
harassment. We are coordinating a directive-type memorandum, with 
interim sexual harassment policy guidance to the Services and expect it 
to be issued in early summer. Meanwhile, our revised DOD Military Equal 
Opportunity (MEO) Instruction, which details sexual harassment policy 
guidance, has been updated and is in coordination. We expect to publish 
the DOD MEO Instruction this year.

    22. Senator Gillibrand. Secretary Wright, I understand that 
currently sexual harassment fits under the Office of Equal Employment 
Opportunity and Diversity. Do you think that this is the most effective 
place for it?
    Ms. Wright. I do think the current alignment under our Office of 
Diversity Management and Equal Opportunity (ODMEO) is most effective.
    Relevant laws define sexual harassment as a form of sex 
discrimination for DOD civilians and military personnel. Therefore DOD 
centralizes policy oversight responsibility for sexual harassment in 
the same functional area as is housed discrimination based on other 
protected categories defined in law and policy.
    To move sexual harassment policy oversight to another office that 
currently does not have policy oversight for other types of unlawful 
discrimination would create management challenges that could detract 
from our current prevention efforts. Under such a construct, DOD would 
have to maintain at least two separate offices both performing the same 
task of policy oversight for programs to prevent unlawful 
discrimination.
    As we continue to work to eliminate sexual harassment in DOD, we 
are reviewing the roles, responsibilities, and resources of ODMEO in 
its sexual harassment policy oversight function.

    23. Senator Gillibrand. Secretary Wright, I recently held a hearing 
about the links between sexual assault, post-traumatic stress disorder 
(PTSD), and suicide in which it was clear that sexual harassment can 
also lead to PTSD and other mental health injuries. At the same time, I 
understand that predators often start with harassing behavior before 
attempting assaults. How can we address it properly if it is not seen 
as part and parcel of our approach to addressing sexual assault? Where 
and how should we draw the lines?
    Ms. Wright. DOD believes that we cannot effectively address sexual 
assault without considering the impacts of harassing behaviors and 
other risk factors defined by DOD as the continuum of harm. The newly 
revised 2014-2016 DOD Sexual Assault Prevention Strategy defines and 
explains the relationship between harassing behaviors and sexual 
assaults.
    Currently, the DOD organizational framework and the Military 
Services, with the exception of the Army, handle sexual assault and 
sexual harassment under separate programs. However, every Service 
acknowledges the continuum of harm in their prevention training and has 
taken steps to eliminate the environments that support these 
inappropriate behaviors.
    Leaders are responsible for creating climates of mutual respect and 
diginity. To help leaders better understand the factors at play within 
their units, DOD updated the SAPR questions on the DEOMI Equal 
Opportunity Climate Survey to assist commanders in identifying damaging 
attitudes and behaviors within their units. Conducting a climate 
assessment enhances a leader's knowledge about the specific needs of 
his or her unit or organization. Commanders must then use this unit-
specific information to develop their approach to eliminate sexual 
violence from their ranks. To this end, leaders must employ targeted 
interventions, standards, and messaging to address issues unique to 
their unit climate.
    The 2013 DOD SAPR Strategic Plan tasks the Sexual Assault 
Prevention and Response Office (SAPRO), in conjunction with DEOMI, with 
``assessing the extent to which the continuum of harm is or should be 
addressed in SAPR policy.'' Also, the 2014-2016 DOD Sexual Assault 
Prevention Strategy tasks SAPRO to evaluate prevention focus on the 
continuum of harm. This recognizes the connection between preventing 
sexual assault in terms of the continuum of harm such as sexist jokes, 
bullying, sexual harassment, hazing, excessive drinking, and stalking. 
The assessment will provide additional insight on DOD's approach to 
preventing sexual assaults.

    24. Senator Gillibrand. Secretary Woodson, two survivors of 
military sexual assault recently testified that they were diagnosed 
with PTSD as a result of their military sexual trauma, and that their 
medical treatment involved overmedication. We have also heard from many 
of our wounded warriors that they were overmedicated as part of their 
medical treatment. Do you believe that military doctors overuse 
medication in the treatment of PTSD, other mental health conditions, 
and for pain management?
    Dr. Woodson. There is little evidence to suggest that 
overmedication of the population of servicemembers is an ongoing 
problem. Our most recent analysis, in February 2014, of medications 
used for PTSD and other mental health conditions was very reassuring. 
The analysis suggests that less than 5 percent of servicemembers take 
antidepressants, less than 1 percent take anti-anxiety medication, and 
less than 0.5 percent take antipsychotic medication.
    Further, DOD has multiple programs and risk mitigation strategies 
in place to safeguard the therapeutic use of medication in the 
treatment of PTSD, other mental health conditions, and for pain 
management.
    The culmination of more than 10 years of war and advanced medical 
practices and medical evacuation has resulted in unprecedented combat 
injury survival rates. However, these factors have also contributed to 
significant emotional and physical challenges for many combat injured 
warfighters. Unfortunately, many of psychological and physical wounds 
of war are chronic conditions whose long-term treatment often requires 
both complicated pharmacotherapy and other supportive care. Scientific 
evidence that has accrued over the past several decades shows that 
appropriately selected and timed medications, or combinations of 
medications, can limit the severity and duration of mental illness, 
while medication to treat chronic physical conditions (e.g. chronic 
pain) is essential to the physical and emotional rigors of 
rehabilitation.
    DOD has undertaken several actions to mitigate the risk of adverse 
outcomes related to the prescribing of pharmaceuticals which include:

        <bullet> The DOD Pharmacy Operations Division (POD) uses the 
        Pharmacy Data Transaction Service (PDTS), an online centralized 
        prescription data repository that automatically checks new 
        prescriptions against the patient's computerized medication 
        history for possible adverse events or therapeutic duplications 
        before the new drug is dispensed. In addition, prescriptions 
        filled at retail, mail order, and MTFs are also screened 
        against theater prescriptions. PDTS provides a single, 
        comprehensive patient drug profile for DOD beneficiaries and it 
        permits DOD to monitor and conduct surveillance for drug usage 
        patterns of concern. PDTS has helped to avoid more than 171,000 
        potentially life-threatening drug interactions ensuring our 
        patients receive medication that is safe and medically 
        indicated.
        <bullet> When a suspicion of patient drug-seeking behavior is a 
        concern, the Sole Provider Program is available to providers in 
        all Services. This program requires periodic reviews of all 
        prescriptions for controlled substances, and seeks to identify 
        suspicious patterns of drug use. Should patterns of drug use be 
        validated or remain of concern, the issuance of prescriptions 
        can be assigned to a single provider.
        <bullet> Prescribing safeguards include guidelines in clinics 
        that limit the number of pills dispensed to potentially high-
        risk patients, warning flags that appear in electronic drug 
        dispensing menus which require physician attention, and the MTF 
        prescription restriction program. We have also increased our 
        reviews of the circumstances of manual overrides of system 
        warning flags by physicians.
        <bullet> Pharmacists throughout the MHS provide consumers with 
        a medication information sheet on each new and renewed 
        prescription. DOD evaluates for drug-drug interactions on every 
        prescription filled at mail order, a retail pharmacy or MTF, 
        ensuring our patients receive safe medications. Additionally, 
        the Provider and Prescription Program is an integrated program 
        between medical and pharmacy which focuses on utilization 
        management of narcotics. Pharmacy identifies high utilizers of 
        narcotics and refers these beneficiaries to their primary care 
        medical provider or MTF. The medical contractor or MTF reviews 
        the profiles to determine if the beneficiary has a medical 
        condition that supports increase use of narcotics and offers 
        the appropriate case management or pain management options. A 
        PDTS warning flag was recently added to advise MTF providers 
        and pharmacies of restricted patients.

    The misuse or abuse of prescription drugs is not consistent with 
military service and may be indicative of psychiatric conditions that 
require treatment. In order to identify personnel engaged in such 
activities all servicemembers are subject to random drug testing for 
both licit and illicit substances. Presence of drug metabolites in 
urine in the absence of a bona fide prescription or other evidence of 
therapeutic use (e.g. anesthesia) is grounds for punitive legal action. 
These actions involve due process for the servicemember and nearly 
always occur while treatment avenues are pursued. Additional measures 
are in place to mitigate risks that may be associated with abuse of 
prescribed medications:

        <bullet> In November 2010, the Chairman of the Joint Chiefs of 
        Staff sent a memorandum to the Under Secretary of Defense for 
        Personnel and Readiness (USD(P&R)) describing the new drug 
        threat to military personnel from prescription drug misuse and 
        abuse. USD(P&R) concurred and moved forward with an initiative 
        to add prescription drug monitoring to the panel of testable 
        drugs within the Military Personnel Drug Abuse Testing Program.
        <bullet> Drug testing has been expanded to identify nearly all 
        prescription opiates and benzodiazepines. This is the single 
        most important effort DOD has made in demand reduction for 
        potentially dangerous medications.

    In addition to risk mitigation measures associated with 
prescription medication, DOD promulgates evidence-based care guidelines 
for pain management and mental health care. For example, the DOD-VA 
Clinical Practice Guideline, ``Management of Opioid Therapy for Chronic 
Pain'' (2010) describes the critical decision points in the management 
of opioid therapy for chronic pain and provides clear and comprehensive 
evidence-based recommendations incorporating current information and 
practices for practitioners throughout the DOD and VA Health Care 
systems (http://www.healthquality.va.gov/cot/). As psychotherapy is the 
preferred first-line method of providing mental health care, numerous 
working groups and Defense Centers of Excellence within DOD have been 
advancing provider training and research of proven psychotherapeutic 
techniques.
    There are several ongoing research studies addressing polypharmacy 
in the MHS. The 2013 Joint Forces Pharmacy Seminar (JFPS), Journal of 
the American Pharmacists Association, japha.org SEP/OCT 2013 <flat> 
53:5, includes 18 studies that specifically address different aspects 
of polypharmacy in the MHS including improving the ability to monitor 
polypharmacy. Research findings are actively translated into 
recommendations for clinicians, including the use of effective 
medication assisted therapies. DOD-VA scientific and clinical working 
groups have revised and created Clinical Practice Guidelines (CPGs) for 
several psychiatric illnesses, including Major Depressive Disorder, 
Substance Use Disorders, and PTSD. The Assistant Secretary of Defense 
for Health Affairs (ASD(HA)) has published specific policy guidance 
addressing the safe practice of using medications during psychiatric 
treatment, provider training recommendations, and specific provider 
documentation and patient informed consent when prescribing 
psychotropic medication (Clinical Policy Guidance for Assessment and 
Treatment of PTSD, published August 2012); and policy guidance 
pertaining to the prescription of antipsychotic medication (Guidance 
for Providers Prescribing Atypical Antipsychotic Medication, http://
www.health.mil/libraries/HA--Policies--and--Guidelines/12-003.pdf)

    25. Senator Gillibrand. Secretary Woodson, what has DOD done to 
determine whether military doctors are prescribing too many drugs to 
treat these conditions?
    Dr. Woodson. DOD has undertaken several actions to mitigate the 
risk of adverse outcomes related to the prescribing of pharmaceuticals:

        <bullet> The PDTS, an online centralized prescription data 
        repository that automatically checks new prescriptions against 
        the patient's computerized medication history for possible 
        adverse events or therapeutic duplications before the new drug 
        is dispensed. In addition, prescriptions filled at retail, mail 
        order, and MTFs are also screened against theater 
        prescriptions. PDTS provides a single, comprehensive patient 
        drug profile for DOD beneficiaries and it permits DOD to 
        monitor and conduct surveillance for drug usage patterns of 
        concern. PDTS has helped to avoid more than 171,000 potentially 
        life-threatening drug interactions ensuring our patients 
        receive medication that is safe and medically indicated.
        <bullet> When a suspicion of patient drug-seeking behavior is a 
        concern, the Sole Provider Program is available to providers in 
        all Services. This program requires periodic reviews of all 
        prescriptions for controlled substances, and seeks to identify 
        suspicious patterns of drug use. Should patterns of drug use be 
        validated or remain of concern, the issuance of prescriptions 
        can be assigned to a single provider.
        <bullet> Prescribing safeguards include guidelines in clinics 
        that limit the number of pills dispensed to potentially high-
        risk patients, warning flags that appear in electronic drug 
        dispensing menus which require physician attention, and the MTF 
        prescription restriction program. We have also increased our 
        reviews of the circumstances of manual overrides of system 
        warning flags by physicians.
        <bullet> Pharmacists throughout the MHS provide consumers with 
        a medication information sheet on each new and renewed 
        prescription. DOD evaluates for drug-drug interactions on every 
        prescription filled at mail order, a retail pharmacy or MTF, 
        ensuring our patients receive safe medications. Additionally, 
        the Provider and Prescription Program is an integrated program 
        between medical and pharmacy which focuses on utilization 
        management of narcotics. Pharmacy identifies high utilizers of 
        narcotics and refers these beneficiaries to their primary care 
        medical provider or MTF. The medical contractor or MTF reviews 
        the profiles to determine if the beneficiary has a medical 
        condition that supports increased use of narcotics and offers 
        the appropriate case management or pain management options. A 
        PDTS warning flag was recently added to advise MTF providers 
        and pharmacies of restricted patients.
        <bullet> Peer review, part of our credentials verification and 
        privileging process for individual providers in the MHS direct 
        care system contains safeguards to ensure that individual 
        prescribing practices meet the standard of care for safe and 
        effective medical care the routine clinical quality monitoring 
        performed by a peer in the same profession and clinical area of 
        expertise as the provider under review.

    26. Senator Gillibrand. Secretary Wright, in December, the 
President instructed the Secretary of Defense and the Chairman of the 
Joint Chiefs ``to continue their efforts to make substantial 
improvements with respect to SAPR, including to the military justice 
system'' and to ``report back to [him] with a full-scale review of 
their progress by December 1, 2014.'' The President said that he would 
consider additional reforms if he didn't see sufficient progress. Have 
you been involved in developing plans to comply with the President's 
direction?
    Ms. Wright. Yes, I have been involved in the planning, and my SAPRO 
has been working with representatives from the Army, Air Force, Marine 
Corps, Navy, and National Guard to draft a report in accordance with 
the President's request. This report will focus on key initiatives on 
SAPR from December 2011 to September 2014, and will illustrate DOD's 
comprehensive approach to strategy, policy, and programmatic 
enhancements. Specifically, the report will contain quantitative and 
qualitative measures on both prevention and response efforts, to 
include results from surveys on command climate, workplace and gender 
relations, and survivor experience, as well as feedback from Service 
and National Guard focus groups across rank and gender at CONUS 
installations. This report is scheduled for delivery to the President 
by December 2014 and will offer examples of best practices, provide a 
review of the military justice system, and identify if other reforms 
are necessary.

    27. Senator Gillibrand. Secretary Wright, how does DOD propose to 
measure progress and evaluate success in preventing and responding to 
sexual assault in the military?
    Ms. Wright. The aim of DOD is to reduce, with the ultimate goal to 
eliminate, the crime of sexual assault from the Armed Forces. DOD is 
committed to preventing sexual assault in the military, and, if these 
crimes do occur, to providing victims the care and support they need to 
seek justice and heal from these traumatic events. Our biggest 
challenge in eliminating sexual assault from the Armed Forces is the 
underreporting of the crime. This affects our ability to provide care 
to the victim, as well as hinders our ability to prosecute the 
offender.
    DOD's objective is to establish the conditions within the military 
which lower sexual assault prevalence and increase reporting. DOD's 
goal is to reduce sexual assault prevalence while increasing the 
percentage of victims who report. DOD SAPRO identified two key 
overarching measures of effectiveness to assess the success of the SAPR 
program:

        <bullet> Reduction in sexual assault prevalence as estimated in 
        DOD-wide surveys (Defense Manpower Data Center Workplace and 
        Gender Relations Surveys).
        <bullet> Closing the gap between prevalence estimates and 
        servicemember victims who report sexual assaults to 
        authorities.

    DOD developed an initial set of metrics to assess the effectiveness 
of our programs in prevention, investigation, accountability, and 
victim assistance. The metrics include analysis of data trends and data 
snapshots. We will continue to refine and develop additional metrics in 
the future and report them transparently.
Trends
        <bullet> Metric 1--Reports of Sexual Assault
        <bullet> Metric 2--Military Victim Reports Per 1,000 
        Servicemembers
        <bullet> Metric 3--Percentage of Sexual Assault Reports for 
        Incidents Occurring Prior To Service
        <bullet> Metric 4--Voluntary Conversions from Restricted to 
        Unrestricted Reports
Snapshots
        <bullet> Metric 5--Investigation Length
        <bullet> Metric 6--Full Time SAPR Personnel Certification

    Fiscal year 2013 data shows a 50 percent increase in victim reports 
of sexual assault when compared to fiscal year 2012. Historically, 
reports of sexual assault have increased about 5 percent per year since 
2006. We assess this unprecedented increase in reports as consistent 
with a growing level of confidence in our response system. This is 
supported by an additional metric--there are growing numbers of reports 
made by victims about incidents that took place prior to joining the 
military. These metrics provide indications that the wide range of SAPR 
initiatives are having a positive impact throughout the force, as more 
victims are reporting and accessing SAPR support.

    28. Senator Gillibrand. Secretary Woodson, in January 2013, GAO 
issued a report in which they found that ``military health care 
providers do not have a consistent understanding of their 
responsibilities in caring for sexual assault victims who make 
restricted reports of sexual assault. These inconsistencies can put 
DOD's restricted reporting option at risk, undermine DOD's efforts to 
address sexual assault issues, and erode servicemembers' confidence. As 
a consequence, sexual assault victims who want to keep their case 
confidential may be reluctant to seek medical care.'' What is DOD doing 
to ensure that health care providers understand their responsibilities 
to protect the confidentiality of victims who file a restricted report 
of sexual assault?
    Dr. Woodson. DOD released, DODI 6495.02 ``SAPR Program Procedures'' 
on March 28, 2013. Enclosures 7, 8 and 10 outline a comprehensive, 
standardized policy for compassionate medical response to survivors of 
sexual assault, including a requirement that healthcare personnel 
receive appropriate training. This policy includes guidance for both 
restricted and unrestricted reporting and treating all sexual assault 
victims as priority emergencies.
    The ASD(HA) issued a memorandum to the Services on April 15, 2013, 
to notify the Services about the publication of the revised DOD 
Instruction. The memorandum noted the enhancements to guidelines for 
provision of health care support for survivors of sexual assault, 
including the restricted reporting process. The memorandum noted the 
standards for health care and training requirements for health care 
personnel who manage both acute and long-term care needs for victims of 
sexual assault and for providers who would conduct sexual assault 
forensic examinations (SAFEs). In that memorandum, the ASD(HA) also 
requested submission of an annual report to include information on the 
capability of each MTF to provide SAFEs, and information on agreements 
with local civilian providers in cases where there was not SAFE 
availability within the MTF. Finally, the ASD(HA) requested that the 
Services submit written plans with target dates for implementation to 
meet the requirements of the revised DOD Instruction.
    DOD received and reviewed the responses from the Services and 
determined that Service implementation plans already meet the 
requirements of the DODI and also include enhancements to their 
training programs for Service certification to perform SAFEs. The 
Services report that their training assures that all health care 
personnel are aware of restricted reporting requirements. These 
training programs also include Service-specific criteria for 
certification to perform SAFEs that are consistent with the guidelines 
set forth in the U.S. Department of Justice-National Protocol for 
Sexual Assault Medical Examinations for Adults and Adolescents. The 
Services noted that they are enhancing their training programs to 
include a wider variety of experiences in both care of the victim and 
courtroom testimony. This includes live examination experiences with 
standardized patients or volunteers and observation of mock trials.
    In an effort to provide the highest quality of care, the Services 
are continuously evaluating and updating training in this area. Each 
Service has either already updated its operational polices or will 
complete their current updates by the end of fiscal year 2014.
    We are monitoring completion of Service program implementation and 
issued an additional memorandum on March 27, 2014, that outlines all 
elements of the oversight plan and sets dates for submission of 
reports. This plan requires an annual update of SAFE provider coverage, 
training enhancements, and policy and procedure changes. Additionally, 
we monitor program performance on an ongoing basis throughout the year 
at the SAPR Integrated Program Team and the Health Affairs Women's 
Health Issues Working Group meetings, both of which address health care 
related to the response to sexual assault.

                           combat integration
    29. Senator Gillibrand. Secretary Wright, the Services are in the 
process of integrating women into ground combat roles in compliance 
with the 2013 DOD directive that opens all combat roles to women by 
January 1, 2016. This directive requires the Services to ensure that 
all physical standards are gender neutral. What are you doing in your 
role to ensure the Services are complying with this directive?
    Ms. Wright. Prior to providing Congress with notification of DOD's 
intent to open positions to women in previously closed occupations and 
units, I thoroughly review the documentation submitted by the Services, 
and U.S. Special Operations Command (SOCOM) where applicable, with 
particular focus towards compliance with Public Law 103-160, section 
543, which requires that qualification for, and continuance in, 
occupational career fields be evaluated on the basis of common, 
relevant performance standards and not on the basis of gender.
    The Services' and SOCOM's current efforts to review and validate 
their occupational standards are built upon science and experience to 
ensure we continue to maintain our high standards and preserve the 
quality of the All-Volunteer Force (AVF). Gender neutral application of 
occupational standards will enable us to select those best-qualified 
and may reduce non-combat-related injuries for both men and women.
    I am also staying apprised of the numerous ongoing studies of 
doctrine, organization, training, material, logistics, personnel, and 
facilities being led by the Services and SOCOM. In March 2014, members 
of my staff went to Fort Stewart, GA, to observe the Army's physical 
demands study for infantry and armor.
    Lastly, DOD has contracted with RAND to: (1) identify best-practice 
methods for development of physical standards; (2) assist me in 
reviewing the various methods the Services are using to validate their 
occupational standards; and (3) recommend adjustments that reflect 
those best-practice methods consistent with the Secretary's guidance.
    I will continue to stay engaged as the Services and SOCOM progress 
toward identified decision points when they will make final 
recommendations to open occupations and positions or request an 
exception to policy to keep a position or occupation closed. I will 
review any requests for exception prior to it being forwarded to the 
Secretary of Defense and the Chairman of the Joint Chiefs of Staff for 
approval.

    30. Senator Gillibrand. Secretary Wright, in particular, what are 
you doing to ensure that the Services are, in fact, producing gender 
neutral physical standards?
    Ms. Wright. Prior to providing Congress with notification of DOD's 
intent to open positions to women in previously closed occupations and 
units, I thoroughly review the documentation submitted by the Services, 
and SOCOM, where applicable, with particular focus towards compliance 
with Public Law 103-160, section 543, which requires that qualification 
for and continuance in occupational career fields is evaluated on the 
basis of a common, relevant performance standard and not on the basis 
of gender.
    The Services' and SOCOM's current efforts to review and validate 
their occupational standards are built upon science and experience to 
ensure we continue to maintain our high standards and preserve the 
quality of the AVF. Gender neutral application of occupational 
standards will enable us to select those best-qualified and may reduce 
non-combat-related injuries for both men and women.
    I am also staying apprised of the numerous ongoing studies of 
doctrine, organization, training, material, logistics, personnel, and 
facilities being led by the Services and SOCOM. In March 2014, members 
of my staff were present at Fort Stewart, GA, to observe the Army's 
physical demands study for infantry and armor.
    Lastly, DOD has contracted with RAND to: (1) identify best-practice 
methods for development of physical standards; (2) assist me in 
reviewing the various methods the services are using to validate their 
occupational standards; and (3) recommend adjustments that reflect 
those best-practice methods consistent with the Secretary's guidance.

    31. Senator Gillibrand. Secretary Wright, is DOD consulting with 
outside experts, including those in gender studies and sports 
physiology?
    Ms. Wright. Yes, each Service and SOCOM are working with various 
scientific and research agencies, both inside and external to DOD, to 
review and validate occupational standards to ensure they are current, 
operationally valid, and are applied on a gender-neutral basis.
    Additionally, each Service and SOCOM are conducting thorough 
studies and analyses of doctrine, organization, training, material, 
logistics, and facilities to ensure deliberate and responsible 
implementation. All study results will be used to inform final 
recommendations to the Chairman of the Joint Chiefs of Staff and the 
Secretary of Defense.

    32. Senator Gillibrand. Secretary Wright, according to a recent 
article in the Marine Corps Times, the Marine Corps is prepared to seek 
exceptions to the DOD directive. Is it DOD's goal to achieve 100 
percent integration of women?
    Ms. Wright. DOD's goal is to eliminate all remaining gender-based 
barriers to service and to allow servicemembers to serve in any 
capacity based on their ability and qualifications. It continues to be 
essential to mission effectiveness that every person is fully qualified 
to perform their occupation. Further, we owe it to all servicemembers 
to put them in positions where they have the highest probability of 
success. DOD is committed to removing all barriers that would prevent 
service men and women from rising to their highest potential, based on 
ability and not constrained by gender-restrictive policies.
    To that end, we are proceeding in a measured, deliberate, and 
responsible manner to open positions and occupations to women when and 
how it makes sense, while preserving unit readiness, cohesion, and the 
quality of the AVF.

    33. Senator Gillibrand. Secretary Wright, what reason would there 
be to prevent the most-qualified applicant from competing for a 
position regardless of gender?
    Ms. Wright. Any eventual recommendation to keep an occupational 
specialty or unit closed to women must be personally approved by both 
the Chairman of the Joint Chiefs of Staff and the Secretary of Defense. 
Exceptions must be narrowly tailored, and based on a rigorous analysis 
of factual data regarding the knowledge, skills, and abilities needed 
for the position. That being said, DOD is proceeding in a measured, 
deliberate, and responsible manner to implement changes that enable 
servicemembers to serve in any capacity based on their ability and 
qualifications, regardless of gender.

                                 cyber
    34. Senator Gillibrand. Secretary Wright, the National Commission 
on the Structure of the Air Force recently released their findings, 
which highlighted the importance of the National Guard and Reserve in 
the U.S. cyber mission. Specifically, it noted that the Guard and 
Reserve were uniquely positioned, because of their part-time status, to 
attract and retain the best and the brightest in the cyber field. 
Additionally, the NDAA for Fiscal Year 2014 directed DOD to look at the 
integration of the Guard in all its statuses into the cyber workforce. 
I have long agreed with this assessment, and introduced the Cyber 
Warrior Act which would establish National Guard cyber teams in each 
State to leverage this talent pool. What are your visions for the roles 
of both the Guard and Reserve in U.S. Cyber Command (CYBERCOM) and 
within the distinct Service cyber elements?
    Ms. Wright. I envision the Guard and Reserve will play a vital role 
in DOD's cyber mission by working through Military Services which can 
leverage the civilian skill sets of the Guard and Reserve. Moreover, 
the dual mission of the Guard and the complementary nature of 
reservists help address specific needs, fill gaps, and provide a surge 
capability within the Active component.
    The Guard and Reserve Force structure is determined by the needs of 
the Nation and is organized the same way as the Active-Duty Force 
structure. As DOD refines its cybersecurity requirements, develops the 
appropriate force structure, and addresses legal and functional issues 
concerning the use of the Guard and Reserve components for national 
cyber missions, it is clear that the Guard and Reserve will have a role 
to play. We continue to work closely with CYBERCOM and the Department 
of Homeland Security (DHS) as we determine how best to employ the 
Reserve component for this critical issue.

    35. Senator Gillibrand. Secretary Wright, I want to be helpful to 
DOD in recruiting the best talent and acquiring the best tools for our 
cyber mission. In your opinion, what can Congress do to assist DOD in 
this effort?
    Ms. Wright. At this time, DOD has a good array of tools for 
recruiting the best talent for our cyber mission.
    For civilian hires, DOD has available Schedule A hiring authority 
to recruit cyber talent. This affords leaders the opportunity to select 
qualified candidates without the extended recruitment period associated 
with traditional hiring authorities. The Office of Personnel Management 
(OPM) has extended DOD's Schedule A hiring authorities for CYBERCOM 
until December 31, 2014. Additionally, commanders and hiring officials 
can use traditional competitive hiring methods to announce positions on 
the OPM-hosted USAJOBS web site.
    For military accessions, section 533 of title 10, U.S. Code, was 
modified to allow the Military Services to award consecutive service 
credit to a person with cyberspace-related experienced or advanced 
education for purposes of determining the individual's grade upon 
initial appointment as an officer. This authority has been a helpful 
recruiting tool when applied to other career fields and, similarly, 
will help to increase the inventory of officers with special experience 
and training in cyberspace-related fields.

    36. Senator Gillibrand. Secretary Wright, what do you believe DOD 
needs in order to remain on the cutting edge of cyber defense?
    Ms. Wright. As DOD continues to build and provide trained and ready 
cyber teams, we will leverage expertise from the private sector, the 
Reserve component (Guard and Reserve), academia, other Federal agencies 
such as DHS, and our allies. This includes any additional authorities 
that may be necessary to achieve this objective. Some of my colleagues 
are working with you on this task.
    For military accessions, section 533 of title 10, U.S. Code, was 
recently modified (January 2014) to award commensurate service credit 
to a person with cyberspace-related experience or advanced education 
for purpose of determining the individual's grade upon appointment as 
an officer. This authority has been a helpful recruiting tool when 
applied to other career fields, similarly, will help to increase the 
inventory of officers with special experience or training in 
cyberspace-related fields.

    37. Senator Gillibrand. Secretary Wright, I've also heard about 
DOD's needs in terms of its civilian cyber workforce. What mechanisms 
are currently in place for civilian recruitment and retention?
    Ms. Wright. DOD has Schedule A Direct Hiring Authority available to 
recruit cyber talent. This affords the opportunity for leadership to 
select qualified candidates without the extended recruitment period 
associated with hiring authorities. OPM has extended DOD's hiring 
authority for CYBERCOM until December 31, 2014. Additionally, 
commanders and hiring officials can use traditional competitive hiring 
methods of announcing positions on the OPM-hosted USAJOBS web site.

    38. Senator Gillibrand. Secretary Wright, have you considered ways 
to leverage the talent pool of servicemembers who are retiring or 
leaving the military to encourage them to work as DOD civilian cyber 
experts?
    Ms. Wright. Yes, we have considered ways to leverage this talent 
pool. DOD hires veterans under the 30 Percent or More Disabled Veterans 
Program, Veterans Recruitment Appointment, and the Veterans Employment 
Opportunities Act of 1998. Veterans make up approximately 48 percent of 
the overall on-board DOD appropriated fund civilian workforce, and 
veterans made up 53 percent of new DOD hires in the first quarter of 
fiscal year 2014.

    39. Senator Gillibrand. Secretary Wright, do you have plans in 
place to compete with the private sector for this talent pool?
    Ms. Wright. Yes, we have plans in place. Service component 
personnel offices are using the authority to employ various methods and 
resources that are approved by OPM to recruit talent from the private 
sector by incentivizing employment with DOD. Incentives include hiring 
bonuses, superior qualifications, special salary pay, leave accrual, 
specialized training, the possibility of foreign overseas duty, and the 
job satisfaction derived from participation in operational missions.

    40. Senator Gillibrand. Secretary Wright, what additional 
authorities do you need in order to maintain a high-quality civilian 
cyber force?
    Ms. Wright. We believe that we have sufficient authorities to 
maintain a high-quality civilian cyber force. However, we appreciate 
the continued support of Congress and of OPM in permitting DOD to use 
the various direct/expedited hiring authorities and incentives that are 
necessary for DOD to be recognized as an employer of choice.

    41. Senator Gillibrand. Secretary Wright, I understand that DOD is 
preparing a Cyber Workforce Strategy under the direction of the Chief 
Information Officer. However, cyber security is not just an information 
technology problem. In today's work, everything from our thermostats to 
our water and electric supply is networked. The industrial control 
systems that engineers use to monitor and maintain DOD's assets are 
also at risk of cyber attack. Could you please update me on the status 
of the Cyber Workforce Strategy?
    Ms. Wright. DOD released its Cyberspace Workforce Strategy on May 
1, 2014. This document reflects key collaboration among the Offices of 
the Under Secretaries of Defense for Personnel and Readiness, Policy, 
and Intelligence, the Chief Information Officer, U.S. Strategic 
Command/CYBERCOM, and the Military Services, to include their 
associated Reserve components.

    42. Senator Gillibrand. Secretary Wright, what workforce elements 
does this strategy encompass?
    Ms. Wright. The strategy addresses the broad spectrum of the 
cyberspace workforce. The cyberspace workforce is comprised of 
personnel who acquire, build, secure, operate, defend, and protect DOD 
cyberspace resources, along with those that conduct related 
intelligence activities, and project power in or through cyberspace.

    43. Senator Gillibrand. Secretary Wright, are industrial control 
system engineers included in this strategy?
    Ms. Wright. Yes, the strategy applies to this functional category.
                                 ______
                                 
              Questions Submitted by Senator Kay R. Hagan
  science, technology, engineering and mathematics civilian personnel
    44. Senator Hagan. Secretary Vollrath, in Section 1107 of the NDAA 
for Fiscal Year 2014, this committee provided DOD laboratory directors 
with a set of personnel management flexibilities that we expect will 
allow them to be more competitive in competing with the private sector, 
national laboratories, and universities for the highest quality and 
most innovative and productive scientists and engineers. What is the 
status of the implementation of these authorities and the delegation of 
the flexibilities to the laboratory directors? Please provide the 
committee with a timeline for the delegation of these flexibilities to 
the laboratory directors, as was the intent of the statute.
    Mr. Vollrath. Section 1107 of the NDAA for Fiscal Year 2014 
authorized Scientific and Technical Reinvention Laboratory (STRL) 
directors to appoint both qualified candidates possessing a bachelor's 
degree and qualified veteran candidates, to covered positions as 
defined in section 1107, and established senior scientific technical 
manager positions classified above GS-15 of the General Schedule in 
each STRL. A Federal Register Notice (FRN) to implement these 
authorities is in final coordination. The estimated publication date is 
early summer 2014. Once published, STRL directors will be able to 
execute these flexibilities.

                    workforce quality and diversity
    45. Senator Hagan. Secretary Vollrath, what new initiatives are you 
developing to enhance the quality and diversity of the DOD science, 
technology, engineering and mathematics (STEM) workforce?
    Mr. Vollrath. Enhancing the quality and diversity of DOD's STEM 
workforce is important to DOD and aligns with the administration's 
Federal 5-Year STEM Education Strategic Plan. (http://
www.whitehouse.gov/sites/default/files/microsites/ostp/stem--
stratplan--2013.pdf).
    To develop and promote a highly competent and diverse STEM 
workforce, DOD manages multiple programs offering internship 
opportunities from high school through graduate school and beyond. 
These programs provide students with meaningful education, training, 
and career development opportunities, with particular emphasis on 
developing potential candidates for STEM positions in many different 
fields. Programs include, but are not limited to, the Science, 
Mathematics, and Research for Transformation (SMART) scholarship 
program, DOD Centralized Apprenticeship Program (DCAP), Student 
Training and Academic Recruitment (STAR) Program, and the Pathways 
Programs.
    The DOD Science and Technology Reinvention Laboratory Demonstration 
projects are currently using numerous human resources flexibilities to 
attract, recruit, and retain a highly-skilled and diverse workforce by 
providing competitive salary offers through the use of pay banding, and 
rewarding high performers through contribution-based and pay-for-
performance programs. Laboratory demonstration projects have access to 
Federal Government hiring processes, and are experimenting with 
numerous flexibilities to attract, hire, and retain scientists and 
engineers. These flexibilities include Expedited Hiring Authority, 
Direct Hire Authority, and the use of interns.
    Additionally, as an overarching framework to ensure workforce 
quality and diversity, DOD has implemented a comprehensive and 
strategic Diversity and Inclusion Plan to encourage and integrate 
diversity and inclusion in our enterprise-level human resources 
strategies. We have identified specific actions to establish/expand 
strategic relationships with key stakeholders, including those focused 
on STEM initiatives. Additionally, the laboratories have entered into 
partnerships with numerous minority serving institutions of higher 
education in a proactive effort to enhance the candidate pool with 
applicants from diverse backgrounds.

    46. Senator Hagan. Secretary Vollrath, are there specific actions 
the committee can take to support you in these efforts?
    Mr. Vollrath. We would appreciate your continued support for human 
resource flexibilities, such as the direct hiring authorities 
authorized in the NDAA for Fiscal Year 2014, that enable the Department 
to attract, recruit, and retain a highly qualified STEM workforce.
                           education programs
    47. Senator Hagan. Secretary Vollrath, what specific initiatives 
have you undertaken to improve the access of our military children in 
public schools and DOD-run schools to innovative STEM education 
opportunities and high quality programs?
    Mr. Vollrath. The Department of Defense Education Activity (DODEA) 
is implementing a four-pronged strategy to improve access to STEM 
education opportunities in DOD-run schools: (1) DODEA is increasing 
opportunities for students to take rigorous science and mathematics 
courses as part of regular coursework, and in programs that extend 
beyond the traditional school day or year; (2) DODEA is developing 
sustainable partnerships that engage STEM professionals employed in 
school-based and afterschool activities to leverage their expertise; 
(3) DODEA is investing in teachers through rigorous sustainable 
professional development in STEM education and application of 21st 
century teaching methods; and (4) DODEA is providing resources to 
military-connected public schools through a competitive grant program 
designed to support STEM educational opportunities.

    48. Senator Hagan. Secretary Vollrath, what new initiatives or 
expanded efforts are being proposed with this budget request for the 
committee to consider?
    Mr. Vollrath. The DODEA recognizes that a quality STEM education is 
based on standards that are rich in content and practice and teacher 
preparation and development. To move in this direction and expand our 
efforts in STEM, DODEA has adopted the Common Core State Standards for 
mathematics (CCSSM) and plans to adopt Next Generation Science 
Standards (NGSS). However, implementation of the CCSSM and NGSS will 
require major shifts in instructional practices. The required changes 
may challenge many teachers due to limited STEM content knowledge, 
pedagogical experiences, and/or confidence in conducting hands-on 
projects.
    To meet this challenge, DODEA is funding a summer STEM professional 
development program with the U.S. Naval Academy. Starting this summer, 
80 DODEA teachers will be offered the following courses to enhance 
their competence in teaching STEM: Basics of Engineering Design; Basics 
of Automation; Discrete Mathematics; World of Engineering; World of 
Chemistry; World of Earth Science; and World of Life Science.

    49. Senator Hagan. Secretary Vollrath, what can this committee do 
to support efforts to improve the quality of STEM education being 
provided to military children?
    Mr. Vollrath. DOD operations and national security depend on having 
a diverse STEM-literate talent pool. With that in mind, DOD recognizes 
that competency in science and mathematics, including awareness of 
engineering careers, gained in grades K-12, forms the foundation of an 
educated, capable, and technical future workforce. Congressional focus 
has enabled DOD's efforts and progress to date.
    With the support of Congress, DOD will endeavor to:

        <bullet> Prioritize the staffing and funding of DOD STEM 
        initiatives.
        <bullet> Expand the capacity and diversity of the STEM 
        workforce by promoting the inclusion of underrepresented 
        minorities and women in STEM fields as well as STEM educator 
        professions.
        <bullet> Emphasize partnerships between DOD STEM professionals 
        and the DODEA.
        <bullet> Create opportunities for classroom teachers to work 
        directly with STEM professionals through internships and 
        participation in field experiences and STEM-related research.
        <bullet> Utilize STEM professionals to aid in the development 
        of curricular resources to support STEM.
                                 ______
                                 
           Questions Submitted by Senator Richard Blumenthal
 department of defense and department of veterans affairs collaboration
    50. Senator Blumenthal. Secretary Wright and Secretary Woodson, 
although there seems to be some agreement on what a shared or 
interoperable electronic medical record should look like, there still 
is not one in practice. I understand that one of the challenges to 
achieving that goal is the inability of the VA to access the Service 
Treatment Record (STR) in a timely manner. What actions are being taken 
to improve the disability evaluation timeline?
    Ms. Wright and Dr. Woodson. As of January 1, 2014, DOD successfully 
implemented the capability to digitize and electronically archive 
complete certified STRs in standard formats and to make those STRs 
electronically available to approved STR consumers, such as the 
Veterans Benefits Administration (VBA), upon a servicemember's 
separation or discharge.
    The DOD STR, which captures a static record of a servicemember's 
medical history from his or her period of military service, is 
instrumental in providing the healthcare evidence the VBA requires to 
establish a Service connection for a disability claim. Today, when a 
VBA claims adjudicator initiates a disability benefits claim on behalf 
of a newly separated servicemember within VA's automated claims 
processing system--the Veterans Benefits Management System (VBMS)--an 
automated request is sent through a secure interface to the DOD's 
Health Artifact and Image Management Solution (HAIMS) to query and 
electronically retrieve the required STR from the HAIMS repository. DOD 
intends to submit a report to Congress on the interoperability 
capability established as required by section 713(j) of the NDAA for 
Fiscal Year 2014 (P.L. 113-66).
    DOD is taking a number of actions to improve timeliness. First, DOD 
is maintaining an increased Integrated Disability Evaluation System 
(IDES) staff presence (127 percent increase since 2010) to ensure that 
sufficient administrative case managers (Physical Evaluation Board 
Liaison Officers) are available to manage case load. Additionally, each 
Military Department is augmenting personnel required to conduct Medical 
and Physical Evaluation Boards. The Army has 21 Reserve component 
servicemembers working with the VA Disability Rating Activity Site in 
Seattle to assist in the development of IDES case files, which helps VA 
reduce the inventory of soldiers awaiting a proposed disability rating. 
DOD regularly provides VA with servicemember separation documents to 
help expedite the determination of final disability ratings (over 
13,000 since May 2013). Finally, DOD is in the process of implementing 
a Quality Assurance Plan, that will ensure accuracy and consistency, 
therefore reducing the amount of redundant work on case adjudication 
and improving timeliness.
    These efforts are reducing the benefits gap between military 
service pay and disability compensation from 240 to 51 days, and 
improving DOD-specific process timeliness to 97 days against a 105-day 
goal. Furthermore, in our most recent survey, 83 percent of 
servicemembers indicated they were satisfied with the IDES process.

    51. Senator Blumenthal. Secretary Wright and Secretary Woodson, 
does the Health Insurance Portability and Accountability Act (HIPAA) 
create unintended challenges to information being passed and reviewed 
by the VA to facilitate claims?
    Ms. Wright and Dr. Woodson. HIPAA provides for DOD to release to VA 
information on separating servicemembers for purposes of benefits 
determination. However, it also restricts the ability of a covered 
entity, such as the MHS, to release information to a non-covered 
entity, such as VBA, to only the minimum necessary to perform the 
function, and to disallow access to information of any other non-
separating person whose information is also in the database.
    It is also well understood at DOD that direct access to the 
pertinent databases, such as for example AHLTA, vastly improve the 
response time for VBA to make the necessary benefits determinations. 
Under HIPAA, we are not permitted to merely allow VBA unrestricted, 
direct access to the databases, because of the opportunity for 
accessing information of others who are not separating.
    The Defense Health Agency Privacy and Civil Liberties Office has 
been informed that the Joint Legacy Viewer (JLV) will be configured to 
permit the VBA to only access names entered onto a Master File Index, 
and these names are the appropriate individuals for the benefits 
determination process. Therefore, although this has been a challenge 
for HIPAA compliance and data sharing between DOD and VBA, we believe 
that a solution is possible.

    52. Senator Blumenthal. Secretary Wright and Secretary Woodson, I 
understand that DOD is continuing to partner with the VA to improve 
near-term interoperability. The Janus JLV has been deployed at seven 
different locations around the Nation in order to ascertain 
compatibility between the two systems. How can we get such a system in 
operation in Connecticut in order to expedite the processing of claims 
for our deserving veterans?
    Ms. Wright and Dr. Woodson. In 2013, DOD and VA deployed Janus JLV 
to a limited number of users at seven sites, which includes the five VA 
Polytrauma Rehabilitation Centers and two DOD MTFs. They later expanded 
use of JLV at two sites in Anchorage, Alaska: Joint Base Elmendorf-
Richardson Hospital and the Alaska VA Health Care System.
    There are plans to expand JLV to 3,500 users by the end of this 
year. The approximate 1,000 JLV accounts in DOD will allow DOD 
clinicians to be able to view DOD and VA health care data to enhance 
health care delivery.
    VA will need to determine the split of the approximately 2,500 JLV 
users between the VBA and Veterans Health Administration, and which 
specific individuals at certain sites will be granted access to JLV.

                 workforce requirements and shortfalls
    53. Senator Blumenthal. Secretary Wright and Secretary Vollrath, in 
light of the fiscal year 2015 budget proposal, we will likely see cuts 
in the size of our military. As we undertake various efforts to 
downsize, DOD will be returning thousands of capable veterans to the 
civilian workforce. While transition-assistance programs are provided 
by each Service and made available to military personnel awaiting 
discharge, I understand that these programs focus on general workforce 
skills such as resume-writing, professional dress, and interview 
processes. Upon discharge, military servicemen and women tend to either 
stay in place or return to their original home of record. However, in 
today's more mobile economy, it may make better sense for the veteran 
to consider a different location--an industrial cluster more 
accommodating to the years of experience they have gained from their 
years in service. For instance, a helicopter mechanic with 8 years of 
experience working aboard an Army base who is seeking to leave Active 
Duty might be especially suited for work at Sikorsky. What mechanisms 
are in place to direct or target specific occupational specialties 
(such as avionics or intelligence) to existing industrial clusters?
    Ms. Wright and Mr. Vollrath. DOD agrees that it makes better sense 
for transitioning servicemembers and veterans to focus as much on 
different geographic locations when deciding whether to relocate after 
separation or retirement, and more on industrial clusters based on the 
years of experience they have gained from their military service. The 
Transition Goals, Plans, and Success (GPS) curriculum provides our 
veterans and transitioning servicemembers with the skills, resources 
and tools to make such an informed career decision.
    DOD, in collaboration with the VA, DHS, OPM, and the Departments of 
Labor, Education, and the U.S. Small Business Administration, 
redesigned the Transition Assistance Program (TAP) to better meet the 
needs of today's transitioning servicemembers. The bedrock of the 
redesigned TAP requires servicemembers to meet certain Career Readiness 
Standards (CRS).
    CRS are a set of common and specific activities and associated 
deliverables that must be achieved to demonstrate appropriate 
preparation by servicemembers to transition effectively and pursue 
their personal post-separation goals in higher education, career 
technical training, or civilian employment. One element of the 
Transition GPS curricula is a process for servicemembers to identify 
personal interests and leanings that enable transitioning 
servicemembers to make informed career decisions.
    This also allows transitioning servicemembers to target specific 
occupational specialties (such as avionics, automotive, computer 
technician) and search for jobs within those existing industrial 
clusters nation-wide, by region, State, or zip code.
    During TAP, servicemembers can identify where the jobs they desire 
are located geographically, as well as identify which industries or 
career fields show future growth, status-quo, or decline. This enables 
the transitioning servicemember and his/her family to make an informed 
post-military employment decision to remain where they currently are 
located, return to their home of record, or choose an entirely 
different geographic location based on the most viable and robust 
employment opportunities.
    This information is reinforced when servicemembers attend the 
Department of Labor Employment Workshop (DOLEW). The DOLEW curriculum 
instructs participants on conducting Labor Market Information (LMI) 
research on Department of Labor's American Job Center (AJC) web site 
and Careerinfonet.org. Careerinfonet.org contains online tools for 
detailed research on occupational trends such as fastest growing, most 
openings, and highest paying. The new DOLEW curriculum is far more 
robust and interactive than the previous curriculum. Although 
servicemembers may produce a general resume at the conclusion of the 
DOLEW, the Department of Labor stresses that all resumes should be 
tailored to the specific job announcement.
    On April 23, 2014, the First Lady announced the administration's 
authoritative site for employers and veterans, ebenefits.va.gov. This 
site builds on the President's Veterans Job Bank and creates a resume
bank which will be used by Active-Duty servicemembers, transitioning 
servicemembers, veterans (from all eras), and eligible family members 
seeking employment opportunities.

    54. Senator Blumenthal. Secretary Wright and Secretary Vollrath, 
how will DOD coordinate with VA and what will be the priorities as we 
continue the expected reductions in end strength?
    Ms. Wright and Mr. Vollrath. As part of DOD's ongoing efforts to 
ensure a successful transition from military to civilian life for 
separating servicemembers, DOD collaborates with VA through a number of 
formalized efforts. DOD and VA, in collaboration with our interagency 
partners from the Departments of Labor, Education, Homeland Security 
(Coast Guard), the U.S. Small Business Administration, and OPM 
established a permanent governance structure for the TAP as of October 
1, 2013. The structure, Executive Council and Senior Steering Group, is 
comprised of senior representatives from each interagency that oversee 
the TAP redesign. These agencies provide transition assistance to all 
eligible transitioning servicemembers, to include those affected by 
force shaping and reductions in end strength. The governance allows for 
transparency, efficiency, and effectiveness within the TAP through the 
collaboration and commitment of all the Federal agencies. It provides 
direct contact with all stakeholders to determine priorities to ensure 
we meet the needs of our transitioning servicemembers and future 
veterans.
    Priorities for fiscal year 2014 include the following:

        <bullet> Monitoring fiscal year 2014 end strength reductions 
        and ensuring appropriate resources are made available to 
        installations to provide the redesigned TAP and implement 
        Transition GPS
        <bullet> Establishing a baseline for servicemembers to meet CRS
        <bullet> Implementation of the Military Life Cycle
        <bullet> Strategic Communications

    Additionally, DOD has been assisting VA with its benefits claims 
backlog by ensuring medical record information it needs to process 
disability claims is provided in a expeditious manner. We will continue 
to seek ways to make this information available to VA in an electronic 
format, rapidly and accurately.

    55. Senator Blumenthal. Secretary Wright and Secretary Vollrath, 
how does DOD plan on ensuring that every servicemember received 
training, education, and credentials needed to successfully transition 
to the civilian workforce?
    Ms. Wright and Mr. Vollrath. DOD is working several initiatives 
along these lines. The Services are conducting pilot programs in the 
occupational areas of: aircraft mechanic, automotive mechanic, health 
care support, logistics and supply, truck driver, machinist, and 
information technology. These pilots represent the combined efforts of 
organizations from across the Federal Government, State governments, 
industry, education, and trade associations to credit servicemembers 
for skills they earned throughout their military careers. Currently, 
3,500 servicemembers from 57 military occupational codes are enrolled 
in all pilots.
    Also, this year DOD is conducting a more in-depth analysis of 
combat arms occupational areas and how the associated skills might 
better transfer to civilian workforce requirements. Section 551 of NDAA 
for Fiscal Year 2012 allows eligible members of the Armed Forces to 
participate in job training and employment skills training within 180 
days of separation from military service. Under this authority, several 
employers are establishing job skills training programs at military 
instillations.
    We are also launching a Twitter-based application called ``DOD 
Skillbridge.'' This application will be used by the private sector to 
announce job skills training opportunities for separating 
servicemembers on their personal mobile devices and will allow our 
troops to make their preferences known to industry and search 
previously announced with regard to job opportunities.
    Finally, section 542 of NDAA for Fiscal Year 2014 requires the 
Services to make available information about credentialing and the 
cross-walk of Military Occupational Codes (MOC) to civilian skills to 
members of the Armed Forces at every stage of training. The Services 
are currently working to implement these requirements.
    As a means of ensuring that servicemembers can match up their 
qualifications with credentialing programs, the Services are expanding 
their Credentialing On-Line (COOL) web sites to increase servicemember 
access and credentialing information. The Army and Navy have been 
operating COOL sites for years. The Air Force instituted its own COOL 
program that is expected to be online by October 1, 2014, and the 
Marine Corps is in the process of initiating its COOL program through 
the Navy. COOL maps every MOC to its related civilian credentials. 
Detailed analysis of the gaps between military training and civilian 
credentials requirements are provided for most MOCs. COOL sites also 
link to credentialing exam resources. State licensing, which is based 
upon a national certification exam such as Emergency Medical 
Technician, is also included on COOL and there are links to the 
Department of Labor for information on other State licenses available.
                                 ______
                                 
                Questions Submitted by Senator Tim Kaine
              department of defense unemployment insurance
    56. Senator Kaine. Secretary Hale and Secretary Wright, on 
Thursday, March 27, the Commandant of the Marine Corps, General James 
Amos, mentioned at a Senate Armed Services Committee hearing that the 
Marine Corps paid approximately $152 million in unemployment insurance 
last year. According to the Congressional Research Service (CRS), 
between fiscal year 2001 and fiscal year 2012, a total of $9.663 
billion in unemployment insurance benefits were paid to former 
servicemembers. On average, how much does DOD spend in unemployment 
insurance annually? How is this allocated among the Services, and what 
is the estimated expenditure per servicemember?
    Mr. Hale and Ms. Wright. The table below depicts DOD's expenditures 
for Unemployment Compensation for Ex-servicemembers (UCX) over the last 
10 fiscal years. It also includes the total average annual expenditure 
for DOD as well as for each of the Services over the same period. 
Because there is such wide variance in how States maintain and supply 
data to DOD on unemployment claims by ex-servicemembers, it is not 
currently possible to provide the average expenditure per member. 
Furthermore, there is a significant variation by State in the number of 
ex-servicemembers receiving unemployment benefits, the number of weeks 
ex-servicemembers are entitled to and receive benefits, and the maximum 
weekly benefit amount paid, which add additional levels of complexity 
to analyzing these expenditures. Past expenditures may not be 
reflective of the future given the anticipated increase in separations 
due to the reduction in strength.
      
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    

    57. Senator Kaine. Secretary Hale and Secretary Wright, a recent 
DOD report on the pilot program on civilian credentialing found that 
the attainment of civilian credentials benefits both the armed services 
and the servicemember, with minimal implementation costs (averaging 
$285 per participant). How does the amount of funds spent on 
unemployment insurance per servicemember compare to the amount of funds 
spent on tuition assistance per servicemember? How does the amount of 
funds spent on unemployment insurance per servicemember compare with 
credentialing efforts per servicemember?
    Mr. Hale. Civilian credentialing, tuition assistance, and UCX are 
three distinct programs for different purposes.

        <bullet> Obtaining a civilian credential while on Active Duty 
        can improve the member's skill set, but military specialties 
        often have inherent skills and responsibilities not required in 
        the civilian sector. However, civilian credentialing is 
        recognized outside the military, and if obtained, it can be a 
        significant asset to the member's employment prospects after 
        military service. The $285 cost per participant in the DOD 
        pilot program is misleading as it includes only direct costs; 
        it does not incorporate preparatory costs such as education and 
        training fees, management and operational costs (e.g., the 
        personnel costs to DOD to conduct the pilot), nor living 
        expenses.
        <bullet> The primary purpose of tuition assistance is to enable 
        military members to take educational courses towards a degree. 
        The member directly benefits from the additional education, but 
        DOD also benefits as individual readiness is enhanced and 
        retention is bolstered. Military members primarily use tuition 
        assistance after duty hours, so time away is minimal.
        <bullet> The purpose of UCX is to assist former servicemembers 
        while they seek employment. UCX costs vary greatly depending on 
        job availability, the State the ex-servicemember files his/her 
        claim, and the former member's qualifications, to name a few. 
        Therefore, comparing the costs of the three programs can be 
        misleading.

    In fiscal year 2013, DOD paid $780 million in unemployment 
compensation benefits to ex-servicemembers. Because there is such wide 
variance in how States maintain and supply data to DOD on unemployment 
claims by ex-servicemembers, it is not currently possible to provide 
the average expenditure per member. Furthermore, there is a significant 
variation by State in the number of ex-servicemembers receiving 
unemployment benefits, the number of weeks ex-servicemembers are 
entitled to and receive benefits, and the maximum weekly benefit amount 
paid, which adds additional levels of complexity to analyzing these 
expenditures. The most reliable estimate is found in an August 2013 
study by the Center for Naval Analyses, the ``21st Century Sailor and 
Marine: Demographic Profile of Transitioning Sailors.'' The Center for 
Naval Analyses concluded that the 2011 the average was approximately 
$5,000 per ex-servicemember.
    Tuition assistance is an invaluable program used extensively by 
Active Duty personnel. Tuition assistance is one of many options 
available to servicemembers to further their education. In fiscal year 
2013, tuition assistance totaled $540,448,557 for 277,872 Active 
component servicemembers (average: $1,945 per servicemember). A profile 
of a typical active servicemember utilizing tuition assistance: he/she 
takes 3 courses per year while working full time; attend multiple 
institutions; have breaks in their program due to deployments and duty 
assignment changes; take 7 years to earn an associate's degree; 79 
percent take some on-line courses; and they do not immediately seek 
employment after earning a degree.
    Ms. Wright. Civilian credentialing programs, tuition assistance, 
and even UCX are all benefits that assist military personnel in their 
transition from military to civilian life. These programs can 
complement one another, but they are designed for very distinct 
purposes and are not necessarily interchangeable. How they are employed 
often is predicated on the individual circumstance of an individual 
servicemember or veteran and thus, cost comparisons can be misleading.
    Civilian credentialing, as the DOD pilot program has shown, can be 
a significant asset to a transitioning member. With the civilian 
credential in hand, a military member is able to demonstrate to a 
potential civilian employer that his or her military skills in a given 
trade directly translate to ones that are instantly recognized and 
accepted outside the military. At an average cost of $285 per pilot 
program participant, civilian credentialing appears to be very cost 
effective, although it must be acknowledged that this average cost 
figure includes only the direct cost of the program. It does not 
incorporate preparatory costs such as education and training fees, 
management and operational costs (e.g., the personnel costs to DOD to 
conduct the pilot), or living expenses.
    Tuition assistance is an invaluable program used extensively by 
members who are furthering their education/training or pursuing a 
degree. In fiscal year 2013, tuition assistance costs totaled $540 
million for 277,872 Active component members, at the average cost of 
$1,945 per member. For servicemembers whose desire upon leaving the 
military is to enter a different career field or move up the ladder 
into a white collar or professional job, tuition assistance is an 
excellent, proven means for them to accomplish these kinds of goals. 
Tuition assistance is often the means by which a member is able to 
achieve the end state of a Bachelor's degree and a civilian credential, 
such as a teacher's license. While tuition assistance does, on average, 
carry a higher cost per participant than the civilian credentialing 
pilot program, it clearly can result in a much greater benefit to the 
transitioning member who leaves the military with a college degree and 
the greater earning potential that degree represents.
    Civilian credentialing and tuition assistance are benefits 
available to personnel during their military service; UCX, on the other 
hand, is meant to be used once a member leaves the military and 
relocates to a civilian community. Its purpose is to provide some 
financial assistance to former members while they seek employment. In 
fiscal year 2013, DOD paid out $780 million to reimburse States for the 
unemployment compensation benefits paid to former members. Due to the 
wide variance in how States maintain data on unemployment claims, it is 
not currently possible to provide the average expenditure per member. 
However, there is an August 2013 study by the Center for Naval Analyses 
(the ``21st Century Sailor and Marine: Demographic Profile of 
Transitioning Sailors'') that estimated the 2011 average UCX cost at 
approximately $5,000 per year per ex-sailor. Circumstances vary greatly 
as to why a former member may need the financial help UCX offers. It 
could be that a member utilizes UCX for a short period while he or she 
completes his or her job search, or a member may need UCX for a longer 
period due to the particular economic conditions in a specific 
community (e.g., an unemployment rate that is much higher than the 
national average). A member with a family to support may be more apt to 
apply for UCX than a single member. No matter what those individual 
circumstances may be for eligible individuals, UCX provides a valuable 
benefit to veterans as they transition to civilian life.
    In conclusion, civilian credentialing, tuition assistance, and UCX 
are benefit programs for current or former military members that often 
complement one another, but do not necessarily substitute for each 
other. To the extent data comparing the average cost per participant is 
available, it has been provided above; however, care should be taken to 
avoid misinterpreting the data or drawing any conclusion that more 
investment in one program will lead to reduced cost in another.
                                 ______
                                 
             Questions Submitted by Senator Lindsey Graham
                      defense commissary subsidies
    58. Senator Graham. Secretary Hale, did the administration consider 
the full impact of decreased commissary subsidies on the purchasing 
power of young military families who can least afford higher grocery 
bills?
    Mr. Hale. DOD considered the Quadrennial Review of Military 
Compensation report, which indicates the buying power of enlisted 
members is like that of their civilian counterparts, in deciding to 
decrease commissary subsidies. DOD intends to direct the remaining 
subsidies to cover the extra costs associated with operating 
commissaries overseas so commissary prices for troops stationed 
overseas will be comparable to stateside commissary prices. If Cost-of-
Living Allowance reports indicate shortfalls for personnel stationed 
overseas, DOD can address the shortfalls.

    59. Senator Graham. Secretary Wright, with lower commissary 
savings, shoppers may choose to get their groceries in local civilian 
grocery stores. This kind of change in shopping behavior can also 
affect foot traffic at military exchanges whose sales greatly benefit 
the morale, welfare, and recreation (MWR) activities on military bases. 
How much will foot traffic decrease in the military exchange system if 
fewer beneficiaries choose to shop in commissaries?
    Ms. Wright. Although difficult to quantify at this point, we do 
expect there will be a decrease in foot traffic at the military 
exchange main stores and other facilities if fewer beneficiaries choose 
to shop in the commissaries.

    60. Senator Graham. Secretary Hale, how will DOD make up the lost 
funds generated by exchange sales that support critical MWR activities?
    Mr. Hale. The proposed commissary changes would not begin to be 
phased in until fiscal year 2015, so DOD does not expect any impact on 
exchange sales at least until then. DOD is seeking to quantify the 
expected impact of these changes on the shopping patterns of customers 
in the commissaries and exchanges, and the extent to which they can be 
offset by other changes like the introduction of non-branded items sold 
at lower prices. DOD will continue to actively engage the three 
Exchange Boards of Directors to ensure commissaries and exchanges are 
attractive shopping options, producing the exchange dividends that 
continue to help support important MWR activities.

    61. Senator Graham. Secretary Wright, what will be the impact of 
reduced sales on commissary and exchange employees--many of whom are 
military spouses and retirees?
    Ms. Wright. The commissaries and exchanges will monitor their sales 
and make appropriate business decisions. They may have to adjust 
operating hours and employee work schedules. DOD values our employees, 
many of who are military spouses and retirees, and every effort will be 
made to minimize the impact.

    62. Senator Graham. Secretary Wright, under a new funding plan, do 
you believe that some commissaries will eventually close if their sales 
volumes diminish so much that they cannot cover their expenses?
    Ms. Wright. Commissaries considered remote and isolated will remain 
open to support areas where access to a commercial grocery store is 
limited, as will overseas commissaries. There are no plans to close any 
commissaries in the United States. Customer usage will determine 
whether or not any commissaries close in the United States. Savings 
currently average 30.5 percent and will decrease. The projected savings 
will fluctuate as they do in the commercial sector but we believe they 
will be substantial enough to retain customers.
    We take the commissary benefit seriously, and we are trying to 
mitigate the effects of any changes that may impact our servicemembers 
and their families.

    63. Senator Graham. Secretary Wright, how will the families of 
servicemembers who qualify for the Supplemental Nutrition Assistance 
Program (SNAP) or the Women, Infants and Children (WIC) nutrition 
program be impacted by higher commissary prices that will result from 
lower subsidies?
    Ms. Wright. Commissaries will have to recover costs which will 
decrease customer savings. The savings to servicemembers participating 
in the SNAP and WIC programs will also decrease. Consequently, 
servicemembers participating in the SNAP and WIC programs who shop in 
commissaries will not receive as much in value as they do presently; 
however, they should still receive more value than their civilian 
counterparts who shop in commercial grocery stores.

        unified medical program fiscal year 2015 budget request
    64. Senator Graham. Secretary Hale, in the DOD medical budget 
request, there is $122 million added for expected TRS participation due 
to Obamacare mandates and increases expected from the Supreme Court 
ruling on the Defense of Marriage Act (DOMA). When did DOD realize that 
Obamacare mandates would increase DOD health care costs?
    Mr. Hale. DOD routinely tracks TRS users and costs, so we are able 
to identify changes in this program on a monthly and yearly basis. We 
speculated that the ACA, and specifically the individual mandate 
provision, as well as the DOMA could drive an increase in users and 
costs. We did experience a modest increase in TRS participation in 
fiscal years 2012 and 2013, although we cannot specifically attribute 
that to ACA or DOMA. However, based upon this increasing participation, 
we felt it prudent to request reasonable additional funding for the 
program beginning in fiscal year 2015. We will track participation and 
costs and make appropriate adjustments based upon actual experience.

    65. Senator Graham. Secretary Woodson, the DOD budget request 
assumes almost $92 million in savings from health system modernization. 
We know there is an effort underway to downsize some military hospitals 
and shift beneficiaries' medical care to the private sector. Can you 
explain how that would work and how you get that much savings so 
quickly?
    Dr. Woodson. Our analysis showed that several of our legacy 
inpatient facilities are significantly underutilized and this lack of 
workload put our military medical providers' currency and skills at 
risk. We devised a plan to move these military providers to markets 
that would provide more opportunity for them to practice their 
specialty, an absolute necessity if they are to be prepared to meet 
wartime medical requirements. Although we proposed these moves 
primarily to maintain the readiness skills of our providers, a 
corollary benefit is that they will see more patients within the MTFs, 
so we will not have to pay those costs in the private sector. This will 
generate the projected savings.

    66. Senator Graham. Secretary Woodson, do you plan to brief 
Congress before you downsize military hospitals?
    Dr. Woodson. Yes. Meetings were held with House and Senate Armed 
Services Committees staff members on April 11, 2014, and we plan 
ongoing communications with Congress regarding this matter.

    67. Senator Graham. Secretary Woodson, can you give me a list of 
those facilities that DOD plans to downsize?
    Dr. Woodson. The attached table are the interim results of our 
resizing analysis.

------------------------------------------------------------------------
                 Location                         Transition Action
------------------------------------------------------------------------
Fort Knox, KY.............................  Transition to an outpatient-
                                             only Ambulatory Surgery
                                             Center (ASC)
Fort Polk, LA.............................  Transition to ambulatory
                                             clinic, maintain holding
                                             beds
Fort Sill, OK.............................  Transition to an outpatient-
                                             only ASC, maintain holding
                                             beds
Fort Jackson, SC..........................  Transition to ambulatory
                                             clinic, maintain holding
                                             beds
Fort Riley, KS............................  Transition to birthing
                                             center, outpatient-only ASC
Naval Hospital (NH) Lemoore, CA...........  Transition to outpatient-
                                             only ASC, maintain holding
                                             beds
NH Beaufort, SC...........................  Transition to outpatient-
                                             only ASC, maintain holding
                                             beds
NH Oak Harbor, WA.........................  Transition to birthing
                                             center and outpatient-only
                                             ASC, maintain holding beds
------------------------------------------------------------------------


                 autism and applied behavioral analysis
    68. Senator Graham. Secretary Woodson, is applied behavior analysis 
(ABA) therapy intended for children with developmental disabilities 
other than ASD? If so, which developmental disabilities, other than 
ASD, benefit from ABA therapy?
    Dr. Woodson. ABA for children with developmental disabilities other 
than ASD is not clinically indicated or legally supportable. 
Developmental disabilities encompass many physical disabilities for 
which ABA is never an indicated intervention. All TRICARE beneficiaries 
with a developmental disability currently are eligible to receive 
robust medical benefits, such as physician services, pharmacotherapy, 
speech therapy, occupational therapy, physical therapy; as well as 
behavioral interventions when indicated, including psychotherapy and 
neuropsychological testing. While ABA is a promising emerging treatment 
for ASD, it has been repeatedly determined through comprehensive review 
of available evidence by the TRICARE Management Activity (now the DHA), 
to not yet meet TRICARE's standards as a proven medical intervention. 
There is much less scientific evidence to support the use of ABA for 
developmental disabilities other than ASD.

    69. Senator Graham. Secretary Woodson, if DOD offered ABA therapy 
to all persons with developmental disabilities, what would be the 
estimated additional annual costs to DOD?
    Dr. Woodson. DOD estimates roughly $67.4 million in annual costs 
for ABA therapy services for beneficiaries with developmental 
disabilities.

    70. Senator Graham. Secretary Woodson, if TRICARE coverage is 
expanded to provide ABA therapy for all children with developmental 
disabilities, will the available supply of ABA therapy providers 
accommodate the increased demand for services?
    Dr. Woodson. DOD estimates that about 4,300 TRICARE beneficiaries 
with developmental disabilities will use ABA services. This will 
certainly impact the availability of ABA and would be a significant 
resource concern if TRICARE expanded coverage of ABA to all children 
with developmental disabilities.

                medical benefit expansion and readiness
    71. Senator Graham. Secretary Wright, during this time of great 
fiscal pressure on DOD, how would a large medical benefit expansion, of 
any kind, impact the readiness of servicemembers?
    Ms. Wright. It depends on the nature, scope, and scale of the 
budget expansion. DOD is actively investing in finding better 
treatments for combat injuries and, should those investments pay off, 
an expansion that would cover those new treatments could greatly 
benefit the readiness of servicemembers.
    In a very general sense though, as long as budgets remain tight, 
the money to offset a medical benefit expansion would have to come from 
somewhere. In the short run, operations, maintenance, and procurement 
accounts are typical offsets, and these accounts are directly 
associated with readiness.

                       laboratory developed tests
    72. Senator Graham. Secretary Woodson, TRICARE stopped reimbursing 
for Laboratory Developed Tests (LDT) on January 1, 2013, and it 
resulted in an inequitable benefit in the TRICARE system. Essentially, 
patients getting care in military hospitals could get those tests at no 
cost, but patients getting civilian healthcare had to pay for those 
tests out-of-pocket. What are you doing to resolve this inconsistency?
    Dr. Woodson. Health Affairs and the DHA are committed to evaluating 
emerging medical treatments and techniques to meet patient needs while 
ensuring safety. Therefore, the DHA will initiate a new Laboratory 
Developed Tests Demonstration Project to be implemented by summer 2014. 
Many LDTs currently available in MTFs will be evaluated under the 
demonstration. LDTs approved under the Demonstration Project will be 
integrated into the both the purchased care and direct care system 
providing more consistency between both systems.

    73. Senator Graham. Secretary Woodson, will TRICARE retroactively 
reimburse beneficiaries if they have previously paid for tests that may 
be covered in the future?
    Dr. Woodson. Beneficiaries who previously paid for LDTs that are 
approved and covered under the demonstration may be eligible for 
reimbursement. A review will need to be done to determine if the LDT 
was medically necessary and appropriate for reimbursement purposes. 
Additional details will be published in the Federal Register 
demonstration notice.

    74. Secretary Woodson, do you believe that TRICARE regulations have 
enough flexibility to keep pace with rapid advancements in medical 
science and technology that often result in changes in national 
standards of care?
    Dr. Woodson. The hierarchy of reliable evidence as defined in 
regulation serves TRICARE well by using evidence-based guidelines to 
assess which treatments and procedures are safe and effective for our 
beneficiaries. However, I do see the need for TRICARE to have greater 
flexibility to provide reimbursement for drugs, devices, medical 
treatments or procedures that result from rapid advancements in medical 
science and technology. Currently TRICARE covers participation in 
National Cancer Institute sponsored Phase I, Phase II, and Phase III 
studies for the prevention and treatment of cancer. Expansion beyond 
cancer clinical trials to support the advancement of medical science 
will be considered. Also, use of our demonstration authority like the 
LDT Demonstration Project offers us an avenue to examine new treatments 
and procedures that have not yet met our reliable evidence criteria. 
Also our MTFs can be utilized to conduct clinical trials or participate 
in registries where the information gathered can inform future benefit 
decisions.

                            tricare for kids
    75. Senator Graham. Secretary Woodson, section 735 of the NDAA for 
Fiscal Year 2013 requires DOD to conduct a comprehensive review and 
develop a plan to ensure that TRICARE meets the pediatric-specific 
needs of military families and protects their access to specialized 
services and care settings. How will DOD incorporate input from all 
stakeholders--pediatric health care advocacy and professional 
organizations, military family advocacy organizations, and military 
families--in the plan required by section 735?
    Dr. Woodson. To develop the report, as required by section 735 of 
the NDAA for Fiscal Year 2013, the DHA working group was provided with 
information and perspectives on current and proposed changes in TRICARE 
pediatric benefits from the following organizations, including: 
American Academy of Pediatrics; Autism Speaks; Children's Hospital 
Association; Department of Defense Military Family Readiness Council; 
Easter Seals; Family Voices; March of Dimes; Maryland Coalition of 
Families for Children's Mental Health; Military Special Needs Network; 
Military Officers of America Association; National Military Family 
Association; and Specialized Training of Military Parents. A meeting 
was held in August 2013 with the following advocacy groups who provided 
information for consideration in report preparation including: American 
Academy of Pediatrics, Autism Speaks, Children's Hospital Association, 
Military Officers Association, and Military Special Needs Network.

    76. Senator Graham. Secretary Woodson, does TRICARE use adult-based 
assumptions when determining medical necessity of a pediatric health 
care intervention, treatment or therapy?
    Dr. Woodson. TRICARE is mandated by Congress to deliver safe and 
effective medically necessary care. Safe, effective, and medically 
necessary care is based on the clinical needs of the beneficiary, 
reliable evidence, and medical need, not on assumptions of a specific 
age group. Pediatric health care interventions, treatments, and therapy 
are based on clinical evidence of safe and effective care.

    77. Senator Graham. Secretary Woodson, what mechanisms are in place 
to link military children with special needs with local community 
health care resources, like pediatric specialty care providers?
    Dr. Woodson. Dependent children with special health care needs are 
linked with local community health care resources like pediatric 
specialty care providers through coordination of care between the MTFs 
and the purchased care network of TRICARE authorized providers. TRICARE 
beneficiaries have access to appropriate medical care in MTFs where 
specialty care is available or based on referrals to providers in the 
community coordinated by regional contractors. The regional contractors 
provide monthly network adequacy reports to the TRICARE regional 
offices to ensure the networks are able to support the TRICARE 
beneficiary medical needs based on contracted ratios. TRICARE networks 
include many children's hospitals and pediatric specialty care 
providers in each geographic region who provide care to military 
children with special needs.
    The report to Congress required by the NDAA 2013, section 735, 
titled: ``Study on healthcare and related support for children of 
members of the Armed Forces'' is being prepared for submission to 
Congress by July 2014. One of the elements to be addressed is 
mechanisms for linking dependent children with special health care 
needs with State and local community resources, including children's 
hospitals and providers of pediatric specialty care; which is similar 
to question being asked. DOD's report will have a more detailed 
discussion on this issue.

                      children with special needs
    78. Senator Graham. Secretary Wright, one of the key components of 
the Exceptional Family Member Program is assignment coordination to 
determine if special needs services are available at a servicemember's 
next projected duty assignment. During the assignment process, the 
Services are supposed to match a family's special needs requirements 
against available services before assigning a servicemember to a new 
location. We hear anecdotal reports that the Services have assigned 
families to locations where support services aren't available. How do 
you plan to address gaps in the assignment coordination process?
    Ms. Wright. The Services are required to screen servicemembers' 
dependents for medical and special education needs prior to any 
accompanied or command sponsored assignment to ensure adequate services 
are available at the projected PCS location for those special needs 
family members enrolled in the Exceptional Family Member Program. If 
there are specific cases where this is not occurring, I would be glad 
to research them to ensure compliance once we have the details.

    79. Senator Graham. Secretary Wright, children with special health 
needs and complex medical conditions require an assortment of 
specialized health care and education services. To ensure continuity of 
health care and educational services, military families with special 
needs children must get ``warm handoffs'' as they transition to new 
assignments. How can this transition process be improved to ensure that 
these children receive continuous health care and education services at 
the sponsor's next duty location?
    Ms. Wright. DOD, including the Services, works continuously to 
improve and standardize support to military families with special needs 
during every phase of military life, including during transition. DOD 
policy stipulates that the special medical and educational needs of 
family members must be considered during the assignment process. During 
the assignment process, the Services review the medical and educational 
needs of a servicemember's family members enrolled in the Exceptional 
Family Member Program (EFMP). Every reasonable effort is made to ensure 
families are stationed in locations at which services to meet their 
needs are available, ensuring the assignment also meets the needs of 
the Service.
    Within the United States, the Individuals with Disabilities Act 
(IDEA) requires that services be available to all children with 
disabilities. IDEA governs how States and public agencies provide early 
intervention, special education, and related services to eligible 
infants, toddlers, children, and youth with disabilities. The education 
of children with disabilities in overseas DODEA schools is also 
governed by the IDEA. For families transitioning to overseas 
assignments, their special educational needs are reviewed by the DODEA.
    To support military families with special needs, EFMP Family 
Support Providers offer a warm hand-off for families transitioning to a 
new duty station. This warm hand-off includes connecting families to 
the EFMP family support provider at the new location. To consistently 
document and understand families' needs, DOD has developed the Family 
Needs Assessment and Services Plan. DOD has also developed the Inter-
Services Transfer Summary (ISTS) to document family support assistance 
received by families transferring between installations not run by 
their own Service (e.g., a soldier transferring to or from a Navy run 
installation).

                             tricare reform
    80. Senator Graham. Secretary Woodson, under DOD's TRICARE reform 
proposal, what modifications will be needed to TRICARE Managed Care 
Support Contracts to implement a new consolidated TRICARE plan?
    Dr. Woodson. Contract modifications would be necessary for claims 
adjudication, network development, participant fee collection, and 
other processes. It is important to note that these modifications would 
simplify program administration. We recommended implementing the new 
TRICARE Consolidated Health Plan in fiscal year 2016 based on DOD's 
internal estimates of the potential costs associated with these 
modifications and considered these costs in the overall cost-benefit 
evaluation of the proposal. It was determined that the benefits 
exceeded the cost of waiting until the next generation of TRICARE 
contracts was awarded.

    81. Senator Graham. Secretary Woodson, will there be changes in 
requirements for the contractors to build and maintain networks and to 
maintain accurate lists of network providers?
    Dr. Woodson. No, there will be no change to this requirement.

    82. Senator Graham. Secretary Woodson, what resources will remain 
in place for the management of complex illnesses or conditions where 
coordinated care is needed?
    Dr. Woodson. Care coordination should continue to occur through the 
patient's relationship with his or her primary care provider, just as 
it does now. For example, those participants who choose to receive 
their care in a MTF will continue to enjoy the benefits of Patient 
Centered Medical Home, a holistic approach to medicine. The 
Consolidated TRICARE Health Plan simply removes administrative burdens 
that impede the access to care; it does not affect the close patient-
provider relationships that have developed over time.

                  basic allowance for housing reforms
    83. Senator Graham. Secretary Wright, how much savings will DOD 
realize as a result of the proposal to increase servicemember Basic 
Allowance for Housing (BAH) out-of-pocket contribution in fiscal year 
2015?
    Ms. Wright. DOD estimates that this proposal will provide $391 
million in cost savings for fiscal year 2015, and that cost savings 
would grow to reach $1.28 billion in fiscal year 2019. These cost 
savings include removing renter's insurance from the computation 
beginning in 2015 and gradually increasing the out-of-pocket percentage 
to 5 percent over 3 years (2015 to 2017).

    84. Senator Graham. Secretary Wright, if a member lives on base 
with their family, will their rent still be covered 100 percent or will 
they have to pay 5 percent of the cost?
    Ms. Wright. Rental amounts are currently based on the BAH provided 
to uniformed members. The amount out-of-pocket that a member may or may 
not have to pay to the privatized partner of on-base housing will 
depend on changes to project agreements. The Under Secretary of Defense 
for Acquisition, Technology, and Logistics is currently working with 
the Services to assess how best to implement any BAH reductions into 
the project rent structures. DOD believes it has the authority under 
the Military Housing Privatization Initiative to make the necessary 
adjustments.

    85. Senator Graham. Secretary Wright, is there currently on-base 
housing that is vacant or not being utilized by servicemembers?
    Ms. Wright. The overall occupancy of military privatized housing is 
about 95 percent. About 5 percent of those occupants are ``waterfall,'' 
or non-uniformed tenants. This occupancy rate for privatized housing is 
higher than it had been before privatization.
    In privatized projects, members are not assigned to housing. They 
may choose to live on base or in town. If there is insufficient demand 
from Active Duty military families, then the privatized housing owners 
may lease units to a so-called ``waterfall'' of potential tenants. 
Active Duty member families have the highest priority for privatized 
housing, but depending upon conditions, units can also be rented to 
unaccompanied members, DOD civilians, military retirees, and others in 
order to maintain occupancy.

    86. Senator Graham. Secretary Wright, how will this reduction 
affect privatized housing companies who receive money from DOD for on-
base housing?
    Ms. Wright. The impact to privatized partners will depend on how 
the legislation is implemented by the Military Services and their 
private partners. Under Secretary of Defense for Acquisition, 
Technology, and Logistics is currently working with the Military 
Services to assess how best to implement any BAH reductions into the 
project rent structures. DOD believes it has the authority under the 
Military Housing Privatization Initiative to make the necessary 
adjustments.

                               troop pay
    87. Senator Graham. Secretary Wright, how much savings will DOD 
realize by capping the pay increase at 1 percent for fiscal year 2015?
    Ms. Wright. DOD's proposal to provide a 1.0 percent basic pay 
increase for pay grades O-6 and below in lieu of the automatic 1.8 
percent increase would save $534 million in fiscal year 2015 and $3.4 
billion over fiscal years 2015 to 2019.

    88. Senator Graham. Secretary Wright, how much savings will DOD 
realize by freezing general and flag officer pay?
    Ms. Wright. The fiscal year 2015 request includes a 1.0 percent 
basic pay raise for pay grade O-6 and below, and seeks a pay freeze for 
general and flag officers. While the pay freeze for general and flag 
officers provides only limited savings of about $1 million in fiscal 
year 2015 and $8 million through fiscal year 2019, the Joint Chiefs 
were adamant that if they are asking our young men and women to accept 
a slower growth in pay, then the most senior leadership ought to accept 
an even lower level.

                                 sunset
    89. Senator Graham. Secretary Wright, what congressionally-mandated 
personnel programs do you believe are no longer useful to 
servicemembers and their families that could be cut or modified to 
promote a more efficient use of resources?
    Ms. Wright. We do not believe that our current portfolio of 
military community and family programs requires cuts or legislatively 
mandated modifications. Each year comprehensive reviews of these 
programs are conducted to ensure that services are not duplicative or 
redundant, and that resources are appropriately allocated. Examples of 
these types of reviews include those conducted in generating the 
Defense Program and Planning Guidance and the DOD Policy and Plans for 
Military Family Readiness congressional report, and by the Military 
Family Readiness Council. As a result of these efforts, the Office of 
the Secretary of Defense and the Services regularly adjust the delivery 
of programs to ensure that the unique needs of the military population 
continue to be met. When necessary, DOD seeks legislative relief for 
congressionally-mandated programs.

                   assignment of women to combat arms
    90. Senator Graham. Secretary Wright, if combat arms positions are 
opened to women, and if not enough women volunteer for those positions, 
will DOD involuntarily assign women to combat arms units?
    Ms. Wright. Once positions are open with a single standard for 
entry, each Service will follow its respective policies for the 
classification and assignment of personnel. These policies will be 
applied equally to men and women, consistent with the needs of the 
Services, SOCOM, and mission.
    It continues to be essential to mission effectiveness that the 
person selected for an occupation is fully qualified to perform that 
occupation. Further, we owe it to all servicemembers to put them in 
positions where they have the highest probability of success. DOD's 
goal is to ensure the mission is met with the highest, best-qualified, 
and most capable people, regardless of gender. Evaluations will be made 
in accordance with our guiding principles.

                           selective service
    91. Senator Graham. Secretary Wright, when did DOD last review the 
role of the Selective Service System in meeting the wartime 
requirements of the Nation?
    Ms. Wright. During our 2013 GAO audit, DOD was asked to reevaluate 
the mission and military requirements for the Selective Service. We 
found that the changes in the world following the end of the Cold War 
have revised our mobilization requirements. As such, DOD has no 
operational plans that envision mobilization at a level that would 
require conscription. However, while there may be no immediate military 
necessity, there may be national necessities for continuation of the 
Selective Service System.
    Since 1974, the United States has relied upon an AVF to meet the 
Nation's military requirements. The AVF has performed successfully 
everywhere from the Balkans to the Gulf of Arabia, in Operations Desert 
Shield/Desert Storm, and in our Nation's longest military engagements 
for over 12 years in Iraq and Afghanistan. The current AVF is combat 
experienced, highly educated, and diverse. Currently, the AVF is of 
adequate size and composition to meet America's security needs.

                             sexual assault
    92. Senator Graham. Secretary Wright, does DOD or the Services 
require any additional authorities to support victims of sexual 
assault?
    Ms. Wright. DOD has not identified additional authorities needed to 
support victims of sexual assault. Military and civilian leaders are 
working to sustain their current level of attention, focus, and 
emphasis on the implementation of critical reforms and protections for 
victims. DOD efforts to combat sexual assault rely on the continued 
implementation of SAPR initiatives and programs, as well as intensified 
efforts to educate all servicemembers, frontline commanders, and 
leaders on SAPR policies and procedures.
    The NDAA for Fiscal Year 2014 included 33 sections related to 
sexual assault. Many of the provisions require support to victims, such 
as provisions:

        <bullet> Requiring a Special Victims' Counsel program for each 
        Service.
        <bullet> Requiring a sexual assault nurse examiner per MTF.
        <bullet> Extending the rights afforded by the Crime Victim 
        Rights Act to victims of offenses under the UCMJ.
        <bullet> Expanding protections against retaliatory personnel 
        actions for servicemembers who report sexual assaults.
        <bullet> Requiring defense counsel to make requests to 
        interview victims through trial counsel and permitting victims 
        to request presence of trial counsel or outside counsel during 
        interview.

    Additionally, we want to thank Congress for supporting victims of 
sexual assault by passing NDAA for Fiscal Year 2013, section 576. The 
process established by this legislation calls for an independent panel 
to study sexual offense reporting, investigation, and prosecution under 
military and civilian jurisdictions. This panel is providing a fact-
based investigation of the response and judicial systems for sexual 
assault and will provide important recommendations on potential reforms 
to the system to support victims of sexual assault.

    93. Senator Graham. Secretary Wright, does DOD or the Services 
require any additional authorities to empower commanders, criminal 
investigators, victim advocates, or judge advocates to continue efforts 
to combat sexual assault?
    Ms. Wright. DOD has not identified additional authorities needed to 
empower commanders, criminal investigators, victim advocates, or judge 
advocates, as they work to combat sexual assault in the military. 
Military and civilian leaders are working to sustain their current 
level of attention, focus, and emphasis on the implementation of 
critical reforms, which are detailed below. DOD efforts to combat 
sexual assault rely on the continued implementation of SAPR initiatives 
and programs, as well as intensified efforts to educate all 
servicemembers, frontline commanders, and leaders on SAPR policies and 
procedures.
    DOD is focused on implementing more than 60 provisions of law 
included in the past three NDAAs that are related to sexual assault. 
Further, each Service is implementing 22 initiatives directed by the 
Secretary of Defense to strengthen DOD SAPR programs.
    The NDAA for Fiscal Year 2014 included 33 sections related to 
sexual assault. Many of the provisions affect military justice, such as 
provisions that will:

        <bullet> Require higher level review of any decision by a 
        commander not to refer a sexual assault case to a general 
        court-martial;
        <bullet> Give military victims the opportunity to decline to 
        testify at Article 32 hearings;
        <bullet> Limit the authority of commanders to overturn court-
        martial findings and sentences;
        <bullet> Limit jurisdiction for rape and sexual assault 
        offenses to general courts-martial;
        <bullet> Establish mandatory punitive discharge for sexual 
        assault and rape convictions; and
        <bullet> Eliminate the 5-year statute of limitations for sexual 
        assault offenses.

    94. Senator Graham. Secretary Wright, who in DOD is responsible to 
look at recent legislation from the standpoint of the military member 
accused of sexual assault, to ensure that commanders and those who 
support them are protecting the constitutional rights of the accused?
    Ms. Wright. The preservation of the constitutional rights of 
everyone involved in the Military Justice system is of paramount 
importance. The Judge Advocates General of the Military Departments and 
the Staff Judge Advocate to the Commandant of the Marine Corps, who 
administer the Military Justice process for their respective Services, 
have primary responsibility for this function. Also critical in this 
function is the DOD Office of General Counsel.
                                 ______
                                 
              Questions Submitted by Senator Kelly Ayotte
                        special victims counsel
    95. Senator Ayotte. Secretary Wright, section 1716 of the NDAA for 
Fiscal Year 2014 required the Services to establish the Special 
Victims' Counsel Programs to provide independent legal advice for 
victims of sexual assault. How is the Special Victims' Counsel Program 
going in each of the Services?
    Ms. Wright. All Services have implemented their Special Victims' 
Counsel programs. The Special Victims' Counsel program forms an 
extensive sexual assault victim representation system. Preliminary 
assessments of the Services' programs are favorable. They are an 
important component of DOD's ongoing efforts to eradicate sexual 
assault from the Armed Forces while supporting victims and holding 
offender appropriately accountable when such assaults do occur.

    96. Senator Ayotte. Secretary Wright, do you think the availability 
of Special Victims' Counsels at least partially explains the increase 
in reporting we have seen?
    Ms. Wright. While we believe the Special Victims' Counsel program 
holds great potential for helping victims navigate the military justice 
process, we do not believe that the full effects of this program were 
seen in the increased reporting that occurred in fiscal year 2013. This 
is because only the Air Force had a fully operational Special Victims' 
Counsel program in fiscal year 2013. The other three Services deployed 
their full programs in fiscal year 2014. DOD will be monitoring 
reporting trends and surveying victims in fiscal year 2014 to discern 
the impacts of the Special Victims' Counsel program throughout the 
Military Services.
    DOD believes that we must take a number of actions to help increase 
victim confidence, as there is no single silver bullet solution. Our 
response requires sustained progress, persistence, and innovation. We 
must treat survivors of this crime with sensitivity, privacy, and 
responsive support. How we treat current victims will impact future 
victims' decisions to report.
    A key element of DOD's approach is to increase victim trust and 
confidence in our response system so that victims are willing to 
report. DOD has implemented a number of programs designed to improve 
victim confidence, recognizing that increased victim confidence and 
reporting is a bridge to greater victim care and offender 
accountability. These reforms are not limited to the creation of 
dedicated legal support to victims, but also include reforms to the 
military justice system, enhanced access to victim advocacy, and 
increased training and awareness for the entire force. Specifically, 
these reforms include:

        <bullet> Implementing policy across the Services to provide 
        commanders with balanced options to eliminate victims' 
        continued contact with their accused offenders, through 
        expedited transfers;
        <bullet> Fielding more than 25,000 professionally certified 
        Sexual Assault Response Coordinators (SARCs) and Victim 
        Advocates (VAs), located across the globe;
        <bullet> Developing the DOD Safe Helpline to ensure that 
        victims have anonymous, worldwide 24/7 crisis support via 
        online chat, telephone, and texting services;
        <bullet> Requiring investigators and prosecutors to receive 
        specialized training on how to best support sexual assault 
        victims and their cases; and
        <bullet> Requiring sexual assault cases to be treated as 
        medical emergencies in MTFs.

    Initial fiscal year 2013 data shows a 50 percent increase in victim 
reports of sexual assault when compared to fiscal year 2012. We assess 
this increase in reports as consistent with a growing level of 
confidence in our response system. This is supported by an additional 
metric--there are growing numbers of reports made by victims about 
incidents that took place prior to joining the military.

                              compensation
    97. Senator Ayotte. Secretary Wright, please provide specific and 
detailed analyses on the financial impact on junior enlisted and junior 
officers of the DOD's proposed housing allowance and commissary 
changes. How much more will these individuals have to pay as a result 
of the proposed commissary changes?
    Ms. Wright. Our estimates of the impacts of the proposals on the 
monthly compensation of members are in the attached charts.
      
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    98. Senator Ayotte. Secretary Wright, what specific impact will 
this have on MWR revenues?
    Ms. Wright. We expect the proposed commissary changes could have 
some negative impact on MWR activity revenues, both directly and 
indirectly. Among the direct impacts, MWR activities might no longer be 
able to purchase food from the commissary at cost; higher food costs in 
those MWR activities would in turn drive up selling prices and fees. In 
addition, reduced commissary foot traffic on base could have a 
cascading effect on participation in MWR activities, which in turn 
would reduce overall revenue to support the system. The indirect impact 
would occur when a possible reduction in commissary foot traffic is in 
turn reflected in reduced foot traffic in the exchanges; the resulting 
drop in exchange sales would then reduce the exchange dividends that 
support MWR programs.

    99. Senator Ayotte. Secretary Wright, will some personnel who live 
on post have difficulty traveling to off-post grocery stores?
    Ms. Wright. The question assumes that no commissary will be 
available for those living on bases. There are no plans to close 
commissaries. Difficulty traveling to off-installation grocery stores 
will vary installation-to-installation depending on distance and 
availability of transportation.

    100. Senator Ayotte. Secretary Wright, please provide examples, by 
rank, of how much junior enlisted servicemembers will not receive for 
their housing allowance in more expensive locations.
    Ms. Wright. Our estimates of the impacts of the proposals on the 
monthly compensation of members are in the attached charts. (See answer 
to question 97). The proposed out-of-pocket expense for the BAH 
contained in the fiscal year 2015 proposal would vary by pay grade and 
dependency status but not by location. The out-of-pocket expense amount 
would be computed as a percentage of the national mean housing 
allowance for each pay grade and dependency status. The computed, fixed 
dollar amount would be applied to the BAH rate for that pay grade and 
dependency status for each location. As a result, impact on a member 
from this proposal would be the same dollar amount, regardless of 
whether the member resides in a high-cost or low-cost housing area.
    See answer to question 97.

     sexual assault response coordinators for the guard and reserve
    101. Senator Ayotte. Mr. Wightman, section 1724 of the NDAA for 
Fiscal Year 2014 requires each Service Secretary to ensure timely 
access to a SARC for any member of the National Guard or Reserve who is 
the victim of a sexual assault. Can you please provide an update on how 
DOD is doing in implementing this provision related to SARCs for the 
Guard and Reserve?
    Mr. Wightman. The DOD SAPRO provides oversight and guidance to the 
Services as they implement NDAA for Fiscal Year 2014 provisions. Each 
of the Services has addressed providing timely access and support of 
SARC services differently that takes into consideration organizational 
structure and geographic coverage apart from the military unit. A 
summary of the status to providing timely access to SARCs for Reserve 
component servicemembers follows:

        <bullet> The National Guard has hired one full-time SARC in 
        every State and Territory (54 States and Territories), for 
        servicemembers who are located at the Joint Forces Headquarters 
        and serve in either Title 32 Active Guard Reserve (AGR), 
        Technician, or Active Duty Operational Support (ADOS) status. 
        Every SARC is trained to provide service to both Air and Army 
        National Guard within the State or Territory. Additionally, the 
        Air National Guard has placed one airman, who serves on full-
        time status, to serve in the SARC role as required within each 
        Wing. The Army National Guard has one SARC, called the 
        Collateral SARC, at each Division down to Brigade.
        <bullet> U.S. Army Reserve (USAR) policy requires that a 
        servicemember victim be linked to the SARC that is located 
        closest geographically. In addition, the USAR maintains 5 
        hotlines (1 hotline for each of 4 Regional Support Commands and 
        1 in Puerto Rico) staffed by 35 full-time Military Technicians 
        and Active Guard and Reserve SARCs. The hotlines are staffed 
        24/7. These SARCs offer support on the phone when a victim 
        calls, and can refer them to local civilian resources in crisis 
        situations. The hotline numbers, along with the DOD SAFE 
        Helpline phone number, are prominently posted in unit/drill 
        areas. The U.S. Army Reserve Command publishes an array of 
        products listing all five hotline numbers.
        <bullet> Each U.S. Navy Reserve (USNR) unit is required to have 
        a designated Unit SAPR VA who responds to servicemember 
        victims. In addition, the USNR provides SAPR response and 
        services through a Navy Operation Support Center (NOSC) which 
        is aligned with a Navy region with the Installation SARC 
        providing services. The contact number for 24/7 SAPR Victim 
        Advocate (SAPR VA) and SARC services is posted in the NOSC and 
        is made available via the DOD Safe helpline. Audits are 
        conducted monthly to ensure posted telephone contacts are 
        accurate and victims receive immediate support.
        <bullet> All U.S. Marine Corps Reserve (USMCR) sites have at 
        least one trained and appointed Uniformed Victim Advocate (UVA) 
        assigned to the site to provide in-person response to victims 
        of sexual violence. All of the sites have MOUs with other SAPR 
        military and civilian rape crisis centers in their localities. 
        In addition, the USMCR maintains a 24/7 Sexual Assault Helpline 
        which provides immediate telephonic crisis response to all 
        Active Duty and Reserve component marines/sailors assigned to 
        the 162 Marine Reserve sites throughout the United States 
        including Alaska, Hawaii, and Puerto Rico. The Helpline is 
        staffed by the SAPR Program Manager, three SARCs, and two 
        civilian VAs located in New Orleans. Once a report is received, 
        a referral will be made to the UVA to provide immediate in-
        person response. UVAs are required to answer all calls within 
        15 minutes and to respond in person within 1 hour of 
        notification. All Marine Reserve locations are mandated to post 
        the SAPR Helpline as well as the DOD SAFE Helpline throughout 
        common areas of their facilities.
        <bullet> The U.S. Air Force maintains a civilian SARC at each 
        of the 11 Host Wings. All Wing SARCs report to the Command SARC 
        who is located at Robins Air Force Base. Each of the SARCs is 
        issued a government cell phone and is on call 24/7. These SARC 
        numbers along with the DOD Safe Helpline are posted in many 
        locations to ensure airmen are aware of the support.

                         increase in reporting
    102. Senator Ayotte. Secretary Wright, based on the statutory 
reforms passed in the NDAA for Fiscal Year 2014, as well as the 
additional reforms DOD has been implementing, are we seeing an increase 
in reporting of sexual assaults in the military?
    Ms. Wright. Yes, during fiscal year 2013, there were 5,061 reports 
of sexual assault. This figure represents an increase of 50 percent 
over fiscal year 2012 numbers. The average annual increase in reports 
of sexual assault has been approximately 5 percent since the first full 
year of Restricted Reporting in 2006, as compared to a 50 percent 
increase in reporting between fiscal year 2012 and fiscal year 2013. In 
addition, there was a substantial increase in the number of reports 
made by victims for incidents they experienced prior to joining the 
military. In fiscal year 2013, about 10 percent of the 5,061 reports of 
sexual assault received from servicemembers were for sexual assaults 
that occurred to them prior to entering military service. In past 
years' reporting, that figure has never exceeded 4 percent. DOD 
believes these reports reflect an increased level of confidence in the 
DOD response system and are a sign that victims trust DOD to treat and 
support them in their recovery.
    Despite increased reporting, sexual assault remains a persistent 
challenge. During fiscal year 2014, DOD will intensify its focus on 
preventing the crime by implementing the 2014 to 2016 DOD Sexual 
Assault Prevention Strategy. Prevention is more than training and 
education of individuals. A successful prevention strategy addresses 
the entire continuum of harm, shapes the environment, and includes a 
wide range of integrated elements targeting accountability, community 
involvement, communication, deterrence, incentives, and harm reduction 
at every level of military society.
    These continuing efforts, plus the reforms passed in the NDAA for 
Fiscal Year 2014, are essential elements to reducing the prevalence of 
this crime and ensuring, if it does happen, that our response is 
professional and comprehensive.

    103. Senator Ayotte. Secretary Wright, are we seeing a proportional 
increase in unrestricted reporting?
    Ms. Wright. No. Proportionally, we had a slightly larger increase 
in Restricted Reporting than we did in Unrestricted Reporting. In 
fiscal year 2013, there was a 47 percent increase in Unrestricted 
Reporting from fiscal year 2012. In comparison, there was a 53 percent 
increase in initial Restricted Reports. Of those initial Restricted 
Reports, 208 later converted to Unrestricted Reports.
    That being said, after accounting for those conversions, the 
proportion of Unrestricted Reports to Restricted Reports stayed largely 
the same: About three quarters of reports are Unrestricted and a 
quarter of reports remained Restricted at the end of fiscal year 2013. 
Each year, the proportion of Restricted to Unrestricted Reporting 
varies by a percentage point or two, so the small differences between 
years shown in the table below aren't meaningful. The parallel lines in 
the graph depicted below also demonstrate that the proportion has 
stayed largely the same since 2006.
      
   [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    

    104. Senator Ayotte. Secretary Wright, are victims feeling more 
confident that if they come forward they will receive the support, 
protection, and justice they deserve?
    Ms. Wright. Yes. DOD assesses the unprecedented increase in reports 
received in fiscal year 2013 as consistent with a growing level of 
confidence in the DOD response system. This year, a record number of 
victims sought assistance and care by making a report. Since 2006, the 
average annual increase in reports of sexual assault has been 
approximately 5 percent. In fiscal year 2013, reports of sexual assault 
increased by 50 percent from fiscal year 2012.
    We know that victim choice is a centerpiece of building victim 
confidence and our policy follows a victim-empowerment model that 
allows victims to determine their reporting options, medical care, 
whether to undergo forensic exams, expedited transfer, and legal 
assistance. We legally protect victims' privacy through privileged 
communications with SARCs, SAPR VAs, mental health providers, and 
attorneys that ensure private coordination of care and legal advice.
    During fiscal year 2013, DOD implemented numerous advocacy and 
victim assistance programs, initiatives, and policy enhancements.
    To expand victim rights, the Secretary of Defense directed the 
General Counsel to develop a method to incorporate the rights afforded 
to victims through the Crime Victims' Rights Act into military justice 
practice. The General Counsel was also directed to develop language 
that will amend the Manual for Courts-Martial to provide victims of 
crime the opportunity to provide input to the post-trial action phase 
of courts-martial. DOD also implemented policy for the extended 
retention of DOD Forms 2910 and 2911 in cases of Restricted Reports, 
when requested by the victim.
    To enhance victim protections, the Secretary of Defense directed 
the Secretaries of Military Departments to develop and implement policy 
allowing the administrative reassignment or transfer of a servicemember 
who is accused of committing a sexual offense based on credible report. 
Furthermore, the Director of National Intelligence issued new security 
clearance guidance that is intended to de-stigmatize mental health 
counseling used by sexual assault victims in their recovery. The 
Secretary of Defense also directed the Military Departments to improve 
overall victim care and trust in the chain of command, to increase 
reporting, and to reduce the possibility of ostracizing victims. To do 
this, the Military Departments will implement and monitor methods in 
forthcoming years to improve victim treatment by their peers, co-
workers, and chains of command. Victim input will be solicited in the 
development of these methods.
    To improve and expand victim advocacy services, DOD completed the 
fielding of the DOD Sexual Assault Advocate Certification Program (D-
SAACP), developed an advanced training course for D-SAACP-certified 
SARCs and SAPR VAs, and developed standardized core competencies and 
learning objectives for SARCs and SAPR VAs. DOD also sustained and 
expanded DOD Safe Helpline services, continued collaborating with 
civilian community victim advocates, and continued to provide training 
for recovery care coordinators.
    We believe this multi-disciplinary approach provides victims with 
the support they need, the sensitivity they deserve, and instills the 
confidence they need to come forward and get help.

            military sexual assault--role of the commanders
    105. Senator Ayotte. Secretary Wright, Secretary Woodson, Secretary 
Vollrath, and Mr. Wightman, why do you believe it is important to keep 
commanders at the center of the military justice system making 
disposition decisions?
    Ms. Wright, Dr. Woodson, Mr. Vollrath, and Mr. Wightman. DOD is 
committed to solving the problem of sexual assault in the military. We 
do not believe, however, that removing prosecutorial discretion from 
commanders will help DOD prevent or respond to this crime. On the 
contrary, removing commanders' prosecutorial discretion would likely 
harm prevention efforts. Solving the problem of sexual assault requires 
commander involvement.
    Senior commanders make profound decisions every day, both in and 
out of combat that impact the lives and careers of servicemembers and 
their families. They are accountable for mission accomplishment, as 
well as the health, welfare, readiness, and discipline of those under 
their command. The powers that commanders exercise in the military 
justice system are important tools to achieve these goals.
    In addition, the independent Response Systems Panel, created by 
Congress, recently issued an assessment finding that there was no 
evidence that such a change would reduce the incidence of sexual 
assault or increase reporting of sexual assaults in the Armed Forces.
    Commanders and leaders create the climate in which victims choose 
to report. They facilitate the reporting of sexual assaults by gaining 
victims' confidence in our response system when they understand these 
issues and provide supportive climates. The significant increase in 
reports during fiscal year 2013, with commanders making disposition 
decisions, suggest that our efforts to combat sexual assault are 
starting to increase victim confidence.

                     general officer retirement pay
    106. Senator Ayotte. Secretary Wright, the NDAA for Fiscal Year 
2007 made significant changes to the pay authorities of flag officers. 
The 2007 legislation provided incentives for senior officers to 
continue serving by extending the basic pay table from a cap at 26 
years to provide increase in longevity pay out to 40 years of service. 
According to a press report in USA Today, using 2011 numbers, this 
could result in a four-star officer retiring with 38 years of 
experience receiving $84,000 more per year in retirement than 
previously allowed (63 percent more). The 2007 changes not only 
increased longevity pay for senior officers but also allows senior 
officers retiring with 40 years of service to receive 100 percent of 
their Active Duty pay. Unlike the cap on annual pay, there is currently 
no cap on retired pay for these senior officers. Was the purpose of 
this legislation to encourage combat experienced one- and two-star 
admirals and generals to continue to serve during a time of war?
    Ms. Wright. The legislation, although enacted during a period of 
extended conflict, was intended to address the longer-term concern 
about general and flag officer retention.
    At the time the legislation was enacted, DOD was losing 75 percent 
of the general and flag officer corps 3 or more years prior to their 
mandatory retirement date. With the exception of cost of living 
increases, most O-9s and O-10s were serving for over a decade without 
increases in salary or retired pay.
    Research published by RAND in 2004 indicated compensation was 
inadequate for longer careers and found the opportunity costs of 
continued service to lifetime earnings were substantial.
    DOD does not object to review of, or recommendations regarding, 
retired pay calculations for general and flag officers. However, 
because of the complexity of the military retirement system, any 
proposal for change should be done in the context of a review of that 
system holistically and should, thus, come from the congressionally-
established Military Compensation and Retirement Modernization 
Commission (MCRMC).

    107. Senator Ayotte. Secretary Wright, do you believe this program 
is still necessary given the fact that we have withdrawn from Iraq and 
are withdrawing most of our troops from Afghanistan?
    Ms. Wright. DOD does not object to review of, or recommendations 
regarding, retired pay calculations for general and flag officers. 
However, because of the complexity of the military retirement system, 
any proposal for change should be done in the context of a review of 
that system holistically and should, thus, come from the 
congressionally-established MCRMC.

    108. Senator Ayotte. Secretary Wright, what is the justification, 
if any, for keeping this in place?
    Ms. Wright. DOD does not object to review of, or recommendations 
regarding, retired pay calculations for general and flag officers. 
However, because of the complexity of the military retirement system, 
any proposal for change should be done in the context of a review of 
that system holistically and should, thus, come from the 
congressionally-established MCRMC.

    109. Senator Ayotte. Secretary Wright, is DOD recommending the 
repeal of this provision? Why or why not?
    Ms. Wright. DOD does not object to review of, or recommendations 
regarding, retired pay calculations for general and flag officers. 
However, because of the complexity of the military retirement system, 
any proposal for change should be done in the context of a review of 
that system holistically and should, thus, come from the 
congressionally-established MCRMC.

                 change in reimbursement for lab tests
    110. Senator Ayotte. Secretary Woodson, on February 27, I joined 
several of my colleagues in writing to Secretary Hagel about my serious 
concerns with a change in TRICARE's reimbursement policy that excludes 
certain LDTs and Molecular Pathology Laboratory tests from coverage and 
reimbursement for some TRICARE beneficiaries. These tests include ones 
commonly used to test for diseases or conditions that may develop 
during pregnancy--for example: cystic fibrosis, Fragile X syndrome, and 
spinal muscular atrophy. In the letter, we asked for responses to four 
questions and requested that we receive answers no later than March 14. 
To date, my office has not yet received a response to that letter. How 
soon do you anticipate you will provide a formal written response to 
our letter?
    Dr. Woodson. The response and answers to the four questions was 
signed by Acting USD(P&R) Wright and was mailed on April 11, 2014.

    111. Senator Ayotte. Secretary Woodson, regarding the change in 
reimbursement, many TRICARE beneficiaries as well as laboratories, said 
they were not aware of this change in policy. Did the policy change go 
through the regular notice and public comment period?
    Dr. Woodson. There has been no change in TRICARE's underlying 
coverage policies. In January of 2012, the American Medical Association 
(AMA) released an updated laboratory coding section, including codes 
that previously could be used to bill for LDT. This was done to provide 
greater transparency and insight into what tests were being performed 
by laboratories. When these older codes (with tests that ranged from 
simple blood panels to extremely complex LDTs) were no longer able to 
be used, laboratories began using the new codes, which often specified 
a gene sequence to be looked at, or a reaction to a specific therapy. 
Many of these codes represent LDTs that have not received Food and Drug 
Administration (FDA) approval. In accordance with the Federal 
regulations governing the TRICARE program, medical devices, including 
LDTs, that require FDA approval or clearance for marketing when such 
approval or clearance has not been given are excluded from the TRICARE 
program.

    112. Senator Ayotte. Secretary Woodson, what stakeholder input and 
feedback did TRICARE consider when making the decision to exclude 
certain laboratory tests from reimbursement?
    Dr. Woodson. TRICARE considered its current statute and regulations 
which provide the exclusion for devices (such as laboratory tests) that 
lack FDA approval. In accordance with the Federal regulations governing 
the TRICARE program, medical devices, including LDTs, that require FDA 
approval or clearance for marketing when such approval or clearance has 
not been given are excluded by TRICARE. When the new Current Procedural 
Terminology (CPT) codes created by the AMA for molecular pathology took 
effect on January 1, 2013, TRICARE reviewed these codes and their 
corresponding LDTs to see if any had FDA approval. Per Federal 
regulation, those LDTs that did not have FDA approval are excluded from 
coverage.

    113. Senator Ayotte. Secretary Woodson, is there a sufficient 
appeals process in place for services that a physician determines are 
medically necessary for a specific patient but not covered under 
current TRICARE policy?
    Dr. Woodson. Yes, TRICARE has a well-established appeals and 
hearing process which allows patients to challenge adverse benefit 
determinations. The regulations governing the appeal and hearing 
procedures may be found at Title 32, Code of Federal Regulations, Part 
199.10.
    Determinations of medical necessity and the accompanying TRICARE 
coverage are made on the basis of medical evidence and diligent review.
    It is our number one responsibility to ensure that our patients 
receive only safe and effective treatment. Our demonstration project 
will allow us to address the immediate issue of existing LDTs. However, 
the ongoing development of new tests will present similar issues in the 
near future.

    114. Senator Ayotte. Secretary Woodson, what authorities do you 
currently have that may allow you the flexibility to reinstate 
reimbursement for the laboratory tests that TRICARE decided to exclude 
from coverage?
    Dr. Woodson. Under current Federal regulations (Title 32, Code of 
Federal Regulations (CFR) 199.4(g)(15)(i)(A)), TRICARE may not cost-
share medical devices, including LDTs under the private sector program, 
if the device has not received FDA marketing 510(k) clearance, or 
premarket approval. Pursuant to Title 10, United States Code (U.S.C.) 
Chapter 55, Section 1092, the Secretary of Defense may initiate a 
demonstration project to review non-FDA approved/cleared LDTs for 
safety and efficacy.
    10 U.S.C. 55 section 1092 establishes that the Secretary of 
Defense, in consultation with the other administering Secretaries, 
shall conduct studies and demonstration projects on the health care 
delivery system of the uniformed services with a view to improving the 
quality, efficiency, convenience, and cost-effectiveness of providing 
health care services (including dental care services) under this title 
to members and former members and their dependents. Such studies and 
demonstration projects may include the following:

    (A)  Alternative methods of payment for health and medical care 
services;
    (B)  Cost-sharing by eligible beneficiaries;
    (C)  Methods of encouraging efficient and economical delivery of 
health and medical care services;
    (D)  Innovative approaches to delivery and financing of health and 
medical care services;
    (E)  Alternative approaches to reimbursement for the administrative 
charges of health care plans; and
    (F)  Prepayment for medical care services provided to maintain the 
health of a defined population.

    115. Senator Ayotte. Secretary Woodson, isn't it true that the FDA 
recognizes certain tests as either valuable, appropriate, or as a 
standard of care, even though they may not necessarily be FDA-approved?
    Dr. Woodson. I can only speak of LDTs as it relates to the MHS. 
This question would best be answered by the FDA.

  assessing programs to help members and veterans with psychological 
                               disorders
    116. Senator Ayotte. Secretary Woodson, according to the Institute 
of Medicine (IOM), between 2000 and 2011, nearly 1 million 
servicemembers or veterans were diagnosed with at least one 
psychological disorder either during or after deployment. Almost half 
of those diagnosed had multiple disorders.
    As the result of a congressional mandate, DOD and VA asked the IOM 
to conduct a report on the needs of veterans returning from Iraq and 
Afghanistan. The report--``Returning Home from Iraq and Afghanistan: 
Assessment of Readjustment Needs of Veterans, Service Members, and 
Their Families,'' was released last year. Recently, the IOM released a 
follow-up report titled, ``Preventing Psychological Disorders in 
Service Members and Their Families: An Assessment of Programs.''
    Earlier this year, the Washington Post reported on the latest IOM 
study and noted that the study found that several programs at DOD were, 
``not consistently based on evidence . . . [and] are evaluated 
infrequently or inadequately.'' The study also found that ``each 
military service and the Office of the Secretary of Defense administer 
dozens of family-focused prevention programs,'' and that instead ``a 
more coordinated, comprehensive, and systematic approach is needed.''
    In these studies, the IOM also found that DOD lacks the performance 
measures necessary to conduct a systematic evaluation of its early 
identification and intervention programs that are tailored to 
servicemembers and members of their families who may already have or 
may be at risk for developing a psychological disorder. The IOM 
recommended that DOD focus on implementing a more ``coordinated, 
comprehensive, and systematic approach'' to support prevention programs 
across the life cycle of military service. What steps can you take to 
ensure DOD is able to coordinate efforts in a more efficient manner so 
that prevention and/or early intervention is able to take place and our 
veterans, servicemembers, and their families are able to receive the 
support they may need?
    Dr. Woodson. Significant DOD and VA resources and attention have 
been, and continue to be, actively deployed to address issues of 
integration, coordination, and quality of care within and across both 
agencies. This focus began most intensely in 2010 with the initiation 
of the Integrated Mental Health Strategy (IMHS) chartered by the DOD 
and VA Health Executive Committee, followed by the development of the 
Interagency Task Force (ITF) on Military and Veteran Mental Health 
established by Executive order in August 2012, and has continued with 
new allocation of efforts. Built upon public health principles, the 
IMHS between DOD and VA is comprised of 28 Strategic Actions designed 
to strengthen access to clinical services, improve continuity of care 
across the Departments, streamline the adoption and implementation of 
evidence-based practices, and ensure our mental health providers are 
delivering state-of-the-art care.
    DOD has furthermore greatly increased access to support needed by 
our servicemembers and their families by quadrupling the size of its 
mental health operations since September 11, 2001, and the number of 
providers has increased by 42 percent since 2005. Nearly 10,000 DOD 
mental health providers and 65,000 network providers are currently in 
place to treat the force and numerous lines of effort have reduced 
stigma associated with mental health care. There were more mental 
health visits (2 million) than servicemembers (1.4 million) last year. 
Since embedding behavioral health care into line units throughout the 
Military Departments, use of mental health services by servicemembers 
has doubled and the need for inpatient psychiatric admissions has 
declined by 25 percent. Further, sleep and nutrition programs are 
seeing success, resulting in lower body mass indexes and other signs of 
overall physical health. It is DOD policy that access to mental health 
care has parity with the availability and provision of other types of 
medical care. Compliance with access standards is continuously 
monitored.

        - A new appointment for routine care must be available within 7 
        days. A recent data run suggests that the access performance 
        for routine appointments in mental health clinics is 6.5 days.
        - Urgent appointments must be available within 24 hours and an 
        emergency appointment must be available on demand. Compliance 
        with these standards nears 100 percent.
        - All mental health and multi-disciplinary clinics have an 
        established walk-in care process and clinics now encourage 
        walk-ins as needed to meet servicemembers' needs in the moment. 
        This practice represents a nationwide best practice for 
        access--the ability to take walk-ins at the moment of need.
        - DOD has also begun tracking minimal effective care levels; 
        for example, tracking the percentage of people who receive 4 
        behavioral health visits within 90 days after initial diagnosis 
        of PTSD or depression. This helps ensure that evidence-based 
        interventions (therapy, medication, or both) are being pursued.

    DOD and VA and other leading professional organizations have been 
collaborating on the development of clinical practice guidelines since 
the early 1990s. In 2010 the Institute of Medicine identified VA and 
DOD as leaders in clinical practice guideline development. 
Implementation of these jointly deployed evidence-based clinical 
practice guidelines improves care by reducing variation in practice and 
systematizing best practices within and between these agencies. Two of 
the most recently developed CPGs, now widely in use are the 
``Assessment and Management of Patients at Risk for Suicide (2013)'' 
and ``Management of Post-Traumatic Stress Disorder and Acute Stress 
Reaction (2010).'' Both of these CPGs provide clear and comprehensive 
evidence-based recommendations incorporating current information and 
practices for practitioners throughout the DOD and VA Health Care 
systems to improve patient outcomes and local management of patients 
with suicide related behavior and management of patients diagnosed with 
PTSD or ASD and are intended to improve patient outcomes and local 
management of patients with one of these diagnoses. Implementation of 
common and coordinated training in evidence-based psychotherapies 
(EBPs) for psychological health conditions (e.g., from fiscal year 2011 
through fiscal year 2013, DOD provided training to over 4,700 staff 
members on EBPs and added 78 new EBP trainers/consultants). Measures of 
effectiveness of treatment for depression, anxiety, and PTSD are now 
required by policy, ``Military Treatment Facility Mental Health 
Clinical Outcomes (2013).'' The Army's Behavioral Health Data Portal, a 
standardized, mobile, and cost-effective standalone system for outcome 
measurement, will be adapted for its best use by all Military 
Departments.
    Other steps taken to ensure DOD is able to coordinate efforts in a 
more efficient manner so that prevention and early intervention are 
able to take place are demonstrated by ongoing joint goal-setting and 
programmatic efforts such as:

        - Completion of a series of joint suicide prevention summits 
        with national leaders and support professionals engaged in 
        suicide prevention.
        - Execution of two proofs of concept pilots to share mental 
        health staff during times of need with follow-on 
        recommendations proposed to the HEC. The PH/TBI WG and the 
        Credentialing and Privileging work group are implementing 
        recommendations in response to lessons learned from these pilot 
        programs.
        - Release of two web-based self-help training courses: ``Moving 
        Forward'' and ``Parenting for Servicemembers, Veterans, and 
        their Families.'' These courses were developed to enhance 
        access to and engagement with evidence-based mental health 
        resources, and are accompanied by companion mobile 
        applications.
        - Dissemination of four required Military Culture Training 
        modules on the VA Training Management System and the 
        mhs.health.mil web sites in November 2013. The release of these 
        modules will increase VA, TRICARE-network, and non-network 
        provider knowledge about military ethos and its impact on 
        psychological health and treatment.

    Most recently, the Cross-Agency Priority Goal (CAP Goal) on 
servicemembers and veterans mental health was announced on March 10, 
2014, which will continue over a 3-year period. The CAP Goal is led 
jointly by the Deputy Secretary of Veterans Affairs, and the Deputy 
Director of the White House Domestic Policy Council, together with 
senior leaders from DOD, HHS, and the White House policy councils. 
Progress on the CAP Goal will be overseen by the Office of Management 
and Budget (OMB) and the Performance Improvement Council, and CAP Goal 
Leaders are required to report quarterly to OMB on their progress under 
the CAP Goal.

        - The CAP Goal was designed to leverage the successes made by 
        the VA, DOD, and HHS in implementing the President's Executive 
        order on improving access to mental health services for 
        veterans, servicemembers, and their families. Much of this work 
        has been carried out by the ITF which is currently co-chaired 
        by the DOD Assistant Secretary of Defense for Health Affairs 
        (ASD(HA)); the VA Under Secretary for Health; and the HHS 
        Administrator for Substance Abuse and Mental Health Services 
        Administration. The Task Force will submit its next annual 
        report to the President in May 2014.
        - The ITF is currently overseeing a substantial amount of work 
        in the mental health space, including much work that ties 
        directly to the CAP Goal mandate. Based on feedback from the 
        VA, DOD, and HHS, including senior representatives of the ITF, 
        the CAP Goal shall be executed within the existing ITF 
        structure to ensure that we build on the good work that is 
        ongoing under the current ITF structure, and to avoid 
        duplication of efforts.
        - The ITF will continue to operate, focusing on the 
        requirements of the Executive order, but beginning in April 
        2014, the ITF will take on the added responsibility of 
        implementing the CAP Goal lines of effort. All together, the 
        combined goals and initiatives of the pre-existing IMHS, the 
        ITF and CAP Goal will ensure that high-quality care is better 
        coordinated and delivered in an efficient and effective manner.

    117. Senator Ayotte. Secretary Woodson, regarding treatment for 
servicemembers with psychological health problems, the IOM found that 
challenges still exist at both DOD and VA. Among the areas of concern 
noted by IOM are inconsistencies in the availability of care, as well 
as a lack of systematic evaluation for treatment programs. How can DOD 
work more efficiently with the VA, as well as within your own 
Department, to ensure that high-quality care is better coordinated and 
delivered in an efficient and effective manner?
    Dr. Woodson. Significant DOD and VA resources and attention have 
been, and continue to be, actively deployed to address issues of 
integration, coordination and quality of care within and across both 
agencies. This focus began most intensely in 2010 with the initiation 
of the Integrated Mental Health Strategy (IMHS) chartered by the DOD 
and VA Health Executive Committee, followed by the development of the 
ITF on Military and Veteran Mental Health established by Executive 
order in August 2012, and has continued with new allocation of efforts. 
Built upon public health principles, the IMHS between DOD and VA is 
comprised of 28 Strategic Actions designed to strengthen access to 
clinical services, improve continuity of care across the Departments, 
streamline the adoption and implementation of evidence-based practices, 
and ensure our mental health providers are delivering state-of-the-art 
care.
    DOD has furthermore greatly increased access to support needed by 
our servicemembers and their families by quadrupling the size of its 
mental health operations since September 11, 2001, and the number of 
providers has increased by 42 percent since 2005. Nearly 10,000 DOD 
mental health providers and 65,000 network providers are currently in 
place to treat the force and numerous lines of effort have reduced 
stigma associated with mental health care. There were more mental 
health visits (2 million) than servicemembers (1.4 million) last year. 
Since embedding behavioral health care into line units throughout the 
Military Departments, use of mental health services by servicemembers 
has doubled and the need for inpatient psychiatric admissions has 
declined by 25 percent. Further, sleep and nutrition programs are 
seeing success, resulting in lower body mass indexes and other signs of 
overall physical health. It is DOD policy that access to mental health 
care has parity with the availability and provision of other types of 
medical care. Compliance with access standards is continuously 
monitored.

        - A new appointment for routine care must be available within 7 
        days. A recent data run suggests that the access performance 
        for routine appointments in mental health clinics is 6.5 days.
        - Urgent appointments must be available within 24 hours and an 
        emergency appointment must be available on demand. Compliance 
        with these standards nears 100 percent.
        - All mental health and multi-disciplinary clinics have an 
        established walk-in care process and clinics now encourage 
        walk-ins as needed to meet servicemembers' needs in the moment. 
        This practice represents a nationwide best practice for 
        access--the ability to take walk-ins at the moment of need.
        - DOD has also begun tracking minimal effective care levels; 
        for example, tracking the percentage of people who receive four 
        behavioral health visits within 90 days after initial diagnosis 
        of PTSD or depression. This helps ensure that evidence-based 
        interventions (therapy, medication, or both) are being pursued.

    DOD and VA and other leading professional organizations have been 
collaborating on the development of clinical practice guidelines since 
the early 1990s. In 2010 the Institute of Medicine identified VA and 
DOD as leaders in clinical practice guideline development. 
Implementation of these jointly deployed evidence-based clinical 
practice guidelines improves care by reducing variation in practice and 
systematizing best practices within and between these agencies. Two of 
the most recently developed CPGs, now widely in use are the 
``Assessment and Management of Patients at Risk for Suicide (2013)'' 
and ``Management of Post-Traumatic Stress Disorder and Acute Stress 
Reaction (2010).'' Both of these CPGs provide clear and comprehensive 
evidence-based recommendations incorporating current information and 
practices for practitioners throughout the DOD and VA Health Care 
systems to improve patient outcomes and local management of patients 
with suicide related behavior and management of patients diagnosed with 
PTSD or ASD and are intended to improve patient outcomes and local 
management of patients with one of these diagnoses. Implementation of 
common and coordinated training in evidence-based psychotherapies 
(EBPs) for psychological health conditions (e.g., from fiscal year 2011 
through fiscal year 2013, DOD provided training to over 4,700 staff 
members on EBPs and added 78 new EBP trainers/consultants). Measures of 
effectiveness of treatment for depression, anxiety, and PTSD are now 
required by policy, ``Military Treatment Facility Mental Health 
Clinical Outcomes (2013).'' The Army's Behavioral Health Data Portal, a 
standardized, mobile, and cost-effective standalone system for outcome 
measurement, will be adapted for its best use by all Military 
Departments.
    Other steps taken to ensure DOD is able to coordinate efforts in a 
more efficient manner so that prevention and early intervention are 
able to take place are demonstrated by ongoing joint goal-setting and 
programmatic efforts such as:

        - Completion of a series of joint suicide prevention summits 
        with national leaders and support professionals engaged in 
        suicide prevention.
        - Execution of two proofs of concept pilots to share mental 
        health staff during times of need with follow-on 
        recommendations proposed to the HEC. The PH/TBI WG and the 
        Credentialing and Privileging work group are implementing 
        recommendations in response to lessons learned from these pilot 
        programs.
        - Release of two web-based self-help training courses: ``Moving 
        Forward'' and ``Parenting for Servicemembers, Veterans, and 
        their Families.'' These courses were developed to enhance 
        access to and engagement with evidence-based mental health 
        resources, and are accompanied by companion mobile 
        applications.
        - Dissemination of four required Military Culture Training 
        modules on the VA Training Management System and the 
        mhs.health.mil web sites in November 2013. The release of these 
        modules will increase VA, TRICARE-network, and non-network 
        provider knowledge about military ethos and its impact on 
        psychological health and treatment.

    Most recently, the Cross-Agency Priority Goal (CAP Goal) on 
servicemembers and veterans mental health was announced on March 10, 
2014, which will continue over a 3-year period. The CAP Goal is led 
jointly by the Deputy Secretary of Veterans Affairs, and the Deputy 
Director of the White House Domestic Policy Council, together with 
senior leaders from DOD, HHS, and the White House policy councils. 
Progress on the goal will be overseen by OMB and the Performance 
Improvement Council, and CAP Goal Leaders are required to report 
quarterly to OMB on their progress under the CAP Goal.

        - The Goal was designed to leverage the successes made by VA, 
        DOD, and HHS in implementing the President's Executive order on 
        improving access to mental health services for veterans, 
        servicemembers, and their families. Much of this work has been 
        carried out by the ITF which is currently co-chaired by the DOD 
        ASD(HA); the VA Under Secretary for Health; and the HHS 
        Administrator for Substance Abuse and Mental Health Services 
        Administration. The Task Force will submit its next annual 
        report to the President in May 2014.
        - The ITF is currently overseeing a substantial amount of work 
        in the mental health space, including much work that ties 
        directly to the CAP Goal mandate. Based on feedback from the 
        VA, DOD, and HHS, including senior representatives of the ITF, 
        the CAP Goal shall be executed within the existing ITF 
        structure to ensure that we build on the good work that is 
        ongoing under the current ITF structure, and to avoid 
        duplication of efforts.
        - The ITF will continue to operate, focusing on the 
        requirements of the Executive order, but beginning in April 
        2014, the ITF will take on the added responsibility of 
        implementing the CAP Goal lines of effort. All together, the 
        combined goals and initiatives of the pre-existing IMHS, the 
        ITF and CAP Goal will ensure that high-quality care is better 
        coordinated and delivered in an efficient and effective manner.

        unified medical program--fiscal year 2015 budget request
    118. Senator Ayotte. Secretary Hale, in DOD's medical budget 
request, there is $122 million added for expected TRS participation in 
part due to certain ACA mandates. Can you give me more detail about 
these expected additional costs to DOD?
    Mr. Hale. DOD routinely tracks TRS users and costs, so we are able 
to identify changes in this program on a monthly and yearly basis. We 
speculated that the ACA, and specifically the individual mandate 
provision, as well as the DOMA could drive an increase in users and 
costs. We did experience a modest increase in TRS participation in 
fiscal years 2012 and 2013, although we cannot specifically attribute 
that to ACA or DOMA. However, based upon this increasing participation, 
we felt it prudent to request reasonable additional funding for the 
program beginning in fiscal year 2015. We will track participation and 
costs and make appropriate adjustments based upon actual experience. 
Following are high-level explanations of the calculations performed.
Affordable Care Act (ACA)
    The DOD fiscal year 2015 President's budget request assumes the TRS 
program will be the primary point of entry into the MHS for those 
eligible individuals, based on their own healthcare consumer decision 
criteria, who wish to comply with the ACA established requirements via 
a DOD sponsored program. Based on an analysis of both population and 
price, the fiscal year 2015 estimate cost is approximately $71 million. 
This analysis projects an increase in enrollment of approximately 
27,000 single plans and approximately 14,000 family plans. Projected 
cost to DOD is $906 for a single plan and $3,382 for a family plan. 
These calculations yield a potential additional cost to DOD of $24 
million for single plans and $47 million for family plans.
Repeal Defense of Marriage Act
    Similarly, DOD fiscal year 2015 President's budget request assumes 
the repeal of DOMA will result in an increase in health care and dental 
costs of approximately $50 million. This estimate is the product of two 
factors: anticipated eligible beneficiary population growth and 
projected average cost per beneficiary. The estimate assumes an 
eligible beneficiary population growth of approximately 17,000 and an 
average cost per beneficiary $2,941.

    119. Senator Ayotte. Secretary Hale, how do they break out?
    Mr. Hale. Following are high-level breakout explanations of the 
calculations performed.
Affordable Care Act (ACA)
    DOD fiscal year 2015 President's budget request assumes the TRS 
program will be the primary point of entry into the MHS for those 
eligible individuals, based on their own healthcare consumer decision 
criteria, who wish to comply with the ACA established requirements via 
a DOD sponsored program. Based on an analysis of both population and 
price, the fiscal year 2015 estimate cost is approximately $71 million. 
This analysis projects an increase in enrollment of approximately 
27,000 single plans and approximately 14,000 family plans. Projected 
cost to DOD is $906 for a single plan and $3,382 for a family plan. 
These calculations yield a potential additional cost to DOD of $24 
million for single plans and $47 million for family plans.
Repeal Defense of Marriage Act
    Similarly, the DOD fiscal year 2015 President's budget request 
assumes the repeal of DOMA will result in an increase in health care 
and dental costs of approximately $50 million. This estimate is the 
product of two factors: anticipated eligible beneficiary population 
growth and projected average cost per beneficiary. The estimate assumes 
an eligible beneficiary population growth of approximately 17,000 and 
an average cost per beneficiary $2,941.

    120. Senator Ayotte. Secretary Hale, when did DOD realize that ACA 
mandates would increase DOD healthcare costs?
    Mr. Hale. DOD routinely tracks TRS users and costs, so we are able 
to identify changes in this program on a monthly and yearly basis. We 
speculated that the ACA, and specifically the individual mandate 
provision, as well as the DOMA could drive an increase in users and 
costs. We did experience a modest increase in TRS participation in 
fiscal years 2012 and 2013, although we cannot specifically attribute 
that to ACA or DOMA. However, based upon this increasing participation, 
we felt it prudent to request reasonable additional funding for the 
program beginning in fiscal year 2015. We will track participation and 
costs and make appropriate adjustments based upon actual experience.
                                 ______
                                 
                Questions Submitted by Senator Roy Blunt
                   religious freedom in the military
    121. Senator Blunt. Secretary Wright, many members of our military 
are people who profess a particular religious faith. Their ability to 
practice and freely express their faith is vital for their well-being 
and morale and essential as a matter of the First Amendment. Do you 
agree that a climate of uncertainty regarding a servicemember's ability 
to practice or express their faith is harmful for servicemembers?
    Ms. Wright. Yes, that is why DOD is preparing additional training 
materials to clarify issues regarding the First Amendment right to the 
free exercise of religion of all military personnel. We place a high 
value of the rights of personnel and their families to observe the 
tenets of their religious beliefs and recognize that the free exercise 
of religion is an important element of the operational readiness and 
well-being of our force.

    122. Senator Blunt. Secretary Wright, for the second year in a row, 
Congress passed provisions in the NDAA requiring DOD to respect the 
conscience rights and religious expression of servicemembers. The NDAA 
for Fiscal Year 2014 required implementing of regulations by 90 days 
after enactment. That deadline was this week and we still do not have 
complete implementing regulations from DOD outlining how DOD will 
comply with the provisions outlined in the law. Please provide a status 
update.
    Ms. Wright. DODI 1300.17, ``Accommodation of Religious Practices 
Within the Services,'' was updated January 22, 2014, and DODI 1304.28, 
``Guidance for the Appointment of Chaplains for the Military 
Departments,'' was updated March 20, 2014. These two Instructions 
incorporated applicable portions of the explicit language in the NDAA 
for Fiscal Year 2014 protecting the conscience rights and religious 
expressions of servicemembers and specifically chaplains.

recent incident at the air force academy regarding religious expression
    123. Senator Blunt. Secretary Wright, the Air Force Academy said in 
a March 14 press release that their emphasis is on core values and 
following DOD policy. Please explain the Air Force's understanding of 
DODI 1300.17, which references the NDAA for Fiscal Year 2014 
requirement for the DOD to respect a servicemember's expression of 
religious beliefs.
    Ms. Wright. Consistent with Department of Defense Instruction 
(DODI) 1300.17, ``Accommodation of Religious Practices in the DOD 
(section 4.a),'' the Air Force protects the rights of its airmen to 
observe religious practices in accordance with the tenets of their 
respective religions or to observe no religion at all. In accordance 
with NDAA 2014, section 533(a), Air Force policy directs commanders to 
approve requests for religious accommodation unless they could have an 
adverse impact on mission accomplishment, military readiness, unit 
cohesion, standards, and discipline (cf. AFI 52-101, 4.1).
    In order to incorporate the expanded language of NDAA 2014, as 
articulated in the January 22, 2014, update to DODI 1300.17, the Air 
Force is reviewing AFI 52-101 and other relevant policies. With regard 
to the implementation of NDAA 2014, section 533(b), the protection of 
chaplain decisions relating to conscience, moral principles, or 
religious beliefs, DODI 1304.28, ``Guidance for the Appointment of 
Chaplains,'' was updated on March 20, 2014.
    The Air Force is also revising its religious accommodation policies 
to reflect the public law and the DODI 1304.28. The revision of AFI 52-
101 will state that no servicemember may require a chaplain to perform 
any rite, ritual, or ceremony that is contrary to the conscience, moral 
principles, or religious beliefs of the chaplain. Further, the policy 
will state that no servicemember may discriminate or take any adverse 
personnel action on the basis of the refusal by the chaplain to comply 
with a requirement prohibited by public law and the DODI.
    Finally, the Air Force Chief of Staff hosted a Religious Freedom 
Focus Day on April 28, 2014, in Pentagon City, VA, for Air Force senior 
leaders. The event focused on discussion and thorough review of law, 
policy, practice, standards, complaints, and education concerning 
religious freedoms in the Air Force.


 DEPARTMENT OF DEFENSE AUTHORIZATION OF APPROPRIATIONS FOR FISCAL YEAR 
               2015 AND THE FUTURE YEARS DEFENSE PROGRAM

                              ----------                              


                        WEDNESDAY, APRIL 9, 2014

                               U.S. Senate,
                         Subcommittee on Personnel,
                               Committee on Armed Services,
                                                    Washington, DC.

  TO CONTINUE TO RECEIVE TESTIMONY ON THE ACTIVE, GUARD, RESERVE, AND 
                      CIVILIAN PERSONNEL PROGRAMS

    The subcommittee met, pursuant to notice, at 9:56 a.m. in 
room SR-222, Russell Senate Office Building, Senator Kirsten E. 
Gillibrand (chairwoman of the subcommittee) presiding.
    Committee members present: Senators Gillibrand, Hirono, 
Kaine, King, Ayotte, and Graham.

 OPENING STATEMENT OF SENATOR KIRSTEN E. GILLIBRAND, CHAIRWOMAN

    Senator Gillibrand. The subcommittee meets today to receive 
testimony from the military Services on military and civilian 
personnel programs contained in the administration's Defense 
Authorization Request for Fiscal Year 2015 and the Future Years 
Defense Program (FYDP).
    Before we begin, I want to acknowledge the services being 
held today at Fort Hood, TX. Our thoughts and prayers are with 
the victims of the tragedy that occurred there last week and 
their families. We send our soldiers, airmen, sailors, and 
marines into harm's way, but we do not expect the harm to come 
from their brothers and sisters in arms here in America. It is 
always shocking and saddening when a tragedy like this happens 
at home.
    I thank all the witnesses for being here today.
    Today we have two panels. The first panel consists of the 
uniformed personnel chiefs responsible for military and 
civilian personnel matters within the Services. We will discuss 
not only their plans and programs for fiscal year 2015, but 
specific budget items in furtherance of the subcommittee's 
oversight. The markup of the 2015 defense bill is not far away, 
and your statements and testimony today are extremely important 
as we prepare for the legislative year ahead.
    Our witnesses are Lieutenant General Howard B. Bromberg, 
U.S. Army, Deputy Chief of Staff, G-1; Vice Admiral William F. 
Moran, U.S. Navy, Chief of Naval Personnel, N-1; Lieutenant 
General Samuel D. Cox, U.S. Air Force, Deputy Chief of Staff 
for Manpower, Personnel and Services, A-1; and Lieutenant 
General Robert E. Milstead, Jr., U.S. Marine Corps, Deputy 
Commandant, Manpower and Reserve Affairs.
    The second panel consists of senior enlisted members of the 
Services. I will introduce them after the first panel 
concludes.
    As I stated 2 weeks ago at our hearing with senior 
Department of Defense (DOD) leaders, I have grave concerns 
about this budget, which DOD submitted at a time of tremendous 
challenge and uncertainty for the Nation and the military. 
Military personnel funding, including funding for health care 
for servicemembers, their families, and retirees, school and 
commissary benefits, totals $176.6 billion in the fiscal year 
2015 request. While this represents a slight decline over last 
year's total, the portion of the total budget devoted to 
personnel has risen. In fact, this year's budget supports 
36,000 fewer Active Duty servicemembers than last year's.
    DOD's budget request contains numerous proposals intended 
to slow the growth of personnel costs, which would yield over 
$2 billion in savings in fiscal year 2015. These savings have 
been reallocated to the operating and modernization accounts. I 
hope that today we will learn more about the details of these 
proposals. Although we have yet to see all the details, we know 
that each proposal will have significant impact in and of 
itself. Yet, I am especially concerned about their cumulative 
effect on servicemembers, especially on junior members of the 
force and their families. As our hearing with DOD revealed, it 
will be difficult for many of us to support these proposals.
    I hope our witnesses today will tell us why these 
compensation proposals are needed, what will have to be cut if 
Congress does not support them, and why they cannot wait for 
the Military Compensation and Retirement Modernization 
Commission (MCRMC) to report next February, which is tasked 
with looking at these very issues in a comprehensive way. I am 
particularly interested in hearing from the senior enlisted 
members on the second panel about how these proposals will 
impact the enlisted force and what implications they foresee if 
we do not make all of these changes.
    DOD and the Services continue the process of removing 
barriers to service by women, an effort I strongly endorse. 
While the Army and Marine Corps are opening positions in 
occupations already open to women, the real challenge moving 
forward will be opening occupations such as infantry, that are 
currently closed. A little more than a year ago, Secretary 
Panetta and General Dempsey rescinded the ground combat 
exclusion policy and gave the Services and the Special 
Operations Command until January 2016 to open all positions to 
service by women or to request an exception to keep certain 
positions closed. At the time, Secretary Panetta said: ``Our 
purpose is to ensure that the mission is carried out by the 
best qualified and the most capable servicemembers, regardless 
of gender and regardless of creed and beliefs. If members of 
our military can meet the qualifications for a job--and let me 
be clear, I am not talking about reducing the qualifications 
for the job--then they should have the right to serve.'' I 
strongly endorse this principle that the best qualified 
servicemember, regardless of gender, should be able to compete 
for even the most difficult jobs.
    I hope that the Services, particularly the Army and Marine 
Corps, are taking a deliberate and measured approach to 
validating occupational standards. I believe that a 
scientifically rigorous process that creates gender-neutral 
standards will best serve our military and our servicemembers, 
both men and women. I hope our witnesses today can tell us 
where they are in implementing the Secretary's directive to 
open all military occupations to women, how they are validating 
occupational requirements, and whether they believe this will 
be done on time.
    I remain concerned about sexual assaults in the military. I 
was disappointed that despite the support of the majority of my 
colleagues, we were not given the opportunity to vote on 
passage of my proposal to make sure that decisions to prosecute 
serious offenses are made by trained, professional, and 
independent lawyers rather than commanders who do not have the 
training or perspective to make these decisions. But I have not 
given up on making this change that our survivors have told us 
will make a difference when it comes to reporting the crime.
    I will also continue my efforts to make sure that the 
changes that have been legislated are implemented in an 
effective manner and will continue to work toward initiatives 
to better address this scourge in our military.
    Senator Graham?

              STATEMENT OF SENATOR LINDSEY GRAHAM

    Senator Graham. Thank you.
    I will join with the chairwoman of the subcommittee to 
report to the full committee a Personnel Subcommittee markup 
that defers to the MCRMC. I think it is very important that we 
allow this commission to work and that we not make any 
structural changes to personnel until the commission report is 
back.
    Having said that, personnel costs are about half the budget 
of DOD, and there will have to be reforms in retirement. They 
just need to be prospective.
    We will have to look at the sustainability of TRICARE. On 
the Reserve side, I am very much interested in what we can do 
to not only manage personnel costs but make sure that our Guard 
and Reserve members are benefiting from programs that already 
exist like TRICARE. One of the more significant accomplishments 
I have been involved in is making TRICARE available to 
guardsmen and reservists for a fee and their families. I hope 
that is helping with recruiting and retention and readiness.
    Before Senator Clinton and I were able to come together on 
legislation, guardsmen and reservists were not eligible for 
TRICARE. If you were called to Active Duty, you would have to 
get out of your network if you had one, and your family would 
have to change doctors. When you were demobilized, you would 
have to switch back if you had a health care provider. That 
created a lot of disconcerting events for families. Now TRICARE 
is available to all guardsmen and reservists, and I think that 
has been a good step toward readiness.
    I am very proud of the reforms that Senator Ayotte and 
others have made to the way we report sexual assaults in the 
military. We are trying to have the most victim-friendly 
reporting system of any jurisdiction in the country. A judge 
advocate general (JAG) in the future will be assigned to every 
victim. When a commander makes a decision regarding the four 
major sexual assault crimes in the military, if the JAG 
recommends prosecution and the commander says no, that is 
automatically taken up with the Service Chief to review the 
case, which I think is a good way to let the commanders know 
how seriously we take these allegations. Also, if the commander 
and the JAG recommend not to prosecute where there is unanimity 
between the lawyer and the commander, that has to be reviewed 
by the commander's next chain of command, which I think is 
appropriate.
    I could not disagree with Senator Gillibrand's solution to 
this problem more. She is going to continue. I am certainly 
going to continue to stop what I think would be an incredibly 
bad thing for the military, to remove commanders from having 
responsibility, not just over sexual assaults but about 40 
percent of the Uniform Code of Military Justice (UCMJ).
    I believe we have the finest military in the world and it 
is for a reason, because our commanders are responsible for 
delivering well-trained, ready troops, and they have to make 
incredible decisions of life and death. At the end of the day, 
they have the ability. They need the ability to discipline the 
force. I never want a situation to occur in the military where 
there was a sexual assault or an alleged sexual assault in the 
barracks and the commander says that is no longer my problem. 
That would be devastating for any unit in the Marine Corps, 
Army, Navy, and Air Force. I think those who are in the 
military understand exactly what I am saying. I will never give 
into that because I think it will destroy that continuity of 
command.
    Finally, about military justice. No matter who recommends 
the case to go forward, I do hope that Members of the Senate 
and the House will understand that we have an independent 
judicial system, and verdicts are not designed to please me or 
anyone else. They are designed to render justice, and I hope we 
will respect the integrity of the court-martial system, which 
is patterned after the Federal Rules of Evidence, and that when 
somebody is tried in the military, that the presumption of 
innocence will continue, that the victim will have their say, 
that they will have legal advice that will be consistent with 
allowing them to come forward, that we are changing the Article 
32 process so the victim does not have to be called in the 
Article 32 hearing, which I think, working with Senator Boxer, 
is a good change. But at the end of the day, everybody accused 
of a crime anywhere needs to make sure they have a fair trial.
    Thank you very much. I look forward to the hearing.
    Senator Gillibrand. Thank you, Senator Graham.
    I now invite your opening statements.
    Lieutenant General Bromberg.

   STATEMENT OF LTG HOWARD B. BROMBERG, USA, DEPUTY CHIEF OF 
                     STAFF, G-1, U.S. ARMY

    Lieutenant General Bromberg. Good morning, Chairwoman 
Gillibrand, Senator Graham, distinguished members of this 
subcommittee. Thank you for the opportunity to appear before 
you on behalf of America's Army.
    As we begin our 13th straight year of war with over 151,000 
deployed or forward stationed today, we stand at a pivotal 
moment in our history. Due to budgetary reductions, we are 
executing an historic drawdown of both our military and 
civilian personnel while in an unpredictable global security 
environment. It is imperative our drawdown efforts be conducted 
in a careful and responsible manner that maintains the highest 
quality All-Volunteer Force while ensuring the readiness of our 
Army for today and for the future.
    Our abilities to meet the challenges of the current and 
future operational environment depends upon our efforts to 
recruit and retain the All-Volunteer Force. As we draw down the 
Army, we continue to bring in high quality men and women into 
the force to grow our future leaders or retain the most 
talented soldiers with the experience and skills necessary to 
meet our future needs. Our recruiting operations will face 
greater challenges as a greater percentage of America's youth 
become ineligible for military service.
    As the Army looks to the future, we must take advantage of 
all of America's diverse talents. We are expanding 
opportunities for women by opening up previously closed 
positions and career paths, while ensuring all soldiers can 
meet the required physical and professional standards.
    The Army is committed to helping soldiers, veterans, and 
families transition to a civilian life, career ready, with 
established networks of enablers connecting them with 
employment, education, and health care. We recognize these 
soldiers as soldiers for life and in many cases want to 
encourage their continued service in the Reserve component.
    We have made significant strides in this past year 
eliminating backlogs in the Integrated Disability Evaluation 
System (IDES) and ensuring that soldiers receive the benefits 
they deserve. We successfully partnered with the Department of 
Veterans Affairs to streamline the disability system and 
improve coordination for health care, compensation, and 
benefits for our medically separated or retired soldiers.
    Response to and prevention of sexual assault and harassment 
continue to be the Army's top priority with a goal to change 
our culture and reduce and ultimately eliminate this crime from 
our ranks. We have implemented an unprecedented number of 
programs and policy initiatives designed to improve our sexual 
harassment and assault response program, and I am confident 
that our efforts are putting the right processes and procedures 
in place to ensure a climate of safety, trust, and respect for 
every member of the Army family, while enhancing accountability 
of every member of the Army team.
    Our efforts to increase individual and collective 
resilience and improve readiness have made significant strides 
in the fight against substance abuse, suicide, and stigma 
reduction.
    As the Army becomes stronger, your support is essential to 
our efforts as we draw down thoughtfully, accurately, and 
efficiently while maintaining readiness and caring for all of 
the members of the Army team.
    Chairwoman Gillibrand, Senator Graham, members of the 
subcommittee, thank you for your continued support.
    I look forward to your questions.
    [The prepared statement of General Bromberg follows:]
           Prepared Statement by LTG Howard B. Bromberg, USA
                              introduction
    Chairwoman Gillibrand, Senator Graham, distinguished members of 
this subcommittee, I thank you for the opportunity to appear before you 
on behalf of America's Army. As the U.S. Army begins its 13th straight 
year of war, it also stands at a pivotal moment in history. Throughout 
our Nation's history, the United States has drawn down military forces 
at the close of every war. Today, however, we are in the process of 
rapidly drawing down Army forces before the war is over, while 
remaining in an unpredictable global security environment. It is 
imperative our drawdown efforts be conducted in a careful and 
responsible manner that maintains the highest quality All-Volunteer 
Force while ensuring the readiness of our Army for today and the 
future.
    Our soldiers have performed superbly during more than a decade of 
war, displaying the values, character and competence that make our Army 
second to none. We must not waver on our commitment to support all 
those who have selflessly served with courage, and honor. While the 
future Army will be smaller, the Army is implementing a number of 
changes in force structure and other capabilities to ensure it remains 
the best-led, best-trained, and best-equipped land force in the world 
today.
    Thank you for your steadfast commitment to support our personnel 
initiatives to ensure the sustainment and well being of our All-
Volunteer Force.
                           strategic overview
    The Army remains engaged in our Nation's longest conflict of more 
than 13 years with nearly 1.5 million soldiers having deployed once and 
more than half a million having deployed multiple times. Today more 
than 66,000 U.S. Army soldiers are deployed to contingency operations, 
with nearly 32,000 soldiers supporting operations in Afghanistan. In 
addition, there are approximately 85,000 soldiers forward stationed 
across the globe in nearly 150 countries worldwide. Our soldiers, 
civilian employees, and family members remain the strength of our 
Nation.
    During this time of uncertain budget and security environments, the 
Army must responsibly reduce endstrength while reorganizing into a 
force that continues to remain prepared to respond to new threats. To 
maintain an All-Volunteer Force of the highest quality soldiers and 
achieve our end-strength goal, the Army must balance force shaping 
across accessions, retention, promotions, voluntary and involuntary 
separations, and natural losses. Consistent with the 2012 Defense 
Strategic Guidance, we are in the process of drawing down Active Army 
end strength from a wartime high of 570,000 to 490,000--a 14 percent 
cut--by the end of fiscal year 2015. Simultaneously, we are expanding 
opportunities for women in the Army by opening up previously closed 
positions and career paths, while ensuring all soldiers can meet the 
required physical and professional standards. We continue to prioritize 
the response to and elimination of sexual assault and harassment in the 
Army, and through the combined efforts of our military and civilian 
leaders at all levels, we're implemented an unprecedented number of 
program and policy initiatives to eradicate this crime from our ranks. 
Our efforts to enhance individual and collective resilience and improve 
readiness also made strides in the fight against substance abuse, 
suicide and stigma reduction encouraging all to seek help. 
Additionally, we have made significant progress this past year in 
eliminating backlogs in the Integrated Disability Evaluation System and 
ensuring that soldiers receive the benefits they deserve.
    Over the last year, we have increased assistance to our soldiers 
who transition from their military careers. This past year, we 
successfully partnered with the Department of Veterans Affairs to 
streamline the disability system and improve coordination for health 
care, compensation, and benefits for our medically separated and 
retired soldiers. Our All-Volunteer Force deserves a quality 
transition, and this year approximately 87,000 soldiers will leave the 
Active Army and approximately 57,000 will leave the Reserve component 
in pursuit of other endeavors. As they reintegrate into their 
communities, we will ensure they are career-ready, with opportunities 
to use their skills and experience. As we move forward, our efforts 
must remain focused on our most precious resource, our soldiers, 
families, civilian employees, and veterans.
                         drawdown/end strength
    Under the provisions of the fiscal year 2015 budget request, the 
Total Army will reduce to 980,000 soldiers--450,000 in the Active 
component, 335,000 in the Army National Guard (ARNG), and 195,000 in 
the U.S. Army Reserve (USAR) by fiscal year 2017. At this size and 
component mix, the Army will be able to execute the 2012 Defense 
Strategic Guidance, but it will be at significant risk. However, under 
full sequestration funding levels in fiscal year 2016, the Army will be 
required to further reduce endstrength to 420,000 in the Active 
component, 315,000 in the ARNG, and 185,000 in the USAR by fiscal year 
2019. These projected end strength levels would not enable the Army to 
execute the 2012 Defense Strategic Guidance.
    There is no single force shaping method among the choice of 
accessions, retention and separations that will achieve the Army's end 
strength goals, and we will be required to use involuntary separation 
measures. Reduction programs will focus both quantitatively on soldier 
populations where projected inventories, by grade and skill, exceed 
future requirements, and qualitatively by assessing soldiers' potential 
for future service. The National Defense Authorization Acts for Fiscal 
Year 2012 and Fiscal Year 2013 provided several authorities to help the 
Army shape the force over the drawdown period, along with the 
flexibility for application against specific grade and skill 
requirements. To date, we've separated 239 retirement eligible 
lieutenant colonels and colonels using a Selective Early Retirement 
Board, and approximately 1,100 noncommissioned officers using the 
Qualitative Separation Program. An Officer Separation Board and 
Enhanced Selective Early Retirement Board are currently in session and 
will select up to 2,000 captains and majors for separation. While we 
will lose some combat-seasoned soldiers through involuntary separation 
boards they are required along with reduced accession levels, 
competitive selection boards, and precision retention to ensure the 
Army will balance the force, achieve end strength goals, and retain our 
most talented soldiers for the future.
    As the Army implements its drawdown strategy to balance the force 
and sustain capability and readiness, we are extremely sensitive to 
ensuring that we treat our All-Volunteer Force with dignity and respect 
recognizing the service and sacrifices of our soldiers and their 
families. While the Army will not be able to achieve sufficient 
reductions in end strength through natural losses and normal attrition 
alone, the Army's priority remains retaining soldiers with the greatest 
potential for continued service while encouraging quality soldiers 
transitioning from the Active component to continue to serve in the 
Reserve components.
            recruiting and retention (officer and enlisted)
    Our ability to meet the challenges of the current and future 
operational environment depends on our ability to recruit and retain 
the All-Volunteer Army. Our recruiting mission is currently at 57,000--
the lowest level possible to maintain readiness. As we drawdown the 
Army, we continue to bring high quality men and women into the force to 
grow our future leaders while retaining the most talented soldiers with 
the experience and skills necessary to meet our future needs. Our 
recruiting operations, however, will face greater challenges as the 
percentage of America's youth ineligible for military service continues 
to grow. In today's environment, fewer than one in four 17- to 24-year-
olds are eligible to serve in the Army.
    Despite the current challenges of ongoing conflict, future drawdown 
plans, and budgetary constraints, the Active Army and the USAR once 
again exceeded their enlisted retention missions in fiscal year 2013. 
The ARNG achieved 86 percent of their fiscal year 2013 retention 
mission. The Guard is on track to achieve the fiscal year 2014 
reenlistment mission due to rejuvenated emphasis on retention by senior 
leadership, streamlined retention counseling and other business 
processes.
    The Active component achieved its fiscal year 2013 recruiting 
mission and accessed more than 98 percent high school diploma 
graduates, with the lowest number of Armed Forces Qualification Test 
Category IV enlistments ever, at just .17 percent. The Army also 
achieved over 99 percent of requirements for each Military Occupational 
Specialty. In addition, 62.4 percent of recruits scored between 50-99 
percent on the Armed Forces Qualification Test, exceeding the DOD 
standard of 60 percent, while recruits who scored in the lower range 
(30 percent and below) were at a record low in fiscal year 2013 of 1.2 
percent.
    Although we are currently on track to achieve the fiscal year 2014 
recruiting mission, with the exception of the USAR mission, recruiting 
is expected to become increasingly difficult. The primary concern in 
recruiting for the USAR is the difficulty in finding prior service 
soldiers willing to serve in units that are in remote geographic areas 
where vacancies exist. Our strategy to attract prior service soldiers 
is to engage those Active component soldiers earlier in the 
transitioning process by appealing to their sense of service and valued 
contribution through continued service and remaining a ``Soldier for 
Life.'' We are changing the paradigm in how we share opportunities 
available for Active component soldiers who want to transition to the 
Reserve component by allowing recruiters to speak with soldiers 365 
days prior to their planned transition date.
    The USAR is also placing renewed emphasis on their Employer 
Partnership Program to attract soldiers. Employers in the program 
(including Fortune 500 companies) offer soldiers interviewing and 
hiring preference. The USAR is focusing an advertising campaign (pilot) 
on the program in Elwood, IL, the city with the most USAR vacancies, in 
an effort to evaluate the program's effectiveness as a recruiting tool.
    Employing skilled and experienced soldiers in the USAR and ARNG is 
beneficial to the Army as well as soldiers and their families. Our 
focus is stressing opportunities for continued benefits, and ensuring 
that the soldier remains a valued member of the Army team.
    Entering fiscal year 2014, the combined Active and Reserve 
components will spend slightly over $528 million in enlistment and 
retention incentives (bonuses, loan repayment, and college kickers). 
This is a sharp reduction over the last 3 years. In 2012, the Army paid 
$1.08 billion in incentives, and in 2013 we paid $838 million. Further, 
as a result of prior year success, the percentage of Active Army 
recruits receiving a bonus dropped from over 62 percent of all recruits 
in fiscal year 2009 to 3 percent in fiscal year 2013.
    Enlistment and reenlistment bonuses are only used to incentivize 
longer term enlistments in a small percentage of critical skills. These 
incentives ensure the success of the total Army recruiting and 
retention missions and shape the force to meet specific grade and skill 
requirements. At the start of fiscal year 2014, only Military 
Occupational Specialties 35P (Signal Intelligence Linguist) and 25S 
(Satellite Communications) and selected Ranger and Airborne skills 
receive an enlistment bonus for the Active Army. For retention, Special 
Operations, Rangers, and Linguists were the primary Military 
Occupational Skills that were targeted to receive selective retention 
bonuses. A tougher future recruiting environment may require additional 
resources for incentives.
    Compensation is a critical element in the Army's ability to recruit 
and retain a quality All-Volunteer Force. We are extremely grateful for 
the high quality care and compensation our Nation has provided to our 
soldiers over the last decade. As we continue to examine compensation 
reform, it is essential to review and consider the impact of all 
proposals on the future of the All-Volunteer Force. The Army supports a 
holistic and comprehensive approach that reforms military compensation 
in a fair, responsible, and sustainable way. The manner in which we 
treat our soldiers and families as we draw down the Army will set the 
conditions for our ability to recruit in the future.
                        army civilian personnel
    As the Army evolves, we are undertaking significant changes in the 
way we manage and develop our civilian workforce. We must focus on 
preserving the most important capabilities of this critical element of 
our Total Force. The Army will continue to make investments in talent 
management and leadership development of our Civilian Corps as we 
resize and reshape to meet future Army requirements.
    Similar to their uniformed counterparts, Army civilian employees 
are required to demonstrate competence, technical proficiency and 
professional values to achieve mission and individual success. Over the 
past 3 years, the Army has implemented a number of changes to improve 
training, educational and experiential opportunities for the civilian 
workforce. Functional training is critical to ensure that Army civilian 
employees can successfully perform their assigned duties. Focused 
leader development, improvements to the Civilian Education System and 
continued maturity of the Senior Enterprise Talent Management Program 
are all designed to build a more professional and competency-based 
civilian workforce. We have aligned our entire civilian workforce into 
31 career programs, which allows all of our civilian employees to see a 
clear path and understand the competencies required for career 
progression. We are implementing an Army Acculturation Program for 
civilian employees new to the Army, which we anticipate will increase 
the retention rate of these talented individuals, and we are providing 
opportunities for the Army's civilian workforce to benefit the Army's 
resiliency building programs.
    As the military force is reduced and the Army navigates an era of 
funding constraints, we will reduce the Civilian workforce. We are in 
the process of drawing down our Civilian workforce from a wartime high 
of 285,000 in fiscal year 2010, down to an estimated 263,000 by the end 
of fiscal year 2015, with additional reductions projected through 
fiscal year 2019. We will use all available workforce shaping tools 
such as Voluntary Early Retirement Authority (VERA) and Voluntary 
Separation Incentive Pay (VSIP) to reduce turbulence in our Civilian 
workforce, while retaining the skills we need to meet mission 
objectives. The goal is to use Reduction in Force (RIF) as a last 
resort. Reductions are linked to changing Army workload priorities, 
military missions and available funding. For example, unit 
inactivations will drive changes to training, training support and 
installation support requirements supported by our civilian personnel. 
We will have to adjust in order to continue to invest resources into 
higher priority missions. Additionally, to achieve the goal established 
by Secretary of Defense to decrease the overhead and administrative 
staff in Management Headquarters Activities, the Army will continue to 
reduce these staffs. This work began in earnest in 2012 and will 
continue over the next 5 years. We must be certain our civilian 
workforce drawdown is done responsibly, with deliberate planning, to 
ensure we have the best talent possible to meet future challenges.
                     transition assistance program
    Our Nation entrusts its best and brightest to the Army to support 
the All-Volunteer Force. Therefore, the Army has a responsibility to 
help our transitioning personnel prepare for post-active duty life by 
providing the training and tools to enable their success. With 
thousands of soldiers possessing diverse skills, and scheduled to 
depart over the next few years, the Nation has a motivated, 
disciplined, and work-ready force to employ.
    The Army's Transition Assistance Program, known as the Army Career 
and Alumni Program (ACAP) made tremendous strides this past year to 
improve the assistance services provided to transitioning soldiers. The 
Army developed a Transition Campaign Plan that provides the blueprint 
for Army Transition over fiscal year 2014-2015 and incorporates 
``preparation'' for Transition, ``connection'' to meaningful employment 
and education opportunities during transition.
    To support this expansion of transition services, we hired 65 
education advisors, bringing the total number of Army wide transition-
related service providers to nearly 700. We established a new ACAP 
center in Kuwait and created 21 regionally-located transition support 
teams to assist the USAR and ARNG.
    In fiscal year 2013, the Army transitioned 144,000 soldiers under 
the new, re-engineered ACAP. This marks the first year the program was 
able to record an entire year's worth of data in order to analyze 
trends and allocate resources accordingly. Veterans Opportunity to Work 
(VOW) to Hire Heroes Act of 2011 requirements for all transitioning 
soldiers include: receiving preseparation counseling, including 
attending two Department of Veterans Affairs (VA) Benefits Briefings, 
and participating in the Department of Labor Employment Workshop, 
unless exempt. Our VOW compliance is rapidly increasing each month as 
the program reaches across the Total Force and our additional resources 
are fully emplaced.
                              soldier 2020
    As the Army looks to the future and recruiting challenges increase, 
we must take advantage of the best talent, without regard to gender. To 
ensure the success of our soldiers of 2020 as we expand opportunities 
for women, the Army is proceeding with an integrated, incremental, and 
scientific approach that preserves unit readiness, cohesion, and 
morale. The Army is committed to ensuring all soldiers are provided 
full career opportunities to reach their highest potential and enhance 
overall Army readiness. This initiative will positively impact 
readiness tremendously by allowing men and women to have the same 
career opportunities across a broad spectrum of units, positions and 
occupations.
    Over the last year, the Army opened to women approximately 4,500 
positions within 17 Active component Brigade Combat Teams (BCTs) and 9 
Army Guard BCTs. In November 2013, the Army opened approximately 3,600 
13A (Field Artillery Officer) positions in the Active Army and Reserve 
component. As of March 10, 2014, women have been assigned to 169 
officer and 477 enlisted positions that opened within 26 BCTs. The U.S. 
Special Operations Command opened approximately 1,500 positions to 
women within select aviation specialties in Special Operations Aviation 
Regiment. On January 17, 2014, the Secretary of Defense notified 
Congress of the Army's intent to open approximately 33,000 positions in 
132 already open occupations to women.
    In April 2013, the first female soldiers completed training as 
Multiple Launch Rocket System (MLRS) Crewmembers, with the best female 
graduate scoring 100 percent on all examinations--the highest score to 
date for any soldier. Female Field Artillery Officers have been 
assigned to MLRS and High Mobility Artillery Rocket System units since 
2012, and recently 10 women have been assigned to cannon battalions in 
Brigade Combat Teams (BCTs). Women are proving themselves in positions 
that have been opened to them.
   sexual harassment/assault response and prevention (sharp) program
    The response to and prevention of sexual assault and harassment are 
top Army priorities with a goal to reduce and ultimately eliminate this 
crime from our ranks. Through the combined efforts of our military and 
civilian leaders at all levels, we've implemented an unprecedented 
number of program and policy initiatives designed to improve our Sexual 
Harassment/Assault Response and Prevention Program. These initiatives 
are aligned with the Army's five imperatives to: (1) prevent offenders 
from committing crimes, provide compassionate care for victims and 
protect the rights and privacy of survivors; (2) ensure every 
allegation is reported, thoroughly and professionally investigated and 
appropriately acted upon; (3) create a positive climate and environment 
of trust and respect in which every person can thrive and achieve their 
full potential, and continually assess the command climate; (4) hold 
every individual unit and organization and every commander 
appropriately accountable for their behavior, actions and inactions; 
(5) ensure the chain of command is fully engaged and centrally 
responsible and accountable for solving the problems of sexual assault 
and sexual harassment within our ranks and for restoring trust of our 
soldiers, civilians, and families. Some of the key initiatives include 
the following:

        <bullet> Changing culture is essential to our success. To 
        change culture at the lowest level, the Army now requires SHARP 
        goals and objectives in all officer and noncommissioned officer 
        (NCO) evaluations; requires Army leaders to assess Command 
        Climate and requires 360 degree assessments as an additional 
        tool for raters to conduct developmental dialogue with O-5 and 
        O-6 level commanders. These three significant changes will 
        enable leadership at various levels to remain engaged in the 
        conduct of their subordinates and will improve accountability 
        throughout the chain of command.
        <bullet> The Army established more stringent screening criteria 
        and background checks for those serving in positions of 
        significant trust, including Sexual Assault Response 
        Coordinators (SARCs), Victim Advocates (VAs), drill sergeants, 
        Advanced Individual Training platoon sergeants and recruiters. 
        The new processes and procedures are designed to enhance the 
        soldiers' professionalism and ensure commanders are actively 
        selecting those who are best suited for their roles and 
        responsibilities. To date, we have reassigned or removed 588 
        soldiers who were not best-suited to serve in these positions 
        of trust.
        <bullet> The Army enhanced its capability to investigate and 
        prosecute sexual offenses by establishing a Special Victim 
        Capability Program which is comprised of 23 special victim 
        prosecutors, 22 sexual assault investigators and 28 special 
        victim paralegals at 19 installations worldwide. We've also 
        trained 105 active duty and more than 120 Reserve judge 
        advocates through our Special Victim Counsel Program, which was 
        established in October 2013. We've conducted three live courses 
        and one distance learning course, each involving about 22 hours 
        of training, and we have begun to receive extremely positive 
        feedback from victims.
        <bullet> The Army implemented new policy to ensure that any 
        final decision to retain a member convicted of a sex offense is 
        fully informed and determined at the secretariat level. This 
        same policy also prohibits the overseas assignment or 
        deployment of any soldier convicted of a sex offense.

    In addition to ensuring compliance with the 2013 and 2014 National 
Defense Authorization Acts and Secretary of Defense directives, these 
initiatives are reinforced at every Professional Military Education 
(PME) school that a soldier attends throughout his or her career.
    We are seeing the results of our efforts to achieve a cultural 
change in the Army. Based on preliminary data, in fiscal year 2013, 
there were 2,149 reports of sexual assault, representing an increase of 
51 percent over fiscal year 2012 numbers (85 percent were restricted; 
15 percent were unrestricted). We believe this unprecedented increase 
in reports is due to a growing level of confidence in our response 
system and a sign that victims have increased confidence in their chain 
of command and in the Army's commitment to treat and care for them.
    Our assessment of increased confidence is supported by the fact 
that there are a growing number of reports made by victims about 
incidents that took place prior to joining the military. For example, 
in fiscal year 2013, approximately 5.3 percent of sexual assault 
reports from soldiers were for incidents that occurred prior to their 
military service. In fiscal year 2012, the reporting of sexual assaults 
prior to military service was 2 percent. Additionally, in fiscal year 
2013 more than 15 percent of reports were made more than a year after 
the assault occurred.
    The Army continued its efforts to place full-time military and 
civilian SHARP professionals at brigade and equivalent-level units. 
During the past year, we hired 174 new Civilian SHARP personnel to 
augment military personnel serving in brigade-level SARC/VA positions. 
To date, more than 12,800 individuals have been credentialed to serve 
as a SHARP professional in accordance with the 2012 National Defense 
Authorization Act. Additionally, the Army SHARP Program is in the 
process of transitioning from contract-led mobile training teams to 
Department of Army Civilian-led mobile training teams. We now have 12 
Department of Army civilian trainers assigned and anticipate hiring 34 
more this year.
    We have realized the need to professionalize our personnel serving 
in SHARP positions. To ensure we do so, the Army has piloted a 
centralized SHARP Schoolhouse in fiscal year 2014, with the intent of 
standing up a permanent schoolhouse at the end of fiscal year 2014 or 
beginning of fiscal year 2015. The SHARP Schoolhouse incorporates 
instruction from the Army's Criminal Investigation Division, Office of 
The Judge Advocate General, Office of The Surgeon General and others, 
to better prepare full-time SARCs and VAs for the situations they 
typically encounter. The comprehensive 8-week training at the SHARP 
schoolhouse develops high quality personnel who can establish and 
maintain the confidence and trust of the soldiers they support. The 
SHARP Schoolhouse graduated its first class of 32 individuals this 
month.
    Additionally, we are assessing the efficacy of this year's new 
initiatives as well as ones that were previously implemented. Through a 
combination of data collection, metrics, and field interactions to 
include troop visits, focus groups, inspections, panel discussions and 
surveys, we're putting into place the right tools required to 
effectively evaluate our efforts.
    The Chief of Staff of the Army has led SHARP Senior Leader Summits 
with the Army's top officers and noncommissioned officers. In June 
2013, the Summit focused on achieving cultural change by reducing, with 
a goal toward eliminating, sexual assault from our ranks. The January 
2014 Summit served as a follow-up progress report on Commands' efforts, 
with a focus on victim advocacy.
    I am confident that our efforts are putting the right processes and 
procedures in place to ensure a climate of safety, trust, and respect 
for every member of the Army family.
              the integrated disability evaluation system
    In fiscal year 2013, the Army made significant progress across the 
IDES by eliminating backlogs at the Medical Evaluation Boards (MEBs) 
and the Physical Evaluation Boards (PEBs). To address the backlog, the 
Army surged manpower, increased the availability of resources, improved 
processes, and clarified policy. We are now meeting timeliness goals 
for all stages under Army control while processing approximately 80 
percent more cases per year than we did in any year before the 
inception of IDES.
    We continue to partner with the Department of Veterans Affairs (VA) 
to further improve IDES. As expected, as we reduced the backlogged 
cases under Army control, the backlog moved to the VA-controlled 
stages. We continue to support the VA as they strive to eliminate their 
backlog and meet joint timeliness standards by October 2014. VA is a 
great partner, as we work together to improve this system. Moving 
forward, it is of key importance that we retain and improve the quality 
medical and administrative care afforded our soldiers and veterans as 
we improved the timeliness of the IDES process.
    One of our significant improvements is the fielding of the IDES 
Soldiers' and Commanders' Dashboard in August 2013. The dashboard 
compares soldiers' progress through the IDES process against both joint 
DOD/VA goals, and the average of others who have moved through the 
system over the most current 90-day period. This provides soldiers with 
an estimate of when they will transition from the Army allowing them to 
better plan for their future.
    Since the beginning of fiscal year 2013, the Army has processed 
more than 40,500 cases through the Disability Evaluation System. Of the 
completed cases, 3 percent returned to duty; 67 percent were separated; 
and 30 percent were placed on the Temporary Disability Retired List. As 
of January 2014, there were 23,586 soldiers in the IDES process.
    In January 2014, 82 percent of all MEB cases were completed within 
joint DOD/VA IDES standards, compared to 35 percent in October 2012. 
We've had similar success with PEBs, averaging 71 days against a goal 
of 90 days.
    The surge of cases completed since the beginning of fiscal year 
2013 increased the number of Veterans on the Army's Temporary 
Disability Retired List (TDRL) from 12,079 at the close of fiscal year 
2012 to 17,177 at the close of January 2014. Historically greater than 
98 percent of those placed on TDRL do not return to active status. The 
Army is working with DOD to see if the current use and structure of the 
TDRL best suits the Services requirements. As VA continues to reduce 
its backlog we expect we will meet the DOD/VA goal of completing the 
IDES process in 295 days.
                      ready and resilient campaign
    The Army implemented the Ready and Resilient (R2) Campaign in March 
2013 to build upon the demonstrated inherent strength of our soldiers, 
family members, and civilian employees. This effort provides members of 
the Army Profession the encouragement, programs, resources, tools and 
training to further develop the skills, behaviors and attributes which 
help build resiliency and strengthen them personally and 
professionally. We have implemented numerous institutional changes that 
will yield enduring cultural transformation and create an Army 
environment that supports and develops our members to perform at their 
optimum level on a daily basis, and enables them to recover and grow 
from adversities. By building the resiliency of our people, and 
emphasizing the performance triad of sleep, activity and nutrition, we 
increase the readiness of our Total Force.
    Focus areas in the campaign include: (1) comprehensive resilience 
training that develops coping skills and behaviors and increases 
capability; (2) education about and the promotion of preventive 
measures that encourage self-awareness, deter high-risk behaviors, and 
support healthy alternatives that produce positive outcomes; (3) 
increased emphasis on leadership involvement, empowerment and 
accountability; (4) program capability assessment to appropriately 
align support programs and resources; and (5) a scientific process for 
measuring success.
    During fiscal year 2013, we integrated resilience training into 
existing training and deployment requirements. Through our approach to 
Comprehensive Soldier and Family Fitness (CSF2), the Army makes 
available hands-on training and online self-assessment and self-
development tools to the members of the Army Team. Soldiers, family 
members, and Army civilian employees have access to scientifically-
validated tools to help them build their overall resilience. The CSF2 
program has, to-date, trained more than 20,000 Master Resilience 
Trainers, to include volunteer Spouse Master Resiliency Trainers. The 
Army established 16 Training Centers at installations across the 
country to provide resilience expertise tailored to the needs of the 
local Army community.
    Also in fiscal year 2013, we launched the Commander's Risk 
Reduction Dashboard (CRRD) to provide commanders a greater 
understanding of high risk behaviors and to aid them in better 
identifying ``at-risk'' and ``high-risk'' soldiers. This dashboard 
aggregates data from multiple Army databases to enable early, proactive 
intervention and assistance. This effort is designed to protect 
soldiers before more problems arise and curtail risky behavior.
    In fiscal year 2014, we will continue to analyze and assess 
existing programs, tools, and training. Based on these results, we will 
identify opportunities to restructure Army systems and processes to 
better prioritize resources while promoting resilience throughout the 
Army.
                         army suicide reduction
    As of March 14, in calendar year 2013, the Army reported 302 
potential suicides (245 confirmed and 57 suspected)--an aggregate drop 
of 23 in the overall number of suicides as compared to calendar year 
2012. Although this shows improvement, we recognize that the suicide 
rate in the Army, like the rest of the country, continues to pose a 
significant challenge for which there is no easy solution. We believe 
this decrease in suicides is an indicator that our resiliency efforts 
and increased access to Behavioral Health Services are beginning to 
have a positive impact on the force.
    The Army continues to employ a comprehensive and multi-faceted 
approach to reduce suicides among soldiers, family members, and 
civilian employees. We are focusing on overall health and wellness, 
increased individual resilience, risk reduction and enhanced individual 
and unit readiness. Key components to our approach are: improved leader 
awareness of high-risk behavior; increased resilience training; prompt 
access for soldiers to quality behavioral health care; and multi-point 
screening and documentation of mild Traumatic Brain Injuries and Post-
Traumatic Stress.
    Ongoing efforts to strengthen the resilience of our soldiers and 
consequently reduce the incidence of suicide include:

        <bullet> Partnering with the National Institute of Mental 
        Health for the largest behavioral health study ever undertaken 
        of risk and resilience factors among servicemembers (Army Study 
        to Assess Risk and Resilience in Servicemembers (STARRS)).
        <bullet> Embedded behavioral health clinics help soldiers 
        improve their ability to cope with and mitigate stress related 
        to relationships, separation, deployments, financial pressures, 
        work-related issues, etc. This approach is in contrast to a 
        traditional system of behavioral healthcare in which soldiers 
        must seek out care from hospital-based providers, embedded 
        providers work in clinics located where combat soldiers live 
        and work. Embedded behavioral health services have been 
        associated with fewer suicide attempts and hospitalizations for 
        psychiatric conditions.
        <bullet> Continuing the use of ``myPRIME,'' a confidential 
        online alcohol and substance abuse risk, self-assessment tool 
        that provides risk assessment and targeted education for 
        remotely located (Reserve component and deployed) soldiers.
        <bullet> Expanding the random panel for military drug testing 
        to include commonly abused prescription drugs such as 
        hydrocodone, hydromorphone, benzodiazepines as well as 
        synthetic cannabinoids.
        <bullet> Implementing the Community Health Promotion Council as 
        is an integral part of the commander's resources for 
        identifying and mitigating root causes that affect soldier, 
        family member, and civilian employee well-being while 
        developing the right services and programs available to 
        increase readiness and resiliency.

    We continue to exercise an aggressive training initiative to 
increase awareness and understanding of prevention and intervention 
skills. To help enable leaders' roles in reducing the incidence of 
suicide, we have incorporated suicide prevention and intervention 
awareness training into our commander and first sergeant courses. We 
developed specialized on-line training for our Suicide Prevention 
Program Managers to enhance awareness of programs and available 
resources to support suicide prevention activities.
    Additional initiatives to combat suicide across the Force include 
the ARNG's and USAR's funding of full-time Suicide Prevention Program 
Manager positions in each of its 54 States and territories, and across 
major commands to advise commanders and facilitate efforts to reduce 
risk and prevent suicides. Our Suicide Reduction Working Group provides 
a forum for stakeholders, Army-wide, to collaborate on policies, 
education and training, services and resources, and ongoing initiatives 
that mitigate high risk behaviors and incidents of suicide.
    The Army's efforts to reduce the incidence of suicide are embedded 
within the comprehensive approach of the Ready and Resilient Campaign. 
This approach is designed to strengthen our Army professionals by 
enhancing their resiliency and sustaining a supportive environment that 
emphasizes early intervention and prevention of suicidal behaviors. We 
continue to revise policy as required to promote and increase awareness 
of prevention and intervention skills, services, and resources.
                      army substance abuse program
    The Army Substance Abuse Program (ASAP) is a Commander's program 
that emphasizes readiness and personal responsibility. ASAP provides 
services to the Active component, USAR, ARNG, veterans, family members, 
and Department of Army (DA) civilian personnel and is an integral part 
of the Army's Ready and Resilient Campaign. The focus of the ASAP is 
prevention, drug testing, early identification of problems, 
rehabilitation, and the retention of quality personnel. The Army 
recognizes the role substance abuse plays in many high-risk behaviors, 
including suicide and sexual assault, and that a healthy, drug-free 
force is critical to maintaining a Ready and Resilient Total Army. 
Consequently, the Army is responding with comprehensive prevention 
initiatives, increased counselor hiring, confidential substance abuse 
treatment options, and stigma reduction campaign efforts.
    The number of soldiers enrolled for alcohol abuse and dependence 
decreased from 10,580 in fiscal year 2012 to 9,625 in fiscal year 2013. 
Positive screens for illicit drug use have increased very slightly 
(1.16 percent in fiscal year 2012 vs. 1.21 percent in fiscal year 
2013). There remains a concern that soldiers are abusing more 
prescription medications and using synthetic illicit drugs.
    To assist leaders in building and maintaining resilience within 
their soldiers, the Army developed ``Strong Choices,'' a standardized 
4-hour substance abuse prevention-training package. A primary focus of 
the new standardized curricula is to educate leaders in emerging 
substance abuse issues and to assist leaders in taking a positive, 
proactive approach with their soldiers.
    ASAP counselors are vital in counseling and caring for soldiers who 
are battling substance abuse. Working closely with soldiers and 
commanders, ASAP counselors help to maintain the health and readiness 
of our force. As of February 2014, the Army has 398 ASAP counselors 
worldwide and is continuing to working to recruit and retain the very 
best professionals for this critical mission.
    The Confidential Alcohol Treatment and Education Pilot (CATEP) 
allows soldiers to confidentially refer themselves for treatment 
without command notification if they meet eligibility requirements. In 
early 2009, the Army Deputy Chief of Staff, G-1 initiated the pilot of 
the program. In May 2013, the Secretary of the Army and Chief of Staff 
of the Army approved the CATEP for Army-wide expansion. We are 
beginning to see positive results with the number of soldiers enrolled 
who most likely would not have sought help without this program.
                        congressional assistance
    As the Army becomes smaller, we will need to work with Congress in 
our efforts to draw down and reform military compensation thoughtfully, 
accurately and efficiently while maintaining readiness. The continued 
support of Congress for competitive civilian and military benefits and 
compensation, along with incentives and bonuses for soldiers will 
remain critical to the All-Volunteer Army's efforts to recruit, retain, 
and support the highest caliber of individuals. The Army must retain 
the flexibility to offer incentives to attract and retain talent. The 
continued funding of these programs by Congress is absolutely critical. 
Support for legislative proposals that will allow the Army greater 
flexibility as we drawdown the force is also vital. Finally, 
predictability in the authorization and appropriation bills that are 
aligned with the President's budget request would help the Army 
tremendously in preparations for the smaller, balanced force of the 
future. The well-being of our force, regardless of its size, is 
absolutely dependent upon your tremendous support. The Army is proud of 
the high caliber men and women whose willingness to serve, is a credit 
to this great nation.
                               conclusion
    People are the Army, and our enduring priority is to preserve the 
high quality, All-Volunteer Force--the essential element of our 
strength. The nation faces uncertainty and, in the face of such 
uncertainty, needs a strong Army that is trained, equipped, and ready. 
We must be prepared for the next contingency that calls for the use of 
Army forces.
    While we transform to a smaller Army, we remain dedicated to 
improving readiness, and building resilience in our soldiers, family 
members, and civilian employees. The Army cannot sacrifice readiness as 
it draws down. We must preserve the health of the force and prevent 
breaking faith with the brave men and women who serve our Nation.
    Chairwoman Gillibrand, Senator Graham, and members of the 
subcommittee, we wish to thank all of you for your continued support, 
which has been vital in sustaining our All-Volunteer Army through an 
unprecedented period of continuous combat operations and which will 
continue to be vital to ensure the future of our Army.

    Senator Gillibrand. Thank you, Lieutenant General.
    Next is Vice Admiral Moran.

    STATEMENT OF VADM WILLIAM F. MORAN, USN, CHIEF OF NAVAL 
   PERSONNEL/DEPUTY CHIEF OF NAVAL OPERATIONS FOR MANPOWER, 
       PERSONNEL, TRAINING AND EDUCATION, N-1, U.S. NAVY

    Vice Admiral Moran. Good morning, Chairwoman Gillibrand and 
Ranking Member Graham and distinguished members of the 
subcommittee.
    Allow me to add my thanks for what you have done and 
continue to do for the welfare of our sailors, Navy civilians, 
families, and retirees.
    Today, more than one-third of our Navy is underway, a 
significant accomplishment given the fiscal challenges we faced 
in 2013. As we took on this budget, certainly we understood the 
imperative of reducing national debt in order to sustain our 
national security. But many of the financial levers we pulled 
last year to mitigate operational impacts were simply no longer 
available this year. If sequestration were to continue, we 
would experience irreversible consequences to our long-term 
combat readiness and jeopardize our ability to retain high 
quality sailors. As our Chief of Naval Operations (CNO) 
recently stated, it would be much tougher to maintain a Navy 
where it matters and when it matters.
    Right now, sailors from the Bush Strike Group are in the 
Arabian Sea. The USS Harry S. Truman is returning after a 9-
month deployment. USS Donald Cook is headed into the Black Sea 
to reassure allies and to build partner capacity. As we have 
all seen, our men and women forward in the Pacific are 
contributing to search efforts along with 26 other nations for 
Malaysian Airline flight 370.
    All of what American sea power means today and might become 
is due to the selfless service of the men and women who make it 
so. They stand directly at the center of the budget now before 
you.
    Every tough choice we made in this budget was in favor of 
maintaining quality of service for our sailors. Our objectives 
were to maintain and improve manning at sea, retain our best 
and brightest sailors, increase the readiness of our sailors 
and their families. We owe them the tools, the parts, the 
training, and the professional work environment they need to 
succeed in their mission. That is what they tell us they need 
and that is what this budget delivers. Fortunately, as this 
committee has agreed to time and time again, that is what our 
people deserve and nothing less. On behalf of them, thank you 
for what you have done and continue to do for our Navy and the 
security of our Nation.
    With that, I look forward to your questions.
    [The prepared statement of Admiral Moran follows:]
            Prepared Statement by VADM William F. Moran, USN
                            i. introduction
    Chairwoman Gillibrand, Ranking Member Graham, and distinguished 
members of the subcommittee, I am honored to appear before you to 
review Navy manpower, personnel, training, education and family support 
programs and priorities for fiscal year 2015.
                  ii. a ready and capable global navy
    Since assuming duties as Chief of Naval Personnel and Deputy Chief 
of Naval Operations (Manpower, Personnel, Training and Education) this 
past summer, I have had the opportunity to listen to, and learn from, 
sailors across the fleet. It is clear that Navy remains an integral 
part of our National Military Strategy, especially at maritime 
crossroads. Every day our sailors are involved in essential missions 
around the globe involving power projection, deterrence, warfighting, 
antipiracy, humanitarian aid and disaster relief and peacekeeping. As 
our presence in the Asia-Pacific Theater expands, we will fill an 
increasingly vital role in this important region of the world.
    Maintaining trust with sailors, Navy civilian employees, and their 
families, is among my bedrock principles. It is essential that we keep 
faith through transparency; and clear, consistent, and well-
communicated policies. As stewards of the greatest naval force in 
history, we must balance our force to meet future challenges amid ever-
tightening fiscal constraints; not only in force size and structure, 
but in ship-to-shore timing and resource allocation. We must also 
provide stability in the lives of sailors, Navy civilians, and 
families. By communicating and achieving clear expectations, and 
maintaining faith with our people, we expect to retain the force in 
whom we have significantly invested.
    In support of the Chief of Naval Operations' tenets--Warfighting 
First, Operate Forward and Be Ready--I have established three 
complementary lines-of-effort--Force Readiness and Manning, Force 
Management, and Force Resiliency--aimed at building stability in 
policies that reassure our sailors and their families, while continuing 
to maintain fleet readiness.
Force Readiness and Manning
    We are continuing our efforts to achieve and maintain required 
manning and readiness levels by attracting highly qualified men and 
women to serve in the most effective and technologically advanced naval 
force in history and developing them to provide the tools they need to 
succeed. Our success in retaining this high quality work force depends 
on our ability to provide world-class quality of service for our 
sailors, civilian employees, and their families.
Force Management
    We must continue to develop and implement flexible policies that 
facilitate delivery of highly-trained and fully-qualified personnel to 
fill billets at sea. We are maximizing the potential of Navy's All-
Volunteer Force by continuing to develop a diverse and qualified fleet. 
We are also taking deliberate steps to forecast future operating 
environments and ensure we are prepared to meet emerging challenges 
with the proper force structure. As we assess the size of our future 
force structure, we must be prepared to make the necessary adjustments 
to properly man the force, balancing the recruitment and retention of 
high-quality people to acquire and maintain the skills necessary to 
achieve mission success.
Force Resiliency
    We continue to focus efforts on improving sailor wholeness and 
promoting a culture of respect and total fitness to prevent destructive 
behaviors. The 21st century sailor initiative protects Navy families by 
promoting healthy, efficient, and professional work environments, 
providing world-class support to families, and fulfilling our promise 
to prepare sailors transitioning to civilian life. It sustains and 
uplifts sailors confronting the stresses of war, prolonged deployments 
and an uncertain future. Through effective drug and alcohol abuse 
prevention and suicide prevention, Navy has seen a positive inflection 
point for nearly every trend tracked in our portfolio over the past 
year.
                    iii. force readiness and manning
    We will deliver the right person, with the right skills, to the 
right job, at the right time--a metric we call ``Fit.'' We will also 
anticipate combatant commander priorities to ensure that we meet the 
warfighting needs of our joint and coalition partners.
Recruiting (Enlisted)
    Over the past 6 years, we have consistently succeeded in attracting 
the Nation's best and brightest to serve in our enlisted ranks. fiscal 
year 2013 was a solid recruiting year in which all enlisted programs 
exceeded both Department of Defense and Department of the Navy quality 
standards. We attribute this success, in large part, to the outstanding 
work of our recruiting force applying inclusive diversity recruiting 
practices; and Science, Technology, Engineering, and Mathematics (STEM) 
outreach. Strategic partnerships with STEM-related affinity groups, and 
engagements with high school and college students, have increased 
awareness of Navy service as a highly desirable career option, inspired 
the next generation of technically-capable sailors, and developed 
centers of influence that contribute to recruiting efforts. While 
enlisted accession quality declined in fiscal year 2013, with 84.6 
percent of accessions scoring in the upper 50th percentile on the Armed 
Services Vocational Aptitude Battery, compared with 90.2 percent in 
fiscal year 2012, we continue to exceed the Department of Defense (DOD) 
and Navy minimum quality standards. However, this decline will 
effectively reduce the size of the pool of high-quality applicants 
increasing the challenge in meeting accession demands. This situation 
is exacerbated by the fact that the Reserve component's ability to 
access and retain high-quality prior-service sailors is limited by 
reductions in Reserve Force structure and end strength.
Navy Enlisted Supply Chain
    The Navy Enlisted Accession Supply Chain (NEASC), one of our 
highest priority MPT&E investments, will fundamentally change the way 
we plan, train and fill sea and shore billets, and will systematically 
correct recurring gaps. Street-to-Fleet, as implementation of NEASC is 
known, optimizes the processing of sailors from enrollment in the 
Delayed Entry Program through Recruit Training Command, and follow-on 
basic (A-school) and advanced (C-school) skills training, until they 
arrive for duty in the fleet, trained and ready for sea. This 
initiative has identified semi-automated methods to positively plan and 
track sailor accessions through 921 unique training paths. Initial 
results allowed the realignment of 23.3 man-years of training capacity 
to address emergent fleet training requirements; and, continued 
improvement is expected as this capability matures.
Recruiting (Officer)
    We achieved aggregate Active component general officer and medical 
officer goals; however, we continue to face challenges in achieving 
Reserve component general and medical officer recruiting goals. This 
challenge is in part due to the strong active duty retention we 
continue to enjoy; but which significantly reduced the prior service 
pool from which the Reserve component acquires most of its accessions. 
Reserve component officer manning across all health professions is at 
92 percent, although we are experiencing significant shortages within 
the Medical Corps which is manned at just 75 percent. Reserve component 
general officer manning is 101 percent, while shortfalls exist among 
the Naval Special Warfare, Aviation Warfare (Pilots and Naval Flight 
Officers) and Engineering Duty Officer communities.
    The U.S. Naval Academy (USNA) seeks applicants with the greatest 
potential to become future leaders in the Navy and Marine Corps. 
Academic ability and proficiency demonstrated in STEM courses continue 
to be key in identifying and selecting the most highly-qualified 
candidates who demonstrate strong leadership qualities and moral 
character. Since 2009, USNA has promoted outreach through a variety of 
public venues including, summer STEM camps and seminars designed to 
encourage middle and high school students to value STEM and potential 
career opportunities in the naval service. Nearly 69 percent of 
midshipmen commissioning as ensigns in the class of 2014 are majoring 
in STEM disciplines. Over the past decade, women and minority 
representation in the Brigade has steadily increased--presently 22 and 
34 percent, respectively. Through national outreach and promoting the 
value of a STEM curriculum, USNA will continue to attract the finest 
applicants our Nation has to offer to graduate technically competent 
leaders for commissioned naval service.
    The Navy Reserve Officer Training Corps (NROTC) program also 
attracts brilliant men and women to serve through undergraduate 
education opportunities; which offer scholarships consisting of 
tuition, fees, book stipend, uniforms and a monthly subsistence 
allowance; along with military training opportunities leading to a 
commission as a Navy or Marine Corps officer. Starting with the NROTC 
commissioning class of 2013, 65 percent of Navy-option midshipmen are 
required to graduate with a technical degree. We exceeded this mandate 
by commissioning 71 percent of Navy-option midshipmen with technical 
degrees this past year.
Training
    Our continuum of training provides sailors with the most relevant 
knowledge, skills, and abilities, as quickly as possible, to achieve 
optimal knowledge transfer and minimize skill-decay prior to assignment 
to the Fleet. Through end-to-end curriculum content-development and 
revision, we identify and deliver cost-effective solutions without 
sacrificing quality. We also reinforce the knowledge gained throughout 
training to maintain quality during and after the training event. With 
the introduction of new weapons systems and platforms, we must apply 
innovative techniques; such as interactive multimedia, simulators, and 
Electronic Performance Support Systems to deliver training without 
sacrificing quality.
    We have developed a plan to improve timeliness, relevance, and 
breadth of technical training. Modularized training optimizes the 
initial pipeline and enables continuous training throughout a sailor's 
first tour. This approach creates flexibility and allows sailors to 
report sooner to their first duty station, armed with the necessary 
skills to make an immediate contribution. Strategically distributing 
training delivery, so that sailors receive only the instruction 
necessary to perform their immediate duties, minimizes time between 
instruction and utilization, thereby, reducing knowledge-and-skill-
decay associated with delays. Pilot programs evaluate the modularized 
training concept to ensure training quality remains high along the 
continuum.
    Traditional Navy warfighting communities increasingly rely on 
simulation to conduct training. As fidelity and access increases, 
prevalence of this technology is building at Navy schoolhouses, 
training commands and in the fleet. Investment in simulation and 
simulator training increase training capacity, effectiveness, and 
efficiency and reduce wear on platforms and operational equipment; 
thereby, minimizing operation maintenance and replacement costs.
Education
    Education and training remain a strategic investment in support of 
maintaining our fleet's global operational excellence and dominance. We 
remain committed to ensuring that Navy education and training provides 
sailors with the most relevant knowledge, skills, and abilities; ties 
education opportunities to leader development; and supports a career 
continuum framework of technical experts, joint warfighters and 
strategic leaders, while ensuring that education and training 
explicitly links resource allocation for education and training 
opportunities to the highest priorities.
Joint Professional Military Education
    U.S. Naval Postgraduate School (NPS) and U.S. Naval War College 
(NWC) are essential to our strategic investment in military education 
designed to develop a resilient, knowledgeable and adaptable force. 
Both institutions develop members of the force for the intellectual 
demands they will encounter, but assist in building key relationships 
through a diverse mix of students. However, recent fiscal reductions 
have severely constrained the ability for NPS and NWC to adequately 
fund its educational infrastructure, which could affect JPME 
accreditation.
Voluntary Education/Tuition Assistance
    Tuition Assistance (TA) is an in-service education support program 
that encourages sailors to pursue education as a means of achieving 
professional and personal goals. In 2012, Navy re-opened TA to 
vocational/technical programs in support of broader initiatives to 
expand sailor access to the job market as they transition from Active 
service. In 2013, Navy sustained the TA program despite sequestration, 
when all other services experienced a period of cessation. Ongoing 
fiscal pressure has necessitated additional scrutiny of the TA 
investment, resulting in a 25 percent reduction in the level of TA 
support sailors receive.
Credentialing and Licensure
    Navy Credentialing Opportunities On-Line offers sailors the 
opportunity to earn civilian certifications and licenses corresponding 
to their Navy ratings, designators, collateral duties, and out-of-
rating assignments. Earning credentials assists sailors in successfully 
transitioning into the civilian workforce. Every Navy occupation has at 
least one professional credential available and we currently pay for 
over 15,000 credentials per year awarded to about 7,500 sailors.
Fleet Manning
    We decreased gaps at sea from over 14,000 to just over 9,000 by the 
end of fiscal year 2013, and since that time, we have further reduced 
it to about 7,000. We expect to narrow the gap to about 5,000 by June 
and to fill nearly 95 percent of all enlisted billets at sea by the end 
of fiscal year 2014, with close to 90 percent filled by the right 
sailor in the proper seniority and possessing the appropriate skill 
level and training. Fleet manning improved through increased accessions 
in fiscal year 2013 and application of various force management tools 
including; voluntary/involuntary distribution, Chief Petty Officer 
Early Return to Sea, special and incentive pays applied to critical 
skills, and transitioning billets from shore to sea. Improving 
Continuum of Service, we recently automated advertisement of 
opportunities, qualification verification, and application submission 
processes, for experienced Reserve component sailors to transition to 
the Active component to fill billets in critically undermanned 
communities. The number of individual augmentees (IA) required to 
support Global Force Management Allocation Plan requirements is 
declining and the Reserve component has assumed most IA requirements, 
allowing Active component sailors to fill critical fleet billets. I 
anticipate mobilizing 2,650 Reserve sailors by the end of fiscal year 
2014.
Retention
    We continue to monitor retention behavior closely and expect to 
meet aggregate enlisted retention goals in fiscal year 2014. We expect 
to begin experiencing retention challenges within some ratings in 
specific communities such as; Information Dominance, Special Warfare, 
Nuclear Field, Advanced Electronics, and Medical. Targeting junior 
enlisted personnel with increased incentives may prove critical for 
achieving required retention in fiscal year 2015, and beyond. We must 
focus on retaining sailors in the right mix of ratings and pay grades 
to position Navy to meet future mission requirements.
    Officer continuation remains at historically high levels due to 
current economic conditions, coupled with targeted incentive pays and 
bonuses, improved mentoring, flexible career options, and increased 
emphasis on life-work integration initiatives. Certain officer 
inventory shortfalls remain, however, in select Unrestricted Line, 
Restricted Line and Staff Corps communities that we will mitigate 
through specialized incentives.
                          iv. force management
    We are managing personnel strength to deliver an affordable, 
sustainable force that will continue to meet mission needs. By 
delivering technical training and advanced education throughout a 
career, we will retain high-quality sailors in whom we have invested to 
remain operationally effective.
End Strength
    The President's fiscal year 2015 budget request supports active end 
strength of 323,600, and selected Reserve end strength of 57,300. It 
appropriately balances risk, preserves capabilities to meet fleet and 
joint requirements, fosters growth in emerging mission areas, and 
provides vital support to sailors and Navy families, as we carefully 
monitor personnel and fleet readiness. The budget aligns the Reserve 
component with the new Defense Strategy, while retaining capabilities 
vital to fulfilling the Reserve component's role in Navy's Total Force 
mission. End strength remains relatively stable across the Future Years 
Defense Program, reaching approximately 323,200 Active and 58,800 
Selected Reserve in fiscal year 2019.
    We are continuing efforts to stabilize, balance, and distribute the 
force to ensure that sailors are assignable, deployable, and 
distributable. Accordingly, manpower programs are focused on 
maintaining the right number of sailors to adequately man the fleet and 
to ensure that we have the sailors available in the right positions to 
accomplish our mission. The programs work to provide the Fleets with 
the right Fit and Fill--sailors with the right skills and experience 
level to do the most critical sea duty jobs.
    Meeting operational and strategic requirements demands that we 
properly balance missions and capacities between Active and Reserve 
components, and that we have the necessary numbers of officer and 
enlisted sailors to man the fleet. Robust Continuum of Service tools, 
which enable transitions between components throughout a Navy career, 
help us meet dynamic and emerging mission requirements and cultivate an 
agile military workforce able to adapt and retrain as necessary. 
Sailors now have the tools to understand their options for rating 
conversions and transitioning between components, which ultimately 
allows us to retain our most experienced sailors.
    Effective Force Management: Navy's effective use of force 
management tools aligns personnel levels and force structure while 
maintaining a mission-ready fleet. At the close of fiscal year 2013, 
Active component end strength was 323,951 (1,251 above authorized end 
strength). We took significant strides to improve manning, and many new 
sailors will complete initial training and join operational commands 
through fiscal year 2015, improving fleet manning and reducing gaps at 
sea. We remain committed to maintaining balance across enlisted ratings 
and will continue to deliver a mission-ready fleet.
Compensation
    We demand much of our sailors and they deserve to be commensurately 
compensated. Over the past 12 years, pay raises, elimination of out-of-
pocket housing expenses, TRICARE for Life and enactment of the post-9/
11 GI Bill, have resulted in the most generous total military 
compensation package in history. In the current constrained budget 
environment, however, reducing personnel costs is essential to 
achieving a proper balance with costs for training and equipping the 
force. We expect to meet recruiting and retention requirements, despite 
slowed growth in regular military compensation, as we continue to 
judiciously apply targeted special and incentive pays, including 
increased Career Sea Pay to improve manning at sea.
Women in Service
    Navy is committed to removing barriers that prevent sailors from 
rising to their highest potential by focusing on each person's ability 
unconstrained by gender-restrictive policies. Implementing the 
Secretary of Defense's rescission of the 1994 Direct Ground Combat 
Definition and Assignment Rule, Navy will have no closed occupations, 
very few closed positions, and equal professional opportunity in every 
officer designator and enlisted rating by January 2016.
Leveraging Diversity
    Diversity is a readiness imperative. We value the variety of 
characteristics and attributes in our workforce, which serves to 
enhance mission readiness. We strive to attract, develop, and retain a 
technically proficient workforce; diverse in experience, background, 
and ideas; and to promote a culture that harnesses their talents, 
imagination, and teamwork. The 2010 U.S. Census projects that, by 2020, 
racial/ethnic groups, other than white non-Hispanics, will comprise 
over 40 percent of the recruiting market, with increasing minority 
representation over time. We will continue to leverage a broad range of 
STEM education and outreach programs by which to stimulate interest in, 
and attract high-potential eligible candidates from, all constituent 
youth markets to operate technologically advanced systems.
                          v. force resiliency
    Established just 8 months ago, Navy's 21st Century Sailor Office 
integrates, under one umbrella, the programs that sustain and instill 
resilience and fitness in sailors. This includes: equal opportunity, 
personal and family readiness, physical readiness, alcohol and 
substance abuse prevention, suicide prevention, sexual harassment 
prevention, sexual assault prevention and response (SAPR), hazing 
prevention, and transition assistance. The 21st Century Sailor Office 
provides a focusing lens and overarching policy support to these 
critical programs.
Health of the Force
    The overall health of the force is good. We remain committed--
through smart, adaptive policies, vibrant programs, and pinpoint 
funding streams--to support fit, whole, and resilient sailors and 
families, fully empowered to pursue their dreams through service to our 
Nation.
    We have made important strides in our strategic fleet-manning 
posture, resulting in an overall increase of quality of work for our 
sailors. Navy's recruit quality remains high and our aggregate 
retention is strong, although economic forces create challenges to 
retain certain critical skills sets with an appropriate return on 
investment. Candid fleet feedback indicates that deployment lengths and 
budget uncertainty lead sailors' list of concerns.
    Further, Navy remains dedicated to the prevention of suicides and 
sexual assault. Concomitant with maintaining world-class warfighting 
prowess, there is no higher calling than defending freedom within our 
ranks--just as we do throughout the world. While reports of sexual 
assault have increased, we believe this is the result of sexual assault 
education and awareness initiatives, better understanding of avenues to 
report incidents, and earned trust and confidence in a proven support 
and response system. Our goal is to prevent any sexual assault, 
harassment, and destructive behavior that lead to such crimes in a 
continuum of harm. Our comprehensive prevention strategy of enabling 
proactive command environments, institutional deterrence, and 
appropriate offender accountability, is evidenced by increased 
reporting in the past year.
Suicide Prevention and Operational Stress Control
    Suicide prevention is an all hands evolution, all the time. With a 
motto of ``Every Sailor Every Day,'' Navy's Suicide Prevention Program 
promotes psychological, emotional and spiritual wellness, while 
reducing barriers that discourage seeking help. A comprehensive four-
prong approach envelopes training, intervention, response, and 
reporting, to ensure a support network and skills needed to thrive, not 
just survive. Navy Operational Stress Control is the foundation of our 
suicide prevention initiatives, supporting the fleet with resources to 
navigate the stressors and challenges commonly associated with Navy 
life, to help sailors build resilience and maintain personal readiness. 
We also funded Operational Stress Control mobile training teams, which 
deliver resiliency lessons to ships, squadrons, and submarines before 
overseas deployment. We are hiring resiliency counselors to go to sea 
alongside extant teams of chaplains, behavioral psychologists and other 
medical professionals who proactively assist sailors each day.
    In fiscal year 2013, we launched the NavyTHRIVE communications 
campaign, focusing on providing sailors, leaders and families with the 
tools and knowledge to thrive; the next step in the resilience ladder. 
Thrive in your Community, the 2013 Suicide Prevention Month theme, 
added a new dimension to NavyTHRIVE by emphasizing the importance of 
cohesion and togetherness when dealing with adversity, and served as a 
launch pad for year-long engagement at the local command level. The 
Thrive During the Holidays campaign continued our NavyTHRIVE effort, 
addressing the various components of a physically and psychological 
healthy lifestyle to reduce holiday stress.
Yellow Ribbon and Psychological Health Outreach
    Since 2008, the Navy Reserve has used two programs to support 
Reserve sailors and families, with exceptional success. The Yellow 
Ribbon Reintegration Program (YRRP) has provided deployment and 
reintegration information and support for Reserve sailors. The YRRP 
provides information, referrals and outreach to military members, their 
families, employers and immediate support network. The Returning 
Warrior Workshop (RWW) is a post-deployment event that facilitates the 
reintegration of Reserve sailors with their spouses or designated 
individual of their choice. The RWW primarily honors members and 
families for their sacrifices and support, and identifies psychological 
health issues, providing the opportunity for follow-on services. This 
program has been described as a ``best practice'' within the DOD Yellow 
Ribbon Reintegration Program and during 115 RWWs conducted which served 
14,000 attendees since its inception in 2008.
    The Psychological Health Outreach Program (PHOP), also established 
in 2008, ensures that Reserve sailors and their families have full 
access to psychological health care services including psycho-
educational briefings, Behavioral Health Screenings (BHS), and phone or 
email follow-up. In fiscal year 2013, PHOP Outreach Teams conducted 459 
Site visits, briefing 36,413 Reserve sailors and family members. They 
also served in support of 15 Returning Warrior Workshops and conducted 
1,153 BHSs. PHOP Teams contacted 4,760 recently demobilized Reserve 
sailors 18,063 times while concurrently following-up with current 
clients and commands. As the Reserve component assumes an increased 
share of Individual Augmentations, we appreciate Congress' continued 
support of these two programs that have become so important to our 
Reserve sailors and their families.
Sexual Assault Prevention and Response
    Sexual assault continues to challenge our Navy and our Nation. We 
have made significant strides in elevating sailor trust and confidence 
in command leadership and understanding of the SAPR process, evidenced 
by an unprecedented increase in sexual assault reporting. Increased 
reporting supports our ability to understand circumstances of sexual 
assault, enables continuous improvement in our response, drives our 
ability to hold perpetrators appropriately accountable, and allows 
implementation of pertinent prevention methodologies. Our continued 
world-class, empathetic response to every incident will drive 
additional reporting.
    Our goal is a culturally aware and educated Total Force, which does 
not tolerate, condone, or ignore sexual assault, sexual harassment, or 
sexist behaviors. We are utilizing numerous approaches to drive our 
ability to prevent and respond to sexual assaults.
    To ensure appropriate command climates are being fostered Fleet-
wide, we directed the review of command climate surveys by a 
commander's superior, implemented roving barracks patrols to detect and 
diffuse potential adverse situations, and augmented our alcohol de-
glamorization campaign by restricting on-base alcohol sales. In fiscal 
year 2015, Commander, Naval Installations Command will assign nine new 
military SAPR officers to Navy regions for training, education, and 
victim support. The Naval Criminal Investigative Service has 
implemented the Special Victim Capability program to dedicate better-
trained agents to manage sexual assault cases and plans to hire 54 
additional agents. We have enhanced pre-trial investigations by 
mandating that only judge advocates serve as Article 32 Investigating 
Officers for sexual assault cases, and moved Initial Disposition 
Authority to officers in the grade of O-6 and above. We have installed 
full-time SAPR officers at each four-star fleet commands, all critical 
three-star staffs, and our main regional commands to help drive the 
necessary cultural change to eliminate sexual assaults. The Deployed 
Resiliency Counselor program will field certified clinical counselors 
on board deployed aircraft carriers and amphibious assault ships to 
train SAPR Victim Advocates and counsel sailors on issues that do not 
rise to the level of medical diagnoses. The newly-implemented Victims 
Legal Counsel program provides an experienced Navy attorney to 
represent sailors who report being victims of sexual assault. We 
anticipate this initiative will lead to increased reporting, and will 
result in victims remaining in the legal process through final 
adjudication. We are continuing efforts to establish a metrics-based 
evaluation of our progress, and to improve sexual assault prevention 
efforts, to include identifying leading indicators that will allow us 
to predict destructive behavior at all levels of command.
Command Climate
    Creating an inclusive climate in which everyone has an equal 
opportunity to reach their highest potential while being treated with 
dignity and respect, ultimately leads to organizational effectiveness. 
Positive climates; in which to work, live, and train; are directly 
related to mission success. Yet providing a positive command climate in 
the Navy is not only the commander's responsibility, but the 
responsibility of every sailor within that command. Each sailor must 
promote good order and discipline to keep work environments free from 
destructive behaviors such as discrimination, sexual harassment, 
fraternization, and hazing. Every commander is required to conduct a 
command climate assessment within 90 days of assuming command, and 
annually thereafter. We also enhanced commander accountability by 
requiring a face-to-face debrief of the command climate assessment with 
the immediate superior in command (ISIC), to include an executive 
summary and a corrective actions plan. This provides the ISIC the 
opportunity to mentor subordinate commanders, and to take immediate 
action to ensure fairness and positive uplifting work environments of 
mutual trust and respect.
Alcohol and Substance Abuse Prevention
    Navy Alcohol and Drug Abuse Prevention programs support enhanced 
Fleet, Family, and Personal Readiness through aggressive alcohol abuse 
and drug abuse prevention. Between January and April 2013, Alcohol 
Detection Devices were deployed as a new tool to prevent irresponsible 
alcohol use in all afloat and shore commands, in support of alcohol 
abuse prevention program policies.
    Navy's policy on drug abuse is ``zero tolerance.'' Substance abuse 
puts lives and missions at risk, undercuts unit readiness and morale, 
and is inconsistent with Navy's ethos and core values of Honor, 
Courage, and Commitment. Detection, deterrence, and prevention are key 
elements in combating drug abuse. Frequent random urinalysis is the 
most effective means to detect and deter drug abuse, and we have added 
synthetic cannabinoids (such as ``Spice'') to the standard drug-testing 
panel. Spice detection rates decreased dramatically after this program 
began, testifying to the enduring value of ``zero tolerance'' through 
regular urinalysis testing.
Physical Fitness and Nutrition
    Navy is fully committed to developing and sustaining a ``Culture of 
Fitness'' for all sailors. Extensive scientific research shows that 
physical fitness and healthy eating reduces the risk of chronic 
disease, while increasing physiological and psychological well-being. 
Regular physical activity coupled with proper nutrition aids in stress 
relief, improves sleep, and increases self-esteem. The 21st century 
sailor initiative provides guidance and tools needed to overcome 
adversity, maintain resiliency, and thrive. Navy's Physical Readiness 
Program has developed the Navy Food Literacy Program, designed to 
improve health and wellness of the Navy Community through increasing 
food literacy, which is defined as the degree to which people 
understand food and process information about food choices. A pilot 
study that commenced last month will engage the Navy Nutrition Program, 
the Centers for Disease Control, and registered dieticians at five 
military treatment facilities to assist sailors and their families. 
This pilot is occurring on six naval bases to determine best practices 
and methods, with the goal of successfully educating sailors and their 
families on the topics of food, health, and sustainability.
    We are also piloting the DOD Healthy Base Initiative (HBI) at Naval 
Submarine Base New London and Joint Base Pearl Harbor-Hickam. HBI 
supports President Obama's 2011 National Prevention Strategy and is 
designed to create an environment which encourages healthy lifestyles 
through a set of initiatives borrowed from a wide range of best 
practices both within and outside the Department of Defense.
Family Support
    Family Support programs are a critical component in enhancing 
mission readiness and Navy's 21st century sailor initiative. Family 
support programs assist commanding officers, sailors, and their 
families to manage the unique demands of the military lifestyle in 
concert with a healthy family life. Navy Fleet and Family Support 
Center ensure military families are informed, healthy, and resilient 
through robust programs to include relocation assistance, non-medical 
and family counseling, personal and family life education, personal 
financial management services, information and referral services, 
deployment assistance, domestic violence prevention and response 
services, exceptional family member liaison, emergency family 
assistance and transition assistance.
Transition Goals, Plans Success (Transition GPS)
    Transition GPS replaced the 20-year-old Transition Assistance 
Program. The development and implementation of this initiative to 
extend the continuum of care to retirement, and well beyond, was a 
collective effort involving all military services. Created by the 
Office of the Secretary of Defense, with full participation by the 
Department of Veteran's Affairs, Department of Labor, and the Small 
Business Administration, Transition GPS increases sailors' abilities to 
overcome challenges they may face in pursuit of their chosen civilian 
career path. Transition GPS is a reinvestment in our citizen-sailors, 
and by providing ready, skilled, and service-oriented workers, we 
become a stronger nation.
                               conclusion
    The President's fiscal year 2015 budget request resources critical 
programs that will continue to support Navy manpower, personnel, 
training, and education. With your continued support and leadership, I 
remain confident and optimistic as we shape our Navy to meet current 
and emerging requirements, while confronting challenges that lie ahead. 
On behalf of the men and women of the U.S. Navy, and their families, 
thank you for your sustained commitment and unwavering support.

    Senator Gillibrand. Thank you.
    Next is Lieutenant General Cox.

  STATEMENT OF LT. GEN. SAMUEL D. COX, USAF, DEPUTY CHIEF OF 
STAFF FOR MANPOWER, PERSONNEL AND SERVICES, A-1, U.S. AIR FORCE

    Lieutenant General Cox. Chairwoman Gillibrand, Ranking 
Member Graham, distinguished members of the subcommittee, it is 
my honor to appear before you today representing our total 
force airmen.
    As I look back to when I came into the Air Force 3 decades 
ago, we had nearly 600,000 airmen serving on Active Duty during 
the height of the Cold War. So much has transpired since that 
time. We have evolved into an effective and capable active 
force of just 328,000 airmen today.
    As I look down the road at the future state of the Air 
Force, it will require us to be more efficient and more agile 
while getting smaller in order to support the demands of the 
21st century Air Force.
    The Air Force remains committed to providing the highest 
quality airmen to combatant commanders. We have been actively 
engaged in combat operations for more than 23 consecutive 
years, and our airmen remain at the forefront of today's 
conflicts and other contingency operations around the globe. 
Serving proudly alongside our sister Services, last year, total 
force airmen filled over 900,000 deployment requirements to 
over 600 different locations. We are out there and we are 
getting the job done. I am extremely proud to be a part of this 
team.
    Moving forward, given the current environment, the Air 
Force will size and shape our force to meet DOD strategic 
guidance with a leaner force. To do this, we are using a wide 
variety of force management tools which will maximize voluntary 
programs first, offer incentives where needed, and employ 
involuntary programs when required. As we get smaller, we will 
continue to integrate our total force by leveraging the 
flexibility of our regular Air Force with our Guard and Reserve 
partners, balancing full-time and part-time airmen where and 
when it makes sense. Our airmen, a combined team of total force 
officers, enlisted and civilians, have and will be the 
foundation of the success of our Air Force. As we continue to 
meet the budget challenges, it is their commitment, ingenuity, 
and hard work that will help us navigate our future. We are 
committed to train and equip the highest quality airmen to 
ensure our Air Force remains capable of supporting any 
contingency around the world and overcoming any future 
adversary.
    I appreciate your support and concern for our Nation's 
great and professional airmen.
    I look forward to your questions.
    [The prepared statement of Lieutenant General Cox follows:]
           Prepared Statement by Lt. Gen. Samuel D. Cox, USAF
                              introduction
    Today, the Total Force airmen of your Air Force are a highly 
trained, experienced, and battle-tested force, standing as vanguards of 
freedom around the world. Despite the last two decades of sustained 
conflict, the men and women of your Air Force are as dedicated, 
innovative and hard working as ever before. Airmen are the backbone of 
our Air Force. Throughout our Service history and ingrained in our 
culture, is a spirit of innovation where airmen are enabled and 
expected to find novel solutions to ensure our ability to operate in 
air, space and cyber space. In order for airmen to continue to fulfill 
their expected roles as innovative leaders and warriors, the Air Force 
must remain focused on recruiting, training, developing, supporting and 
retaining a world-class, All-Volunteer Force. Maintaining an All-
Volunteer Air Force is a significant undertaking and requires a 
continuous and deliberate investment of time and resources.
    The Air Force continues to balance today's missions with tomorrow's 
requirements in a constrained budget environment. We are modernizing 
how we manage the force and our focus is on deliberately shaping and 
sizing the force to meet future mission needs, while also balancing the 
likelihood of decreased budgets for the foreseeable future. Our entire 
workforce (military, civilian and contractor) must be appropriately 
sized to support and execute our piece of the National Defense Strategy 
while concurrently considering fiscal realities.
    The Department of Defense (DOD) guidance for a leaner force and 
anticipated future needs will result in a smaller force, and based on 
the Department's guidance, the Air Force, like our sister services, 
must become smaller to live within our fiscal constraints. We must 
balance our force structure and end strength to preserve readiness and 
modernization requirements to meet the Air Force's contribution to 
defense strategy given a realistic spending forecast. Therefore, the 
Air Force's Total Force will be reduced by as much as 25,000 military 
personnel over the next 5 years to meet budget requirements, along with 
corresponding aircraft inventory reductions.
                         contingency operations
    Our airmen remain at the forefront of today's conflicts and other 
contingency operations around the globe, serving proudly alongside our 
joint partners. During calendar year 2013, Total Force airmen filled 
over 90,000 deployment requirements to over 600 different locations 
supporting a host of named operations including such notable operations 
as Operation Enduring Freedom (OEF), OEF-HOA (Horn of Africa), and 
Operation Noble Eagle (ONE). As a testament to our commitment to 
utilizing the Total Force, of the 90,000+ deployments, the Active 
component, Reserve component, and Guard component filled approximately 
66,000, 7,500, and 16,500 of the requirements, respectively, with Air 
Force civilians filling over 700 deployment requirements. In addition, 
over 135,000 airmen provided daily support to Combatant Commanders in 
their in-garrison missions such as nuclear deterrence, cyber defense, 
global mobility, and homeland defense.
    Reductions in operations in Afghanistan will influence the Air 
Force's overall deployment requirements. However, we anticipate 
combatant commander requirements for manned and unmanned Intelligence 
Surveillance and Reconnaissance, Personnel Rescue and Recovery, 
Fighter/Attack, and Airlift assets will remain high while demand for 
the land component force requirements continues to fall specifically in 
the U.S. Central Command (CENTCOM) area of responsibility. 
Additionally, CENTCOM and other combatant commanders have capability 
requirements each fiscal year that go unfilled due to lack of capacity 
in the joint force. The joint force will have to address and prioritize 
those requirements against the Service's requirement to provide a ready 
force as the drawdown continues.
              military and civilian personnel end strength
    Budgetary constraints and changes in force structure will lead the 
Air Force into reducing Total Force end strength and implementing 
increased military Force Management programs and civilian workforce 
shaping programs in fiscal year 2015. The Air Force's total military 
strength forecast for fiscal year 2015 will be reduced from 503,400 to 
483,000. Our Active Duty military end strength will be reduced 16,700, 
from 327,600 to 310,900. Our Air Force Reserve (AFR) military end 
strength will decrease by 3,300 to 67,100, and Air National Guard (ANG) 
military end strength will decrease by 400 to 105,000. Due to funding 
and force structure impacts, the Air Force's civilian strength forecast 
for fiscal year 2015 will be reduced from 186,026 to 183,328.
                       military force management
    The Air Force's Force Management (FM) program is a tailored multi-
year effort comprised of many programs aimed at managing the long-term 
health of the force. Given the current environment, the Air Force must 
reduce the size and reshape the force to meet DOD strategic guidance 
for a leaner force. To do this, we plan to use a wide variety of FM 
tools which Congress has authorized with a focus on maximizing 
voluntary programs first, offering incentives where needed, and 
involuntary programs only when required. We also realize that as the 
Air Force becomes smaller, it is ever more important to retain our 
highest performing airmen. Therefore, as we execute our FM programs and 
reduce overages, we will focus our programs to support retaining our 
best airmen who possess the right balance of skills we need to meet the 
Air Force's current and future mission requirements.
    In fiscal year 2013, our FM program strategy focused on offering 
traditional voluntary FM programs such as Active Duty Service 
Commitment (ADSC) and Time in Grade (TIG) waivers, and offering 
transfers to the Air Reserve Component (ARC) via Palace Chase. Based on 
continued strong retention rates among officer and enlisted 
populations, we planned to offer a limited and targeted Temporary Early 
Retirement Authority (TERA) in fiscal year 2013, but were unable to 
secure funding to execute the program due to sequestration impacts 
which took effect during the middle of the fiscal year. There were 
several limited involuntary FM programs used in fiscal year 2013, which 
included enlisted dates of separation rollbacks and constraints on the 
number of first-term airmen eligible for reenlistment; however, we did 
not convene any involuntary officer or enlisted FM boards in fiscal 
year 2013. As a result, the Air Force began fiscal year 2014 
approximately 1,200 airmen over budgeted end strength.
    The Air Force would prefer to reduce the force over the Future 
Years Defense Program (FYDP) through voluntary measures alone; however, 
based on continued high retention rates, anticipated force structure 
levels, and end strength reductions beginning in fiscal year 2015, we 
will accelerate our FM programs starting in fiscal year 2014. Doing so 
will enable us to fund the additional voluntary incentive programs 
(Voluntary Separation Pay (VSP) and TERA) needed to meet end strength.
    Planned fiscal year 2014 Military FM programs will include the use 
of ADSC waivers (officer and enlisted); TIG waivers (officer and 
enlisted); PALACE CHASE (officer and enlisted); TERA (officer and 
enlisted); Date of Separation Rollback (enlisted only); 8- vs 10-yr 
commissioned service for retirement (officer only); Voluntary 
Separation Pay VSP (officer and enlisted); and Enhanced Selective Early 
Retirement Board (ESERB) (officer only--Colonels and Lieutenant 
Colonels in select AFSCs) to support meeting fiscal year 2014 end 
strength mandates by the end of the fiscal year.
    Projected fiscal year 2015 Military end strength reductions will 
require a more aggressive approach in our FM programs, which will lead 
the Air Force to continue the use of fiscal year 2014 FM programs in 
fiscal year 2015, along with the addition of Quality Force Review 
Boards (enlisted); E-4 through E9 Retention Boards (enlisted); Force 
Shaping Boards (officer); Reduction in Force Boards (RIF) (officer), 
and Enhanced Selective Early Retirement Boards (ESERB) (officer).
                       civilian force management
    The Air Force implemented civilian FM programs following a 
concentrated effort in 2010 from the DOD to trim the civilian workforce 
by focusing on increasing efficiencies, reducing overhead costs and 
eliminating redundant functions, which led to the elimination of 16,500 
Department of the Air Force civilian positions in fiscal year 2012. 
Starting in fiscal year 2012 the Air Force utilized a multitude of 
civilian force management programs which included a temporary hiring 
freeze, multiple rounds of Voluntary Early Retirement Authority (VERA) 
and Voluntary Separation Incentive Pay (VSIP), as well as aggressive 
voluntary reassignments in an effort to decrease the number of surplus 
employees created by this reduction. At the start of fiscal year 2013 
1,000 surplus employees remained; however, by continuing the use of 
voluntary separation programs such as VERA and VSIP, management 
reassignment, attrition, and the flexibilities under RIF authorities in 
fiscal year 2013, the Air Force voluntarily separated 603 employees, 
reassigned 324 employees to other positions and ultimately only 
separated 86 employees involuntarily.
    The Budget Control Act (BCA) of 2011 (Pub L. 112-25) directed 
across the board cuts in defense spending. with the threat of long-term 
budget impacts from BCA through the FYDP, multiplied by the National 
Defense Authorization Act (NDAA) for Fiscal Year 2013 mandated 
``Savings to be Achieved in Civilian Personnel Workforce and Service 
Contractor Workforce of the Department of Defense'' and the NDAA for 
Fiscal Year 2014 mandate to streamline the DOD management headquarters 
staffs beginning in fiscal year 2015 through fiscal year 2019, we have 
no choice other than to continue to shrink the size of our civilian 
workforce, forcing us to continue civilian FM programs in fiscal year 
2014 and beyond. The purpose of the civilian FM programs are to comply 
with mandatory funding targets directed by DOD and rebalance the 
civilian workforce to ensure mission critical competencies and skills 
are in place to meet current and future mission requirements.
    In fiscal year 2014, as in past years, we will continue to offer 
VERA and VSIP to the maximum extent possible before we implement a RIF. 
The first round of VERA/VSIP in fiscal year 2014 targeted residual 
fiscal year 2013 surplus employees and employees impacted by the fiscal 
year 2014 Civilian Workforce Review. In this round, the Civilian 
Personnel Sections (CPSs) conducted 9,330 VERA/VSIP surveys, of which 
160 positions were approved with an effective separation date of 
February 28, 2014. Further rounds of VERA/VSIP are pending approval by 
Air Force leadership. A RIF will only be considered if necessary and as 
a last resort. At this time, the Air Force does not plan to furlough 
civilians.
                         transition assistance
    Over the last couple of years, the Airman and Family Care Division 
has been largely focused on the redesigned Transition Assistance 
Program (TAP) to support airmen as they transition to civilian life. In 
light of pending end strength reductions and increased FM programs, 
continued focused effort is necessary. The Veterans Opportunity to Work 
(VOW) to Hire Heroes Act of 2011, and Veterans Employment Initiative 
(VEI) drove a host of new TAP requirements to expand training and 
employment services for Active Duty, Reserve, and Guard members who 
will transition from the military to the private sector. VOW/VEI 
mandated all airmen separating or retiring from the Air Force must 
complete TAP, which includes pre-separation counseling, attendance at a 
Department of Labor Employment Workshop (DoLEW), Veterans Affairs (VA) 
benefits briefings, and Capstone. Capstone is the documentation that 
validates career readiness standards have been met and that the 
servicemember is ready to transition to the private sector.
    The fiscal year 2014 and 2015 FM programs call for a significant 
reduction in Total Force airmen. Those transitioning airmen will be 
over and above the 32,000 to 35,000 airmen our Airmen and Family 
Readiness Centers (A&FRCs) process through TAP each year (fiscal year 
2013 throughput was 33,422). Our A&FRC team is taking additional steps 
to help leadership at all levels of the Air Force to ensure all airmen 
separating or retiring attend TAP as required. Some initiatives include 
increasing the frequency of courses at each installation, increasing 
the class size, coordinating with partnering agencies such as the VA 
and DoL to brief additional TAP courses as needed, providing the Air 
Force community (to include family members) with information about TAP 
(includes websites, commander messages, senior leader engagements, etc) 
and ensuring A&FRCs contact airmen about signing up for TAP.
                               recruiting
    Accessions are the lifeblood for our force, which compels us to 
maintain a strong and experienced recruiter force capable of 
understanding and responding to the evolving recruiting environment we 
operate within. A successful recruiting program requires us to leverage 
a wide variety of recruiting tools in support of our recruiting force, 
such as the Initial Enlistment Bonus (IEB) program, a fully resourced 
advertising and marketing fund, and an improved information systems 
infrastructure to successfully inspire, engage, and recruit the 
brightest, most competitive and diverse men and women for service in 
America's Air Force. Air Force Recruiting Service (AFRS) has 
successfully met the All-Volunteer Force requirements for the past 14 
years and is currently positioned to meet both fiscal years 2014 and 
2015 recruiting requirements. However, under the current environment 
with the strong possibility of long-term, constrained budgets, we fear 
it may be impossible to properly resource recruiting efforts in the 
future which would strain our ability to meet future accession 
requirements as the economy improves.
    The Air Force budget for recruiting includes funding for day-to-day 
operations, personnel costs, and advertising activities necessary to 
the successful accomplishment of the recruiting mission. Due to an 
increasingly limited resource environment, budgets for recruiting in 
recent years have experienced a steady decline in available funding. 
Advertising dollars in particular have been impacted, which has created 
inefficiencies and a constrained television advertising campaign. 
Specifically, budget actions, such as sequestration in fiscal year 
2013, slowed or completely shut down key advertising and marketing 
events, to include the Air Force Thunderbird Aerial Demonstration Team, 
and delayed our national television campaign for fiscal year 2014, 
leading to missed ``key spots'' and diminished purchasing power. This 
not only resulted in the absence of Air Force awareness activities in 
entire markets, but it also strained relationships within key 
communities that recruiters have worked years to foster.
    The AFRS depends on the IEB program to produce a sufficient recruit 
pool to access requirements for high-demand, low-density career fields 
such as battlefield airmen and linguists, and we have successfully 
utilized the program to recruit youth into career fields that have been 
historically hard to recruit and/or qualify for by awarding a monetary 
bonus as an incentive. The Air Force budget for its IEB program in 
fiscal year 2015 is $14.2 million. Funding for IEB must continue, as 
without the IEB program, the ability to recruit the right requirements 
at the right time for these unique demands would be seriously 
jeopardized.
    AFRS works closely with stakeholders to ensure recruiting funds are 
best utilized to carry out a recruiting campaign that meets accession 
requirements, but also support priorities and goals set forth in the 
Air Force Diversity Strategic Roadmap. These efforts are aimed at 
sustaining a robust strategic outreach program that creates 
opportunities for recruiting a high quality, diverse talent pool, 
reflective of the best of the Nation we serve. The Air Force will 
accomplish this by leveraging relationships with DOD and non-DOD 
entities to ensure recruitment practices are effectively reaching all 
segments of society, and assessing the effectiveness of current 
branding and recruitment practices for all demographics/markets to 
ascertain actionable steps to increase access and positioning.
                               retention
    The Air Force has continued to experience high retention trends 
over the past 10 years, with the officer and enlisted retention trend 
remaining very strong in fiscal year 2013. Even with the upcoming 
reductions in end strength, there are still critical and emerging 
career fields that are experiencing poor retention, low manning and/or 
high operational demands (such as battlefield airmen and cyberspace 
specialties). Airmen associated with these skills are not targeted in 
the fiscal year 2014 FM programs, and there are numerous efforts to 
increase career field health. These include, but are not limited to, 
Special and Incentive (S&I) and Bonus pays, protections from FM 
programs, and increases to accessions, retraining and promotions.
    The fiscal year 2014 budget for all S&I Pay is $894.2 million, with 
recruiting and retention pays accounting for $412.5 million. The 
remaining $481.7 million of the total budget pays for health profession 
incentive pay, flying duty pay, hazardous duty pay and other special 
pays, such as Special Duty Assignment Pay (SDAP), Hostile Fire Pay, and 
Foreign Language Proficiency Bonus/Pay. The Air Force allocated $232 
million of the S&I Pay budget in fiscal year 2014 for Selective 
Reenlistment Bonuses (SRBs); however, given a smaller future force, the 
Air Force chose to tailor the SRB program to better align with our 
fiscal year 2014/2015 FM Programs. In fiscal year 2013, 55 career 
fields participated in the SRB program; however, in fiscal year 2014, 
only 10 remain eligible, and those remaining are not eligible for 
voluntary or involuntary FM programs in fiscal year 2014. These 
specialties include our Battlefield Airmen, Intelligence, Surveillance 
and Reconnaissance, and Career Enlisted Aviator career fields. Our 
fiscal year 2014 Officer and Enlisted Critical Skills Retention Budget 
was $11.8 million, focusing on retention of senior noncommissioned 
officers and mid-career officers in Special Operations; Battlefield 
Airmen, Intelligence, and Contracting specialties.
    We expect the fiscal year 2015 budget for all S&I Pay to remain 
consistent with fiscal year 2014 budget levels and, although we have 
reduced the number of career fields participating in the SRB program, 
we intend to only slightly reduce our budget from $232 million to $179 
million. This allows us to target our critical needs and transition to 
lump sum payments instead of multiple initial and anniversary payments, 
which will provide much greater fiscal oversight and efficiency as well 
as greater flexibility to target critical retention needs. This is 
essential to maintaining high quality airmen in critical career fields 
as we come through extremely turbulent times due to end-strength 
reductions and an improving economy. SRB investments have shown to 
improve retention from 1 to 8 percent per SRB increment, depending on 
the reenlistment zone. We continually review and monitor our S&I Pay 
programs for impact on recruiting and retention as well as linkage to 
FM programs and a constrained budget.
                          compensation reform
    With full Budgetary Control Act Sequestration-level cuts in effect 
in fiscal year 2016 and beyond, the Air Force agrees we cannot afford 
to sustain the rate of growth in military compensation that we have 
experienced over the last decade and continue to maintain readiness and 
provide our airmen with the finest training and equipment possible. 
However, as we balance quality personnel with readiness requirements, 
we must ensure a competitive compensation package to recruit and retain 
quality personnel for our future force. Thus, the Air Force, in 
conjunction with the Department, is working with the Military 
Compensation and Retirement Modernization Commission to review 
potential compensation system reforms and study the impact on the All-
Volunteer Force.
    Department-wide compensation reform is a very difficult task as the 
Department is very complex with differing force profiles and different 
recruiting and retention needs. The Air Force is a retention-based 
force requiring highly qualified, educated and technically experienced 
personnel, thus a more senior and experienced force is required to 
fulfill our mission. Therefore, we must assess the combined and 
compounding impact on recruiting and retention for the All-Volunteer 
Force, as well as impact on the retiree population before making 
significant changes. The Air Force concurs with the Department that 
there is sufficient information available to make recommendations on 
key areas of current compensation (other than retirement) to slow the 
growth of military pay and benefit costs, starting with the fiscal year 
2015 budget, in order to permit a balanced drawdown in defense 
spending. For major modifications to the compensation system, we 
recommend reviewing the Commission report first to ensure it supports 
the sustainment of a highly skilled and capable All-Volunteer force.
                  quality trained and developed force
    A properly trained and developed force is critical to the success 
of our Air Force; therefore, we took several measures to mitigate the 
challenge of resourcing Professional Military Education (PME) and 
functional developmental education requirements. Reductions to officer 
PME resulted in prioritizing and selecting joint, sister service, 
cyber, nuclear, and lab opportunities over some fellowships and 
international programs of study. Despite these reductions, the Air 
Force's top performing field grade officers will be provided in-
residence education that ensures they possess the right knowledge to 
succeed at the operational and strategic levels and develop into our 
leaders of the future.
    The Air Force has always valued the Military Tuition Assistance 
(MilTA) program as a force enabler affecting recruitment, retention, 
and readiness. Higher education is an important component in airman 
development since it directly enhances critical thinking skills. 
Reduced budgets brought on by sequestration required the Air Force to 
conduct a top-to-bottom review of the MilTA program. In order to 
sustain this valuable program and ensure airmen are receiving the right 
education at the right time, the Air Force instituted management 
controls for the use of MilTA. The first was to re-insert the 
supervisor into the approval process. This allowed supervisors the 
opportunity to get to know their airmen's educational goals and provide 
mentoring. Additionally, airmen who have not passed or are overdue for 
their Physical Fitness Test, have an Unfavorable Information File, or 
have a referral annual performance report are ineligible for MilTA 
until these issues are resolved. We believe these controls ensure 
airmen are prepared to succeed in their degree program as well as 
continue their critical work in the defense of our great nation.
                  support to airmen and their families
    The Air Force remains committed to providing the best support 
possible to help build and maintain ready, resilient airmen and 
families. Prolonged constrained budgets are becoming a challenge and 
our ability to maintain programs at levels funded at higher levels in 
previous years will not be possible. Unfortunately, fiscal realities 
are forcing us to make difficult decisions where some programs will be 
reduced or possibly cut. We fear the inability to sustain some programs 
may negatively affect future readiness and unit cohesion. However, 
despite these challenges, we continue to prioritize quality airmen and 
family support programs directly tied to mission accomplishment. Our 
strategy will be to tailor programs and services to meet evolving 
demographics and demands where appropriate and capitalize on community 
partnerships to advance efficiencies where feasible.
    To help mitigate constrained budgets and impact of reduced funding, 
the Air Force prioritized its Services programs to place the focus on 
resourcing the most valued programs from an enterprise-wide, mission 
accomplishment perspective. Capturing our programs in a prioritized 
listing resulted in identifying our ``core'', and ``core of core'' 
programs, to focus our limited resources where they are most needed. 
This priority listing receives top leadership attention and 
consideration as we navigate fiscal challenges.
    Air Force Services continues to advocate funding all ``core'' 
programs that include: Child and Youth Care, Military Dining 
Facilities, Fitness Centers, A&FRC, Youth Programs, Libraries and 
Outdoor Recreation. When funding became even tighter, Air Force 
narrowed the ``core'' programs down to ``core of core'' programs 
(Fitness Centers, Military Dining Facilities, and Child and Youth 
Care). Programs such as community activity centers, skill centers, 
bowling, and clubs are ranked below the core activities and are the 
last to receive appropriated funding consideration.
    Regardless of a program's ranking, sequestration had a significant 
impact on MWR programs in fiscal year 2013, and we experienced 
installation-level program closures and adjusted budgets based on 
available funding in an effort to focus our resources where they were 
needed most. As we look forward with a sharper focus on declining 
budgets and concern about our ability to maintain needed programs, we 
will continue to explore innovative means of providing timely and 
relevant support to our airmen and families. We expect similar funding 
challenges in fiscal years 2014 and 2015, with possibly a continued 
impact on airmen and family programs.
    Air Force Child and Youth Programs are a critical workforce issue 
for our airmen. To support the mission, a collaborative effort between 
our child development centers (CDCs), family childcare homes, and 
school age programs met the full time childcare needs for over 57,000 
children in 2013. Supporting the Total Force is a priority as our 
community-based programs served nearly 2,500 children whose families 
are not located near an active duty installation. In addition, we 
provided over 126,000 hours of weekend childcare for Air Force 
reservists and Air National guardsmen to attend their unit drills. 
Further, we provided over 37,000 hours of skilled care to our 
exceptional family members allowing parents a needed break from the 
stressors of caring for a child with special needs. In 2013, we also 
expanded our capability by implementing new childcare programs to 
assist wounded warriors, families of the fallen, and those with unique 
needs due to medical circumstances. These programs provide hourly care 
for parents in one of those situations. Care is typically provided in a 
family child care home but can be offered in a CDC depending on 
availability.
    Our Youth Programs continue to provide critical resiliency building 
opportunities for older youth across the Total Force. Resiliency 
building provides our youth the skills to cope with life challenges and 
to help recover following setbacks. The 2013 Air Force Teen Movement 
led by the Air Force Youth Programs Teen Council, offered installation-
based programs targeted toward building community connections, 
increasing teen participation, providing support during PCS moves, and 
offering Science, Technology, Engineering, and Math (STEM) experiences. 
While the final Teen Movement action reports are still being received, 
we are on track to exceed our goal of reaching over 3,500 teens with 
these targeted programs. Likewise, our Air Force youth camping program 
focused on building resilience, fostering leadership skills, and 
promoting healthy living behaviors benefitting over 35,000 youth of 
Active, Guard, and Reserve members. New for 2013, our Youth Program 
members participated in the first ever Military Youth of the Year 
competition, an initiative in partnership with the Boys and Girls Clubs 
of America. Showcasing the stellar achievements of military teens 
around the world, Air Force teens were awarded an astonishing five out 
of six regional winner awards garnering a combined total of more than 
$70,000 in Military Youth of the Year scholarships. In addition, 
through another key partnership with the U.S. Department of 
Agriculture's 4-H Youth Development Program, over 1,000 Air Force youth 
participated in the 2013 National Youth Science Day event, and we were 
able to reach 20,000 additional youth through partnership with 4-H 
county extension agents.
    Looking at 2014, our goal is to ensure Air Force Child and Youth 
Programs are able to operate in a constrained fiscal environment 
without reducing the quality of services provided to our military 
families. Some of our installation childcare programs still experience 
waiting lists particularly in the younger age groups where community-
based care is very expensive and in many cases not available outside 
the gate. Timely availability of childcare spaces remains key to 
allowing our programs to operate at their maximum capacity. To achieve 
this, we have identified these as ``core'' programs to be appropriately 
resourced so our airmen can focus on the mission while knowing their 
youngest family members are being cared for in a safe environment.
    The Air Force has also spent several years revamping the 
Exceptional Family Member Program (EFMP) to support families with 
special needs. These improvements resulted in a 23 percent EFMP 
enrollment increase since 2010. Our work will continue to focus on EFMP 
to better support accommodations of children with special needs in our 
Child and Youth Programs. A further expansion to our EFMP respite 
childcare program will be afforded to airmen at approximately 15 
additional locations.
                integrated disability evaluation system
    The purpose of the Integrated Disability Evaluation System (IDES) 
is to maintain a fit and vital force. The Air Force utilizes the IDES 
to determine if airmen who are ill, injured, or wounded are still fit 
for continued military service and quickly returns those who are. If a 
member is deemed unfit for continued service, the IDES process ensures 
servicemembers receive a VA disability rating and are aware of their 
compensation benefits before they transition from military service. The 
Air Force continues to work on meeting the Office of the Secretary of 
Defense's (OSD) goal of processing airmen through IDES in 295 days. 
Currently, the Air Force active component is averaging 321 days 
processing time from referral for disability evaluation to the date of 
VA benefits decision or return to duty, and current milestone goal is 
for 90 percent of cases to meet DOD stage processing goals by June 
2014.
    In concert with DOD and VA, the Air Force has fielded and tested 
electronic, paperless case management solutions, working toward the 
eventuality of an enterprise-wide system with full interface capability 
with existing personnel data systems. Interim systems in use include 
Right Now Technology and Case File Transfer. These systems will allow 
the DOD Services and VA to significantly reduce case processing times. 
Through the October 2012 reorganization of Physical Evaluation Board 
(PEB) under the Air Force Personnel Center (AFPC) Directorate of Airman 
and Family Care, and the September 2013 consolidation of the PEB 
activity at JBSA-Randolph, the Air Force plans to continue to seek 
efficiencies in manpower allocation, standardization of training, and 
enhancement of PEB administration and adjudication by increasing not 
only Active Duty support, but full-time Reserve and Guard support as 
well. Additionally, we hired a quality assurance specialist in 2013 to 
manage and report statistical findings to senior leadership and work 
internal and DOD technology solutions designed to further shrink IDES 
phase processing averages. Through regular forums with Air Force 
leadership, other DOD Services and the VA, we plan to share resources 
and feedback to achieve our mutual goals.
    In September 2013, the Air Force collocated the Informal PEB and 
Formal PEB (FPEB), allowing greater flexibility to respond to the 
changing mission needs between the two boards, enhancing consistency of 
training and optimizing FPEB Case Manager duties with their integration 
into a combined PEB Case Manager Staff. We instituted pre-PEB and post-
PEB quality review measures including pre-screening to shorten 
timelines. Additionally, the Office of Airmen's Counsel representing 
all airmen in the IDES appeal process relocated to join the FPEB 
creating a ``one-stop-shop'' of services for the servicemember and 
reducing TDY expenses from 5 days down to 3 days per hearing. Most 
recently, we activated a second FPEB and have been able to run up to 
eight hearings per day to expedite moving FPEB cases that are over 
their IDES phase goal. Concerning manpower, the Air Force has 
reallocated eight full-time civilian positions within AFPC and garnered 
AFR support to meet PEB mission requirements. Moreover, we continue to 
leverage and test a robust suite of information technology to achieve 
seamless and paperless DOD-VA case file transfer and conduct formal 
hearing through VTC, saving both time and money.
    The Air Force is also planning to reduce IDES Transition Phase 
processing time through data sharing applications, such as Electronic 
Case File Transfer, between Medical Treatment Facilities, the VA, and 
Air Force personnel offices. Additionally, PEB Liaison Officers update 
servicemember projected departure dates which are sent to Providence VA 
Medical Center to assist in timely individual case projections and 
closure. Further, the Air Force uses IDES servicemember survey reports 
to identify any shortfalls in processing and customer service. 
Consolidated feedback undergoes quality assurance review and analysis 
during Air Force IDES conferences to identify and address any IDES 
process problems or issues.
    Collectively, we expect these major improvement strategies and 
initiatives to continue the Air Force's improved IDES timeliness.
                   supporting total force integration
    In an era of tighter budgets and unpredictability in national 
security platforms and mission sets, it makes imminent sense to get the 
most we possibly can out of the resources afforded to us. The past 13 
years are a testament to the inherent flexibility of a three-component 
force in meeting the demands on our Air Force. We must continue to 
leverage the flexibility of our Regular Air Force (RegAF), ANG, and AFR 
forces, utilizing full-time and part-time airmen where and when it 
makes sense, and providing opportunities to allow our airmen to serve 
in a way that works for them. That means identifying and eliminating 
barriers to a more efficient use of our people--and we are doing just 
that. We are integrating personnel management across the Total Force, 
eliminating unnecessary differences in rules and regulations, 
integrating management structures to a greater degree, and developing 
common platforms for pay and personnel services. The following 
initiatives are laying the foundation for greater integration of the 
total force, which will help the Air Force meet its requirements more 
efficiently going forward:

        <bullet> Air Force Recruiting Information Support System--Total 
        Force, which will be the primary tool for all RegAF, ANG, and 
        AFR recruiters worldwide to collect, process, manage, and 
        analyze all potential enlisted and officer accession data 
        (projected operability is in fiscal year 2014);
        <bullet> ARC2Mission efforts which will streamline and 
        integrate all products required for the activation and 
        deactivation of ARC members to speed orders generation and 
        access to medical benefits and entitlements pre- and post-
        activation periods; and
        <bullet> Career Intermission Pilot Program, which is a one-
        time, temporary transition from active duty to the Individual 
        Ready Reserve for officer and enlisted airmen to meet personal 
        or professional needs outside the service, providing a 
        mechanism for return to active duty. The long-term intent of 
        this program is to retain the valuable experience and training 
        of top performing airmen that might otherwise be lost by 
        permanent separation. It provides an avenue to meet the 
        changing needs of today's servicemembers. This work-life 
        flexibility initiative will enable the USAF to retain talent, 
        which reduces cost and adverse impacts on the mission.

    Other major programs and efforts include the: Integration of Air 
Force Multi-Component Force Support Squadrons (FSS); development and 
procurement of an Air Force Integrated Personnel and Pay System (AF-
IPPS); and creation of an Enterprise-wide Total Force Service Center 
(TFSC).
      integration of multi-component force support squadrons (fss)
    To better support our Total Force airmen and commanders, we 
continue to move forward with our ``Multi-Component Force Support 
Squadron (FSS) Integration'' initiative. The intent is to leverage the 
skills of highly experienced RegAF, ANG and AFR members, to achieve a 
more capable and efficient organization by maximizing the capabilities 
resident in each FSS, while still allowing for component uniqueness 
where warranted. This initiative has its roots in a 2010 Secretary of 
the Air Force memo (``Integration of Air Force Component Personnel 
Management Systems'', 15 Oct 10), directing Total Force personnel 
management integration.
    Currently, on installations that have more than one component 
(Active, Guard, or Reserve), each component is serviced by its own FSS. 
For those installations, the intent is to establish a single customer-
focused FSS supporting all airmen and commanders on that installation, 
while respecting the specific personnel management needs of all 
components. This is truly an integration effort to establish a single 
customer-focused FSS.
    Because FSS Integration is a substantial initiative, we established 
prototypes at three installations (Peterson AFB, March ARB, and Pease 
ANGB) as a proof of concept before implementing across the Total Force. 
Two prototypes recently achieved Initial Operational Capability and all 
three will reach Full Operational Capability by Nov 2014. These actions 
are consistent with the National Commission on the Structure of the Air 
Force's recommendation to integrate the three components' personnel 
management processes. Upon successful proof of concept, we will look to 
expand this initiative.
             air force integrated personnel and pay system
    The Air Force continues to move forward with the AF-IPPS 
initiative, which is foundational to institutionalizing our 3-to-1 
efforts by providing a common platform for Active Duty, Guard, and 
Reserve. This effort integrates personnel and pay systems across the 
Total Force to create a more efficient and effective Air Force. AF-IPPS 
is a web-based system that will allow our airmen to have 24-hour access 
to their personnel and pay record from anywhere in the world.
    The Air Force needs modernized Information Technology (IT) systems 
to support Total Force processes; our ability to manage military 
payroll becomes even more challenging every year. Existing business 
processes are inefficient, error prone and costly to operate. Our 
payroll systems are decades old and built on obsolete technology. While 
our primary Military Personnel Data System is a Total Force system, we 
still rely on several other systems for managing ARC personnel. These 
component-unique systems reinforce differences in how the Air Force 
manages personnel, and causes delays in activating ARC members to 
active status and establishing their pay, benefits and entitlements. 
AF-IPPS will correct these problems, provide financial auditability, 
enable integration at base-level, across the personnel centers and 
eliminate the ``split'' between personnel and pay processes
         creating an enterprise-wide total force service center
    The integration of the Total Force Service Center (TFSC) provides 
immediate efficiency to customer service operations. Two important 
processes have already been integrated, including duty history and 
former spouse determination and others should be integrated by 
September 1, 2014. Utilizing existing technology, Air Reserve Personnel 
Center (ARPC) and AFPC are able to leverage the legacy Remedy platform 
to build Total Force self-service applications including evaluations, 
award, decorations, reenlistments, and extensions.
    TFSC also provides airmen access to personnel information, 
services, and tools via the Internet, e-mail, or telephone. Common 
software platforms are enabling greater integration between the two 
existing personnel centers and improve continuity of operations in case 
of a contingency. All should be available later in fiscal year 2014.
  centralization and elimination of duplicate information technology 
                                systems
    To better support our Total Force airmen and commanders, we 
continue to move forward with efforts to improve the value of our 
Information Technology (IT) Portfolio. We are driving down costs by 
managing our IT systems through a shared services model, and 
transitioning our systems to DOD enterprise data centers. In addition, 
we are also studying various capability areas of our Business 
Enterprise Architecture to determine where we have IT systems 
performing similar business processes. Once identified, we will work 
with business owners to reengineer processes and define IT requirements 
for Total Force solutions. The Air Force Recruiting Information Support 
System referenced previously is a good example of where we have had 
success with this strategy.
                        women in service review
    The Air Force is on track to execute the Women in Service Review 
high-level implementation plan by the 1 Jan 2016, and we do not 
anticipate any obstacles. Air Education and Training Command (AETC), in 
coordination with Air Force Special Operations Command (AFSOC), is 
currently reviewing a small number of closed Air Force career fields, 
including SOF-specific AFSCs, to validate occupationally specific, 
operationally relevant, gender-neutral physical performance tests and 
standards. The study was funded for $1.2 million in May 2013, with an 
estimated completion date of July 2015. Currently there are 7 
occupations that remain closed to women (a total of 4,402 positions). 
The Air Force has not opened any closed AFSCs to women. The seven 
occupations remaining closed to women are: Special Tactics Officer, 
Special Operations Weather (officer), Special Operations Weather 
(enlisted), Combat Control, Combat Rescue Officer, Pararescue, and 
Tactical Air Control Party. The Air Force will open these AFSCs to 
women when mandates in the SecDef/CJCS guidance have been met, and 
occupational standards have been developed and validated.
                               diversity
    Diversity and inclusion remain a top priority of Air Force senior 
leadership. The Air Force recognizes that a diverse force is a military 
necessity, and we continue on a strategic path to attract, recruit, 
develop and retain a diverse and inclusive workforce of highly 
qualified individuals who reflect the rich tapestry of the Nation we 
serve. To further these efforts, in March 2013, the Air Force published 
their Diversity Strategic Roadmap, which provides guidance to enhance 
the diversity and inclusion of the Total Force, as well as track 
progress and success toward reaching diversity goals. Additionally, the 
Secretary of the Air Force and Chief of Staff of the Air Force co-
hosted the first-ever Diversity Focus Day to inform senior leaders on 
diversity efforts to provide senior leaders a snapshot of total force 
demographics and capture senior leader guidance on diversity and 
inclusion initiatives. These efforts made great strides in 
institutionalizing diversity and inclusion across the Air Force.
    Results from the 2013 Internal Communication Assessment Group 
Diversity survey indicated 75 percent of airmen agreed it is important 
for the Air Force to attract, recruit, develop and retain a qualified, 
diverse workforce as a way to maintain our edge as a superior military 
organization. Furthermore, 86 percent of airmen surveyed believe the 
Air Force is doing a good or excellent job creating diversity within 
the Total Force.
    Focus on Air Force outreach programs remains central to attracting 
and recruiting diverse talent. To that end, in partnership with OSD's 
Office of Diversity Management and Equal Opportunity (ODMEO), the Air 
Force plans, coordinates and oversees national-level diversity outreach 
programs supporting our diversity goals and objectives. In 2013, the 
Air Force supported a number of national events including the Black 
Engineer of the Year Awards, Joint Women's Leadership Symposium and the 
Hispanic Engineer National Achievements Award Corporation Conference. 
In addition to national-level diversity outreach events, the Air Force 
developed a program to encourage base-level sirmen, in partnership with 
local recruiters, to develop diversity outreach efforts in their local 
communities. In all these engagements, we continue to place emphasis on 
education, health, and mentoring in the STEM disciplines.
    Finally, the Air Force continues to support the Military Leadership 
Diversity Commission (MLDC) report and provided Air Force input to OSD 
ODMEO's report to Congress on the status of MLDC recommendations. Of 
the 14 service-specific recommendations, the Air Force reported full 
implementation on 11 items, including adopting diversity as a core 
competency; tracking regional and cultural expertise in order to better 
manage personnel and mission-critical skill-sets; and implementing 
diversity strategic plans that address all stages of servicemember's 
life cycle.
                            wounded warriors
    The Air Force Warrior and Survivor Care office, located at the Air 
Staff, is the Air Force Lead in orchestrating a comprehensive effort 
that synergizes DOD and Veterans Affairs programs focused on medical 
and non-medical care of wounded, ill, and injured servicemembers. This 
effort consists of three major working groups: Policy and Oversight, 
Comprehensive Plan, and Community of Practice. The innovative results 
of these groups include the development of a Lead Coordinator to 
facilitate care across the spectrum of care agencies involved, a single 
IT system to share data between Services and to the Veterans 
Administration without repetition or replication of data, and 
overarching policy guidance to synchronize the wounded warrior programs 
while allowing flexibility for each Service to work within their 
current construct, thus saving resources and eliminating the confusion 
inherent in changing programs. Members of the Air Staff, the Office of 
the Secretary of the Air Force, Manpower and Reserve Affairs, and AFPC 
have provided Air Force standards of practice as benchmarks for the 
overall program and were lauded for being visionary in our approach to 
wounded warrior care.
    The Air Force focuses on offering adaptive sports opportunities 
early in an airman's recovery and/or rehabilitation, and they have 
proven to facilitate restoration of wellness and enhance members' 
ability to function in their personal and family lives. Our actions 
include regional sports camps to introduce our recovering airmen and 
veterans to a variety of activities that help them recognize their own 
abilities despite their illness or injury. These camps are also, in 
some instances, the beginning of returning to a social setting and 
learning to accept and/or cope with their disability by interacting 
with others that have similar challenges. Recovering airmen and 
veterans also compete for a place on our Warrior Games team and compete 
in Paralympics style competition against other Services and 
International wounded warrior teams. Our adaptive sports program is one 
of the most successful rehabilitation activities available to our 
recovering airmen outside of physical and occupational therapy offered 
by the medical community.
    In 2013, we doubled our Special Compensation with Assistance for 
Activities of Daily Living program recipients. This program provides 
additional financial support to caregivers, lessening the impact of 
lost wages and other expenses inherent in caring for a seriously 
injured or ill airman. Throughout 2013, and continuing into the future, 
we will work with DOD and VA through the Interagency Care Coordination 
Committee to establish a fluid care plan that will take our airmen from 
the point of injury or illness, through their medical and non-medical 
care while in the Air Force, and seamlessly into the VA system, using a 
single-care plan and eventually an integrated care-management system. 
We have equipped our Recovery Care Coordinators with communications 
equipment, including cell phones and tablets, that allow them to get 
out of their office and engage face-to-face with our airmen and their 
families. The needs of our seriously ill or injured are similar to our 
combat wounded, therefore our programs are designed to support all in 
an equitable manner.
                              evaluations
    All airmen have a responsibility to contribute to a healthy unit or 
organizational climate. In order to maintain this environment, all 
feedback and evaluation forms have been modified to include 
``Organizational Climate,'' when evaluating airmen, and this must be 
discussed in all feedback sessions. Given their position and influence, 
commanders have an even greater responsibility to not only contribute, 
but to create and ensure a healthy organizational climate. The more it 
is incorporated into daily activities, the more it becomes a part of 
Air Force culture. Ultimately, a healthy unit or organizational climate 
is critical to the effectiveness of our Air Force at all levels.
                      comprehensive airman fitness
    Our Air Force continues to make progress in teaching resilience 
skills to our Total Force and their families. Continued high operations 
tempo at home and abroad, coupled with downsizing the force and budget 
cuts, reinforce our need to increase the focus on building strong, 
resilient airmen. The Air Force has successfully graduated 641 Master 
Resilience Trainers (MRTs). Each trainer learned to facilitate and 
train new members on core competency skills using the four domains of 
Comprehensive Airman Fitness (CAF); mental, physical, social and 
spiritual fitness. MRTs are teaching resilience skills at First-Term 
Airmen Centers, Airmen Leadership Schools, and they are training 
Resilience Trainer assistants (RTAs) to aid and assist units/squadrons 
with building resilience skills. A tailored CAF course has been created 
for Air Force Key Spouses, and once trained, Key Spouses may serve as 
RTAs to assist commanders with their units, and further assist spouses 
with building CAF skills.
    CAF is governed by the Air Force Community Action Information Board 
(CAIB), chaired by our Air Force assistant Vice Chief of Staff. In 
December 2013, the CAIB directed an assessment of increasing the MRT 
ratios. As a result of the overwhelming positive feedback received from 
members who have received CAF training, we are targeting to train one 
MRT per squadron and exploring options to increase the amount of MRTs 
from the current ratio of 1 MRT per 1,000 airmen to 1 per 200 airmen. 
We believe as we build resilience skills, all airmen will be better 
equipped to withstand, recover, and grow in the face of stressors and 
changing demands, and ultimately help sustain continuous mission 
success.
                               conclusion
    Our airmen and their families continue to be the foundation of the 
success of our Air Force. The enduring contributions provided by the 
Air Force in joint operations are a direct result of the innovative 
spirit that reside in all our airmen. Investments in our Air Force 
capabilities are inextricably linked to our Service's ability to 
recruit, train, develop, support and retain a world-class, All-
Volunteer Force. As we continue to meet budget challenges, it will be 
more important than ever to continue to size and shape the force within 
the fiscal constraints to ensure we meet operational demands, while 
analyzing inventories against current and future demands. We are 
confident, keeping faith with our commitment to train and equip the 
highest quality airmen, that our Air Force will remain capable of 
overcoming any challenge or adversary.

    Senator Gillibrand. Thank you, Lieutenant General.
    Last, Lieutenant General Milstead.

  STATEMENT OF LT. GEN. ROBERT E. MILSTEAD, JR., USMC, DEPUTY 
  COMMANDANT, MANPOWER AND RESERVE AFFAIRS, U.S. MARINE CORPS

    Lieutenant General Milstead. Good morning. Chairwoman 
Gillibrand, Ranking Member Graham, and distinguished members of 
the subcommittee, it is my privilege to appear before you 
today.
    Before I proceed, though, I would like to briefly address 
the shooting last night at Camp Lejeune. What we know so far is 
that while on duty at the guard shack, two lance corporals--one 
shot the other one in the chest with his M-4. The wounded was 
transported to the base hospital and was subsequently 
pronounced deceased. The incident is believed to be a negligent 
discharge, but it is under investigation by the Naval Criminal 
Investigative Service to determine if there is evidence to the 
contrary. Once we have further facts, we will provide those to 
you and this subcommittee.
    I have previously submitted my written statement for the 
record, and I look forward to answering your questions.
    [The prepared statement of Lieutenant General Milstead 
follows:]
      Prepared Statement by Lt.Gen. Robert E. Milstead, Jr., USMC
                            i. introduction
    Chairwoman Gillibrand, Ranking Member Graham, and distinguished 
members of the subcommittee, it is my privilege to appear before you 
today to provide an overview on Marine Corps personnel.
    Since our founding in 1775, marines have answered our Nation's 
call, faithfully serving the American people and maintaining a world 
class standard of military excellence. Your Marine Corps is, and will 
continue to be, our Nation's expeditionary force in readiness. We will 
be ready to rapidly respond to crises around the Globe to ensure the 
continued security of the American people and to protect the interests 
that underpin our prosperity. Marines will be always faithful to the 
trust which the American people have vested in them. Already a lean 
organization, your marines will continue to give you the best 
capability that can be squeezed from the resources you allocate for our 
Nation's defense. Budget austerity presents significant challenges, but 
our individual marines are the Corps' most sacred resource, and always 
will be.
                            ii. end strength
    As we drawdown the Marine Corps' Active component end strength from 
war time levels of 202,000 marines, we have taken deliberate steps to 
construct a force that we can afford to operate and sustain in the 
emerging fiscal environment. Over the past 3 years, we have undertaken 
a series of steps to build our current force plan. In 2010, our Force 
Structure Review Group utilized the then Defense Strategic Guidance and 
operational plans to determine that the optimum size of the Active 
component Marine Corps should be a force of 186,800. The 2012 Defense 
Strategic Guidance, which could be supported by the original 
constraints of the 2011 Budget Control Act, estimated a force of 
182,100 Active component marines. More recently, as we entered into the 
Quadrennial Defense Review, we came to the difficult understanding 
that, under the threat of continued sequestration or some variant, an 
Active-Duty Force of 175,000 marines is what our Nation can afford. 
This end strength is purely budget-driven and accepts risk in our 
ability to carry out major combat operations.
    Our current plan is to achieve a 175,000 end strength by the end of 
fiscal year 2017. We are conducting a measured drawdown with a goal to 
reduce end strength by no more than 7,500 marines per year. This is to 
be accomplished primarily through natural attrition, voluntary 
separation, and early retirement authorities. Involuntary separations 
will be minimized as much as possible, and we have no plans to conduct 
a reduction-in-force. Such an approach would no doubt do significant 
long-term damage to our ability to recruit and maintain a quality 
force. Our overarching goal is to keep faith with our marines and their 
families.
    We ended fiscal year 2013 with an end strength of 195,657, achieved 
primarily through increased voluntary attrition of junior enlisted 
marines as well as through the use of programs such as Voluntary 
Separation Pay and Temporary Early Retirement, both of which induced 
additional voluntary attrition from the mid-level enlisted and officer 
ranks. Our end strength goal for fiscal year 2014 is 188,800 marines, 
and will be achieved primarily through reduced accessions combined with 
continued emphasis on voluntary attrition.
                       iii. marine corps reserve
    Your Marine Corps Reserve is also undergoing a reduction in 
Selected Reserve end strength in order to better align structure with 
budget levels. Our plan is to reduce our Selected Reserve end strength 
from 39,600 to 38,500 marines by fiscal year 2017. The reductions will 
come primarily from the junior enlisted ranks and individual 
mobilization augmentees (IMAs). The Reserve component is currently over 
manned in its junior enlisted ranks and critically undermanned in its 
senior enlisted ranks. Decreasing new accessions will yield a more 
balanced Marine Corps Reserve. Given our reduced Active Component 
manpower needs over the coming years, the requirement for Reserve IMAs 
to mobilize with Active component units is likely to decrease. Overall, 
our force shaping measures will leave the Marine Corps with a more 
balanced Reserve component able to reinforce the Active component and 
serve as an integral part of the Marine Corps Total Force in 
accomplishing its assigned mission as an expeditionary force in 
readiness.
    For fiscal year 2014 and beyond, we continue to refine the use of 
incentives and MOS retraining to strengthen unit staffing in 
specialties and grades where we remain critically short. In particular, 
we have targeted our incentives toward recruiting and retention of 
company grade officers, noncommissioned officers (NCO) and staff 
noncommissioned officers (SNCO) in our Selected Reserve units. Both 
officers transitioning from the Active component and recruiting 
officers directly into the Reserve component have been the keys to our 
success. The Reserve Officer Commissioning Program has produced a total 
of 710 lieutenants for the Marine Corps since its creation in 2006. As 
a result, our SMCR ground company grade officer strength has increased 
from 21 to 74 percent.
    We continue to face challenges in manning our SNCO billets in the 
SMCR. As the Active component grew its end strength to 202,000, many of 
our junior marines and NCOs left the Reserves for the Active component. 
Had they remained in the Reserves, many of those same marines would 
have been promoted and filled our SNCOs requirements today. While we 
have directed incentives toward retaining our best marines, the SMCR is 
still critically short SNCOs. This SNCO shortage will take 
approximately 6 years to fix as our post-202,000 accessions reach the 
necessary time to be considered for promotion.
                             iv. recruiting
    All recruiting efforts for the Marine Corps (officer, enlisted, 
regular, Reserve, and prior-service) fall under the purview of the 
Marine Corps Recruiting Command. Operationally, this provides us with 
tremendous flexibility and unity of command, allowing us to meet 
accession requirements.
    Last fiscal year, we successfully achieved all enlisted and officer 
recruiting goals for both the Active and Reserve components. Our 
current mission for enlisted marines is 25,000 regulars (Active 
component) and 5,523 reservists. We expect to achieve our annual 
recruiting `shipping' mission (i.e. new accessions sent to recruit 
training) and quality goals, but budget reductions may impact our 
contracting efforts and capacity to achieve success in fiscal year 
2015. The fiscal year 2015 mission forecast is 28,370 regulars and 
5,280 reservists.
    Our officer accessions mission for fiscal year 2014 is 1,360 Active 
Duty and 150 Reserve officers. Historically, the active Component has 
been the exclusive source of lieutenants and captains for the Reserves. 
As previously noted, filling company grade officer billets for our 
Selected Marine Corps Reserve units is traditionally our greatest 
challenge, but the success from the OCC-R program is helping to remedy 
this shortfall.
    To meet future challenges in the current recruiting environment, it 
is imperative that we maintain our high standards both for our 
recruiters and those who volunteer to serve in our Corps. Recruiting 
quality youth ultimately translates into higher performance, reduced 
attrition, increased retention, and improved readiness for the 
operating forces. Our actions, commitment, and investments today in 
recruiting ensure a high state of readiness in our Corps tomorrow.
                              v. retention
    For fiscal year 2014, the Marine Corps is on track to achieve its 
end strength target of 188,800 Active component marines (and 
approximately 150 reservists who have served on active duty at least 3 
of the previous 4 years). It is vital during our drawdown that the 
Marine Corps continues to shape our force to meet continuing mission 
requirements and fill critical military occupational specialties (MOSs) 
with the most qualified marines. Incentive pays remain critical to this 
effort, allowing the Marine Corps to fill hard to recruit positions, 
such as cyber security technician and counter intelligence specialist. 
Enlistment bonuses also allow us to ship new recruits at critical times 
to balance recruit loads at the depots and meet school seat 
requirements. It is important to note that only 8 percent of new Marine 
Corps recruits receive an enlistment bonus. Similarly, Selective 
Reenlistment Bonuses allow us to shape our career force by targeting 
critical MOSs and supporting lateral movement of marines to these MOSs.
                          vi. civilian marines
    Our civilian marines support the mission and daily functions of the 
Marine Corps and are an integral part of our Total Force. They 
exemplify our core values; they embrace esprit de corps, teamwork, and 
pride in belonging to our Nation's Corps of Marines. Our civilian 
appropriated funded workforce remains the leanest of all services, with 
a ratio of 1 civilian to every 10 active duty marines. Our civilian 
labor represents less than 5 percent of the Marine Corps' total O&M 
budget, demonstrating that our ``best value'' for the defense dollar 
applies to our civilians as well as our marines.
    Over 95 percent of our civilians work at bases, stations, depots, 
and installations across our Nation. Sixty-eight percent are veterans 
who have chosen to continue to serve our Nation; of those, 13 percent 
are disabled veterans. Our civilian workforce steadfastly continues to 
provide vital support to our marines, Reserve marines, their families, 
and our wounded, ill, and injured.
    This environment of prolonged budgetary uncertainty is increasing 
employee stress, morale is declining and, at some point, productivity 
will begin to suffer. Although we began right sizing our workforce in 
2011, in preparation for these current events, we are still facing 
additional civilian reductions of 10 percent or more, which includes 
the 20 percent reduction to our Management Headquarters Activities. We 
are actively seeking ways to achieve these goals through attrition and 
various voluntary workforce-shaping flexibilities; our intent is not to 
conduct a reduction in force (RIF). Additional budget reductions will 
hit in fiscal year 2015 creating further stress to our workforce, both 
in size and in the support our civilians depend on to conduct their 
work and improve their skills.
    During these challenging times, it is imperative that we continue 
to keep faith with our civilian workforce. With additional furloughs 
and overall pay insecurity, we risk losing enormously talented and 
dedicated professionals. As commitment to Federal service wanes, 
military missions will suffer.
                             vii. diversity
    The Marine Corps is committed to attracting, mentoring and 
retaining the most talented men and women who bring a diversity of 
background, culture and skill in service to our Nation. In both 
representation and assignment of marines, diversity remains a strategic 
issue. Our diversity effort is structured with the understanding that 
the objective of diversity is not merely to strive for a force that 
reflects a representational connectedness with the rich fabric of the 
American people, but to raise total capability through leveraging the 
strengths and talents of all marines.
    The Marine Corps is working toward completion of a landmark 
diversity initiative which centered around four diversity task forces: 
Leadership, Mentoring and Accountability; Culture and Leading Change; 
Race and Ethnicity; and Women in the Marine Corps. Three-star general 
officer executive sponsors provided guidance and oversight of each 12-
15 member task force. The Task Force initiative focused on identifying 
vital recommendations in the areas of culture and leadership and to 
improving the attraction, development and retention of both women and 
minority officers. The task force concept represents a significant 
philosophical shift--from ignoring human variations to a quest to 
understand them in order to drive actions.
    The Marine Corps has established minority officer recruiting and 
mentoring as a priority in our recruiting efforts. We acknowledge the 
accession and retention of minority officers has been a challenge for 
our Corps and are committed to further facilitating the mentoring and 
career development of all our officers with emphasis on our minority 
officers in order to encourage the retention of our most talented 
people.
    The Marine Corps aims to emphasize the operational necessity of 
diversity by educating marines on how diversity can be a force 
multiplier. We also seek diversity through strategic community outreach 
and recruit marketing. To ensure continued connectedness with the 
Nation, we continue to conduct strategic community outreach and recruit 
marketing and ensure quality opportunities for merit-based development 
and advancement for all marines.
                    viii. marine and family programs
    To optimize and influence the health and wellness of the 21st 
century marine, Marine Total Fitness (MTF) establishes a framework and 
methodology for understanding, assessing, and maintaining individual 
marine fitness in support of unit combat effectiveness. This holistic 
focus includes four cords of fitness: body, mind, spirit, and social. 
The goal of MTF is to proactively address the complex issues facing our 
marines and their families after more than a decade of persistent 
conflict.
Caring for our Families
    During Operation Iraqi Freedom (OIF) and Operation Enduring Freedom 
(OEF), a surge occurred in the areas of family programs to mitigate the 
impact of stressors due to deployments, enable quick acclimation to the 
Corps, build deployment knowledge and skills, and improve access to 
care and official information for marines and families to ensure 
operational readiness. This action resulted in having a positive impact 
on the quality of life of our marines and their families. The 2012 
Quality of Life Study indicated a majority of marines received the 
training necessary to deal with the stress of deployment and/or combat, 
and were satisfied with military support services overall.
    Post OIF/OEF, we must ensure our programs and services remain 
relevant to the requirements of the Corps. We must be flexible enough 
to surge and retract to support future missions and training 
requirements. With 47 percent of marines being married and 32 percent 
having children, our Family Care and Family Readiness Preparedness 
directly supports operational readiness of the Marine Corps.
    The Marine Corps ensures the long-term stability of Marine and 
Family Programs meets all credentialing and accreditation quality 
assurance objectives. We ensure consistency of care across the Marine 
Corps, by implementing and training staff to evidence based practices. 
Programs will be assessed for ways to more effectively and efficiently 
improve delivery of care and services, while strategically 
communicating to our marines and families to increase awareness of all 
the available resources, support, and services.
Behavioral Health Support
    The Behavioral Health Program acts as an integrated service 
delivery model that facilitates focus of effort for prevention and 
intervention on suicide, substance abuse, combat operational stress, 
and family advocacy. When addressing behavioral health care 
requirements, we typically see clients with multiple stressors or 
conditions.
    Even as the Marine Corps moves into a post OIF/OEF environment, we 
expect a surge of support needs from marines and families facing a 
potential delayed onset of symptoms. To address care requirements, we 
have established a memorandum of understanding with Navy Medicine to 
enable comprehensive care and have taken action to increase our 
community counseling capacity. Over 250 Military Family Life 
Consultants have been deployed to provide confidential care in unit or 
installations settings and augments existing installation based 
behavioral health and resource services. Additionally, through our 
Community Counseling Program, we are enhancing our screening and 
prevention capabilities, and also increasing access to non-medical 
counseling services. Finally, Behavioral Health is implementing the 
Marine Expeditionary Force (MEF) level prevention capabilities to 
provide resources and training for operational commands along with 
providing technical assistance across behavioral health initiatives.
    Our efforts will continue to ensure that marines seek and are 
provided effective care when needed. All marines have a responsibility 
to look out for one another and to assist anyone who may need care. 
Through programs like Marine Awareness and Prevention Integrated 
Training and Operation Stress Control and Readiness, marines receive 
the right prevention tools at the right time to provide them with 
skills to prevent and mitigate stress injuries in themselves, and their 
fellow marines. Additionally, these programs provide commanders support 
in building unit strength, resilience, and readiness. Finally, the 
Marine Corps is increasing our capabilities to follow-up and monitor 
marines identified with suicidal ideation or suicide attempts. 
Sustaining the wellness and readiness of marines and their families 
remains the top priority of the Marine Corps.
Transition Assistance
    As the Marine Corps looks at lowered end strength in the upcoming 
years, more of our marines and their families will be making the 
transition to civilian life. It is imperative that we ensure that that 
they have the right preparation to reach personal goals and effectively 
translate their military experiences to a successful civilian life. 
Transition is a process, not an event. Beginning at the point of 
recruiting, the Marine Corps strives to provide a continuum of tangible 
learning or experienced based opportunities to ensure that every marine 
is transition ready throughout their career so they can accomplish 
their personal or career goals.
    The Marine Corps Transition Readiness Seminar is a week-long 
program that includes mandatory standardized core curriculum followed 
by the choice of one of three additional 2-day tracks that is in line 
with their individual future goals and objectives. The Marine Corps has 
also put into place pre-separation counseling to help marines translate 
their military skills for the civilian workforce.
    Our next phase will enhance outreach to those who require localized 
support through our Marine for Life Program and its representatives. 
Additionally, our Personal and Professional Development Program will 
continue to focus on spouse employment, access to education and 
professional development courses, and effective management strategies. 
The Marine Corps is committed to not only making the best marines, but 
that the marine and their families have the tools and resources to 
successfully transition and reintegrate back into civilian life.
                ix. sexual assault prevention & response
    Sexual assault damages lives, corrodes the trust between marines, 
degrades unit readiness and morale, and undermines our warfighting 
mission. The Sexual Assault Prevention and Response (SAPR) Program has 
been enhanced to reinforce our training and advocacy efforts, while 
holding fast to the fact that one incident of sexual assault is too 
many. Our three-phase SAPR Campaign Plan was launched in June 2012 and 
continues to guide the phased implementation of large-scale 
institutional reform, emphasizes prevention through training, and 
directs senior leadership involvement. Potentially a promising result 
of the effort, thus far, has been the continued rise in reporting. With 
sexual assault being a highly under-reported crime, this increase 
appears to reflect an increased level of trust and confidence that 
marines have in their immediate commander and overall Marine Corps SAPR 
Program.
    Commander involvement and constructive dialogue among marines, to 
include bystander intervention, will continue to be one of our greatest 
weapons against sexual assault. Engaged leadership remains the key to 
establishing a culture that is non-permissive to any misconduct or 
crime, especially sexual assault. As the Marine Corps continues to 
reawaken its sense of tradition and ethics, and reinforce the values 
that have made it the finest expeditionary force in history, we will 
also continue to strengthen our prevention and victim care efforts and 
to ensure that the highest standards of discipline are maintained. 
Collectively and persistently, we will ensure that every marine knows 
it is his and her inherent duty to step up and step in to stop this 
crime.
                      x. wounded warrior regiment
    The Marine Corps' Wounded Warrior Regiment (WWR) continues to 
function as a central pillar of our pledge to ``keep faith'' with those 
who have served. Whether a marine is wounded in combat, suffering from 
a chronic unresolved illness, or injured in a training accident, the 
WWR remains committed to providing comprehensive recovery care. For the 
Marine Corps, recovery care is not a process. Care coordinated through 
the WWR is soundly based upon an authentic relationship between care 
providers and the marine and his or her family members. This bond 
allows all parties to be vested in a common purpose: to ensure our 
Nation's wounded, ill, and injured (WII) marines and their families are 
well positioned for their future endeavors.
    Since our WWR was established in 2007, thousands of WII marines and 
family members have benefitted from this command's care coordination 
capabilities. These capabilities include recovery care coordinators to 
help WII marines develop and execute Comprehensive Recovery Plans; a 
medical section to provide medical subject matter expertise, advocacy, 
and liaison to the medical community;; District Injured Support 
Coordinators, the Marine Corps' representatives for WII marines in 
their civilian communities; the Sergeant Merlin German Wounded Warrior 
Call Center and Wounded Warrior Battalion Contact Centers to conduct 
outreach to WII marines and receive calls for assistance; and a liaison 
to the Department of Veterans Affairs (VA) to enhance coordination 
between the organizations.
    In sum, WII marines and their family members receive customized 
support, based upon their assessed needs, from the point of injury or 
illness, through rehabilitation, and finally as they return to duty or 
reintegrate to their hometowns. Also, the Marine Corps does not utilize 
a ``fire and forget'' mentality. Recognizing that most WII marines will 
require some level of assistance after they leave the Corps, the WWR 
provides a minimum of 90 days post-service support to those previously 
supported by a Recovery Care Coordinator. This is accomplished through 
our DISCs or case managers at our call center.
    Marines and their families, Congress, and the public at large can 
be reassured that the Marine Corps, through the WWR, will continue 
recovery care in times of war and in peacetime. Irrespective of the 
global security environment, recovery care support must be enduring in 
view of issues resulting from the current decade of war: catastrophic 
injuries requiring massive amounts of acute care, traumatic brain 
injury, and psychological health problems. These conditions are not 
solved by short-term care and will require continuing services, an 
enduring commitment. Just as the Marine Corps is strategically agile, 
the WWR will endeavor to expand and contract depending upon future 
requirements.
                   xi. semper fit & exchange services
    Semper Fit and Recreation programs align to support the social and 
physical well-being of marines and their families, encourage healthy 
lifestyles, enhance quality of life, and to amplify the Marine Corps' 
focus on mission and readiness. For example, comprehensive strength and 
conditioning programs, High Intensity Tactical Training and Aquatic 
Maximum Power--Intense Training, serve to optimize physical performance 
and combat readiness for all Active Duty and Reserve marines. Another 
program, located at eight installations, Operation Adrenaline Rush 
(OAR), combines Combat and Operational Stress Control principles with 
an outdoor recreation adventure activity to aid in mitigating high risk 
behavior for marines who have recently returned from deployment. OAR 
assists marines with reintegration by empowering small unit leaders, 
maintaining combat readiness, and reinforcing unit cohesion.
    The Marine Corps Exchange (MCX) is an important part of the overall 
non-monetary benefits package and the Marine Corps mission. 
Consistently ranked by marines and families as one of their most valued 
benefits, MCX provides not only a value for marines and families when 
they shop, but also returns dollars to the Marine Corps community. MCX 
success is measured on the program's value and contributions to the 
readiness of marines, as well as our ability to provide unparalleled 
customer service, premier facilities, and valued goods and services at 
a significant savings.
    Semper Fit and Recreation and our Exchange system continue to 
provide direct support to forward deployed marines through recreation/
fitness/sports equipment and MCX services. Deployed support is one of 
the most important services we provide; our robust Exchange, Recreation 
and Fitness, Communication, and MCCS Wi-Fi services programs not only 
boost and maintain morale, but also help to reduce mission-related 
stress. Moving forward we are committed to increasing efficiencies 
within our business and support models as part of our culture of 
transformation and maintaining relevance to the Marine Corps Mission.
                            xii. conclusion
    To continue to be successful, we must always remember that our 
individual marines are our most precious asset, and we must continue to 
attract and retain the best and brightest into our ranks. Marines are 
proud of what they do. They are proud of the ``Eagle, Globe, and 
Anchor'' and what it represents to our country. With your support, a 
vibrant Marine Corps will continue to meet our Nation's call.
    Thank you for the opportunity to present this testimony.

    Senator Gillibrand. Thank you, gentlemen.
    Lieutenant General Milstead, I know the Marine Corps is 
taking a different approach than the other Services, and that 
part of your process includes forming what the marines call the 
Ground Combat Element Experimental Task Force. This 
experimental task force consists of a battalion-sized ground 
combat unit and will include a control group of an all-male 
squad, with another squad integrated, one-third women, two-
thirds men, and a third squad, two-thirds women, one-third men. 
These units will be put through a training and evaluation cycle 
that mirrors an infantry's unit predeployment training cycle.
    What is the ultimate purpose behind this experimental task 
force?
    Lieutenant General Milstead. The primary purpose of the 
experimental task force is to look at collective standards. We 
are going after this in basically four lines of effort, if you 
will. The first one is to extend our exception to policy where 
we put officers and staff noncommissioned officers in open 
Military Occupational Specialties (MOS) down to closed units.
    The second one is where we expanded our entry level 
training. You are aware that we have had 45 women successfully 
complete the infantry training in Infantry Training Battalion 
and some more will continue. That has been so successful that 
we are expanding that to the other infantry MOSs like machine 
guns, mortars. We are going to send them to artillery school. 
We are going to put them into armor. Those are individual 
standards. Those are individual tasks.
    This experimental task force is to get at the collective 
tasks, how everybody works together because we do not know what 
we do not know. It will be conducted at Camp Lejeune, at 
Twentynine Palms, and again up at Bridgeport, and it will 
mirror training that we do prior to deployment. The primary 
focus is on collective standards vice individual standards.
    Senator Gillibrand. The only concern that I had is that 
your term, ``control group,'' is being used for the all-male 
squad. I wanted to know what you mean by that because the other 
two squads with women are being measured against the control 
group. Would it not be preferable to have them just actually be 
measured against some performance standard, what your goal of 
the group to accomplish is?
    Lieutenant General Milstead. I believe as they are 
evaluated, they will be evaluated by this control group, if you 
will. It happens to be all male, as you say, because it comes 
from MOSs that we do not have any women in. We have no choice.
    Senator Gillibrand. It is a subtle difference. For example, 
if you have a control group that the mission is to perform A, 
B, and C, the control group should not be judged on do you 
perform A, B, and C as if an all-male unit would perform A, B, 
and C because if you are creating a standard that is what is 
perfectly accomplished, it may well be perfectly accomplished 
in a different way or measured against a very different set of 
standards, as opposed to just measuring how would an all-male 
group accomplish A, B, and C. I guess my point is if your 
control group is how an all-male force performs it as opposed 
to the actual mission of things you want accomplished, it may 
align differently is what I am telling you.
    Lieutenant General Milstead. I understand that, and I will 
tell you that we are looking to include the women, not preclude 
them. They will not be evaluated whether they can do the job 
like men do it. They will be evaluated as to whether they can 
do the job.
    Senator Gillibrand. The job. Correct. That is all I wanted 
to ensure.
    Lieutenant General Milstead. It will not only be uniform. I 
think it is important to emphasize that we have the University 
of Pittsburgh. We have the Center for Naval Analyses. We have 
the RAND Corporation. We have a number of non-uniform external 
agencies that will be involved in the evaluation.
    Senator Gillibrand. Thank you.
    Lieutenant General Bromberg and Vice Admiral Moran, I 
understand that the Army and the Navy just recently relieved 
soldiers and sailors of positions of trust after various checks 
to their records showed they had a disqualifying offense. I am 
very grateful that you took the time to do that review and 
removed these individuals to improve trust within the system.
    Can you tell me if these individuals retired from the 
military or whether they were allowed to remain in the 
Services? If the latter, what types of positions do they 
currently hold?
    Lieutenant General Bromberg. Yes, ma'am. Thank you for the 
question.
    Of the individuals removed from those positions, we removed 
them for a wide variety of reasons. We went back and looked at 
everything for about 10 categories, everything from a previous 
domestic violence or sexual assault to maybe a previous driving 
while intoxicated from 15 years ago, even down to maybe where 
somebody was not suitable for appearance. There is a wide 
variety within that number.
    Now, the actual numbers will be coming back over because we 
have a formal request from Congress to answer those questions. 
We will answer those back formally.
    I can tell you some of those folks--they are no longer in 
that position of trust, and they are back in their primary MOS 
if they were maybe detailed in that job. For example, maybe a 
recruiter who might have been an artilleryman or an infantryman 
before that and maybe they had a DUI 15 to 20 years ago. We 
took them out of recruiting, put them back in their primary 
MOS. That is an example for you.
    Senator Gillibrand. But you will send the full report to 
our office once you----
    Lieutenant General Bromberg. Oh, yes. We are consolidating 
all of that together.
    Senator Gillibrand. Exactly what they were removed for.
    Lieutenant General Bromberg. There were 10 categories we 
looked at, a very detailed scrub of several thousand across the 
force. We feel pretty comfortable that that was the right thing 
to do, obviously.
    Senator Gillibrand. Also, in your prepared statement, you 
informed us that the Army implemented a new policy to ensure 
that any final decision to retain a member convicted of sexual 
offense is fully informed and determined at the Secretary 
level. This same policy also prohibits the overseas assignment 
or deployment of any soldier convicted of a sexual offense.
    Under what circumstances would the Army retain a soldier 
convicted of a sexual offense?
    Lieutenant General Bromberg. I think that is a case-by-case 
answer. But the intent there again is to make sure that we are 
fully informed, so if a lower level organization decides to 
retain that servicemember, they have to forward that up to the 
Secretary's level so we can then review that case and then make 
a final decision. In many cases that I have looked at already, 
some of these people are already in the process. We are 
tracking them very closely. But this gives us full information 
to include preventing someone from being assigned overseas. We 
will pull them back where we have a larger support network to 
do that.
    Senator Gillibrand. We do have convicted sexual offenders 
retained within the force?
    Lieutenant General Bromberg. Well, for example, somebody 
who is in jail, is incarcerated who may not be full due 
processed yet--they are still on our rolls. That counts as 
somebody who is convicted. They could be sitting at Fort 
Leavenworth.
    Senator Gillibrand. They are not just taking a different 
job?
    Lieutenant General Bromberg. No. These are people that they 
have been convicted but because the due process is not finished 
yet, they could still be on our rolls. I can guarantee you we 
look at every one of those. We track those. We know where they 
are at.
    Senator Gillibrand. Thank you so much.
    Senator Graham.
    Senator Graham. Thank you, Madam Chairwoman.
    One thing I want to restate is I support the chairwoman's 
decision to let the MCRMC in February provide their 
recommendations.
    On that, the benefit package. About 50 percent of the 
military budget is personnel costs. Is that accurate?
    Lieutenant General Bromberg. Very close, sir.
    Lieutenant General Milstead. 64 percent of the Marine Corps 
budget.
    Senator Graham. Air Force?
    Lieutenant General Cox. I am sure that is close.
    Vice Admiral Moran. It is very close. Yes, sir.
    Lieutenant General Bromberg. Sir, 48 percent plus or minus.
    Senator Graham. Benefits include pay. Right? Retirement, 
medical and dental, commissary, exchange. Any other benefits 
that we can think of?
    Lieutenant General Bromberg. There are probably several 
that are indirect benefits.
    Senator Graham. That makes the core group I think of what 
we are going to have to be looking at.
    Does everybody on the panel agree that any retirement 
changes need to be prospective and that we grandfather the 
current system enrollees?
    Lieutenant General Bromberg. Yes, sir. The Army's position 
is everybody should be grandfathered.
    Vice Admiral Moran. The Navy, same.
    Lieutenant General Cox. Same for the Air Force.
    Senator Graham. Do any of you envision reducing pay as a 
reform?
    Lieutenant General Bromberg. No, sir. The Army does not.
    Vice Admiral Moran. Not at all.
    Lieutenant General Cox. No, sir.
    Lieutenant General Milstead. Our Commandant has testified 
that he does support the 1 percent vice the 1.8 percent, as 
well as--
    Senator Graham. That is a pay raise versus a pay cut.
    Lieutenant General Milstead. Exactly, and that is my point, 
Senator. Nobody is for reducing pay. We are slowing the growth.
    Senator Graham. What does an E7 gunnery sergeant in the 
Marine Corps make?
    Lieutenant General Milstead. I could not answer.
    Senator Graham. Well, we have the pay scales. Will somebody 
find that? I do not want the public to believe that we are 
paying people elaborate salaries because we are not. We are 
paying them, I think, a decent salary maybe at best given what 
we ask of them.
    Housing is another area. Right? If you are assigned to 
Washington, DC, and on-base housing is not available, what does 
the Army do for that soldier?
    Lieutenant General Bromberg. They get a housing allowance.
    Senator Graham. Is it 100 percent of the cost?
    Lieutenant General Bromberg. Pretty close in most areas.
    Senator Graham. One of the proposed reforms is to have some 
cost sharing there.
    Lieutenant General Bromberg. Yes, sir.
    Senator Graham. Why would you not be allowed housing? Why 
would somebody have to go off base? Just not availability?
    Lieutenant General Bromberg. Just not available. We do not 
build enough quarters.
    Senator Graham. Is that true in the Marine Corps?
    Lieutenant General Milstead. Or by choice. We do not have 
sufficient housing for everybody, but a lot of people do live 
in town. That 100 percent is based on the average cost, and it 
is done by area, as the Senator is well aware. It is your 
choice. If you live in the Taj Mahal, your 100 percent of the 
average will not cover it as opposed to where you do live.
    Senator Graham. Right. We are not going to subsidize a $2 
million home, but we are going to pay you the average.
    I think one of the proposals is to have some cost sharing. 
Is that correct?
    Lieutenant General Milstead. It is. It is to take it from 
100 percent of the average down to 95 percent of the average.
    Senator Graham. What will that mean to the average soldier 
here in the DC area? Does anybody know?
    Lieutenant General Milstead. I would offer it would depend 
on where they live. Again, if they are living within the means 
of the 95 percent, some people actually have sufficient delta 
between their basic allowance for housing and the rent they are 
paying, whereas other people choose to maybe have a larger home 
or a more elaborate home. Then they will pay some more.
    Senator Graham. From your point of view--each of you very 
quickly if you could--if you implemented that change of a 5 
percent cost share, reducing it to 95 percent of the average, 
is that something the Services could absorb, and is that fair 
given our budget problems?
    Lieutenant General Bromberg. Sir, I think when you look at 
it as a hard choice against readiness, I think it is something 
that we have to do as we go forward, and I think you have to do 
it over time.
    Vice Admiral Moran. I would agree with that statement.
    Lieutenant General Cox. I would agree with the statement as 
well. It is a phased-in approach, not taking effect until 2017.
    Lieutenant General Milstead. Again, the Commandant has said 
that if we do not arrest the growth of this, that it will 
eventually eat into our readiness.
    Senator Graham. That is something I am very open-minded to 
because you are going to have to affect personnel somehow.
    An E7 makes $33,000 to $50,000, depending on how long you 
have been in. If you have been in 18 years, it is about 
$50,000. That is probably base pay without benefits. It would 
be more than that, I am sure.
    Regarding TRICARE. Do you all support some type of premium 
adjustment over time for TRICARE?
    Lieutenant General Bromberg. Yes, sir.
    Vice Admiral Moran. Yes, sir.
    Lieutenant General Cox. Yes, sir.
    Lieutenant General Milstead. Yes, sir.
    Senator Graham. We have not had a premium adjustment since 
1995. Is that correct? Yes, I think it is.
    Now we are talking about retired people, and that comes out 
of DOD's budget. Right? TRICARE costs for retired personnel 
comes out of DOD's budget. When you pay that out, you have less 
for the operational Services. Is that correct?
    Lieutenant General Bromberg. Yes, sir.
    Senator Graham. TRICARE is competing against readiness, 
modernization, everything else. Is that true in all the 
Services?
    Lieutenant General Bromberg. Yes, sir. All our benefits are 
competing against readiness.
    Senator Graham. When it comes to sexual assault, I think it 
would probably be good sometime down the road to have a hearing 
to see if some of these reforms are actually working.
    Is the Army going to adopt the Air Force pilot program of 
providing a JAG to every victim?
    Lieutenant General Bromberg. Sir, we have a special victims 
capability, which we do have over 105 JAGs trained now to 
provide special victims counsels, of which we actually have 52 
serving today. Additionally----
    Senator Graham. My question is, would every----
    Lieutenant General Bromberg. It is available to every 
victim today. We have enough. Yes, sir.
    Vice Admiral Moran. Yes, sir. We fully implemented that 
program this year.
    Senator Graham. The Marine Corps?
    Lieutenant General Milstead. The Marine Corps has the 
Victims Legal Counsel Organization.
    Senator Graham. Let us know if you need more JAGs because I 
think we are all willing to supply what you need to deal with 
this problem.
    Back to the Marine Corps and the experiment about 
integrating women into combat units. Do other marines, 
equivalent to the Marine Corps--the British marines, do they do 
this? Do other nations' military services do this? Generally 
speaking, what is your initial impression of women going 
through the infantry school, the 45 that have come out? Do you 
think that we are on to something here that this is an untapped 
resource for the Marine Corps, using women in direct combat? 
Where do you see this going, General?
    Lieutenant General Milstead. To the first part of your 
question, the other nations, we are meeting with them. We just 
met with the Danes. The Danes are fully integrated, completely 
fully integrated and very enthusiastic about it. The British 
are not. We are talking to the Australians. We are talking to 
the Canadians. We are talking to the Israelis, the Koreans. We 
are talking to other nations and seeing what they have done and 
looking at the path that it has taken them, how long it has 
taken them, and where they have made the mistakes and where 
they have not so we can avoid those.
    As far as the 45 that have come through, they have been 
successful. It is what it is. They have done very well. 
Including the women and expanding the opportunity is that, 
expanding the opportunity and giving them the opportunity to do 
more. It has nothing to do with the fact that we do not have 
enough men to fill the ranks. It is to expand opportunity and 
allow them to do more. We are very enthusiastic, and we are 
optimistic about what we have seen so far.
    I will end it the way I started. We do not know what we do 
not know, and that is why we are going at this in a very 
deliberate, measured, and responsible manner, so that we can 
determine that and do it reasonably.
    Senator Graham. Thank you.
    Senator Gillibrand. Senator Kaine?
    Senator Kaine. Thank you, Madam Chairwoman.
    Thank you to the witnesses.
    Personnel issues raise a whole series of questions. 
Thirteen years of war imposes a set of stresses that is really 
unique in the history of the Nation because of the length of 
the engagements in Iraq and Afghanistan. We have imposed our 
own stresses with the budgetary uncertainty that DOD and other 
Federal agencies have been under. That does not make it any 
easier on your people. I appreciate your service in these 
difficult and challenging times.
    Since Lieutenant General Milstead has talked a little bit 
about the Marine Corps effort with respect to opening MOSs up 
to women on gender-neutral requirements, I would like to ask 
the other witnesses to talk about it in your own Services. Just 
1 year into this new policy, talk about what you are seeing.
    Lieutenant General Bromberg. Yes, sir. We are very excited 
about our program. We think we have a lot of positive things 
going on right now. Our program is an incremental, integrated, 
and scientific approach to look at that with two foundational 
pieces to it.
    One, we have cultural studies ongoing right now to look at 
how women integrate in organizations where women have not 
served before. We constantly survey the units where we have 
opened up positions today so we see how the women are 
integrating, what is the reaction of the men, what is the 
reaction of the females. We constantly assess. We have outside 
groups doing that. We are looking at the cultural piece.
    Second, we are looking at the physical demands. In the 
physical demands piece, we are looking at the 31 most 
physically demanding tasks and we are doing this with a very 
scientific approach. In fact, right now we have 500 soldiers 
involved down at Fort Stewart, GA, and they are looking at 
those specific tasks and the scientific measurements of how a 
person has to do a task, oxygen intake, certain body movements, 
to establish a very gender-neutral standard. Then it is about 
that task. How do you accomplish that task?
    At the end of the day, we will apply that task in some 
easier manner, but it will apply against men and women. We 
expect to eliminate men in the future, just as well as it will 
bring women in.
    We think this is coming together very well. We have opened 
up more positions this year. We have just opened up over 33,000 
more positions to women across the force, and we will continue 
to do that. Now we are starting to look at how do we build the 
cadre or the leadership because, like the Marine Corps, we do 
not have any serving infantry female officers. How do you build 
that and how do you get those people there so you have the 
right leadership in place? We are very excited about what we 
are doing and we think we are on the right path with this 
integrated and scientific approach.
    Senator Kaine. Admiral Moran?
    Vice Admiral Moran. Yes, Senator, the Navy is practically 
entirely open now with the exception of the special forces 
SEALs and special boat team crewmembers. That is really up to 
Admiral McRaven who is doing the study now with U.S. Special 
Operations Command (SOCOM), and whatever they give us is how we 
will adopt it.
    Our most recent effort here has been women in submarines. 
It is very successful. The officer is front and first. We 
started there to make sure we had leadership in place before we 
would bring in enlisted members of the Service. So over the 
last couple of years, we have brought female officers into the 
Ohio-class submarine. That has done exceptionally well. Next 
year, we are going to start with Virginia-class, the smaller 
submarines. We will again bring officers in there. About a year 
from now, there is a panel and a task force underway led by 
Admiral Ken Perry who is the submarine group commander today 
who is bringing recommendations forward to CNO and Secretary of 
the Navy, on not when or not if, but how to bring enlisted 
females into the submarine force.
    As you might imagine, it takes time to train these in the 
submarine community. Several of the rates are highly technical. 
It takes up to 2 years to train them. We have to bring in 
laterally from other communities female enlisted at the chief 
petty officer and senior petty officer levels to populate those 
ships before we bring in junior enlisted.
    That is all going to happen over the next couple of years, 
and so we are very positive on it. I think, across the Navy, 
the quality of young females in the enlisted force and the 
officer force is extremely good, and they are having a lot of 
success in those warfare specialties.
    Senator Kaine. That is great. Secretary Mabus has spoken 
recently about the submarine project and has spoken of it in a 
very optimistic way, and I am glad to hear you echo that.
    General Cox?
    Lieutenant General Cox. Sir, I had the privilege of being 
the Commandant of Cadets at the Air Force Academy just a couple 
of years ago. If you look back when we first brought women into 
the Air Force Academy, it was single digits. When I was there, 
a single digit percentage. Now it is over 20 percent. We have 
demonstrated that there is absolutely no issue with the 
integration of women across the board.
    As we have moved forward now into what we have across the 
board for the Air Force, there are less than 4,000 billets 
between the Active Duty, Guard, and Reserve that are currently 
restricted to men. That we are working, along with SOCOM and 
Air Force Special Operations Command, to make sure that we have 
those gender-neutral standards and we will follow the lead with 
that as well. We are well on track to make sure all this is 
squared away.
    Senator Kaine. Great. Thank you. I think many of the 
members of this subcommittee are very focused on this issue and 
probably annually we are going to be wanting to get status 
reports.
    Let me just ask a question. I know, General Cox, the Air 
Force has been conducting force shaping and voluntary 
separation policies to allow servicemembers to leave before 
their service commitment as we are looking at reductions in end 
strength. Can any of you provide any updates about force 
shaping and voluntary separation policies and how your branches 
are approaching those questions?
    Lieutenant General Cox. Sir, what we started with is the 
commitment from the Chief and the Secretary that we will make 
sure that all airmen have 6 months' notification prior to any 
kind of involuntary separation and that we would focus on 
making sure that it was a voluntary opportunity prior to any 
involuntary separation. Right now, we have processed and 
approved almost 5,000 voluntary separations, whether it is 
temporary early retirement authority, so that 15- to 20-year 
authorization or voluntary separation. We are well on our way. 
We have all the appropriate authorities to be able to take 
advantage of all these programs. I think we are on track to 
make sure that is done. Then if there is an involuntary 
separation, we give at least 6 months prior to them separating.
    Senator Kaine. Others on this question?
    Lieutenant General Bromberg. Yes, sir. With the magnitude 
of the cuts in the Army over this time period, we have reduced 
our recruiting and we have also encouraged natural attrition. 
But that is not going to be enough. We are going to have to use 
involuntary measures. This year we have already conducted one 
early retirement board for lieutenant colonels and colonels and 
asked 236 of those officers to depart. We are in the process 
right now of conducting officer separation boards that will 
affect approximately 1,800 captains and majors that will be 
asked to leave the Service this year as well. Additionally, we 
have also done the same with the senior noncommissioned 
officers, asked them to retire early, and we will also go down 
all the way to the staff sergeant level. We just cannot get 
there to balance our readiness with our future needs without 
doing involuntary separations.
    Senator Kaine. Madam Chairwoman, my time is up, but could 
the other two witnesses answer briefly this question?
    Lieutenant General Cox. Senator, we are not doing any 
involuntary right now. Our manpower projections through the 
FYDP are steady. We do not see the need at this point to do any 
involuntary. All of it is through natural attrition.
    Lieutenant General Milstead. That is the same with us. Our 
measured and gradual glide slope, if you will, is focused 
primarily on natural and voluntary measures.
    I would like to take this opportunity to thank you for 
those force shaping authorities that you have given us, 
measures such as Temporary Early Retirement Authority (TERA), 
Voluntary Separation Pay (VSP), time-in-grade waivers. We are 
making use of these, and they are helping us maintain faith as 
we draw down.
    Senator Kaine. Thank you.
    Senator Gillibrand. Senator Ayotte.
    Senator Ayotte. I want to thank the chairwoman.
    I want to thank all of our witnesses who are here for their 
service and leadership for our country.
    I just wanted to follow up on this issue of the proposed 
benefit changes. Number one, let me add my support for what the 
chairwoman and ranking member want to do with regard to the 
MCRMC. As I understand it, just to correct the record, just to 
make sure it is clear, in fact, in 2012 we did authorize 
TRICARE premium increases and as well as pharmacy co-pays in 
2013 for Active Duty family members and retirees. Am I wrong on 
that on TRICARE?
    Lieutenant General Cox. We will have to come back to you, 
Senator. I do not know exactly what date it was.
    [The information referred to follows:]

    Congress permitted small increases in the TRICARE Prime enrollment 
fees for working age retirees and some adjustments to retail and mail 
order pharmacy co-pays in the fiscal year 2012 and fiscal year 2013 
budget and legislative cycles, but these changes are not enough to 
sustain the benefit in the long-term. For example, when TRICARE was 
fully implemented in 1996, a working age retiree's family of three who 
used civilian care contributed on average roughly 27 percent of the 
total cost of its health care. Today, that percentage has dropped to 
less than 11 percent. While health care costs have doubled over this 
timeframe, a family's out-of-pocket expenses, including enrollment 
fees, deductibles, and cost shares, has grown by only 30 to 40 percent.

    Senator Ayotte. I think I remember this coming up before 
the Senate Armed Services Committee and I have before me the 
provisions of the defense authorization. I just want to make 
sure that that is understood for the record because I believe 
we have already given authority and it has been implemented 
with TRICARE premium increases for 2012 for retirees and as 
well for pharmacy co-pays in 2013.
    One thing that I think is just an overall question that all 
of us need to think about--and I mean us collectively as 
Congress--is that when we are facing in the overall fiscal 
picture that two-thirds of our spending is focused on mandatory 
entitlement programs that need significant reforms--and if we 
do not address them, ultimately you are going to eat up all 
discretionary spending, including defense spending. I 
understand why you are asking for it and I understand the 
challenges you are facing on a budgetary level with regard to 
readiness. However, I see us again asking our men and women in 
uniform, who have sacrificed the most, to take these kinds of 
cuts first, whether it is to their health care, whether it is 
to their housing, whether it is to their commissary.
    I think a question we should ask ourselves here in 
Congress, is this the right thing to do when we are not willing 
to take on some of the bigger, harder questions? Again, we are 
putting you in the situation where you have to say to us, our 
personnel costs have risen. We all know that the greatest asset 
we have in our military are our people.
    I am not asking you to answer that. I am just making that 
as a statement. I think it is a question for all of us that we 
should look in the mirror and answer for ourselves before we 
ask our men and women to make these kinds of sacrifices.
    But I do have one question that I am very worried about 
with regard to these proposals. Regardless, we have the MCRMC. 
We are waiting for what they are going to say. That is the 
impact on our junior enlisted because it seems to me that if we 
are going to increase commissary costs or reduce the percentage 
of basic allowance for housing, that the group that could get 
hit the most is the junior enlisted because of the amount that 
they make. I have asked this in prior panels. But I think it is 
important for us to understand what does that do to your 
average junior enlisted. I would like to know what diminishes 
their pay overall and their package because in terms of what 
they make because I think we need to understand that from an 
average perspective of a junior enlisted, not that I want to 
see any of you more senior members to be put in a position, 
given the sacrifices you have made. I am thinking about our 
junior enlisted men and women who really make the least amount. 
Some of them, unfortunately, have been on food stamps and 
things like that, which is shameful. I think this is a 
consideration for us. I would like to hear back on that of what 
the impact specifically is, how much a junior enlisted on 
average makes, what does this do in terms of their take-home.
    Lieutenant General Bromberg. Yes, ma'am. We will follow up 
with specifics on his actual pay.
    Senator Gillibrand. That would be great because I think it 
is important for all of us to understand that with that 
category of individuals in particular.
    Lieutenant General Bromberg. If I could, ma'am. We have to 
look at it as a holistic package because not all the junior 
enlisted are married. We have to look at married people. We 
have to look at single people, who are living in the barracks. 
We have to put that together so you can understand the whole 
thing.
    Senator Ayotte. I think that would be great. I just want to 
know because we ask a lot from them, and I want to make sure 
because they are the ones that make the least.
    The one issue I wanted to follow up with Lieutenant General 
Milstead. I had the chance to have dinner with the Commandant 
recently. As I understand, he is reaching out into the civilian 
sector, including to people like Sheryl Sandberg, to say how do 
we do a better job of keeping women in the Marine Corps so that 
they can go on and serve in more senior leadership positions. 
Can you tell us about that? I was very encouraged when I heard 
what he is trying to do to keep women in the Marine Corps, not 
just enlistment but for the long haul to help lead the Marine 
Corps.
    Lieutenant General Milstead. We are about a year into a 
talent management task force effort that crosses the width and 
breadth of the Marine Corps, focused on primarily the officer 
ranks. I hesitate to use the word ``diversity,'' but it is 
across the entire spectrum.
    One of the task forces focuses on women and how do we 
retain women because, many of them have to make tough 
decisions? Am I going to stay at this or am I going to do the 
things that I want to do? I want to be a mother. I want to have 
a house. I want to do these things. Can they do both or 
whatever? Just talking earlier today with one of our female 
colonels, and it came up. Often it is just somebody stopping 
and saying, what do I have to do to keep you in the Marine 
Corps? What is it you need? What is it we can do?
    We are more attuned to this today. I am in my 40th year of 
this. It was night and day when I first began. The Commandant 
has reached out. It is tough because we have to grow. In 
industry, you can bring somebody in laterally, I can bring a 
female vice president in. I have to grow a colonel, and that 
takes 18 to 19 years. We are working very hard at this.
    But I will end with that we have been downsizing over the 
past 3 years, and in those 3 years, we have still managed, be 
it small, but we have increased our percentage of females 
within the U.S. Marine Corps.
    Senator Ayotte. I think this is important, and I just want 
to make sure that people understand that you are reaching into 
the civilian sector to women leaders in the country with a 
desire to keep women in leadership in the military. I was very 
encouraged by what I heard, the affirmative efforts, that the 
Marine Corps is making. I am sure the other Services are trying 
to make similar efforts. I thank you for that.
    I also very much appreciate what all of you are doing.
    I am going to try to submit some questions for the record 
with regard to how things are going with the special victims 
counsel on the sexual assault issue, which I think has made a 
huge step forward in terms of providing support for victims and 
of seeing increased reporting of sexual assaults.
    I thank you all for being here.
    Senator Gillibrand. Thank you.
    When you respond to Senator Ayotte's questions on that 
specifically, I would be grateful for the response as well 
because it is an issue we are going to follow together to make 
sure it works as intended.
    Senator King.
    Senator King. Thank you.
    Gentlemen, I apologize for being late. I was meeting with a 
deputy secretary of the United Nations trying to make it so you 
do not have to do what it is you do any more than necessary. 
[Laughter.]
    Admiral Moran, the CNO was recently talking about longer 
deployments and additions to ship manning in terms of the 
budget. We are going to talk about salary and some of the 
personnel challenges that you face. But what about the 
nonfinancial factors? Are there morale issues in terms of 
multiple deployments, longer deployments? Is there a stress 
factor on your men and women?
    Vice Admiral Moran. Thanks for the question, Senator.
    Absolutely. I would say the thing that I hear most back 
from sailors out in the fleet is this notion of being very 
unpredictable the last several years, 13 years of combat, but 
especially the latter half of those 13 years, for the Navy has 
been stressful in the sense that we have had back-to-back 
deployments, long deployments of carrier strike groups around 
the Fifth Fleet, Arabian Gulf area, out in the Pacific. Those 
unpredictable moments put a lot of stress on sailors and 
families, in particular. When a spouse of a sailor kisses her 
husband or says goodbye to his wife and the comment is I will 
see you when I see you, it is a pretty good indicator that 
there is a sense of unpredictability about when they are going 
to see them again coming off deployment.
    We have had a lot of extended deployments to deal with 
international and national emergencies around the globe. You 
think Syria. You think Libya. You think all of those places 
where naval forces were in the area and were asked to extend to 
participate in providing deterrence or cover for our allies and 
friends.
    That is driving the discussion about how we can make 
deployments more predictable. One way to do that is to go to a 
slightly longer deployment schedule but stay committed to that 
deployment schedule. In other words, if you are going to sign 
up for 8-month deployments, then you better stick to 8-month 
deployments. That is what the CNO is referring to in those 
longer deployment issues.
    Senator King. I will address this question to you, Admiral, 
but any of you can chime in. Sequestration raises its ugly head 
again in 2016. What are the impacts that you see there in terms 
of deployments and other kind of readiness, training, and those 
kinds of activities? I will start with you, Admiral, but I 
would like to hear from you all.
    Vice Admiral Moran. Yes, sir. 2013 was a really tough year 
for all of us. In the Navy, we canceled deployments. We delayed 
the deployment of the Truman Strike Group. We brought air wings 
back and put them down to the tactical hard deck, which is 
essentially minimum flying that just keeps them safe as opposed 
to proficient. Those over time, the longer you stay at that 
level of training for aviators, in particular, there is a cost 
on the back end.
    Senator King. You do not have to speculate on 2016 because 
you experienced it in 2013.
    Vice Admiral Moran. Precisely, yes, sir. I think we are 
back to something similar to that because the rules under that 
law do not allow us to move money around in different colors of 
money and pots of money to make up for operational readiness 
accounts.
    Senator King. It was designed to be stupid and it succeeded 
brilliantly.
    Vice Admiral Moran. Yes, sir. We felt that pain.
    Senator King. You may not want to say that, but I can say 
that.
    Vice Admiral Moran. I think if we do not see some relief on 
sequestration, it is possible that 2016 and beyond could look a 
lot like what 2013 did.
    Senator King. As a matter of fact, my impression is it may 
be worse because in 2013 there were some unused monies, there 
were funds that carried over that are not going to be there.
    Vice Admiral Moran. In the Navy, that is true, yes, sir. We 
have used up the money that we were able to cobble together 
from accounts from different years and different colors of 
money in 2013 just to make up for some of the operational 
impacts.
    Senator King. Gentlemen, your view.
    Lieutenant General Bromberg. Sequestration drives the Army 
down to a far lower level than 450,000 that is being discussed 
today. That will prevent us from being able to execute----
    Senator King. Full sequestration would take you to 420,000.
    Lieutenant General Bromberg. Yes, sir. It will drive us to 
a level that we cannot support the national strategy as written 
today. That is our big concern.
    To bring it back to your earlier question, sir, if you talk 
about longer deployments or more deployments today, we do not 
see the demand changing. If the demand for forces stays as high 
as it is with a smaller force, our ability to cycle those 
forces, give that break time in between, this cumulative effect 
is only going to get more challenging. Lump that with decreased 
ability to pay for readiness at the same time. It is going to 
put us in a really tight situation. It is very untenable for 
us.
    Senator King. We talk a lot about readiness. Readiness 
really involves risk.
    Lieutenant General Bromberg. Yes, sir, and that is where we 
are going to start taking unacceptable risk.
    Senator King. Risk equals young men and women's lives.
    Lieutenant General Bromberg. Yes, sir.
    Senator King. General, your thoughts.
    Lieutenant General Milstead. Most marines join the Marine 
Corps to deploy. That is why they join the U.S. Marine Corps. 
They want to deploy. If you take us to sequestration, we have 
already said that is going to be 175,000. That is not a 
strategy-based number. That is a fiscally-based number. That 
will be about a 1:2 dwell. There will be risk, and I will 
codify risk in that if we have a major contingency operation 
(MCO)--the Marine Corps is going to war--there will be no 
dwell. We are all going. We will leave some folks in the back 
to----
    Senator King. You are all going for the duration.
    Lieutenant General Milstead. We are going to war and we 
will come home when it is done. That is your 175,000 force in 
the Marine Corps under full sequestration under a MCO.
    Senator King. General, what is happening in the Air Force?
    Lieutenant General Cox. Sir, we lived through this, 
obviously. In 2013, 31 fighter squadrons were grounded. We need 
to have our entire combat air forces, 80 percent of that has to 
be ready in 30 days. We do not have tiered readiness. When you 
ground squadrons like that, you cannot meet the MCO that the 
general is talking about.
    Senator King. Is there not a lag time? If you ground the 
squadron and you do not have the training, it is not like you 
can just turn it back on in a day. Is that not correct?
    Lieutenant General Cox. That is correct.
    Senator King. Let me ask a different kind of question 
because this is personnel and we are talking about compensation 
and those kinds of things. How are you doing on recruiting? Are 
you getting the people you need? That is the ultimate test of 
whether compensation is adequate. Just very quickly. I am out 
of time.
    Lieutenant General Bromberg. Sir, for this year, we have 
met our recruiting goals. We see our challenge in the future 
with more people having challenges with meeting our standards, 
and then we have to look at the compensation as you go forward 
and see how that plays to get this All-Volunteer Force. Today 
we are okay. The future is our concern.
    Vice Admiral Moran. Recruiting. We just hit our 81st 
consecutive month of meeting our goal. But we are seeing our 
attainment of that goal later in the month, which means it is 
getting harder to meet our goal. That is something we are 
tracking very closely.
    Senator King. Does your recruiting relate to the economy? 
If the economy were stronger, would it be harder?
    Vice Admiral Moran. Yes, sir.
    Senator King. As the economy hopefully strengthens, that is 
going to create issues.
    Vice Admiral Moran. Sir, we have to watch both recruiting 
and retention. Those two together will give us indicators in 
the health of the force going forward.
    Senator King. General?
    Lieutenant General Cox. Sir, right now we are meeting our 
recruiting goals. The same thing with the economy. We will see 
in the future. But we just need to make sure we have the right 
compensation package for an All-Volunteer Force.
    Senator King. Marines?
    Lieutenant General Milstead. We have been at war for 13 
years, and if a young man walks into a recruiting office today 
and signs up, he is going to have to wait 6 to 8 months before 
he ships. They still want to join the Marine Corps. We are 
doing well.
    Senator King. So you, in effect, have a waiting list.
    Lieutenant General Milstead. We do. A female will ship a 
little sooner, but the young men and women--and it is 99.7 
percent tier one, which means high school graduates. The mental 
category 3 alphas are around 75 percent. They join the Marine 
Corps because they want to join the Marine Corps.
    Senator King. It speaks well of your organization, I 
believe.
    Madam Chairwoman, thank you.
    Senator Gillibrand. Thank you, Senator King.
    Thank you all for your testimony. This is extremely vital 
and important to the deliberations we will pursue in writing 
the next National Defense Authorization Act. Thank you so much.
    Senator King. Madam Chairwoman, can I ask one other 
question?
    Senator Gillibrand. Go ahead.
    Senator King. I apologize.
    We were talking about lowering the size of the Services. We 
hope the Army does not go to 420,000, but it is probably going 
to somewhere in the neighborhood of 450,000. I am interested in 
what you are doing for people who are leaving. The extent to 
which there is out-placement counseling, I want to know if you 
have people to help these young people going out into the job 
force. I think that is very important because, as the Services 
do shrink somewhat, we want to be sure that these young people 
have the best opportunity.
    Lieutenant General Bromberg. Yes, sir. We have a very 
robust program, over 700 counselors worldwide to help people 
become career-ready. We are meeting the career-ready standards 
by the Veterans Opportunity to Work Act. We have great 
partnerships across the Nation and globally with large 
companies, small companies, to help soldiers transition. We are 
in our first full year of all these. We are getting better and 
better with compliance. We start 12 months out before a soldier 
leaves the Service so they have a full year to start getting 
ready. We have great examples of programs that are 
credentialing programs. We have over 12,000 people that are 
signed up, enrolled in credentialing programs today that give 
them a civilian credential for their military occupation. We 
have a whole wealth of programs that we think we are supporting 
the soldiers with.
    Senator King. I presume you all are doing similar kinds of 
programs. I just think it is very important, and the 
credentialing thing, I would love to work with you on that 
because the idea that you have an electrician in the military 
and they need an electrician's license in one of the other 
States. That ought to be automatic. To the extent we can do 
that, that to me would be a very high priority. Thank you. 
Thank you very much, gentlemen.
    Thank you, Madam Chairwoman.
    Senator Gillibrand. We are expecting a vote around 11 a.m. 
but I am going to start the next panel, and we will take a 
break when the vote starts. The first panel is excused. The 
second panel is welcome to come up. Please join us. Please be 
seated.
    On the second panel, we have the senior enlisted advisors 
of the Services: Sergeant Major of the Army Raymond F. Chandler 
III, Master Chief Petty Officer of the Navy Michael D. Stevens, 
Chief Master Sergeant of the Air Force James A. Cody, and 
Sergeant Major of the Marine Corps Micheal P. Barrett. I now 
invite you to present your opening statements. Sergeant Major 
Chandler?

      STATEMENT OF SMA RAYMOND F. CHANDLER III, U.S. ARMY

    Sergeant Major Chandler. Thank you, Madam Chairwoman.
    Chairwoman Gillibrand, Ranking Member Graham, and 
distinguished members of this subcommittee, thanks for the 
invitation to speak today. Representing the Army that I love is 
a very humbling experience. I appreciate the support this 
committee has given over the past several years.
    This past year has brought some significant changes to the 
Army, including sequestration, a government shutdown, 
furloughs, and an accelerated drawdown. As always, the Army 
team has risen to the challenge.
    In this 13th year of our longest war, more than 35,000 
soldiers, as you well know, are still in Afghanistan, and right 
now it is about 7 p.m. there and there are several young Army 
noncommissioned officers and soldiers who are working with our 
Afghan partners to conduct combat operations. Their focus, and 
rightly so, is helping the Afghans to get better so they can 
defend themselves into the future.
    An additional 120,000 soldiers are forward stationed or 
deployed in nearly 150 countries.
    Finally, lest we forget, more than 5,000 men and women from 
the Army have given their lives on behalf of the Nation since 
September 11. Their service and sacrifice cannot be forgotten.
    But even in the midst of these challenges, our mission has 
not changed, which is to prevent conflict, shape the 
environment, and when necessary, fight and win our Nation's 
wars.
    As General Odierno has recently stated, it is essential 
that our total Army, Active Duty, Guard, and Reserve, be ready 
to accomplish the range of military operations we are directed 
to perform. We must also have a range of capabilities postured 
in the proper components in order to have a sustainable force 
mix both now and into the future.
    This year, I have traveled tens of thousands of miles to 
visit our soldiers serving in harm's way and dozens of other 
locations across this Nation and around the world where 
soldiers, families, and our Department of the Army civilians 
are assigned. My wife is here with me today who is a travel 
partner with me and speaks with their family members and has a 
great perspective which she informs me of everywhere we go.
    While there, I break bread with our soldiers, engage in 
conversations, and answer their questions. I would like to take 
this opportunity to share our soldiers' top five concerns over 
this past year, but before I begin, you should know that I have 
never received a question or comment from anyone on our Army 
team about being unwilling or unable to follow through on their 
oath of service. They remain committed to do what the Nation 
asked of them. They recognize there are many threats on the 
horizon, and they want to be ready.
    The fifth most common concern is about the state of 
readiness of our Army. Our soldiers are concerned about the 
availability of the training and equipment that has allowed 
them to be successful and victorious over these past 13 years. 
They are concerned about the decreasing end strength which may 
embolden our potential enemies. I tell them that the current 
drawdown is our only course of action to follow through on our 
commitment to them, the Army, and the American people, to be 
ready when the Nation calls.
    The fourth top concern is uncertainty. During the furloughs 
of the last summer and the government shutdown in the fall, our 
civilians shared their fears about continued employment, and 
soldiers and families told me about the ripple effects it has 
had on them. That uncertainty and unpredictability has become a 
major distraction for our Army. I would like to tell you thanks 
for passing the Bipartisan Budget Act which gives us some 
measure of predictability and the ability to rebuild readiness 
over the next 2 years. However, this is a short-term fix and 
sequestration, as you well know, looms in 2016 and beyond.
    The third top concern is about indiscipline in our ranks, 
including sexual harassment and assault. During every town hall 
over the past 2 years, I have told soldiers about the cost of 
this threat to our Army, its victims, and ultimately the 
American people whom we serve. Over the past 8 months, however, 
the soldiers in the audience have been responding more 
positively with questions about their responsibility, 
suggestions on how the Army can do better, and several 
instances of soldiers sharing their experience as a survivor to 
educate others. I finish by telling them that there can be no 
bystanders in these issues and that as Army professionals, we 
have a duty to police our force and ensure every soldier, no 
matter what rank or position, is a person of character and 
commitment.
    Their second top concern includes regulatory changes that 
have been ongoing within our Army for the past several years. 
These primarily focus around the Army uniform and personal 
appearance. Soldiers know the Army is based on discipline and 
standards. They ask me how to continue to look and act like an 
Army professional. Related to this, I have received questions 
about new policies on tattoos, the uniform as they wear it, and 
how the Army will evaluate who can serve in a particular 
military career field.
    Finally, the number one concern of our soldiers relates to 
the work of DOD and Congress on the MCRMC. Some of their 
concerns seem to come and go. For instance, commissaries has 
only recently become a focus of concern. Tuition assistance 
last year and TRICARE health coverage for family members. But 
the one issue that has never wavered is retirement reform. I 
tell soldiers that no one, including our military leaders, our 
Senators and Representatives, and the President, has stated 
that our current retirement pay will change for those who 
currently serve, but that it may, as a part of this commission, 
change in the future. I tell them that you and your colleagues 
have told us of your decisions and will honor their service and 
sacrifice.
    As we work collectively on this issue, we must remain aware 
that proposed changes not only affect our ability to recruit 
future soldiers and their families but also retain our highly 
competent and battle-tested soldiers who are integral to our 
continued defense superiority. Today, we have the best Army in 
the world. We are the best equipped, trained, and led. Although 
we may get leaner, we will still be the best Army in the world 
in 5 years, in 10 years, and as long as this Nation needs an 
Army.
    Let me close by saying that as the Sergeant Major of the 
Army, the best part of my job is visiting our soldiers, 
families, and civilians around the world. Their 
professionalism, dedication, and sacrifice they display every 
day is the reason our Army is the envy of every other in the 
world. I leave our Army knowing that it is in great hands. Our 
future is assured because of the brave young men and women who 
still come forward today and will into the future saying, send 
me, I will defend the American people and our way of life.
    Thank you for what you do. I appreciate this opportunity, 
and I look forward to your questions.
    [The prepared statement of Sergeant Chandler follows:]
         Prepared Statement by SMA Raymond F. Chandler III, USA
                              introduction
    Chairwoman Gillibrand, Ranking Member Graham, distinguished members 
of this subcommittee, thank you for the invitation to speak to you on 
behalf of the more than 2 million members of our Army team: soldiers, 
their family members, and our civilian employees. Representing the 
soldiers in the Army that I love has been a humbling experience and I 
appreciate the support this committee has given our Army team over the 
past 12-plus years and for recognizing and valuing the sacrifice and 
service of our remarkable soldiers. As I near my retirement, this will 
likely be my last opportunity to appear before you.
    I would also like to welcome the new committee members. I 
appreciate you taking on the tremendous responsibility and I look 
forward to working with you to support our soldiers. Your continuing 
support will enable us to improve the quality of life of soldiers 
across the force.
                               background
    This past year has brought some significant changes to the Army, 
including the impacts of sequestration, the government shutdown, and 
the first and second order effects of a drawdown and budget reductions.
    After 12-plus years of persistent conflict, Secretary McHugh, 
General Odierno, and I are proud of all that our soldiers, family 
members, and civilians have accomplished. But our Army is not focused 
on our past success, but rather our future.
    The Army stands at a pivotal moment due to daunting fiscal 
challenges and strategic uncertainty. But even in the midst of these 
challenges our mission has not changed--to prevent conflict, shape the 
environment and, when necessary, fight and win our Nation's wars. As 
General Odierno recently stated, it is essential that our Total Army--
the Active Army, Army National Guard, and U.S. Army Reserve--be ready 
to accomplish the range of military operations we are directed to 
perform. Our leaders and the American people rightly place their 
confidence in our professional competence and character, and they 
expect us to succeed. And, we will.
    As we transition, we are making changes to our institutions and 
processes to ensure that we are maximizing the resources available to 
the Army. So we will focus on these five strategic priorities:

    1.  Adaptive Army Leaders for a complex world;
    2.  A globally responsive and regionally engaged Army;
    3.  A ready and modern Army;
    4.  Soldiers committed to our Army profession; and
    5.  Maintain the premier All-Volunteer Army.

    These also form the basis for the objectives outlined in our 2014 
Army Strategic Planning Guidance.
    Through these efforts, our All-Volunteer Army will remain the most 
highly trained and professional land force in the world. It will have 
the capability and capacity to provide expeditionary, decisive land 
power to the Joint Force and ready to perform across the range of 
military operations in support of Combatant Commanders to defend the 
Nation and its interests at home and abroad, both today and against 
emerging threats.
    Although our Army is looking forward to new challenges, it is 
important to remember what we have done and continue to do. We are 
entering the 13th years of the longest war in our Nation's history. 
Nearly 40,000 soldiers are serving in Afghanistan and an additional 
120,000 are either forward stationed or deployed in nearly 150 
countries. More than 1.6 million soldiers have deployed during the past 
12 years and many have deployed multiple times, some as many as six or 
even ten times. More than 5,000 soldiers have given their lives on 
behalf of this Nation. This service and sacrifice cannot be forgotten 
as we move forward and focus on the challenges on our horizon.
                                drawdown
    All of us in the Army are grateful for the work Congress did on the 
fiscal year 2014 authorization and appropriation bills, which give us 
the ability to build readiness over time. Our Army had been reduced to 
only two brigades rated at T-1 level for deployment. Sequestration 
limited funding to train, equip and, in some cases, care for our 
soldiers. During that period, our Army leaders at all levels knew we 
were accepting some level of risk, so they focused on squad and platoon 
level training to maintain some level of readiness. This year's budget 
allows us to increase the number of ready brigades.
    However, this fix is only short-term. Next fiscal year we again 
face sequestration-level funding. Just as last year, that will mean 
that our Army will lack flexibility and predictability, and our 
soldiers, their families, and our civilians will once again face the 
anxiety that comes with uncertainty. We will again face serious 
readiness challenges.
    To address readiness issues, our Army has accelerated the timeline 
to reduce our Active Force from 580,000 to 490,000 soldiers while 
reducing our budget--even while still engaged in war, unprecedented in 
our history. This reduction is being done in a controlled and 
responsible manner over a compressed timeframe to allow the Army to 
reduce personnel costs. Those savings can then be used to ensure the 
force is both ready and equipped to the highest levels possible. 
Achieving the proper balance between readiness, modernization, and end 
strength is critical to ensuring the Army is ready for any contingency.
    As we continue implementing this drawdown, we will make sure to 
continue providing programs that value the service and sacrifices 
soldiers and their families have made to the military. Unfortunately, 
natural attrition alone will not achieve the Army's reduced end 
strength requirements. However, we are committed to assisting soldiers 
and their families as they transition to civilian life, and we 
encourage continued service in the Army National Guard or Army Reserve.
    As our force reduces in size, our organizations will change. Some 
of our training posts will see changes in throughput or focus in some 
of their courses. We will continue to recruit America's best men and 
women, but those numbers will likely be smaller, and as we focus on new 
training goals and objectives, some training will expand.
    Similarly, we are meeting a directive to reduce the size of our 
headquarters staffs across our Army commands, including both civilian 
and military members of those teams. We will likely find that many 
contracts that have supported our Army over the past 12 years can be 
reduced or ended. Soldiers who have been engaged in actively defending 
our Nation during that time will return to a garrison environment and 
traditional support roles. Things like KP, police calls, post security 
and other duties have been part of my Army for as long as I have served 
and I firmly believe they help to develop leadership skills, a sense of 
good order and discipline, responsibility, safety, and pride in taking 
care of living and working environments.
                            quality of life
    The quality of life of our soldiers and their families is 
critically important as the Army goes through this period of 
transition. Most importantly, the Army must focus on ensuring that we 
recruit and retain the smartest, most fit, and most resilient of 
America's youth. It is essential to leverage those actions and 
incentives that sustain the highest quality All-Volunteer Force in the 
face of continuing fiscal pressures and ongoing assessments of benefits 
and entitlements.
    For example, the Army's Tuition Assistance (TA) program provides 
financial assistance for voluntary off-duty education programs in 
support of soldiers' professional and personal self-development goals. 
This program helps us to achieve the Army's goal of retaining quality 
soldiers, enhancing their career professional progression, increasing 
the combat readiness of the Army, and eventually assisting soldiers in 
their transition from the Army into successful civilian careers. The TA 
program supports the leader development imperatives of the Army Leader 
Development Strategy and supports Army Strategic Priorities.
    During our comprehensive assessment of TA, we evaluated a number of 
changes based on their ability to support the intent of the TA program 
and compared them to other available programs providing education 
benefits. The changes we ultimately implemented not only are consistent 
with the purpose of TA but also enhance sustained readiness of the Army 
and optimize scarce resources.
    As the Army draws down, another important quality of life issue is 
successfully reintegrating those soldiers and families separated after 
12 years of war. It is important that whatever support we provide has 
the greatest impact on sustaining readiness and resilience, so the 
timing of resource reductions should take into account this goal.
                               transition
    As we continue to draw down the Army, we understand our duty to 
treat soldiers and families not retained with dignity and respect. 
Through our Army Career and Alumni Program (ACAP), we are fully 
committed to the VOW to Hire Heroes Act. In coordination with the 
Departments of Labor and Veterans Affairs, we are conducting assistance 
training and transition counseling for soldiers beginning no later than 
12 months from their transition date to enable soldiers to successfully 
transition into civilian society.
    ACAP provides transitioning soldiers with the tools and resources 
to help make informed career decisions, be competitive in the 
workforce, and continue to provide positive contributions to their 
community after completing their active duty service. The transition 
process is focused on the soldier and managed by commanders through 
performance metrics recorded in the automated tracking system of 
record, ACAP XXI.
    To assist soldiers in making the most of opportunities as they 
appear during that period of transition, the Army is exploring policy 
changes that provide opportunities for Active component soldiers to 
separate if they have secured employment, have been accepted into 
higher education, or want to transition to a position in the Army 
National Guard or Army Reserve.
    Collectively, these programs and other recent changes have helped 
the Army reduce the percentage of unemployed soldiers who are veterans 
of Operation Iraqi Freedom or Operation Enduring Freedom. This lower 
rate also reduces the Army's cost for annual Unemployment Compensation 
for Ex-servicemembers (UCX), making those monies available to support 
personnel, readiness, and modernization needs. Last year, the Army 
spent more than $430 million on UCX, and we want to see that amount 
substantially decreased.
    Another recent Army initiative to support veterans is Soldier For 
Life. It is designed to enable soldiers, veterans, and families to 
leave military service ``career ready'' and connect to an established 
network to find employment, education, and health resources. We know 
the value and outstanding capabilities these soldiers can bring to any 
organization, and we encourage them to continue to serve our Nation by 
instilling Army values, the Warrior ethos, and leadership in businesses 
and communities across the Nation.
    The Soldier For Life program is a holistic approach to the military 
life cycle career of a soldier. The U.S. Army takes care of teammates 
by ensuring soldiers start strong, serve strong, and reintegrate strong 
so they remain Army Strong even after leaving the Army. The U.S. Army's 
strategic imperative of sustaining the Premier All-Volunteer Army is 
directly affected by how well our veterans reintegrate back into their 
communities.
    Soldier for Life works to connect employers to transitioning 
soldiers from all Army components: Active Duty, National Guard, and 
Reserve. We help employers navigate the Army's reintegration network by 
developing lasting relationships and connecting them to transitioning 
Army talent.
    I've been personally involved with this program over the past year 
and know its value. In March, I spoke to an audience of national 
healthcare providers at the University of Michigan at Ann Arbor to 
discuss best practices and gaps in providing behavioral healthcare for 
Guard and Reserve soldiers and their families. The following month, I 
attended the National Beer Wholesalers Association's legislative 
conference in Washington, DC. During my visit, they pledged as an 
organization to hire transitioning soldiers and their spouses in their 
businesses across the country. Last week, our Soldier for Life office 
in Los Angeles laid the groundwork for me to meet with dedicated 
individuals from the University of Southern California and the Office 
of the Mayor of Los Angeles who are working two separate but 
collaborative efforts to help serve the largest population of veterans 
in the Nation find employment, homes, and healthcare. This kind of 
support occurs across the country--and I want to thank everyone for 
reaching out to our Army team.
                          ready and resilient
    As I stated last year, it is critically important for an Army with 
less manpower and a smaller budget to maintain peak readiness. The last 
12-plus years have challenged our Army. The stress and strain of 
multiple deployments can manifest in high risk behavior as soldiers try 
to cope with issues and problems without the proper help.
    Our efforts this past year to address challenges such as post 
traumatic stress, suicide, sexual assault and harassment, hazing, and 
reckless behavior are making positive changes in organizational climate 
and leadership abilities, while at the same time, maintaining good 
order and discipline.
    Even after an extraordinary commitment by the Army of time and 
money to address suicides, it has been a particularly difficult 
problem. However, we may be starting to see some signs that our 
investments are beginning to pay off. Our overall number of suicides 
across the force has decreased as we continue to work in concert with 
Departments of Defense and Veterans Affairs and cultivate a climate 
that supports those who responsibly seek help and those who act, 
intervene and are motivated to stand against behaviors that are 
contrary to our Army Values. Although we do not have data yet to fully 
explain this improvement, we are analyzing our efforts to discover and 
reinforce future efforts.
    Let me now turn to sexual assault, an issue I known that is very 
important to all of you here. Above all else, the Army is an 
organization built on and bound by values. Sexual harassment and 
assault in all its forms goes against every one of those values. Simply 
put, sexual assault is a crime that will not be tolerated. The 
overwhelming majority of soldiers and civilians serve honorably and 
capably, but we must recognize that the ill-disciplined few jeopardize 
the safety of all our people as well as the trust and confidence the 
American people have in their Army. For that reason, we have made the 
prevention of sexual offenses a top priority.
    The Army's SHARP Program seeks to reduce and ultimately eliminate 
this crime from our ranks, and to compassionately and rapidly care for 
the victims, and we have made excellent progress in implementing it 
throughout the Army over the past year. Through the combined efforts of 
our military and civilian leaders at all levels, we've implemented 
numerous program and policy changes to address this insider threat. I 
believe the initiatives are leading to enhanced reporting, 
investigating, and prosecution of sexual assault offenses, and 
increasing the accountability of leaders. The changes includes revised 
policies that focus on constant assessments of command climates, 
changes to leader evaluations to ensure their commitment to SHARP 
goals, the addition of special legal counsel to support victims, and 
the establishment of more stringent screening criteria and background 
checks for those serving in positions of trust, including Sexual 
Assault Response Counselors and Victim Advocates.
    Let me add one final, but important, note. Sexual assault is 
antithetical to competent command, and it is important that Army 
commanders retain their authority over the disposition of sexual 
assault cases. Removal of that authority would make it harder to 
respond to the needs of soldiers within the command, especially the 
victims. Many of the Army's most difficult problems were solved by 
making commanders more accountable, not less. Therefore the Army 
opposes efforts to remove commanders from the disposition process.
    The Army's goal in all of these efforts is to facilitate a culture 
change that will result in a positive command climate where the 
behaviors and attitudes that lead to sexual offenses are rare and 
victims feel free to report without fear of reprisal. Most important in 
development of trust is our commitment to soldiers and the 
accountability of leaders at all levels.
                       wounded, injured, and ill
    This past year also saw significant progress in our care for 
wounded, ill, or injured soldiers, and organizational changes that 
underscore that positive trend. Overall, the Warrior Transition Units 
(WTU)/Community Based Warrior Transition Units (CBWTU) population 
continues to decline as there are fewer soldiers entering these units 
and more soldiers departing, fewer deployments, fewer MEDEVACs, and 
fewer Reserve Component mobilizations. As of February 3, 2014, the 
population of wounded, ill, or injured soldiers assigned or attached to 
WTUs and CBWTUs was 6,988, the lowest level since the fall of 2007.
    Force structure changes within the Warrior Care and Transition 
Program (WCTP) reflect a decreasing WTU population while retaining 
scalability in order to meet the Army's future needs. To be sure, WTU 
force structure changes are not related to budget cuts, sequestration, 
or furlough. These changes will improve the care and transition of 
soldiers through standardization, increased span of control, better 
access to resources on installations, and reduction of unnecessary 
delays in care.
    We also continue to improve the process with the Integrated 
Disability Evaluation System (IDES). In fiscal year 2013 the Army made 
tremendous progress across the IDES by significantly reducing backlogs 
at the Medical Evaluation Boards (MEBs).
    Last year the Army made a concerted effort to eliminate the backlog 
of IDES cases at every stage under its control, thereby processing 
approximately 80 percent more cases than we had done in any previous 
year. Since the beginning of fiscal year 2013, the Army processed over 
34,000 cases. During the same period, more than 29,000 soldiers either 
separated from the military or were found fit and returned to duty.
    We are now meeting timeliness goals for all stages we control. The 
Army is continuing to collaborate with our VA partners to speed up IDES 
processing while ensuring soldiers receive the benefits they have 
earned and deserve.
                                closing
    Throughout this past year, while continuing the fight, drawing down 
our force, and working within fiscal constraints, our soldiers have 
continued to demonstrate their professionalism in several key ways. The 
expansion of entitlements and benefits to same-sex spouses has gone 
almost unnoticed by most soldiers. This professionalism is also 
highlighted in our ongoing campaign to ensure every soldier understands 
how their competence, character and commitment underpin the American 
public's trust and respect for the Army.
    In closing, I want to recognize the amazing work being done every 
day by our Army Team. As the Sergeant Major of the Army, one of the 
best parts of my job is visiting our soldiers, families, and civilians 
across the world. The professionalism, dedication, and sacrifice they 
display every day is the reason our Army is the envy of every other in 
the world. Today, our soldiers are the best-trained, best-manned, best-
equipped, and best-led force in our history.
    Tomorrow we will be smaller and we may be leaner, but we will 
continue to be the best-trained, best-manned, best-equipped, and best-
led force in our history.
    Ten years from now, we will continue to be best, and I feel 
confident in making that statement because I know we will continue to 
have your support. Thank you for what you do.
    I appreciate this opportunity to speak before you and tell our 
story. I welcome your questions at this time. Thank you and Army 
Strong.

    Senator Gillibrand. Thank you, Sergeant Major.
    Before we hear from Master Chief Petty Officer of the Navy 
Michael Stevens, we are going to go vote. It should probably 
take me no more than 10 minutes to go there and come back. We 
will resume in 10 minutes. Thank you. [Recess.]
    Thank you, gentlemen.
    Our next speaker, I am pleased to present Master Chief 
Petty Officer of the Navy Michael Stevens.

        STATEMENT OF MCPON MICHAEL D. STEVENS, U.S. NAVY

    Chief Petty Officer Stevens. Good morning, Chairwoman 
Gillibrand, Ranking Member Graham, and distinguished members of 
this subcommittee. Thank you for the opportunity to share with 
you my thoughts on the tone of our Navy's enlisted force. The 
support that each of you have provided to our men and women in 
uniform has had an incredible impact on their quality of life 
and quality of work which, in turn, produces a healthy quality 
of service. Each of these elements are vital to our Navy's 
force and set the tone for effective warfighting and sustained 
operational readiness.
    Today as we sit here, 108 of our 288 deployable ships are 
underway. More than 323,000 Active Duty sailors and 61,000 
Reserves are projecting U.S. naval sea power and forward 
presence worldwide. Over the past 18 months, I visited with 
thousands of these sailors who continue to stand the watch for 
the United States of America every day. I have also observed 
firsthand the quality of life our sailors and their families 
enjoy. I have also witnessed the many challenges they face.
    Areas that concern me with respect to the tone of the force 
include, but are not limited to, alcohol abuse, sexual assault, 
suicide, domestic violence, and potential impacts with regard 
to pay and benefits.
    I understand the reasoning and the necessity in balancing 
our authorized military spending, and I agree it is vitally 
important that we balance quality of work with quality of life 
so that we can provide our sailors and families with the best 
quality of service. After all, our slice of the pie is only so 
big.
    The Navy has been asked to slow growth, to look at those 
things which could be scaled back with regard to pay and 
benefits, and this we have done. In testimony earlier this year 
before the House Appropriations Subcommittee, I mentioned one 
of the greatest weapons systems we can provide the U.S. Navy is 
unit morale. I made that comment with emphasis because I am 
concerned with the potential intensity in which slowing of 
growth may occur. Although I understand there may always be a 
little fat to trim, as I look into the future, I believe we are 
dangerously close to cutting into muscle, and we simply cannot 
afford to cut into bone. We cannot afford to cut into the 
weapon system I just mentioned.
    I am also concerned that this year's budget may become the 
new standard. My sailors ask me ``will this become the new 
norm?'' We must provide the same level of care and commitment 
that we expect our sailors to offer their country. Our military 
family and support programs should not--I repeat should not--
become a casualty of budgetary uncertainty. The CNO and I 
understand nothing comes second to combat readiness, and we are 
committed to preserving our people and our free programs to the 
fullest extent possible. Under the current fiscal constraints, 
budget uncertainty will likely continue to place emotional and 
economic strain on our sailors and their families.
    As we navigate through these challenges, I have no doubt 
that you will do your very best to ensure our sailors and their 
families have what is necessary to carry out our Navy's 
mission. The current fiscal situation, I will be perfectly 
clear with you, is not a topic I intend to sell our sailors. I 
will, however, find a way to explain this to them because I am 
committed to giving them nothing less than the truth. Together, 
we will manage, work through, and solve these difficult 
challenges.
    On behalf of our sailors and their families serving around 
the world, I sincerely thank you for your continued support, 
and I look forward to taking your questions.
    [The prepared statement of Chief Petty Officer Stevens 
follows:]
          Prepared Statement by MCPON Michael D. Stevens, USN
    Chairwoman Gillibrand, Ranking Member Graham, and distinguished 
members of this subcommittee, thank you for the opportunity to address 
you today. As the Master Chief Petty Officer of the Navy, I am honored 
to represent more than 380,000 Active and Reserve sailors in the U.S. 
Navy. During the past 18 months, I have visited tens of thousands of 
sailors and their families in the United States and overseas. Today, I 
am prepared to deliver you a summary of the quality of life that 
sustains our sailors and their families.
                        overall quality of life
    In today's Navy, quality of life is high overall; however, today's 
sailor is concerned about the many quality of life issues that carry a 
burden of uncertainty, especially in the current fiscal environment. 
Chief among these concerns are:

        <bullet> Potential Pay and Benefit changes;
        <bullet> Family Programs and Support Services; and
        <bullet> Predictability with Respect to Deployments.

    As I navigate through the various commands and units of our Force, 
I am always inspired by their work ethic and dedication, and I am 
honored to serve with and represent these amazing men and women--your 
sailors. I have no doubt that these issues of concern will be addressed 
with the utmost regard for their well-being.
                               your navy
    The Navy understands that a budgetary reformation is fast-
approaching, and we are working hard to implement policies that will 
meet end strength controls and planned budget execution. Such budgetary 
decisions will continue to be carefully monitored for impacts to fit, 
fill, and tone, the health of the Force. Navy Active and Reserve 
components continue efforts to stabilize, balance, and distribute the 
Force to ensure that sailors are assignable, deployable, and 
distributable in support of the Chief of Naval Operations' (CNO) 
tenets: Warfighting First, Operate Forward, and Be Ready.
    The overall health of the Force is ``good,'' and morale is 
reasonably high; however, we continue to closely monitor the tone of 
the Force and personnel readiness. Areas by which we measure these 
controls include:

        <bullet> Physical, mental, family and financial stress;
        <bullet> Morale, alcohol and substance abuse;
        <bullet> Misconduct; and
        <bullet> Recruiting, Retention, Operations Tempo, Personnel 
        Tempo, safety, training, and manning (Personnel Readiness).

    Additionally, and in order to secure a healthy balance in quality 
of life and work, the Navy is committed to a two part obligation that 
we call ``quality of service'':

    1.  To ensure sailors receive the finest training and equipment 
possible so they can deploy ready to accomplish their mission and 
return home safely, and
    2.  To ensure they and their families are properly compensated and 
cared for.

                               recruiting
    To ensure the Navy is prepared to meet future operational 
requirements, the Force must recruit sailors in the right combination 
of ratings (jobs). For fiscal year 2014, through January 2014, the Navy 
met numerical goals with a total of 10,443 accessions. Because quality 
of life and service are fundamental features to recruiting new sailors, 
we hold an obligation to provide sailors with the best equipment and 
training possible. From the time a sailor steps into basic training, we 
begin to develop and mold them into a leader who is prepared to serve 
and sustain the Force. Recruiting efforts are supplemented by an 
element of job security that extends into a career-long training 
continuum that will enhance a sailor's personal and professional 
development. As we work with Congress, we hope to continue to provide 
the necessary tools to recruit the right sailors, with the right 
skills, in order to meet current and future mission requirements.
                               retention
    Officer and enlisted inventory gaps remain in several critical 
specialties where operational tempo is high or pay disparities exist 
between the military and the private sector. Targeted special pays have 
a strong impact on reenlistments. Selective Reenlistment Bonuses 
(SRBs), in particular, are essential to retaining personnel in critical 
skills, such as the Nuclear Field, Information Dominance, and Special 
Warfare ratings. We continue to use SRBs as a quality of life 
initiative to address these shortages, and we appreciate your 
continuing support for these important incentives.
                              end strength
    As of January 2014, our total Force is 323,561 Active Duty and 
61,499 Reserve. This is on track with Navy's fiscal year 2015 budget 
submission of 323,600 Active and 57,300 Reserve. We are focused on 
maintaining the right number of sailors to adequately man the fleet and 
to ensure sailors are in the right positions to accomplish our 
operational commitments. We strive to provide the fleet with the right 
fit and fill--assigning sailors with the right skills and experience 
level to perform and fill the most critical sea duty jobs.
    As the Navy has had to adapt to an ever-changing fiscal 
environment, I have watched our sailors continue to complete their 
missions with a dedicated, goal-oriented approach. I have seen the 
evidence of their hard work and been a witness to their determination. 
They are indeed, the driving Force of our Navy.
                          women in submarines
    Retention of women in the Navy has been historically challenging. 
Averages for female submarine officer retention will not be well known 
until fiscal year 2019 when the first several year groups of female 
submarine officers are making decisions on whether to serve as a 
Department Head.
    Naval Sea Systems Command recently conducted a habitability study 
that examined design modifications for: (1) enlisted female sailors/
officer integration on all submarine platforms; and (2) officer female 
integration on Virginia-; and Los Angeles-class SSNs. The study 
revealed that ship design modifications will be required for enlisted 
female sailors' integration on all classes of submarines. Study 
assessments also indicate that there are no obstacles for female 
officer integration on Virginia-class SSNs supporting Navy's goal to 
provide equal career opportunities for women to the greatest extent 
possible.
    The Navy intends to integrate female officers aboard two Virginia-
class submarines starting in fiscal year 2015; and, as publically 
announced in January 2013, the Navy intends to assign enlisted women to 
Virginia-class submarines. Although enlisted women have not yet been 
assigned in submarines, a task force was established last year to 
coordinate and synchronize these efforts.
                                housing
    Family housing and single sailor housing is a crucial element in 
supporting Navy readiness and quality of life. By providing sailors and 
their families the opportunity for suitable, affordable, and safe 
environments in the community, whether privatized or Navy-owned, we are 
ensuring a critical component to the overall well-being of sailors and 
their families. Thanks to the support of this committee and Members of 
Congress, we have improved, and continue to improve the housing 
available to our sailors and their families.
    In fiscal year 2013, the Navy renovated a total of 28 barracks at 
11 bases, and in fiscal year 2014 we will prioritize renovations to 
ensure units meet health and safety standards. However, to resource 
critical warfighting requirements, Navy has taken risk in our shore 
infrastructure and we have found ourselves with a significant number of 
unaccompanied housing buildings in ``inadequate condition.'' It is 
critically important that we fully fund efforts in this area.
                        family support programs
    The Navy has extended strong resources to our Navy families, 
providing our sailors with the reassurance that their families are 
being supported. This allows our sailors to effectively focus on the 
mission at hand with peace of mind. Fleet and Family Support Centers 
offer a number of personnel and family support programs to reduce life 
stressors throughout the training and deployment cycles. Family Support 
Programs provide support to military members and their families whether 
the member deploys as part of a unit or individually. In addition, 
military members and their families may contact the Department of 
Defense sponsored Military OneSource program for confidential 
assistance and comprehensive information or materials on a variety of 
military life topics. Military OneSource, available worldwide 24/7/365 
by telephone or online for both Active Duty and Reserve members, 
provided more than 885,000 services to military and family members in 
fiscal year 2013.
    Navy Ombudsmen and Family Readiness Groups (FRG) are other 
essential components in our efforts to foster effective relationships 
between family members and commands. Ombudsmen function as an 
intermediary between commands and families to better prepare both 
sailors and their families for the challenges associated with training 
and deployment. Ombudsmen also serve as liaisons between commands and 
families on a wide range of issues including pay and compensation, 
deployment schedules, child care, housing, et cetera. They keep the 
command informed regarding the overall health, morale, and welfare of 
command families.
    For our Reserve sailors, the Yellow Ribbon Reintegration Program 
(YRRP) and the Psychological Health Outreach Program (PHOP) have been 
tremendously successful in caring for servicemembers and their families 
before, during, and following deployment. The YRRP provides Reserve 
sailors and their families with information, services, referral, and 
proactive outreach opportunities via informational events and 
activities. PHOP services include psycho-educational briefings, 
behavioral health screenings, and phone/email follow-up to ensure 
sailors have received the information, resources, and services they 
need to enhance their state of wellness and readiness.
    It is imperative that in today's fiscal environment, we protect 
these programs and services that promote a thriving and healthy family 
unit, and, in essence, the viability of our Force.
                     navy child and youth programs
    Navy Child and Youth Programs (CYP) deliver services that help meet 
mission requirements and reinforce strong military families through 
activities that promote cognitive, social, emotional, and physical 
development of children from ages infant through twelfth grade. Navy 
CYP also provides School Liaison Officers to support the transition 
needs of school-aged children and families by facilitating 
communication with local school authorities on the impacts of a 
military lifestyle on children. The Navy remains dedicated to ensuring 
our sailors and their families are provided with adequate choices based 
on their respective needs and/or requests.
                      sailor and family readiness
    Deployments are a necessary part of Navy life, and as we have 
deployed our Forces throughout times of peace and conflict, it is 
imperative that we never underestimate the incredible strain that 
deployments impose on our sailors and their families. The stresses 
associated with being a part of a Navy family have significant impact 
on the overall readiness of the unit, the readiness of the individual 
sailor, and the readiness of their families.
    One stressor that I briefly addressed above is the unpredictability 
of deployments. It is understood that real world events coupled with 
the strain of maintaining material readiness are factors that 
contribute to uncertain deployment schedules.
    Once a deployment assignment is delivered to the command, along 
with a predicted timeline, personnel are made responsible for properly 
preparing themselves and their families. They immediately begin to make 
important life decisions via their family care plans, automobile 
arrangements, household goods placement, financial accounts, and many 
other facets of their personal lives. When a change in length of a 
deployment or a delay in deployment is announced, it results in a 
significant strain on the morale of the Force which, in turn, 
negatively impacts quality of work. I believe it is paramount that the 
Navy is provided with adequate capacity, or the proper manning, to 
support mission demands and ensure deployment predictability to the 
largest extent possible.
    Sailors choose military service for many different reasons: loyalty 
to country, family and service tradition, and dedication are all 
undoubtedly significant factors. Sailors also recognize that with this 
commitment, comes great opportunity. I appreciate Congress' historical 
support of pay and benefit increases and quality of life initiatives 
that have sustained our Navy.
    In past years, Congress has provided the Navy with competitive pay, 
allowances, housing, support programs, and educational opportunities 
that support sailor and family readiness; this support helps to explain 
why many sailors and their families decide to ``Stay Navy.'' It is my 
hope that we can continue to work together to ensure that investments 
in quality of life and in quality of work combine to produce a quality 
of service that helps the Navy continue to attract and retain high 
quality sailors.
                           continuum of care
    Health care is extremely important to mission readiness and is 
incredibly appealing for the recruiting and retention of our sailors 
and families. I am often made aware of our sailors' families' future 
concerns in regards to health care. As we improve the process by which 
we provide for the health needs of our sailors and families, I believe 
we should also direct attention toward severely injured sailors. We 
must apply the same level of attention to those who return from 
deployments whose medical needs may not be immediately apparent.
    We have continued to encourage leaders to be vigilant for 
servicemembers who may be suffering from Post-Traumatic Stress Disorder 
or Traumatic Brain Injury, and to encourage those afflicted with these 
conditions to seek help. We must also be able to provide care and 
support to address the physical and psychological toll that multiple 
deployments have on our sailors and their families. The Navy continues 
to work hard to dispel the stigma often associated with mental 
healthcare.
    Recently, Navy has embedded mental health providers in primary care 
settings and operational units in order to identify and manage issues 
before they manifest as psychological problems. Navy Medicine continues 
to provide timely and comprehensive physical and mental health care for 
sailors, marines, and their families throughout the training and 
deployment cycle.
                     21st century sailor and marine
    Navy's 21st Century Sailor Office was established in June 2013 and 
is responsible for integrating Navy's efforts in equal opportunity, 
sailor personal and family readiness, physical readiness, alcohol and 
substance abuse prevention, suicide prevention, sexual harassment 
prevention, sexual assault prevention and response (SAPR), hazing 
prevention, and transition assistance. The 21st Century Sailor Office 
captures all these programs under one umbrella and provides top level 
attention and support to ensure critical resilience programs continue 
to grow and thrive. We provide resources to our sailors and families to 
ensure they can take the challenges of a military lifestyle in stride.
                 sexual assault prevention and response
    Sexual assault is a crime and is counter to our core values. It 
directly impacts operational readiness and unit cohesion and I have 
aggressively challenged enlisted leadership to impose a daily influence 
on their sailors that is consistent with ensuring every sailor is 
treated with dignity and respect. By identifying the disrupting factors 
that contribute to sexual assault, such as alcohol abuse and poor 
command climate, we may better focus on ways in which the Navy should 
implement improvements to our leadership training. Leadership 
development programs will better prepare leaders for efforts to keep 
their sailors safe and further shape a proper command climate.
    Because many victims and offenders are junior sailors, our training 
is targeted to those Sailors, and we actively support peer groups such 
as Coalition of Sailors Against Destructive Decisions (CSADD) who 
train, mentor and sponsor awareness-raising events for fellow junior 
Sailors. We are also working to create a culturally-aware, educated, 
Total Force environment intolerant of sexual assault, supported by a 
well-defined prevention, reporting, investigation, military justice, 
and victim advocacy program. The Navy is committed to reducing sexual 
assault with the goal of eliminating it from within our ranks.
    In compliance with Department of Defense (DOD)initiatives and the 
guidance from the DOD and Department of the Navy Sexual Assault 
Prevention Response Offices (SAPRO), the Navy follows and supports the 
five lines of effort for eliminating sexual assault:

    1.  Prevention;
    2.  Investigation;
    3.  Accountability;
    4.  Advocacy and Victim Assistance; and
    5.  Program Assessment.

    Tailored SAPR training has been given to all Officers and Chief 
Petty Officers focusing on leadership's role in setting the correct 
tone and climate to prevent and eliminate sexual assaults. All E-6 and 
below sailors receive training that focuses on sailor responsibility 
for positive changes in their command and in their Navy, with emphasis 
on bystander intervention and responsible decisionmaking.
    We will continue to use a metrics-based approach to evaluate our 
progress, and improve our prevention efforts.
                     safe harbor & wounded warriors
    We provide a lifetime of individually tailored assistance designed 
to optimize recovery, rehabilitation, and reintegration of sailors and 
coastguardsmen. Navy Safe Harbor is the Navy's sole organization for 
coordinating the non-medical care of all seriously wounded, ill, or 
injured sailors, coastguardsmen, and their families.
    Non-medical care management support includes, but is not limited 
to, support services for TBI/PTSD, pay/personnel issues, invitational 
travel orders, lodging/housing adaptation, child/youth programs, 
transportation needs, legal/guardianship issues, education/training 
benefits, commissary/exchange access, respite care and transition 
assistance. Safe Harbor enrollment includes sailors with combat-related 
wounds or injuries, those from shipboard accidents, and off duty 
accidents, and serious medical and psychological conditions, such as 
cancer and severe PTSD.
    100 percent of Wounded Warrior enrollees are briefed by the Safe 
Harbor program on child care as part of their portfolio of support 
services available to them. If a Wounded Warrior requires child care, 
installation child care programs adapt to accommodate the individual 
family's needs. All Wounded Warriors have priority access into all Navy 
Child and Youth Programs. We continue to strive to improve the 
continuum of care and explore all avenues that may more effectively 
meet the needs of our severely injured sailors and their families.
                           suicide prevention
    Suicide prevention in the Navy is an all hands evolution, all of 
the time. The Navy Suicide Prevention Program manages policy and 
programs to help sailors live life fully, promote psychological and 
emotional wellness, and reduce barriers that discourage seeking help. A 
comprehensive four-prong approach includes training, intervention, 
response, and reporting to ensure we're providing all Navy personnel 
the support network and skills needed to thrive, not just survive.
    The Operational Stress Control (OSC) program is the foundation of 
the training effort, supporting the fleet with resources to navigate 
the stressors and challenges commonly associated with Navy life to help 
sailors build resilience and maintain readiness--a major tenet of the 
Chief of Naval Operations' Sailing Directions.
    We encourage proactive measures that sailors, leaders, commands and 
families can take to mitigate stressors before they become crises, 
while identifying those who may be reacting to stress and need 
assistance. While our efforts focus on actions ``left of the event,'' 
post-vention is a critical component of our program, providing 
psychological first-aid support to commands that have experienced a 
suicide tragedy.
    The NavyTHRIVE communications campaign was launched last year, 
focusing on providing sailors, leaders, and families with the tools and 
knowledge to thrive; the next step in the resilience ladder. ``Thrive 
in your Community'', the 2013 Suicide Prevention Month theme, added a 
new dimension to NavyTHRIVE by emphasizing the importance of cohesion 
and togetherness when dealing with adversity. The Thrive During the 
Holidays campaign addressed the various components of a physically and 
psychologically healthy lifestyle to reduce holiday stress.
    Beginning January 1, 2014, Navy commands are now required to 
complete Operational Stress Control skills training within 6 months of 
deployment. This provides units tools to build sailor resilience and 
command readiness.
   transition assistance program/transition goals, plans, and success
    Transition Goals, Plans, and Success (GPS) replaced the 20-year-old 
Transition Assistance Program (TAP). The development and implementation 
of this initiative to extend the continuum of care to retirement, and 
well beyond, was a collective effort involving all Military Services. 
Created by the Office of the Secretary of Defense, with full 
participation by the Department of Veteran's Affairs, Department of 
Labor, and the Small Business Administration, Transition GPS increases 
sailors' abilities to overcome challenges they may face in pursuit of 
their chosen civilian career path. Transition GPS is a reinvestment in 
our citizen-sailors, and by providing ready, skilled, and service-
oriented workers, we become a stronger Nation.
    The Navy Transition Assistance Program is currently executing a 
strategic shift that vastly increases the resources, training, and 
professional assistance to those personnel who are transitioning out of 
the service. This program is focused on a common set of life skills and 
then tailored to an individual's plan for a civilian job, higher 
education, or entrepreneurship. It is important, as we assist our 
personnel in a life transition, that we ensure they are receiving the 
information and opportunities that better assist them as they shift 
into civilian life.
                               conclusion
    Today's sailor is perceptive, intelligent, and devoted to our 
country. I am confident that these outstanding men and women will 
continue to ensure the strength, power and worldwide presence of our 
Force. As a result, your Navy will continue to play a pivotal role in 
worldwide security. Sailors and their families endure the challenges of 
multiple deployments and household moves all over the world. They miss 
anniversaries, births of children, funerals, and countless holidays, 
all while balancing the struggles of operational demands and putting 
life and limb at risk in service to the Nation.
    It is my hope that the decisions of Congress will continue to 
ensure that our sailors' pay and benefits remain competitive to sustain 
the All-Volunteer Force, today and into the future. Such efforts, once 
executed, will enable us to continue to provide a quality of service 
commensurate to the sacrifices our sailors and families make daily.
    On behalf of the men and women of the U.S. Navy and the families 
who so faithfully support them, I sincerely thank you.

    Senator Gillibrand. Thank you.
    Chief Master Sergeant of the Air Force James A. Cody.

        STATEMENT OF CMSAF JAMES A. CODY, U.S. AIR FORCE

    Sergeant Major Cody. Chairwoman Gillibrand, Ranking Member 
Graham, although I know he had to step out, and certainly 
distinguished members of the subcommittee, I thank you for this 
opportunity to speak with you today. It is my absolute honor to 
be here with my fellow Service senior enlisted advisors as we 
represent the fine men and women who serve our great Nation. I 
sincerely appreciate the opportunity to share with you the 
concerns of not just the enlisted force but the 690,000 total 
force airmen and their families serving in the Active Duty, the 
Air National Guard, the Air Force Reserve, and our civilian 
workforce.
    America's airmen continue to generate the greatest Air 
Force the world has ever known. They are innovative, dedicated, 
and passionate men and women who understand freedom does not 
come without a cost. It must be fought for and won.
    Throughout the last 20-plus years of sustained operations, 
they have continued to dominate in the multidimensional 
battlefield of air, space, and cyber space. They have never 
wavered from their commitment to serve our Nation, and they 
have continuously demonstrated our core values of integrity 
first, service before self, and excellence in all we do.
    Even as they confront one challenge after another, this 
past year our Air Force has faced challenges on multiple 
fronts. We pushed through a period of sequestration, which 
forced us to stand down flying squadrons, furlough civilians, 
limit morale, welfare, and recreation services, and reduce and 
in some cases eliminate important education and training 
opportunities. We have endured a government shutdown and 
significant uncertainty in turn with respect to mission 
capability, compensation, and the meaning of service in the 
world's greatest Air Force. There is no question the past year 
has been extremely stressful on all members of our Air Force.
    This year brings continued stress and continued uncertainty 
as we move toward a new normal operational tempo and fiscal 
reality. We are currently taking action to significantly reduce 
the size of the Air Force by more than 16,000 airmen who have 
proudly dedicated their lives in service of our great Nation. 
Our airmen continue to move forward without answers to many 
questions on future compensation and benefits. While these 
actions and compensation reforms are absolutely necessary to 
ensure critical modernization and to restore force readiness, 
the combined impact brings continued uncertainty and stress on 
our airmen.
    Transparency and communication amongst our airmen and 
families will be critical as we move forward. We cannot forget 
that our Air Force is powered by people, airmen who clearly 
give us the advantage.
    Throughout the past year, I have traveled to multiple bases 
to visit tens of thousands of airmen and their families, and I 
can tell you candidly the challenges and continued uncertainty 
are not lost on the force. However, regardless of the 
uncertainty, you will be proud to know the first concern of our 
airmen is mission accomplishment. They are truly doing amazing 
work around the world every day.
    In 2013 alone, U.S. airmen flew over 27,000 intelligence, 
surveillance, and reconnaissance missions, removing 1,500 enemy 
combatants from the fight. They flew more than 27,000 air 
support air sorties, launched 8 national security space 
missions, dropped 11 million pounds of combat-enabling 
sustainment to coalition forces on the ground in Afghanistan, 
and airlifted 5,133 wounded soldiers, sailors, airmen, marines, 
and injured civilians around the globe. Additionally, they 
maintained a continued presence of nearly 23,000 airmen in the 
U.S. Central Command region and supported combatant commanders 
in all corners of the globe with more than 217,000 airmen.
    Tragically, the commitment to preserve freedom comes at a 
cost. In 2013, we lost 176 young men and women who proudly 
answered the call to serve. Today, we have more than 3,000 
wounded warrior airmen enrolled in our recovery care program, 
240 of those airmen still serving on Active Duty. Our airmen 
have faced and overcome challenges at every turn and continue 
to serve honorably and proudly in defense of our Nation. They 
count on your leadership to ensure they can continue to win the 
fight for America.
    Our Air Force families are also a critical component of our 
success. My wife, Athena, who joins me today has visited with 
thousands of these families over the last year, and I would 
tell you she has witnessed firsthand their passion and 
commitment to support their member who serves. The commitment 
to our Nation is not lost on any of them, but we cannot forget 
who generates us every day. They serve alongside each and every 
one of us. They see loved ones deployed to war zones and 
foreign countries. Their faith and support is critical to our 
airmen and enable the force to focus and maintain a dedicated 
mission accomplishment. Our airmen and families are our most 
important resource.
    We must remain committed to fostering a culture of dignity 
and respect and to ensuring an environment where all airmen 
have the opportunity to excel. In order for airmen to continue 
to serve as leaders and warriors for America, we must also 
remain focused on recruiting, retaining, training, developing, 
and supporting a world-class All-Volunteer Force.
    I thank you for your continued support, and I look forward 
to your questions.
    [The prepared statement of Sergeant Cody follows:]
            Prepared Statement by CMSAF James A. Cody, USAF
                              introduction
    Chairwoman Gillibrand, Ranking Member Graham, members of the 
subcommittee, thank you for your continued support and commitment to 
the men and women who serve in our military. It is my absolute honor to 
join my fellow service senior enlisted advisors as we represent those 
men and women who have raised their right hand in dedication to their 
nation.
    America's airmen continue to generate the greatest Air Force the 
world has ever known. They are innovative, dedicated, and passionate 
men and women who understand freedom does not come without a cost; it 
must be fought for, and won. Throughout the last 20 plus years of 
sustained operations, they have continued to dominate in a multi-
dimensional battlefield of air, space and cyberspace. They have never 
wavered from their commitment to serve our Nation, and they have 
continuously demonstrated our core values of Integrity First, Service 
Before Self and Excellence in All We Do. In order for airmen to 
continue to serve as leaders and warriors for America, the Air Force 
must remain focused on recruiting, retaining, training, developing, and 
supporting a world-class, All-Volunteer Force.
                            force management
    The Air Force faces a significant challenge over the next several 
years as we move toward a new normal of operational tempo and fiscal 
constraints. We must significantly reduce the Total Force end strength 
from 503,400 to 483,000 proud airmen to meet DOD strategic guidance for 
a leaner force. Our Active Duty military end strength will drop 16,700, 
from 327,600 to 308,800. Our Air Force Reserve military end strength 
will decrease by 3,300 to 66,500, and Air National Guard military end 
strength will decrease by 400 to 103,600. To reach these numbers, we 
are instituting multiple voluntary and involuntary programs that have 
been structured in a logical, deliberate and responsible manner, with 
voluntary programs available first. These programs are not quick fixes, 
but rather a tailored effort comprised of many initiatives aimed at 
managing the long-term health of the force along a continuum of 
service. They are necessary to facilitate critical modernization and 
restore force readiness. The capabilities and credibility of our Air 
Force to meet our core missions are essential to national defense, and 
these efforts support that end.
    We recognize how difficult these actions are on our airmen and the 
importance of transparency during this process. Air Force senior 
leaders announced the programs as early as possible to ensure airmen 
and their families had time to plan for their future. All airmen have 
been individually notified of their vulnerability for voluntary and 
involuntary force management programs. We also understand the 
importance of communication and support for our airmen and their 
families. Through a deliberate communication effort, supervisors down 
to the unit level understand they must stay well versed on the 
different force management initiatives and how they affect their team. 
We are committed to sitting down with each individual airman to talk 
through options and refer them to support agencies as appropriate. As 
we push forward through the turbulent road ahead, our commitment to our 
fellow airmen and their families will assuredly serve as the fabric 
that holds us together.
                         transition assistance
    As we manage the reductions to end strength, we must continue to 
focus on support for our airmen transitioning to the civilian sector. 
The Airman and Family Care Division has been largely focused on the re-
designed Transition Assistance Program (TAP), which includes pre-
separation counseling, attendance at a Department of Labor Employment 
Workshop, Veterans Affairs benefits briefings, and a Capstone that 
validates career readiness standards have been met and that the 
servicemember is ready to transition to the private sector.
    The number of airmen transitioning as a result of the force 
management programs will be over and above the 32,000 to 35,000 airmen 
our Airmen and Family Readiness Centers (A&FRCs) process each year 
(fiscal year 2013 throughput was 33,422). Our A&FRC team is taking 
additional steps to ensure all airmen separating or retiring attend 
TAP. Some initiatives include increasing the frequency of courses at 
each installation, increasing the class size, coordinating with 
partnering agencies to brief additional TAP courses as needed, 
providing the Air Force community (to include family members) 
information about TAP and contacting airmen to sign them up for TAP.
                        recruiting and retention
    The Air Force Recruiting Service (AFRS) has successfully met All-
Volunteer Force requirements for the past 14 years and is currently 
positioned to meet both fiscal year 2014 and fiscal year 2015 
requirements. This fiscal year, over 11,000 of America's young men and 
women have completed or are currently attending Air Force Basic 
Military Training (BMT). Additionally, there are approximately 9,000 
recruits already contracted to attend BMT. AFRS has placed the right 
airmen into the right jobs and at the right time to fill the Initial 
Skills Training pipeline with the number of airmen necessary to meet 
career field requirements across the Air Force. Despite a shrinking 
pool of age-qualified youth, a decreased propensity to serve in the 
military and reduced budgets, we continue to recruit the best and 
brightest our Nation has to offer. Currently, 99 percent of our 
recruits are high school diploma graduates and 18 percent have at least 
15 semester hours of college. This punctuates the Air Force commitment 
to produce a high-quality enlisted corps capable of meeting the 
challenges of today and tomorrow.
    During these unprecedented budgetary times, it is imperative we 
continue to invest in programs that attract the high-quality applicants 
the Air Force requires to meet evolving career field needs. The Air 
Force budget for recruiting includes funding for day-to-day operations, 
personnel costs, and advertising activities necessary to accomplish the 
recruiting mission. In recent years, recruiting budgets have seen a 
steady decline in available funding. Fewer advertising dollars have 
created inefficiencies that have evaporated Air Force awareness 
activities in entire markets. A critical component of our recruiting 
success is .built on a foundation of strong community relationships 
that take years to cultivate.
    The Air Force has continued to experience high retention trends 
over the past 10 years, with the enlisted retention trend remaining 
very strong in fiscal year 2013. Even with the upcoming reductions in 
end strength, there are still critical and emerging career fields, 
including battlefield and cyberspace airmen, that are experiencing poor 
retention, low manning and/or high operational demands. To offset this 
challenge, airmen associated with these skills are not targeted in the 
fiscal year 2014 force management programs, and there are numerous 
efforts to increase career field health. These include Special and 
Incentive (S&I) and Bonus pays, protections from force management 
programs, and increases to accessions, retraining and promotions. 
Enlistment and re-enlistment bonuses continue to be effective means to 
maintain positive recruitment and retention levels for critical skill 
career fields. The Initial Enlistment Bonus (IEB), Selective 
Reenlistment Bonus (SRB), Critical Skill Retention Bonus (CSRB), and 
the Air National Guard Incentive Program are all effective and 
measurable retention tools that have successfully encouraged airmen to 
stay and/or retrain into career fields with high demand requirements.
                          compensation reform
    The compensation of our servicemembers has risen significantly over 
the last decade. As a result, we've recruited and retained quality 
airmen who continue to power the world's greatest Air Force. These 
airmen are not overcompensated; they have earned every dollar. However, 
in light of projected constraints on future defense spending, including 
sequestration-level cuts fiscal year 2016 and beyond, we must slow the 
growth of military compensation in order to avoid deeper reductions to 
force structure, readiness, and modernization efforts critical to 
support the warfighter and national defense.
    The Air Force, in conjunction with the Department of Defense, is 
supportive of the Military Compensation and Retirement Modernization 
Commission in its review of potential compensation system reforms and 
study the impact on the All-Volunteer Force. The Air Force concurs that 
there is sufficient information available to make recommendations on 
key areas of current compensation (other than retirement) to slow the 
growth of military pay and benefit costs, starting with the fiscal year 
2015 budget, in order to permit a balanced drawdown in defense 
spending. For major modifications to the compensation system, we 
recommend reviewing the Commission report first to ensure it supports 
the sustainment of a highly skilled and capable All-Volunteer Force.
                    deliberate development of airmen
    The deliberate development of our airmen remains a top priority. It 
is absolutely critical if we are to ensure the force remains prepared 
to meet current requirements and the challenges we will undoubtedly 
face in the future. Investment in education, training, and experience 
are essential to meeting the demands of the combatant commanders our 
airmen serve around the world; the success of yoAir Force is clearly 
attributed to how well these airmen are prepared to handle the tasks 
those commanders need them to execute. We will continue to assess what 
commanders require of Joint Force warrior airmen and ensure we have the 
plans and policies in place to meet current and future expectations.
                enlisted professional military education
    In fiscal year 2013, we took several steps to ensure we deliver 
enlisted airmen the highest quality professional military education, 
while simultaneously mitigating the challenges of the current fiscal 
environment. We began the first online facilitated distance learning 
Chiefs Leadership Course, a 1-year intensive education initiative for 
all new Chief Master Sergeants to strengthen their leadership and 
management skills as they take on critical roles in our Air Force. 
Additionally, we entered the first stages of a blended learning 
approach to SNCO and NCO Professional Military Education. The blended 
approach delivers the most current and relevant education in an online, 
learner-centric format followed by a shorter in-residence learning 
experience, which expands on current knowledge through group dynamics 
and problem solving. In December 2013, 36 senior noncommissioned 
officers graduated from the first blended learning SNCO Academy course. 
The overwhelming sentiment from the experience proved the course was 
challenging and rewarding with extended opportunities for dialogue and 
leadership reflection.
                     airmen education opportunities
    The Air Force has the most educated enlisted force in the world. 
Every airman entering service is automatically enrolled in an associate 
of applied science degree program through the Community College of the 
Air Force (CCAF). Since April 25, 1977, CCAF has awarded more than 
427,000 degrees that correspond to each member's career field. Many 
view the CCAF degree as the start of their path toward higher 
education. Currently, more than 22,000 enlisted airmen have bachelor's 
degrees or higher and 26 have earned a doctorate degree.
    Air University's Associate-to-Baccalaureate Cooperative is helping 
airmen who have completed CCAF degrees apply those credits toward a 
bachelor's degree. This program has grown to encompass 55 civilian 
university partners offering 200 bachelor's degree programs. Over 
23,000 airmen have participated and 1,735 bachelor's degrees have been 
awarded through this program alone. Additionally, 46 of these graduates 
have become commissioned officers.
    We are also focused on professional credentialing to broaden the 
development of our airmen. The Airframe and Power-Plant licensing 
program is one of several credentialing and licensing initiatives that 
codify the training and experience for over 75,000 aircraft 
maintainers, enabling them to earn the Federal Aviation 
Administration's mechanic license. CCAF is currently engaged in 
developing credentialing and licensing pilot programs and policies that 
support the White House Veterans Employment Initiative, the DOD 
Credentialing and Licensing Task Force, and the National Defense 
Authorization Act for Fiscal Year 2012, section 558 mandate. We are 
convinced that opportunities like these directly increase Air Force 
recruitment and retention as well as enhance our airmen's professional 
capabilities. Our focused efforts result in highly capable airmen ready 
to contribute to our Nation's defense and equipped for professional 
life outside of the Air Force. We continue to explore new programs that 
enhance our ability to educate the force, being keenly aware of the 
associated costs and need to seek efficiencies.
    The Military Tuition Assistance (MilTA) program is a force 
multiplier that not only affects recruitment, retention, and readiness, 
but leads to greater critical thinking skills across the enlisted 
force. In order to sustain this valuable program within the fiscal 
environment and ensure airmen are receiving the right education at the 
right time, the Air Force instituted management controls for the use of 
MilTA. The first was to re-insert the supervisor into the approval 
process. This allowed supervisors the opportunity to get to know their 
airmen's educational goals and provide mentoring. Additionally, airmen 
who have not passed or are overdue for their Physical Fitness Test, 
have an Unfavorable Information File, or have a referral annual 
performance report are ineligible for MilTA until these issues are 
resolved. We believe these controls ensure airmen are prepared to 
succeed in their degree program as well as continue their critical work 
in the defense of our great nation. Our focused efforts result in 
highly capable airmen ready to contribute to our Nation's defense and 
equipped for professional life outside of the Air Force.
                      developmental special duties
    We continue to make deliberate development decisions throughout an 
airman's career with regards to promotions and assignments, and are 
actively identifying ways to ensure we have the right airman, at the 
right place in his or her career, at the right time for our Air Force. 
In calendar year 2013 we formalized 10 Developmental Special Duties 
that directly impact the growth of our enlisted force and provide the 
broader experience airmen need to succeed in different roles throughout 
their careers. Airmen throughout the force are nominated for these 
positions based on their previous experience and future potential. In 
November 2013, we selected approximately 1,100 staff sergeants, 
technical sergeants, and master sergeants to serve as Military Training 
Instructors, Recruiters, USAF Honor Guardsmen, First Sergeants, 
Professional Military Education Instructors, Career Assistance 
Advisors, Technical Training Instructors, USAFA Military Trainers, 
Military Training Leaders, and Airman and Family Readiness Center NCOs. 
These airmen were nominated by their MAJCOM leadership and selected 
from a pool of approximately 7,500 nominees. They are some of our best 
airmen--the first to be hand-picked for these roles under the new 
process and will now be in a position to leverage their proven 
performance across the force.
                    airman comprehensive assessment
    A critical aspect of deliberate development is quality, 
comprehensive feedback that guides airmen toward established goals. In 
the coming months we will introduce the Airman Comprehensive Assessment 
(ACA) that facilitates a deep, meaningful conversation between 
supervisors and the airmen they lead. It includes a self-assessment, a 
detailed evaluation of current performance, and specific questions 
geared toward airmen-centered feedback. The form will ensure airmen 
understand their critical role in organizational climate, as well as 
Air Force culture, support of the mission, and individual readiness and 
resiliency.
                     caring for airmen and families
    Caring for airmen and their families is about maintaining the 
source of airpower. Our airmen are the engine that keeps the force 
moving, and we rely on them to meet any challenge and overcome any 
obstacle. The hallmark of our success has always been, and will remain, 
our people. Unfortunately, in the current fiscal environment, we must 
make tough decisions to include reducing or cutting some programs. To 
help mitigate the impact of reduced funding, the Air Force prioritized 
its programs to resource those most valued from an enterprise-wide, 
mission accomplishment perspective. As we move forward and our force 
changes, we must adapt our programs and services to ensure we meet the 
needs of today's airmen and their families.
                 sexual assualt prevention and response
    Last summer, the Air Force established a multi-functional Air Force 
Sexual Assault Prevention and Response Office--a directorate-level 
organization, led by a general officer whom reports directly to the Air 
Force Vice Chief of Staff. This office leads a robust focus on sexual 
assault prevention, advocacy, investigation, accountability and 
assessment and enables the Air Force to better synchronize with the 
Department of Defense lines of effort. As a result, the Air Force has 
been able to provide broader, more comprehensive victim support. The 
Air Force has also benchmarked a Special Victim's Counsel Program. It 
is through this program that victims of sexual assault have personal, 
direct access to an attorney representing only their interests in the 
judicial process as well as advocating for them in any collateral 
discipline issues and assisting them in any case issues whenever 
necessary. Additionally, ``Every Airman Counts'' is an initiative that 
our Air Force Vice Chief of Staff, General Larry O. Spencer launched as 
a forum to promote airman-to-airman dialogue related to Sexual Assault 
and provide the opportunity for airmen to provide suggestions to senior 
leaders. Furthermore, the Air Force hired d trained Air Force Office of 
Special Investigations agents for the exclusive purpose of 
investigating sexual assaults. The Air Force team has already conducted 
focus groups with 1,400 airmen, including 30 sexual assault survivors, 
male and female, at 14 installations worldwide and obtained valuable 
insight from the junior airmen, all levels of leadership, and survivors 
of sexual assault. Lastly, the Air Force Sexual Assault Prevention and 
Response Office works jointly with its Department of Defense 
counterparts to streamline future survey efforts, to include a 100 
percent transition to the Defense Equal Opportunity Climate Survey. We 
are committed to taking every step possible to eliminate sexual assault 
within our ranks and instill confidence and care in the process.
                       care for wounded warriors
    Our combat wounded and our seriously injured and ill airmen and 
their families are a top priority. They continue to willingly sacrifice 
day-in and day-out to serve our Nation; their resilience and 
perseverance when the effects of war forever alter their lives is 
simply astounding. We match their commitment through a lifelong promise 
to provide them the care and support they need, and so rightfully 
deserve. The Air Force has built a Recovery Care program for these 
airmen that focuses on the full continuum of care--recovery, 
rehabilitation, and transition.
    By strategically placing Recovery Care Coordinators in 43 locations 
around the world, the airmen and their families receive face-to-face, 
individualized service and support when and where they need it. Our 
commitment is unwavering whether our wounded, ill, or injured airmen 
are returning to active service or transitioning to civilian life. The 
Recovery Care Coordinators also support the families and caregivers of 
our airmen by identifying needs, connecting with support groups, and 
working to ease the burden brought on by their current circumstance.
    Along with our Recovery Care Coordinators, the Air Force provides 
non-medical care managers who act as fiduciary agents on behalf of the 
recovering airman and as advocates for the recovering airman and his or 
her family with other government and non-governmental agencies. They 
work with recovery care coordinators, medical care providers, 
chaplains, commanders and other providers as a single Recovery Team 
that meet the needs of our wounded, ill, and injured and their 
families.
                     post-traumatic stress disorder
    As might be expected with fewer deployments, the Air Force has seen 
a slight drop in newly diagnosed Post-Traumatic Stress Disorder (PTSD) 
cases between 2011 and 2012. Our data is not yet complete from 2013, 
but we expect the slight reductions to continue. Our overall rate has 
remained relatively low, and our current rate for newly diagnosed PTSD 
is under 0.4 percent. Historically we have retained approximately 75 
percent of our airmen diagnosed with PTSD.
    The Air Force remains committed to helping our airmen through 
improving early symptom recognition and offering evidence-based 
treatments. We continue to screen our airmen for PTSD symptoms at set 
points in the deployment cycle, to include screening through Pre- and 
Post-Deployment Health Assessment and Reassessment, and provide 
training to help counter the stresses on our airmen with each 
deployment. Our airmen in the Explosive Ordnance Disposal, Security 
Forces, Medical, and Transportation career fields are at higher risk of 
developing PTSD and receive additional education and training on how to 
recognize symptoms of PTSD along with available treatment and 
supportive resources. The Deployment Transition Center (DTC), Ramstein, 
Germany, continues to support airmen in our high-risk careers with 2 
days of training and reconstitution time before returning home. A 2010 
study showed airmen who participated in the DTC reported at least a 6 
percent lower rate of post-traumatic symptoms, problematic alcohol use 
and interpersonal conflict after having attended the program as 
compared to a control-group of deployed airmen who did not participate. 
Two follow oil studies. are being conducted to measure the continued 
effectiveness of the DTC. We continue to collaborate with the 
Department of Defense and Veterans Affairs to advance research on 
prevention and treatment of combat related injuries, including PTSD.
                         traumatic brain injury
    Traumatic Brain Injury (TBI) rates in the Air Force remain very 
low. However, we are expanding our efforts to ensure our airmen seek 
medical care for mild traumatic brain injury, or concussion, in any 
setting. The vast majority ofTBI cases in the Air Force are from 
nondeployment related injuries. We identify deployed individuals with 
continued TBI symptoms upon return home through the Post Deployment 
Health Assessment, with referral as appropriate. The Defense Centers of 
Excellence for Psychological Health and Traumatic Brain Injury and 
Defense and Veterans Brain Injury Center continue to serve as valuable 
partners in facilitating a combined effort between all Services, the 
Department of Veterans Affairs and civilian subject matter experts to 
develop clinical practice guidelines for our primary care providers. 
Our efforts are closely coordinated with the other Services through our 
TBI Quad Service Working Group to make sure we incorporate the latest 
in TBI research into clinical practice. The National Intrepid Center of 
Excellence for Psychological Health and Traumatic Brain Injury serves 
as a premier referral center for those deployment-related cases with 
more significant symptoms.
                           suicide prevention
    Suicide prevention remains a high priority for Air Force leadership 
at every level. Our prevention program is an integrated network of 
measures focused on reducing suicide through community support, 
education, early identification and treatment of those at risk. The 
program was designed with 11 overlapping elements to enhance the 
capacity of the Air Force to recognize and respond to airmen in 
distress. We are encouraged that the number of suicides among Active 
Duty airmen declined between 2012 and 2013. However, we know one loss 
is too many, which drives us to place significant focus and resources 
toward eliminating suicides in our force.
    We are committed to strengthening and improving our program. Some 
recent suicide prevention initiatives include live training for all 
installation suicide prevention program managers and Department of 
Defense Suicide Event Report Point of Contacts, release of the revised 
Air Force Guide to Suicide Risk Assessment, Management, and Treatment 
for mental health providers and staff, and efforts to expand the Air 
Force's strategic communication plan for suicide prevention and 
promoting the Wingman Culture.
                            health promotion
    The Air Force is committed to promoting a healthy, fit, resilient, 
and productive force. Our Health Promotion target areas include Tobacco 
Free Living, Nutritional Fitness, Physical Activity, and Healthy 
Weight. Consistent with our warfighting mission, our airmen have rates 
of obesity and physical activity that compare quite favorably with the 
civilian population. Smoking has seen a steady decline; our current 
smoking prevalence of 14 percent is lower than the national average of 
18 percent. In the current fiscal climate, we are committed to 
implementing low-cost, high-reach policy and environmental 
interventions that promote healthy living as the default choice and 
social norm.
                  child and youth development programs
    The Air Force has continued our commitment to deliver readily 
available, affordable, and quality childcare programs for our airmen 
and their families. These programs ensure our airmen are able to focus 
on the mission while knowing their youngest family members are cared 
for through quality Child & Youth programs. In fiscal year 2013 we 
delivered high quality child care programs to 58,000 children.
    In addition to brick and mortar facilities, our Air Force Expanded 
Child Care program provides assistance in a home-based setting for 
airmen who need care during unusual shifts, extended duty hours, and 
drill weekends. This type of care is mission-critical particularly in 
those locations where community-based care options are both few and 
costly. Through programs like Extended Duty Care, Missile Care, 
Supplemental Care, and Returning Home Care, the Air Force is able to 
provide a wide range of support to our Active and Reserve component 
families. We expanded this capability in fiscal year 2013 by 
implementing new childcare programs to assist wounded warriors, 
families of the fallen and those with unique needs due to medical 
circumstances.
    Additionally, our Air Force Youth Programs have taken a 
comprehensive approach to resiliency by integrating elements of 
resilience concepts throughout the experiences we provide to youth. We 
recognize the importance of providing meaningful opportunities during 
the out-of-school hours which can be peak times for ``at risk'' 
behavior, particularly in light of reduced school district and 
community service budgets. Our Youth Programs had 642,000 enrollments 
in a variety of fitness and health, deployment support, resiliency 
building, academic enrichment and community service activities offered 
to Total Force youth around the world. The Air Force Teen Council 
continues to offer advocacy opportunities and leadership skills while 
helping our teens strengthen their personal resiliency and contribute 
to the larger Air Force community. The newly implemented quarterly Teen 
Movement Projects have created a network of involved teens at each 
installation. New for 2013, our Youth Program members participated in 
the first ever Military Youth of the Year competition, an initiative in 
partnership with the Boys and Girls Clubs of America. Showcasing the 
stellar achievements of military teens around the world, Air Force 
teens were awarded an astonishing five out of six regional awards 
garnering a combined total of more than $70,000 in Military Youth of 
the Year scholarships.In addition, through another key partnership with 
the U.S. Department of Agriculture's 4-H Youth Development Program, 
over 1,000 Air Force youth participated in the 2013 National Youth 
Science Day event and we were able to reach 14,000 additional youth 
through partnership with 4-H county extension agents.
                             family support
    The Air Force continues to bolster its communication to family 
members through the Key Spouse Program. The program designates one 
volunteer family member in each unit to disseminate information from 
installation leaders to other unit family members. This builds a 
greater sense of community, especially when families are separated by 
deployments.
    Additionally, the Air Force is making steady progress in support of 
Air Force dependents attending public, private, DOD Dependent Schools, 
home, and virtual schools. Civilian (or Military designee) school 
liaisons and staff at our Airman & Family Readiness Centers provide 
support to base leaders and families through advocacy with local and 
state school administration and school boards. Forty-six States and the 
District of Columbia have passed legislation to establish an Interstate 
Compact on educational opportunity for military children in State and 
local school districts. The Interstate Compact ensures military 
children are not negatively impacted in school by their families' 
service to the Nation. It provides educational solutions on class 
placement, records transfer, graduation requirements, immunizations, 
and exit testing, as well as allows late entry to extra-curricular 
activities and sports teams. The work done to ensure our families are 
not penalized as they move around the world is an important factor for 
our airmen and their families.
    About 50 percent of Air Force spouses seek employment with each 
military move, making spouse employment a consistent challenge. In many 
cases spouse employment constitutes almost half of an Air Force 
family's income. As I travel and meet with airmen and their families, 
the struggle to find spouse employment is often a topic of 
conversation; it is very much on our airmen's minds. They have 
benefited from your support and White House efforts to help military 
spouses enjoy consistent and productive careers despite relatively 
frequent relocation.
    Unemployment compensation for spouses of servicemembers continues 
to be critical to Air Force families. Support for unemployment 
compensation acknowledges military spouses need reasonable time and 
resources necessary to find suitable employment or meet licensing or 
credentialing requirements each time they move. We look forward to all 
States properly compensating spouses that move because of their 
military obligation.
    Our Exceptional Family Member Program (EFMP) provides targeted 
assistance to airmen who have family members with special needs. In 
fiscal year 2013, we continued strengthening this program to provide 
our families with access to greater resources that will assist them in 
effectively balancing mission requirements with family care 
responsibilities. We have 35 full-time family support coordinators at 
Air Force installations with 175 EFMP enrollees or higher. In fiscal 
year 2011, Respite Child Care was launched at seven locations to 
provide support to parents of exceptional family members. The program 
is now in 64 locations and has provided over 37,000 hours of skilled 
respite care allowing parents a needed break from the stressors of 
caring for a child with special needs. Through the generous support of 
the Office of the Secretary of Defense, 100 accessible childcare 
playgrounds and community nature parks are in various stages of design 
and construction and will support family members with special needs.
                               conclusion
    Chairwoman Gillibrand, Ranking Member Graham, members of the 
subcommittee, thank you again for this opportunity to represent the 
incredible airmen and their families through this testimony. This past 
year has been extremely turbulent and stressful on those serving in our 
Air Force. All members--Active Duty, Air National Guard, Air Force 
Reserve, and civilian airmen--have endured significant uncertainty and 
churn with respect to mission capability, compensation, and in some 
cases the very meaning of service in our Air Force. The budget 
challenges we face have not been lost on our force. We've stood down 
flying squadrons, furloughed civilians, and seen our readiness levels 
significantly decline; yet you would be proud to know the first concern 
of our airmen is mission accomplishment. Our airmen are truly doing 
amazing work around the world every day, from delivering relief to 
typhoon stricken regions in the Philippines to supporting combatant 
commanders from all comers of the globe. They continue to serve 
honorably and proudly in defense of our Nation.
    Our Air Force families are also a critical component to our 
success. These men and women serve alongside the servicemember by 
taking care of the home front while we employ and enable airpower 
around the world. They stand strong while loved ones deploy to war 
zones in foreign countries. Their faith and support is critical to our 
airmen and enable the focus and dedication our complex missions 
require. Thank you again for your continued support for our brave 
airmen and their supportive families.

    Senator Gillibrand. Sergeant Major of the Marine Corps 
Micheal P. Barrett.

  STATEMENT OF SGTMAJMC MICHEAL P. BARRETT, U.S. MARINE CORPS

    Sergeant Major Barrett. Chairwoman Gillibrand, Senator 
Kaine, good afternoon. This is my fourth opportunity to address 
Congress and discuss important quality of life issues, 
personnel issues, and our commitment to our marines and their 
families. It is my privilege to appear before you today.
    The last 12 years have been most challenging. We are 
profoundly grateful for your fidelity and support.
    As you are well aware, the global environment is not 
getting any nicer. Clever enemies are searching for windows of 
vulnerability and to exploit our liberties and our security. 
With the fiscal constraints we are enduring, we must, more than 
ever, stay committed to our recruiting and our retention, and 
making marines. Our warfighter readiness, being most ready when 
our Nation is least ready. Care for our wounded, ill, and 
injured, and our family care programs, preserving strong 
families. Transition readiness, returning quality citizens 
after their selfless service. Combating social ills, 
prevention, accountability, treatment, and resiliency. 
Maintaining our facilities, sustainment, restoration, and 
modernization for our billions of dollars worth of 
infrastructure.
    Today, I report more than 37,000 marines are forward 
deployed, forward engaged, shaping, training, and deterring 
aggression around the globe, supporting all 6 geographic 
combatant commanders. We are providing our Nation the 
capability to contain crisis, fill the gap, or hold the line. 
We may be done with Afghanistan this year, but those that we 
have been fighting are not done with us.
    At our core, the Marine Corps is the Nation's crisis 
response force, and fulfilling this role is our top priority. 
We have met and continue to meet our obligations in current 
conflicts, emerging crises, and steady state operations. To 
that point and most recently, your marines' efforts have saved 
lives, provided much needed relief, and evacuated over 19,000 
victims ravaged by Typhoon Haiyan. Our special purpose marine 
air ground task force crisis response successfully executed a 
non-combat evacuation operation in South Sudan and provided 
reinforcements to other U.S. embassies. We have participated in 
hundreds of theater security cooperation activities with the 
armed forces of more than 50 partner nations. The 13th, 22nd, 
and 31st Marine Expeditionary Units are afloat, and they stand 
ready as a rapid response force capability providing stability 
in their area of responsibility. We continue to stand alongside 
the Afghan National Security Forces engaged in combat, 
conducting counter-insurgency and security force assistance 
advisory missions.
    Marines can face America's adversaries on the front line or 
respond to any emerging crisis because of the care and support 
we provide our families on the homefront. With the progress 
that we have made in our warfighting capabilities and marine 
family readiness programs over this past decade-plus and as we 
draw to move to a post-Operation Enduring Freedom environment, 
the Corps remains committed to building the most ready force 
our Nation can afford, balanced across our pillars of 
readiness: high quality people, unit readiness, the capability 
and capacity to meet the combatant command requirements, the 
infrastructure sustainment, and equipment modernization.
    We are proud of our reputation for frugality and remain a 
best value for our country's defense. In these times of budget 
austerity, you can hold high expectations for your Marine Corps 
to be good stewards of taxpayer dollars.
    The Marine Corps will continue to meet the needs of the 
combatant commanders as a strategically mobile force optimized 
for forward presence and be the crisis response force of choice 
for our leadership. We may have less, but it does not mean we 
will be doing less nor will we do it any less than best.
    Thank you for the opportunity to testify today.
    [The prepared statement of Sergeant Barrett follows:]
        Prepared Statement by SgtMajMC Micheal P. Barrett, USMC
    Chairwoman Gillibrand, Ranking Member Graham and distinguished 
members of this subcommittee, I appreciate the opportunity to provide 
you an update on the Marine Corps' commitment to our marines and their 
families.
    The Marine Corps has and will continue to stand ready to face any 
challenges that need to be conquered to complete our Nation's missions. 
We remain a forward-deployed, forward-engaged force. The Marine Corps 
is continuing to shape, train, and deter aggression. We are responding 
to every crisis, conflict, and contingency around the globe. The Marine 
Corps does this by being prepared--ready and standing at the door of 
chaos with the tools, the people, and the training necessary to do the 
Nation's bidding and providing our Nation's leaders with the time and 
decision space that they require.
                update on marine corps around the world
    The Marine Corps is involved across the world--Afghanistan, the 
Pacific, and U.S. Embassies. I would like to take a moment and 
highlight just a few of the great things our men and women in the 
Marine Corps have been doing to accomplish this Nation's missions 
around the world.

        <bullet> The Marine Corps was part of the U.S. Government 
        humanitarian assistance and disaster relief operations in the 
        Philippines in the wake of Typhoon Haiyan that impacted more 
        than 4.2 million people across 36 provinces. The Marine Corps 
        and Navy were able to be in the Philippines within hours of the 
        Philippine Government asking for international aid. During 
        ``Operation Damayan'', the Marine Corps was able to provide 
        search-and-rescue sorties; transport aid workers; clear roads; 
        evacuate 540 American citizens, 18,767 Philippine citizens, and 
        301 nationals from other countries; and deliver 2,005 tons of 
        relief supplies.
        <bullet> Over the last year, the Special-Purpose Marine Air-
        Ground Task Force Crisis Response has been busy in non-
        combatant evacuation operations (NEOs) such as in South Sudan 
        and providing reinforcement to U.S. Embassies when needed as in 
        the case of Libya.
        <bullet> In Afghanistan, the Marine Corps Security Force 
        Assistance Advisory Teams (SFAATs) (first deployed in 2012) 
        have continually advised and assisted operations alongside 
        Afghan National Security Forces. Additionally, the Marine Corps 
        continues to conduct counterinsurgency (COIN) operations 
        throughout the country.
        <bullet> The 31st and 13th Marine Expeditionary Units (MEUs) 
        have been afloat as a forward-deployed, rapid-response force 
        capability providing stability in their area of operational 
        responsibility.
        <bullet> Throughout the year, the Marine Corps participated in 
        hundreds of Theater Security Cooperation activities with the 
        Armed Forces of more than 50 partner nations supporting all six 
        combatant commands .
        <bullet> The U.S. Marine Corps spearheaded a maritime domain 
        awareness demonstration at the Philippine Coast Guard 
        Headquarters as part of the first Philippine-U.S. initiative to 
        enhance Philippine security and defense capabilities in January 
        2014.

    Whether it is deploying to Afghanistan, assisting in humanitarian 
relief efforts in the Philippines, or working with less due to 
sequestration and government shutdown; the Marine Corps has not 
faltered in its operational readiness or commitment to the task at 
hand. The Marine Corps remains committed to being the most ready force 
our Nation can afford.
    Recently, the Commandant of the Marine Corps and I have led an 
effort to ``reawaken the soul of the Corps'' in order to remind and 
reconfirm who we are, what we do and what America expects from her 
marines. This reawakening will impact our programs to ensure that 
quality of life is at the levels our marines and their families 
deserve. As we draw down in Afghanistan and move toward our role as 
crisis-response, force-in-readiness, we are laser focused in areas of 
discipline, faithfulness, self-excellence, and developing committed 
engaged leaders. The challenge in our efforts is the fiscal burden and 
the uncertainty over the next few years.
    Sequestration and fiscal constraints, global engagements, force 
shaping, and many other environmental conditions impose challenges and 
opportunities. In fiscal year 2015 and beyond, we are beginning to 
realize the effects of budget cuts. As our landscape changes, 
regardless of the funds available every dollar must yield positive 
return and contribute to the readiness of the Marine Corps. We will 
continue to monitor readiness across our Five Pillars of Readiness: 
High Quality People, Unit Readiness, Capability and capacity to Meet 
the Combatant Command Requirements, Infrastructure Sustainment, and 
Equipment Modernization. To protect our readiness under current funding 
levels, we can only do this at the cost of infrastructure sustainment 
and equipment modernization, as well as, assessing the various programs 
and resources we provide to marines and their families and where 
savings can be realized. The decisions were carefully made for the 
current fiscal climate to still meet the needs of the Marine Corps, but 
over time degradation to facility sustainment, restoration and 
modernization and unnecessary negative impacts to the force and our 
families will ultimately suffer.
End Strength
    As we drawdown the Marine Corps' Active component end strength from 
war time levels of 202,000 marines, we have taken deliberate steps to 
construct a force that we can afford to operate and sustain in the 
emerging fiscal environment. Over the past 3 years, we have undertaken 
a series of steps to build our current force plan. In 2010, our Force 
Structure Review Group utilized the Defense Strategic Guidance and 
operational plans to determine that the optimum size of the Active 
component Marine Corps should be a force of 186,800. Under the 
constraints of the 2011 Budget Control Act, we estimated that a force 
of 182,100 Active component marines was realistic. More recently, as we 
entered into the Quadrennial Defense Review, we came to the difficult 
understanding that, under the threat of continued sequestration or some 
variant, an Active-Duty Force of 175,000 marines is what our Nation can 
afford. This end strength is purely budget-driven and accepts risk in 
our ability to carry out major combat operations.
    Our current plan is to achieve a 175,000 end strength by the end of 
fiscal year 2017. We are conducting a measured drawdown with a goal to 
reduce end strength by no more than 7,500 marines per year. This is to 
be accomplished primarily through natural attrition, voluntary 
separation, early retirement authorities, and limited use of 
involuntary separations. We have no plans to conduct a reduction-in-
force. Such an approach would no doubt do significant long-term damage 
to our ability to recruit and maintain a quality force. Our overarching 
goal must be to keep faith with our marines and their families.
    We ended fiscal year 2013 with an end strength of 195,657, achieved 
primarily through increased voluntary attrition of junior enlisted 
marines as well as through the use of programs such as Voluntary 
Separation Pay and Temporary Early Retirement, both of which induced 
additional voluntary attrition from the mid-level enlisted ranks. Our 
end strength goal for fiscal year 2014 is 188,800 marines, 167,823 of 
whom are enlisted, and will be achieved primarily through reduced 
accessions, selective reenlistment, and a continued emphasis on 
voluntary attrition.
Marine Corps Reserve
    Your Marine Corps Reserve is also undergoing a reduction in 
Selected Reserve end strength in order to better align structure with 
budget levels. Our plan is to reduce our Selected Reserve end strength 
from 39,600 to 38,500 marines by fiscal year 2017. The reductions will 
come primarily from the junior enlisted ranks and individual 
mobilization augmentees (IMAs). The Reserve component is currently over 
manned in its junior enlisted ranks and critically undermanned in its 
senior enlisted ranks. Decreasing new accessions will yield a more 
balanced Marine Corps Reserve. Given our reduced Active Component 
manpower needs over the coming years, the requirement for Reserve IMAs 
to mobilize with Active component units is likely to decrease. Overall, 
our force shaping measures will leave the Marine Corps with a more 
balanced Reserve component able to reinforce the Active component and 
serve as an integral part of the Marine Corps Total Force in 
accomplishing its assigned mission as an expeditionary force in 
readiness.
    For fiscal year 2014 and beyond, we continue to refine the use of 
incentives and MOS retraining to strengthen unit staffing in 
specialties and grades where we remain critically short. In particular, 
we have targeted our incentives toward recruiting and retention of 
noncommissioned officers (NCO) and staff noncommissioned officers 
(SNCO) in our Selected Reserve units.
    We continue to face challenges in manning our SNCO billets in the 
SMCR. As the Active component grew its end strength to 202,000, many of 
our junior marines and NCOs left the Reserves for the Active component. 
Had they remained in the Reserves, many of those same marines would 
have been promoted and filled our SNCOs requirements today. While we 
have directed incentives toward retaining our best marines, the SMCR is 
still critically short SNCOs. This SNCO shortage will take 
approximately 6 years to fix as our post-202,000 accessions reach the 
necessary time to be considered for promotion.
Recruiting
    All recruiting efforts for the Marine Corps (officer, enlisted, 
regular, Reserve, and prior-service) fall under the purview of the 
Marine Corps Recruiting Command. Operationally, this provides us with 
tremendous flexibility and unity of command, allowing us to meet 
accession requirements.
    Last fiscal year, we successfully achieved all enlisted recruiting 
goals for both the Active and Reserve components. Our current mission 
for enlisted marines is 25,000 regulars (Active component) and 5,523 
reservists. We expect to achieve our annual recruiting `shipping' 
mission (i.e. new accessions sent to recruit training) and quality 
goals, but budget reductions may impact our contracting efforts and 
capacity to achieve success in fiscal year 2015. The fiscal year 2015 
mission forecast is 28,370 regulars and 5,280 reservists.
    To meet future challenges in the current recruiting environment, it 
is imperative that we maintain our high standards both for our 
recruiters and those who volunteer to serve in our Corps. Recruiting 
quality youth ultimately translates into higher performance, reduced 
attrition, increased retention, and improved readiness for the 
operating forces. Our actions, commitment, and investments today in 
recruiting ensure a high state of readiness in our Corps tomorrow.
Retention
    For fiscal year 2014, the Marine Corps is on track to achieve its 
end strength target of 188,800 Active component marines (and 
approximately 150 reservists who have served on active duty at least 3 
of the previous 4 years). It is vital during our drawdown that the 
Marine Corps continues to shape our force to meet continuing mission 
requirements and fill critical military occupational specialties (MOSs) 
with the most qualified marines. Incentive pays remain critical to this 
effort, allowing the Marine Corps to fill hard to recruit positions, 
such as cyber security technician and counter intelligence specialist. 
Enlistment bonuses also allow us to ship new recruits at critical times 
to balance recruit loads at the depots and meet school seat 
requirements. It is important to note that only 8 percent of new Marine 
Corps recruits receive an enlistment bonus. Similarly, Selective 
Reenlistment Bonuses (SRBs) allow us to shape our career force. SRBs 
target critical MOSs and supports lateral movement of marines to these 
MOSs.
Diversity
    The Marine Corps is committed to attracting, mentoring, and 
retaining the most talented men and women who bring a diversity of 
background, culture, and skill in service to our Nation. In both 
representation and assignment of marines, diversity remains a strategic 
issue. Our diversity effort is structured with the understanding that 
the objective of diversity is not merely to strive for a force that 
reflects a representational connectedness with the rich fabric of the 
American people, but to raise total capability through leveraging the 
strengths and talents of all marines.
    While the Marine Corps' enlisted ranks are quite diverse from the 
standpoint of race and ethnicity, we understand there is a need to 
broaden opportunities for women. Efforts are underway to further 
integrate both female enlisted marines and officers into the Air Ground 
Task Force. Regardless of race, ethnicity and gender, when our enlisted 
marines look at their officers and see themselves reflected among them, 
their level of commitment, their aspirations and their performance can 
be impacted in a positive manner. Thus, the Marine Corps has 
established increased diversity in officer recruiting as a priority in 
our recruiting efforts.
 marine corps maintaining quality of life in current fiscal environment
    Regardless of the decisions that are made regarding the budget, the 
Marine Corps remains acutely aware of the critical relationship between 
quality of life and Marine Corps readiness. Marines can face the enemy 
on the frontline, because of the care and support we provide on the 
home front. Our commitment to the Marine is during their entire 
lifecycle, from boot camp through separation or retirement, and beyond. 
The Marine Corps will continually ensure the long-term stability of 
Marine and Family Programs by using evidence-based practices; ensuring 
our programs meet all credentialing and accreditation to ensure 
consistency of care across the Marine Corps; continually assessing our 
programs; and ensuring that we are strategically communicating to our 
marines and families so they are aware of all resources available to 
them.
    As we continue to draw-down our efforts in Afghanistan and reduce 
our end strength to 175,000, we remain committed to a continuum of care 
by ensuring family readiness and care; supporting families of the 
fallen; caring for our wounded, ill, and injured; providing behavioral 
health services; assisting our marines transition to being successful 
civilians; and continuing to make improvements to infrastructure and 
facilities. In the current and upcoming fiscal years, we remain 
committed to our mission.
    The future of Marine and Family and Quality of Life in the Marine 
Corps will not be served by ``the way it's always been'' mentality or 
returning to pre-combat environments. With changing demographics, 
mission, and environment at hand, the Marine Corps will continue to be 
good stewards of our resources, always be taking and making 
assessments, and improve our efforts where we can for those we serve.
  reawakening the soul of the corps through preventing sexual assault
    The Marine Corps continues to take steps to eradicate sexual 
assault among our ranks. Sexual assault is a shameful and disgusting 
crime that has no place in the Marine Corps. The Marine Corps three-
phase Sexual Assault Prevention and Response (SAPR) Campaign Plan 
(Strike, Implement and Sustain) outlines our efforts to reduce, with a 
goal to eliminate, sexual assaults. Since its inception in June 2012, 
the Marine Corps has addressed sexual assault in multiple areas by 
driving a tremendous infusion of training, restructuring our oversight 
organizations, and assisting senior leadership efforts. Our SAPR 
efforts thus far have seen a continued rise in reporting. In fiscal 
year 2013, reports of sexual assault in the Marine Corps increased by 
86 percent, continuing a trend started in fiscal year 2012, which saw a 
31 percent reporting increase. In addition, 20 percent of all fiscal 
year 2013 reports were made for incidents that occurred prior to the 
victim joining the Corps; 17 percent were made for incidents that took 
place over 1 year ago. With sexual assault being an under-reported 
crime, we believe that these trends speak directly to the trust and 
confidence that marines have in their immediate commanders and the 
overall Marine Corps program. These encouraging developments suggest 
that our efforts are working to increase awareness of SAPR resources 
and to establish a healthy environment of respect and dignity where 
victims feel confident in coming forward. As we speak to our marines 
about their commitment to being guardians of our Core Values, part of 
that is to continue strengthening our victim care programs and offender 
accountability. Now that Phase I is completed, Phase II is designed to 
continue our positive trends ensuring the sustainment of the energy and 
momentum of the Campaign Plan, while further implementing large-scale 
institutional reform, emphasizing prevention through training, and 
having more deliberate involvement by our senior leaders.
    To date, we have put in place initiatives including a General 
Officers SAPR Symposium, SAPR training at Sergeants Major Symposium, 
Command Team Training, ``Take a Stand'' for noncommissioned officers, 
and ``All-Hands'' training. We have also customized Corps-wide SAPR 
training programs according to the rank and level of responsibility of 
marines. Additional SAPR initiatives include the development of Sexual 
Assault Response Teams (SARTs), new Command Climate Surveys, and 
mandated credentialing requirements and continuing education in 
advocacy for all SAPR personnel.
    Between fiscal year 2012 and fiscal year 2013, the Marine Corps has 
seen an increase in reporting with a corresponding increase in 
prosecutions for sexual assault. In anticipation of this increased 
caseload of more complex prosecutions, the Campaign Plan also 
restructured our entire legal community to ensure we have the right 
assets to prosecute these complex cases. New Regional Trial Counsel 
(RTC) offices provide consolidated resources, including experienced 
field-grade complex trial counsel (CTC), a civilian highly qualified 
expert (HQE) in sexual assault prosecution, embedded investigators, a 
legal administrator, and support staff. The RTC can pull from these 
resources to assign the right counsel, on the right case, in the right 
location.
    In addition to the restructuring of the legal community, on January 
1, 2014, the Marine Corps' Victims' Legal Counsel Organization (VLCO) 
became fully operational. The VLCO provides legal representation to all 
victims of sexual assault, and also to victims of other crimes. The new 
VLCO, along with our continued SAPR efforts, show that engaged, 
committed leadership remains the key as we reawaken the Corps sense of 
tradition and ethics, and reinforce the values that make us America's 
expeditious force in readiness.
 reawakening the soul of the corps through prevention, treatment, and 
                               resiliency
    The Marine Corps firmly believes that readiness of the Corps is a 
direct result of maintaining individual marine fitness. The Marine 
Total Fitness (MTF) concept is a holistic model focused on fitness of 
body, mind, spirit, and social relationships. This framework for 
holistic development is supported by a unified approach to improve 
resiliency and through engagements across the force. This approach will 
improve performance of marines, their leaders, and their families. .
    An important component of MTF is to proactively address the complex 
issues facing our marines and their families after over a decade of 
persistent conflict. Even as the Marine Corps moves into a post 
Operation Enduring Freedom/Operation Iraqi Freedom environment, there 
will be a significant need of services to support marines and families 
facing a potential delayed onset of symptoms, which requires diligence 
in prevention and early intervention. To address these needs, the 
Behavioral Health Program acts as an integrated service delivery model 
that facilitates the collaborative efforts and resources of all 
behavioral health elements including Family Advocacy, Substance Abuse, 
and Community Counseling, which includes Combat Operational Stress 
Control and Suicide Prevention. Our mental health surge capacity is 
based on implementing strong strategies for commanders and installation 
staff, and investing in evidence-based practices and delivery 
methodology. The purpose of the surge is to enhance mission readiness 
and welfare of marines and their families, by providing capacity for 
rapid identification of behavioral health issues and for expediting 
referrals to resources and assistance, which also promotes the 
resilience of our marines and their families
    Part of reawakening the Corps is to continue to stress that all 
marines have a responsibility to look out for one another and to assist 
anyone who might be struggling. Our Marine Awareness and Prevention 
Integrated Training (MAPIT), that is beginning to be implemented in 
fiscal year 2014, will train the entire force on behavioral health 
issues. The MAPIT initiative will provide education and skill-based 
peer-to-peer training consistently across a Marine's career. MAPIT, in 
conjunction with our more selective training program, Operation Stress 
Control and Readiness (OSCAR), use other evidence-informed prevention 
tools to deliver the right prevention tools to the right marines at the 
right time. These include giving marines the skills to prevent and 
mitigate stress injuries in themselves and their fellow marines, as 
well as, giving commanders support in building unit strength, 
resilience, and readiness. Additionally, the DSTRESS line continues to 
provide anonymous, 24/7 counseling services to any marine, attached 
sailor, or family member. Enhanced resilience, achieved through 
training and improved physical, spiritual, social, and psychological 
fitness, can mitigate post-traumatic stress, affect incidents of 
undesirable and destructive social behaviors, and lead to greater 
likelihood for future good health.
    Behavioral Health Programs are now focused on prioritizing services 
to target marines and improve our program capacity at the installation 
and unit level through enhanced professionalization of our workforce, 
accreditation oversight of the programs, and surge capacity to address 
access to care issues. One component of this approach has been to 
substantially increase the number of trained behavioral health 
personnel available to provide non-medical counseling services and 
treatment. The result has been to develop community counseling 
capabilities to improve screening, prevention, and counseling services 
through our Community Counseling Program at installations. 
Additionally, we have expanded Military and Family Life Consultant 
Program (MFLC) to provide confidential care in a unit or installation 
setting. In fiscal year 2014, Behavioral Health will be implementing 
the Marine Expeditionary Force (MEF) Prevention Program, which aims to 
improve the implementation, fidelity, and evaluation of behavioral 
health prevention initiatives across the operating forces.
 reawakening the soul of the corps through transitioning marines into 
                            quality citizens
    As our priorities shift from wartime requirements to post OEF, a 
key focus is on marines transitioning out of the Marine Corps. 
Transitioning Marines need the right preparation to reach personal 
goals and effectively translate their military experience to a 
successful civilian life. Transition is a process, not an event. 
Beginning at recruitment, the Marine Corps strives to ensure that we 
are providing a continuum of tangible learning, training, or 
experiences that makes every Marine transition ready throughout their 
career.
    The Marine Corps Transition Readiness Seminar (TRS) must be 
completed by marines within 12 months of separation or within 24 months 
of retirement, but no later than 180 days prior to separation or 
retirement. TRS is a week-long program that includes a mandatory 
standardized core curriculum including briefings from Veteran Affairs 
and Department of Labor and an introduction to their choice of 
entrepreneurship, career and technical training, or higher education. 
After TRS, interested marines attend one of three additional 2-day 
tracks that are in line with their future goals and objectives subject 
to their ability to meet Career Readiness Standards: (1) College/
Education/University delivered by Marine Corps staff; (2) Career/
Technical Training delivered by U.S. Department of Veterans Affairs 
staff; or (3) Entrepreneurship delivered by the Small Business 
Administration. Additionally, the Marine Corps involves leadership in 
the transition process through Capstone, where the separating Marine 
sits with the Commander or the commander's representatives no less than 
90 days before separation to verify the Marine has met career readiness 
standards. In calendar year 2014, the Marine Corps will incorporate a 
life cycle approach to transition preparation that will allow marines 
to meet Career Readiness Standards well in advance of the Transition 
Readiness Seminar.
    With the significant reduction in end strength of the Marine Corps 
over the next few years, it is vital that our commitment to our marines 
includes adequate preparation to leave the Marine Corps with all the 
resources and advantages to be able to translate being a marine to 
civilian life.
  reawakening the soul of the corps through preserving strong families
    During Operation Iraqi Freedom and Operation Enduring Freedom, 
Marine and family programs increased support to family programs to 
reduce the impact of stressors; enable quick acclimation to the Corps; 
build deployment knowledge and skills; and improve access to care and 
official information for marines and families to ensure operational 
readiness. We have seen that increasing support to these programs has 
had a positive impact on quality of life. In support of strong 
families, the 2012 Quality of Life Study found significant increase in 
satisfaction in three life domains: Residence, Income, and Standard of 
Living, and in marines relationships with their children. Findings from 
the 2012 Quality of Life Study specific to Marine and family programs 
indicated a majority having the training necessary to deal with the 
stress of deployment and/or combat, and being satisfied with military 
support services overall.
    The Unit, Personal and Family Readiness Program and Marine Corps 
Family Team Building Program are both designed to strengthen and 
fortify marines and their families. Our civilian family readiness 
officers are an asset in ensuring marines and their families receive 
official communications, readiness and deployment support, information 
and referral services for support services and volunteer management. 
With our shift in wartime requirements and volume of previous years' 
investments into various family readiness requirements, we are postured 
to continue priority support to operating forces units and universal 
access to all for information and referral services. Specifically, the 
Marine Corps is continuing to leverage technology, such as eMarine for 
communication with over 285,000 subscribers, as well as other training 
and support webinars. Since implemented in April 2013, over 14,000 
registered users have participated in Marine Corps Family Team Building 
online courses, which include courses on stress management, anger 
management, and emergency preparedness. The Marine Corps will continue 
to tap into this technology and others to provide resources for our 
deployed and returning marines and families.
    Our Family Care programs provide programs that support the care and 
development of Marine Corps children from birth to their teens. Through 
our Children, Youth and Teen Programs (CYTP), the Marine Corps has 
served 33,621 children, youth, and teens in fiscal year 2013.
    We have more than 11,000 family members with special needs. In 
fiscal year 2013, 405,000 hours of respite care was reimbursed under 
the Exceptional Family Member Respite Care Reimbursement Program. This 
program provides respite care benefit for those marines whose family 
members have moderate to severe special needs. Our Exceptional Family 
Member Program coordinators will continue to work to partner with 
local, State, and private organizations to help marines and their 
families access the care and support they require.
 reawakening the soul of the corps through caring for our families of 
                               our fallen
    The Marine Corps Casualty Assistance Program remains committed to 
ensuring the families of our fallen marines are treated with the utmost 
compassion, dignity, and honor. The loss of a Marine is always 
difficult, especially for the family and we are always seeking to 
improve survivor assistance. Caring for the families of our fallen is 
not just an immediate challenge, but one that is long term. The Marine 
Corps Long-Term Assistance Program is a permanent resource for the next 
of kin, ensuring they receive sustained quality assistance from the 
Marine Corps.
    The Marine Corps Casualty Assistance Program is a 24 hour-per-day 
operation manned by marines and civilian marines trained in casualty 
reporting, notification, and assistance procedures. Our Casualty 
Assistance Calls Officers (CACOs) are responsible for notifying next-
of-kin, assisting them with burial arrangements; applying for benefits 
and entitlements, obtaining reports of investigations, as well as 
assisting Survivors in contacting benevolent and philanthropic 
organizations. Our CACOs go through an initial training program 
followed up with continual training and assistance when needed. Shortly 
after the funeral, families are connected to representatives from the 
Tragedy Assistance Program for Survivors (TAPS). This nationally 
recognized provider, at no cost and available 24/7, provides our 
families a full range of support, crisis intervention, casework as well 
as, grief and trauma support.
reawakening the soul of the corps through care for our wounded, ill and 
                                injured
    The Wounded Warrior Regiment (WWR) continues to function as a 
central pillar of the Marine Corps' pledge to ``keep faith'' with those 
who have served. Whether a marine is wounded in combat, suffering from 
a chronic unresolved illness, or injured in a training accident, the 
WWR stands ready to provide recovery care. For the Marine Corps, 
recovery care is not a process. Care coordinated through the WWR is 
soundly based upon an authentic relationship between staff and the 
marine and his or her family members. This bond allows all parties to 
be vested in a common purpose: ensuring the WII marine and their family 
members smoothly and successfully meet their identified goals.
Ensuring Wounded, Ill and Injured (WII) Marines' Future Success
    History confirms that the majority of WII marines who receive care 
from the WWR will not return to duty. Knowing this, it is a paramount 
goal of the WWR to help WII marines reintegrate to their communities 
with the confidence to focus on their abilities and fully recognize 
that their best days are still to come.
    Following injury and case review, a WII marine's path to success 
typically begins with a Comprehensive Needs Assessment (CNA). The 
Marine Corps' Recovery Care Coordinators (RCCs) are assigned to WII 
marines (based upon case acuity) and are responsible for conducting 
initial and ongoing CNAs which are used to develop the Marine's 
Comprehensive Recovery Plan (CRP). Once the Marine's CRP is established 
with identified actions, the RCC begins coordination with all internal 
and external stakeholders to help the marine and family realize their 
goals. At any given time, there are approximately 1,000 marines (along 
with their family members) receiving the support of an RCC.
    A significant part of the CRP is employment and education support. 
To address this need, the WWR has a Transition Cell. Transition Cell 
Specialists, located at WWR Headquarters and Wounded Warrior Battalions 
at Camp Pendleton, CA and Camp Lejeune, NC, work with WII marines and 
families to assist them with the development of their career and 
education plans. Utilizing career assessment tools and leveraging the 
resources of Vocational Rehabilitation and Employment (VR&E) 
counselors, marines along with their WWR Transition Specialists, 
develop a plan to reach their career goals. Types of WWR transition 
assistance include: career exploration (employment, education, 
training, and entrepreneurship), resume development, education 
applications, interview skills, and coordinating Federal internships.
    The WWR does not utilize a ``fire and forget'' mentality. We 
recognize that most recently-transitioned WII marines will require some 
degree of continuing assistance. To address this requirement, the WWR 
continues to employ District Injured Support Coordinators at various 
sites (aligned with Department of Veterans Affairs Veterans Integrated 
Services Networks) around the country to provide face-to-face 
assistance when required. DISCs provide a multitude of services to 
include ensuring marines are registered with the VA, providing 
information on various community resources, and linking WII marines in 
need back to the WWR for assistance.
    Additionally, a key component of the WWR's transition assistance 
includes the provision of 90 days of post-service support to bridge the 
gap in services between DOD and VA during a WII Marine's transition. 
Focused areas of support include: Combat Related Special Compensation, 
Concurrent Receipt Disability Pay, housing, VA benefits, employment and 
education referrals, family support, and follow-on medical care 
(TRICARE, VA Healthcare). More than 1,800 marines have received or are 
currently receiving post-service support.
Outreach and Staying Connected
    The Sergeant Merlin German Wounded Warrior Call Center is not a 
typical call center in purpose or function. It is an outreach and 
contact center that actively maintains contact with and tracks an 
assigned population of WII Active, Reserve, Retired and Veteran Marines 
throughout their life. It includes two Contact Centers at the Wounded 
Warrior Battalions (Camp Pendleton and Camp Lejeune), which track 
active duty WII marines who are recovering with their parent commands. 
While the Call Center averages 9,500 outreach calls per month to Purple 
Heart recipients, marines on the Temporary Disability Retirement List 
and marine veterans, it also allows the Marine Corps great flexibility 
to focus on specific emergent at-risk populations. For example, during 
natural disasters, such as last year's floods in Colorado or the 
tornados in Oklahoma, the Call Center conducted outreach to WII marines 
and families in those surrounding areas to provide information on 
relief efforts, emergency shelters, and food bank locations.
    The Call Center also serves as the WWR's center of activity for 
social media and rapid action polls. The social media capability 
(Facebook, Twitter, and mobile app) enables the continual flow of 
relevant care information to WII marines and families and the polls 
allow the Regiment to gain important feedback for program improvement.
Future of the WWR: Care Continues
    Marines and their family members, Congress, and the public at large 
can be reassured that the Marine Corps, through the WWR, will continue 
recovery care in times of war and in peacetime. Irrespective of the 
global security environment, recovery care support must be enduring in 
view of issues resulting from the current decade of war: catastrophic 
injuries requiring massive amounts of acute care, traumatic brain 
injury, and psychological health problems. These conditions are not 
solved by short-term care and will require continuing services, an 
enduring commitment. Just as the Marine Corps is strategically agile 
and flexible, the WWR will endeavor to expand and contract depending 
upon requirements. The WWR will always stand ready to support marines 
who sacrifice for our Nation.
reawakening the soul of the corps through caring for our marines in the 
                                 fight
    Deployed support is one of the most important services we provide. 
Our Exchange, Recreation, Fitness, and Communication services boost 
morale and reduce mission-related stress.

        <bullet> Exchange. Ongoing missions in Afghanistan include the 
        operation of a Direct Operation Exchanges Tactical (DOX-T) at 
        Camp Leatherneck, one Tactical Field Exchange at Living Support 
        Area 13, and numerous Warfighter Express Services Teams (WEST) 
        operating out of Camp Leatherneck. We also have two Marine 
        Corps Exchange (MCX) Mobile Tactical Field Exchange (MTFE) 
        Trailers, which can serve as fully functional retail stores. 
        Equipped with a diesel generator, the MTFE can operate on site 
        for up to 72 hours and can provide indefinite operations when 
        accompanied with a resupply container and connected to 
        municipal power. The trailer can be used to support tactical 
        field exercises, disaster relief, and special events requiring 
        retail support. The MTFEs are road-ready and are based at Camp 
        Pendleton and Camp Lejeune.
        <bullet> Recreation and Fitness. We provide sports, 
        recreational, and fitness equipment to units throughout Helmand 
        Province. This transportable equipment includes sports/
        recreation cooler kits filled with sports gear and board games, 
        electronic game kits, Theater-in-a-Box kits, and functional 
        fitness equipment for use in austere environments. Reading 
        materials, both electronic and paperback, are also distributed. 
        Our award-winning libraries provide online tools for research, 
        recreation, and professional development. Several libraries 
        offer private webcam meetings so families can stay connected 
        with their deployed marines.
        <bullet> Communication. Morale satellite services are available 
        to deployed marines. We have delivered 13 small satellite 
        communications systems to units in Afghanistan. Each system has 
        two phones that provide 6,000 free minutes per month and five 
        laptops that allow internet browsing, social networking, and 
        chat/video capabilities to deployed marines.
        <bullet>  MCCS Amenity Wi-Fi Solution. The Marine Corps 
        Community Services Amenity Wireless Fidelity (Wi-Fi) Solution 
        program acquires, deploys, administers, and supports Wi-Fi 
        capability at no-cost to marines and families. This morale and 
        welfare initiative helps families stay in contact while 
        separated from their marines. Wi-Fi is conveniently located on 
        19 installations and 250 facilities such as, temporary lodging 
        facilities, exchange food courts, libraries, education centers, 
        child and youth centers, clubs, and wounded warrior program 
        facilities.

    Marine Corps Morale, Welfare, and Recreation (MWR) activities 
support the readiness, resiliency and retention goals of marines. 
Semper Fit and Recreation programs align to support the social and 
physical well-being of marines and sailors, to encourage healthy 
lifestyles and enhance quality of life and to amplify the Marine Corps' 
focus on mission and readiness. The comprehensive strength and 
conditioning programs, High Intensity Tactical Training (HITT) and 
Aquatic Maximum Power--Intense Training (AMP-IT), serve to optimize 
physical performance and combat readiness for all Active Duty and 
Reserve marines. In 2013, ``For the Leathernecks'', a social recreation 
event, reached over 20,000 single marines, many of which recently 
returned from a deployment or training exercise. These shows enrich 
esprit de corps and unit cohesion to support the 21st century sailor 
and marine, and Marine Corps Total Fitness strategies. Semper Fit and 
Recreation expanded Operation Adrenaline Rush (OAR), which has reached 
over 8,000 marines since the pilot program began in fiscal year 2012, 
to 8 installations last year. OAR assists marines in reintegration 
after deployment by maintaining combat readiness, and reinforcing unit 
cohesion through high adventure outdoor activities like white water 
rafting, paintball, or rock climbing.
    The Marine Corps resale system is also pleased to support the 
physical and financial health of marines, sailors, and their families. 
Through a variety of programs related to the Secretary of the Navy's 
21st Century Sailor and Marine initiative, our resale system supports 
physical health. The Commandant recently issued a memorandum regarding 
alcohol sales. It instructs all Marine Marts adjacent to barracks to 
remove distilled spirits. Additionally, the memo limits alcohol sales 
times to 8:00 AM thru 10:00 PM, and dedicated floor space to no more 
than 10 percent of the total retail space. Another significant step to 
support 21st Century Sailor and Marine came in 2012 when MCX instituted 
tobacco price parity. This effort complements the initiatives that 
Semper Fit has taken in training and education of tobacco cessation. 
Further, MCX offers tobacco cessation items at cost for patrons as part 
of our value program, ``Xtreme Value.'' This program supports the 
financial readiness of marines and their families and offers items such 
as diapers, formula, baby food, bread, and milk at cost. Additionally, 
MCX offers a variety of both branded and private label products from 
clothing to cosmetics to electronics to toys to home furnishings to 
serve as a ``one stop shop'' for marines and families. Our Xtreme Value 
program offers the brands and products important to our customers at 
the best price possible. MCX is committed to supporting initiatives 
like the White House's Joining Forces Initiative to employ veterans and 
family members. As a member of the Military Spouse Employment 
Partnership Program, MCX helps to provide jobs to military family 
members who may be worried about finding a job at their next duty 
station. Currently, nearly 30 percent of MCX employees are military 
family members.
                   reawakening the soul of the corps
    During a time in which we, as a nation, have been continuously 
engaged in 12 years of fighting, we are doing so with a voluntary 
force. No other time in our country's young history have we fought this 
long. Less than half a percent of Americans voluntarily wear the 
uniform of one of our Military Services. These men and women have 
chosen to put on the cloth intuitively knowing the joy and sense of 
purpose that only comes through great challenges and subordination at a 
cause greater than themselves. These men and women--our neighbors, 
brothers and sisters, sons and daughters, and loved ones--know what it 
means to keep company with the finest men and women in a world under 
the toughest conditions. Living their lives right and to the fullest, 
while providing a vital function to society. Their sacrifices ensure 
the safety of not just communities, but the Nation, our lifestyle, and 
our liberties.
    A statement often attributed to our first Commander in Chief, 
perfectly sums up what this Nation is facing when it comes to their 
military, which I would like to leave with you today. ``The willingness 
with which our young people are likely to serve in any war, no matter 
how justified, shall be directly proportional to how they perceive 
veterans of early wars were treated and appreciated by our Nation.'' I 
say this to you today to reiterate that your decisions now will have an 
impact that will go well beyond these conflicts and the current men and 
women voluntarily serving. Uncertainty in whether they will be able to 
continue a career in the military due to drawdown; what services and 
resources will be available to them and their families when serving; 
and what will happen to any retirement when they get out----all are 
having an impact on our current force and the young men and women that 
will be considering serving in the future. We cannot jeopardize our 
liberty.

    Senator Gillibrand. Thanks to each of you.
    DOD has proposed a number of compensation and benefit-
related proposals, although we have not seen the full details. 
They are basically a 1 percent pay raise for most military 
personnel rather than the 1.8 percent that would take effect 
under current law, 1-year pay freeze for general and flag 
officers, and a slight reduction in the growth of housing 
allowances over time. Essentially, servicemembers would pay 5 
percent of their housing costs out of pocket. A phased 
reduction by $1 billion of the annual direct subsidy provided 
by military commissaries, down from the current subsidy of $1.4 
billion. An increase in TRICARE enrollment fees and pharmacy 
co-pays and consolidation of the TRICARE health programs.
    Secretary Hagel testified a few weeks ago that the savings 
from these proposals would be reallocated to address readiness 
and modernization shortfalls. As I said in my opening 
statement, these proposals will be difficult for many of us on 
this subcommittee to support. I am particularly concerned that 
we are not waiting for the MCRMC, which is tasked with taking a 
comprehensive look at these benefits.
    This is for each of you to answer as you see fit. What will 
the impact of the changes be on our servicemembers, especially 
our lower enlisted troops and families? What are you currently 
hearing from the enlisted ranks? What are the biggest concerns 
about these cuts? How important is the commissary benefit, in 
particular, to our most junior servicemembers? Is there another 
way to deal with the commissaries? Will the enactment of these 
proposals harm recruiting and retention?
    Sergeant Major Chandler. Yes, ma'am. You wanted to spend 
some time with commissaries. To be quite honest, the 
commissaries have not been in the narrative until just 
recently, comparatively speaking to, for instance, retirement 
reform. There is a bit of conversation. I will tell you, like I 
said in my oral statement, it is not the most important issue 
from soldiers. We do hear more from family members. A lot of it 
was, in our case anyway, the publication called the ``Army 
Times'' which ran an article that said that there would be the 
closing of commissaries. That has never been the intention. I 
am sure that the Chief of Staff of the Army has already spoken 
to that fact for the Army.
    Obviously, there is going to be an impact for everyone, 
including our junior servicemembers, if we do roll back the 
cost savings from on average 30 percent to, say, 20 percent. It 
is going to have an impact, and cumulatively each one of these 
things will have an impact on our soldiers and families. I 
think that is fairly obvious.
    Our concern is there are things within the Defense Exchange 
Commissionary Agency (DECA), legislative issues and also policy 
issues, that I believe we can find some efficiencies which may 
offset some of the reduction in cost savings. For instance, the 
ability to use or sell generic items are a challenge. We cannot 
do that in the commissary. If I am a young soldier and I choose 
to go the commissary and the only thing I can buy is Green 
Giant or Hunt's brands, but I can go to Walmart and get Great 
Value and that is 30 cents less for a can of corn than it is in 
the commissary, there is a perception in some places where the 
value is not as high as we say in the commissary.
    Each of us sits on the DECA board of directors. There is a 
strategy in place to do a holistic review and to make some 
legislative proposals which will free up their ability to 
actually create a business model. I think many of us may not 
understand that the commissary is not in competition with 
anyone. You have to recognize how do you draw the folks that 
you serve into the commissary. I think one of those is to offer 
items which may be generics which generate the similar cost 
savings.
    I think we have some work to do, both legislatively and 
policy-wise. I understand because for the Army, this is truly 
about readiness. We pay about $400 million into the commissary 
to sustain the benefit, and that is $400 million we can apply 
to some other readiness need because frankly, for the Army, the 
most important thing is to have ready soldiers to do what we 
need to do and not send someone in harm's way untrained. You 
have to find that balance. We are in that position where we 
have to look at everything to find the savings we need.
    Chief Petty Officer Stevens. Senator, I think it is 
important that we first understand that the decisions to slow 
growth is not something, if we were given a choice, that we 
want to do. Given the fact that the slice of the pie is only so 
big, this is what we must do in order to maintain readiness. We 
are making some tough decisions and tough recommendations with 
regard to slowing of growth.
    How will that impact our people? I think it is fair to say 
that if, or when, it is all said and done, that their buying 
power will not be as good tomorrow as it is today. It will have 
some impact on their quality of life.
    We also recognize that there will have to be some slowing 
of growth in quality of life so we can hopefully recapitalize 
those monies into what we call quality of work areas because 
our sailors want to have a good quality of work. They want the 
people, the parts, the training, the things that they need day-
to-day to do their job. In order for the Navy to be able to 
provide that to them, there is going to have to be some offset 
somewhere. We recognize that that is difficult, but we owe it 
to them to make sure that they have a good quality of life, a 
good quality of work, and in turn, they and their families will 
have, we hope, a positive and good quality of service.
    I have been asked many times, how do you think it will 
affect retention and enlistment? What I say is I do not know 
because every generation of sailor has their own reason for 
serving. Much of it is the same, but generation-to-generation 
there are some differences. Will it have a negative impact on 
recruiting and retention? It might, but I could not say that 
because I do not know. Will it have a positive impact? Probably 
not. It may stay the same. It may get a little bit worse, but 
it certainly is not going to increase retention or increase 
enlistment. We are going to have to shoulder that with our 
recruiting commands and with command leadership to encourage 
our people to come in and to stay.
    I agree with what Sergeant Major Chandler said with the 
commissaries. His comments are something that we have all 
talked about, and I can speak for myself when I say that I 
agree exactly with what he said on commissaries.
    Sergeant Major Barrett. I will not belabor exactly both 
remarks that the Sergeant Major of the Army and the Master 
Chief Petty Officer of the Navy (MCPON) have said.
    Ma'am, to go right to the very heart of your question, 
first of all, marines do not run around talking about what is 
on their mind in compensation, benefits, or retirement 
modernization. That is not on their minds. As I walk around and 
talk to the thousands of audiences, they want to know into 
whose neck do we put a boot to next. They want to know about 
what new equipment are we getting. Are we continuing to 
modernize? Just because the budget sucks, does that mean we are 
not going to get any more gear? Are we going to stay ahead of 
our competitors?
    The other thing they always ask about is they want to know 
about training. We are a force that has a bias for action, and 
we are a happy lot when we are deployed. Idle hands are not 
good in the Marine Corps. Keep us out there forward deployed 
just like our moniker tells us that is where we need to be. 
That is what is on their mind actually.
    I will tell you promotion and retention and money does 
eventually come up, but it is not in the top three. It is 
normally four, five, six, or seven.
    To get to the point about what the Sergeant Major and the 
MCPON already said, if we do not get a hold of slowing the 
growth, if we do not pay a little bit more attention to the 
health care that we so generously have received, wonderful 
packages--in my 33 years, I have never seen this level of 
quality of life ever. We have never had it so good. I say that 
point because if we do not get a hold of slowing the growth, we 
will become an entitlements-based, a health care provider-based 
Marine Corps and not a warfighting organization. If we do not 
step back and take a look at a 1 percent pay, that makes sense 
because our quality of life is good. Hey, you know what? Out-
of-pocket? You know what? I truly believe it will raise 
discipline and it will raise it because you will have better 
spending habits. You will not be so wasteful.
    I do believe in the one TRICARE model because there will be 
savings, and there will be less administrative burden on those 
who have to perform all those things.
    Should there be some type of subsidy reduction to the 
commissary? Well, you already heard the Sergeant Major of the 
Army talk about it. I am sure there is a better model out 
there, but in the grand scheme of things, if we do not get a 
hold of this, it is going to impact our warfighting capability. 
It is going to impact our investment for the next challenge.
    Like I said, we might be done in Afghanistan, the people we 
are fighting, but they are not done with us, and we need to be 
more prepared for what is around the corner.
    Sergeant Major Cody. Ma'am, I think first I would set the 
stage for my comments because I certainly agree with all my 
fellow Service senior enlisted advisors, and believe me, we all 
do talk about this collectively as we think about the impacts.
    I want to be real clear that our airmen are not overpaid. 
This discussion we are having about compensation in the 
military is not because we feel they are overpaid. They have 
earned everything that they receive today, all service men and 
women and their families have. They have sacrificed for what 
they served for.
    I fully support our budget because at the end of the day, I 
would tell you if you want the real feedback from our airmen 
and their families of what they want, they do not want to have 
a conversation about compensation. They just want you to give 
us more money so we do not have to. That is the clear text if 
you want to hear what they would say.
    When Athena meets with their families, they are a little 
bit more vocal about this than the great men and women that 
actually put the uniform on only because they understand the 
commitment to serve and everything that you had articulated. 
They are going to fight in their Nation's war. They will go 
regardless. That is what makes them so special.
    Make no mistake about it. This has impact. But we have to 
do it. We have to slow the growth. It has to be constrained 
somehow.
    I will throw some demographics so you can put it in 
perspective. For our Air Force, about 70 percent of them have 
served 13 or less years. That is important to note because this 
is their whole life. 70 percent of our force. When you think 
about it, about 50 percent of our entire force is married with 
children or is single with a child. That is important too when 
you talk about compensation and how you think about these 
things.
    Just to throw a demographic at you so you will know, an 
average E-6 makes about $54,000 a year. That includes their 
basic allowance for substance, their housing, and their basic 
pay. Then you can take that all the way down to an E-1, which 
is about $23,000 a year. That is important to put in the 
spectrum of their lifestyle.
    Senator Gillibrand. Thank you.
    Senator Kaine.
    Senator Kaine. Thank you, Madam Chairwoman.
    Thank you for your testimony. Thank God for our enlisted. 
It is what we have asked you to do for the last 13 years. You 
have done it with a great spirit. But it is unlike anything, 
really, that we have had a precedent for in the country, and 
that means there are consequences to it, some of which we know, 
some of which we do not. But we have to be good stewards in 
meeting the consequences.
    I wanted to ask you a question. I think Senator King asked 
a question of the first panel when I was gone about 
credentialing of folks in service for their skills as they 
obtain them. This is something I am really interested in. I 
worry about the unemployment rate of the Iraq and Afghanistan 
era veteran, particularly the enlisted. Officers with college 
degrees have a little bit easier time. Some enlisteds have 
degrees, but generally the enlisted unemployment rate is the 
one that is a little bit higher.
    I continue to believe that part of the way we get at the 
unemployment rate is to get people credentialed for the skills 
they attain when they attain them with a credential that a 
civilian hiring officer understands. Recognizing that that 
civilian hiring officer--there is only a 1 percent chance that 
individual would have been in the military. I think we 
appreciate military service but often may not understand what 
it is that somebody brings to the table in terms of technical 
skill or leadership skill.
    Programs like the Soldier for Life program in the Army and 
others--and I know different branches are tackling it in 
different ways--that are trying to make sure that people get 
these civilian credentials are important.
    I would like to hear you talk about efforts within your 
branches on this or more broadly, the unemployment issues that 
are faced by enlisted servicemembers departing into a tough job 
market. Especially as we are drawing down in force, more will 
be departing, and we want to make sure that they get traction 
right away in a civilian workforce. Offer thoughts on that 
challenge, please.
    Chief Petty Officer Stevens. Senator, for the Navy, we have 
what is called Credentialing Opportunities Online (COOL) 
program. It is where you can go and sign up and begin to take 
advantage of these credentials that the civilian world offers 
and provides the Navy. You would take your skill set that you 
have. My example would be as an aviation structural mechanic. 
There are certain certifications that you need to do work on 
aircraft in the civilian world. You could go to this COOL 
program and you could begin the sign-up process and start to 
get your hours that you need and the signatures that you need 
and eventually get this credential. It transfers over into the 
civilian world, and we have had that in place for a while.
    We also recently implemented a process where a sailor, with 
the permission of their commanding officer prior to separation, 
if they know they are going to get out, can go to a vocational 
or trade school and start working on the certificates that they 
may need to work in that civilian sector job that would be 
equivalent to what they are doing in the Navy.
    So that, in conjunction with our Transition Assistance 
Program, as well as the CNO and I have talked about with our 
tuition assistance, when we look at how we can best use that, 
we want to encourage our sailors to take college classes that 
equate to what their job is in the Navy so that it not only 
makes them better at their job in the Navy but also makes them 
more competitive, should they decide to get out of the Navy at 
some point.
    We have some good programs in place, and I am happy with 
them. I believe we will continue to work on them.
    Sergeant Major Barrett. In addition, we have a transition 
readiness seminar, and we have touch points along the way. As a 
matter of fact, every young marine--the rank of lance 
corporal--is required to do this Marine Corps Institute course. 
It is an online course, and it is called Leading Marines. 
Attached to that course is a course called Your Readiness, and 
it was developed by our personal and professional development 
personnel that work at our Marine Corps University. That course 
teaches you how to start preparing yourself to leave the 
Service if that is what it is you decide to do.
    Then we have touch points along the way in the lifecycle of 
a marine, and as we get closer towards whether or not we are 
going to decide to stay in the uniform or get out of the 
uniform, within a 12-month period, you will go to a transition 
readiness seminar where you will have core training. The core 
training is conducted by those from the Department of Labor, 
from the Small Business Administration, and from the VA. As a 
matter of fact, the Troop Talent Act made credentialing a part 
of the core training that is given to every single marine 
before they leave. That way they can present and address what 
credentials they have that are equivalent to what is going on 
in the outside world.
    Also, part of that course is they have the career technical 
training track which assists marines with the certifications. 
Along with that, you have pathway training. You are going to 
decide whether you are going to go get a job when you get out 
of the Service, or if you want to go to college, or you want to 
get vocational tech or entrepreneurialship. Well, you got an 
opportunity now to go down that particular path you want to go 
down, and they will prepare you. You have personal and 
professional developing counselors that you can meet with 
before, during, or after all this training to ensure that you 
are completely set up for being prepared for when you decide to 
take off the uniform.
    Sergeant Major Chandler. Senator, I think all of our 
approaches are very similar. We have different programs within 
the Army and the Navy and the Marine Corps. Speaking for the 
Army, we put a lot of focus on the same program, COOL program.
    A success story for us is what we have going on at Joint 
Base Lewis-McChord in the State of Washington where we have 
partnered with trade unions. With the commitment of the soldier 
actually before they leave the Service, the union will have a 
job for them when they leave the Service. We have done a lot of 
work in pipefitting, in plumbing, in HVAC. We are expanding 
that at other installations, really trying to leverage both the 
community college and vocational and technical schools, along 
with the unions, to try and help young men and women who may 
not have made the decision to go back to college, that they can 
find a skill with the guarantee of employment upon graduation. 
In the Army's case, I think that is a part of the 
credentialing.
    Senator Kaine. Thank you very much.
    Sergeant Major Cody. I would only add we also do the 
credentialing online, but what we do a little unique in the Air 
Force too is we have what is called the Community College of 
the Air Force, and every career field is lined up to be able to 
earn a 2-year degree, technical degree associated with that 
career field. They can do that within their first enlistment. 
That means they do walk out with a tangible that we have 
already done the work to show that. We also have a partner 
program where they can take that with just over 50 
universities. It is an associate to bachelor program where they 
give them full credit and they walk as a junior into that 
college, and they can continue to pursue their under graduate 
degree. So, again, it helps. We have the credentialing 
programs. We are also working to make sure they have that 
ability to walk out with at least a 2-year degree and then 
potentially a 4-year degree.
    Senator Kaine. Thank you.
    Thank you, Madam Chairwoman.
    Senator Gillibrand. Senator King?
    Senator King. Thank you.
    Each of you heard the chair list the personnel changes. As 
you well know what they are, the 1 percent, commissaries. Do 
each of you support that proposal?
    Sergeant Major Barrett. The Marine Corps does, sir.
    Chief Petty Officer Stevens. Yes, sir, the Navy does.
    Sergeant Major Chandler. The Army does, sir.
    Sergeant Major Cody. The Air Force does, sir.
    Senator King. Thank you. I think it is important.
    Sergeant Major, your answer to Senator Kaine's question is 
one of the best answers I have ever heard to any question since 
I have been here. You were crisp and really, I thought, 
captured the essence of the dilemma.
    Nobody here wants to vote to cut pay or do anything else. 
The problem is we are in a zero sum world. The testimony we had 
from DOD 2 weeks ago was that this is a $2.1 billion a year 
proposition, $30 billion over 5 years, and that money will come 
right out of readiness if we do not make these changes. Is that 
your understanding?
    Sergeant Major Barrett. It absolutely will. Not only that, 
we are going to also have to start taking risk in 
infrastructure sustainment, facilities sustainment, 
restoration, and modernization, furniture, fixture, equipment, 
personnel support equipment. We do not want to go back to where 
we were in the 1990s and 2000s when we had to find $2.8 billion 
because we were living in poor facilities. We do not want to go 
back to those days.
    Senator King. Sergeant Major?
    Sergeant Major Chandler. Yes, sir. At the end of the day, I 
do not like this and it is a challenge. But it is what is 
necessary. We have to make sure as an Army that at the end of 
the day, the one thing we have to make sure, that our soldiers 
are trained and ready to answer what the Nation is going to ask 
us to do is going to trump the rest of the things we are going 
to do.
    We have the same challenges as the Marine Corps. We have 
these beautiful facilities that Base Realignment and Closure 
2005 round gave us. They are now going to be transitioning into 
the sustainment phase of their lifecycle. We made tremendous 
investments in modernization. We have to cut a lot of those 
programs or push them to the right so that we can build 
sustained readiness in the Army.
    A day lost of readiness of training is usually going to 
take you 2 days to gain it back. We have had a readiness 
deficit in the Army. Obviously, the Bipartisan Budget Agreement 
has given us some very limited--2 years is not a lot of time to 
rebuild some level of readiness, but in 2016, again with 
sequestration, we go right back in the tank. The only way to 
provide a ready force is to find those and make those difficult 
decisions that have to be made in order to get our soldiers, 
sailors, airmen, and marines trained.
    Senator King. I hope if we have to make those decisions, 
you will stand behind us.
    Sergeant Major Chandler. Yes, sir.
    Senator King. As far as 2016, I think it is really 
important to realize that what we have is a breathing space, 
not a solution, and that it is incumbent upon us to be thinking 
about 2016 and how we mitigate the impacts of the sequester now 
rather than waiting until it hits us about a year and a half 
from now. I look forward to working with you.
    Let me change the subject for a minute. We hear the term 
``keeping faith'' with our troops and ``keeping faith'' with 
the people that are joining up. What does a young recruit 
understand about what they are signing up for? Do they think 
about retirement? Do they understand? Are they told? Is there 
anything in writing about what the benefits are?
    Myself, I feel that once somebody is in the Service, they 
have earned what they are entitled to and that any changes we 
should make should be prospective for people that have not yet 
signed up. If we had made some of those changes in the early 
1990s, we would be bearing the benefits of them now instead of 
trying to make them midstream. Talk to me about what a recruit 
thinks about when they are signing that paper.
    Sergeant Major Chandler. I can only speak for my own 
experience when I was 19 years old and joined the Army, and I 
was not thinking about compensation. I was actually thinking 
about going to Germany and being a tanker for a couple years 
and then leaving the Army and coming back to Massachusetts 
where I grew up.
    Senator King. My condolences on that. [Laughter.]
    Sergeant Major Chandler. Well, sir, you know. [Laughter.]
    We provide information to soldiers. They get a lot of 
information. They will get pamphlets. They will get brochures. 
Their recruiter will talk to them about the benefits of 
service.
    Now, if you take into fact that an average 19-year-old 
male--they are really not thinking, I think, in a long-term 
beyond ``what do I need to do in order to be able to get out of 
here and go do something else?'' We have some limited education 
on finances while they are in basic training, and we have 
opportunities for soldiers to learn about investments and so on 
while they are at their first duty location. There is a level 
of education about what you have earned. That is the best I 
have for you right now.
    Senator King. I want to get other thoughts. Is there a 
problem of recruiters making representations that are not in 
the documents? Is that an issue, Sergeant Major?
    Sergeant Major Barrett. Sir, we tell our recruiters, 
whatever you do when you go out there on the street with all 
those wonderful skills you have just been taught, do not think 
like a recruiter because the second you start thinking like a 
recruiter, you are going to try to qualify them. That is the 
wrong way to go about it. What you want to do is you just want 
to go out there and talk about it.
    I made some notes while the Sergeant Major of the Army was 
talking. You know, 0.4 percent of the Nation wears the cloth of 
one of these Services right here. This has been told to me time 
and time again when I have met with young marines. They do not 
want an easy life. They want to be tougher people. It is about 
pride of belonging and being part of something bigger than 
self. I hear that more than I hear anything else when I talk to 
a young person who, for the first time, was handed the eagle 
globe and anchor in their dirty little hands, and they grab 
that thing and they hold it tight. You see the tears just 
running down their face. They have just transformed. They just 
became part of that 0.4 percent of the Nation that is willing 
to put it on the line. That is what they talk about, the young 
people.
    Chief Petty Officer Stevens. I would say that there are 
many different reasons why young men and women enlist, but 
primarily that reason is a call to service. They think about, 
to some degree, the benefits, the pay, those sorts of things, 
but it is really about service more than anything else.
    I was in San Antonio, TX, at the hospital corps school not 
too long ago, and I thought I would ask a group of young men 
and women that were sitting in the room that question, and I 
was really surprised by the response. I said to them, how many 
of you, when you enlisted, thought that maybe you would make 
the Navy your career? Two-thirds of their hands went up.
    I look back to the time I came in--I will say it, 1983. If 
I had been asked that same question and you would have raised 
your hand, you would have probably been laughed at because most 
of us that came in then were just thinking 4 years and we are 
out.
    There is a little bit of a different thought process. I can 
just speak for this generation because I never asked that 
question to the two generations before me. It really is about a 
call to service more than anything else. But we should not 
misunderstand the fact that they do appreciate the benefits 
that they earn.
    Senator King. Thank you very much, gentlemen. You honor us 
by your presence here today. I appreciate it.
    Senator Gillibrand. Senator Hirono.
    Senator Hirono. Thank you, Madam Chairwoman.
    I add my thanks to all of you for testifying and for your 
service.
    It is good to know that the men and women who enlist and 
who want to serve our country do so out of patriotism and a 
deep sense of wanting to make a difference in what they do. We 
all realize it is just a small percentage of our population who 
answers that call. I like to think that we all do our part to 
make a difference, but the men and women who do serve need to 
be treated fairly. I know that that is what you are all about.
    I have a question for Master Chief Stevens. I understand 
that the Navy already evaluates its servicemembers on whether 
they foster an environment or atmosphere of acceptance and 
inclusion per your Equal Employment Opportunity policy. I would 
like your opinion on adding the criteria to evaluate an 
individual's ability and efforts at maintaining a command 
climate which will not tolerate or condone hazing, sexual 
harassment, sexual assault, and ensures all members of the unit 
are treated with dignity and respect.
    Chief Petty Officer Stevens. Senator, thank you for the 
question.
    The section of our evaluation performance that you 
mentioned where talk about command climate and command culture 
really does fold in what you just mentioned. We expect our 
leaders at every level to foster the very environment that you 
talk about, and they are graded on that. The expectations are 
that they do create that culture within the organization. We 
believe that everybody deserves an opportunity or actually that 
we should set the conditions where everybody has the 
opportunity to be successful and that everybody is treated with 
dignity and respect.
    We also recognize that we have work to do, and we are and 
have been and will continue to work on this very hard. But it 
is a part of our performance evaluation. You cannot be a 
commander out there and not foster a climate where people are 
treated with dignity and respect and expect that command to be 
successful. The success of that command is a large part of what 
they are evaluated on.
    Senator Hirono. The Navy already does that in its 
evaluations and for promotions and other decisions with respect 
to the individual. Do the other Services also use the command 
climate surveys or questionnaires for those purposes? Would 
anyone else like to respond?
    Sergeant Major Chandler. Yes, ma'am. We have a similar 
approach to the Navy, whether it is at the individual level 
through an evaluation report or through a unit level activity 
called a command climate survey that not only does the 
commander get those results, but now, as an Army, we have made 
that a requirement for the senior commander above the unit that 
has gotten the command climate survey to, in fact, be out-
briefed on those results also. They set up an action plan from 
there.
    Senator Hirono. Do these surveys or these evaluations, are 
they made part of the commander's files, personnel files?
    Sergeant Major Chandler. From an Army perspective, the 
individual evaluation, whether that is an E5 sergeant all the 
way up to the Sergeant Major of the Army like myself--those 
evaluations are a part of their official record. That applies 
to our officer population through their officer evaluation 
report.
    The command climate survey has to be maintained on file for 
a certain specific period of time. It is really, from my 
perspective, the relationship between the senior commander and 
that commander who had gone through the survey to determine 
what is the plan of action to either improve or strengthen 
where the unit has reported there may have been some weaknesses 
or limitations within the chain of command.
    Sergeant Major Barrett. In the Marine Corps, ma'am, yes. 
First of all, the commanding officer is singularly responsible 
for everything that happens and fails to happen inside that 
unit. His or her sergeant major is responsible for the command 
climate. In the Marine Corps, you have the Defense Equal 
Opportunity Management Institute (DEOMI), and every single one 
of the DEOMI command climates will be seen by the next level 
chain above that commanding officer. The Commandant of the 
Marine Corps also has a command climate survey that is also 
done that the next commander will see exactly how well or how 
poorly that you are doing inside the command.
    Sergeant Major Cody. The Air Force, ma'am, is a part. The 
actual evaluation part is part of the initial feedback and 
follow-on feedback and in the report. They are monitored, and 
the survey itself is used up and down. Everybody has visibility 
to that. Anybody that reports goes back to that report, and if 
you fell into that report, meaning your activities influenced 
it, it will then be documented in your official record.
    Senator Hirono. Your surveys do cover the command climate 
with regard to areas such as sexual harassment, hazing. The 
factors or the areas that I mentioned.
    Sergeant Major Cody. Yes, ma'am.
    Sergeant Major Barrett. Yes, ma'am.
    Sergeant Major Chandler. There is a series of standard 
questions that all of the Services have to have in every 
survey, and then the commander has a choice of other questions 
that they can insert for their specific need. We all have a 
group of questions that are standardized that must be answered 
across the force, and they look at equal opportunity, sexual 
assault, command climate, those types of issues.
    Senator Hirono. Do those surveys undergo changes over time?
    Sergeant Major Cody. Yes, ma'am, they do.
    Senator Hirono. Are they updated?
    Sergeant Major Cody. They are. They are updated based on, 
in some cases, changes in the law of things that we need to 
consider. They are also updated based on the needs of the 
Services of things that we are seeing that we need to continue.
    Senator Hirono. Madam Chairwoman, I would like to request 
that all of our Services send to our subcommittee the latest of 
standard surveys and any modifications that are made to the 
surveys.
    Senator Gillibrand. If you could distribute that to each of 
the offices, that would be wonderful. Thank you.
    [The information referred to follows:]

    Sergeant Major Chandler. The Army uses a survey produced by 
the Defense Equal Opportunity Management Institute (DEOMI) to 
assess command climate. The survey is entitled DEOMI 
Organizational Climate Survey (DEOCS). The Army is currently 
working with DEOMI to append an Army specific module which will 
include 25 additional questions in four broad areas (work 
environment stress, unit resilience, quality of leadership, and 
well-being.)
    The DEOCS as used by the Army and the Army specific module 
will be provided, as requested.
    [Deleted.]
      
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Chief Petty Officer Stevens. Enclosed is a sample Defense 
Equal Opportunity Management Institute (DEOMI) Organizational 
Climate Survey, which is provided to each of the Armed Forces 
by the Office of the Under Secretary of Defense for Personnel 
and Readiness. The survey measures climate factors associated 
with equal opportunity and equal employment opportunity 
programs, organizational effectiveness, discrimination/sexual 
harassment, and sexual assault prevention and response.
    Commanders may add up to 10 locally-developed questions and 
5 short-answer questions to their survey, to assist in 
targeting specific areas of interest within the command. Since 
locally developed questions vary throughout the Navy, it would 
not be feasible to provide copies of every survey modified at 
the local command. As an alternative, I have also enclosed a 
copy of the Sample of Locally Developed Questions List.
      
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
      
    Sergeant Major Cody. The attached Defense Equal Opportunity 
Climate Survey (DEOCS) version 4.0 is the latest standard 
command climate survey used in the U.S. Air Force. It is my 
understanding that all Services are using the same survey. 
Commanders can add up to 10 locally-developed questions and 5-
short answer questions to the survey, helping them target 
specific areas of concern (see placeholder for questions 96 to 
110 on attached survey). Headquarters Air Force also has the 
capability of adding up to 10 locally developed questions to 
the survey to address seasonal Air Force-wide concerns. Any 
additional survey modifications must be requested and approved 
by the DEOMI (i.e., Defense Equal Opportunity Management 
Institute) Equal Opportunity Management Institute.
Attachment:
    1. DEOCS Survey 4.0 [Deleted.]
    Sergeant Major Barrett.
      
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
      
    Senator Hirono. I only have a little bit of time left, but 
I want to focus on the educational opportunities for our 
soldiers. The post-9/11 GI Bill has been an outstanding 
program. Many have taken advantage of this program. My question 
is do any of you provide an assessment of how the program is 
performing? Do you track student success, school performance, 
where the 9/11 GI benefits are used?
    Chief Petty Officer Stevens. Senator, if I could answer 
that question because I would like to use a personal example. 
My son, Shane Stevens, enlisted in the Navy and he did 4 years 
as a cryptological technician. During that 4 years, he used the 
Tuition Assistance (TA) program, and he received his bachelor's 
degree. Then he decided to separate from the Navy, and he went 
to the University of Florida or actually Florida State. He 
would probably kill me if I said University of Florida, but 
Florida State University where he used the post-9/11 GI Bill 
and received his master's degree while he was there and then 
subsequently went on to get hired by a very good company doing 
the same work that he did in the Navy. When I watched him go 
through that entire process with the education benefits that 
not just the Navy but that the military provides our young men 
and women, I saw it work firsthand and it worked very well for 
him.
    Senator Hirono. There have been some concerns particularly 
about for-profit colleges and universities that target veterans 
for high loan amounts and all that. I hope that there is a way 
that we can better track the experiences of our veterans.
    Is my time up? I am not sure.
    Senator Gillibrand. Your time has expired.
    Senator Hirono. Thank you. I could keep going.
    Senator Gillibrand. We all could.
    Senator Hirono. Thank you, Madam Chairwoman.
    Senator Gillibrand. Thank you all for your testimony. This 
has been invaluable in the deliberations we have to undergo in 
order to write the next national defense authorization bill. I 
am very grateful for your service and for your leadership and 
being a voice for the men and women who serve under each of 
you. Thank you very much. We are now adjourned.
    [Whereupon, at 12:15 p.m., the subcommittee adjourned.]

    [Questions for the record with answers supplied follow:]
           Questions Submitted by Senator Richard Blumenthal
                 workforce requirements and shortfalls
    1. Senator Blumenthal. Lieutenant General Bromberg, Vice Admiral 
Moran, Lieutenant General Cox, and Lieutenant General Milstead, a 
recurring theme I have heard from industrial leaders in Connecticut is 
that they are having trouble finding and recruiting a capable 
workforce. Our aerospace industry is a critical one--one that must be 
retained as a national security asset. I am also concerned with recent 
increases in the unemployment rate for veterans. According to the 
fiscal year 2015 budget proposal, there will be cuts in the size of our 
military. The Department of Defense (DOD) will return thousands of 
capable veterans to the civilian workforce. While each Service 
maintains its own transition-assistance programs to be made available 
to military personnel awaiting discharge, I understand that these 
programs focus on general workforce skills such as resume writing, 
professional dress, and interview processes. Please provide a summary 
of what is covered within each Services' transition assistance program.
    Lieutenant General Bromberg. The Army is committed to supporting 
our soldiers at all phases of the Soldier Life Cycle--initial entry, 
career service, transition, and retirement. The department's Soldier 
for Life program aids Army senior leaders fulfill this commitment by 
connecting soldiers to employment, education, health care, and retiree 
information and resources.
    All soldiers who serve 180 days or more on Active Duty in the Army 
are required by law and policy to complete training consisting of pre-
separation counseling, the Department of Veterans Affairs (VA) Benefit 
Briefings, the Department of Labor (DOL) Employment Workshop, 
Individual Transition Plan (ITP), Military Occupational Specialty (MOS) 
Crosswalk-Gap Analysis, VA eBenefits registration, DOL Gold Card, 12-
month post-service budget, continuum of military service opportunity 
counseling (Active component), Individual Assessment Tool, and job 
application package or job offer letter. If supported by their ITP, 
eligible soldiers can also complete a Career Track (education, 
technical, vocational, or entrepreneurial) and, if needed, complete the 
capstone event with a warm-handover to VA or DOL. Together, the 
Veterans Opportunity to Work (VOW) and Career Readiness Standards (CRS) 
prepare a soldier to transition from Active Duty.
    Beyond the training required by law and policy, soldiers may 
participate in career skills programs such as apprenticeship, 
credentialing, on-the-job training, job shadowing, and internship 
programs with national and international corporations and trade unions. 
With respect to assessing higher education opportunities, more than 500 
master level counselors and a 24/7 Virtual Counseling Center are 
available to support transitioning soldiers in this endeavor.
    Vice Admiral Moran. The Navy Transition Assistance Program (TAP) 
offers:

        <bullet> a DOL Employment Workshop that provides information on 
        resume building, job search techniques, and interview skills;
        <bullet> a VA briefing on veterans' benefits;
        <bullet> Navy briefings on post-military budgeting; and 
        translation of military skills, training, and experience toward 
        a civilian occupation;
        <bullet> Individual training-tracks in assessing higher 
        education and obtaining technical training to help meet future 
        career goals and facilitate access to individual counseling 
        services; and
        <bullet> a Small Business Administration course that provides 
        individual training in developing entrepreneurial skills.

    CRS, used to measure and assess each sailor's preparedness for 
transition, are reviewed at a Capstone Event approximately 90 days 
before separation, and may lead to referral for additional or remedial 
training, and a warm handover to partner agencies (e.g., VA, DOL), for 
sailors in need of additional assistance.
    Approximately 90 percent of sailors who have attended TAP agreed, 
or strongly agreed, that the program was beneficial in helping them 
gain information and skills needed to better plan for transition.
    In addition to delivery of TAP, the Navy refers sailors looking for 
employment and prospective employers to the Veterans Employment Center 
(VEC). The VEC is the Federal Government's single authoritative 
internet source for connecting transitioning servicemembers, veterans, 
and their families to career opportunities. The VEC allows employers to 
post job opportunities that will be visible to, and searchable by, job 
seekers, and to search servicemember profiles by keyword and/or 
geographic location.
    Lieutenant General Cox. TAP is a partnership between DOD, DOL, and 
VA.
    The overall goal is to provide separating/retiring servicemembers/
families the information, skills, and resources needed for a successful 
transition to the civilian sector. TAP provides civilian career 
development, personal and financial wellness, and life skills to all 
separating/retiring airmen. Air Force is delivering transition services 
as a comprehensive, mandatory program that includes pre-separation 
counseling, a military-to-civilian skills review, VA benefits 
briefings, financial planning support, job search skills building, and 
an individual transition plan preparation which will aide in a 
successful transition into a career ready civilian. Air Force TAP 
features a 5-day workshop with further optional training tracks (Higher 
Education, Technical Training, and Entrepreneurship taught by the Small 
Business Administration) in addition to extensive one-on-one 
counseling. Air Force promotes preparation for separation or retirement 
to be inclusive of the family. Spouses are encouraged to participate 
with the airman in all facets of the TAP. In summary, TAP provides 
civilian career development, personal and financial wellness, and life 
skills to all separating/retiring airmen.
    Lieutenant General Milstead. Our Marine Corps Transition Readiness 
Seminar (TRS) is a week-long program that includes a mandatory 
standardized core curriculum (taught primarily by VA and DoL trainers) 
and introduction to four well-defined military-to-civilian pathways to 
be selected by the marine. Our marines also have the option to attend 
one of three additional 2-day tracks outside of TRS for more a detailed 
hands-on/in-depth application to assist with their individual elective 
pathway choices: (1) College/Education/University facilitated by Marine 
Corps personnel; (2) Career/Technical Training facilitated by Veterans 
Affairs staff; or (3) Entrepreneurship facilitated by the Small 
Business Administration.

    2. Senator Blumenthal. Lieutenant General Bromberg, Vice Admiral 
Moran, Lieutenant General Cox, and Lieutenant General Milstead, upon 
discharge, I understand that most military servicemen and women tend to 
either stay in place or return to their original home of record. 
However, in today's more mobile economy, it may make better sense for 
the veteran to consider a different location--an industrial cluster 
more accommodating to the years of experience they have gained from 
their years in service. For instance, a helicopter mechanic with 8 
years of experience working aboard an Army base who is seeking to leave 
Active Duty might be especially suited for work at Sikorsky. What 
mechanisms are in place to direct or target military personnel 
possessing specific occupational specialties, such as avionics or 
intelligence, to seek higher-level education or employment at existing 
industrial clusters better pertaining to their respective specialty?
    Lieutenant General Bromberg. Through the Army TAP, soldiers conduct 
a MOS Crosswalk which translates military skills, training, and 
experience to those skills recognized in the civilian sector and 
identifies gaps in their training or experience. Soldiers then may 
participate in career skills programs such as apprenticeship, 
credentialing, on-the-job training, job shadowing, and internship 
programs with national and international corporations, and trade unions 
to mitigate identified gaps. These programs afford soldiers the 
flexibility to transfer to other locations for a variety of reasons.
    Vice Admiral Moran. As a member begins the transition process, they 
are introduced to a wealth of information through a DOL Occupational 
Information Network (O*NET) website. Servicemembers can enter their 
military occupation, credentials, and experience into O*NET, which:

        <bullet> directs them to States/municipalities with available 
        employment opportunities aligned with their specific skills and 
        chosen career path;
        <bullet> identifies required or recommended qualifications; and
        <bullet> provides the typical/average salary, based on the 
        particular position.

    Lieutenant General Cox. The Air Force Credentialing On-Line (COOL) 
program, which will come online on 1 Oct 14, has an interface with the 
DOL O*Net to identify not only credentials tied to the airmen's Air 
Force jobs but to provide information on hot careers/employment trends 
at both the national and State levels. This includes a focus on areas 
of the United States that are expected to see an increase or decrease 
in job opportunities for various careers. It also provides information 
on required education for specific careers, median national and State 
salaries, and a job bank and list of job openings for each career. Base 
education counselors then advise airmen on educational programs that 
meet the airmen's career goals and help them determine the best program 
to meet their needs. This information, along with what is provided on 
COOL, helps airmen make informed decisions on what career to pursue and 
where they should relocate post-service.
    Lieutenant General Milstead. Our marines experience multi-layered 
exposure and informational support that complements their elective 
pursuit of higher education or employment in various occupational 
domains. They are introduced to apprenticeship and credentialing 
programs in initial training and throughout their occupational 
specialty career. These build on the marketability of their specific 
skills in the geographic areas that offer the greatest opportunities 
for those skills. Through our TRS, marines are introduced to advisors, 
guidance, and resources that can identify geographic locales and 
industry centers; DOL Employment Workshops; and utility of resource 
tools such as O*NET that offer employment opportunities and directions 
in various fields. Finally, each and every marine meets with his or her 
commanding officer, culminating their transition readiness preparation 
and counseling relative to their unique skills and choices of future 
pursuits. Because each marine is ``Once a Marine, Always a Marine,'' 
our Marine Corps offers connectivity to opportunities across their 
Marine For Life cycle, beyond their service, as veteran marines.

    3. Senator Blumenthal. Lieutenant General Bromberg, Vice Admiral 
Moran, Lieutenant General Cox, and Lieutenant General Milstead, how do 
the individual Services ensure that every servicemember receives 
training, education, and credentials needed to successfully transition 
to the civilian workforce?
    Lieutenant General Bromberg. The Army requires all transitioning 
soldiers who have a minimum of 180 days of continuous Active Duty at 
the time of their transition to enroll in the Army Career and Alumni 
Program (ACAP). 12 months prior to transition, each servicemember is 
counseled by his or her chain of command on the mandatory transition 
requirements and the options available for a successful post-service 
transition. Commanders track transitioning soldiers as they progress 
through various programs, ensuring they have sufficient time to take 
full advantage of these services. By starting well before transition, 
soldiers can take full advantage of all ACAP services without 
interfering with duty requirements.
    Army transition efforts encompass multiple programs focusing on 
training, education, and credentials needed to successfully transition 
to the civilian workforce: VOW; CRS; Career Skills Program (CSP); and 
DOD Transition Goals, Plans, and Success (GPS) for the Total Force 
(Active and Reserve components); and COOL.
    Under the CSP, soldiers have the opportunity to enroll in 
apprenticeship, credentialing, on-the-job training, job shadowing, and/
or internship programs with national and international corporations and 
trade unions.
    Also, there are two career tracks incorporated into a soldier's 
individual transition plan if training and education are one of their 
post service goals. With respect to training, the vocational/technical 
career track as part of the TAP offers soldiers the opportunity to 
develop or enhance their skills in a chosen field. Similar to the 
vocational/technical track, the accessing higher education career track 
pairs transitioning soldiers with certified education counselors so 
soldiers can make informed decisions about selecting the right academic 
institution and degree program of study to meet their needs.
    Additionally, the Soldier for Life program aids Army senior leaders 
to support transitioning soldiers by connecting them to employment, 
education, health care, and retiree information and resources.
    Vice Admiral Moran. Navy promotes education and credentialing 
opportunities at all stages of a sailor's service. Through education 
opportunities, including TAP, the Navy College Program for Afloat 
College Education and education voucher programs, sailors are 
encouraged to earn Navy-relevant degrees to enrich their career, and 
position them for successful transition to post-service employment. 
Sailors are also encouraged to obtain civilian licenses and credentials 
by leveraging TAP, COOL, and the United Services Military Apprentice 
Program (USMAP). Through these programs, Navy funds over 15,000 
civilian licenses and credentials awarded to over 7,000 sailors per 
year.
    TAP enables sailors to acquire additional knowledge and skills 
training for civilian credentials. The program funds Active Duty 
tuition costs of courses taken in an off-duty status at a college, 
university, or vocational/technical institution. TAP funds clock hour 
programs, which provide vocational education opportunities that enhance 
skills in technical career fields, and benefit sailors upon their 
eventual return to the private sector.
    COOL aids the transition from military service, enhancing the 
ability of veterans to translate their military training and experience 
to civilian jobs. The program informs sailors on what civilian 
credentials relate to their ratings, designators, and collateral 
duties/out of rate assignments, and how to obtain the credentials. It 
also lets sailors know how to fill gaps between Navy training and 
experience, and civilian credentialing requirements. These credentials 
may be required by law, or by prospective employers for entry into 
employment, and can lead to higher pay or improved prospects for 
promotion.
    USMAP provides sailors a vehicle to have their supervised practice 
observed and documented, via the DOL, allowing them the opportunity to 
achieve civilian apprenticeship requirements while on Active Duty. Many 
State licenses or industry credentials require this documentation as an 
apprentice, and USMAP affords them the opportunity.
    Through these combined efforts, Navy has led the way in helping 
sailors attain occupational certifications and degrees that benefit 
both the servicemember and the Navy.
    Lieutenant General Cox. Many of our initial training/technical 
schools provide civilian credentials upon graduation, such as several 
jobs in the IT career field. Thus, many airmen start their Air Force 
careers with a credential in hand. The Community College of the Air 
Force integrates civilian credentials into programs and awards semester 
hour credit toward degree completion. In addition, the Air Force will 
be launching its COOL program on 1 Oct 14. COOL provides detailed 
analysis of Air Force jobs and the various credentials that relate to 
them. The training for each enlisted career field is analyzed and 
matched with the most appropriate civilian credentials, for which COOL 
provides information on training, requirements, and related 
information. In addition, COOL and other voluntary education programs/
counseling are being integrated into the Air Force Military Life Cycle 
through which airmen will be advised, at key touch points in their Air 
Force careers, on education, training, and credentialing programs 
available to them.
    Lieutenant General Milstead. As directed by our 35th Commandant's 
Planning Guidance and in alignment with the VOW to Hire Veterans Act, 
our Marine Corps transition assistance has been significantly revised 
and improved. The Marine Corps ensures that transitioning marines 
receive all mandatory VOW Act services, including pre-separation 
counseling, DOL employment workshop, and the VA benefits briefs I and 
II during our TRS. We concurrently guide marines in their 
accomplishment of corresponding CRSs. Marines must complete the TRS 
within 12 months of separation or within 24 months of retirement, but 
no later than 180 days prior to their separation or retirement.
    The Marine Corps has recently joined the Navy COOL program that 
helps marines find information on certifications and licenses related 
to their MOSs. COOL explains how marines can meet civilian 
certification and license requirements and provides links to numerous 
resources to help get them started. The COOL site is both a search tool 
and information source. Marines can find information on a specific 
credential by searching by MOS or by name of a specific credential or 
agency. Marines can also find general information on credentials and 
licenses, and on resources to help cover credentialing costs or work on 
an education plan. Currently, this program is in a soft rollout mode, 
with 10 MOSs available. Each month, 10 or more MOSs will be added to 
the site.

                           reserve component
    4. Senator Blumenthal. Lieutenant General Bromberg, Lieutenant 
General Cox, and Lieutenant General Milstead, the Services have an 
obligation to ensure that Reserve and National Guard components are 
able to maintain both their commitments to their national security 
missions as well as to their local communities, jobs, and families. I 
am increasingly aware of the problems plaguing our Reserve component 
due to homelessness and joblessness. As we continue to withdraw and 
demobilize the Reserve Forces, what is the plan for the overall 
stewardship of our military Reserve component to prevent these 
problems?
    Lieutenant General Bromberg. Transition from deployed service for 
Reserve component soldiers requires planning throughout a soldier's 
career. To this end, the Army provides soldiers assistance in creating 
an individual transition plan. These plans are executed in conjunction 
with unit training, supported through Army Force Generation and the 
Army Career and Alumni Program (ACAP).
    Six months prior to Reserve component soldiers' transitions, the 
Army conducts workshops, briefings, and required counseling. Available 
individual training courses for transitioning soldiers are: financial 
preparedness; new career preparation; knowledge, skills, and abilities 
assessment; translating military to civilian skills; interview 
techniques; dress for success; evaluate and negotiate job offers; and 
continuing education. The Army also offers training, certification, 
credentialing, and licensing programs in partnership with industry and 
trade organizations. Soldiers with pending disability determinations 
complete the disabled transition assistance, as necessary. The Army 
also offers various services for 6 months following transition, 
including support with employment searches, job fairs, and seminars on 
starting a new business.
    To ensure success for transitioning soldiers, commanders are 
responsible for ensuring soldiers begin transition education and 
assistance no later than 12 months prior to separation. If a soldier's 
leadership does not provide the time to begin the transition process, 
soldiers should exercise their chain of command's open door policy, in 
order to address their issue.
    Ultimately, Army leaders are charged with the responsibility of 
setting a command climate where soldiers know they are valued and are 
career and/or education ready as they transition to civilian life.
    Lieutenant General Cox. The Air Force takes the health and well-
being of all our members very seriously. There are many resources 
available to assist our members with personal and family preparedness 
such as Airman and Family Readiness (A&FR), Military OneSource, and the 
Air Force Reserve Wingman Toolkit, as well as the Air National Guard 
Ready54. These programs are there to assist members and families with 
identifying and clarifying needs, to determine appropriate forms of 
assistance, and to provide linkage to appropriate national, State, and 
local resources.
    With regard to homelessness, that is a greater issue with those who 
are no longer in the Service and would be better answered by the VA. As 
far as joblessness, the Office of the Secretary of Defense has put into 
place programs such as the Transition GPS, Yellow Ribbon and 
Reintegration Program, Employer Support Guard Reserve, and Hero2Hired 
to assist Reserve component members with transitions and civilian 
employment. In efforts to ensure the health of the Force before, 
during, and after deployment, the Air National Guard is focusing on 
resilience training and messaging under the construct of the Air Force 
Comprehensive Airmen Fitness and the Total Force Fitness Framework. The 
Air Force goal is to raise awareness as well as an understanding of 
community resources and how to access them, making it easier for 
members to seek help early for employment, finances, and/or homeless 
concerns.
    Additionally, A&FR provides support to members and families in 
achieving short- and long-term employment, education/training, and 
career goals. Employment skills counseling (including resume writing, 
interviewing, and negotiation) is provided to members to help prepare 
for local and long-distance job searches and resources for self-
employment, small business, and entrepreneurial efforts. The Reserve 
component ensures services are available to all personnel in accordance 
with host/tenant agreements and to those geographically separated. A&FR 
personnel are also trained to provide basic financial management and as 
part of the Joining Community Forces efforts. A&FR personnel are 
working to build community capacity leveraging all available resources 
within a State to support military members and their families.
    Lieutenant General Milstead. Our marines train and prepare for 
their transition readiness across the continuum of their service. They 
learn to translate their warfighting skills into marketable civilian 
skills and employment opportunities through academic pursuits and the 
use of apprenticeships and credentialing. All of our marines, Active 
and Reserve, receive all mandatory VOW to Hire Veterans Act transition 
requirements. They also receive support in achieving their individual 
CRSs through our TRS. Meeting with their commanding officers before 
their transition, each marine verifies their training and preparedness 
for a successful return to our communities. Our daily stewardship of 
our fellow marines, as a Total Force, is that which defines us as 
marines--the exercise of the tenets of our ethos of Keeping Faith and 
Once a Marine, Always a Marine. We return quality citizens to our 
Nation as Marines For Life, and our Corps welcomes and offers continued 
connectivity to education and employment services and opportunities to 
our fellow marine veterans.
    Recognizing that Reserve marines face reintegration concerns in 
addition to those of transition, the Marine Corps uses the Yellow 
Ribbon Reintegration Program (YRRP) and its suite of resources and 
information to address the challenges of returning to families, 
friends, communities, and employers. Marines and their families 
participate in YRRP events before, during, and after deployments to 
learn about benefits, entitlements, community resources, and support 
networks to their local area.
                                 ______
                                 
             Questions Submitted by Senator Mazie K. Hirono
                 incorporating command climate surveys
    5. Senator Hirono. Lieutenant General Bromberg, General Moran, 
Lieutenant General Cox, and Lieutenant General Milstead, how could 
command climate surveys be best used for command selection boards and 
promotion boards to make sure that we are promoting and placing the 
right people in command?
    Lieutenant General Bromberg. Currently, the command climate survey 
is used as a leadership development tool. Commanders must be afforded 
the opportunity to learn and further develop their leadership skills 
based on the results of command climate surveys. This tool offers 
commanders at lieutenant colonel and colonel-levels and their raters a 
perspective of their own leadership styles and effectiveness from the 
points of view of subordinates, peers, and superiors. The results of 
these assessments are used to identify leadership characteristics and 
to facilitate counseling, correction, and improvement of weaknesses, as 
well as reinforcement of leadership strengths. The results of such 
assessments must be treated with confidentiality to ensure honest and 
accurate input. A promotion or command selection board may have a 
difficult time putting the results of a command climate survey (a non-
attribution opinion poll in essence) into a fair context.
    Any single climate survey won't identify trends and, when taken in 
the first 30 to 60 days of command, may be more influenced by the 
previous commander. The commander's initial command climate survey 
(DEOCS) is just one part of the climate assessment and should be used 
as the basis to identify improvement or decline within subsequent 
assessments. This history of survey results, along with other climate 
assessment tools, can be used by raters and senior raters on evaluation 
reports which require rating officials to assess how the rated soldier 
meets the commitments of fostering climates of dignity and on adhering 
to the principles of the Sexual Harassment/Assault Response and 
Prevention (SHARP) program in their daily activities. This assessment 
on the soldier's evaluations report communicates to promotion and 
selection boards the result of climate surveys in context with other 
assessment tools over a period of time.
    Vice Admiral Moran. In August 2013, I directed, via change to my 
instruction on the Navy Performance Evaluation System, that reporting 
seniors use command climate surveys to rate/comment on efforts by 
individual members on the quality of results in fostering a command and 
workplace environment conducive to the growth and development of 
personnel. Rating officials are required to include this rating/comment 
in fitness reports and evaluations on commanding officers, executive 
officers, command master chiefs, department heads, division officers, 
chief petty officers, and leading petty officers who are responsible 
for assigned personnel. Since these fitness reports and evaluations are 
part of a member's Official Military Personnel File, the results of 
command climate surveys are now an element in command and promotion/
advancement selection board deliberations.
    Lieutenant General Cox. Command selection and promotion boards 
determine the most qualified persons to command and serve in the next 
higher grade. The boards review each officer's evaluations, 
decorations, and training reports, scoring each record on its own 
merit. Organizational climate surveys, and more importantly, the 
officer's actions to cultivate a climate of dignity and respect are 
performance factors discussed and documented during mandatory feedback 
sessions. At the end of the evaluation period, the officer's 
performance is described on the performance report and incorporated 
into the officer's permanent record. Though neither the climate surveys 
nor the feedback forms become part of the permanent record, the 
officer's performance with respect to the unit climate and feedback 
sessions is reflected in the evaluations for command selection and 
promotion boards to consider. This is the most appropriate use of 
climate surveys and feedbacks, as it permits the officer to take 
assertive action to enhance their unit's climate and job performance.
    Lieutenant General Milstead. Command climate survey data can best 
be used in command screening boards (non-statutory) to enhance 
situational awareness of Corps-wide issues in an effort to 
appropriately assign commanders that will be effective in setting the 
appropriate environment. Due to the statutory and regulatory 
constraints on officer promotion boards, 10 U.S.C. 615 and DODI 1320.14 
respectively, the results of command climate surveys are not permitted 
into officer promotion boards for consideration as they do not 
constitute part of the official record. Further, any such material, if 
deemed to have merit for submission into the boardroom, requires 
Service Secretary approval.

    6. Senator Hirono. Lieutenant General Bromberg, General Moran, 
Lieutenant General Cox, and Lieutenant General Milstead, what is your 
opinion on how command climate surveys can be better used to improve 
the environment of a unit, as well as debriefing the crew and the 
commander about the results, to foster a culture of dignity and 
respect?
    Lieutenant General Bromberg. Command climate surveys are one 
important component of a command climate assessment. The surveys help 
commanders establish and maintain a positive command climate which in 
turn fosters a culture of dignity and respect. The surveys cover a 
range of topics including discrimination, sexual harassment, hazing, 
and quality of leadership. The results of the surveys highlight areas 
of concern that commanders can act upon. After receiving survey 
results, commanders can use other tools to provide depth and clarity, 
such as interviews, focus groups, and staff assistance visits. 
Debriefing the soldiers under their command allows the soldiers to 
better understand any issues confronting their unit and to give a voice 
for potential solutions.
    Vice Admiral Moran. The Defense Equal Opportunity Management 
Institute (DEOMI) Organizational Climate Survey (DEOCS) is a 
commander's management tool that allows them to proactively assess 
critical organizational climate dimensions. Each commander is able to 
tailor a total of 15 questions, 10 locally developed and 5 short answer 
questions unique to their own command to assess their individual 
command climates.
    Navy uses the DEOCS, along with focus groups/interviews, 
observations, and review of records/reports as part of the command 
climate assessment process. Upon completion of an assessment, results 
improve the overall unit when commanders share these findings with 
their personnel, with a great deal of transparency. By doing so, the 
commander is creating an environment where his or her personnel 
realizes that command leadership have heard their concerns and takes 
this feedback seriously; creating unity and fostering respect and 
dignity within the command.
    Additionally, Navy policy directs commanders to conduct a face-to-
face debrief with their Immediate Superior in Command on the results of 
command climate assessment. This process provides the Immediate 
Superior in Command an opportunity to mentor the commander. Effective 
July 31, 2013, the Immediate Superior in Command now automatically 
receives a copy of the subordinate's command climate survey results.
    Lieutenant General Cox. The results from a command climate survey 
can be used to improve the environment of the unit by making the 
process as transparent as possible for unit members, ensuring a public 
commitment from the commander to make needed improvements. Comparing 
initial assessment results with what is obtained 1 year later would 
show the commander and the organization any progress that was made, 
motivating individuals towards continued efforts in optimizing their 
climate. Recognizing that command climate is impacted by a span of 
human relations factors and ensuring those who advise commanders on 
their climate are adequately trained and equipped to respond to issues 
identified through the survey, would enhance the survey process 
significantly.
    Lieutenant General Milstead. Command climate surveys are management 
tools for commanders to proactively assess critical organizational 
climate dimensions that can impact the organization's mission. They set 
requirements and oversight measures to ensure appropriate actions 
address the concerns of unit members is appropriate. In September 2013, 
enhanced oversight measures were implemented for all command climate 
surveys. Today, all Marine Corps command climate surveys require 
commanders to develop action plans to address deficiencies identified 
in the report. All action plans must be approved by the commander's 
next higher level leadership. This process ensures responsibility and 
accountability for all levels of leadership. With regards to debriefing 
members of the command, the Marine Corps will require commanders to 
brief their unit members on the results of their assessments along with 
the plan of action once it has been approved by the next higher level 
leadership. This policy change will help to ensure members of the 
command receive necessary feedback enhancing a greater sense of trust 
in leadership and commitment to the organization.

        officer performance reports and officer fitness reports
    7. Senator Hirono. Lieutenant General Bromberg, General Moran, 
Lieutenant General Cox, and Lieutenant General Milstead, does your 
respective Service have the ability to ascertain and record whether or 
not a servicemember promotes an atmosphere free of sexual harassment, 
sexual assault, and hazing?
    Lieutenant General Bromberg. Yes, Army senior leaders are confident 
that good leadership is critical to any solution and is paramount in 
creating a climate free from sexual assault, sexual harassment, and 
hazing. To assess our leaders, the Army utilizes the DEOCS. This survey 
helps to provide a complete perspective of the organizational 
effectiveness and readiness of units. Company commanders conduct 
organizational climate assessments 30 days and 6 months after taking 
command, then annually thereafter. All other command levels must 
conduct assessments within 60 days of assuming command and annually 
thereafter. After the commanders receive the results of their command 
climate assessments, they are required to complete a debrief with the 
next higher level commander and develop command action plans to address 
the areas of concern noted by the assessments.
    Additionally, the Army now requires new elements in the Officer 
Evaluation Reports (OER) and Noncommissioned Officer (NCO) Evaluation 
Reports (NCOER). As of September 2013, rating officials must assess 
officers and NCOs on how the rated soldier meets the commitments of 
fostering climates of dignity and respect and on adhering to the 
principles of the SHARP program in their daily activities.
    Vice Admiral Moran. Yes, the Navy has measures in place that 
provide the ability to ascertain and record whether or not a 
servicemember promotes an atmosphere free of sexual harassment, sexual 
assault, and hazing. As of August 2013, sailors are accountable on 
every evaluation or fitness report for contributions to Command or 
Organizational Climate/Equal Opportunity and Military Bearing/
Character. To achieve high marks in these areas, sailors must 
demonstrate how they have cultivated or maintained command climates 
where discrimination, sexual harassment, sexual assault, hazing, and 
other inappropriate conduct is not tolerated; where all personnel are 
treated with dignity and respect; and where professionalism is the 
norm.
    Lieutenant General Cox. On January 1, 2014, our Air Force 
implemented policy charging all airmen with the responsibility to 
cultivate a positive climate of dignity and respect, free of sexual 
harassment, sexual assault, hazing, and other acts and conditions 
detrimental to good order and discipline. Additionally, our Air Force 
utilizes tools like the climate survey and numerous internal agencies, 
including the Sexual Assault and Response Coordinator, the Inspector 
General, the Equal Opportunity Office, Security Forces, and the chain 
of command, for airmen to report incidents of adverse behavior or toxic 
environments. Once reported to an agency or identified in the survey, 
commanders are required to assess the information and take appropriate 
action, including investigating, prosecuting, and annotation in the 
offender's permanent record.
    Further, our policy requires discussion and documentation of 
organizational climate during every airman's mandatory feedback 
session. Also, supervisors at every level are to consider subordinate's 
actions to promote a climate of dignity and respect when completing the 
airman's performance evaluation which will become part of the airman's 
permanent record.
    Lieutenant General Milstead. Yes. Each marine's reporting senior 
officer completes a fitness report at least annually that evaluates the 
marine's ability to carry out his or her mission, which, for officers, 
includes establishing and maintaining a command climate that is 
intolerant of misconduct (such as sexual harassment and hazing) and 
criminal behavior (such as sexual assault). The fitness report 
considers an officer's performance across a variety of parameters that 
contribute to command climate: mission accomplishment, individual 
character, leadership, and intellect. The leadership section (Section 
F) in particular evaluates an officer's ability to set an example; 
communicate effectively; provide direction; and develop, lead, and 
ensure the well-being of subordinates. It also allows reporting seniors 
and reviewing officers to comment on each of the SAPR Lines of Effort.
    In addition, the Commandant of the Marine Corps approved in April 
2014 an addendum to the SAPR Campaign Plan that directs an update to 
the Performance Evaluation System Manual to reflect an evaluation of 
the commander's ability to set a command climate that is non-permissive 
of misconduct, especially sexual assault. We are currently in the 
planning stages of this initiative.
    The Marine Corps is committed to holding officers accountable for 
command climate, and we have provided our senior officers with the 
tools to continually (not just once a year) ascertain that their 
subordinate officers are performing as expected in terms of sexual 
assault prevention and response. For example, results of the DEOMI and 
the internal Commandant of the Marine Corps command climate surveys--
which are conducted when a new commanding officer assumes command and 
at least annually thereafter--are reported up the chain of command. The 
chain of command also is notified of each report of a sexual assault 
within subordinate units. Senior officers are continually and 
proactively ensuring that all servicemembers are doing all they can, as 
best they can to create a respectful, safe Corps for each and every 
marine.

    8. Senator Hirono. Lieutenant General Bromberg, General Moran, 
Lieutenant General Cox, and Lieutenant General Milstead, what is your 
opinion on adding criteria to evaluate an individual's ability and 
efforts in maintaining a command climate which will not tolerate or 
condone hazing, sexual harassment, sexual assault, and ensures all 
members of the unit are treated with dignity and respect?
    Lieutenant General Bromberg. Army senior leaders are confident that 
good leadership is critical to any solution and is paramount in 
creating a climate free from sexual assault, sexual harassment, and 
hazing. To this end, we have implemented changes to the evaluation 
process to ensure leader accountability for creating positive command 
climates, which ensures leaders take action to eliminate behaviors and 
attitudes that may lead to sexual harassment and sexual assault.
    The Army now requires new elements in the OERs and NCOERs. As of 
September 2013, rating officials must assess officers and NCOs on how 
the rated soldier meets the commitments of fostering climates of 
dignity and respect and on adhering to the principles of the SHARP 
program in their daily activities.
    Vice Admiral Moran. The Navy fully supports adding criteria to 
evaluate an individual's ability and efforts in maintaining a command 
climate which will not tolerate or condone hazing, sexual harassment, 
sexual assault, and ensures all members of the unit are treated with 
dignity and respect. A change was announced to the Navy performance 
evaluation system on August 28, 2013. Every sailor is accountable on 
every evaluation or fitness report for contributions to Command or 
Organizational Climate/Equal Opportunity and Military Bearing/
Character. These changes are viewed as complementary and synchronized 
with the command climate survey outcomes provided to commanding 
officers and immediate superiors in command. To achieve high marks in 
these areas, sailors must demonstrate how they have cultivated or 
maintained command climates where improper discrimination of any kind, 
sexual harassment, sexual assault, hazing, and other inappropriate 
conduct is not tolerated; where all hands are treated with dignity and 
respect; and where professionalism is the norm.
    Lieutenant General Cox. It has always been the duty of every airman 
to positively contribute to a healthy organizational climate by being a 
good wingman, adhering to, and enforcing standards, not allowing any 
action that is harmful to the good order and discipline of the unit, 
not tolerating sexual assault and harassment or any type of 
discrimination, and of course, building an environment based on a 
foundation of dignity and respect. In January of this year, we 
implemented policy to hold all airmen responsible to maintain a climate 
of dignity and respect. During mandatory feedback sessions, supervisors 
at every level are to discuss and document subordinates' actions to 
promote and maintain a positive organizational climate and to consider 
those actions when preparing evaluations. Additionally, we enacted 
policy to specifically hold commanders accountable for cultivating an 
environment of dignity and respect within their units. These policy 
modifications reinforce our responsibility for organizational climate 
and ensures it is discussed during feedback and considered on every 
airman's evaluation.
    Lieutenant General Milstead. In April 2014, the Commandant of the 
Marine Corps approved an addendum to the Marine Corps SAPR Campaign 
Plan that directs our Performance Evaluation System Order be updated to 
reflect an evaluation of a commander's ability to set a command climate 
that is non-permissive of misconduct and especially the crime of sexual 
assault. The Commandant of the Marine Corps has directed, in this 
rewrite in particular, a specific directed comment within the 
commander's fitness report that can be discussed in detail within 
multiple subsections of the fitness report ranking system. Because this 
information is briefed to a board (promotion, selection, et cetera), it 
is incumbent upon members of the board to address future command 
potential and implications for continued future service. We expect this 
task to be completed this year.
                                 ______
                                 
             Questions Submitted by Senator Lindsey Graham
                 freezing general and flag officer pay
    9. Senator Graham. Sergeant Major Chandler, Master Chief Petty 
Officer Stevens, Chief Master Sergeant Cody, and Sergeant Major 
Barrett, what effect do you think freezing general and flag officer pay 
will have on morale?
    Sergeant Major Chandler. The 1-year pay freeze for general and flag 
officers will have negligible effect on the morale of the force. Aside 
from this affected population, overall, the majority of the force will 
be receiving the 1 percent pay increase as part of the attempt to slow 
the growth of military compensation costs and return critical funds 
needed for sustaining training, readiness, and modernization.
    Chief Petty Officer Stevens. It is my perception that freezing 
general and flag officer pay could have a negative impact on the morale 
of the force. More specifically, it could foster uncertainty and create 
a precedent for future pay freezes affecting the rest of the force. 
This in turn could have a negative effect on morale, recruiting, and 
retention. It is also possible that much of the force will recognize 
such a freeze as a symbol that our most senior leaders are sharing some 
of the pain felt by the troops, on whom any other reductions or cuts 
tend to have a more significant effect.
    Sergeant Major Cody. I feel airmen will see this as their senior 
leaders leading from the front. If airmen are going to receive smaller 
pay raises in fiscal year 2015, then it is good to see our general 
officers ensuring they are not exempt and in fact not even receiving a 
pay raise in fiscal year 2015.
    Sergeant Major Barrett. I believe that a pay freeze for general and 
flag officers in 2015 will send a positive message to all 
servicemembers that the general and flag officer community is doing its 
part in this austere budget environment.
    However, I do have concerns as to how long this freeze may 
continue. Our general and flag officers carry a tremendous work load 
and shoulder immense responsibility. In order to maintain the high 
quality of general and flag officers that currently fill our ranks, 
measures must be implemented now to ensure this freeze is temporary. 
Not doing so could de-incentivize future leaders from inspiring to take 
on such responsibilities.

                    pay and benefit budget proposals
    10. Senator Graham. Sergeant Major Chandler, Master Chief Petty 
Officer Stevens, Chief Master Sergeant Cody, and Sergeant Major 
Barrett, the President's budget includes proposals to slow the growth 
of base pay; to reduce basic housing allowances by 5 percent; to reduce 
average commissary savings from 30 percent to 10 to 15 percent; and to 
implement new and higher TRICARE fees and co-pays. If adopted, what 
would be the impact of the President's proposals on compensation and 
benefit changes to the long-term sustainability of the All-Volunteer 
Enlisted Force?
    Sergeant Major Chandler. The Army supports a holistic and 
comprehensive approach that reforms military compensation in a fair, 
responsible, and sustainable way. Changes to military compensation 
included in the fiscal year 2015 budget request--which include slowing 
the growth of housing allowances, reducing the annual direct subsidy 
provided to military commissaries, and simplifying and modernizing our 
TRICARE health insurance program--are important first steps that 
generate savings while retaining competitive benefits. These savings 
will be invested in readiness and modernization.
    Chief Petty Officer Stevens. In comparing military compensation to 
the civilian work force, it is likely the Navy will remain a 
competitive option for those interested in joining the All-Volunteer 
Enlisted Force.
    In 2012, the average E5, with less than 6 years of service, earned 
$52,000 annually--including basic pay, basic allowance for housing, and 
basic allowance for subsistence but not including special and incentive 
pays or savings from commissary and TRICARE--which equaled the median 
U.S. household income.
    Under the President's budget, sailors will continue to receive a 
discount when using the commissary, and medical care will remain free 
for Active Duty members. Even by slowing the growth of basic pay, 
reducing the average commissary savings, and implementing new and 
higher TRICARE fees, Navy may likely remain an attractive employment 
option.
    There are many factors that effect a sailor's decisions about 
joining and remaining in the Navy; including service to country, pay 
and compensation, retirement, education, family obligations, and 
civilian employment opportunities. History has shown that each 
generation will ebb and flow with the economy's changes, and while our 
current sailors are braced for impact, they are not excited about them. 
Sailors understand these changes are necessary to sustain our Navy, and 
our Navy's future generations. The reality is it will be very difficult 
to predict how these pay and compensation changes will affect our 
sailors; we don't know how these changes will impact the retention and 
recruitment of our All-Volunteer Enlisted Force.
    I am, however, certain of this: changes to pay and compensation 
will not likely have a positive effect on our current Force. More than 
likely, these changes will have some degree of a negative impact, but 
there is always a possibility the changes could have no impact at all, 
especially for newly enlisted sailors who have not yet had to 
experience any sort of change.
    It is understood that Navy assumes risk with these budgetary 
changes, and while they are necessary to better-balance sailors' needs, 
they will also ensure our Navy remains forward and ready--where it 
matters, when it matters.
    Sergeant Major Cody. The Air Force continues to experience strong 
retention, which demands force management programs to keep the force 
within the fiscal year 2015 President's budget end strength. However, 
we continue to also experience manning and retention problems in 
certain career fields, such as cyber, intelligence, Special Operations 
Forces, and battlefield airmen, and thus investment in special and 
incentives pays is essential to retain airmen with the proper skill and 
experience levels to protect warfighting capability. As we move forward 
with these necessary compensation reforms, we will continue to monitor 
recruiting and retention trends and employ special and incentive pays, 
as needed. Ensuring our airmen have the best training and equipment is 
critical to our readiness and also impacts retention. As the Chairman 
of the Joint Chiefs stated on the record, ``today's readiness problem 
will become tomorrow's retention problem.''
    Sergeant Major Barrett. The compensation proposals put forward by 
the President slow the growth in military compensation in order to 
strike a balance between personnel costs, training, and modernization 
that protects readiness. This balance will preserve the quality of our 
All-Volunteer Force while ensuring readiness to execute the President's 
Defense Strategic Guidance. Our ability to recruit and retain the best 
of American youth into the military is paramount to sustaining the All-
Volunteer Force. We closely monitor our recruiting and retention 
numbers. If they begin to deteriorate, then these proposals can be 
reversed. Basic pay raises and housing allowances are foundational 
elements of pay that are reviewed annually to ensure our military pay 
is where it needs to be.

    11. Senator Graham. Sergeant Major Chandler, Master Chief Petty 
Officer Stevens, Chief Master Sergeant Cody, and Sergeant Major 
Barrett, what will be the impact on purchasing power of young enlisted 
members (E-1 to E-4) and their families if the President's proposals 
become law?
    Sergeant Major Chandler. Since 2000, military pay has outpaced 
inflation by approximate 18 percent and while we cannot accurately 
predict future inflation, slowing the growth of military pay raises 
will have an impact on the purchasing power of servicemembers. However, 
we are confident that if the proposal becomes law, the pay of young 
enlisted members will still exceed the pay of 90 percent of private 
sector workers of similar age and education level for many years.
    Chief Petty Officer Stevens. Compensation and impact will vary 
according to occupation, pace of promotion (i.e., in the early years of 
military service, servicemembers promote frequently and enjoy pay 
raises), number of dependents, pay grade, years of service and duty 
location, as well as commissary and TRICARE utilization rates. Tables 
below illustrate the estimated future purchasing power for two sailors, 
a married E-2 with less than 2 years of service, in San Diego; and a 
married E-4 with one child and 3 to 4 years of service in Norfolk. Both 
assume 100 percent of grocery shopping is done at a commissary and 
average TRICARE utilization. While no sailor will experience a decrease 
in pay and allowances, estimated purchasing power will decrease to 
about 95 percent of current values by fiscal year 2019, should all 
fiscal year 2015 reforms be fully implemented. In fiscal year 2015, 
over 98 percent of current purchasing power would be retained. It is 
also important to note individual servicemembers would continue to see 
increases in purchasing power as they received promotions and increased 
in years of service, but those purchasing power increases would be 
slower than they would have been under current policies.
      
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
      
    Sergeant Major Cody. All of our airmen's purchasing power could be 
impacted with these reforms as we are slowing the growth of increases 
to basic pay and basic allowance for housing, thus it is important for 
our airmen to make informed and prudent financial decisions. An E-3 
with dependents made $43,000 in direct pay (basic pay, basic allowance 
for housing, and basic allowance for subsistence) in 2013. In 10 years, 
the same E-3's salary is projected to grow to $58,000. Under the new 
proposals, it will still grow to $56,000. Additionally, in 2001 the 
U.S. median annual household income was $42,000. This equated to the 
direct pay of an average E7. Today, the median annual household income 
is $52,000, roughly what an average E-5 makes in a year. I would also 
note that all airmen still have rate protection with regard to the 
basic allowance for housing. Concerning reductions in commissary 
savings, Defense Commissary Agency should strive for efficiencies to 
lower costs and perhaps changes in law could allow commissaries to 
function more like exchanges.
    Below is an estimate on the impact of the President's budget for 
fiscal year 2015 reforms on an E-3/E-4 with and without dependents. 
Without the President's budget for fiscal year 2015 proposals, we 
expect the basic pay, basic allowance for housing, and basic allowance 
for subsistence of an E-3 without dependents to grow from $3,265/month 
today to $3,502/month in 2017, an increase of $237/month. By including 
the President's budget for fiscal year 2015 proposals for basic 
allowance for housing and TRICARE, the actual pay of an E-3 without 
dependents would only grow to $3,429/month in 2017, still an increase 
of $164/month. Furthermore, assuming the E-3 shops in the commissary 80 
percent of the time, the member would realize $67/month less in 
commissary savings by 2017. Thus, even with the $140/month reductions 
from the President's budget for fiscal year 2015 reforms, the E-3 
without dependents would still see an effective pay increase of $97/
month by 2017.
    Similarly for an E-3 with dependents, we expect the basic pay, 
basic allowance for housing, and basic allowance for subsistence of an 
E-3 without dependents to grow from $3,563/month today to $3,839/month 
in 2017, an increase of $276/month. By including the President's budget 
for fiscal year 2015 proposals for basic allowance for housing and 
TRICARE, the actual pay of an E-3 with dependents would only grow to 
$3,739/month in 2017, still an increase of $176/month. Furthermore, 
assuming the E-3 shops in the commissary 80 percent of the time, the 
member would realize $124/month less in commissary savings by 2017. 
Thus, even with the $224/month reductions from the President's budget 
for fiscal year 2015 reforms, the E-3 with dependents would still see 
an effective pay increase of $52/month by 2017.
      
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
      
    Sergeant Major Barrett. If the President's phased-in compensation 
proposals become law, marines will still continue to see an increase in 
their direct pay on their Leave and Earnings Statement every year. 
Overall, marines will continue to receive a pay and benefits package 
that compares very favorably to private-sector compensation. For 
example:
    A Marine lance corporal (pay grade E-3) with military dependents 
made approximately $43,000 in direct pay (basic pay, housing, and food 
allowances) in 2013. In 10 years, his annual direct pay is projected to 
grow to approximately $58,000. If President's proposals are adopted, 
his annual direct pay will grow to approximately $56,000.
    It is noteworthy that 75 percent of enlisted marines in the pay 
grades E-1 through E-4 have no military dependents; of the 25 percent 
with military dependents, the average number of dependents is 1.4.

                integrated disability evaluation system
    12. Senator Graham. Lieutenant General Bromberg, data from the end 
of February 2014 show numerous unresolved Integrated Disability 
Evaluation System (IDES) cases where servicemembers were on Active Duty 
in the disability evaluation system anywhere from 488 days to 1,287 
days. What is the Army doing to resolve this problem?
    Lieutenant General Bromberg. Of the 15,718 Active component 
soldiers enrolled in IDES as of 4 May 2014, 542 (3.4 percent) have been 
enrolled in IDES more than 500 days. Of these cases, only 135 (.08 
percent) have not been approved; the remainder involve soldiers 
transitioning from the Army or waiting for VA benefits.
    The significant disparity in the age of some cases is attributed to 
the unique nature of each case. The Army strives to treat every soldier 
fairly as they move through the DES process. Some soldiers develop 
complications after entering the DES process, but rather than 
administratively restarting their case to make statistics look better, 
the Army often keeps the soldier enrolled to ensure constant visibility 
of the case. Soldiers also impact their own timelines based upon the 
due process rights they exercise. The Army will never interfere with a 
soldier's right to due process and affords soldiers every regulatory 
and statutory element of due process required, regardless of the impact 
on timeliness. The joint DOD/VA metrics properly allow for the special 
circumstances described above by measuring the percentage of cases 
meeting established timelines. We believe we will be processing cases 
on all soldiers within DOD goals by March 2015.

                   temporary disability retired list
    13. Senator Graham. Lieutenant General Bromberg, Vice Admiral 
Moran, Lieutenant General Cox, and Lieutenant General Milstead, the 
Temporary Disability Retired List (TDRL) is a list of servicemembers 
found to be unfit for military duty because of a physical disability 
that may be permanent. Servicemembers can remain on this list for up to 
5 years. At any point during that time, they may be retired for 
permanent disability, separated with severance pay, or returned to 
Active Duty. What percentage of your servicemembers on the TDRL 
actually return to Active Duty?
    Lieutenant General Bromberg. Fewer than 1 percent of the soldiers 
removed from the TDRL in the past 12 months were found fit and were 
eligible to return to Active Duty. Specifically, 22 of 2968 (0.07 
percent) were found fit. Of those 22, only 13 actually returned to the 
Force, representing .04 percent of those removed from TDRL.
    Vice Admiral Moran. For fiscal years 2012 through 2013, no 
servicemembers on the TDRL who were subsequently found physically fit 
returned to Active Duty.
    Lieutenant General Cox. The IDES disability quarterly and annual 
reviews present Military Department performance based on data submitted 
by the Military Departments. These reports show the current rate of 
airmen on the TDRL who are returned to Active Duty is less than 1 
percent.
    Lieutenant General Milstead. On average, only two marines return to 
Active Duty each year from the TDRL, or about .06 percent (.0006) of 
the total TDRL population. To date in fiscal year 2014, no marines have 
returned to Active Duty.

    14. Senator Graham. Lieutenant General Bromberg, Vice Admiral 
Moran, Lieutenant General Cox, and Lieutenant General Milstead, is it 
time to reevaluate the need for the TDRL?
    Lieutenant General Bromberg. Yes, the Army believes it is time to 
reevaluate the need for the TDRL with the intent to eliminate the TDRL 
process, given that only approximately 1 percent of soldiers who are 
placed on TDRL are later found fit and eligible to return to Active 
Duty, and many of them opt not to do so.
    Vice Admiral Moran. Yes, it would be appropriate to reevaluate the 
TDRL program as it currently exists in order to validate the TDRL 
program supports the fair and timely processing of our wounded, ill, 
and injured marines and sailors within a modernized Disability 
Evaluation System. Historically, being on the TDRL also arguably limits 
members' ability to move forward with their lives, often leading to a 
greater sense of confusion and uncertainty and contributing to overall 
dissatisfaction. Each Service has the mechanisms within their accession 
programs to consider previously unfitting conditions and, if 
appropriate, return the veteran to Active Duty. This means the original 
intent of the TDRL program can be fulfilled via other existing programs 
and policies for those few who seek return to Active Duty from a 
separated or retired status. At a minimum, we concur with 
recommendation from the DOD Recovering Warrior Task Force in their 
2012-2013 Annual Report to eliminate the TDRL. Experience across all 
Services over many decades shows the TDRL program does not achieve its 
intended purposes, is expensive, and is difficult to operate. Given the 
low number of temporary retirees who return to the military, and the 
high proportion who eventually become eligible to receive permanent 
military disability retirement benefits, Congress may wish to consider 
cessation of this program.
    Lieutenant General Cox. Yes, reevaluation of the TDRL is needed 
and, in January 2014, we began doing so. Following recommendations from 
the Government Accountability Office (GAO) report,* our Air Force 
Warrior Care Policy team is championing a deep dive analysis of TDRL 
legislations, policies, and procedures. Their analysis is on track to 
conclude by the end of this year. Under the guidance of the Under 
Secretary of Defense for Personnel and Readiness, the Deputy Assistant 
Secretary of Defense for Warrior Care Policy led a task force of senior 
leaders from the VA, Military Departments, Joint Staff, and the Office 
of the Secretary of Defense to consider specific ways to improve the 
DOD disability process.
---------------------------------------------------------------------------
    * GA0-09-189, Military Disability Retirement, Closer Monitoring 
Would Improve the Temporary Retirement Process, April 2009 and the 
April 2013 TDRL Air Force Audit Report (F2013-0007-040000)
---------------------------------------------------------------------------
    Lieutenant General Milstead. Yes, it is a good time to reevaluate 
the need for the TDRL, as the return to Active Duty rates are extremely 
small. The TDRL program is very resource-intensive to manage and very 
inconvenient for the marine veteran in regard to travel and 
reexamination requirements. We need to better leverage more local and 
convenient VA facilities and/or contractors vice making these veterans 
travel hundreds and sometimes thousands of miles to military medical 
facilities for their reexaminations. Ceasing TDRL altogether may result 
in some veterans receiving permanent disability retirement and they and 
their family members receiving lifetime medical benefits who would not 
be eligible under current constructs, so a thorough cost-benefit 
analysis should be part of this evaluation.

                           mental health care
    15. Senator Graham. Lieutenant General Bromberg, Vice Admiral 
Moran, Lieutenant General Cox, and Lieutenant General Milstead, what 
efforts are you making to destigmatize mental health care in your 
Service?
    Lieutenant General Bromberg. The Army is decreasing the stigma 
associated with seeking behavioral health care through the continued 
establishment of its Behavioral Health Service Line. This effort has 
standardized our behavioral health system of care to identify, prevent, 
treat, and track behavioral health issues affecting soldiers and 
beneficiaries.
    Soldiers and family members are accessing behavioral health care 
much more frequently than at any time in the past, and far more are 
accessing outpatient behavioral health services to receive care earlier 
and more frequently. The number of behavioral health encounters across 
the Army increased from 991,655 in fiscal year 2007 to 1,899,660 in 
fiscal year 2013, a 91.5 percent increase. In addition, soldiers 
required approximately 25,000 fewer inpatient psychiatric bed-days over 
the same time period. These improved outcomes drive increased 
acceptability of the value of behavioral health care, driving down 
stigma, resulting in more soldiers willing to engage in an episode of 
care.
    Through efforts such as the establishment of Embedded Behavioral 
Health clinics in brigade footprints or by placing behavioral health 
providers in schools on Army installations, the Army continues to take 
steps to make care more accessible to its beneficiaries. Army Medicine 
believes that it is more successfully linking those who need behavioral 
health care with those who can provide it, and the increased 
utilization is a reflection of this.
    Vice Admiral Moran. Mental health providers are now integrated into 
a variety of operational units. These embedded assets work to maintain 
the psychological health of their units from within, and by virtue of 
their close working relationship with the operational forces, they are 
able to normalize the provision of care and create a culture that 
encourages seeking help in order to foster resilience and recovery. 
Similarly, the Behavioral Health Integration Program (BHIP) integrates 
behavioral health providers into the primary care setting. By 
addressing mental health concerns in this environment, the stigma 
associated with seeking mental health care can be decreased and the 
benefits of care can be enhanced.
    One new initiative we are launching is the Deployed Resiliency 
Counselors (DRC). These Fleet and Family Support Center counselors will 
be initially assigned aboard our aircraft carriers and large deck 
amphibious assault ships. These civilian licensed counselors will be 
deployed to support our sailors and improve resilience. Much like the 
BHIP, expanding availability of counseling services to settings other 
than traditional mental health should continue to reduce negative 
perceptions and related barriers to care.
    When Active Duty servicemembers receive mental health care, 
providers follow the presumption that they are not to notify a 
servicemember's commander unless this presumption is overcome by 
specific circumstances. These exceptions to confidentiality relate 
specifically to risk of harm to self or others, or to the 
servicemember's performance of duty. Even when information must be 
disclosed to a commander, providers are required to disclose the 
minimum amount of information necessary to satisfy the purpose of the 
disclosure (DOD Instruction 6490.08).
    Strategic health communications are a vital part of Navy's Suicide 
Prevention Program to encourage help-seeking behavior as a sign of 
strength and to counter prevailing negative perceptions regarding 
mental health and stress-related issues. Messaging campaigns are used 
to promote comprehensive wellness, empower self-efficacy, build 
community support, and champion bystander intervention; thereby, 
addressing the entire stress continuum. Ongoing messaging, such as ACT 
(Ask-Care-Treat), has proven effective in helping bystanders identify 
and intervene when sailors experience crises. Other recent messaging 
campaigns, such as NavyTHRIVE, promote comprehensive wellness and a 
sense-of-community to encourage healthy stress navigation before crises 
occur. Our branded communications portfolio includes products suicide 
prevention coordinators employ at the deck plate, e.g., LifeLink 
Newsletter, as well as a robust social media and online presence that 
help drive daily conversation among commands and families about stress 
navigation and prevention. Additionally, the program leads Navy's 
annual Suicide Prevention Month, using the month of September, each 
year, as an opportunity to launch the following year's ongoing 
communications themes to promote engagement at the deck plate.
    The Operational Stress Control program is the foundation of Navy 
efforts to build and maintain resilience in sailors and commands. We 
encourage proactive measures that sailors, leaders, and families can 
take to mitigate stressors before they become crises, while identifying 
those who may be reacting to stress and who need assistance. Beginning 
this year, Navy has required commands to complete Operational Stress 
Control skills-training within 6 months of deployment. Navy Mobile 
Training Teams travel to commands around the world facilitating unit 
training in small groups, providing venues for extensive dialogue with 
command leadership to build sailor resilience and unit readiness.
    Lieutenant General Cox. The Air Force works diligently to reduce 
barriers to mental health care wherever it can, to include reducing the 
perception of stigma. Many of our programs and training include anti-
stigma messages. Examples include initial and annual suicide prevention 
training, Frontline Supervisor Training, and semiannual Wingman Day 
materials. The published Air Force Strategic Communication Plan 
includes Public Service Announcements, media reporting guidelines, 
leadership talking points, and post-suicide guidance for commanders, 
all of which emphasize the importance of early help-seeking. In 
addition, the Air Force's Limited Privilege Suicide Prevention Program 
affords increased confidentiality for airmen under investigation while 
they are seeking mental health care. Stigma is difficult to measure, 
but we have a number of indications that it is reducing. For example, 
the biennial Community Assessment Survey shows positive trends on 
responses to questions about mental health stigma. The number of mental 
health visits to Air Force clinics is gradually increasing, indicating 
the majority of airmen are not being hindered by potential concerns 
with stigma. We know from studies of Air Force mental health patients 
voluntarily seeking care, that only a small minority had negative 
career impact and airmen seeking care and staying in the Service serves 
as a positive example reinforcing that behavior for other airmen. As a 
concrete example, we know that approximately 75 percent of airmen 
diagnosed with post-traumatic stress disorder are retained in the 
Service. Many airmen and family members make the decision to seek care 
in dedicated mental health clinics, but lower stigma options are 
available such as the Behavioral Health Optimization Program, where 
mental health providers are integrated into primary care clinics.
    Lieutenant General Milstead. Outreach is our main effort to 
destigmatize mental/behavioral health care. Our strategic communication 
efforts include messaging that asking for help is a sign of strength, 
not weakness. The Marine Corps has bolstered these efforts through the 
implementation of BH360, a bi-monthly newsletter, and Marine Awareness 
and Prevention Integrated Training (MAPIT). BH360 provides actionable 
behavioral health information to general officers, Senior Executive 
Service leaders, commanders, and senior enlisted. This publication 
assists in setting a positive command climate by informing leaders of 
the programs available and reinforcing our message, that encourages 
those in need to seek help and for our leaders to support/promote this 
help-seeking behavior. Our destigmatizing message is interwoven 
throughout the MAPIT curriculum and increases personnel and unit 
readiness through dissemination of standardized behavioral health 
information and training related to common risk and protective factors 
across the behavioral health continuum.
    In addition, both Never Leave a Marine Behind (NLMB) suicide 
prevention training and Operational Stress Control and Readiness 
(OSCAR) training combat stigmas by leveraging peer support to normalize 
help-seeking behavior. NLMB and is mandatory training for all of our 
marines and attached sailors and seeks to dispel misperceptions that 
seeking behavioral health care will jeopardize a military career. OSCAR 
training provides skills and tools to identify and mitigate negative 
stress reactions. OSCAR Teams act as sensors for the commander by 
noticing small changes in behavior and taking action early before 
stress becomes a medical issue. By changing social norms and common 
beliefs, OSCAR Team Members help reduce stigma associated with 
behavioral health treatment, which improves referral, rapid case 
identification, and treatment.
    The Marine Corps also supports multiple stigma reduction DOD 
working groups. The charter of these groups is to develop and improve 
policies that impact barriers to seeking help for behavior health 
issues.

    16. Senator Graham. Lieutenant General Bromberg, Vice Admiral 
Moran, Lieutenant General Cox, and Lieutenant General Milstead, how is 
your Service making servicemembers and their families more resilient to 
the unique stressors they face every day?
    Lieutenant General Bromberg. In March 2013, the Army implemented 
the Ready and Resilient Campaign as a platform to address the 
resiliency needs of the Force. This initiative connects resilience to 
readiness, as the individual and collective resilience of team members 
and the team can either favorably or adversely impact mission 
readiness. The Army's approach focuses on building the personal 
resilience of its members as an enabler to achieving enhanced 
performance; resulting in increased readiness of the member, their 
unit, and the Total Army. This outcome will be achieved through 
deliberate processes that will produce an enduring cultural change and 
yield an Army environment that supports and develops its members to 
perform at their optimum level on a daily basis, and enables them to 
recover and grow from adversities.
    Vice Admiral Moran. Navy has a full spectrum of programs to prepare 
sailors and families to face the unique challenges of a military 
lifestyle, maintain force resiliency, and reinforce unit readiness. 
They are critical to mission readiness and the Navy's 21st century 
sailor initiative by assisting commanding officers, sailors, and their 
families manage the demands of military life. Whether it is programs 
that assist with relocation of duty stations, stress management, 
prevention of sexual assault and domestic violence, developing personal 
skills, emergency preparedness, how to get a job in the civilian 
community, enjoy surroundings, or enhance physical condition, the Navy 
provides access to tools ashore and when deployed to build and sustain 
resiliency throughout and after Active Duty. Some specific examples 
include:

        - The Operational Stress Control Program is the foundation of 
        Navy efforts to build and maintain resilience in our sailors 
        and commands. It facilitates understanding of operational and 
        personal stress, promotes awareness of available resources, and 
        provides practical mitigation tools. The program encourages 
        proactive measures designed to mitigate stressors before they 
        become crises, facilitate the early recognition of potential 
        problems, reduce stigma associated with seeking psychological 
        care, encourage prompt treatment, and enhance the professional 
        empathy of leaders. This year, Navy has begun requiring 
        commands to complete Operational Stress Control skills training 
        within 6 months of deployment. Navy Mobile Training Teams 
        travel to commands around the world facilitating unit training 
        in small groups providing venues for extensive dialogue with 
        command leadership to build sailor resilience and unit 
        readiness.
        - Our Suicide Prevention Program promotes bystander 
        intervention as a critical element of sailors taking care of 
        sailors while our consistent messaging of ACT (Ask-Care-Treat) 
        has proven to be effective in identifying sailors that need 
        assistance before minor stressors become major crises.

    While our efforts focus on actions left of the event, post-vention 
is a critical component of providing psychological first-aid support to 
commands that have experienced stressful operations or events, such as:

        - In fiscal year 2013, the NavyTHRIVE communications campaign 
        was launched, focusing on providing sailors, leaders, and 
        families with the tools to empower individuals to not only take 
        advantage of support networks, but promote personal growth 
        through self-sustainment and community. The 2013 Suicide 
        Prevention Month theme, Thrive In Your Community, focused on 
        emphasizing the importance of cohesion and togetherness when 
        dealing with adversity. NavyTHRIVE will continue through this 
        fiscal year, focusing on supporting sailors through transition 
        periods.
        - We are assigning DRCs aboard our aircraft carriers and large 
        deck amphibious assault ships. The civilian licensed clinicians 
        will work with ships' medical officers, chaplains, and 
        leadership in support of our sailors. Of the initial 21 
        planned, 10 have been selected to serve on U.S. and overseas-
        based ships. DRCs can provide early intervention and counseling 
        to minimize the need for more intensive behavioral health 
        treatment. Counseling and support services provided by the DRCs 
        are preventive in nature, aimed at addressing life challenges, 
        such as adjustment to deployments, separation from friends and 
        family, relationship and family issues, and other challenges to 
        military life. The DRCs are also fully trained to provide an 
        extra layer of support to any victims of sexual assault and 
        domestic violence, ensuring that there are no gaps in support 
        services. DRCs will also provide psycho-educational training on 
        topics like suicide prevention, stress reduction, and substance 
        abuse prevention.
        - To support our wounded warriors and their families, our Navy 
        Wounded Warrior-Safe Harbor (NWW) program coordinates the non-
        medical care of seriously wounded, ill, and injured sailors, 
        coastguardsman, and their families. NWW's goal is to return 
        sailors to Active Duty and, when not possible, work 
        collaboratively with Federal and nongovernmental agencies, 
        including the VA, and State and local organizations, to ensure 
        successful reintegration of sailors back into their 
        communities. NWW extends support beyond separation or 
        retirement from the Navy through the Anchor Program, a 
        partnership with the Navy Reserve and Navy retiree volunteers 
        who provide mentorship support during reintegration to the 
        community.
        - The Navy offers a wide array of fitness and recreational 
        activities to sailors and family members that assist with their 
        physical and mental well-being. Even during deployments, ship-
        board personnel have access to fitness equipment and 
        recreational gear to assist with confronting the rigors of 
        deployment.

    Lieutenant General Cox. The Air Force has adopted and is promoting 
a holistic approach to teach and educate Air Force personnel and their 
family members Comprehensive Airman Fitness (CAF). CAF's mission is to 
build, promote, and sustain a thriving and resilient community living 
healthy lifestyles by practicing positive mental, physical, social, and 
spiritual fitness. The Air Force is teaching Master Resilience Trainers 
(MRT) skills and tools that can help individuals cope and potentially 
thrive through life stressors. In turn, MRTs are teaching and 
facilitating resilient skill events to Air Force personnel and family 
members, thus creating a resilient culture of airmen taking care of 
airmen.
    Lieutenant General Milstead. The Marine Corps has implemented 
numerous programs to address resiliency. In particular, our Community 
Counseling and Prevention (CCP) program specifically addresses 
behavioral health risk factors impacting our marines and their 
families. The program leverages the subject matter expertise of 
Community Counseling, Suicide Prevention and Response, and Combat and 
Operational Stress Control (COSC). Primary efforts are focused on 
enhancing protective factors of individual marines and their families 
with short-term, solution-focused care and case management. In 
addition, we instituted a Marine Expeditionary Forces (MEF) prevention 
capability that provides prevention capabilities to the MEFs and Major 
Subordinate Commands to oversee execution of all behavioral health 
prevention education initiatives. Complementing this effort, our 
Military Family Life Consultant Program, comprised of 262 licensed 
counselors embedded in 120 units, provides dedicated personnel to 
identify need; increase awareness, outreach, and referral; and also 
provide limited counseling. Training programs, such as OSCAR and NLMB, 
offer skills to prevent/mitigate stress injuries, additionally the 
DSTRESS Line provides a direct 24-hours-a-day link for marines to speak 
to `one of their own' about everyday stress or heavier life burdens.
    Due to the overwhelming positive response received from marines 
regarding OSCAR training, there was a high demand from family members 
for the Marine Corps to provide similar trainings specific to their 
needs and stress. Conquering Stress with Strength (a.k.a. COSC for 
Families) is a workshop that helps apply practical techniques to manage 
personal stress responses and to apply problem-solving methods to 
action in situations involving high-risk behaviors. This workshop is a 
family-focused workshop that addresses managing reactions to high 
stress situations. It is scheduled for release summer 2014.
    The Marine Corps also provides family readiness officers to the 
battalions and squadrons that provide an information and referral 
source for unit members.

    17. Senator Graham. Lieutenant General Bromberg, Vice Admiral 
Moran, Lieutenant General Cox, and Lieutenant General Milstead, does 
your Service have enough behavioral health providers (psychiatrists, 
psychologists, social workers, mental health nurses, mental health 
nurse practitioners, and other licensed mental health providers) to 
ensure that servicemembers and their families can get timely mental 
health care when they need it? Please provide a table that shows your 
total requirements, authorizations, and current end strengths.
    Lieutenant General Bromberg. As of 31 March 2014, the Army had 
5,275 behavioral health providers. The Army's current requirement is 
5,665 personnel, including professional providers and behavioral health 
technicians. This number represents all missions that behavioral health 
providers support, to include research, education, and prevention, as 
well as clinical service delivery. We expect that the requirements for 
providers will evolve as the needs of Army beneficiaries change.
    Specific to clinical service delivery, the Behavioral Health 
Service Line Matrix resourcing tool reflects a provider requirement 
(psychiatrist, psychologist, and social worker only) of 1,793, and an 
on-hand number of approximately 1,902 providers documenting clinical 
care. The most recent analysis of workload data indicates a requirement 
for 2,029 providers, resulting in a current shortfall of 127 providers.
    U.S. Army Medical Command currently has 352 open hiring actions 
covering vacant positions for psychiatrists, psychologists, social 
workers, behavioral health nurses, behavioral health nurse 
practitioners, and behavioral health technicians/counselors.
    See tables below.
      
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
      
    Vice Admiral Moran. No, we are currently experiencing shortages 
among psychologists, psychiatrists, and social workers. Section 714(a) 
of the National Defense Authorization Act for Fiscal Year 2010 required 
the Military Departments to increase the number of authorizations for 
mental health professionals by 25 percent. Accordingly, Navy has 
increased authorizations over the past 4 years in several mental health 
specialties, such as social workers and clinical psychologists, but all 
of these positions are not yet encumbered.
    The following tables provide authorizations and current end 
strengths as of March 31, 2014.
      
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
      
    Mental health requirements are currently under a review and 
revalidation process through the Tri-service Mental Health DOD/VA 
committee utilizing the Psychological Health Risk-Adjusted Model for 
Staffing model. The validation of mental health requirements is a tri-
service initiative that is ongoing.
    Lieutenant General Cox. Current manning strength is adequate to 
meet the general mental health needs of airmen. We have filled 
approximately 97 percent of our authorized positions in mental health. 
Access to care data indicates the majority of patients receive care 
within access to care standards. Our recruiting and retention 
incentives helped psychologists reach a 94 percent manning level. 
Currently, a gap exists for generic mental health nurses; we are 
actively recruiting and training both generic and advanced practice 
psychiatric and mental health nurse practitioners. Finally, in spite of 
a nationwide shortage, 92 percent of our psychiatrist authorizations 
are filled. However, due to a national shortage of mental health 
providers, especially child psychologists and psychiatrists, access to 
certain services varies by location. For this reason, the Air Force's 
Exceptional Family Member Program seeks to assure assignment of airmen 
with special needs family members only to locations where necessary 
services are readily available. The table showing requirements, 
authorizations, and current end strength is shown below.
      
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
      
    Lieutenant General Milstead. The Marine Corps depends on the Navy 
for our health care providers. However, the Marine Corps has recently 
established community counseling services on installations worldwide to 
increase access to care and assist marines and their families in 
navigating the many support resources available. We also have 113 
community counselors who are licensed clinical providers, credentialed 
by the Marine Corps Credentialing Review Board, and provide evidence-
based client screening tools, assessments, and short-term, non-medical 
counseling; clinical case management to improve coordination of 
referrals to medical treatment facilities and specialty care 
appointments; and short-term, non-medical, counseling interventions for 
marines who have experienced military sexual trauma.
    See table below.
      
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    

    18. Senator Graham. Lieutenant General Bromberg, Vice Admiral 
Moran, Lieutenant General Cox, and Lieutenant General Milstead, do the 
Services need additional legislative authority to improve incentives 
for recruitment and retention of mental health professionals?
    Lieutenant General Bromberg. In reference to the recruitment and 
retention of military mental health professionals, section 335 of title 
37 (Pay and Allowances of the Uniformed Services-Special bonus and 
incentive pay authorities for officers in health professions) provides 
sufficient authorities for both accession and retention bonuses of 
mental health providers, assuming adequate funding. Additionally, the 
Army has developed training pipelines for all of our officer skills 
sets through the use of the Health Professions Scholarship Program and 
the Fayetteville State Cooperative Program.
    To assist the Army's efforts to recruit and retain critical 
civilian mental health professions, including psychologists and social 
worker, an extension of the direct hire appointment authority under 
title 5, subpart, section 337.202, for a 1-year period would allow the 
Army to immediately fill 164 critical positions. Additionally, direct 
hire appointment authority for a 3-year fiscal period beginning October 
1, 2014, would allow the Army to hire 265 behavioral health positions 
per year to replace anticipated losses based on our voluntary loss rate 
to the U.S. Army Medical Command.
    Vice Admiral Moran. We do not need additional authorities at this 
time, although extension of current health professions special and 
incentive pays, included in the administration's official legislative 
package, is imperative. We continue to evaluate the effectiveness of 
these authorities as we transition to the consolidated special and 
incentive pays enacted in the National Defense Authorization Act for 
Fiscal Year 2008. If additional or enhanced authorities are deemed 
necessary, we will include them in a future Defense Authorization 
Request.
    Lieutenant General Cox. Additional legislative authority is not 
required by the Air Force at this time. The Assistant Secretary of 
Defense for Health Affairs sets pay rates for Active Duty health 
professionals on an annual basis. Current incentives authorized under 
37 U.S.C. Chapter 5 are sufficient to recruit and retain the qualified 
mental health professionals needed at this time.
    Lieutenant General Milstead. The Marine Corps relies on the Navy 
for its mental health providers. We know that recruitment and retention 
of qualified mental health personnel pose a challenge. There are some 
regions where maintaining an adequate pool of one or another mental 
health skill set is problematic. Improving incentives would certainly 
help to improve manning goals, however, monetary compensation is not 
the only issue facing their recruitment and retention.

                 opening positions to women in services
    19. Senator Graham. Lieutenant General Bromberg, Vice Admiral 
Moran, Lieutenant General Cox, and Lieutenant General Milstead, who is 
the approval authority for opening positions to women in your Service 
to Special Operations Forces? Is it the Service or U.S. Special 
Operations Command (SOCOM)?
    Lieutenant General Bromberg. The Secretary of Defense is the 
approval authority for opening positions to women in Special Operation 
Forces. The Army and SOCOM are working together in a collaborative, 
coordinated manner regarding closed positions, units, and occupations 
within Special Operations. The Commander, SOCOM, submits all 
recommendations through the Army Chief of Staff and Secretary of the 
Army for concurrence of all requests to open U.S. Army SOCOM positions, 
units, and occupations prior to forwarding the request to the Secretary 
of Defense as the approval authority.
    Vice Admiral Moran. In reaching the decision to rescind the 1994 
Direct Ground Combat Definition and Assignment Rule, the Secretary of 
Defense endorsed the unanimous advice of the Joint Chiefs of Staff, 
which set forth the guiding principles, goals, and milestones to the 
successful integration of women in the remaining restricted 
occupational fields. That guidance recognized the unique relationship 
SOCOM maintains with the Services in understanding the operational 
environment and operational requirements needed to execute SOCOM 
missions. Specifically, the Chairman required ``the Services and SOCOM 
to proceed in a deliberate, measured, and responsible way to assign 
women to currently closed MOSs as the physical and operational 
assessments are completed.''
    To ensure the efficient integration of women in closed MOSs and 
units, the Services and SOCOM work collaboratively to proceed in a 
deliberate, measured, and responsible way to assign women. When a 
decision is made to notify Congress regarding DOD's intent to open a 
position, it is a Department-level decision informed by input from the 
Joint Chiefs of Staff, the Services, the Military Department 
Secretaries, SOCOM, and the Under Secretary of Defense for Personnel 
and Readiness.
    Lieutenant General Cox. The Secretary of Defense is the approval 
authority for the Services to open direct ground combat positions to 
women.
    Lieutenant General Milstead. To ensure the efficient integration of 
women in closed MOSs and units, the Services and SOCOM work 
collaboratively to proceed in a deliberate, measured, and responsible 
way to assign women. When a decision is made to notify Congress 
regarding DOD's intent to open a position, it is a Department-level 
decision informed by input from the Joint Chiefs of Staff, the 
Services, the Military Department Secretaries, SOCOM, and the Under 
Secretary of Defense for Personnel and Readiness.

    20. Senator Graham. Lieutenant General Bromberg, Vice Admiral 
Moran, Lieutenant General Cox, and Lieutenant General Milstead, what is 
your understanding of your Service and SOCOM's respective roles in the 
decision?
    Lieutenant General Bromberg. The Army and SOCOM are working 
together in a collaborative, coordinated manner regarding closed 
positions, units, and occupations within Special Operations. The 
Commander, SOCOM submits all recommendations through the Army Chief of 
Staff and Secretary of the Army for concurrence of all requests to open 
U.S. Army Special Operations Command positions, units, and occupations 
prior to forwarding the request to the Secretary of Defense as the 
approval authority.
    Vice Admiral Moran. Before recommending opening positions, Navy 
will work in parallel to submit a coordinated Service and SOCOM 
recommendation through the Assistant Secretary of Defense (Special 
Operations/Low-Intensity Conflict) for notification on Special Warfare/
Special Operations specialties. It will require synchronization by both 
parties as recommendations are inter-dependent and aimed at ensuring 
that the opening of occupations aligns with Chairman of the Joint 
Chiefs of Staff guiding principles.
    Lieutenant General Cox. Our Service and SOCOM are working together 
to ensure SOCOM's operational requirements and Air Force equities are 
fully captured in our recommendations to the Secretary of Defense to 
open our remaining male-only ground combat positions to women. 
Completing the standards validation studies and determining the timing 
to open the positions requires close coordination between the Air Force 
and SOCOM.
    Lieutenant General Milstead. In reaching the decision to rescind 
the 1994 Direct Ground Combat Definition and Assignment Rule, the 
Secretary of Defense endorsed the unanimous advice of the Joint Chiefs 
of Staff, which set forth the guiding principles, goals, and milestones 
to the successful integration of women in remaining restricted 
occupational fields. That guidance recognized the unique relationship 
SOCOM maintains with the Services in understanding the operational 
environment and operational requirements needed to execute SOCOM 
missions. Specifically, the Chairman required ``the Services and SOCOM 
to proceed in a deliberate, measured, and responsible way to assign 
women to currently closed MOSs as the physical and operational 
assessments are completed.''
    To ensure the efficient integration and assignment of women in 
previously closed MOSs and units, the Services and SOCOM will work 
collaboratively and proceed in a deliberate, measured, and responsible 
way to assign women.

                                 [all]
</pre></body></html>
